                        SIGTARP: Quarterly Report to Congress | January 26, 2012
                                                                                                            CT
                                                                                                       INSPE OR GE
                                                                                                AL                        N
                                                                                              CI




                                                                                                                          ER
                                                                                         E
                                                                                        SP




                                                                                                                             A L
                                                                                       TRO




                                                                                                                               M
                                                                                                                               RA
                                                                                        UB
                                                                                             LE




                                                                                                                          OG
                                                                                                  D
                                                                                                      ASS                 PR
                                                                                                            E T R ELIEF




SIGTARP
SIG-QR-12-01
                         Q1
                        2012
                                                                                   SIGTARP                                          Office of the Special Inspector General
                                                                                                                                    for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                Quarterly Report to Congress
SIGTARP@treasury.gov                                                                                                                                             January 26, 2012
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
Contents

Executive Summary	                                                          3
  Program Updates and Financial Overview	                                  12
  Oversight Activities of SIGTARP	                                         12
  SIGTARP Recommendations on the Operation of TARP	                        13
  Report Organization	                                                     14

Section 1
The Office of the Special Inspector General for the
Troubled Asset Relief Program	                                            15
  SIGTARP Creation and Statutory Authority	                               17
  SIGTARP Oversight Activities Since the October 2011 Quarterly Report	   18
  The SIGTARP Organization	                                               29

Section 2
TARP Overview	                                                             31
  TARP Funds Update	                                                       33
  Financial Overview of TARP	                                              36
  Housing Support Programs	                                                55
  Financial Institution Support Programs	                                  81
  Asset Support Programs	                                                 117
  Automotive Industry Support Programs	                                   134
  Executive Compensation	                                                 141

Section 3
TARP Operations and Administration	                                       143
  TARP Administrative and Program Expenditures	                           145
  Current Contractors and Financial Agents	                               147

Section 4
SIGTARP Recommendations	                                                  155
  Recommendations Regarding Executive Compensation	                       157
  Update on Recommendations Regarding Community Banks	                    159
  Update on Recommendation Regarding MHA Servicer Compliance	             161
  Recommendation Regarding Hardest Hit Fund Information Security	         163

  Endnotes	179
Appendices
A. 	 Glossary	199
B. 	 Acronyms and Abbreviations	                                     203
C. 	 Reporting Requirements	                                         206
D.	 Transaction Detail	                                              210
E. 	 Cross-Reference of Report to the Inspector General Act of 1978	 285
F. 	 Public Announcements of Audits	                                 286
G. 	 Key Oversight Reports and Testimony	                            287
H.	Correspondence	                                                   289
I. 	 Organizational Chart	                                           302
EXECUTIVE SUMMARY
4   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I January 26, 2012   5




SIGTARP recently marked its third anniversary as the watchdog over the Troubled
Asset Relief Program’s (“TARP”) unprecedented injection of more than $400
billion into the nation’s economy. SIGTARP has an unwavering commitment to
protect taxpayers who funded TARP. SIGTARP has conducted oversight of TARP
funds and has promoted transparency related to TARP through 13 quarterly reports
and 17 audits and evaluations. SIGTARP has issued 89 recommendations designed
to improve TARP programs and make them less susceptible to fraud, waste, and
abuse. SIGTARP has aggressively uncovered and stopped fraud related to TARP,
with investigations resulting in criminal convictions and prison sentences. We are
not slowing down, and SIGTARP will remain on watch as long as Treasury holds an
investment or guarantee under TARP.
     TARP will continue to exist for years. TARP programs that support the
housing market and certain securities markets are scheduled to last until
as late as 2017, and Treasury can spend an additional $51 billion on these
programs during those years. Taxpayers are still owed $132.9 billion in TARP
funds, and taxpayers will never get back some of these funds. Some programs
were designed as a Government subsidy with no return to taxpayers. Treasury
has already written off or realized losses of $12 billion and Treasury predicts
losses on other TARP investments. The Congressional Budget Office recently
increased its estimated cost of TARP to $34 billion. One fallout of slow
economic recovery is that it slows Treasury’s progress in recouping outstanding
TARP funds. Unwinding Treasury investments in 458 institutions, including
American International Group, Inc. (“AIG”), General Motors Corp. (“GM”),
Ally Financial Inc. (“Ally Financial”), and community banks, in the near term
could prove challenging as markets remain volatile and banks struggle to stay on
their feet. Financial stress continues to pose obstacles to economic recovery, in
part due to an 8.5% unemployment rate, decreased consumer confidence, non-
performing mortgages, and job cuts and asset sales by some of the nation’s largest
institutions.


SIGTARP Investigations
Fraud related to bailout funds has become the “next wave of financial fraud
cases” as predicted by FBI Director Robert Mueller, and SIGTARP is making
a difference in policing this fraud with criminal charges against 61 individuals.
SIGTARP has uncovered fraud that led to the collapse of institutions and involved
deception and greed by key insiders that pre-dated TARP and contributed to the
financial crisis. Financial fraud that leads to the downfall of an institution wreaks
havoc on communities. People who worked hard and played by the rules can no
longer obtain loans for homes, education, or small businesses. Employees of the
institution lose their jobs and investors are often wiped out.
    SIGTARP and its law enforcement partners are ensuring that justice is served.
SIGTARP actively supports the prosecution of individuals it investigates. Of the
61 individuals charged, 31 have been criminally convicted. Those convicted face
serious time in prison with 22 of these individuals sentenced to prison to date.
6   special inspector general I troubled asset relief program




                                           Results of SIGTARP’s notable investigations include:

                                           •	 T
                                               he most significant prosecution to date arising out of the financial crisis
                                              resulted in a prison sentence of 30 years for Lee Farkas, former chairman of
                                              Taylor, Bean & Whitaker (“TBW”); prison sentences ranging from 3 months to
                                              8 years for six co-conspirators at TBW and TARP-approved Colonial Bank; and
                                              court-ordered restitution of $3.5 billion, for an 8-year $2.9 billion fraud scheme
                                              that led to the failure of TBW and Colonial
                                           •	 A guilty plea by Mark Conner, former president of TARP applicant FirstCity
                                              Bank, for a multimillion dollar-bank fraud that took place in the years prior to
                                              the bank’s seizure by regulators – Conner faces a sentence of up to 12 years in
                                              prison
                                           •	 Prison sentences of 5 years, and 21 months, respectively, for two executives of
                                              failed TARP applicant Omni Bank for fraud that involved falsifying the bank’s
                                              books and records, and a 14-year prison sentence for an individual connected to
                                              the bank fraud
                                           •	 Prison sentences of 5 years, and 2 ½ years, respectively, for two executives at
                                              TARP applicant Orion Bank for fraud that involved falsifying the bank’s books
                                              and records and misleading regulators
                                           •	 Prison sentences of 11 years, and 5 years, respectively, for two executives
                                              of Mount Vernon Money Center who defrauded investors, including TARP
                                              recipient banks

                                               Along with prison time, SIGTARP and its law enforcement partners ensure
                                           that criminals pay for their crime through disgorgement of profits they reaped
                                           from their crimes and restitution to return victims’ hard-earned money. SIGTARP’s
                                           investigations have resulted in orders of restitution of $3.6 billion and orders of
                                           forfeiture of $126.8 million. While the ultimate recovery remains to be seen,
                                           SIGTARP has already assisted in the recovery of $151.5 million. SIGTARP also
                                           prevented $553 million in TARP funds from going out to Colonial Bank.
                                               This quarter, SIGTARP began taking a 360-degree approach to combating
                                           mortgage modification fraud, which the Better Business Bureau named as its 2011
                                           Top Financial Scam. SIGTARP investigations have resulted in criminal charges
                                           against 17 individuals who targeted homeowners seeking help under TARP’s Home
                                           Affordable Modification Program (“HAMP”). SIGTARP will continue to investigate
                                           those who defraud homeowners in connection with HAMP. This quarter SIGTARP
                                           also began doing everything it can to stop homeowners from becoming victims
                                           in the first place. SIGTARP learned that many victims were enticed by online
                                           search advertisements that promised, for a fee, to help lower mortgage payments
                                           through HAMP. SIGTARP worked with Google Inc. and Microsoft Corp. to shut
                                           down advertisements for 125 websites that bore the hallmarks of these scams and
                                           cease their relationships with hundreds of agents associated with these websites.
                                           SIGTARP’s actions will immediately and dramatically decrease the scope and scale
                                           of these scams. SIGTARP also spearheaded the formation of a joint task force
                                           with the Consumer Financial Protection Bureau and Treasury in December 2011
                                                                                        quarterly report to congress I January 26, 2012   7




to leverage resources to combat these scams and to issue a consumer fraud alert
(included on the inside back cover of this report) to empower homeowners with
knowledge to recognize and avoid these scams.
    SIGTARP is determined to build on the extraordinary record that we have
established over the last three years in protecting those we serve — American
taxpayers.


TARP: What Remains and When Will it End?
At the beginning of TARP, the Government’s focus was on supporting the largest
banks and the public perceived TARP as primarily a bank bailout. SIGTARP
recently reported on the Government’s efforts to exit the largest banks out of TARP
because of a desire to ramp back the Government’s stake in financial institutions.
When the largest banks repaid and exited TARP, the mistaken public perception
was that TARP was essentially over. TARP exit by the largest banks did not end
TARP. TARP morphed beyond a bank bailout into 13 programs, some of which are
scheduled to last until as late as 2017, as detailed in the table below.

TARP Program                                    Scheduled Program Dates
Term Asset-Backed Securities Loan Facility      2015 maturity of last loan
Public-Private Investment Program               2017 for fund managers to sell securities (with
                                                possibility to extend to 2019)
Home Affordable Modification Program            2017 for incentives on last modifications
Hardest Hit Fund                                2017 for states to use TARP funds


    Other programs have no scheduled end date. However, Treasury’s ownership
stake in financial institutions under these programs remains substantial as set forth
in the table below. Treasury may not be able to exit all of its investments in banks
and thrifts until the companies are strong enough to repay TARP. Treasury may
not be able to exit its investment in AIG or the auto industry until markets rebound
sufficiently for Treasury to sell its equity interests.

TARP Program                                    Remaining Treasury Investment
Capital Purchase Program                        Preferred stock in 371 banks with scheduled
                                                rise in TARP dividend rate to 9% beginning in
                                                2013
Systemically Significant Failing Institutions   77% stake in AIG
Automotive Industry Financing Program           32% stake in GM
                                                74% stake in Ally
Community Development Capital Initiative        Preferred stock in 84 banks/thrifts with
                                                scheduled rise in TARP dividend rate to 9% in
                                                2018


   Unwinding these investments is likely to take several years.
8   special inspector general I troubled asset relief program




                                           Unwinding TARP’s Largest Investments
                                           In October 2010, Treasury said, “We will also exit from government investments
                                           in AIG and the automotive industry much faster than anyone predicted.” Treasury
                                           announced its intent to sell common stock in AIG, GM, and Ally. Treasury has
                                           made progress in fully divesting its holdings in Chrysler Holding LLC and Chrysler
                                           Financial Services Americas LLC and selling 412.3 million shares of GM and
                                           200 million shares of AIG. Treasury reported in October 2011 that it estimates
                                           incurring a loss on its automotive investments and AIG, and that its investments in
                                           GM and AIG are highly sensitive to market conditions. Last month, CBO increased
                                           its estimated cost of TARP by $15 billion to $34 billion, due to a reduction in the
                                           market value of the investments in AIG and GM. Even though Treasury and CBO
                                           estimate a loss on these investments, we may not know for some time how much
                                           of a loss taxpayers will ultimately take. According to Treasury, it will need to sell its
                                           1.455 billion shares in AIG at a price of $28.73 a share for taxpayers to break even
                                           on the investment. AIG stock has been volatile with a high in 2011 of $61.18 per
                                           share on January 7, 2011, and a low of $20.07 on November 25, 2011. Treasury
                                           will need to sell its approximately 500 million shares in GM at $53.98 per share
                                           to break even on its principal investment. That break-even number decreases to
                                           $52.39 per share if dividends and interest received is included. GM stock has
                                           also been volatile with a high in 2011 of $38.98 on January 7, 2011, and a low of
                                           $19.05 on December 19, 2011. Ally is not currently public, so Treasury will need to
                                           participate in an IPO to sell its shares.
                                               Although Treasury’s complete plans for exiting these investments remain
                                           unclear, if Treasury’s plan is to sell this stock at or above the break-even price,
                                           it may take a significant amount of time for markets to rebound to that level.
                                           Market conditions have slowed Treasury’s progress. Treasury did not sell any of
                                           its shares in GM in 2011, or any of its shares in AIG in the latter half of 2011.
                                           Treasury has never sold its stock in Ally. This strategy is also heavily dependent on
                                           market demand for the enormity of Treasury’s stake, and it could take a number
                                           of years to reach that level of market demand. According to the Congressional
                                           Oversight Panel (“COP”), the GM IPO was the largest IPO in U.S. history, and
                                           Treasury holds more GM shares than it sold in that IPO. Even if Treasury is
                                           able to sell a significant amount of its Ally stock in an IPO, as reported by COP,
                                           Treasury expects that it is likely to take one to two years following the IPO to
                                           dispose completely of Treasury’s ownership stake. It may also take a significant
                                           amount of time for the market to be able to purchase Treasury’s 77% stake in
                                           AIG. Both COP and GAO have suggested that Treasury decide whether it should
                                           sell its stock in these companies below the break-even price. Although that
                                           would result in taxpayers getting out of these investments more quickly, it would
                                           decrease taxpayer return. In light of market conditions, Treasury should develop a
                                           concrete exit plan for each of these investments.
                                                                            quarterly report to congress I January 26, 2012   9




Community Banks in TARP
With 371 banks left in TARP, a clear and workable exit plan for community
banks is crucial to financial stability. There appears to be no concrete plan to
help struggling community banks other than approving 137 banks to exit TARP
through the Small Business Lending Fund. On a case-by-case basis, Treasury has
also sold its TARP investments (sometimes at a discount) or exchanged them for
stock with less priority. This has often taken place in connection with a merger,
acquisition, or other new capital investor. Last quarter, SIGTARP recommended
that Treasury develop a clear TARP exit path for community banks, in light of a
steep rise in the TARP dividend rate from 5% to 9% beginning in 2013. SIGTARP’s
recommendation was designed to allow for multiple strategies developed in
consultation with the banking regulators that could take into account different
categories of banks, for example, banks that are under regulatory orders to retain
capital and may only be able to repay TARP gradually. In response, Treasury hired
an investment advisory firm to “explore options for the management and ultimate
recovery of [its] remaining CPP investments.” Treasury’s next steps are critical.
Treasury must develop a workable plan in consultation with regulators and begin
executing that plan to remove uncertainty related to these banks.


TARP’s Housing Programs
Treasury’s housing programs have fallen short of expectations with only $3 billion
(6.6% of the $45.6 billion obligated) being spent. The 19 states participating
in the Hardest Hit Fund have until 2017 to spend $7.6 billion in TARP funds.
Although they have drawn down $722.2 million, much of those funds are cash
on hand, with only a limited portion used to assist homeowners. TARP’s signature
program HAMP continues to struggle to reach homeowners, with only 762,839
homeowners in permanent modifications under HAMP (363,031 funded by TARP)
versus 2.6 million private mortgage modifications. As homeowners are turned down
for HAMP, they turn to private loan modifications through their lender, which
are not as advantageous. Recent statistics reported by Treasury’s Office of the
Comptroller of the Currency (“OCC”) confirm that HAMP modifications reduce
monthly payments an average of 35.1%, more than twice the 17.5% reduction
in private modifications. OCC also found that a larger reduction in the monthly
payment leads to a greater likelihood that the homeowner will stay current on the
mortgage. OCC reported that 70.2% of homeowners under HAMP were current
on their mortgage versus 55% under private modification. It bears repeating
that improved servicer compliance and performance is key to HAMP reaching
the greatest number of homeowners. SIGTARP has long urged Treasury to get
tougher on servicers who stand in the way of homeowners getting much-needed
help. Last quarter, SIGTARP recommended that Treasury withhold, permanently
reduce, and claw back incentives for servicers who fail to perform at acceptable
levels. For three straight quarters, despite finding that the majority of its Top 10
servicers need substantial or moderate improvement, Treasury has only temporarily
10   special inspector general I troubled asset relief program




                                            withheld incentives. For the first time, Treasury announced in December 2011
                                            that it would permanently withhold incentives from JPMorgan Chase & Co. if it
                                            continues to perform poorly. JPMorgan Chase’s continued refusal to comply with
                                            program requirements is extremely troubling. Treasury’s willingness to take tougher
                                            action against a major servicer is a new and welcome development. Permanently
                                            withholding incentives from servicers, as recommended by SIGTARP, sends a
                                            strong signal to servicers that failure to perform at acceptable levels results in
                                            serious consequences. Treasury should use all of its financial remedies for all
                                            servicers, not just the Top 10 that fail to comply with program rules. Treasury
                                            should also issue the same warning to Bank of America, which still has not fixed
                                            deficiencies previously found by Treasury. In the midst of a housing crisis, servicers’
                                            failure to comply with program rules is an obstacle to homeowners getting the help
                                            they need from TARP, and Treasury must do everything it can do to remove that
                                            obstacle.


                                            Continued Concerns over
                                            Executive Compensation
                                            This month, SIGTARP published a report examining executive compensation
                                            determinations made by the Office of the Special Master for TARP Compensation
                                            (“OSM”) for the Top 25 employees at seven companies receiving exceptional
                                            assistance under TARP – AIG, GM, Ally, Chrysler, Chrysler Financial, Bank of
                                            America, and Citigroup. The report details SIGTARP’s finding that former Special
                                            Master Kenneth Feinberg could not effectively rein in excessive compensation at
                                            these companies because he was under the constraint that his most important goal
                                            was to get the companies to repay TARP. Although the Special Master generally
                                            limited cash compensation and made some reductions in pay, he still approved
                                            multi-million dollar pay packages of cash and stock. Given OSM’s overriding goal,
                                            the companies had significant leverage over OSM by proposing and negotiating for
                                            excessive pay packages based on historical pay, warning that if OSM did not provide
                                            competitive pay packages, top officials would leave and go elsewhere.
                                                In proposing high pay packages based on historical pay prior to their bailout,
                                            these companies failed to take into account the exceptional situation they had
                                            gotten themselves into that precipitated taxpayer bailouts. Rather than view their
                                            circumstances through the lens of partial Government ownership, the companies
                                            argued that proposed pay was necessary to retain or attract employees who were
                                            crucial to the company. Similar arguments were repeated recently in justifying
                                            millions in bonuses to executives of Fannie Mae and Freddie Mac. AIG’s proposed
                                            pay for its Top 25 employees did not reflect in any way its unprecedented taxpayer
                                            bailout and the fact that taxpayers owned a majority of the company. In 2009,
                                            AIG wanted cash salary raises ranging from 20% to 129% for one group of Top
                                            25 employees and raises ranging from 84% to 550% for another group. Some
                                            of these AIG employees would also be paid millions in retention or other cash
                                            awards. The companies also proposed cash salaries for their top employees in
                                                                              quarterly report to congress I January 26, 2012   11




excess of the $500,000 “prescription” developed by OSM. Ally CEO Michael
Carpenter told SIGTARP, “We had an individual who was making $1.5 million
total compensation with $1 million in cash. Cutting this person’s salary to
$500,000 cash resulted in the person being cash poor. This individual is in their
early 40s, with two kids in private school, who is now considered cash poor…. We
were concerned that these people would not meet their monthly expenses due
to the reduction in cash.” OSM’s work had little effect on Citigroup and Bank of
America, which quickly exited TARP in part to avoid OSM’s restrictions. Once out
of TARP, salaries and bonuses climbed. Only AIG, GM, and Ally remain under
OSM’s oversight, and CEOs at AIG and GM told SIGTARP that they would not
maintain OSM’s practices once their company exits TARP.
    While historically the Government has not been involved in pay decisions at
private companies, one lesson of the financial crisis is that regulators should take
an active role in monitoring and regulating factors that could contribute to another
financial crisis. Treasury Secretary Timothy F. Geithner testified before COP
that executive compensation played a material role in causing the financial crisis
because it encouraged excessive risk taking. Some compensation structures that
have raised concerns include individual compensation, such as guaranteed bonuses
and retention payments, that are not tied to long-term company performance
metrics. In addition, compensation in stock that vests after a short number of years
may not be based on enough years for risks to mature. Incentive compensation
based on stock price or profit may encourage risk taking in the short term, as
opposed to closely aligning pay with the company’s long-term value, risks, safety,
and soundness.
    There has been little fundamental change in the compensation structures at
the largest institutions. The integrity of our financial system remains at risk, with
many former TARP recipients now designated as systemically important financial
institutions (“SIFIs”) that continue with compensation structures that may
encourage risk taking. The implicit guarantee that came from the Government’s
unprecedented intervention resulted in moral hazard, and companies continue
to engage in risky behavior. SIFIs have a responsibility to discipline risk taking
that could potentially trigger systemic consequences, including as it relates to
compensation. Because companies generally have shown little or no appetite for
reforming executive compensation practices, the economy remains at risk that
compensation could play a material role in the event of a future crisis.
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”) requires regulations on executive compensation and specifies
regulations for SIFIs that may force these companies to reform compensation
practices. For example, the Federal Reserve Board recently proposed restricting
executive pay and bonuses if a SIFI fails certain capital, liquidity, or stress test
thresholds. However, all of the regulations required under the Dodd-Frank Act are
not final and their effectiveness remains to be seen. The regulators’ strength and
leadership in the area of executive compensation is critical. Taxpayers are looking to
the regulators to protect them and to help reinforce the stability of the largest firms
and the financial system so that history does not repeat itself.
12   special inspector general I troubled asset relief program




                                            PROGRAM UPDATES AND FINANCIAL OVERVIEW
                                            TARP consists of 13 implemented programs. Because TARP investment authority
                                            expired on October 3, 2010, no new obligations may be made with TARP funds.
                                            However, dollars that have already been obligated to existing programs may still
                                            be expended. As of October 3, 2010, Treasury had obligated $474.8 billion to
                                            13 announced programs. Subsequent to the expiration of Treasury’s investment
                                            authority, Treasury has deobligated funds previously designated for some programs.
                                            As of December 31, 2011, $470.1 billion is obligated to TARP programs. Of that
                                            amount, $413.8 billion had been spent and $51 billion remained obligated and
                                            available to be spent. According to Treasury, through December 31, 2011, 282
                                            TARP recipients, including 10 with the largest CPP investments, had paid back
                                            all of their principal or repurchased shares, and 20 TARP recipients had made
                                            partial repayments by paying back some of their principal or repurchasing from
                                            Treasury some of their preferred shares, for an aggregate total of $277.9 billion of
                                            repayments. According to Treasury, as of December 31, 2011, it had written off
                                            $4.2 billion and realized losses of $7.8 billion. After accounting for those write-offs
                                            and losses, $121 billion remains outstanding. As of December 31, 2011, there are
                                            458 institutions left in TARP. This includes 371 banks in CPP, 84 banks in CDCI,
                                            and AIG, GM, and Ally.
                                                In addition to the principal repayments, Treasury has received interest and
                                            dividend payments on its investments, as well as revenue from the sale of its
                                            warrants. According to Treasury, as of December 31, 2011, it had received
                                            $40.3 billion in interest, dividends, and other income, including $9.1 billion in
                                            sales proceeds that had been received from the sale of warrants and preferred
                                            stock received as a result of exercised warrants. At the same time, some TARP
                                            participants have missed interest or dividend payments. Among CPP participants,
                                            197 missed paying dividend or interest to the Government as of December 31,
                                            2011, for a total of $377 million in unpaid CPP interest and dividends.


                                            OVERSIGHT ACTIVITIES OF SIGTARP
                                            SIGTARP actively strives to fulfill its audit and investigative functions. Since its
                                            inception, SIGTARP has issued 17 reports on audits and evaluations. One has been
                                            issued since the end of the last quarter: “The Special Master’s Determinations for
                                            Executive Compensation of Companies Receiving Exceptional Assistance under
                                            TARP.” Section 1 of this report, “The Office of the Special Inspector General
                                            for the Troubled Asset Relief Program,” discusses SIGTARP’s recently released
                                            evaluation.
                                                SIGTARP is a highly sophisticated white-collar law enforcement agency.
                                            As of December 31, 2011, SIGTARP had more than 150 ongoing criminal and
                                            civil investigations, many in partnership with other law enforcement agencies in
                                            order to leverage resources throughout the Government. SIGTARP takes its law
                                            enforcement mandate seriously, working hard to deliver the accountability the
                                                                            quarterly report to congress I January 26, 2012   13




American people demand and deserve. SIGTARP’s investigations have delivered
substantial results, including:

•	 criminal actions against 61 individuals, including 45 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 31 defendants, of whom 22 have been sentenced to
   prison (others are awaiting sentencing)
•	 civil cases naming 38 individuals (including 27 senior officers) and 18 corporate
   or other legal entities as defendants (in some instances an individual will face
   both criminal and civil charges)
•	 restitution orders entered for $3.6 billion, forfeiture orders entered for $126.8
   million, and civil judgments entered for $161.3 million. Although the ultimate
   recovery of these amounts is not known, SIGTARP has already assisted in the
   recovery of $151.5 million
•	 savings of $553 million in TARP funds that SIGTARP prevented from going to
   the now-failed Colonial Bank

   Although much of SIGTARP’s investigative activity remains confidential, over
the past quarter there have been significant public developments in several of
SIGTARP’s investigations. See Section 1 of this report, “The Office of the Special
Inspector General for the Troubled Asset Relief Program,” for a description of
recent developments, including those relating to the joint task force to combat
mortgage modification scams and SIGTARP investigations into online mortgage
modification scams advertised on Google, Yahoo!, and Bing, as well as into Legacy
Home Loans and Real Estate, Colonial, TBW, FirstCity Bank, New Point Financial
Services, Orion Bank, Marleen Shillingford, Joseph D. Wheliss, Jr., Frederic Alan
Gladle, and Robin Brass.


SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations
to Treasury so that TARP programs can be designed or modified to facilitate
effective oversight and transparency and to prevent fraud, waste, and abuse.
Section 4 of this report “SIGTARP Recommendations” provides updates on
existing recommendations and summarizes the implementation of previous
recommendations.
    This quarter, Section 4 includes discussions of SIGTARP’s new
recommendations to Treasury’s Hardest Hit Fund (“HHF”) program and to
Treasury’s Office of Special Master. In a November 23, 2011, letter to Treasury,
SIGTARP made a recommendation aimed at protecting borrower personally
identifiable information or other sensitive borrower information used by the
state Housing Finance Agencies (“HFAs”) that participate in TARP’s HHF. In its
evaluation, “The Special Master’s Determinations for Executive Compensation of
14   special inspector general I troubled asset relief program




                                            Companies Receiving Exceptional Assistance Under TARP,” released this month,
                                            SIGTARP made three new recommendations related to the pay determination
                                            process and decisions made by the Special Master for executive compensation of
                                            companies receiving exceptional assistance under TARP.


                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            •	 Section 1 discusses the activities of SIGTARP.
                                            •	 Section 2 details how Treasury has spent TARP funds so far and contains an
                                               explanation or update of each program.
                                            •	 Section 3 describes the operations and administration of the Office of Financial
                                               Stability, the office within Treasury that manages TARP.
                                            •	 Section 4 discusses SIGTARP’s recommendations to Treasury with respect to
                                               the operation of TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through December 31, 2011,
                                            except where otherwise noted.
            The Office of the Special
section 1   Inspector General for the
            Troubled Asset Relief Program
16   special inspector general I troubled asset relief program
                                                                            quarterly report to congress I January 26, 2012   17




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in Section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.
18   special inspector general I troubled asset relief program




                                            SIGTARP OVERSIGHT ACTIVITIES SINCE THE
                                            October 2011 QUARTERLY REPORT
                                            SIGTARP continues to fulfill its oversight role on multiple parallel tracks: investi-
                                            gating allegations of fraud, waste, and abuse related to TARP; conducting oversight
                                            over various aspects of TARP and TARP-related programs and activities through 17
                                            audits and evaluations, and 89 recommendations; and promoting transparency in
                                            TARP and the Government’s response to the financial crisis as it relates to TARP.

                                            SIGTARP Investigations Activity
                                            SIGTARP is a white-collar law enforcement agency. As of December 31, 2011,
                                            SIGTARP had more than 150 ongoing criminal and civil investigations, many in
                                            partnership with other law enforcement agencies in order to leverage resources
                                            throughout the Government. SIGTARP takes its law enforcement mandate seri-
                                            ously, working hard to deliver the accountability the American people demand and
                                            deserve. SIGTARP’s investigations have delivered substantial results, including:

                                            •	 criminal actions against 61 individuals, including 45 senior officers (CEOs,
                                               owners, founders, or senior executives) of their organizations
                                            •	 criminal convictions of 31 defendants, of whom 22 have been sentenced to
                                               prison (others are awaiting sentencing)
                                            •	 civil cases naming 38 individuals (including 27 senior officers) and 18 corporate
                                               or other legal entities as defendants (in some instances an individual will face
                                               both criminal and civil charges)
                                            •	 restitution orders entered for $3.6 billion, forfeiture orders entered for $126.8
                                               million, and civil judgments entered for $161.3 million. Although the ultimate
                                               recovery of these amounts is not known, SIGTARP has already assisted in the
                                               recovery of $151.5 million
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                               the now-failed Colonial Bank

                                                SIGTARP investigates white-collar fraud related to TARP. These investiga-
                                            tions include, for example, accounting fraud, securities fraud, insider trading, bank
                                            fraud, mortgage fraud, mortgage modification fraud, false statements, obstruction
                                            of justice, money laundering, and tax crimes. Although the majority of SIGTARP’s
                                            investigative activity remains confidential, over the past quarter there have been
                                            significant public developments in several SIGTARP investigations.

                                            SIGTARP Actions to Combat Mortgage Modification Fraud
                                            This quarter SIGTARP doubled its efforts to combat mortgage modification scams
                                            targeted at homeowners seeking to apply for a mortgage modification under the
                                            Home Affordable Modification Program (“HAMP”). In these scams, fraudsters
                                            steal from struggling homeowners by falsely promising that they can navigate the
                                                                              quarterly report to congress I January 26, 2012   19




often murky waters of the mortgage modification process for a fee of $1,500 or
more paid in advance. Hallmarks of this scheme include the perpetrators holding
themselves out as experts in HAMP and providing “advice” that their victims will
have a better chance of getting a HAMP modification if they stop making mort-
gage payments and cease all communication with their mortgage servicer. In some
instances, they claim to be affiliated with the U.S. Government through the use of
a Government seal, a name similar to a Government agency, or words like “Obama
Plan.” To further lure their victims, they make money-back guarantees that they
have no intention of keeping. SIGTARP has seen an increase in these scams. This
month, the Better Business Bureau named these scams as the 2011 “Top Financial
Scam.” Scammers have stolen millions of dollars from homeowners based upon
these schemes, which have devastating consequences for struggling homeowners
who are looking for relief through HAMP to lower their monthly mortgage pay-
ments and who often use their last dollars to pay con artists. SIGTARP has had
notable success in stopping and investigating these fraud schemes and in working
with its enforcement partners to prosecute the perpetrators. SIGTARP investiga-
tions have resulted in criminal charges against 17 individuals, including charges
against three individuals this quarter who ran Legacy Home Loans and Real Estate.
Because homeowners have often already lost precious dollars and precious time
by the time mortgage modification scammers are caught, SIGTARP took a more
proactive approach to catch these swindlers more quickly and prevent these frauds
from victimizing vulnerable homeowners in the first place.

Online Mortgage Modification Scams Advertised on Google, Yahoo!, and Bing
This quarter, SIGTARP decided to take a 360-degree approach to combating and
stopping mortgage modification fraud. In addition to investigations and criminal
charges, SIGTARP actively worked to shut down hundreds of these scams advertised
on the Internet and formed a joint task force to raise homeowner awareness of these
scams. SIGTARP will continue to investigate and hold accountable criminals who
defraud homeowners in connection with HAMP, while doing everything it can to stop
homeowners from becoming victims in the first place.
    The first place many homeowners turn for help in lowering their mortgage pay-
ment is the Internet through online search engines, and that is precisely where they
are being targeted. From talking to the victims of these scams, SIGTARP learned that
many were enticed by web banner ads and online search advertisements that prom-
ised, for a fee, to help lower mortgage payments. These ads offer a false sense of hope
that can end up costing homeowners their homes.
    In November 2011, SIGTARP shut down 125 websites that were advertised
on Yahoo!, Bing, and Google and evidenced hallmarks of these fraudulent scams.
SIGTARP coordinated with Google and Microsoft (which founded Bing and whose
technology powers Yahoo!) to shut down the websites. In addition, Google suspended
advertising relationships with more than 500 Internet advertisers and agents and
Microsoft suspended advertising relationships with more than 400 Internet advertis-
ers and agents connected with the 125 websites.
20   special inspector general I troubled asset relief program




                                                SIGTARP’s work in cutting off this primary access to homeowners immediately
                                            and dramatically decreases the scope and scale of these scams by limiting their
                                            ability to seek out and victimize struggling homeowners. This SIGTARP investiga-
                                            tion is ongoing.

                                            Legacy Home Loans and Real Estate
                                            On December 1, 2011, Magdalena Salas, Angelina Mireles, and Julissa Garcia, the
                                            owner, manager, and CEO, respectively, of Legacy Home Loans and Real Estate
                                            (“Legacy Home Loans”) in Stockton, California, were arrested on charges of conspir-
                                            acy, grand theft, and false advertising for a mortgage modification scam.
                                                According to the charges and other information presented in court, the co-con-
                                            spirators collected thousands of dollars in up-front fees from distressed homeowners
                                            in Central California after making false promises to obtain loan modifications for the
                                            homeowners. The defendants falsely promised homeowners that they would receive
                                            loan modifications regardless of their financial situation through Federal Government
                                            programs allegedly referred to as the “Obama Plan.” The defendants also allegedly
                                            falsely overstated their success rate, made false money-back guarantees, and falsely
                                            represented that attorneys would work on the modifications. The co-conspirators
                                            advertised similar false promises in flyers, billboards, television and radio, in English
                                            and Spanish. The modification services promised by the co-conspirators allegedly
                                            were never carried out and many clients ended up losing their homes.
                                                The case is being investigated by SIGTARP, the California Attorney General’s
                                            office, the San Joaquin District Attorney’s office, the California Department of Real
                                            Estate, and the Stockton Police Department.

                                            Joint Task Force to Combat Mortgage Modification Scams
                                            SIGTARP also formed a joint task force with the Consumer Financial Protection
                                            Bureau (“CFPB”) and Treasury in December 2011 to leverage resources in investi-
                                            gating, combating, and shutting down HAMP-related mortgage modification scams
                                            and to provide awareness to vulnerable homeowners desperately holding onto hope
                                            of saving their homes. In December, the joint task force issued a consumer fraud
                                            alert (which appears on the inside back cover of this report) to protect homeowners
                                            and empower them with the knowledge of how to recognize and avoid these scams.

                                            The Colonial BancGroup, Inc./Taylor, Bean & Whitaker
                                            As previously reported by SIGTARP, seven defendants who were involved in a
                                            $2.9 billion bank fraud and TARP-fraud scheme that contributed to the failures of
                                            Colonial BancGroup, Inc. and Taylor, Bean & Whitaker (“TBW”) were sentenced
                                            in June 2011 to prison for their roles in these massive schemes. Lee Farkas, the
                                            former TBW chairman and architect of the fraud, was sentenced to 30 years in
                                            prison; Paul Allen, the former CEO of TBW, was sentenced to 40 months in prison;
                                            Catherine Kissick, the former senior vice president of Colonial Bank, was sen-
                                            tenced to eight years in prison; Desiree Brown, the former treasurer of TBW, was
                                            sentenced to six years in prison; Raymond Bowman, the former president of TBW,
                                                                               quarterly report to congress I January 26, 2012   21




was sentenced to 30 months in prison; Sean Ragland, a former senior financial
analyst at TBW, was sentenced to three months in prison; and Teresa Kelly, the
former operations supervisor in Colonial Bank’s Mortgage Warehouse Lending
Division, was sentenced to three months in prison.
    Between September 26 and October 4, 2011, the U.S. District Court for the
Eastern District of Virginia issued a series of restitution orders directing the seven
defendants to pay a total of approximately $3.5 billion in restitution to the victims
of the fraud schemes. The restitution order obligates the defendants “jointly and
severally” (i.e., collectively) to pay the full $3.5 billion judgment and limits each
individual’s maximum personal liability to the following amounts: $3.5 billion each
for Farkas and Brown; $2.6 billion each for Allen and Ragland; and $500 million
each for Bowman, Kissick, and Kelly.
    From June 2011 to December 2011, the U.S. Department of Housing and
Urban Development (“HUD”) debarred four of the defendants from any involve-
ment in procurement and non-procurement transactions, as either a principal
or participant, with HUD and throughout the Executive Branch of the Federal
Government. Brown was debarred indefinitely; Ragland was debarred until May
6, 2014; Kelly was debarred until May 5, 2014; and Allen was debarred until
December 6, 2012. HUD also initiated debarment proceedings against Farkas
and Kissick. At SIGTARP’s initiation, Treasury has begun debarment proceedings
against Farkas.

FirstCity Bank
On October 21, 2011, Mark A. Conner, the former president, chief executive
officer, and chairman of FirstCity Bank (“FirstCity”), pled guilty in U.S. District
Court for the Northern District of Georgia to conspiracy to commit bank fraud and
perjury. In February 2009, FirstCity unsuccessfully sought $6.1 million in Federal
Government assistance through TARP. FirstCity failed and was seized by Federal
and state authorities on March 20, 2009.
    Conner conspired with others to defraud FirstCity’s loan committee and board
of directors into approving multiple multi-million dollar commercial loans to bor-
rowers who were actually purchasing property owned by Conner or his co-conspira-
tors. The fraud took place in the years prior to the regulators seizing the bank.
    As part of the conspiracy, Conner misrepresented the essential nature, terms,
and underlying purpose of the loans and falsified documents and information
presented to the loan committee and the board of directors. He and others caused
at least 10 other Federally insured banks to invest in the fraudulent loans based on
these and other fraudulent misrepresentations, shifting all or part of the risk of de-
fault to the other banks. Conner personally received at least $7 million in proceeds
from the fraud. To conceal their unlawful scheme, Conner and others routinely
misled Federal and state bank regulators and engaged in further misconduct in an
attempt to avoid seizure by regulators. Conner also committed perjury in connec-
tion with his personal bankruptcy filing.
    Conner is scheduled to be sentenced on January 31, 2012. He could be
22   special inspector general I troubled asset relief program




                                            sentenced to a maximum of 12 years in federal prison, be banned from the banking
                                            industry for life and be required to forfeit $7 million and pay significant restitution
                                            to the FDIC and victim banks.
                                                Clayton A. Coe, FirstCity vice president and senior commercial loan officer, and
                                            Robert E. Maloney, FirstCity’s former in-house counsel, have also been charged
                                            with conspiracy to commit bank fraud, making false entries in the records of an
                                            FDIC-insured financial institution, and conspiracy to commit money-laundering.
                                            The charges against Coe and Maloney are pending. The case is being investigated
                                            by SIGTARP, the United States Attorney’s Office for the Northern District of
                                            Georgia, the Federal Bureau of Investigation (“FBI”), Internal Revenue Service-
                                            Criminal Investigation (“IRS-CI”), and the Federal Deposit Insurance Corporation
                                            Office of Inspector General (“FDIC OIG”).

                                            John Farahi and David Tamman (New Point Financial Services, Inc.)
                                            On December 7, 2011, a Federal grand jury sitting in the Central District of
                                            California indicted John Farahi, the co-owner and president of New Point Financial
                                            Services, Inc. (“New Point”) and the host of a Farsi-language radio investment
                                            show. Farahi was charged with 21 fraud offenses, including falsely promising inves-
                                            tors that their money would be used to purchase corporate bonds backed by TARP
                                            and making false statements to TARP-funded banks to secure multi-million dollar
                                            loans. Farahi surrendered to authorities on December 9, 2011.
                                                The indictment alleges that from 2005 until 2009, Farahi, through New Point,
                                            operated a Ponzi scheme in which he obtained more than $20 million from 100
                                            investors, most of whom were members of the Iranian-Jewish community. Farahi
                                            used his daily investment radio show to attract investors, falsely assuring them that
                                            their money would be invested in safe investments. Beginning in the fall of 2008,
                                            Farahi also allegedly told investors that New Point would be investing in corporate
                                            bonds of companies backed by TARP and other Government programs.
                                                Farahi allegedly used investor money to support his family’s lavish lifestyle,
                                            to continue the Ponzi scheme, and to finance high-risk and speculative futures
                                            options trading. Facing massive trading losses at the end of 2008, Farahi drew
                                            down extensively on lines of credit at banks, including TARP recipient banks Bank
                                            of America and U.S. Bank, while making false statements about his financial
                                            condition.
                                                The grand jury also indicted New Point’s attorney, David Tamman, for obstruct-
                                            ing the SEC’s investigation into Farahi’s fraud scheme. Farahi allegedly conspired
                                            with Tamman to conceal the fraud scheme from the SEC.
                                                This case is being investigated by SIGTARP, the United States Attorney’s Office
                                            for the Central District of California, and the FBI.

                                            Orion Bank
                                            As previously reported by SIGTARP, in May 2011, Thomas Hebble, Angel Guerzon,
                                            and Francesco Mileto pled guilty to participation in a bank fraud scheme relating
                                            to Orion Bank (“Orion”), a subsidiary of Orion Bancorp, Inc. (“Orion Bancorp”).
                                            In October 2008, Orion Bancorp, Inc. unsuccessfully sought $64 million in Federal
                                                                              quarterly report to congress I January 26, 2012   23




Government assistance through TARP. Hebble, a former executive vice president
of Orion, Guerzon, a former senior vice president of Orion, and Mileto, a former
Orion borrower, all pled guilty to conspiracy to commit bank fraud while Hebble
and Guerzon also pled guilty to obstruction of a Federal bank examination.
    On October 25, 2011, Hebble and Guerzon were sentenced by the U.S. District
Court for the Middle District of Florida to 30 months, and 24 months, respectively,
in Federal prison and ordered to pay $33.5 million in restitution. Mileto was sen-
tenced to serve 65 months in Federal prison and ordered to pay $65.2 million in
restitution ($33.5 million of which is to be paid jointly and severally with Guerzon
and Hebble). The court also ordered forfeiture of $2 million as to Mileto.
    The conspiracy for which the defendants were found guilty and sentenced had
two objectives. The first objective was to finance the sale of promissory notes secured
by mortgages held by Orion on distressed properties, thereby creating the illusion that
non-performing loans were performing loans. The second objective was to conceal
the financing for the sale of Orion Bancorp stock to a borrower in order to create the
illusion of a legitimate capital infusion into the bank. The defendants accomplished
these objectives by falsifying the books and records of Orion and deceiving state and
Federal regulators from May 2009 through November 2009.
    As part of the scheme to defraud, the defendants increased loans-in-process to
nominee entities associated with Mileto to $82 million, including a $26.5 million line
of credit. Within the lines of credit, the bank concealed $15 million of financing for
Mileto’s purchase of Orion Bancorp stock, despite knowing that banking laws and
regulations prohibited the bank from financing the purchase of its, or its affiliates’,
own stock. Top bank executives closed on the loans despite discovering that Mileto
had submitted fraudulent financial documentation to Orion in support of the current
loans, and in support of $41 million of previously acquired loans, in order to ensure
the capital infusion into bank.
    Defendant Hebble was also sentenced for his participation in a second round-
trip stock transaction which occurred in June and July 2009. As part of the scheme,
Hebble and others increased the amounts of loans-in-process to an Orion deposi-
tor to $18 million, in order to provide and conceal $7 million of financing for the
purchase of Orion Bancorp stock, despite knowing that banking laws and regulations
prohibited the bank from financing the purchase of its, or its affiliates’, own stock.
    Also previously reported, Jerry J. Williams, former president, chief executive of-
ficer, and board chairman of Orion and Orion Bancorp, was indicted and arrested
in March 2011. Williams was charged with conspiracy to commit bank fraud and
to deceive federal and state bank examiners, mail fraud, wire fraud, money laun-
dering, misapplication of bank funds, and making false entries in bank reports.
On December 21, 2011, Williams signed a plea agreement with the United States
Attorney’s Office for the Middle District of Florida and agreed to plead guilty to
conspiracy, to commit bank fraud and obstruction of an examination of a financial
institution, and to two counts of making false statements. The district court has
scheduled a hearing for February 3, 2012, to determine whether to accept the plea
agreement. If the plea is accepted, Williams faces a maximum five year term of im-
prisonment for each of the three counts.
24   special inspector general I troubled asset relief program




                                                Florida’s Office of Financial Regulation closed Orion Bank on November 13,
                                            2009, and named the FDIC as receiver. The FDIC estimates that Orion’s failure will
                                            cost the Deposit Insurance Fund more than $600 million.
                                                The case is being investigated by SIGTARP, the United States Attorney’s Office
                                            for the Middle District of Florida, the FBI, IRS-CI, the Office of Inspector General
                                            of the Federal Reserve Board (“FRB OIG”), and the FDIC OIG.

                                            Marleen Shillingford
                                            On October 12, 2011, Marleen Shillingford pled guilty in the U.S. District Court
                                            for the District of Connecticut to conspiracy to commit wire fraud and conspiracy to
                                            commit money laundering.
                                                From approximately April 2004 through August 2011, Shillingford, through the
                                            Waikele Properties Corporation, conspired with others to commit a mortgage fraud
                                            and money laundering scheme to obtain false mortgages that she and others used
                                            to purchase more than 40 multi-family properties and vacant land, in Bridgeport,
                                            Connecticut, upon which they built new houses. The scheme involved recruiting
                                            straw purchasers for the properties who applied for mortgages from banks, including
                                            TARP banks, such as Bank of America. Shillingford and co-conspirators filed loan
                                            applications on behalf of the purchasers that contained material misrepresentations
                                            regarding the purchasers’ employment, income, assets, and liabilities, and also pro-
                                            vided the banks false documentation. Shillingford used the loan proceeds to enrich
                                            herself and continue the scheme. Several straw purchasers defaulted on the mort-
                                            gages resulting in losses of more than $7 million to lenders.
                                                On October 19, 2011, Shillingford’s husband, Winston Shillingford, pled guilty to
                                            conspiracy to commit wire fraud and conspiracy to commit money laundering.
                                                This case is being investigated by SIGTARP, the United States Attorney’s Office
                                            for the District of Connecticut, IRS-CI, the FBI, and Department of Housing and
                                            Urban Development Office of Inspector General (“HUD OIG”).

                                            Joseph D. Wheliss, Jr.
                                            On November 2, 2011, a criminal information was filed in the U.S. District Court for
                                            the Middle District of Tennessee charging Joseph D. Wheliss, Jr. with bank fraud that
                                            involved a scheme to defraud Pinnacle National Bank (“Pinnacle”). Pinnacle received
                                            $95 million in TARP funds in December 2008. Wheliss, the owner and operator of
                                            National Embroidery Works, Inc., was a banking customer of Pinnacle. The informa-
                                            tion alleged that, from approximately May 18, 2005, through January 2011, Wheliss
                                            defrauded Pinnacle by submitting false and forged documents to the bank regarding
                                            his finances and assets in order to obtain multiple commercial loans.
                                                The case is being investigated by SIGTARP, the United States Attorney’s Office
                                            for the Middle District of Tennessee, and the FBI.

                                            Frederic Alan Gladle
                                            On October 19, 2011, Frederic Alan Gladle was arrested by SIGTARP and FBI
                                            agents. On January 6, 2012, Gladle pled guilty to charges of bankruptcy fraud and
                                                                                quarterly report to congress I January 26, 2012   25




aggravated identity theft that stem from Gladle’s operation of a $1.6 million foreclo-
sure rescue scam involving more than 1,100 homeowners.
    Beginning in October 2007, in exchange for a fee, Gladle assisted homeowners in
delaying foreclosure by having them execute a deed granting a small interest in their
house to an unknown debtor in bankruptcy whose name Gladle had found in bank-
ruptcy records. Without the bankrupt debtor’s knowledge, Gladle would then send to
the homeowner’s lender a copy of the debtor’s bankruptcy petition and the new deed
showing that the bankrupt debtor owned an interest in the home owned by Gladle’s
client. Upon receipt of these documents, the lenders stopped the foreclosure pro-
ceeding. Lenders defrauded in this scheme included TARP recipient banks, including
Bank of America, Wells Fargo Bank and U.S. Bank.
    The case is being investigated by SIGTARP, the United States Attorney’s Office
for the Central District of California, the FBI, and the U.S. Trustee’s Office.

Robin Brass
On November 15, 2011, Robin B. Brass was arrested by SIGTARP agents and its law
enforcement partners on four counts of mail fraud stemming from an alleged invest-
ment scheme.
    The indictment returned by a grand jury sitting in the District of Connecticut
alleges that from March 2009 to approximately November 2011, Brass defrauded
investors of at least $800,000 by representing herself as a successful investment
advisor, soliciting funds from investors with the promise that their money would be
ensured against loss and would earn a good rate of return. According to court docu-
ments, Brass used investor funds to pay off other investors, purchase home furnish-
ings, and pay her personal expenses, including her mortgage at Bank of America,
a TARP recipient bank. The indictment alleges that Brass sent fraudulent account
statements to certain investors that made it appear as if their investments were per-
forming well.
    The case is being investigated by SIGTARP, the United States Attorney’s Office
for the District of Connecticut, the U.S. Postal Inspection Service (“USPIS”), the
FBI, and with assistance from the State of Connecticut Department of Banking.

SIGTARP Audit Activity
SIGTARP has initiated 28 audits and two evaluations since its inception. Since then,
SIGTARP has issued 17 reports on audits and evaluations. Among the ongoing audits
and evaluations in process are reviews of: (i) criteria used by Treasury to select states
and programs to receive money under the Hardest Hit Fund; (ii) Treasury’s role in
General Motors’ decision to top up the pension plan for hourly workers of Delphi
Automotive LLP; and (iii) the decision-making process regarding Citigroup’s deferred
tax assets.
26   special inspector general I troubled asset relief program




                                            Recent Audits/Evaluations Released
                                            The Special Master’s Determinations for Executive Compensation of Companies
                                            Receiving Exceptional Assistance Under TARP
                                            This month, SIGTARP released a report, “The Special Master’s Determinations for
                                            Executive Compensation of Companies Receiving Exceptional Assistance Under
                                            TARP,” which examined the Office of the Special Master for TARP Executive
                                            Compensation’s (“OSM”) process and decisions for pay packages for the Top 25
                                            employees at seven companies that received exceptional assistance from taxpayers
                                            under TARP. The evaluation assessed whether OSM consistently applied criteria
                                            to all seven companies: American International Group, Inc.; Ally Financial Inc.;
                                            Bank of America Corp.; Citigroup, Inc.; Chrysler Holding LLC; Chrysler Financial
                                            Services Americas LLC; and General Motors Company.
                                                The former Special Master Kenneth Feinberg developed what he called “pre-
                                            scriptions” including that cash salaries should not exceed $500,000, except for
                                            good cause, and that total compensation would be set at the 50th percentile for
                                            similarly situated employees. However, OSM’s methodology and criteria for apply-
                                            ing the prescriptions were not established until after the Special Master issued its
                                            first set of pay determinations. OSM did not establish meaningful criteria for grant-
                                            ing exceptions to prescriptions such as when an employee could be paid more than
                                            $500,000 in cash salary. Further, the methodology does not address how OSM
                                            determined the peer group for the 50th percentile of total compensation for simi-
                                            larly situated employees. SIGTARP was unable to analyze OSM’s application of the
                                            50th percentile because OSM did not maintain complete records of the market-
                                            based data that factored into its determinations. There were variations among pay
                                            packages set by OSM that were largely a product of conflicting goals and differ-
                                            ences in the companies under OSM’s jurisdiction. OSM faced difficulty in setting
                                            pay packages that would rein in excessive compensation, while still attracting and
                                            retaining key employees in order to meet the number one goal of ensuring that the
                                            companies repaid taxpayers’ TARP investment.
                                                SIGTARP found that the Special Master could not effectively rein in excessive
                                            compensation because he was under the constraint that his most important goal
                                            was to get the companies to repay TARP. Although OSM generally limited cash
                                            compensation and made some reductions in pay, it still approved pay packages of
                                            cash and stock worth millions of dollars. Special Master Feinberg told SIGTARP
                                            that companies pressured him to let the companies pay executives enough to keep
                                            them from quitting, and that Treasury officials pressured him to let the companies
                                            pay executives enough to keep the companies competitive and on track to repay
                                            TARP funds.
                                                In proposing high pay packages based on historical pay prior to their bailout, the
                                            TARP companies failed to take into account the exceptional situation that they had
                                            gotten themselves into that necessitated taxpayer bailout. Rather than view their
                                            compensation through the lens of partial Government ownership, the companies
                                            argued that their proposed pay packages were necessary to retain or attract employ-
                                            ees who were crucial to the company. For example, Ally officials pushed for high
                                            pay, despite knowing that Special Master Feinberg was concerned that a majority of
                                                                            quarterly report to congress I January 26, 2012   27




the company’s Top 25 employees were part of the problem that resulted in the need
for a bailout. In 2009, AIG proposed cash raises for several of its Top 25 employees
and the immediate ability to sell any pay in the form of stock.
    Under conflicting principles and pressures, despite reducing some pay, the
Special Master approved multi-million dollar compensation packages for many
of the Top 25 employees but tried to shift them away from large cash salaries and
toward stock. The Special Master approved pay packages worth $5 million or more
for 49 individuals over the 2009 to 2011 period. Some companies pushed back
on OSM by claiming that their salaries should be higher than the 50th percentile.
Companies also proposed that their employees be paid cash salaries higher than
$500,000, claiming that the employees were critical. For 10 employees in 2009,
and 22 employees in 2010 and 2011, GM, Chrysler Financial, Ally and AIG con-
vinced OSM to approve cash salaries greater than $500,000. With the exception
of Bank of America’s retiring CEO, the Special Master approved cash salaries over
$500,000 for the CEO of each company that asked for a higher salary, and ap-
proved millions of dollars in CEO stock compensation.
    AIG’s proposed pay for its Top 25 employees was excessive, and did not re-
flect the unprecedented nature of AIG’s taxpayer-funded bailout and the fact that
taxpayers owned a majority of AIG. In 2009, AIG wanted cash salary raises rang-
ing from 84% to 550% for one group of employees, and 20% to 129% for another
group. AIG proposed high cash salaries even though some of the employees would
also be paid significant retention payments. Feinberg told SIGTARP that in his
2009 discussions with AIG, AIG believed that its common stock “was essentially
worthless.” Feinberg told SIGTARP that he was reminded by Treasury officials that
Treasury did not want AIG to go belly up, that stock salary would jeopardize AIG,
and that the amounts at issue were relatively small compared to the Government’s
exposure in AIG. However, Feinberg said that no one trumped his decisions.
    In 2009, OSM approved total compensation of more than $1 million in cash
and stock for each of five AIG employees, including a $10.5 million pay pack-
age for AIG’s new CEO that included a $3 million cash salary. Four of these AIG
executives were scheduled to receive cash retention awards of up to $2.4 million.
In 2010, OSM approved much larger compensation packages for AIG’s Top 25
employees, approving compensation packages for 21 employees between $1 million
and $7.6 million, with 17 pay packages exceeding $3 million. OSM approved the
same general AIG pay packages again in 2011.
    SIGTARP found that OSM’s pay determinations are not likely to have long last-
ing impact at the seven companies that received exceptional assistance, or at other
companies. Citigroup and Bank of America, which exited TARP in part to escape
compensation restrictions, have boosted salaries and bonuses since exiting TARP.
Today, only AIG, GM, and Ally remain subject to OSM’s review. CEOs at AIG
and GM told SIGTARP that they would not maintain OSM’s pay practices once
their companies exit TARP. OSM has had little ability to influence compensation
practices at other companies outside of the seven. Feinberg told SIGTARP that the
long-term impact will likely come from regulators.
28   special inspector general I troubled asset relief program




                                                While historically the Government has not been involved in pay decisions
                                            at private companies, one lesson of this financial crisis is that regulators should
                                            take an active role in monitoring and regulating factors that could contribute to
                                            another financial crisis. Treasury Secretary Timothy Geithner testified before the
                                            Congressional Oversight Panel that executive compensation played a material role
                                            in causing the crisis because it encouraged excessive risk taking. As a nation, we
                                            are not out of the woods because many former TARP recipients are now designated
                                            as “systemically important financial institutions” (“SIFIs”). These companies have
                                            a responsibility to reduce risk taking that could trigger systemic consequences, in-
                                            cluding excessive cash compensation and other compensation not tied to long-term
                                            performance. The Dodd-Frank Wall Street Reform and Consumer Protection Act
                                            requires regulations on executive compensation and other regulations for SIFIs that
                                            may force these companies to change their compensation practices. The regulators’
                                            strength and leadership in this area is critical. Taxpayers are looking for regulators
                                            to protect them so that history does not repeat itself.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and provide a simple, accessible way for the American public to report con-
                                            cerns, allegations, information, and evidence of violations of criminal and civil laws
                                            in connection with TARP. The SIGTARP Hotline has received and analyzed more
                                            than 29,552 Hotline contacts. These contacts run the gamut from expressions of
                                            concern over the economy to serious allegations of fraud involving TARP, and a
                                            number of SIGTARP’s investigations were generated in connection with Hotline
                                            tips. The SIGTARP Hotline can receive information anonymously. SIGTARP
                                            honors all applicable whistleblower protections and will provide confidentiality to
                                            the fullest extent possible. SIGTARP urges anyone aware of waste, fraud or abuse
                                            involving TARP programs or funds, whether it involves the Federal Government,
                                            state and local entities, private firms, or individuals, to contact its representatives at
                                            877-SIG-2009 or www.sigtarp.gov.

                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            remain adequately and promptly informed of developments in TARP initiatives and
                                            of SIGTARP’s oversight activities. To fulfill that role, the Deputy Special Inspector
                                            General and her staff meet regularly with and brief members and Congressional
                                            staff. Additionally, on October 24 and 26, 2011, SIGTARP’s Chief of Staff, Mia
                                            Levine, presented briefings open to all House and Senate staff, respectively, on
                                            SIGTARP’s October 2011 Quarterly Report. Copies of written Congressional
                                            testimony and Congressional hearing transcripts are posted at www.SIGTARP.gov/
                                            testimony.shtml.
                                                                          quarterly report to congress I January 26, 2012                    29




THE SIGTARP ORGANIZATION
SIGTARP leverages the resources of other agencies, and, where appropriate and            Figure 1.1
cost-effective, obtains services through SIGTARP’s authority to contract.                SIGTARP FY 2011 SPENDING
                                                                                         ($ MILLIONS, PERCENTAGE OF $38.2 MILLION)

Hiring
                                                                                                         Other Services
As of December 31, 2011, SIGTARP had 168 personnel, including four de-                                         $1.5, 4%
tailees from FHFA OIG. SIGTARP’s employees hail from many Federal agen-
cies, including the Justice Department, FBI, IRS-CI, Air Force Office of Special          Advisory Services
                                                                                                      $5.0
Investigations, the Government Accountability Office, the Congressional Oversight
                                                                                                              13%
Panel for TARP, the Transportation Department, the Energy Department, the
SEC, the Secret Service, USPS, U.S. Army Criminal Investigation Command,                                                           Salaries
                                                                                         Interagency       24%              56%    and
Naval Criminal Investigative Service, Treasury-Office of the Inspector General,
                                                                                         Agreements
Department of Energy-Office of the Inspector General, Department of                            $9.1                                $21.5
Transportation-Office of the Inspector General, Department of Homeland
Security-Office of the Inspector General, FDIC OIG, Treasury Inspector General                        Travel/
for Tax Administration, and HUD OIG. SIGTARP employees also hail from various                  Transportation
                                                                                                    $1.1, 3%
private-sector businesses and law firms. The SIGTARP organizational chart, as of
the date of this report can be found in Appendix I: “Organizational Chart.”

Budget                                                                                   Figure 1.2
SIGTARP expended $19.6 million in fiscal year 2009, $33.5 million in fiscal year         SIGTARP FY 2012
2010, and $38.2 million in fiscal year 2011. In fiscal year 2011, 56% of SIGTARP’s       OPERATING PLAN
budget went to personnel costs and 24% went to services provided by other                ($ MILLIONS, PERCENTAGE OF $45.6 MILLION)
Government agencies, as noted in the breakdown of 2011 funding shown in Figure
                                                                                                        Other Services
1.1. In addition, in fiscal year 2011, SIGTARP spent a portion of funding received                           $2.1, 5%
initially upon its creation.
                                                                                                 Advisory Services
    On February 14, 2011, the Administration submitted to Congress Treasury’s                                $3.6
FY 2012 budget request, which included SIGTARP’s funding request for $47.4                                          8%
million. The FY 2012 House mark and Senate mark both provided approximately               Interagency
                                                                                          Agreements
$41.8 million. H.R. 2055 / Public Law 112-74, the Consolidated Appropriations                   $10.9         24%                 Salaries
Act, 2012, provides $41.8 million in annual appropriations.                                                               61%     and
    Figure 1.2 provides a detailed breakdown of SIGTARP’s FY 2012 budget,
                                                                                                                                  $27.9
which reflects a total operating plan of $45.6 million and includes spending from              Travel/
                                                                                        Transportation
SIGTARP’s initial funding.                                                                   $1.1, 2%
30   special inspector general I troubled asset relief program




                                            Physical and Technical SIGTARP Infrastructure
                                            SIGTARP’s headquarters are in Washington, DC, with regional offices in New York
                                            City, Los Angeles, San Francisco, and Atlanta. SIGTARP posts all of its reports,
                                            testimony, audits, and contracts on its website, www.SIGTARP.gov. Since its incep-
                                            tion, SIGTARP’s website has had more than 54.5 million web “hits,” and there
                                            have been more than 4.4 million downloads of SIGTARP’s quarterly reports.i




                                            i
                                                In October 2009, Treasury started to encounter challenges with its website counting system, and, as a result, changed to a new system
                                                in January 2010. SIGTARP has calculated the total number of website hits reported herein based on the number reported to SIGTARP
                                                as of September 30, 2009, plus an archived number provided by Treasury for October-December 2009 and information generated
                                                from Treasury’s new system from January 2010 through December 2011. Another system that has been introduced counts a different
                                                metric, “page views.” In the quarter ended December 31, 2011, the site recorded 34,482 page views; these are not comparable to
                                                figures from previous quarters.
sect io n 2   tarp overview
32   special inspector general I troubled asset relief program
                                                                            quarterly report to congress I January 26, 2012           33




This section summarizes how the U.S. Department of the Treasury (“Treasury”)
has managed the Troubled Asset Relief Program (“TARP”). This section also
reviews TARP’s overall finances, provides updates on established TARP component
programs, and gives the status of TARP executive compensation restrictions.



TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
     Treasury’s investment authority under TARP expired on October 3, 2010. This            Obligations: Definite commitments
means that Treasury could not make new obligations after that date. However,                that create a legal liability for the
dollars that have already been obligated to existing programs may still be expended.        Government to pay funds.
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury         Deobligations: An agency’s cancellation
has deobligated funds previously designated for some programs. As of December               or downward adjustment of previously
31, 2011, $470.1 billion is obligated to TARP programs.6 Of that amount, $413.8             incurred obligations.
billion had been spent and $51 billion remained obligated and available to be
spent.7 According to Treasury, as of December 31, 2011, it had written off $4.2
billion and realized losses of $7.8 billion that the taxpayer will never get back.8
There is $121 billion in TARP funds that remains outstanding.9
     With the expiration of TARP funding authorization, no new expenditures may
be made through most of the TARP programs because all obligated dollars have
been spent. For three programs — the housing programs, the Term Asset-Backed
Securities Loan Facility (“TALF”), and the Public-Private Investment Program
(“PPIP”) — dollars that were obligated but unspent as of October 3, 2010, are
available to be spent up to the obligated amount. Table 2.1 provides a breakdown of
program obligations, changes in obligations, expenditures, and obligations available
to be spent as of December 31, 2011. Table 2.1 lists 10 TARP sub-programs, in-
stead of all 13, because it excludes the Capital Assistance Program (“CAP”), which
was never funded, and summarizes three programs under “Automotive Industry
Support Programs.”
34   special inspector general I troubled asset relief program




                                            Table 2.1
                                             Obligations, Expenditures, and Obligations Available to Be Spent
                                             ($ Billions)

                                                                                          Obligation
                                                                                         After Dodd-                  Current                                          Available
                                                                                               Frank                Obligation             Expenditure              to Be Spent
                                             Program                                  (As of 10/3/2010)       (As of 12/31/2011)       (As of 12/31/2011)       (As of 12/31/2011)

                                             Housing Support Programs                             $45.6                    $45.6                      $3.0                   $42.6
                                             Capital Purchase Program                             204.9                    204.9                    204.9                         —
                                             Community Development
                                                                                                      0.6                      0.6                      0.2                       —a
                                             Capital Initiative
                                             Systemically Significant
                                                                                                    69.8                    67.8b                     67.8                        —
                                             Failing Institutions
                                             Targeted Investment
                                                                                                    40.0                    40.0                      40.0                        —
                                             Program
                                             Asset Guarantee Program                                  5.0                     5.0                         —                       —
                                             Term Asset-Backed
                                                                                                      4.3                     4.3                       0.1                     4.2
                                             Securities Loan Facility
                                             Public-Private Investment
                                                                                                    22.4                    21.9                      17.7                      4.2c
                                             Program
                                             Unlocking Credit for Small
                                                                                                      0.4                     0.4                       0.4                        —
                                             Businesses
                                             Automotive Industry
                                                                                                   81.8d                    79.7e                     79.7                         —
                                             Support Programs
                                             Total                                              $474.8                   $470.1                  $413.8f                     $51.0
                                             Notes: Numbers may not total due to rounding.
                                             a
                                               CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3
                                                million was related to CPP conversions for which no additional CDCI cash was expended and $100.7 million was for new CDCI
                                                expenditures for previous CPP participants. Of the total obligation, only $106 million went to non-CPP institutions.
                                             b
                                                Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
                                             c
                                                Total obligation of $22.4 billion and expenditure of $17.6 billion for PPIP includes $356.3 million of the initial obligation to The
                                                TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF; however, these dollars
                                                are not included in the amount available to be spent. Current obligation of $21.9 billion results because Invesco terminated its
                                                investment period on September 26, 2011, without fully drawing down all committed equity and debt. The undrawn debt of $550
                                                million was deobligated, but the undrawn equity was not.
                                             d
                                                Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4
                                                billion for Auto Supplier Support Program.
                                             e
                                                Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
                                             f
                                               The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash
                                               outlay.

                                             Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Daily TARP Update, 1/3/2012; Treasury, response to SIGTARP data
                                             call, 1/5/2012.



                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”),
                                            the Congressional Budget Office (“CBO”), and Treasury, whose estimated costs
                                            are audited each year by the Government Accountability Office (“GAO”). Cost
                                            estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
                                            loss and OMB’s August 2009 cost estimate of a $341 billion loss.10
                                                On November 8, 2011, in its semi-annual report on the cost of TARP assets,
                                            OMB estimated the lifetime cost of TARP at $53 billion based on data as of June
                                            30, 2011.11 That was an increase from its $48 billion estimate in February, which
                                                                            quarterly report to congress I January 26, 2012   35




was based on November 2010 data.12 According to OMB, the difference is largely
due to the lower value for AIG stock compared with November 2010. This estimate
assumes that all $45.6 billion of obligated funds for housing will be spent. It also
assumes that PPIP will make a profit of $1.5 billion and CPP will make a profit of
$7.2 billion, including principal repayments and revenue from dividends, warrants,
interest, and fees.
     On November 10, 2011, Treasury issued its September 30, 2011, fiscal year au-
dited agency financial statements for TARP, which contained a cost estimate of $70
billion.13 This estimate is an increase from Treasury’s March 31, 2011, estimate
of $49 billion. According to Treasury, “These costs fluctuate in large part due to
changes in the market prices of common stock for AIG and GM and the estimated
value of the Ally stock.”14 According to Treasury, the largest losses from TARP are
expected to come from housing programs and from assistance to AIG and the auto-
motive industry.15
     On December 16, 2011, CBO issued an updated TARP cost estimate based on
its evaluation of data as of November 15, 2011. CBO estimated the ultimate cost
of TARP would be $34 billion, up $15 billion from its estimate of $19 billion in
March 2011.16 This increase is due to the reduction in market value of Treasury’s
holdings in AIG and GM stock. CBO estimated that only $13 billion of obligated
funds for housing will be spent. The most recent TARP program cost estimates
from each agency are listed in Table 2.2.
36   special inspector general I troubled asset relief program




                                            Table 2.2
                                             Cost (gain) of TARP Programs                               ($ Billions)

                                                                                                                                                       Treasury Estimate,
                                                                                                                                                            TARP Audited
                                                                                                                                                         Agency Financial
                                             Program Name                                 OMB Estimate                       CBO Estimate                      Statement
                                                 Report issued:                               11/8/2011                       12/16/2011                        11/10/2011
                                                 Data as of:                                  6/30/2011                       11/15/2011                         9/30/2011
                                             Housing Support
                                                                                                          $46                               $13                              $46
                                             Programs
                                             CPP                                                            (7)                             (17)                              (13)
                                             SSFI                                                           20                               25                                   24
                                             TIP and AGP                                                    (7)                               (8)                                 (8)
                                             TALF                                                            0                                 0                                   0
                                             PPIP                                                           (2)                                0                             (2.4)
                                             Automotive Industry
                                                                                                            20                               20                                   24
                                             Support Programsa
                                             Otherb                                                           *                                *                                   *
                                             Total                                                       $69                              $34c                              $70d
                                             Interest on Reestimatese                                     (16)
                                             Adjusted Total                                             $53d
                                             Notes: Numbers may not total due to rounding.
                                             a
                                               Includes AIFP, ASSP, and AWCP.
                                             b
                                                Consists of CDCI and UCSB, both of which have estimated costs between negative $500 million and $500 million.
                                             c
                                               The estimate is before administrative costs and interest effects.
                                             d
                                                The estimate includes interest on reestimates but excludes administrative costs.
                                             e
                                               Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
                                                estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

                                             Sources: OMB Estimate—OMB, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 11/8/2011, www.
                                             whitehouse.gov/sites/default/files/omb/reports/emergency-economic-stabilization-act-of-2008.pdf, accessed 12/15/2011;
                                             CBO Estimate—CBO, “Report on the Troubled Asset Relief Program–December 2011,” 12/16/2011, www.cbo.gov/doc.
                                             cfm?index=12611, accessed 12/21/2011; Treasury Estimate— Treasury, “Office of Financial Stability –Troubled Asset Relief
                                             Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
                                             reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 11/21/2011.




                                            FINANCIAL OVERVIEW OF TARP
                                            Treasury had obligated $474.8 billion of the $475 billion ceiling under Dodd-
                                            Frank, but in 2011 deobligated funds for several programs, reducing obligations to
                                            $470.1 billion as of December 31, 2011. Of the total obligations, $413.8 billion
                                            was expended as of December 31, 2011.17
                                                 According to Treasury, as of December 31, 2011, 282 TARP recipients (includ-
                                            ing 279 banks, two auto companies, and one former PPIP manager) had paid back
                                            all of their principal or repurchased shares and 20 TARP recipients had partially
                                            repaid their principal or repurchased their shares, for a total of $277.9 billion.18
                                            These numbers include four PPIP managers who have made partial payments over
                                            the lifetime of the program. According to Treasury, it has incurred write-offs of $4.2
                                            billion and realized losses of $7.8 billion as of December 31, 2011, which taxpay-
                                            ers will never get back.19 As of that date, $121 billion of TARP funds remained
                                                                                quarterly report to congress I January 26, 2012                                 37




outstanding after these write-offs and realized losses. There remains approximately             FIGURE 2.1
$51 billion still available to be spent.20 Figure 2.1 provides a snapshot of the
                                                                                                CURRENT TARP OBLIGATIONS,
cumulative obligations, expenditures, and repayments as of December 31, 2011.                   EXPENDITURES, AND REPAYMENTS
According to Treasury, as of December 31, 2011, the Government had also col-                    ($ BILLIONS)

lected $40.3 billion in interest, dividends, and other income, including $9.1 billion          $500
in proceeds from the sale of warrants and stock received as a result of exercised
                                                                                                            $470.1
warrants.21                                                                                     400
                                                                                                                                $413.8
    Most of the outstanding TARP money is in the form of equity ownership in 458
                                                                                                300
institutions as of December 31, 2011. Treasury (and therefore the taxpayer) remains
a shareholder in companies that have not repaid the Government. Treasury’s equity                                                                   $277.9
                                                                                                200
ownership is largely in two forms — common and preferred stock — although it also
has received debt in the form of senior subordinated debentures.                                100
    As of December 31, 2011, obligated funds totaling $51 billion were still avail-
able to be drawn down by TARP recipients under three of TARP’s 13 announced                           0
                                                                                                          TARP                TARP                TARP
programs.22 TARP’s component programs fall into four categories, depending on                             Obligations         Expendituresa       Repaymentsb
the type of assistance offered:
                                                                                                Notes: As of 12/31/2011. Numbers may not total due to rounding.
                                                                                                a
                                                                                                    Expenditure total does not include $5.0 billion for AGP as this
•	 Housing Support Programs — These programs are intended to help                                   amount was not an actual cash outlay.
                                                                                                b
                                                                                                    Repayments include $185.5 billion for CPP, $40.0 billion for
   homeowners who are having trouble making their mortgage payments by                              TIP, $35.2 billion for Auto Programs, $1.3 billion for PPIP, and
                                                                                                    $15.9 billion for SSFI. The $15.9 billion payment for SSFI includes
   providing incentives for foreclosure alternatives.                                               amounts applied to (i) pay accrued preferred returns and (ii)
•	 Financial Institution Support Programs — These programs share a common                           redeem the outstanding liquidation amount.
                                                                                                Sources: Treasury, Transactions Report, 1/4/2012; Treasury,
   stated goal of stabilizing financial markets and improving the economy.                      response to SIGTARP data call, 1/5/2012; Treasury, Daily TARP
•	 Asset Support Programs — These programs attempt to support asset values                      Update, 1/3/2012.

   and market liquidity by providing funding to certain holders or purchasers of
   assets.
•	 Automotive Industry Support Programs — These programs are intended to
   stabilize the U.S. automotive industry and promote market stability.

Housing Support Programs
The stated purpose of TARP’s housing support programs is to help homeowners
and financial institutions that hold troubled housing-related assets. Although
Treasury originally committed to use $50 billion in TARP funds for these programs,
it obligated only $45.6 billion.23 As of December 31, 2011, $3 billion, or 6.6% of
this amount, has been expended.




 Common Stock: Equity ownership entitling    Preferred Stock: Equity ownership that          Senior Subordinated Debentures: Debt
 an individual to share in corporate         usually pays a fixed dividend before            instrument ranking below senior debt but
 earnings and voting rights.                 distributions for common stock owners           above equity with regard to investors’
                                             but only after payments due to debt             claims on company assets or earnings.
                                             holders. It typically confers no voting
                                             rights. Preferred stock also has priority
                                             over common stock in the distribution
                                             of assets when a bankrupt company is
                                             liquidated.
38   special inspector general I troubled asset relief program




                                            •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                               umbrella program for Treasury’s foreclosure mitigation efforts is intended to
                                               “help bring relief to responsible homeowners struggling to make their mortgage
                                               payments, while preventing neighborhoods and communities from suffering
                                               the negative spillover effects of foreclosure, such as lower housing prices,
                                               increased crime, and higher taxes.”24 MHA, for which Treasury has obligated
                                               $29.9 billion of TARP funds, consists of the Home Affordable Modification
                                               Program (“HAMP”), which modifies first-lien mortgages to reduce payments,
                                               the Federal Housing Administration (“FHA”) HAMP loan modification option
                                               for FHA-insured mortgages (“Treasury/FHA-HAMP”), the U.S. Department
                                               of Agriculture Office of Rural Development (“RD”) HAMP (“RD-HAMP”),
                                               the Home Affordable Foreclosure Alternatives (“HAFA”) program, and the
                                               Second Lien Modification Program (“2MP”).25 HAMP in turn encompasses
                                               various initiatives in addition to the modification of first-lien mortgages,
                                               including Home Price Decline Protection (“HPDP”), the Principal Reduction
                                               Alternative (“PRA”), and the Home Affordable Unemployment Program
                                               (“UP”).26 Additionally, the overall MHA obligation of $29.9 billion includes
                                               $2.7 billion to support the Treasury/FHA Second-Lien Program (“FHA2LP”),
                                               which complements the FHA Short Refinance program (discussed later) and is
                                               intended to support the extinguishment of second-lien loans.27
                                                    As of December 31, 2011, MHA had expended $2.3 billion of TARP
                                                money.28 As of that date, there were 363,031 active permanent first-lien modi-
                                                fications under the completed TARP-funded portion of HAMP, an increase of
                                                22,731 active permanent modifications over the past quarter.29 Total expendi-
                                                tures in incentives and payments for HAFA were $99.5 million in connection
                                                with 26,061 deed-in-lieu and short sale transactions. Expenditures in incentives
                                                and payments for 2MP were $95.6 million in connection with 12,599 full ex-
                                                tinguishments, 1,998 partial extinguishments, and 46,362 permanent modifica-
                                                tions of second liens.30 For more detailed information, including participation
                                                numbers for each of the MHA programs and subprograms, see the “Housing
                                                Support Programs” discussion in this section.
                                            •	 FHA Short Refinance Program — Treasury has allocated $8.1 billion of
                                               TARP funding to this program to purchase a letter of credit to provide loss
                                               protection on refinanced first liens. Additionally, to facilitate the refinancing of
                                               non-FHA mortgages into new FHA-insured loans under this program, Treasury
                                               has allocated approximately $2.7 billion in TARP funds for incentive payments
                                               to servicers and holders of existing second liens for full or partial principal
                                               extinguishments under the related FHA2LP; these funds are part of the overall
                                               MHA funding of $29.9 billion, as noted above.31 As of December 31, 2011,
                                               there have been 646 refinancings under the program.32 For more detailed
                                               information, see the “Housing Support Programs” discussion in this section.
                                            •	 Housing Finance Agency (“HFA”) Hardest-Hit Fund (“HHF”) — The stated
                                               purpose of this program was to provide TARP funding for “innovative measures
                                               to help families in the states that have been hit the hardest by the aftermath
                                               of the housing bubble.”33 Treasury obligated $7.6 billion for this program.34
                                                                             quarterly report to congress I January 26, 2012               39




   As of December 31, 2011, $722.2 million had been drawn down by the states
   from HHF, which includes funds for program expenses (direct assistance to
   borrowers), administrative expenses and cash-on-hand.35 For more detailed
   information, see the “Housing Support Programs” discussion in this section.

Financial Institution Support Programs
Treasury primarily invests capital directly into the financial institutions including        Systemically Significant Institutions:
banks, bank holding companies, and, if deemed by Treasury critical to the financial          Term referring to any financial
system, some systemically significant institutions.36                                        institution whose failure would impose
                                                                                             significant losses on creditors and
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                           counterparties, call into question the
   purchased preferred stock or subordinated debentures in qualifying financial              financial strength of similar institutions,
   institutions (“QFIs”).37 CPP was intended to provide funds to “stabilize and              disrupt financial markets, raise
   strengthen the U.S. financial system by increasing the capital base of an                 borrowing costs for households and
   array of healthy, viable institutions, enabling them [to] lend to consumers and           businesses, and reduce household
   business[es].”38 Treasury invested $204.9 billion in 707 institutions through             wealth.
   CPP, which closed to new funding on December 29, 2009. As of December 31,
   2011, Treasury had received $185.5 billion (or 90.5% of Treasury’s expenditures           Qualifying Financial Institutions (“QFIs”):
   under CPP) in principal repayments and proceeds from sales of common                      Private and public U.S.-controlled
   stock.39 Of the repaid amount, $355.7 million comes from the principal that               banks, savings associations, bank
   was converted from CPP investments into CDCI investments and therefore                    holding companies, certain savings
   still represents outstanding obligations to TARP.40 Of the repaid amount, $2.2            and loan holding companies, and
   billion comes from 137 institutions that exited TARP by refinancing their                 mutual organizations.
   outstanding CPP investment into the Small Business Lending Fund (“SBLF”).
   Treasury continues to manage its portfolio of CPP investments, including, for             Community Development Financial
   certain struggling institutions, converting its preferred equity ownership into a         Institutions (“CDFIs”): Financial
   more junior form of equity ownership, often at a discount to par value (which             institutions eligible for Treasury funding
   may result in a loss) in an attempt to preserve some value that might be lost if          to serve urban and rural low-income
   these institutions were to fail. For more detailed information, see the “Capital          communities through the CDFI Fund.
   Purchase Program” discussion in this section.                                             CDFIs were created in 1994 by the
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,                           Riegle Community Development and
   Treasury used TARP money to buy preferred stock in or subordinated debt from              Regulatory Improvement Act. These
   Community Development Financial Institutions (“CDFIs”). Treasury intended                 entities must be certified by Treasury;
   for CDCI to “improve access to credit for small businesses in the country’s               certification confirms that they target
   hardest-hit communities.”41 Under CDCI, TARP made capital investments                     at least 60% of their lending and other
   in the preferred stock or subordinated debt of eligible banks, bank holding               economic development activities
   companies, thrifts, and credit unions.42 Eighty-four institutions received $570.1         to areas underserved by traditional
   million in funding under CDCI.43 However, 28 of these institutions converted              financial institutions.
   their existing CPP investment into CDCI ($363.3 million of the $570.1 million)
   and ten of those that converted received combined additional funding of $100.7
   million under CDCI.44 Only $106 million of CDCI money went to institutions
   that were not already TARP recipients.
•	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
   enabled Treasury to invest in systemically significant institutions to prevent
   them from failing.45 Only one firm received SSFI assistance: American
40            special inspector general I troubled asset relief program




                                                        International Group, Inc. (“AIG”). The Government’s rescue of AIG involved
                                                        several different funding facilities provided by the Federal Reserve Bank of
                                                        New York (“FRBNY”) and Treasury, with various changes to the transactions
                                                        over time. The rescue of AIG was led by FRBNY and the Board of Governors
                                                        of the Federal Reserve System (“Federal Reserve”). With the passage of EESA
                                                        in October 2008, Treasury took on a greater role in the AIG rescue as the
                                                        government expanded and restructured its aid.
                                                             There were two TARP investments in AIG. On November 25, 2008,
                                                         Treasury bought $40 billion of AIG’s preferred stock, the proceeds of which
                                                         were used to repay a portion of AIG’s debt to FRBNY. Then, on April 17, 2009,
                                                         Treasury obligated approximately $29.8 billion to an equity capital facility that
                                                         AIG was allowed to draw on as needed.46
                                                             On January 14, 2011, AIG executed its previously announced
                                                         Recapitalization Plan with Treasury, FRBNY, and the AIG Credit Facility Trust
                                                         (“AIG Trust”). According to Treasury, the intent of the restructuring was to
                                                         facilitate the repayment of AIG’s government loans and investments and to
                                                         promote AIG’s transition from a majority government owned and supported en-
                                                         tity to a financially sound and independent entity.47 Under the Recapitalization
                                                         Plan, AIG fully repaid FRBNY’s revolving credit facility, purchased the remain-
                                                         der of FRBNY’s preferred equity interests in two AIG subsidiaries (which it then
                                                         transferred to Treasury), and Treasury converted its preferred stock holdings
                                                         (along with the preferred stock holdings held by the AIG Trust) into an approxi-
                                                         mately 92% common equity ownership stake in AIG. The three main steps of
                                                         the Recapitalization Plan are briefly described below.
                                                        çç AIG repaid and terminated its revolving credit facility with FRBNY with
                                                              cash proceeds that it had received from sales of equity interests in two
                                                              companies: American International Assurance Co., Ltd. (“AIA”) and
     Special Purpose Vehicle (“SPV”):
                                                              American Life Insurance Company (“ALICO”).48
     Off-balance-sheet legal entity that
                                                        çç AIG applied cash proceeds from the AIA IPO and ALICO sale to retire a
     holds transferred assets presumptively
                                                              portion of the FRBNY’s preferred interests in the special purpose vehicle
     beyond the reach of the entities
                                                              (“SPV”) that held ALICO.49 AIG next drew down an additional $20.3 billion
     providing the assets, and that is legally
                                                              in available TARP funds from the equity capital facility to repurchase the
     isolated from its sponsor or parent
                                                              remainder of the FRBNY’s preferred interests in the ALICO SPV and all
     company.
                                                              of the FRBNY’s preferred interests in the AIA SPV. AIG then transferred
                                                              the preferred interests to Treasury. AIG designated its remaining $2 billion
                                                              TARP equity capital facility to a new Series G standby equity commitment
                                                              available for general corporate purposes, which has been subsequently
                                                              terminated without drawdown.50
                                                        çç AIG issued common stock in exchange for the preferred shares held by
                                                              Treasury and the AIG Trust. The conversion resulted in Treasury holding a
                                                              common equity ownership in AIG of approximately 92.1%.51
                                                             On May 27, 2011, Treasury sold 200 million shares of AIG’s common
                                                         stock for $5.8 billion in proceeds, which decreased Treasury’s equity owner-
                                                         ship to 77%. For more detailed information on the Recapitalization Plan, the
                                                         sale of AIG common stock, and other AIG transactions, see the “Systemically
                                                                              quarterly report to congress I January 26, 2012            41




    Significant Failing Institutions Program” discussion in this section.
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
   financial institutions it deemed critical to the financial system.52 There were two
   expenditures under this program, totaling $40 billion — the purchases of $20
   billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
   of America Corp. (“Bank of America”).53 Treasury also accepted common stock
   warrants from each, as required by EESA. Both banks fully repaid Treasury
   for its TIP investments.54 Treasury auctioned its Bank of America warrants on
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.55
                                                                                              Senior Preferred Stock: Shares that
   For more information on these two transactions, see the “Targeted Investment
                                                                                              give the stockholder priority dividend
   Program and Asset Guarantee Program” discussion in this section.
                                                                                              and liquidation claims over junior
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
                                                                                              preferred and common stockholders.
   insurance-like protection for a select pool of mortgage-related or similar
   assets held by participants whose portfolios of distressed or illiquid assets
                                                                                              Illiquid Assets: Assets that cannot be
   threatened market confidence.56 Treasury, the Federal Deposit Insurance
                                                                                              quickly converted to cash.
   Corporation (“FDIC”), and the Federal Reserve offered certain loss protections
   in connection with $301 billion in troubled Citigroup assets.57 In exchange for
                                                                                              Trust Preferred Securities (“TRUPS”):
   providing the loss protection, Treasury received $4 billion of preferred stock
                                                                                              Securities that have both equity and
   that was later converted to trust preferred securities (“TRUPS”) on a dollar-for-
                                                                                              debt characteristics, created by
   dollar basis. The FDIC received $3 billion of preferred stock that was similarly
                                                                                              establishing a trust and issuing debt
   converted.58 On December 23, 2009, in connection with Citigroup’s TIP
                                                                                              to it.
   repayment, Citigroup and the Government terminated the AGP agreement.
   Under the agreement, Treasury’s guarantee commitment was terminated with
                                                                                              Asset-Backed Securities (“ABS”): Bonds
   no loss to the Government. In addition, Treasury agreed to cancel $1.8 billion
                                                                                              backed by a portfolio of consumer
   of the TRUPS issued by Citigroup, reducing the amount of preferred stock from
                                                                                              or corporate loans, e.g., credit card,
   $4 billion to $2.2 billion, in exchange for early termination of the guarantee.
                                                                                              auto, or small-business loans. Financial
   Additionally, the FDIC and Treasury agreed that at the close of Citigroup’s
                                                                                              companies typically issue ABS backed
   participation in the FDIC’s Temporary Liquidity Guarantee Program, the FDIC
                                                                                              by existing loans in order to fund new
   will transfer to Treasury $800 million of TRUPS that it retained as a premium,
                                                                                              loans for their customers.
   if no loss is suffered.59 On September 30, 2010, Treasury announced the sale
   of all of its TRUPS for $2.2 billion in gross proceeds, which represents a profit
   to taxpayers.60 On January 25, 2011, Treasury auctioned for $67.2 million the
   warrants it had received from Citigroup under AGP.61 For more information
   on this program, see the “Targeted Investment Program and Asset Guarantee
   Program” discussion in this section.

Asset Support Programs
The stated purpose of these programs was to support the liquidity and market value
of assets owned by financial institutions. These assets included various classes of
asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
programs sought to bolster the balance sheets of financial firms and help free
capital so that these firms could extend more credit to support the economy.

•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
   originally designed to increase credit availability for consumers and small
42             special inspector general I troubled asset relief program




                                                         businesses through a $200 billion Federal Reserve loan program. TALF provided
                                                         investors with non-recourse loans secured by certain types of ABS, including
                                                         credit card receivables, auto loans, equipment loans, student loans, floor
                                                         plan loans, insurance-premium finance loans, loans guaranteed by the Small
                                                         Business Administration (“SBA”), residential mortgage servicing advances, and
                                                         commercial mortgage-backed securities (“CMBS”).62 TALF closed to new loans
                                                         in June 2010.63 TALF ultimately provided $71.1 billion in Federal Reserve
     Commercial Mortgage-Backed                          financing. Of that amount, $9 billion remained outstanding as of December
     Securities (“CMBS”): Bonds backed by                31, 2011.64 FRBNY made 13 rounds of TALF loans with non-mortgage-related
     one or more mortgages on commercial                 ABS as collateral, totaling approximately $59 billion, with $7 billion of TALF
     real estate (e.g., office buildings, rental         borrowings outstanding as of December 31, 2011.65 FRBNY also made 13
     apartments, hotels).                                rounds of loans with CMBS as collateral totaling $12.1 billion, with $2 billion
                                                         in loans outstanding as of December 31, 2011.66 Treasury originally obligated
     Legacy Securities: Real estate-related              $20 billion of TARP funds to support this program by providing loss protection
     securities originally issued before                 to the loans extended by FRBNY in the event that a borrower surrendered the
     2009 that remained on the balance                   ABS collateral and walked away from the loan.67 As of December 31, 2011,
     sheets of financial institutions because            there had been no surrender of collateral.68 In July 2010, Treasury reduced its
     of pricing difficulties that resulted from          obligation for TALF to $4.3 billion based on the amount of loans outstanding
     market disruption.                                  at the end of the active lending phase of the program in June 2010.69 As of
                                                         December 31, 2011, $2 million in TARP funds had been allocated under TALF
     Non-Agency Residential Mortgage-                    for administrative expenses.70 For more information on these activities, see the
     Backed Securities (“non-agency                      “TALF” discussion in this section.
     RMBS”): Financial instrument backed              •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
     by a group of residential real estate               credit markets by using a combination of private equity, matching Government
     mortgages (i.e., home mortgages for                 equity, and Government debt to purchase legacy securities, i.e., CMBS and
     residences with up to four dwelling                 non-agency residential mortgage-backed securities (“non-agency RMBS”).71
     units) not guaranteed or owned by                   Under the program, eight Public-Private Investment Funds (“PPIFs”) managed
     a Government-sponsored enterprise                   by private asset managers invested in non-agency RMBS and CMBS. Treasury
     (“GSE”) or a Government Agency.                     obligated $22.4 billion in TARP funds to the program, which was decreased to
                                                         $21.9 billion after Invesco terminated its investment period.72 As of December
                                                         31, 2011, the PPIFs had drawn down $17.7 billion in debt and equity financing
                                                         from Treasury funding out of the total obligation, which includes $1.3 billion
                                                         that has been repaid.73 As the PPIFs continue to make purchases, they will
                                                         continue to have access to draw down the remaining funding through the end
                                                         of their investment periods, the last of which will expire in December 2012.74
                                                         Following the expiration of the investment period, the fund managers will have
                                                         five years to manage and sell off the investment portfolio in the PPIF and return
                                                         proceeds to private investors and taxpayers. This period may be extended up to
                                                         a maximum of two years. For details about the program structure and fund-
                                                         manager terms, see the “Public-Private Investment Program” discussion in this
                                                         section.
                                                      •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
                                                         Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
                                                         officials announced that Treasury would buy up to $15 billion in securities
                                                         backed by SBA loans under UCSB.75 Treasury entered into agreements with
                                                                              quarterly report to congress I January 26, 2012    43




   two pool assemblers, Coastal Securities, Inc. (“Coastal Securities”), and Shay
   Financial Services, Inc. (“Shay Financial”).76 Under the agreements, Treasury’s
   agent, Earnest Partners, purchased SBA pool certificates from Coastal                      SBA Pool Certificate: Ownership
   Securities and Shay Financial without confirming to the counterparties that                interest in a bond backed by SBA
   Treasury was the buyer.77 Treasury obligated a total of $400 million for UCSB              guaranteed loans.
   and made purchases of $368.1 million in 31 securities under the program. On
   June 2, 2011, Treasury announced its intention to sell the securities over time.
   As of December 31, 2011, Treasury had completed sales of a total of 23 SBA
   7(a) securities for gross proceeds of $271.7 million, leaving eight securities in
   Treasury’s portfolio.78 For more information on the program, see the discussion
   of “Unlocking Credit for Small Businesses/Small Business Administration Loan
   Support” in this section.

Automotive Industry Financing Program (“AIFP”)
TARP’s automotive industry support through AIFP aimed to “prevent a significant
disruption of the American automotive industry, which would pose a systemic
risk to financial market stability and have a negative effect on the economy of the
United States.”79
     Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
(“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”), and
General Motors Company (“GM”). Additionally, Treasury bought senior preferred
stock from GMAC Inc. (“GMAC”), which was later renamed Ally Financial Inc.
(“Ally Financial”), and assisted Chrysler and GM during their bankruptcy restruc-
turings. Treasury obligated $84.8 billion to AIFP, then reduced the total obligation
to $81.8 billion (including approximately $2.1 billion in loan commitments to
New Chrysler that were never drawn down).80 As of December 31, 2011, $79.7
billion had been disbursed through AIFP and Treasury had received $35.4 bil-
lion in principal repayments, preferred stock redemption proceeds, and stock sale
proceeds. As of December 31, 2011, Treasury had received approximately $22.5
billion related to its GM investment, $7.6 billion related to its Chrysler investment,
$2.7 billion related to its Ally Financial/GMAC investment, and $1.5 billion related
to its Chrysler Financial investment. As of December 31, 2011, Treasury had also
received approximately $4.6 billion in dividends and interest under AIFP and its
two subprograms, ASSP and AWCP.81
     In return for a total of $49.5 billion in loans, Treasury received $6.7 billion
in debt in GM (which was subsequently repaid), in addition to $2.1 billion in
preferred stock and a 60.8% common equity stake.82 As of December 31, 2011,
Treasury has an $855.9 million claim against Old GM’s bankruptcy, which recently
terminated.83 Treasury does not expect any significant additional proceeds from
this claim.84 On December 2, 2010, GM closed an initial public offering (“IPO”)
in which Treasury sold a portion of its ownership stake for $18.1 billion in gross
proceeds, reducing its ownership percentage to 33.3% (an amount that could be
diluted should GM’s bondholders or the United Auto Workers Retiree Medical
Benefits Trust exercise warrants they received).85 On December 15, 2010, GM
repurchased the $2.1 billion in preferred stock from Treasury. As of December 31,
44   special inspector general I troubled asset relief program




                                            2011, Treasury had received $22.5 billion in principal repayments, proceeds from
                                            preferred stock redemptions, and proceeds from the sale of common stock from
                                            GM, including approximately $129.9 million in repayments related to its right to
                                            recover proceeds from Old GM.86
                                                 Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
                                            Inc. (“Old Chrysler”), and Chrysler Group LLC (“New Chrysler”), of which $2.1
                                            billion was never drawn down.87 Treasury also received a 9.9% equity stake, which
                                            was diluted to 8.6% in April 2011 after Fiat increased its ownership interest by
                                            meeting certain performance metrics. Upon full repayment of New Chrysler’s
                                            TARP debt obligations on May 24, 2011, Fiat simultaneously exercised an equity
                                            call option, which increased its stake in New Chrysler to 46% from 30%. As a
                                            result, Treasury’s equity stake in New Chrysler was diluted and further decreased to
                                            6.6%.88 On July 21, 2011, Treasury sold to Fiat for $500 million Treasury’s remain-
                                            ing equity ownership interest in New Chrysler.89 Treasury also sold to Fiat for $60
                                            million Treasury’s rights to receive proceeds under an agreement with the United
                                            Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New Chrysler
                                            on a fully diluted basis.90 Treasury retains the right to recover certain proceeds from
                                            Old Chrysler’s bankruptcy but according to Treasury, it is unlikely to recover its full
                                            investment.
                                                 Treasury invested a total of $17.2 billion in Ally Financial. On December 30,
                                            2010, Treasury’s investment was restructured to provide for a 73.8% common
                                            equity stake, $2.7 billion in TRUPS (including amounts received in warrants that
                                            were immediately converted into additional securities), and $5.9 billion in manda-
                                            torily convertible preferred shares.91 Treasury sold the $2.7 billion in TRUPS on
                                            March 2, 2011.92 On March 31, 2011, Ally Financial announced that it had filed
                                            a registration statement with the Securities and Exchange Commission (“SEC”)
                                            for a proposed IPO of common stock owned by Treasury. On May 17, 2011, June
                                            3, 2011, June 29, 2011, August 18, 2011, and December 2, 2011, Ally Financial
                                            disclosed additional details about its upcoming IPO in amended registration state-
                                            ments filed with the SEC. Concurrent with the IPO, Treasury plans to convert
                                            $2.9 billion of its existing $5.9 billion of mandatorily convertible preferred shares
                                            (“MCP”) into common stock.93 Treasury will exchange the remaining $3 billion of
                                            its MCP into so-called tangible equity units, a type of preferred stock, and will offer
                                            a portion of these tangible equity units alongside the common equity offering.94
                                                 Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
                                            repaid with interest in July 2009.95
                                                 For details on assistance to these companies, see the “Automotive Industry
                                            Support Programs” discussion in this section.
                                                 AIFP also included two subprograms:

                                            •	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
                                               program was intended to provide auto suppliers “with the confidence they need
                                               to continue shipping their parts and the support they need to help access loans
                                               to pay their employees and continue their operations.”96 Under the program,
                                               which ended in April 2010, Treasury made loans for GM ($290 million) and
                                                                             quarterly report to congress I January 26, 2012   45




   Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
   fees and other income.97 For more information, see the “Auto Supplier Support
   Program” discussion in this section.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
   vehicle warranties during the companies’ restructuring through bankruptcy. It
   ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
   with interest and GM repaid just the principal — $360.6 million — of its
   loan.98 For more information, see the “Auto Warranty Commitment Program”
   discussion in this section.

    The following tables and figures summarize the status of TARP and TARP-
related initiatives:

•	 Table 2.3 — total funds subject to SIGTARP oversight as of December 31, 2011
•	 Table 2.4 — obligations/expenditures by program as of December 31, 2011
•	 Table 2.5 and Table 2.6 — summary of TARP terms and agreements
•	 Table 2.7 — summary of largest warrant positions held by Treasury, by program,
   as of December 31, 2011
•	 Table 2.8 — summary of dividends, interest payments, and fees received, by
   program, as of December 31, 2011

   For a report of all TARP purchases, obligations, expenditures, and revenues, see
Appendix C: “Reporting Requirements.”
46                special inspector general I troubled asset relief program




     TABLE 2.3
      TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 12/31/2011                                                               ($ Billions)
      Numbers in parentheses represent repayments and reductions in exposure

                                                                                                                                                                          TARP Funding                     TARP
                                                                                                                                                                            after Dodd-             Funding as of
      Program                                                   Brief Description or Participant                                                   Total Funding                  Frank             12/31/2011
      Housing Support Programs                                  Modification of mortgage loans                                                               $70.6a                  $45.6b                   $45.6
      Capital Purchase Program (“CPP”)                          Investments in 707 banks; received $185.5 billion in                                         204.9                   204.9                    204.9
      CLOSED                                                    principal repayments                                                                        (185.5)                 (185.5)                  (185.5)
      Community Development Capital
      Initiative (“CDCI”)                                       Investments in Community Development Financial
                                                                                                                                                                0.6                      0.6                      0.6
                                                                Institutions (“CDFIs”)
      CLOSED
      Systemically Significant Failing
                                                                AIG Investment; received $18.2 billion in repayments and                                       69.8                    69.8                     67.8
      Institutions (“SSFI”)
                                                                reduced Government exposure by $2 billion                                                     (20.2)c                 (20.2)c                  (20.2)c
      CLOSED
      Targeted Investment Program (“TIP”)                                                                                                                      40.0                    40.0                     40.0
                                                                Citigroup, Bank of America Investments
      CLOSED                                                                                                                                                  (40.0)                  (40.0)                   (40.0)
      Asset Guarantee Program (“AGP”)                                                                                                                        301.0                       5.0                      5.0
                                                                Citigroup, ring-fence asset guarantee
      CLOSED                                                                                                                                                (301.0)                     (5.0)                    (5.0)

      Term Asset-Backed Securities Loan                         FRBNY non-recourse loans for purchase of asset-backed                                          71.1                      4.3d                     4.3d
      Facility (“TALF”)                                         securities                                                                                      (0.0)                   (0.0)                    (0.0)
                                                                Investments in legacy mortgage-backed securities using                                         29.8e                   22.4f                    21.9
      Public-Private Investment Program
                                                                private and Government equity, along with Government
      (“PPIP”)                                                                                                                                                  (1.3)                   (1.3)                    (1.3)
                                                                debt
      Unlocking Credit for Small Businesses
                                                                                                                                                                0.4g                     0.4g                     0.4g
      (“UCSB”)                                                  Purchase of securities backed by SBA loans
                                                                                                                                                                (0.3)                   (0.3)                    (0.3)
      CLOSED
                                                                GM, Chrysler, Ally Financial Inc. (formerly GMAC),
      Automotive Industry Financing Program                     Chrysler Financial; received $34.4 billion in loan                                             80.7                    80.7                     78.7
      (“AIFP”)                                                  repayments, preferred stock redemptions and proceeds
                                                                from the sale of common stock; terminated Chrysler’s                                          (36.5)                  (36.5)                   (36.5)
      CLOSED
                                                                $2.1 billion in undrawn loan commitments
      Auto Suppliers Support Program
                                                                Government-backed protection for auto parts suppliers;                                          0.4h                     0.4h                     0.4
      (“ASSP”)
                                                                received $0.4 billion in loan repayments                                                        (0.4)                   (0.4)                    (0.4)
      CLOSED
      Auto Warranty Commitment Program                          Government-backed protection for warranties of cars                                             0.6                      0.6                      0.6
      (“AWCP”)                                                  sold during the GM and Chrysler bankruptcy restructuring
                                                                periods                                                                                         (0.6)                   (0.6)                    (0.6)
      CLOSED
      Total Obligations                                                                                                                                   $869.9                   $474.8                  $470.1
      Notes: Numbers may not total due to rounding.
      a
         Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the
         $25 billion estimated to be spent by the GSEs, the total program amount is $70.6 billion.
      b
         Treasury reduced its commitment from $50 billion to an obligation of $45.6 billion.
      c
         The $20.2 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and the cancellation of the
         series G capital facility. Includes all proceeds from the sale of AIG stock. However, Treasury does not include in its calculation on its AIG investment proceeds from the sale of AIG stock that Treasury
         received from the AIG credit facility trust in the January 2011 recapitalization.
      d
         Treasury reduced obligation from $20 billion to $4.3 billion.
      e
         PPIP funding includes $7.4 billion of private-sector equity capital and includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
      f
        Treasury reduced its commitment to $22.4 billion after fund managers did not raise enough private-sector capital for the initial pledge of $30 billion. Treasury reduced the committed amount again after
        Invesco terminated its investment period on September 26, 2011, without fully drawing down all available financing.
      g
         Treasury reduced commitment from $15 billion to an obligation of $400 million.
      h
         Treasury’s original commitment under this program was $5 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.

      Sources: Treasury, Transactions Report, 1/4/2012; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-center/
      press-releases/Pages/hp1358.aspx, accessed 1/8/2012; FRBNY, response to SIGTARP data call, 1/5/2012; Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.
      treasury.gov/press-center/press-releases/Documents/housing_fact_sheet.pdf, accessed 1/8/2012; Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended
      September 30, 2010,” 10/20/2010, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/External%20Report%20-%2009-10%20vFinal.pdf,
      accessed 1/8/2012.
                                                                                            quarterly report to congress I January 26, 2012                 47




TABLE 2.4
OBLIGATION/EXPENDITURE LEVELS BY PROGRAM                        ($ Billions)

                                                                Amount          Percent (%)
Authorized Under EESA	                            $700.0
Released Immediately                                                250.0               52.6%
Released Under Presidential Certificate of Need                     100.0               21.1%
Released Under Presidential Certificate of Need &
Resolution to Disapprove Failed                                     350.0               73.7%
Helping Families Save Their Home Act of 2009                         (1.2)              -0.3%
The Dodd-Frank Act                                              (223.8)             -47.1%
Total Released                                                 $475.0              100.0%


                                Obligations        Current                    Current            Repaid/
Less: Obligations by            after Dodd-  Obligations as           Obligation as %           Reduced       Obligation
Treasury under TARPa              Frank Act of 12/31/2011                 of Released           Exposure    Outstandingb       Section Reference
 Making Home Affordable
                                       $29.9                $29.9               6.4%
 (“MHA”)
 Housing Finance Agency:
                                        $7.6                 $7.6               1.6%                                       “Housing Support Programs”
 Hardest Hit Fund (“HHF”)
 FHA Short Refinance
                                        $8.1                 $8.1               1.7%
 Program
 Housing Support
                                      $45.6                 $45.6               9.7%                  —           $45.6
 Programs Total
 Capital Purchase                                                                                                          “Financial Institution Support
                                     $204.9                $204.9              43.6%             ($185.5)
 Program (“CPP”)                                                                                                                    Programs”
 CPP Total                           $204.9                $204.9              43.6%            ($185.5)          $19.5
 Community Development                                                                                                     “Financial Institution Support
                                        $0.6                 $0.6               0.1%
 Capital Initiative (“CDCI”)                                                                                                        Programs”
 CDCI Total                             $0.6                 $0.6               0.1%                  —            $0.6                   
 Systemically Significant
 Failing Institutions
 (“SSFI”) Program:                                                                                                         “Financial Institution Support
                                                                                                                                    Programs”
    American International
                                       $69.8                $67.8              14.4%              ($20.2)
    Group, Inc. (“AIG”)c
 SSFI Total                           $69.8                 $67.8              14.4%             ($20.2)          $47.6
 Targeted Investment
 Program (“TIP”):
                                                                                                                           “Financial Institution Support
    Bank of America
                                         $20                 $20                4.3%                ($20)                           Programs”
    Corporation
    Citigroup, Inc.                      $20                 $20                4.3%                ($20)
 TIP Total                              $40                  $40                8.5%               ($40)             —                    
 Asset Guarantee
 Program (“AGP”):                                                                                                          “Financial Institution Support
                                                                                                                                    Programs”
    Citigroup, Inc. d
                                          $5                  $5                1.1%                 ($5)
 AGP Total                                $5                  $5                1.1%                ($5)             —
                                                                                                                                Continued on next page
48            special inspector general I troubled asset relief program




     OBLIGATION/EXPENDITURE LEVELS BY PROGRAM                  ($ Billions) (CONTINUED)
                                   Obligations        Current              Current         Repaid/
     Less: Obligations by          after Dodd-  Obligations as     Obligation as %        Reduced       Obligation
     Treasury under TARPa            Frank Act of 12/31/2011           of Released        Exposure    Outstandingb       Section Reference
     Term Asset-Backed
     Securities Loan Facility
     (“TALF”):                                                                                                        “Asset Support Programs”

        TALF LLC                          $4.3              $4.3               0.9%          ($0.0)
     TALF Total                           $4.3             $4.3               0.9%          ($0.0)           $4.3
     Legacy Securities
     Public-Private Investment
     Program (“PPIP”)
        Invesco Legacy
        Securities Master                 $2.6              $2.0               0.5%          ($0.9)
        Fund, L.P.
        Wellington
        Management Legacy
                                          $3.4              $3.4               0.7%             —
        Securities PPIF
        Master Fund, L.P.
        AllianceBernstein
        Legacy Securities                 $3.5              $3.5               0.7%              *
        Master Fund, L.P.
        Blackrock PPIF, L.P.              $2.1              $2.1               0.4%             —
                                                                                                                      “Asset Support Programs”
        AG GECC PPIF Master
                                          $3.7              $3.7               0.8%             —
        Fund, L.P.
        RLJ Western Asset
        Public/Private Master             $1.9              $1.9               0.4%              *
        Fund, L.P.
        Marathon Legacy
        Securities Public-
                                          $1.4              $1.4               0.3%             —
        Private Investment
        Partnership, L.P.
        Oaktree PPIP Fund,
                                          $3.5              $3.5               0.7%          ($0.1)
        L.P.e
        UST/TCW Senior
        Mortgage Securities               $0.4              $0.4               0.1%          ($0.4)
        Fund, L.P.f
     PPIP Totalg                        $22.4             $21.9               4.7%          ($1.3)          $20.6
     Unlocking Credit for
     Small Businesses                     $0.4              $0.4               0.1%          ($0.3)                   “Asset Support Programs”
     (“UCSB”)
     UCSB Total                           $0.4             $0.4               0.1%          ($0.3)           $0.1
     Automotive Industry
     Financing Program
     (“AIFP”):
        General Motors
                                         $49.5             $49.5             10.5%          ($22.5)
        Corporation (“GM”)
                                                                                                                     “Automotive Industry Support
        Ally Financial
                                         $17.2             $17.2               3.6%          ($2.7)                          Programs”
        (formerly GMAC)
        Chrysler Holding LLCh            $12.5             $10.5               2.2%          ($9.7)
        Chrysler Financial
        Services Americas                 $1.5              $1.5               0.3%          ($1.5)
        LLC i
     AIFP Total                         $80.7             $78.7              16.7%         ($36.4)          $44.4                  
                                                                                                                          Continued on next page
                                                                                                                             quarterly report to congress I January 26, 2012                                       49




OBLIGATION/EXPENDITURE LEVELS BY PROGRAM                                              ($ Billions) (CONTINUED)
                                            Obligations        Current                              Current                    Repaid/
Less: Obligations by                        after Dodd-  Obligations as                     Obligation as %                   Reduced              Obligation
Treasury under TARPa                          Frank Act of 12/31/2011                           of Released                   Exposure           Outstandingb                 Section Reference
Automotive Supplier
Support Program
(“ASSP”):                                                                                                                                                               “Automotive Industry Support
    GM Suppliers                                                                                                                                                                Programs”
                                                      $0.3                       $0.3                        0.0%                   ($0.3)
    Receivables LLC i
    Chrysler Holding LLC                              $0.1                       $0.1                        0.0%                   ($0.1)
ASSP                                                  $0.4                      $0.4                        0.1%                   ($0.4)                        —                          
Automotive Warranty
Commitment Program
(“AWCP”):                                                                                                                                                               “Automotive Industry Support
    General Motors                                                                                                                                                              Programs”
                                                      $0.4                       $0.4                        0.1%                   ($0.4)
    Corporation (“GM”)
    Chrysler Holding LLC                              $0.3                       $0.3                        0.0%                   ($0.3)
AWCP Total                                            $0.6                      $0.6                        0.1%                   ($0.6)                        —                          
TARP Obligations
Subtotal                                          $474.8                    $470.1                         100%                                                                             
TARP Repayments/
Reductions in
Exposure Subtotal                                                                                                              ($289.6)                                                     
TARP Obligations
Outstanding Subtotal                                                                                                                                     $182.6                             
Notes: Numbers may not total due to rounding.
a
   From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
b
    Figure does not subtract losses incurred from failed banks.
c
    The $20.2 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and (iii) cancellation of the
    series G capital facility. Includes all proceeds from the sale of AIG stock. However, Treasury does not include in its calculation on its AIG investment proceeds from the sale of AIG stock that Treasury
    received from the AIG credit facility trust in the January 2011 recapitalization.
d
    Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was
    not an actual outlay of cash.
e
    Oaktree repaid $79 million, as of December 31, 2011.
f
  TCW repaid the funds invested in its PPIF, which is now liquidated.
g
    Treasury selected nine fund management firms to establish PPIFs. One PPIP manager, The TCW Group, Inc., subsequently withdrew. According to Treasury, the current PPIP obligation is $21.9 billion, and
    includes $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds.
h
   The $9.7 billion in repayments and reductions in exposure includes (i) loan repayments from New Chrysler, (ii) proceeds related to the liquidation of Old Chrysler, (iii) a settlement payment for a loan to
   Chrysler Holding, (iv) termination of New Chrysler’s ability to draw the remaining $2.1 billion under a loan facility made available in May 2009, and (v) proceeds related to the sale to Fiat of Treasury’s
   remaining equity ownership stake in New Chrysler and the sale to Fiat of Treasury’s rights to receive proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
   trust’s shares in New Chrysler.
i
  Represents an SPV created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally. Treasury’s original commitment under this program was $5 billion, but
  subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.

*Amount less than $50 million.

Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization
Act of 2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/8/2012; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 1/4/2012; Treasury,
Transactions Report-Housing Programs, 12/28/2011; Treasury, response to SIGTARP data call, 1/5/2012; Treasury, Section 105(a) Report, 1/10/2012.
50               special inspector general I troubled asset relief program




     TABLE 2.5
      Debt Agreements as of 12/31/2011
      TARP                              Date of               Cost               Description of                                                                                        Term of
      Program        Company            Agreement             Assigned           Investment                 Investment Information                       Interest/Dividends            Agreement
                                                                                                            Each QFI may issue senior
                                                                                 Senior                     securities with an aggregate                 7.7% for first 5
                                                                                 Subordinated               principal amount of 1% - 3% of               years; 13.8%                  30 years
                                                                                 Securities                 its risk-weighted assets, but not            thereafter
      CPP -          Originally 52                                                                          to exceed $25 billion.
                                        1/14/2009a            $0.5 billion
      S-Corps        QFIs                                                        Senior                     Treasury will receive warrants
                                                                                 Subordinated               to purchase an amount equal
                                                                                 Security Warrants          to 5% of the senior securities               13.8%                         30 years
                                                                                 that are exercised         purchased on the date of
                                                                                 immediately                investment.
                                                                                                            Each QCU may issue CDCI
                                                                                                            Senior Securities with an
      CDCI -                                                                     Subordinated               aggregate principal amount equal
                                                                                                                                               2% for first 8 years,                   CDCI - Credit
      Credit         All                                                         Debt for Credit            to not more than 3.5% of its total
                                                                                                                                               9% thereafter                           Unions
      Unions                                                                     Unions                     assets and not more than 50%
                                                                                                            of the capital and surplus of the
                                                                                                            QCU.
                                                                                                            Each QFI may issue CDCI Senior
                                                                                                            Securities with an aggregate
                                                                                                            principal amount equal to not
                                                                                                            more than 5% of (i), if the QFI is a
                                                                                                            Certified Entity the risk-weighted
                                                                                                            assets of the QFI, or (ii), if the           3.1% for first 8
      CDCI –                                                                     Subordinated                                                                                          CDCI –
                                                                                                            QFI is not a Certified Entity, the           years, 13.8%
      Scorps                                                                     Debt for Scorps                                                                                       Scorps
                                                                                                            sum of the RWAs of each of the               thereafter
                                                                                                            Certified Entities, in each case
                                                                                                            less the aggregate capital or,
                                                                                                            as the case may be, principal
                                                                                                            amount of any outstanding TARP
                                                                                                            assistance of the QFI.
                                                                                                                                                                                       The debt
                                                                                                                                                                                       obligation for
                                                                                                                                                                                       each fund
                                                                                 Debt Obligation
                                                                                                            Each of the loans will be funded                                           matures at
                                        9/30/2009                                with Contingent
      PPIP           All                                      $20 billion                                   incrementally, upon demand by                LIBOR + 1%                    the earlier
                                        and later                                Interest
                                                                                                            the fund manager.                                                          of the
                                                                                 Promissory Note
                                                                                                                                                                                       dissolution of
                                                                                                                                                                                       the fund or
                                                                                                                                                                                       10 years.
      Notes: Numbers affected by rounding.
      a
        Announcement date of CPP S-Corporation Term Sheet.

      Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.”
      12/31/2008. Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/08; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury,
      “Loan and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.” 12/31/2008; Treasury,
      “Chrysler, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of
      Terms,” 1/16/2009; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
      Development Capital Initiative Program Agreement, CDFI Bank / Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 04/26/2010; Treasury’s “TARP Community Development Capital
      Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
      Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010.
                                                                                             quarterly report to congress I January 26, 2012                    51




TABLE 2.6
 Equity Agreements as of 12/31/2011
 TARP                       Date of         Cost             Description of                                                                   Term of
 Program    Company         Agreement       Assigned         Investment           Investment Information              Dividends               Agreement
                                                                                  1-3% of risk-weighted assets,
                                                             Senior Preferred                                         5% for first 5 years,
                                                                                  not to exceed $25 billion for                               Perpetual
                                                             Equity                                                   9% thereafter
 CPP –      Originally      10/14/2008  a
                                            $200.1                                each QFI
 Public     286 QFIs        and later       billion          Common Stock
                                                                                                                                              Up to 10
                                                             Purchase             15% of senior preferred amount      —
                                                                                                                                              years
                                                             Warrants
                                                                                  1-3% of risk-weighted assets,
                                                                                                                      5% for first 5 years,
                                                             Preferred Equity     not to exceed $25 billion for                               Perpetual
                                                                                                                      9% thereafter
                                                                                  each QFI
 CPP –      Originally      11/17/2008b                      Preferred
                                            $4 billion
 Private    369 QFIs        and later                        Stock Purchase
                                                             Warrants that        5% of preferred amount              9%                      Perpetual
                                                             are exercised
                                                             immediately
                                                             Preferred Equity     5% of risk-weighted assets
                                            $780.2                                                                    2% for first eight
 CDCI       All                                              for banks & thrift   for banks and bank holding                                  Perpetual
                                            million                                                                   years, 9% thereafter
                                                             institutions         companies.
                                                             Non-Cumulative       $41.6 billion aggregate
                                                                                                                      10%                     Perpetual
                                                             Preferred Equity     liquidation preference
                                                                                  2% of issued and outstanding
                                                                                  common stock on investment
            American                                                              date of 11/25/08; the warrant
                                            $41.6
 SSFI       International   4/17/2009                        Common Stock         was originally for 53,798,766
                                            billionc                                                                                          Up to 10
            Group, Inc.                                      Purchase             shares and had a $2.50 exercise     —
                                                                                                                                              years
                                                             Warrants             price, but after the 6/30/09
                                                                                  split, it is for 2,689,938.30
                                                                                  shares and has an exercise price
                                                                                  of $50.
                                                                                  Up to $29.8 billion aggregate
                                                                                  liquidation preference. As                                  Perpetual (life
                                                             Non-Cumulative
                                                                                  of 9/30/09, the aggregate           10%                     of the facility
            American                                         Preferred Equity
                                            $29.8                                 liquidation preference was $3.2                             is 5 years)
 SSFI       International   4/17/2009                                             billion.
                                            billiond
            Group, Inc.
                                                             Common Stock         150 common stock warrants
                                                                                                                                              Up to 10
                                                             Purchase             outstanding; $0.00002 exercise      —
                                                                                                                                              years
                                                             Warrants             price
                                                                                  Exchanged preferred Series F
                                                             AIA Preferred        shares for $16.9 billion of AIA
                                                             units, ALICO         Preferred Units, $3.4 billion in
                                            $29.8                                                                                             Up to 10
                                                             Junior Preferred     ALICO Junior Preferred Interests,   —
                                            billione                                                                                          years
            American                                         Interests,           and 167.6 million shares of
 SSFI       International   1/14/2011                        Common Stock         Common stock at an exercise
            Group, Inc.                                                           price of $45
                                                                                  Exchanged preferred Series D
                                                                                  shares for 924.5 million shares
                                            $41.6 billionf
                                                             Common Stock                                             —                       Perpetual
                                                                                  of common stock at an exercise
                                                                                  price of $45
                                                                                                                                    Continued on next page
52          special inspector general I troubled asset relief program




     Equity Agreements as of 12/31/2011                   (Continued)

     TARP                       Date of      Cost              Description of                                                               Term of
     Program   Company          Agreement    Assigned          Investment           Investment Information              Dividends           Agreement
                                                                                                                                            8 years
                                                                                                                                            with the
                                                               Membership           Each of the membership interest
                                9/30/2009                                                                                                   possibility of
     PPIP      All                           $10 billion       interest in a        will be funded upon demand from     —
                                and later                                                                                                   extension for
                                                               partnership          the fund manager.
                                                                                                                                            2 additional
                                                                                                                                            years.
                                                                                                                                            Converts
                                                               Mandatorily                                                                  to common
                                                               Convertible          $5 billion                          9%                  equity
               Ally Financial                                  Preferred Stockg                                                             interest after
               Inc.                                                                                                                         7 years
     AIFP                       12/29/2008   $5 billion
               (formerly                                       Preferred                                                                    Converts
               GMAC)                                           Stock Purchase                                                               to common
                                                               Warrants that        5% of original preferred amount     9%                  equity
                                                               are exercised                                                                interest after
                                                               immediately                                                                  7 years
                                                                                                                                            Converts
                                                               Mandatorily                                                                  to common
                                                               Convertible          $4.5 billion                        9%                  equity
                                                               Preferred Stockh                                                             interest after
                                                                                                                                            7 years
               Ally Financial
               Inc.                                            Preferred                                                                    Converts
     AIFP                       5/21/2009    $7.5 billion
               (formerly                                       Stock Purchase                                                               to common
               GMAC)                                           Warrants that        5% of original preferred amount     9%                  equity
                                                               are exercised                                                                interest after
                                                               immediately                                                                  7 years
                                                               Common Equity
                                                                                    $3 billion                          —                   Perpetual
                                                               Interesth
                                                                                    This equity interest was obtained
               Ally Financial
                                                                                    by exchanging a prior debt
               Inc.                                            Common Equity
     AIFP                       5/29/2009    $0.9 billion                           obligation with General Motors.     —                   Perpetual
               (formerly                                       Interest
                                                                                    See “Debt Agreements” table for
               GMAC)
                                                                                    more information.
                                                               Trust Preferred
                                                                                    $2.5 billion                        8%
               Ally Financial                                  Securities                                                                   Redeemable
               Inc.                                            Trust Preferred                                                              upon the
     AIFP                       12/30/2009   $2.5 billion
               (formerly                                       purchase warrants                                                            repayment of
               GMAC)                                                                5% of trust preferred amount        —                   the debenture
                                                               that are exercised
                                                               immediately
                                                                                                                                    Continued on next page
                                                                                                                         quarterly report to congress I January 26, 2012                                     53




Equity Agreements as of 12/31/2011                                     (Continued)

TARP                               Date of                Cost                Description of                                                                                           Term of
Program         Company            Agreement              Assigned            Investment                  Investment Information                         Dividends                     Agreement
                                                                              Mandatorily
                                                                              Convertible                 $1.3 billion                                   9%
                                                                              Preferred Stock                                                                                          Converts
                Ally Financial
                                                                                                                                                                                       to common
                Inc.                                                          Preferred
AIFP                           12/30/2009                 $1.3 billion                                                                                                                 equity
                (formerly                                                     Stock Purchase                                                                                           interest after
                GMAC)                                                         Warrants that               5% of preferred amount                         —                             7 years
                                                                              are exercised
                                                                              immediately
                Ally Financial
                Inc.                                                          Common Equity
AIFP                           12/30/2009                 $5.5 billion                                    $5.5 billion                                   —                             Perpetual
                (formerly                                                     Interesti
                GMAC)
Notes: Numbers affected by rounding.
a
  	Announcement date of CPP Public Term Sheet.
b
  	Announcement date of CPP Private Term Sheet.
c
  	AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
d
  	The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
e
  	On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including
     amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged
     $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right
     to draw up to $2,000,000,000. The Series G equity capital facility was subsequently terminated without drawdown.
f
  	On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative
     Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
g
   	Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
h
  	On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
i
  	On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
     from 56% to 74% due to this conversion.

Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of
November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant,
Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation
and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program,
Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP
Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development
Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S
Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/10; Ally Financial
Inc. (GOM ), 8−K, 12/30/2010; Treasury, Transaction Report, 1/4/2012; Treasury, “Master Transaction Agreement for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC, Federal
Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010.
54                 special inspector general I troubled asset relief program




     TABLE 2.7
      LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 12/31/2011
                                                                                                                         Current Number
                                                                                                                             of Warrants                                            Stock Price as of
      Participant                                                                          Investment Date                   Outstanding                      Strike Price              12/30/2011
      Capital Purchase Program (“CPP”):
            Regions Financial Corporation                                                         11/14/2008                     48,253,677                          $10.88                          $4.30
            Popular, Inc.                                                                          12/5/2008                     20,932,836                            $6.70                         $1.50
            Synovus Financial Corp.                                                               12/19/2008                     15,510,737                            $9.36                         $1.41
            Flagstar Bancorp, Inc.                                                                 1/16/2009                      6,451,379                            $6.20                         $0.51
            Zions Bancorporation                                                                  11/14/2008                      5,789,909                          $36.27                        $16.28
            Cathay General Bancorp                                                                 12/5/2008                      1,846,374                          $20.96                        $14.93
            Citizens Republic Bancorp, Inc.                                                       12/12/2008                      1,757,813                          $25.60                        $11.40
            International Bancshares Corporation                                                  12/23/2008                      1,326,238                          $24.43                        $18.34
            M&T Bank Corporationc                                                                  12/5/2008                      1,218,522                          $69.32                        $76.34
            PrivateBancorp, Inc.                                                                   2/27/2009                         645,013                         $28.35                        $10.98
      Systemically Significant Failing Institutions (“SSFI”) Program
            AIGa                                                                                  11/25/2008                      2,689,938                          $50.00                        $23.20
            AIGa                                                                                   4/17/2009                               150                        $0.00b                       $23.20
      Notes: Numbers affected by rounding.
      a
        All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.
      b
         Strike price is $0.00002.
      c
        M&T Bank Corporation assumed additional warrant positions in conjunction with two acquired CPP investments. These additional positions are 407,542 shares at a strike price of $69.32 and 95,383
         shares at a strike price of $518.96.

      Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/5/2012; Market Data, Bloomberg L.P., accessed
      1/9/2012.


     TABLE 2.8
      DIVIDENDS, INTEREST, DISTRIBUTION, AND OTHER INCOME PAYMENTS, AS OF 12/31/2011
                                                        Dividends                            Interest                   Distributiona                 Other Incomeb                                   Total
      CPP   c
                                              $11,290,470,070                         $94,054,247                                   $—             $14,515,834,408                   $25,900,358,725
      CDCI                                              9,308,208                        4,364,066                                    —                                 —                    13,672,274
      SSFId                                                        —                                 —                                —                  450,633,019                       450,633,019
      TIP                                        3,004,444,444                                       —                                —                1,446,025,527                    4,450,469,971
      AGP                                           442,964,764                                      —                                —                2,589,197,045                    3,032,161,809
      PPIP                                                         —                  211,440,960                    1,000,277,023                         20,644,319                   1,232,362,302
      UCSB                                                         —                    12,837,717                                    —                    27,740,212                        40,577,929
      AIFP  e
                                                 2,873,769,551                     1,665,336,675                                      —                  403,000,000                    4,942,106,226
      ASSP                                                         —                    31,949,931                                    —                    84,000,000                      115,949,931
      Total                                 $17,620,957,037                    $2,019,983,596                    $1,000,277,023                  $19,537,074,531                   $40,178,292,187
      Notes: Numbers may not total due to rounding.
      a
        Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not later than 30 days after the end of each quarter.
      b
        Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
        Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with the termination of the TCW fund for PPIP.
      c
        Includes $13 million fee received as part of the Popular exchange.
      d
        Other income from SSFI includes $165 million in fees and $285.6 million representing return on securities held in the AIA and ALICO SPVs.
      e
        Includes AWCP.

      Source: Treasury, Transactions Report, 1/4/2012; Treasury, Section 105(a) Report, 1/10/2012; Treasury, Dividends and Interest Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/10/2012.
                                                                            quarterly report to congress I January 26, 2012             55




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella                    Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention            (“GSEs”): Private corporations created
efforts.99 MHA initially consisted of the Home Affordable Modification Program              and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                 reduce borrowing costs and provide
mortgage servicers to modify eligible first mortgages, and two initiatives at the           liquidity in the market, the liabilities
Government-sponsored enterprises (“GSEs”) that use non-TARP funds.100 HAMP                  of which are not officially considered
was originally intended “to help as many as three to four million financially               direct taxpayer obligations. On
struggling homeowners avoid foreclosure by modifying loans to a level that is               September 7, 2008, the two largest
affordable for borrowers now and sustainable over the long term.”101                        GSEs, the Federal National Mortgage
    Since the announcement of MHA, Treasury has expanded the program by                     Association (“Fannie Mae”) and
implementing additional sub-programs. Several of these are designed to overcome             the Federal Home Loan Mortgage
obstacles to sustainable HAMP modifications, such as unemployment or the pres-              Corporation (“Freddie Mac”), were
ence of second liens. As part of its housing support efforts, Treasury has partnered        placed into Federal conservatorship.
with other Federal agencies on housing programs outside of HAMP.102 Treasury                They are currently being financially
also allocated TARP funds to support two additional housing support efforts: a              supported by the Government.
Federal Housing Administration (“FHA”) refinancing program and a state housing
finance agency grant program.                                                               Loan Servicers: Companies that
    Not all housing support programs are funded, or completely funded, by TARP.             perform administrative tasks on
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be fund-         monthly mortgage payments until the
ed by TARP, with the remainder funded by the GSEs.103 Treasury has since reduced            loan is repaid. These tasks include
its obligation of TARP funds to $45.6 billion, which is composed of $29.9 billion           billing, tracking, and collecting monthly
for MHA incentive payments and $15.7 billion for the FHA refinancing program                payments; maintaining records of
and housing finance agency grant programs.104                                               payments and balances; allocating
    Housing support programs include the following initiatives:                             and distributing payment collections
                                                                                            to investors in accordance with
•	 Home Affordable Modification Program (“HAMP”) — HAMP is intended                         each mortgage loan’s governing
   to use incentive payments to encourage loan servicers (“servicers”) and                  documentation; following up
   investors to modify eligible first-lien mortgages so that the monthly payments           on delinquencies; and initiating
   of homeowners who are currently in default or at imminent risk of default                foreclosures.
   will be reduced to affordable and sustainable levels. Incentive payments for
   modifications to loans owned or guaranteed by the GSEs are paid by the                   Investors: Owners of mortgage loans
   GSEs, not TARP.105 While HAMP generally refers to the first-lien mortgage                or bonds backed by mortgage loans
   modification program, it also includes the following subprograms:                        who receive interest and principal
   çç Home Price Decline Protection (“HPDP”) — HPDP is intended to                          payments from monthly mortgage
        encourage additional investor participation and HAMP modifications in               payments. Servicers manage the
        areas with recent price declines by providing TARP-funded incentives to             cash flow from borrowers’ monthly
        offset potential losses in home values.106                                          payments and distribute them to
   çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage                investors according to Pooling and
        the use of principal reduction in modifications for eligible borrowers whose        Servicing Agreements (“PSAs”).
        homes are worth significantly less than the remaining outstanding balances
        of their first-lien mortgage loans. It provides TARP-funded incentives to
        offset a portion of the principal reduction provided by the investor.107
56            special inspector general I troubled asset relief program




                                                          çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                               offer assistance to unemployed homeowners through temporary forbearance
                                                               of all or a portion of their payments.108 TARP funds are not used to support
                                                               this program.
                                                     •	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
                                                          to provide incentives to servicers, investors, and borrowers to pursue short sales
                                                          and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
                                                          is unable or unwilling to enter into a modification. Under this program, the
                                                          servicer releases the lien against the property and the investor waives all rights
                                                          to seek a deficiency judgment against a borrower who uses a short sale or deed-
                                                          in-lieu when the property is worth less than the outstanding amount of the
     Short Sale: Sale of a home for less
                                                          mortgage.109
     than the unpaid mortgage balance. A
                                                     •	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     borrower sells the home and the lender
                                                          second-lien mortgages when a corresponding first lien is modified under
     collects the proceeds as full or partial
                                                          HAMP by a participating servicer.110 As of December 31, 2011, 18 servicers are
     satisfaction of the unpaid mortgage
                                                          participating in 2MP.111 These servicers represent approximately 55% to 60% of
     balance, thus avoiding the foreclosure
                                                          the second-lien servicing market.112
     process.
                                                     •	   Agency-Insured Programs — Similar in structure to Treasury’s HAMP
                                                          first-lien program, these initiatives are intended to reduce payments to more
     Deed-in-Lieu of Foreclosure: Instead
                                                          affordable levels on eligible first-lien mortgages insured by FHA or guaranteed
     of going through foreclosure, the
                                                          by the Department of Agriculture’s Office of Rural Development (“RD”) and
     borrower voluntarily surrenders the
                                                          the Department of Veterans Affairs (“VA”).113 Treasury provides TARP-funded
     deed to the home to the home lender,
                                                          incentives to encourage modifications under the FHA and RD modification
     as satisfaction of the unpaid mortgage
                                                          programs.
     balance.
                                                     •	   Treasury/FHA Second-Lien Program (“FHA2LP”) — FHA2LP is intended
                                                          to facilitate refinancing under the FHA Short Refinance Program by reducing
     Underwater Mortgage: Mortgage loan
                                                          second liens. Treasury uses TARP funds to provide incentives to participating
     on which a homeowner owes more
                                                          servicers and investors who agree to principal reduction or full extinguishment
     than the home is worth, typically as
                                                          of second liens associated with an FHA refinance.114
     a result of a decline in the home’s
                                                     •	   FHA Short Refinance Program — This program, which is partially supported
     value. Underwater mortgages are also
                                                          by TARP funds, is intended to encourage borrowers to refinance existing
     referred to as having negative equity.
                                                          underwater mortgage loans that are not currently insured by FHA into FHA-
                                                          insured mortgages with lower principal balances. Treasury has provided a
                                                          TARP-funded letter of credit for up to $8 billion in loss coverage on these newly
                                                          originated FHA loans.
                                                     •	   Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
                                                          program, HHF is intended to fund foreclosure prevention programs run by state
                                                          housing finance agencies in states hit hardest by the decrease in home prices
                                                          and in states with high unemployment rates. Eighteen states and Washington,
                                                          DC, have received approval for aid through the program.115
                                                                                                                                   quarterly report to congress I January 26, 2012   57




Status of TARP Funds Obligated to Housing Support
Programs
Treasury obligated $45.6 billion to housing support programs, of which $3
billion, or 6.6%, has been expended as of December 31, 2011.116 Treasury has
capped the aggregate amount available to pay servicer, borrower, and investor
incentives under MHA programs at $29.9 billion.117 The remaining $15.7 billion
is allocated to funding the FHA Short Refinance and HHF programs.118 The
amount obligated to each MHA-participating servicer is established pursuant to
its program participation cap under its Servicer Participation Agreement (“SPA”)
with Treasury’s financial agent, Fannie Mae.119 According to Treasury, it sets each
servicer’s initial cap by estimating the number of services expected to be performed
by each servicer and then adjusts the cap (1) upward or downward, pursuant to a
servicer cap model that aims to reallocate funds from servicers that have a relatively
large amount of unused funds under their cap to servicers with a relatively small
amount of unused funds under their cap, or (2) downward, based on Treasury’s
analysis of the servicer’s eligible loan portfolio.120
     Table 2.9 shows the breakdown in expenditures and estimated funding alloca-
tions for these housing support programs.

TABLE 2.9
 TARP Expenditures and allocations by housing Support programs,
 AS OF 12/31/2011 ($ BILLIONS)
                                                                            EXPENDITURES                                ALLOCATIONS
 MHA
      HAMP
           First Lien Modification                                            $1.8                                    $19.1
           PRA Modification                                                     —   a
                                                                                                                          2.0
           HPDP                                                                 0.2                                       1.6
           UP                                                                    —                                         —b
           HAMP Total                                                              $2.0                                    $22.7
      HAFA                                                                              0.1                                     4.2
      2MP                                                                               0.1                                     0.1
      Treasury FHA-HAMP                                                                 —                                       0.2
      RD-HAMP                                                                           —                                       —c
      FHA2LP                                                                            —                                       2.7
 MHA Total                                                                                    $2.3                                  $29.9
 FHA Short Refinance                                                                           0.1                                      8.1d
 HHF                                                                                           0.7                                      7.6
 Total                                                                                        $3.0                                  $45.6
 Note: Numbers may not total due to rounding.
 According to Treasury, these numbers are “approximate.”
 a
   Treasury has expended $8.8 million in PRA incentives.
 b
   Treasury does not allocate TARP funds to UP.
 c
   Treasury has allocated $0.02 billion to the RD-HAMP program.
 d
   This amount includes the up to $117 million in fees Treasury will incur for the availability and usage of the $8 billion letter of credit.

 Source: Treasury, response to SIGTARP data call, 1/5/2012.
58   special inspector general I troubled asset relief program




                                                As of December 31, 2011, Treasury had active agreements with 109 ser-
                                            vicers. Originally, 145 servicers had agreed to participate in MHA.121 According to
                                            Treasury, of the $29.9 billion obligated to participating servicers under their SPAs,
                                            as of December 31, 2011, $1.8 billion had been spent on completing permanent
                                            modifications of first liens (363,031 of which remain active); $95.6 million under
                                            2MP on completing 12,599 full extinguishments, 1,998 partial extinguishments
                                            (principal reductions), and 46,362 permanent modifications of second liens under
                                            the 2MP; and $99.5 million on incentives for 26,061 short sales or deeds-in-lieu
                                            of foreclosure under HAFA.122 Of the combined amount of incentive payments,
                                            according to Treasury, approximately $763.5 million went to pay servicer incen-
                                            tives, $1.1 billion went to pay investor incentives, and $416.7 million went to pay
                                            borrower incentives.123 As of December 31, 2011, Treasury had disbursed
                                            approximately $722.2 million of the $7.6 billion allocated to state housing finance
                                            agencies participating in HHF, most of which has been allocated to administra-
                                            tive expenses.124 The remaining $8.1 billion has been obligated under FHA Short
                                            Refinance to purchase a letter of credit to provide up to $8 billion in first loss cov-
                                            erage and to pay $117 million in fees for the letter of credit. According to Treasury,
                                            it has not paid any claims for defaults on the 646 loans refinanced under the pro-
                                            gram. However, Treasury has pre-funded a reserve account with $50 million to pay
                                            future claims and spent $5.5 million on administrative expenses.125 The breakdown
                                            of TARP-funded expenditures related to housing support programs (not including
                                            the GSE-funded portion of HAMP) are shown in Table 2.10.
                                                                                       quarterly report to congress I January 26, 2012   59




TABLE 2.10
 Breakdown of TARP Expenditures, As of 12/31/2011                 ($ MILLIONs)

 MHA                                                          TARP Expenditures
     HAMP
           HAMP First Lien Modification Incentives
                Servicer Incentive Payment                    $379.4
                Servicer Current Borrower Incentive Payment     13.0
                Annual Servicer Incentive Payment              320.7
                Investor Current Borrower Incentive Payment     46.0
                Investor Monthly Reduction Cost Share          734.8
                Annual Borrower Incentive Payment              346.0
           HAMP First Lien Modification Incentives Total         $1,839.9
           PRA                                                         $8.8
           HPDP                                                    $207.5
           UP                                                            —a
          HAMP Program Incentives Total                                  $2,056.3
     HAFA Incentives
          Servicer Incentive Payment                                   $20.1
          Investor Reimbursement                                        11.6
          Borrower Relocation                                           67.7
     HAFA Incentives Total                                                     $99.5
     Second-Lien Modification Program Incentives
          2MP Servicer Incentive Payment                               $26.9
          2MP Annual Servicer Incentive Payment                          0.7
          2MP Annual Borrower Incentive Payment                          0.6
          2MP Investor Cost Share                                       23.4
          2MP Investor Incentive                                        43.9
     Second-Lien Modification Program Incentives Total                         $95.6
     Treasury/FHA-HAMP Incentives
          Annual Servicer Incentive Payment                             $2.6
          Annual Borrower Incentive Payment                              2.4
     Treasury/FHA-HAMP Incentives Total                                         $5.0
     RD-HAMP                                                                      —
     FHA2LP                                                                       —
 MHA Incentives Total                                                             $2,256.3
 FHA Short Refinance (Loss-Coverage)                                                    $55.5
 HHF Disbursements                                                                     $722.2
 Total Expenditures                                                               $3,034.0
 Note: Numbers affected by rounding.
 a
   TARP funds are not used to support the UP program.

 Source: Treasury, response to SIGTARP data call, 1/5/2012.
60           special inspector general I troubled asset relief program




                                                    HAMP
                                                    According to Treasury, HAMP was intended “to help as many as three to four
                                                    million financially struggling homeowners avoid foreclosure by modifying loans to
                                                    a level that is affordable for borrowers now and sustainable over the long term.”126
                                                    Although HAMP contains several subprograms, the term “HAMP” is most often
                                                    used to refer to the HAMP First-Lien Modification Program, described below.

                                                    HAMP First-Lien Modification Program
                                                    The HAMP First-Lien Modification Program, which went into effect on April 6,
                                                    2009, modifies the terms of first-lien mortgages to provide borrowers with lower
     Trial Modification: Under HAMP, a              monthly payments. This was the original initiative of the MHA program, and
     period of at least three months in             remains Treasury’s largest housing support effort. A HAMP modification consists
     which a borrower is given a chance             of two phases: a trial modification that was originally designed to last three months,
     to establish that he or she can make           followed by a permanent modification. Treasury continues to pay incentives for five
     lower monthly mortgage payments and            years.127 In designing HAMP, the Administration envisioned a “shared partnership”
     qualify for a permanent modification.          between the Government and investors to bring distressed borrowers’ first lien
                                                    monthly payments down to an “affordable” and sustainable level — defined by
                                                    Treasury as 31% of the borrower’s monthly gross income.128

                                                    Starting a HAMP Modification
                                                    Borrowers may be solicited for participation by their servicers or they may request
     For more information on the                    participation in HAMP.129 Before offering the borrower a trial modification, also
     RMA form and what constitutes                  known as a trial period plan (“TPP”), the servicer must verify the accuracy of the
     hardship, see SIGTARP’s April 2011             borrower’s income and other eligibility criteria. In order to verify the borrower’s
     Quarterly Report, page 62.                     eligibility for a modification under the program, borrowers must submit the
                                                    following documents:130
     For more information on the
     borrower certification process                 •	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the
     required by the Dodd-Frank Act, see               servicer with the borrower’s financial information, including the cause of the
     SIGTARP’s October 2010 Quarterly                  borrower’s hardship;
     Report, page 83.                               •	 signed and completed requests for Federal tax return transcripts or the most
                                                       recent Federal income tax return, including all schedules and forms;
     For more information on the                    •	 income verification documentation, such as recent pay stubs or evidence of
     Verification Policy, see SIGTARP’s                other sources of income; and
     April 2011 Quarterly Report,                   •	 Dodd-Frank certification (either as part of the RMA form or as a standalone
     page 63.                                          document) that the borrower has not been convicted in the past 10 years of any
                                                       of the following in connection with a mortgage or real estate transaction: felony
                                                       larceny, theft, fraud, or forgery; money laundering, or tax evasion.

                                                       Since May 1, 2011, participating servicers have been required to develop and
                                                    adhere to written policy and procedures that, among other things, detail the meth-
                                                    odology that the servicer will use to calculate and verify monthly gross income for
                                                    the borrower and the borrower’s household.131
                                                       After verifying eligibility and income, the servicer follows the “waterfall” of
                                                    modification steps prescribed by HAMP guidelines to calculate the reduction
                                                                                 quarterly report to congress I January 26, 2012           61




in the borrower’s monthly mortgage payment needed to achieve a 31% debt-to-
income (“DTI”) ratio, that is, a payment equal to 31% of his or her monthly gross
income.132
     In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
them to the outstanding principal balance). Second, the servicer reduces the inter-
est rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold has
still not been reached, in the third step the servicer extends the term of the mort-
gage to a maximum of 40 years from the modification date. If these steps are still
insufficient to reach the 31% threshold, the servicer may forbear principal (defer its
due date), subject to certain limits.133 The forbearance amount is not interest bear-
ing and results in a lump-sum payment due upon the earliest of the sale date of the
property, the payoff date of the interest-bearing mortgage balance, or the maturity
date of the mortgage.134
     Servicers are not required to forgive principal under HAMP. However, servicers
may forgive principal in order to lower the borrower’s monthly payment to achieve
the DTI ratio goal of 31% on a stand-alone basis, at any point in the HAMP water-
fall described above, or as part of PRA.135
     After completing these modification calculations, “all loans that meet HAMP
eligibility criteria and are either deemed to be in imminent default or delinquent
[by] two or more payments must be evaluated using a standardized net present
value (“NPV”) test that compares the NPV result for a modification to the NPV
result for no modification.”136 The NPV test compares the expected cash flow from
a modified loan with the expected cash flow from the same loan with no modifica-
tions to determine which option will be more valuable to the mortgage investor.
A positive NPV test result indicates that a modified loan is more valuable to the
investor than the existing loan. In that case, under HAMP rules, the servicer must               Loan-to-Value (“LTV”) Ratio: Lending
offer the borrower a mortgage modification. If the test generates a negative result,             risk assessment ratio that mortgage
modification is optional.137                                                                     lenders examine before approving a
     Servicers cannot refuse to evaluate a borrower for a modification simply be-                mortgage; calculated by dividing the
cause the outstanding loan currently has a low loan-to-value (“LTV”) ratio, mean-                outstanding amount of the loan by
ing the borrower owes less than (or relatively little compared to) the value of the              the value of the collateral backing the
home. The lower the LTV ratio is, the higher the probability that a foreclosure will             loan. Loans with high LTV ratios are
be more profitable to an investor than a modification.                                           generally seen as higher risk because
                                                                                                 the borrower has less of an equity
How HAMP First-Lien Modifications Work                                                           stake in the property.
Treasury originally intended that HAMP trial modifications would last three
months. Historically, many trial modifications have lasted longer. According to
Treasury, as of December 31, 2011, of a combined total of 79,307 active trials
under both GSE and TARP (non-GSE) HAMP, 21,002, or 26%, had lasted more
than six months.138 This is an increase from the 22% that SIGTARP reported last
quarter.139
   Borrowers in trial modifications may qualify for conversion to a permanent
modification as long as they make the required modified payments on time and
provide proper documentation, including a signed modification agreement.140 The
terms of permanent modifications remain fixed for at least five years.141 After five
62   special inspector general I troubled asset relief program




                                            years, the loan’s interest rate can increase if the modified interest rate had been
                                            reduced below the 30-year conforming fixed interest rate on the date of the initial
                                            modification. The interest rate can rise incrementally by up to 1% per year until it
                                            reaches that rate.142 Otherwise, the modified interest rate remains permanent.
                                                 If the borrower misses a payment during the trial or is denied a permanent
                                            modification for any other reason, the borrower is, in effect, left with the original
                                            terms of the mortgage. The borrower is responsible for the difference between
                                            the original mortgage payment amount and the reduced trial payments that were
                                            made during the trial. In addition, the borrower may be liable for late fees that were
                                            generated during the trial. In other words, a borrower can be assessed late fees for
                                            failing to make the original pre-modification scheduled payments during the trial
                                            period, even though under the trial modification the borrower is not required to
                                            make these payments. Late fees are waived only for borrowers who receive a per-
                                            manent modification.143
                                                 Since May 1, 2011, if a borrower is denied a permanent modification because
                                            of missed trial payments, the servicer must re-calculate the borrower’s income
                                            using the original income documentation to ensure that the trial payment was
                                            correctly calculated. The servicer is not required to re-run the calculation if the
                                            borrower missed a trial payment because of a significant change in circumstances
                                            resulting in a reduction in income. If the re-calculation shows that the borrower’s
                                            trial payment exceeded the proper payment by 10% or more, the servicer must offer
                                            the borrower a new trial period with the correct payment.144

                                            Modification Incentives
                                            Originally, servicers received a one-time incentive fee payment of $1,000 for each
                                            permanent modification completed under HAMP, and additional compensation of
                                            $500 if the borrower was current but at imminent risk of default before enrolling in
                                            the trial plan. Effective for new HAMP trials on or after October 1, 2011, Treasury
                                            changed the flat $1,000 incentive to a new sliding scale based on the length of
                                            time the loan was delinquent as of the effective date of the TPP. For loans less
                                            than or equal to 120 days delinquent, servicers will now receive $1,600.145 For
                                            loans 121-210 days delinquent, servicers will receive $1,200. For loans more than
                                            210 days delinquent, servicers will receive only $400. Additionally, under this new
                                            system, the $500 borrower incentive for being current on the loan will no longer
                                            be paid. Servicers are also prohibited from taking additional collection measures
                                            to reduce the delinquency period in order to qualify for higher incentives. Treasury
                                            stated that this system is “designed to encourage servicers to provide an appropriate
                                            solution, at the very early stages of the delinquency, to borrowers who are suffering
                                            a hardship.”146
                                                For borrowers whose monthly mortgage payment was reduced through HAMP
                                            by 6% or more, servicers also receive incentive payments of up to $1,000 annually
                                            for three years if the borrower remains in good standing (defined as less than three
                                            full monthly payments delinquent).147
                                                Borrowers whose monthly mortgage payment is reduced through HAMP by
                                            6% or more and who make monthly payments on time earn an annual principal
                                                                                                                          quarterly report to congress I January 26, 2012      63




reduction of up to $1,000.148 The principal reduction accrues monthly and is pay-
able for each of the first five years as long as the borrower remains current on his or
her monthly payments.149
    An investor is entitled to compensation, for up to five years, equal to one-half of
the dollar difference between the borrower’s monthly payment (principal and inter-
est) under the modification, based on 31% of monthly gross income, and the lesser
of (1) the borrower’s monthly principal and interest at 38% and (2) the borrower’s
pre-modification monthly principal and interest payment.150 If applicable, inves-
tors also earn an extra one-time, up-front payment of $1,500 for modifying a loan
that was current before the trial period (i.e., at risk of imminent default) and whose
monthly payment was reduced by at least 6%.151
    As of December 31, 2011, of the $29.9 billion in TARP funds allocated to the
109 servicers participating in HAMP, approximately 86.7% was allocated to the 10
largest servicers.152 Table 2.11 outlines these servicers’ relative progress in imple-
menting the HAMP modification programs.

TABLE 2.11
 TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 12/31/2011
                                                                                      Incentive                     Incentive                   Incentive
                                                                                     Payments                      Payments                    Payments      Total Incentive
                                                  SPA Cap Limit                   to Borrowers                   to Investors                to Servicers         Payments
 Bank of America, N.A.a                         $8,199,042,378                 	$60,277,336                   $190,119,307                   $81,876,631b     $332,273,274b
 Wells Fargo Bank, N.A.                      	5,126,187,058                    	57,171,935                   	144,539,526                    120,371,327       322,082,789
 JPMorgan Chase Bank, NA                     	3,862,494,604                    	82,629,354                   	143,898,023                  	88,388,778b        314,916,155b
 OneWest Bank                                	1,836,229,265                    	16,611,572                   	60,996,250                       34,779,231      112,387,053
 GMAC Mortgage, LLC                          	1,504,075,924                    	19,982,116                   	61,326,062                       44,252,768      125,560,947
 American Home Mortgage
                                             	1,306,375,052                    	23,705,701                   	76,956,781                       56,302,438      156,964,919
 Servicing, Inc.
 Ocwen Loan Servicing, LLC                   	1,144,040,562                    	24,492,239                   	65,890,612                       51,477,930      141,860,780
 CitiMortgage Inc                            	1,057,866,341                    	27,855,388                   	83,187,045                       59,781,905      170,824,337
 Litton Loan Servicing, LP                   	1,048,766,911                    	13,440,220                   	35,346,386                       27,529,414       76,316,020
 Select Portfolio Servicing                  	815,599,605                      	26,715,645                   	58,781,942                       50,232,512      135,730,100
 Total                                      $25,900,677,700                    $352,881,507                  $921,041,933                 $614,992,934      $1,888,916,374
 Note: Numbers may not total due to rounding.
 a
   Bank of America, N.A. includes the former Countrywide Home Loans Servicing.
 b
   These figures do not include servicer incentives that Treasury is temporarily withholding from Bank of America, N.A., and JPMorgan Chase Bank, NA.

 Source: Treasury, Transactions Report-Housing, 12/27/2011.
64           special inspector general I troubled asset relief program




                                                    Modification Statistics
                                                    As of December 31, 2011, a total of 762,839 mortgages were in active permanent
                                                    modifications under both TARP (non-GSE) and GSE HAMP. Some 79,307 were
                                                    in active trial modifications. For borrowers receiving permanent modifications,
                                                    98% received an interest rate reduction, 59% received a term extension, 31%
                                                    received principal forbearance, and 8% received principal forgiveness.153 HAMP
                                                    modification activity, broken out by TARP and GSE loans, is shown in Table 2.12.

                                                    TABLE 2.12
                                                     Cumulative HAMP modification activity by TARP/GSE, as of
                                                     12/31/2011
                                                                                                                           Trials
                                                                          Trials         Trials            Trials   Converted to    Permanents    Permanents
                                                                        Started      Cancelled            Active     Permanent        Cancelled       Active
                                                     TARP              838,193          343,128          42,916         452,149         89,118       363,031
                                                     GSE               936,402          418,833          36,391         481,178         81,370       399,808
                                                     Total         1,774,595           761,961          79,307          933,327        170,488      762,839
                                                     Source: Treasury, response to SIGTARP data call, 1/20/2012.



                                                    What Happens When a HAMP Modification Is Denied: Servicer Obligations and
                                                    Borrower Rights
                                                    Treasury has issued a series of guidance governing both the obligations of servicers
                                                    and the rights of borrowers in connection with the denial of loan modification
                                                    requests. Borrowers must receive a Non-Approval Notice if they are not approved
                                                    for a HAMP modification and can request reconsideration or re-evaluation if they
                                                    believe one or more NPV analysis inputs is incorrect or if they experience a change
                                                    in circumstance. Servicers are obligated to have written procedures and personnel
                                                    in place to respond to borrower inquiries and disputes that constitute “escalated
                                                    cases” in a timely manner.154

                                                    Single Point of Contact
                                                    Since September 1, 2011, the 20 largest mortgage servicers participating in
                                                    MHA (i.e., those servicers that had a Program Participation Cap of $75 million or
                                                    more as of May 18, 2011) have been required to assign a single point of contact
                                                    to borrowers potentially eligible for evaluation under HAMP, HAFA, or UP.155
     For more information on HAMP
                                                    The other participating servicers were encouraged, but not required, to adopt
     servicer obligations and borrower
                                                    this new guidance. Borrowers who are: (a) in the process of being evaluated for
     rights, see SIGTARP’s April 2011
                                                    HAMP, HAFA or UP; or (b) already participating in a trial HAMP modification,
     Quarterly Report, pages 67-76.
                                                    an unemployment forbearance plan, or who have executed a HAFA short sale
                                                    or deed-in-lieu agreement as of September 1, 2011, were to be assigned a single
                                                    point of contact no later than November 1, 2011.156 Borrowers who were deemed
                                                    ineligible for HAMP, HAFA or UP prior to September 1, 2011, and who request
                                                    re-evaluation after September 1, 2011, must be assigned a single point of contact
                                                    if the servicer determines that there has been a significant change in the borrower’s
                                                    circumstances.
                                                                              quarterly report to congress I January 26, 2012   65




    According to Treasury, as of December 31, 2011, Bank of America is the only
MHA servicer to report incomplete implementation of these requirements. While
all eligible Bank of America borrowers have been assigned a single point of contact
and have received telephone or email contact from their single point of contact, ap-
proximately 12,000 borrowers involved in short sale transactions have not yet been
notified in writing in accordance with Treasury guidance.157
    The single point of contact, referred to as the “relationship manager,” has the
primary responsibility for communicating with the borrower (or the borrower’s
authorized advisor) about options to avoid foreclosure, his/her status in the process,
coordination of receipt of documents, and coordination with other servicer person-
nel to promote compliance with MHA timelines and requirements. The relation-
ship manager must be an employee of the servicer and cannot be a contractor, and
is assigned when the servicer makes successful contact with the borrower and the
servicer determines that it will evaluate the borrower for HAMP, HAFA or UP.158
This single relationship manager is responsible for managing the borrower relation-
ship throughout the entire delinquency or imminent default resolution process,
and if the loan is subsequently referred to foreclosure, must be available to respond
to borrower inquiries regarding the status of the foreclosure. The relationship man-
ager’s proactive responsibilities end when a homeowner completes a loan modifica-
tion or when all loss mitigation actions have been exhausted.
    The servicer must also ensure that it has the appropriate personnel and infra-
structure in place to carry out the relationship manager’s responsibilities when the
relationship manager is not reachable. If it is necessary to change the relationship
manager (e.g., the relationship manager is no longer employed, work responsibili-
ties change, on extended leave), the servicer must provide written notification of
the changed contact information to the borrower within five business days of as-
signment of the new relationship manager.159

NPV Calculator Website (www.CheckMyNPV.com)
Pursuant to Section 1482 of the Dodd-Frank Act, Treasury and the Department of
Housing and Urban Development (“HUD”) have launched a publicly available web-
based NPV calculator. The web-based NPV calculator can be used by borrowers
prior to applying for a HAMP modification to help them better understand the
NPV evaluation process. The tool can also be used by borrowers who have been
denied a HAMP modification because of their NPV result. Borrowers can enter
the NPV input values listed in the HAMP Non-Approval Notice received from
their mortgage servicer, or substitute with estimated NPV input values, to compare
the estimated outcome provided by CheckMyNPV.com against that on the Non-
Approval Notice.

Transfer of HAMP Modifications from Bank of America, NA to Seterus, Inc.
In March 2010, International Business Machines Corporation (“IBM”) completed
its acquisition of the operating assets of Wilshire Credit Corp. Inc., a large HAMP
servicer, from Bank of America, NA.160 IBM reported that “Wilshire’s operating
assets will become part of IBM’s Lender Business Process Services, Inc. business
66   special inspector general I troubled asset relief program




                                            unit, a wholly-owned subsidiary of the IBM Corporation. Wilshire will work with
                                            its clients, IBM and Bank of America to transition its mortgage servicing rights
                                            and related assets to Bank of America.”161 Lender Business Process Services, Inc.,
                                            including the Wilshire assets, was later renamed “Seterus, Inc.” According to
                                            Treasury, in October 2011, “approximately 35,000” HAMP trial modifications were
                                            transferred from Bank of America to Seterus, which makes Seterus one of the Top
                                            20 servicers.162

                                            Home Price Decline Protection (“HPDP”)
                                            The HPDP initiative provides investors with additional incentives for modifications
                                            of loans on properties located in areas where home prices have recently declined
                                            and where investors are concerned that price declines may persist. HPDP incentive
                                            payments are linked to the rate of recent home price decline in a local housing
                                            market, as well as the unpaid principal balance and mark-to-market LTV ratio of
                                            the mortgage loan.163
                                                 HPDP is intended to address the fears of investors who may withhold their
                                            consent to loan modifications because of potential future declines in the value of
                                            the homes that secure the mortgages, should the modification fail and the loan go
                                            into foreclosure. In such a circumstance, the investor could suffer greater losses for
                                            offering modifications than under an immediate foreclosure.
                                                 Under HPDP, Treasury has published a standard formula, based on the princi-
                                            pal balance of the mortgage, the recent decline in area home prices during the six
                                            months before the start of the HAMP modification, and the LTV ratio, that will
                                            determine the size of the incentive payment.164 The HPDP incentive payments
                                            accrue monthly over a 24-month period and are paid out annually on the first and
                                            second anniversaries of the initial HAMP trial period. Accruals are discontinued
                                            if the borrower loses good standing under HAMP because they are delinquent by
                                            three mortgage payments. As of December 31, 2011, according to Treasury, ap-
                                            proximately $207.5 million in TARP funds had been paid for incentives on 93,868
                                            loan modifications under HPDP.165

                                            Principal Reduction Alternative (“PRA”)
                                            PRA is intended to encourage principal reduction in HAMP loan modifications for
                                            underwater borrowers by providing mortgage investors with incentive payments
                                            in exchange for lowering the borrower’s principal balance. PRA structures a
                                            HAMP loan modification using an alternative method to the standard HAMP
                                            modification waterfall. Although servicers are required to evaluate every HAMP-
                                            eligible borrower with an LTV of 115% or greater for PRA, whether to actually
                                            offer principal reduction or not is up to the servicer, even if doing so offers a
                                            greater financial benefit to the investor than a standard HAMP modification.166
                                            Because Fannie Mae and Freddie Mac have refused to participate in PRA, the
                                            program applies only to loans modified under TARP-funded HAMP.167 According to
                                            Treasury, as of October 31, 2011, the 10 largest MHA servicers accounted for 97%
                                            of all PRA modifications. Of these servicers, Bank of America, NA was the most
                                            active, with 13,203 PRA trial modifications and 9,992 permanent modifications,
                                                                              quarterly report to congress I January 26, 2012   67




followed by Wells Fargo Bank, NA and JPMorgan Chase Bank, NA.168 According to
Treasury, as of December 31, 2011, 63,203 borrowers have received modifications
through PRA.169
    According to Treasury, as of October 31, 2011, borrowers who received PRA
modifications were more likely to have been seriously delinquent on their mort-
gages at the start of the trial modification than the overall population of HAMP
borrowers (89% vs. 79%). According to Treasury, although the overall population
includes both PRA and standard HAMP modifications, 97% of borrowers received
the standard modification, making the overall population a good proxy for standard
HAMP modifications.170
    Borrowers receiving PRA modifications were also significantly further under-
water before modification than was the overall HAMP population. According to
Treasury, PRA borrowers had a pre-modification median LTV ratio of 158%, com-
pared with 120% for the overall HAMP population. After modification, however,
PRA borrowers lowered their LTVs to a median ratio of 115%, while the LTVs of
the overall HAMP population increased slightly to 123%. These ratios reflect the
differing designs of PRA and standard HAMP modifications. According to Treasury,
PRA modifications reduced principal balances by an average of $65,172, or 31.3%,
thereby lowering the LTV ratio. On the other hand, according to the data, standard
HAMP modifications on average increased the principal balance. Treasury attri-
butes this increase to the capitalization of unpaid interest and fees.171
    Additionally, PRA modifications were more concentrated in the top three states
of California, Florida, and Illinois than the overall population (53% vs. 42%). All of
these states experienced significant housing bubbles and price collapses, consistent
with the negative equity of pre-modification PRA borrowers. California alone ac-
counted for 30% of PRA modifications, compared with 25% for standard HAMP.172
    Borrowers in PRA appear to fare better after modification than the overall
population of HAMP borrowers, who overwhelmingly have received the standard
HAMP modification. According to Treasury, as of October 31, 2011, servicers
had started 53,323 PRA trial modifications, of which 17,046 were active as of
that date, 33,376 had converted to permanent modifications, and 2,901 (or 5.4%)
were subsequently disqualified from the program or the loan was paid off.173 Of
the PRA trials that converted to permanent modifications, 32,171 were still active
as of October 31, 2011, and 1,205 (3.6%) had either redefaulted or were paid off.
Although not directly comparable, the redefault rate for HAMP permanent modifi-
cations is 18.3%.174
    PRA borrowers paid a lower percentage of their income towards debt prior to
modification. HAMP borrower evaluations consider only “front-end DTI,” an af-
fordability ratio that excludes other factors that would normally be accounted for
in loan underwriting, such as car payments, student loans, credit card obligations,
and second liens on the home. According to Treasury, PRA borrowers had slightly
lower pre-modification front-end DTI ratios (44.8%) than the overall population of
HAMP borrowers (45.2%). When taking into account all debt owed by the bor-
rower (“back-end DTI”), the difference was more significant, with a 71.9% pre-
modification back-end DTI for PRA and 78.2% for the overall HAMP population.
68                special inspector general I troubled asset relief program




                                                                    Although both PRA and the standard modification are designed to reduce post-
                                                                    modification front-end DTI to 31%, the lower back-end DTI of PRA borrowers
                                                                    before modification may lead to a similarly lower back-end DTI after modifica-
                                                                    tion, and therefore a more sustainable overall debt situation for the borrower.175
                                                                    However, Treasury has not published any information on the post-modification
                                                                    back-end DTI ratios of PRA loans, so this cannot be confirmed.

                                                                    Who Is Eligible
                                                                    Borrowers who meet all HAMP eligibility requirements and who owe more than
                                                                    115% of their home’s market value (LTV >115%) are eligible for PRA.176 The
                                                                    principal balance used in this LTV calculation includes any amounts that would
                                                                    be capitalized under a HAMP modification.177 Eligible borrowers are evaluated by
                                                                    running two NPV tests, one on a modification using the standard HAMP waterfall
                                                                    and another on a modification using the PRA waterfall. If the standard waterfall
                                                                    produces a positive NPV result, the servicer must offer a HAMP modification (with
                                                                    or without principal reduction). If the PRA waterfall using principal reduction
                                                                    produces a positive NPV result, the servicer may, but is not required to, offer a
                                                                    modification using principal reduction.178
                                                                        According to Treasury, servicers may, but are not required to, retroactively evalu-
                                                                    ate borrowers who entered HAMP permanent modifications or 2MP modifications
                                                                    prior to the PRA effective date. Servicers that choose to do so must develop written
                                                                    policies and procedures to identify existing loans that are eligible for PRA, and treat
                                                                    them in a consistent manner.179

                                                                    How PRA Works
                                                                    The PRA waterfall uses principal forbearance (which later becomes principal
                                                                    reduction) prior to interest rate reduction as the second step in structuring
                                                                    the modification. Under PRA, the servicer determines the modified mortgage
TABLE 2.13                                                          payment by first capitalizing unpaid interest and fees as in a standard HAMP
                                                                    modification. After capitalization, the servicer reduces the loan balance through
 PRA incentives to investors per
 dollar of First Lien principal                                     principal forbearance until either a DTI ratio of 31% or an LTV ratio of 115% is
 reduced                                                            achieved. No interest will be collected on the forborne amount. If the 115% LTV
 Mark-to-Market                                                     ratio is achieved first, the servicer then applies the remaining HAMP waterfall
                            105%         115%
 Loan-to-Value                                                      steps (interest rate reduction, term extension, forbearance) until the 31% DTI
                            to           to           > 140%
 Ratio (“LTV”)
 Rangea
                            115%         140%                       ratio is reached. If the principal balance has been reduced by more than 5%, the
                                                                    servicer is allowed additional flexibility in implementing the remaining waterfall
 Incentive
                            $0.21        $0.15        $0.10         steps. Principal reduction is not immediate; it is earned over three years. On each
 Amounts
 Note: This incentive structure applies to loans less than or       of the first three anniversaries of the modification, one-third of the PRA forborne
 equal to six months past due. For loans that were more than
 six months delinquent within the previous year, investors
                                                                    principal is forgiven. Therefore, after three years the borrower’s principal balance is
 receive $0.06 per dollar of principal reduced in compensation,     permanently reduced by the amount that was placed in PRA forbearance.180
 regardless of the LTV ratio.
 a
   The mark-to-market LTV is based on the pre-modified principal
   balance of the first-lien mortgage plus capitalized interest
   and fees divided by the market value of the property.            Who Gets Paid
 Source: Treasury, “Making Home Affordable Program                  Under PRA, the mortgage investors earns an incentive of $0.06 to $0.21 per dollar
 Handbook for Servicers of Non-GSE Mortgages, Version 3.4,”
 12/15/2011, www.hmpadmin.com/portal/programs/docs/
                                                                    of principal reduced, depending on the level to which the outstanding LTV ratio
 hamp_servicer/mhahandbook_34.pdf, accessed 1/8/2012.               was reduced, as shown in Table 2.13.181 For loans that are more than six months
                                                                              quarterly report to congress I January 26, 2012            69




delinquent, investors receive only $0.06 per dollar of principal reduction, regardless
of LTV. Although PRA allows principal reduction below 105% LTV, no additional                 Equity Share Agreement: Agreement
incentives will be paid.182 PRA incentive payments are paid on the first, second, and         that a homeowner will share future
third anniversaries of the modification date, at the same time that the previously            increases in home value with a
forborne principal is forgiven.183 This incentive structure is very similar to the one        mortgage investor or other party.
that was implemented earlier on the Second-Lien Modification Program (described               In the context of mortgage loan
below) to reduce the principal balance on second liens.                                       modifications, the investor may reduce
    As an additional encouragement for investors to reduce principal, under certain           the borrower’s principal balance
conditions an investor may enter into an equity share agreement in conjunction                in return for the right to share in a
with a PRA modification, in which the borrower and investor agree to share any                portion of any future rise in the home’s
future increase in the value of the property.184                                              value. An equity share agreement thus
    According to Treasury, as of December 31, 2011, Treasury had paid a total of              may provide the mortgage investor
$8.8 million in PRA incentives.185                                                            with a prospect of recovering its
                                                                                              full investment, even if it provides a
Home Affordable Unemployment Program (“UP”)                                                   principal reduction to the borrower.
UP, which was announced on March 26, 2010, provides temporary assistance                      Conversely, it may also provide an
to borrowers whose hardship is related to unemployment.186 Under the program,                 immediate benefit to an “underwater”
unemployed borrowers who meet certain qualifications can receive forbearance                  borrower, yet still offer that borrower
for a portion of their mortgage payments. Originally, the forbearance period                  some prospect of benefiting from
was a minimum of three months, unless the borrower found work during this                     future home price appreciation.
time. However, on July 7, 2011, Treasury announced that it would increase the
minimum UP forbearance period from three months to 12 months, effective
October 1, 2011. The extended term is subject to investor and regulatory
guidance. Servicers were required to consider any borrowers who are already in
UP when the change went into effect for an extension to 12 months. Treasury                   For more information concerning
also made the UP program available to unemployed borrowers who are seriously                  equity share agreements in the
delinquent (overdue by more than three months).187 As of November 30, 2011,                   context of HAMP mortgage loan
which according to Treasury is the latest data available, 5,961 borrowers were                modifications, see SIGTARP’s April
actively participating in UP.188                                                              2011 Quarterly Report, page 84.

Who Is Eligible
Borrowers approved to receive unemployment benefits and also request assistance
under HAMP must be evaluated by servicers for an UP forbearance plan and, if
eligible, offered one. Originally, a borrower who was seriously delinquent (three
months or more overdue) was not eligible for UP. However, on July 25, 2011,
Treasury removed that restriction. Servicers are not required to offer an UP
forbearance plan to borrowers who are more than 12 months delinquent at the
time of the UP request.189 Alternatively, the servicers may evaluate unemployed
borrowers for HAMP and offer a HAMP trial period plan instead of an UP
forbearance plan if, in the servicer’s business judgment, HAMP is the better
loss mitigation option. If an unemployed borrower is offered a trial period plan              For more information on additional
but requests UP forbearance instead, the servicer may then offer UP, but is not               UP eligibility criteria, see
required to do so.190                                                                         SIGTARP’s April 2011 Quarterly
    Eligible borrowers may request a HAMP trial period plan after the UP forbear-             Report, pages 80-81.
ance plan is completed. If an unemployed borrower in bankruptcy proceedings
70            special inspector general I troubled asset relief program




                                                     requests consideration for HAMP, the servicer must first evaluate the borrower
                                                     for UP, subject to any required bankruptcy court approvals.191 A borrower who has
                                                     been determined to be ineligible for HAMP may request assessment for an UP
                                                     forbearance plan if he or she meets all the eligibility criteria.192 If a borrower who
                                                     is eligible for UP declines an offer for an UP forbearance plan, the servicer is not
                                                     required to offer the borrower a modification under HAMP or 2MP while the bor-
                                                     rower remains eligible for an UP forbearance plan.193

                                                     How UP Works
                                                     For qualifying homeowners, the mortgage payments during the forbearance
                                                     period are lowered to no more than 31% of monthly gross income, which includes
                                                     unemployment benefits.194 If the borrower regains employment, but because of
                                                     reduced income still has a hardship, the borrower must be considered for HAMP.
                                                     If the borrower is eligible, any payments missed prior to and during the period of
                                                     the UP forbearance plan are capitalized as part of the normal HAMP modification
                                                     process.195 If the UP forbearance period expires and the borrower is ineligible for
                                                     HAMP, the borrower may be eligible for HAMP foreclosure alternatives, such as
                                                     HAFA.196

                                                     Home Affordable Foreclosure Alternatives (“HAFA”)
                                                     HAFA provides incentives to servicers, borrowers, and subordinate lien holders
     Deficiency Judgment: Court order                to encourage a short sale or deed-in-lieu of foreclosure as an alternative to
     authorizing a lender to collect all or          foreclosure.197 Under HAFA, the servicer forfeits the ability to pursue a deficiency
     part of an unpaid and outstanding debt          judgment against a borrower when the proceeds from the short sale or deed-in-
     resulting from the borrower’s default           lieu are less than the outstanding amount on the mortgage.198 HAFA incentives
     on the mortgage note securing a debt.           include a $3,000 “relocation” incentive payment to borrowers, a $1,500 incentive
     A deficiency judgment is rendered               payment to servicers, and incentive payments to subordinate mortgage lien holders
     after the foreclosed or repossessed             of up to $2,000 in exchange for a release of the lien and the borrower’s liability.199
     property is sold when the proceeds are          The program was announced on November 30, 2009, and went into effect on
     insufficient to repay the full mortgage         April 5, 2010.200 Treasury has allocated $4.2 billion from its MHA funding for this
     debt.                                           program.201
                                                         Treasury allows each servicer participating in HAFA to determine its own
                                                     policies for borrower eligibility and many other aspects of how it operates the
                                                     program. Since October 15, 2011, Treasury has required servicers to post their
                                                     HAFA eligibility criteria and other unique program rules on their websites. Servicer
                                                     website addresses and other contact information can be found at www.makingho-
                                                     meaffordable.gov/get-assistance/contact-mortgage/Pages/default.aspx.202 According
                                                     to Treasury, as of December 31, 2011, 25 “small servicers” had not yet complied
                                                     with this requirement. Nineteen of these servicers did not comply because they are
                                                     either no longer in business or have submitted a request to be released from their
                                                     SPA. SIGTARP will continue to monitor the implementation of this requirement.203
                                                         On August 9, 2011, Treasury changed its policies to require servicers to notify
                                                     eligible borrowers in writing about the availability of the HAFA program. After this
                                                     notification, servicers must now allow the borrower a minimum of 14 calendar days
                                                     to request to be considered for HAFA.204
                                                                               quarterly report to congress I January 26, 2012   71




    Under HAFA, the borrower provides evidence of hardship by completing and
executing a Hardship Affidavit or RMA. Servicers are not required by Treasury
to verify a borrower’s financial information or determine whether the borrower’s
total monthly payment exceeds 31% of his or her monthly gross income, unless
this verification is required by the investor. However, servicers retain the discre-
tion to require borrowers to provide additional financial information or evidence of
hardship.205
    The $3,000 relocation incentive paid to the borrower is intended to assist with
moving expenses, although a recent policy change by Treasury allows borrowers to
use this incentive to cover the cost of legal representation, overdue utility bills, and
minor property repairs as well.206 To receive the relocation incentive, a borrower is
required only to provide documentation that the property was used as the primary
residence at some point within the 12 months preceding the request for assis-
tance.207 Servicers are required to obtain third-party verification that the property
was the borrower’s primary residence at some point within the prior 12 months,
and may not rely exclusively on an affidavit provided by the borrower.208 The prop-
erty can be vacant or even rented to a non-borrower. A borrower’s reason for reloca-
tion and the distance of that relocation from the property are not relevant.209
    Borrowers do not actually have to move out of their homes in order to receive
the $3,000 relocation incentive.210 After a borrower relinquishes title to the home
to the servicer, the servicer can allow the borrower to remain in the home as a
renter (referred to as a “deed-for-lease”) or to repurchase the property later without
affecting the borrower’s right to receive the incentive payment. Servicers have the
option to pay the incentive either upon successful surrender of the title or when
the borrower vacates or repurchases the property.211
    As of December 31, 2011, approximately $99.5 million from TARP had been
paid to investors, borrowers, and servicers in connection with 26,061 short sales or
deeds-in-lieu of foreclosure transfers completed under HAFA.212 As of November
30, 2011, the latest data available, Treasury reported that the 10 largest servicers
alone had completed 157,960 short sales and deeds-in-lieu outside of HAFA for
borrowers whose HAMP trial modifications had failed, borrowers who had chosen
not to participate, or were ineligible for the program.213 The greater volume of activ-
ity outside HAFA may be explained, in part, by the fees and deficiency judgments
that servicers are able to collect from the borrower in non-HAFA transactions,
which are not available within HAFA.

Second-Lien Modification Program (“2MP”)
According to Treasury, 2MP, which was announced on August 13, 2009, is
designed to work in tandem with HAMP and to help provide relief for borrowers
with second mortgages that are serviced by a participating 2MP servicer. The
same servicer does not have to service both liens in order for the second lien to
be eligible for modification under 2MP. Under the program, when a borrower’s
first lien is modified under HAMP and the servicer of the second lien is a 2MP
participant, that servicer must offer to modify or may extinguish the borrower’s
72                 special inspector general I troubled asset relief program




                                                                   second lien. Treasury pays the servicer a lump sum for full extinguishment of
                                                                   the second-lien principal or in exchange for a partial extinguishment (principal
                                                                   reduction) and modification of the remainder of the second lien.214 Second-lien
                                                                   servicers are not required to verify any of the borrower’s financial information and
                                                                   do not perform a separate NPV analysis in order to modify the second lien.
                                                                       To be eligible for a 2MP modification or partial extinguishment, the second lien
                                                                   must have a principal balance of at least $5,000 and a pre-modification mortgage
     Servicing Advances: If borrowers’
                                                                   payment of at least $100 as of the date of its initial evaluation for the program.215
     payments are not made promptly
                                                                   There is no minimum principal balance for a full extinguishment of a second lien
     and in full, servicers are contractually
                                                                   under 2MP. For a second-lien modification under 2MP, the servicer first capitalizes
     obligated to advance the required
                                                                   any accrued interest and servicing advances, then reduces the interest rate, which
     monthly payment amount in full to the
                                                                   is determined by the nature of the loan. The interest rate for amortizing second
     investor. Once a borrower becomes
                                                                   liens (those that require payments of both interest and principal) decreases to 1%
     current or the property is sold or
                                                                   for the first five years of the loan. If the loan is interest-only (non-amortizing), the
     acquired through foreclosure, the
                                                                   servicer can either convert the interest-only payment to an amortizing equivalent
     servicer is repaid all advanced funds.
                                                                   bearing a 1% interest rate or retain the interest-only schedule and reduce the
                                                                   rate to 2% for the first five years. In both cases, after the five-year period, the rate
                                                                   increases to match the rate on the HAMP-modified first lien. When modifying the
                                                                   second lien, the servicer must, at a minimum, extend the term to match the term
                                                                   of the first lien, but can also extend the term up to a maximum of 40 years. To the
                                                                   extent that there is forbearance or principal reduction for the modified first lien,
                                                                   the second-lien holder must forbear or forgive at least the same percentage on the
                                                                   second lien.216
                                                                       The servicer receives a $500 incentive payment upon modification of a second
TABLE 2.14
                                                                   lien. If a borrower’s monthly second-lien payment is reduced by 6% or more, the
 2mp compensation per dollar of                                    servicer is eligible for an annual incentive payment of $250 per year for up to three
 Second-Lien principal Reduced
                                                                   years, and the borrower is eligible for an annual principal reduction payment of
 Combined Loan-                           115%
                                                                   up to $250 per year for up to five years.217 Investors receive modification incen-
 to-Value (“CLTV”)          < 115%        to           > 140%
 Ratio Rangea                             140%                     tive payments equal to an annualized amount of 1.6% of the unmodified principal
 Incentive                                                         balance, paid on a monthly basis for up to five years. If the borrower delinquent by
                            $0.21         $0.15        $0.10
 Amounts                                                           three monthly mortgage payments on the modified second lien or if the associated
 Note: This incentive structure applies to loans less than or      first lien is no longer in good standing, no further incentive payments are typically
 equal to six months past due. For loans that were more than
 six months delinquent within the previous year, investors         made to the servicer or the borrower.218 However, the incentives may be paid under
 receive $0.06 per dollar of principal reduced in compensation,
 regardless of the CLTV ratio.                                     certain conditions.219 If the principal balance of the second lien is fully or partially
 a
   Combined Loan-to-Value is the ratio of the sum of the
    outstanding principal balance of the HAMP-modified first
                                                                   extinguished, the investor receives a payment of a percentage of the amount of
    lien and the outstanding principal balance of the unmodified
    second lien divided by the property value determined in
                                                                   principal reduced, using the schedule shown in Table 2.14. This schedule applies
    connection with the permanent HAMP modification.               only to loans that have been six months delinquent or less within the previous year.
 Source: Treasury, “MHA Handbook for Servicer of Non-GSE           For loans that have been more than six months delinquent within the previous 12
 Mortgages, Version 3.4,” 12/15/2011, https://www.hmpadmin.
 com/portal/programs/docs/hamp_servicer/mhahandbook_34.            months, investors are paid $0.06 for each dollar of principal reduced, regardless of
 pdf, accessed 1/8/2012.
                                                                   the combined LTV ratio.220
                                                                       Treasury recently reported additional detail on the performance of 2MP as of
                                                                   November 30, 2011. According to Treasury, as of that date, 308,341 HAMP modi-
                                                                   fications had a second lien. Of this amount, only 115,762 were eligible for 2MP. As
                                                                   of November 30, 2011, there were 43,958 active second-lien trial modifications.221
                                                                            quarterly report to congress I January 26, 2012   73




New 2MP modifications sharply peaked in March 2011 and have been generally
declining since then. Most of the activity under the program has been modifica-
tions to the terms of the second liens, with a median payment reduction on the sec-
ond lien of $163 per month, according to Treasury. Less than 20% of 2MP modifi-
cations as of November 30, 2011, have included full extinguishment of the second
lien. Median principal reduction was $6,325 for partial extinguishments of second
liens and $60,688 for full extinguishments of second liens.222
    As of December 31, 2011, according to Treasury, approximately $95.6 million
in TARP funds had been paid to servicers and investors in connection with 14,597,
second-lien full and partial extinguishments and modifications under 2MP.223

Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP and
VA-HAMP)
Some mortgage loans insured or guaranteed by the Federal Housing Administration
(“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
Agriculture Rural Development (“RD”) are eligible for modification under HAMP
companion programs. Similar to HAMP, Treasury/FHA-HAMP and RD-HAMP
reduce borrowers’ monthly mortgage payments to 31% of their monthly gross
income and require borrowers to complete trial payment plans before their
loans are permanently modified. Subject to meeting Treasury’s eligibility criteria,
borrowers are eligible to receive a maximum $1,000 annual incentive and servicers
are eligible to receive a maximum $1,000 annual incentive from Treasury on
mortgages in which the monthly payment was reduced by at least 6%.224 Incentive
payments to servicers are paid annually for the first three years after the first
anniversary of the first trial payment due date, as long as the loan remains in good
standing and has not been fully repaid at the time the incentive is paid. Incentive
payments to borrowers are paid over five years.225 Unlike HAMP, no payments are
made to investors because they already have the benefit of a Government loan
guarantee.226 In order to participate in these programs, servicers that previously
executed a SPA were required to execute — by October 3, 2010 — an Amended
and Restated SPA or an additional Service Schedule that includes Treasury/
FHA-HAMP or RD-HAMP.227 As of December 31, 2011, according to Treasury,
approximately $5 million in TARP funds had been paid to servicers and borrowers
in connection with 3,829 permanent Treasury/FHA-HAMP modifications.
According to Treasury, no TARP funds have been spent on incentive payments
under RD-HAMP, and there has been only one modification under the program.228
    VA-HAMP follows the typical HAMP modification procedure, aiming to reduce
monthly mortgage payments to 31% of a borrower’s monthly gross income.229
However, VA-HAMP modifications do not have a trial period. The modification
agreement immediately changes the installment amount of the mortgage pay-
ment.230 Treasury does not provide incentive compensation related to VA-HAMP.231
VA-HAMP also does not require servicers to sign a SPA.232
74               special inspector general I troubled asset relief program




TABLE 2.15                                                         Treasury/FHA Second-Lien Program (“FHA2LP”)
                                                                   FHA2LP, which was launched on September 27, 2010, was designed to
 treasury fha2lp compensation
 per dollar of Second-Lien                                         complement the FHA Short Refinance Program (described below) by providing
 principal Reduced                                                 incentives for partial or full extinguishment of second liens associated with an
 Mark-to-Market                                                    FHA refinance.233 TARP has allocated $2.7 billion under its existing servicer caps
                            105%         115%
 Loan-to-Value
                            to           to          > 140%
                                                                   to make incentive payments, subject to certain limitations, to (1) investors for
 Ratio (“LTV”)                                                     pre-existing second-lien balances that are partially or fully extinguished under
                            115%         140%
 Rangea
                                                                   FHA2LP and (2) servicers, in the amount of $500 for each second-lien mortgage
 Incentive
                            $0.21        $0.15       $0.10         placed into the program.234 According to Treasury, as of December 31, 2011, it had
 Amounts
 Notes: This incentive structure applies to loans less than or
                                                                   not made any incentive payments under FHA2LP, and no second liens had been
 equal to six months past due. For loans that were more than
 six months delinquent within the previous year, investors
                                                                   extinguished.235
 receive $0.06 per dollar of principal reduced in compensation,        To be eligible for FHA2LP, a homeowner must meet the eligibility requirements
 regardless of the CLTV ratio.
 a
   The CLTV is the ratio of the sum of all mortgage debt to the   of the FHA Short Refinance Program. Additionally, second liens must have been
   current FHA-appraised value of the property.
                                                                   originated on or before January 1, 2009; be immediately subordinated to the first
 Source: Treasury, “Supplemental Directive 10-08: Making
 Home Affordable Program Treasury/FHA Second Lien Program          lien before the FHA refinance; require the borrower to make a monthly payment;
 (FHA2LP) to Support FHA Refinance of Borrowers in Negative
 Equity Positions,” 8/6/2010, www.hmpadmin.com//portal/
                                                                   not be GSE-owned or guaranteed; and have a principal balance of $2,500 or more
 programs/docs/hamp_servicer/sd1008.pdf, accessed                  on the day before the FHA refinance closing date.
 1/8/2012.
                                                                       Under FHA2LP, existing second-lien holders may receive incentive payments to
For more information concerning                                    extinguish their debts in accordance with the schedule set forth in Table 2.15, or
FHA2LP eligibility, see SIGTARP’s                                  they may negotiate with the first-lien holder for a portion of the new subordinate-
April 2011 Quarterly Report, pages                                 lien loan.236 This incentive structure is very similar to the one that was implement-
85-87.                                                             ed earlier on 2MP.

                                                                   Servicer Quality Assurance Program
                                                                   Effective May 1, 2011, Treasury has required servicers to develop, document,
                                                                   and execute an effective internal quality assurance (“QA”) program that includes
                                                                   independent reviews, conducted at least quarterly, of each MHA program in which
                                                                   the servicer participates. The purpose of these reviews is to ensure that the servicer
                                                                   is following the SPA and program guidelines.237 The QA team must conduct
                                                                   reviews at least quarterly and distribute a report to senior management that
                                                                   includes recommendations for remediation actions. These reports must be retained
                                                                   by senior management and made available to Treasury’s compliance agent, Making
                                                                   Home Affordable-Compliance (“MHA-C”), upon request.238

                                                                   MHA Servicer Assessments
                                                                   Since June 2011, Treasury has begun publishing quarterly Servicer Assessments
                                                                   of the 10 largest mortgage servicers participating in MHA. The most recent
                                                                   assessment covering the third quarter of 2011 was published on December
                                                                   7, 2011.239 Because not all of the performance metrics Treasury examines are
                                                                   reassessed each quarter, some assessment data is typically carried over from the
                                                                   prior quarter.240
                                                                       Servicer Assessments focus on compliance with the requirements of the MHA
                                                                   program and on program results. The compliance assessment portion is based
                                                                   on the findings of servicer compliance reviews conducted by MHA-C. These
                                                                              quarterly report to congress I January 26, 2012        75




findings are divided into three performance categories: Identifying and Contacting
Homeowners; Homeowner Evaluation and Assistance; and Program Management,
Reporting, and Governance. These categories in turn contain several quantitative
and qualitative metrics, which Treasury rates using a score of one, two, or three
stars, with three stars denoting the highest rating.241 The servicers are also rated on
the effectiveness of their internal controls in each of the three categories. Program
results are reported for four quantitative metrics: Aged Trials as a Percentage
of Active Trials; Conversion Rate for Trials Started On or After June 1, 2010;
Average Calendar Days to Resolve Escalated Cases; and Percentage of Missing
Modification Status Reports. The servicer’s performance in each of the four metrics
is not scored, but instead is compared with the best and worst performances among
the top 10 of all evaluated MHA servicers.242
    Treasury issues overall servicer ratings indicating whether the servicer requires
minor improvement, moderate improvement, or substantial improvement, and
informs the servicer of any specific deficiencies it has identified. According to
Treasury, in some cases, Treasury may withhold or permanently reduce servicer
incentives based on the assessment results. If Treasury does not withhold or reduce
incentives in a particular quarter, it may do so in subsequent quarters if the defi-
ciencies are not corrected.243
    In the third quarter 2011 MHA servicer assessment, Treasury determined that
only JPMorgan Chase Bank, N.A. required substantial improvement, the lowest
category of performance.244 In the previous quarter, both JPMorgan Chase and
Bank of America, N.A., received the lowest overall rating and had their MHA
incentives withheld.245 According to Treasury, due to JPMorgan Chase’s “lack of
progress in implementing previously identified improvements,” Treasury chose to
continue to withhold incentives.246 Treasury also indicated that JPMorgan Chase
was at risk of having its incentives permanently reduced if it did not show improve-
ment in future assessments.247 Although Bank of America improved its overall rat-
ing in the third quarter to “moderate improvement needed,” Treasury indicated that
it would continue to withhold incentives from the servicer until it makes additional
improvements.248 As of December 31, 2011, Bank of America and JPMorgan Chase
had approximately $63.7 million and $67.3 million, respectively, in incentives with-
held in connection with the servicer assessments.249
    Aside from Bank of America, the other servicers requiring moderate improve-
ment (the middle rating) did not have their incentives withheld. These were:
American Home Mortgage Servicing, Inc.; CitiMortgage, Inc.; GMAC Mortgage,
LLC; Litton Loan Servicing, LP; Ocwen Loan Servicing, LLC; and Wells Fargo
Bank, N.A. Of these servicers, Litton Loan Servicing and GMAC Mortgage had pre-               For more information on MHA
viously received the highest rating of “minor improvement needed” based on their              Servicer Assessments, see Section 4:
second quarter performance. The two servicers receiving the highest overall rating            “SIGTARP Recommendations” of
in the third quarter were Select Portfolio Servicing, which improved its rating, and          this report.
OneWest Bank, which had received the same rating in the second quarter.250
76            special inspector general I troubled asset relief program




                                                     FHA Short Refinance Program
                                                     On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
                                                     program, which gives borrowers the option of refinancing an underwater, non-
                                                     FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
                                                     value. The program was launched on September 7, 2010. Treasury has allocated
                                                     TARP support for the program consisting of (1) up to $8 billion to provide loss
                                                     protection to FHA on the refinanced first liens through the purchase of a letter
                                                     of credit; and (2) up to $117 million in fees Treasury will incur for the availability
                                                     and use of the letter of credit.251 FHA Short Refinance is voluntary for servicers.
                                                     Therefore, not all underwater borrowers who qualify may be able to participate in
                                                     the program.252 As of December 31, 2011, according to Treasury, 646 loans had
                                                     been refinanced under the program.253 As of December 31, 2011, Treasury has
                                                     not paid any claims for defaults under the program. According to Treasury, to its
                                                     knowledge, no FHA Short Refinance Loans have defaulted; however, it is possible
                                                     that one or more loans have defaulted but FHA has not yet evaluated the claims.254
                                                     Treasury has deposited $50 million into a reserve account for future claims.255 It
                                                     has also spent approximately $5.5 million on administrative expenses associated
                                                     with the letter of credit.256

                                                     Who Is Eligible
                                                     To be eligible for FHA Short Refinance, a homeowner must be current on the
     FICO Credit Score: Used by                      existing first-lien mortgage; be in a negative equity position; occupy the home as
     lenders to assess an applicant’s                a primary residence; qualify for the new loan under standard FHA underwriting
     credit risk and whether to extend               requirements and have a FICO credit score of at least 500; have an existing loan
     a loan. It is determined by the Fair            that is not insured by FHA; and fully document his or her income.257
     Isaac Corporation (“FICO”) using                    According to HUD, applications are evaluated using FHA’s TOTAL Scorecard
     mathematical models based on an                 (“TOTAL”). TOTAL evaluates the credit risk of FHA loans that are submitted to
     applicant’s payment history, level of           an automated underwriting system. It is FHA’s policy that no borrower be denied
     indebtedness, types of credit used,             an FHA-insured mortgage solely on the basis of a risk assessment generated by
     length of credit history, and newly             TOTAL.258
     extended credit.
                                                     How FHA Short Refinance Works
                                                     Servicers must first determine the current value of the home pursuant to FHA
                                                     underwriting standards, which requires a third-party appraisal by a HUD-approved
                                                     appraiser. The borrower is then reviewed through TOTAL and, if necessary,
                                                     referred for a manual underwriting review to confirm that the borrower’s total
                                                     monthly mortgage payment (including all payments on subordinate liens) after the
                                                     refinance is not greater than 31% of the borrower’s monthly gross income and the
                                                     total debt service, including all forms of household debt, is not greater than 50%.259
                                                     Next, the lien holders must forgive principal that is more than 115% of the value
                                                     of the home. In addition, the original first-lien lender must forgive at least 10% of
                                                     the unpaid principal balance of the first-lien loan. Although the first-lien investors
                                                     must recognize a loss as a result of the mortgage write-down, they receive a cash
                                                     payment for 97.75% of the current home value from the proceeds of the refinance
                                                     and may maintain a subordinate second lien for up to 17.25% of that value (for a
                                                                             quarterly report to congress I January 26, 2012        77




total balance of 115% of the home’s value).260 The 115% cap applies to all mortgage
liens on the property. By obtaining a new FHA-guaranteed loan for an amount that
is closer to the current home value than their previous loan, homeowners receive
the benefits of a lower monthly mortgage payment and reduction in their principal
balance, improving their opportunity to achieve positive equity in their homes.261
    If a borrower defaults on a loan refinanced under FHA Short Refinance, the
letter of credit purchased by TARP compensates the refinancing investor for a
first percentage of losses on each defaulted mortgage, up to the maximum amount
specified by the program guidelines.262 This percentage varies from year to year
and is set according to a formula derived by the Office of Management and Budget
(“OMB”).263 FHA thus is potentially responsible for the remaining approximately              For more information concerning
86.6% of potential losses on each mortgage, until the earlier of either (1) the time         FHA Short Refinance eligibility, see
that the $8 billion letter of credit posted by Treasury is exhausted, or (2) 10 years        SIGTARP’s April 2011 Quarterly
from the issuance of the letter of credit (October 2020), at which point FHA will            Report, pages 85-87.
bear all of the remaining losses.264

Housing Finance Agency Hardest Hit Fund (“HHF”)
On February 19, 2010, the Administration announced a housing support program
known as the Hardest Hit Fund, which according to Treasury was intended to
promote “innovative” measures to protect home values, preserve homeownership,
and promote jobs and economic growth in the states that have been hit the
hardest by the housing crisis.265 The first round of HHF allocated $1.5 billion of
the amount designated for MHA initiatives. According to Treasury, these funds
were designated for five states where the average home price, determined using
the FHFA Purchase Only Seasonally Adjusted Index, had decreased more than
20% from its peak. The five states were Arizona, California, Florida, Michigan, and
Nevada.266 Plans to use these funds were approved on June 23, 2010.267
    On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total fund-
ing to $2.1 billion. The additional $600 million was designated for North Carolina,
Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that these
states were selected because of their high concentrations of people living in eco-
nomically distressed areas, defined as counties in which the unemployment rate
exceeded 12%, on average, in 2009.268 Plans to use these funds were approved on
August 3, 2010.269
    On August 11, 2010, the Government pledged a third round of HHF funding
of $2 billion in additional assistance to state HFA programs that focus on un-
employed homeowners who are struggling to make their payments.270 According
to Treasury, the third funding round was limited to states that have experienced
unemployment rates at or above the national average during the preceding 12
months.271 The states designated to receive funding were Alabama, California,
Florida, Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada,
New Jersey, North Carolina, Ohio, Oregon, Rhode Island, South Carolina, and
Tennessee. Washington, DC, also received funding.272 States already covered by the
first two HHF rounds of funding may use the additional resources “to support the
78   special inspector general I troubled asset relief program




                                            unemployment programs previously approved by Treasury or they may opt to imple-
                                            ment a new unemployment program.”273 States seeking to tap HHF for the first
                                            time were required to submit need-specific proposals that met program guidelines
                                            to Treasury by September 1, 2010.274 Treasury approved third round proposals on
                                            September 23, 2010.275 Finally, on September 29, 2010, an additional $3.5 billion
                                            was made available to existing HHF participants, weighted by population, to be
                                            used in previously announced programs.276
                                                The Housing Finance Agencies (“HFAs”) of the eligible 18 states and
                                            Washington, DC, each submitted proposals to Treasury. The purpose of these
                                            proposals, according to Treasury, was to “meet the unique challenges facing strug-
                                            gling homeowners in their respective housing markets.”277 Treasury required each
                                            state to estimate in its proposal the number of borrowers to be helped. According
                                            to Treasury, each state’s HFA will report program results (i.e., number of applica-
                                            tions approved or denied and assistance provided) on a quarterly basis and post
                                            the reports on its website. Some states initiated pilot programs to assess pro-
                                            gram performance before full implementation. As of July 2011, all 19 HFAs had
                                            completed their pilot programs and were offering assistance statewide.278 Treasury
                                            indicated that states can reallocate funds between programs and modify existing
                                            programs as needed, with Treasury approval, until funds are expended or returned
                                            to Treasury after December 31, 2017. According to Treasury, since September
                                            30, 2011, eight states have reallocated funds, modified or eliminated existing
                                            programs, or established new HHF programs with Treasury approval, bringing the
                                            total number of HHF programs in 18 states and Washington, DC, as of December
                                            31, 2011, to 55.279
                                                Table 2.16 shows the obligation of funds and funds drawn for states participat-
                                            ing in the four rounds of HHF as of December 31, 2011. As of that date, accord-
                                            ing to Treasury, the states had drawn down $722.2 million under the program.
                                            According to Treasury, the states had spent only a limited portion of the amount
                                            drawn on assisting borrowers; see Table 2.17. The majority of the amount drawn is
                                            held as unspent cash-on-hand.280
                                                                                                                       quarterly report to congress I January 26, 2012        79




TABLE 2.16
 HHF Funding Obligated and drawdowns by State, as of 12/31/2011
 Recipient                                                       Amount Obligated                          Amount Drawn*
 Alabama                                                               $162,521,345                             $16,000,000
 Arizona                                                                 267,766,006                             21,255,000
 California                                                           1,975,334,096                             217,490,000
 Florida                                                              1,057,839,136                              36,900,000
 Georgia                                                                 339,255,819                             38,200,000
 Illinois                                                                445,603,557                             46,500,000
 Indiana                                                                 221,694,139                             22,000,000
 Kentucky                                                                148,901,875                             14,000,000
 Michigan                                                                498,605,738                             30,166,175
 Mississippi                                                             101,888,323                               5,094,416
 Nevada                                                                  194,026,240                             12,302,000
 New Jersey                                                              300,548,144                               7,513,704
 North Carolina                                                          482,781,786                             78,000,000
 Ohio                                                                    570,395,099                             65,600,000
 Oregon                                                                  220,042,786                             59,501,070
 Rhode Island                                                             79,351,573                             13,000,000
 South Carolina                                                          295,431,547                             22,500,000
 Tennessee                                                               217,315,593                             12,315,593
 Washington, D.C.                                                         20,697,198                               3,834,860           For more information on HHF
 Total                                                             $7,600,000,000                           $722,172,818               program specifics and funding
 Source: Treasury, response to SIGTARP data call, 1/5/2012.                                                                            details for the participating states
 * Amount Drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses, and cash-on-hand.       and Washington, DC, as of April 5,
                                                                                                                                       2011, see SIGTARP’s April 2011
    As of September 30, 2011, which according to Treasury is the latest data                                                           Quarterly Report, pages 90-101.
available, the 19 HFAs participating in HHF had provided $112.5 million in as-
sistance to 19,025 unique borrowers under their HHF programs since inception.281
Treasury requires states to publish updated borrower assistance and program data                                                       For updated information regarding
on their websites on a quarterly basis—the information for the program as of the                                                       the use of HHF funds, see: www.
fourth quarter of 2011 will be posted on February 15, 2012. Each state estimates                                                       treasury.gov/initiatives/financial-
the number of borrowers to be helped in its programs. Table 2.17 provides this                                                         stability/housing-programs/hhf/
estimate as well as the actual number of borrowers helped by state using data as of                                                    pages/default.aspx.
September 30, 2011.
80   special inspector general I troubled asset relief program




                                            TABLE 2.17
                                             HHF Estimated and Actual Number of Borrowers Assisted and
                                             assistance provided, by state, as of 9/30/2011
                                                                             Estimated Number
                                                                                of Participating
                                                                                  Households to                 Actual Borrowers
                                                                                 be Assisted by             Receiving Assistance                 Assistance Provided
                                             Recipient                           12/31/2017*                 as of 9/30/2011**                   as of 9/30/2011**
                                             Alabama                                           8,500                                 908                      $4,494,855
                                             Arizona                             8,276 to 11,542                                     187                 	489,403
                                             California                                       93,728                               2,369                 	19,572,256
                                             Florida                                        106,000                                1,810                 	5,687,643
                                             Georgia                                          18,300                                 232                 	599,599
                                             Illinois                          17,000 to 29,000                                        39                	348,702
                                             Indiana                                          13,392                                   53                	376,012
                                             Kentucky                            5,342 to 13,000                                     682                 	3,031,920
                                             Michigan                                         38,687                               1,619                 	5,678,014
                                             Mississippi                                       3,800                                   53                	359,856
                                             Nevada                            23,556 to 25,540                                      439                 	1,758,848
                                             New Jersey                                        6,900                                     2               	3,012
                                             North Carolina                                   22,290                               2,126                 	16,734,342
                                             Ohio                                             63,485                               2,914                 	23,369,833
                                             Oregon                                           13,280                              3,846                  	20,237,678
                                             Rhode Island                                      5,042                                 763                 	3,917,478
                                             South Carolina                    21,600 to 26,100                                      481                 	2,521,562
                                             Tennessee                                        11,211                                 422                 	2,510,725
                                             Washington D.C.                          540 to 1,000                                     80                	802,585
                                             Total                        480,929 to 510,797                                    19,025                   $112,494,322
                                             * Source: Estimates are from the latest HFA Participation Agreements as of 9/30/2011. Later amendments are not included for
                                             consistency with Quarterly Performance reporting.

                                             States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
                                             the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
                                             translate into the number of unique households that the states expect to assist because some households may participate in more
                                             than one HHF program.

                                             ** Source: Third quarter 2011 HFA Performance Data quarterly reports and Third Quarter 2011 HFA Aggregate Quarterly Report.
                                             Both sources are as of 9/30/2011.
                                                                             quarterly report to congress I January 26, 2012         81




FINANCIAL INSTITUTION SUPPORT PROGRAMS
Treasury created six TARP programs through which it made capital investments
or asset guarantees in exchange for equity in participating financial institutions.
Three of the programs, the Capital Purchase Program (“CPP”), the Community                   Mandatorily Convertible Preferred
Development Capital Initiative (“CDCI”), and the Capital Assistance Program                  Stock (“MCP”): A type of preferred
(“CAP”), were open to all qualifying financial institutions (“QFIs”). The other              share (ownership in a company that
three, the Systemically Significant Failing Institutions (“SSFI”) program, the               generally entitles the owner of the
Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),                shares to collect dividend payments)
were available on a case-by-case basis to institutions that needed assistance beyond         that can be converted to common
that available through CPP. With the expiration of TARP funding authorization, no            stock under certain parameters at the
new investments can be made through these six programs.                                      discretion of the company -- and must
    To help improve the capital structure of some struggling TARP recipients,                be converted to common stock by a
Treasury has agreed to modify its investment in certain cases by converting the pre-         certain time.
ferred stock it originally received into other forms of equity, such as common stock
or mandatorily convertible preferred stock (“MCP”).282

Capital Purchase Program
Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
way to promote financial stability, maintain confidence in the financial system, and
enable lenders to meet the nation’s credit needs.283 CPP was a voluntary program
open to all QFIs through an application process. QFIs included U.S.-controlled
banks, savings associations, and certain bank and savings and loan holding
companies.284
    Under CPP, Treasury used TARP funds predominantly to purchase preferred
equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
a 5% annual dividend for the first five years and a 9% annual dividend thereafter. In
addition to the senior preferred shares, publicly traded QFIs issued Treasury war-
rants to purchase common stock with an aggregate market price equal to 15% of
the senior preferred share investment. Privately held QFIs issued Treasury warrants
to purchase additional senior preferred stock worth 5% of Treasury’s initial pre-
ferred stock investment.285 In total, Treasury invested $204.9 billion of TARP funds
in 707 QFIs through CPP.286
    According to Treasury, through December 31, 2011, 279 banks – including 10
with the largest CPP investments and 137 that exited TARP by refinancing TARP’s
preferred shares into SBLF – had fully repaid CPP or Treasury had sold the institu-
tion’s stock.287 In addition, 28 banks converted their CPP investments into CDCI.
Another 13 banks have partially repaid by purchasing a portion of their preferred
shares from Treasury.288 Some CPP recipients have also failed, filed bankruptcy,
or had Treasury’s CPP investment restructured or sold at a discount. According to
Treasury, an additional 12 CPP investments have been sold for less than their par
value and 14 are in various stages of bankruptcy or receivership.289
82            special inspector general I troubled asset relief program




                                                     Status of Funds
     Subordinated Debentures: Form of                According to Treasury, through CPP, Treasury purchased $204.9 billion in
     debt security that ranks below other            preferred stock and subordinated debentures from 707 QFIs in 48 states, the
     loans or securities with regard to              District of Columbia, and Puerto Rico. Although the 10 largest investments
     claims on assets or earnings.                   accounted for $142.6 billion of the program, CPP made many smaller investments:
                                                     331 of 707 recipients received $10 million or less.290 Table 2.18 and Table 2.19
                                                     show the distribution of investments by amount.

                                                     TABLE 2.18
                                                      CPP INVESTMENT SUMMARY BY TRANSACTION, AS OF 12/31/2011
                                                                                                                                                 Originala                      Currentb
                                                      Total Investment                                                                     $204.9 billion                   $19.5 billion
                                                      Largest Capital Investment                                                             $25.0 billion                    $3.5 billion
                                                      Smallest Capital Investment                                                        $301 thousand                  $301 thousand
                                                      Average Capital Investment                                                          $277.3 million                   $43.2 million
                                                      Median Capital Investment                                                             $10.3 million                  $10.0 million
                                                      Notes: Data as of 12/31/2011. Data is based on the institutions’ total CPP investments. There are more than 30 institutions that
                                                      have received multiple transactions through CPP.
                                                      a
                                                        These numbers are based on total Treasury CPP investment since 10/28/2008.
                                                      b
                                                        Amount does not include those investments that have already been repaid or are related to institutions that filed for bankruptcy
                                                        protection, and is based on total investments outstanding. Treasury does not include in the number of banks with outstanding CPP
                                                        investments those institutions that have repaid their CPP principal but still have warrants outstanding.

                                                      Source: Treasury, Transactions Report, 1/4/2012.


                                                     TABLE 2.19
                                                      CPP Investment size by institution, as of 12/31/2011
                                                                                                                                                 Originala                Outstandingb
                                                      $10 billion or more                                                                                   6                               0
                                                      $1 billion to $10 billion                                                                           19                                2
                                                      $100 million to $1 billion                                                                          57                             22
                                                      Less than $100 million                                                                            625                             347
                                                      Total                                                                                             707                            371 
                                                      Notes: Data as of 12/31/2011. Data is based on the institutions’ total CPP investments. There are more than 30 institutions that
                                                      have received multiple transactions through CPP.
                                                      a
                                                        These numbers are based on total Treasury CPP investment since 10/28/2008.
                                                      b
                                                        Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
                                                        CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
                                                        protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
                                                        banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
                                                        investment. Treasury does not include in the number of banks with outstanding CPP investments those institutions that have repaid
                                                        their CPP principal but still have warrants outstanding.

                                                      Source: Treasury, Transactions Report, 1/4/2012; Treasury, response to SIGTARP data call, 1/5/2012.



                                                         As of December 31, 2011, 371 banks remained in CPP. On November 29,
                                                     2011, Treasury entered into a financial agency agreement with Houlihan Lokey
                                                     Capital, Inc., to act as a financial agent for disposition services related to CPP.
                                                     On the following day, Treasury sent a letter to all remaining CPP participants
                                                     informing them that Treasury is working with Houlihan Lokey Capital, Inc., “to
                                                     explore options for the management and ultimate recovery of our remaining CPP
                                                     investments.”291
                                                                                                                 quarterly report to congress I January 26, 2012   83




         According to Treasury, as of December 31, 2011, $185.5 billion of the principal
    (or 90.5%) has been repaid under the program, leaving $19.5 billion outstanding.
    Of the repaid amount, $355.7 million was converted from CPP investments into
    CDCI and therefore still represents outstanding obligations to TARP, and $2.2
    billion was refinanced into SBLF, which is not a TARP program.292 In addition,
    Treasury had received approximately $11.4 billion in interest and dividends from
    CPP recipients. Treasury also had received $7.7 billion through the sale of CPP
    warrants that were obtained from TARP recipients.293 Figure 2.2 provides a snap-
    shot ofOCTOBER’S
MATCHING    CPP funds outstanding
                         GRAPH: and associated repayments. For a complete list of
    CPP share repurchases, see Appendix D: “Transaction Detail.”

           Figure 2.2

           SNAPSHOT OF CPP FUNDS OUTSTANDING AND REPAID,
           BY QUARTER
           ($ BILLIONS)

                          198.8
                           0.4 203.2 204.6 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9
                    177.5 198.4 70.1 70.7 121.9 135.8 146.9 152.8 167.9 179.1 180.6 184.9 185.5
                    177.5

            115.0                  133.1 133.9
            115.0

                                                 83.0
                                                        69.1
                                                                 58.0     52.1
                                                                                  37.0
                                                                                         25.9 24.3   20.0 19.5
            Q308 Q408 Q109 Q209 Q309 Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411


               CPP Funds Outstanding at Quarter’s End
               CPP Funds Repaid at Quarter’s End
           Note: Numbers affected by rounding.

NEW GRAPH:
     Source: Treasury, Transactions Report, 1/4/2012.


     SNAPSHOT
           CPP Banks OF CPP     FUNDSTARP
                             Exiting      OUTSTANDING         AND REPAID,
                                                  by Refinancing         into SBLF
     BY QUARTER
           On September 27, 2010, the President signed into law the Small Business Jobs
     ($ BILLIONS)
           Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury
           capital investments       in institutions
                       198.8 203.2 204.6               with
                                         204.9 204.9 204.9   less204.9
                                                           204.9   than   $10
                                                                       204.9   billion
                                                                             204.9 204.9 in  total assets.294
                                                                                          204.9
     200                0.4
                The Jobs Act  70.1specifically  contemplated
                                    70.7 121.9 135.8              that179.1
                                                     146.9 152.8 167.9  some   CPP
                                                                             180.6    institutions
                                                                                   184.9  185.5      could apply
                       198.4
           to exit TARP
                 177.5      by  refinancing     into SBLF.   According      to Treasury,    it received a total of
                 177.5
           935 SBLF applications, of which 320 were TARP recipients under CPP (315) or
     150 CDCI (5).
                        295

                Treasury approved the exit of 137 CPP participants from TARP, which included
                             133.1 133.9
           refinancing
           115.0          Treasury’s TARP preferred stock into $2.7 billion in SBLF preferred
           115.0 296
     100
           stock.
                An institution was not eligible for the program if at the time of application it
           was on the FDIC’s problem     83.0 bank list or if it had been removed from that list in the
                                                69.1
           90 days preceding its application          to SBLF.297 Treasury consulted with Federal and,
      50                                                  58.0
                                                                   52.1
                                                                           37.0
                                                                                   25.9 24.3
                                                                                             20.0 19.5
       0
           Q308 Q408 Q109 Q209 Q309 Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411
84           special inspector general I troubled asset relief program




     See SIGTARP’s January 2011                     where applicable, state regulators about the bank’s financial condition and whether
     Quarterly Report, pages 185-192,               it was eligible to receive funding from SBLF.298
     for SIGTARP’s recommendations                      In order for these 137 banks to exit TARP, the following conditions had to be
     to Treasury about applying SBLF to             met:299
     TARP recipients.
                                                    •	 Banks that refinanced into SBLF were required to end participation in CPP or
     See SIGTARP’s April 2011                          CDCI.
     Quarterly Report, pages 128-129,               •	 Banks that used SBLF to refinance their CPP or CDCI investments were
     for further discussion of Treasury                required to redeem all outstanding preferred stock issued under those programs
     policies regarding missed dividend                on or before the date of Treasury’s SBLF investment. Banks could use the SBLF
     payments and of how Treasury                      funding to meet this requirement.
     adjusts dividend rates of SBLF                 •	 Banks were required to be in material compliance with all the terms, conditions,
     banks.                                            and covenants of CPP or CDCI in order to refinance through SBLF.
                                                    •	 Banks were required to be current in their dividend payments and to pay any
                                                       accrued and unpaid dividends due to Treasury under CPP or CDCI. In addition,
                                                       banks could not have missed more than one previous dividend payment under
                                                       CPP or CDCI (defined as a payment submitted more than 60 days late).

                                                        Table 2.20 is a list of the 137 banks that exited TARP by refinancing into SBLF.
                                                                           quarterly report to congress I January 26, 2012             85




Table 2.20
 CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF
                                             CPP Principal           CPP Warrant                                   SBLF Principal
 Institution                                   Investment    Disposition Proceeds         TARP Exit Date              Investment
 1st Enterprise Banka                         $10,400,000               $220,000                9/1/2011              $16,400,000
 Adbanc, Inc                                   12,720,000                636,000               7/21/2011               21,905,000
 AMB Financial Corp.                            3,674,000                184,000               9/22/2011                3,858,000
 AmeriBank Holding Company                      2,492,000                125,000               9/15/2011                5,347,000
 AmeriServ Financial, Inc.                     21,000,000                825,000               8/11/2011               21,000,000
 Avenue Financial Holdings, Inc.                7,400,000                370,000               9/15/2011               18,950,000
 BancIndependent, Inc.                         21,100,000              1,055,000               7/14/2011               30,000,000
 Bancorp Financial, Inc.                       13,669,000                410,000               8/18/2011               14,643,000
 Bank of Commerce Holdings                     17,000,000                125,000               9/27/2011               20,000,000
 BankFirst Capital Corporation                 15,500,000                775,000                9/8/2011               20,000,000
 Banner County Ban Corporation                    795,000                 40,000               7/28/2011                2,427,000
 Bern Bancshares, Inc.                            985,000                 50,000                9/1/2011                1,500,000
 Birmingham Bloomfield Bancshares, Inc.a        3,379,000                 82,000               7/28/2011                4,621,000
 BNC Financial Group, Inc.                      4,797,000                240,000                8/4/2011               10,980,000
 BOH Holdings, Inc.                            10,000,000                500,000               7/14/2011               23,938,350
 Brotherhood Bancshares, Inc.                  11,000,000                550,000               9/15/2011               16,000,000
 Cache Valley Banking Company      a
                                                9,407,000                238,000               7/14/2011               11,670,000
 California Bank of Commerce                    4,000,000                200,000               9/15/2011               11,000,000
 Cardinal Bancorp II, Inc.                      6,251,000                313,000                9/8/2011                6,251,000
 Catskill Hudson Bancorp, Inc.a                 6,500,000                263,000               7/21/2011                9,681,000
 Center Bancorp, Inc.                          10,000,000                245,000               9/15/2011               11,250,000
 Central Bancorp, Inc.                         10,000,000              2,525,000               8/25/2011               10,000,000
 Central Valley Community Bancorp               7,000,000                185,017               8/18/2011                7,000,000
 Centric Financial Corporation                  6,056,000                182,000               7/14/2011                7,492,000
 Centrix Bank & Trust                           7,500,000                375,000               7/28/2011               24,500,000
 Citizens Community Bank                        3,000,000                150,000               7/28/2011                4,000,000
 Citizens South Banking Corporation            20,500,000                225,157               9/22/2011               20,500,000
 CoBiz Financial Inc.                          64,450,000                143,677                9/8/2011               57,366,000
 Codorus Valley Bancorp, Inc.                  16,500,000                526,604               8/18/2011               25,000,000
 Columbine Capital Corp.                        2,260,000                113,000               9/22/2011                6,050,000
 Community Bank Shares of Indiana, Inc.        19,468,000              1,100,870               9/15/2011               28,000,000
 Community First Bancshares Inc.               20,000,000              1,000,000               8/18/2011               30,852,000
 Community Partners Bancorp                     9,000,000                460,000               8/11/2011               12,000,000
 Community Trust Financial Corporation         24,000,000              1,200,000                7/6/2011               48,260,000
 D. L. Evans Bancorp                           19,891,000                995,000               9/27/2011               29,891,000
 Deerfield Financial Corporation                2,639,000                132,000                9/8/2011                3,650,000
 DNB Financial Corporation                     11,750,000                458,000                8/4/2011               13,000,000
 Eagle Bancorp, Inc.                           38,235,000              2,794,422               7/14/2011               56,600,000
 Emclaire Financial Corp.                       7,500,000                 51,113               8/18/2011               10,000,000
 Encore Bancshares, Inc.                       34,000,000                637,071               9/27/2011               32,914,000
 Enterprise Financial Services Group, Inc.      4,000,000                200,000               8/25/2011                5,000,000
 Equity Bancshares, Inc.                        8,750,000                438,000               8/11/2011               16,372,000
 Farmers State Bankshares, Inc.                   700,000                 40,000               7/21/2011                     700,000
 FCB Bancorp, Inc.                              9,294,000                465,000               9/22/2011                9,759,000
 Financial Security Corporation                 5,000,000                250,000               7/21/2011                5,000,000
 Financial Services of Winger, Inc.             3,742,000                112,000                9/1/2011                4,069,000
                                                                                                             Continued on next page
86            special inspector general I troubled asset relief program




     CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF                   (Continued)
                                                        CPP Principal             CPP Warrant                             SBLF Principal
     Institution                                          Investment      Disposition Proceeds     TARP Exit Date            Investment
     First Bancorp                                        $65,000,000                $924,462           9/1/2011             $63,500,000
     First Bank of Charleston, Inc.                         3,345,000                    167,000       7/21/2011               3,345,000
     First Bankers Trustshares, Inc.                       10,000,000                    500,000        9/8/2011              10,000,000
     First Busey Corporation                              100,000,000                     63,677       8/25/2011              72,664,000
     First California Financial Group, Inc                 25,000,000                    599,042       7/14/2011              25,000,000
     First Colebrook Bancorp, Inc.                          4,500,000                    225,000       9/22/2011               8,623,000
     First Financial Bancshares, Inc.                       3,756,000                    113,000       9/22/2011               3,905,000
     First Guaranty Bancshares, Inc.                       20,699,000               1,030,000          9/22/2011              39,435,000
     First Menasha Bancshares, Inc.                         4,797,000                    240,000       9/15/2011              10,000,000
     First Merchants Corporation                          116,000,000                    367,500       9/22/2011              90,782,940
     First NBC Bank Holding Company                        17,836,000                    892,000        8/4/2011              37,935,000
     First Northern Community Bancorp                      17,390,000                    375,000       9/15/2011              22,847,000
     First Resource Banka                                   5,017,000                    130,000       9/15/2011               5,083,000
     First Texas BHC, Inc.                                 13,533,000                    677,000       9/15/2011              29,822,000
     Florida Business BancGroup, Inc.                       9,495,000                    475,000       9/22/2011              15,360,000
     FNB Bancorp                                           12,000,000                    600,000       9/15/2011              12,600,000
     Fortune Financial Corporation                          3,100,000                    155,000       9/15/2011               3,255,000
     Grand Capital Corporation                              4,000,000                    200,000        9/8/2011               5,200,000
     GrandSouth Bancorporationa                            15,319,000                    450,000        9/8/2011              15,422,000
     Great Southern Bancorp                                58,000,000               6,436,364          8/18/2011              57,943,000
     Guaranty Bancorp, Inc.                                 6,920,000                    346,000       9/15/2011               7,000,000
     Gulfstream Bancshares, Inc.                            7,500,000                    375,000       8/18/2011               7,500,000
     Heartland Financial USA, Inc.                         81,698,000               1,800,000          9/15/2011              81,698,000
     Heritage Bankshares, Inc.                             10,103,000                    303,000       8/11/2011               7,800,000
     Highlands Bancorp, Inc.a                               5,450,000                    155,000       9/22/2011               6,853,000
     Horizon Bancorp                                       25,000,000               1,750,551          8/25/2011              12,500,000
     Howard Bancorp, Inc.                                   5,983,000                    299,000       9/22/2011              12,562,000
     Illinois State Bancorp, Inc.a                         10,272,000                    406,000       9/22/2011              13,368,000
     Katahdin Bankshares Corp.                             10,449,000                    522,000       8/18/2011              11,000,000
     Liberty Bancshares, Inc. (AR)                         57,500,000               2,875,000          7/21/2011              52,500,000
     Liberty Bancshares, Inc. (MO)                         21,900,000               1,095,000          8/18/2011              22,995,000
     Magna Bank                                            13,795,000                    690,000       8/18/2011              18,350,000
     McLeod Bancshares, Inc.                                6,000,000                    300,000       8/18/2011               6,000,000
     Medallion Banka                                       21,498,000                    645,000       7/21/2011              26,303,000
     Mercantile Capital Corp.                               3,500,000                    175,000        8/4/2011               7,000,000
     Merchants and Manufacturers Bank
                                                            3,510,000                    176,000        9/8/2011               6,800,000
     Corporation
     Merchants and Planters Bancshares, Inc.                1,881,000                     94,000        9/8/2011               2,000,000
     MidSouth Bancorp, Inc.                                20,000,000                    206,557       8/25/2011              32,000,000
     Moneytree Corporation                                  9,516,000                    476,000       9/15/2011               9,992,000
     Monument Bank                                          4,734,000                    237,000       8/11/2011              11,355,000
     MutualFirst Financial, Inc.                           32,382,000                    900,194       8/25/2011              28,923,000
     New Hampshire Thrift Bancshares, Inc.b                10,000,000                                  8/25/2011              20,000,000
     Nicolet Bankshares, Inc.                              14,964,000                    748,000        9/1/2011              24,400,000
     Northway Financial, Inc.                              10,000,000                    500,000       9/15/2011              23,593,000
     Oak Valley Bancorp                                    13,500,000                    560,000       8/11/2011              13,500,000
     Pacific Coast Bankers’ Bancshares                     11,600,000                    580,000       7/28/2011              11,960,000
     Pathfinder Bancorp, Inc.   b
                                                            6,771,000                                   9/1/2011              13,000,000
     Penn Liberty Financial Corp.                           9,960,000                    498,000        9/1/2011              20,000,000
                                                                                                                    Continued on next page
                                                                                                                        quarterly report to congress I January 26, 2012                  87



CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF                                                  (Continued)
                                                                         CPP Principal                    CPP Warrant                                                  SBLF Principal
Institution                                                                Investment             Disposition Proceeds                 TARP Exit Date                     Investment
Peoples Bancorp                                                            $18,000,000                             $900,000                  8/4/2011                     $18,000,000
PFSB Bancorporation, Inc.                                                     1,500,000                                71,000               8/25/2011                        1,500,000
PlainsCapital Corporation                                                   87,631,000                            4,382,000                 9/27/2011                     114,068,000
Providence Bank                                                               4,000,000                              175,000                9/15/2011                        4,250,000
Puget Sound Bank                                                              4,500,000                              225,000                8/11/2011                        9,886,000
QCR Holdings, Inc.                                                          38,237,000                            1,100,000                 9/15/2011                      40,090,000
Redwood Capital Bancorp                                                       3,800,000                              190,000                7/21/2011                        7,310,000
Redwood Financial, Inc.                                                       2,995,000                              150,000                8/18/2011                        6,425,000
Regent Capital Corporation                                                    2,655,000                              133,000                7/21/2011                        3,350,000
Salisbury Bancorp, Inc.                                                       8,816,000                              205,000                8/25/2011                      16,000,000
SBT Bancorp, Inc.                                                             4,000,000                              200,000                8/11/2011                        9,000,000
Seacoast Commerce Bank                                                        1,800,000                                90,000                9/1/2011                        4,000,000
Security Business Bancorp                                                     5,803,000                              290,000                7/14/2011                        8,944,500
Security California Bancorp                                                   6,815,000                              341,000                9/15/2011                        7,200,000
Security State Bancshares, Inc.                                             12,500,000                               625,000                9/22/2011                      22,000,000
Southern Heritage Bancshares, Inc.                                            4,862,000                              243,000                 9/8/2011                        5,105,000
Southern Illinois Bancorp, Inc.                                               5,000,000                              250,000                8/25/2011                        9,000,000
Southern Missouri Bancorp, Inc.           b
                                                                              9,550,000                                                     7/21/2011                      20,000,000
Sovereign Bancshares, Inc.                                                  18,215,000                               911,000                9/22/2011                      24,500,000
Steele Street Bank Corporation                                              11,019,000                               331,000                 9/1/2011                      11,350,000
Stewardship Financial Corporation                                           10,000,000                               107,398                 9/1/2011                      15,000,000
Summit State Bank                                                             8,500,000                              315,000                 8/4/2011                      13,750,000
Sword Financial Corporation                                                 13,644,000                               682,000                9/15/2011                      17,000,000
TCB Corporation                                                               9,720,000                              292,000                 9/8/2011                        8,640,000
The ANB Corporation                                                         20,000,000                            1,000,000                 8/25/2011                      37,000,000
The Elmira Savings Bank, FSBb                                                 9,090,000                                                     8/25/2011                      14,063,000
The Landrum Company                                                         15,000,000                               750,000                8/18/2011                      20,000,000
The Private Bank of California                                                5,450,000                              273,000                 9/1/2011                      10,000,000
The State Bank of Bartley                                                     1,697,000                                51,000               9/22/2011                        2,380,000
The Victory Bancorp, Inc.a                                                    2,046,000                                61,000               9/22/2011                        3,431,000
TowneBankb                                                                  76,458,000                                                      9/22/2011                      76,458,000
Triad Bancorp, Inc.                                                           3,700,000                              185,000                9/22/2011                        5,000,000
Tri-County Financial Corporation                                            15,540,000                               777,000                9/22/2011                      20,000,000
Two Rivers Financial Group, Inc.                                            12,000,000                               600,000                 9/1/2011                      23,240,000
UBT Bancshares, Inc.                                                          8,950,000                              450,000                8/11/2011                      16,500,000
Union Bank & Trust Company            a
                                                                              6,191,000                              160,000                9/22/2011                        6,200,000
United Financial Banking Companies, Inc.                                      5,658,000                              283,000                9/15/2011                        3,000,000
Valley Financial Group, Ltd.                                                  1,300,000                                65,000               9/22/2011                        2,000,000
Veritex Holdings, Inc. (Fidelity Resources
                                                                              3,000,000                              150,000                8/25/2011                        8,000,000
Company)
W.T.B. Financial Corporation                                               110,000,000                            5,500,000                 9/15/2011                      89,142,000
WashingtonFirst Bankshares, Inc.a                                           13,475,000                               332,000                 8/4/2011                      17,796,000
Western Alliance Bancorporation                                            140,000,000                               415,000                9/27/2011                     141,000,000
York Traditions Bank                                                          4,871,000                              244,000                7/14/2011                        5,115,000
Total                                                               $2,240,465,000                           $77,041,676                                            $2,689,763,790
Note: Banks are not required to repurchase warrants from Treasury that were provided as a condition of receiving funds under CPP.
a
  Institution received multiple investments under CPP.
b
  As of the drafting of this report, Treasury still held warrants to purchase common stock in this institution.

Sources: Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20
Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/17/2012; Treasury, SBLF Transactions Report, 9/28/2011, www.treasury.gov/resource-center/sb-programs/
DocumentsSBLFTransactions/SBLF_Bi-Weekly_Transactions_Report_THRU_09272011.pdf, accessed 1/4/2012.
88            special inspector general I troubled asset relief program




                                                                   Program Administration
                                                                   Although Treasury’s investment authority for CPP has ended, Treasury still has
                                                                   significant responsibilities for managing the existing CPP portfolio, including the
                                                                   following:

                                                                   •	 collecting dividends and interest payments on outstanding investments
                                                                   •	 monitoring the performance of outstanding investments
                                                                   •	 disposing of warrants as investments are repaid
                                                                   •	 selling or restructuring Treasury’s investment in some troubled financial
     Table 2.21
                                                                      institutions
      Missed dividend/interest                                     •	 selecting observers for recipients that have missed five quarterly dividend
      payments by qfis,
                                                                      payments
      9/30/2009 to 12/31/2011
      ($ millions)                                                 •	 potentially selecting directors for recipients that have missed six or more
                                               Value of
                                                                      quarterly dividend payments
      Quarter                Number             Unpaid
      End                     of QFIs        Amountsa,b,c          Dividends and Interest
      9/30/2009                       38               $75.7       As of December 31, 2011, Treasury had received $11.4 billion in dividends and
      12/31/2009                      43               137.4       interest on its CPP investments.300 However, as of that date, 197 QFIs had unpaid
      3/31/2010                       67               182.0       dividend or interest payments to Treasury totaling approximately $377 million,
      6/30/2010       d
                                    109                209.7       an increase from the 193 QFIs that had unpaid dividend (or interest) payments
      9/30/2010                     137                211.3       totaling approximately $356.9 million as of September 30, 2011. Approximately
      12/31/2010                    155                276.4
                                                                   $17.1 million of the unpaid amounts are non-cumulative, meaning that the
                                                                   institution has no legal obligation to pay Treasury unless the institution declares
      3/31/2011                     173                277.3
                                                                   a dividend.301 Table 2.21 shows the number of QFIs and total unpaid amount of
      6/30/2011                     188                320.8
                                                                   dividend and interest payments by quarter from September 30, 2009, to December
      9/30/2011                     193                356.9
                                                                   31, 2011.
      12/31/2011                    197                377.0
      Notes:
      a
        Includes unpaid cumulative dividends, non-
                                                                   Treasury’s Policy on Missed Dividend and Interest Payments
        cumulative dividends, and Subchapter S interest
        payments but does not include interest accrued on
                                                                   According to Treasury, it “evaluates its CPP investments on an ongoing basis with
        unpaid cumulative dividends.                               the help of outside advisors, including external asset managers. The external asset
      b
        Excludes institutions that missed payments but (i)
        had fully caught up on missed payments at the end          managers provide a valuation for each CPP investment” that results in Treasury
        of the quarter reported in column 1 or (ii) had repaid
        their investment amounts and exited CPP.                   assigning the institution a credit score.302 For those that have unfavorable credit
      c
        Includes institutions that missed payments and
        (i) entered into a recapitalization or restructuring
                                                                   scores, including any institution that has missed more than three dividend (or
        with Treasury, (ii) for which Treasury sold the CPP
        investment to a third party or otherwise disposed of
                                                                   interest) payments, Treasury has stated that the “asset manager dedicates more
        the investment to facilitate the sale of the institution   resources to monitoring the institution and may talk to the institution on a more
        to a third party without receiving full repayment of
        unpaid dividends, (iii) filed for bankruptcy relief, or    frequent basis.”303
        (iv) had a subsidiary bank fail.
      d
        Includes four QFIs and their missed payments not              Under the terms of the preferred shares or subordinated debentures held by
        reported in Treasury’s Capital Purchase Program
        Missed Dividends & Interest Payments Report as of
                                                                   Treasury as a result of its CPP investments, in certain circumstances, such as
        6/30/2010 but reported in Treasury’s Cumulative
        Dividends, Interest, and Distributions Report as of
                                                                   when a participant misses six dividend (or interest) payments, Treasury has the
        the same date. The four QFIs are CIT, Pacific Coast        right to appoint up to two additional members to the institution’s board of direc-
        National Bancorp, UCBH Holdings, Inc., and Midwest
        Banc Holdings, Inc.                                        tors.304 Treasury has stated that it will prioritize the institutions for which it ap-
      Sources: Treasury, Dividends and Interest Report,            points directors based on “the size of its investment, Treasury’s assessment of the
      1/10/2012; Treasury, responses to SIGTARP
      data calls, 10/7/2009, 1/12/2010, 4/8/2010,                  extent to which new directors may make a contribution and Treasury’s ability to
      6/30/2010, 10/11/2011, and 1/5/2012; SIGTARP
      Quarterly Report to Congress, 1/30/2010,
                                                                   find appropriate directors for a given institution.”305 These directors will not repre-
      4/20/2010, 7/21/2010, 10/26/2010.                            sent Treasury, but rather will have the same fiduciary duties to shareholders as all
                                                                                  quarterly report to congress I January 26, 2012   89




other directors. They will be compensated by the institution in a manner similar to
other directors.306 Treasury has engaged an executive search firm to identify suit-
able candidates for board of directors positions and has begun interviewing such
candidates.307
    According to Treasury, it continues to prioritize institutions for nominating
directors in part based on whether its investment exceeds $25 million. When
Treasury’s right to nominate a new board member becomes effective, it evaluates
the institution’s condition and health and the functioning of its board to determine
whether additional directors are necessary.308 As of December 31, 2011, Treasury
had made director appointments to the boards of directors of seven CPP banks.309
    According to filings with the SEC on September 21, 2011, and October 5,
2011, Citizens Republic Bancorp, Inc., Flint, Michigan (“Citizens Republic”), ap-
proved Treasury’s two board nominees, William M. Fenimore, Jr., and Madeleine L.
Champion.310 Citizens Republic received $300 million under CPP and had missed
seven quarterly dividend payments prior to the director appointments.311
    According to a filing with the SEC on October 3, 2011, Duane Morse and
Leonard Rush have been appointed to the board of Anchor Bancorp, Madison,
Wisconsin (“Anchor”).312 Anchor received $110 million under CPP and had missed
ten quarterly dividend payments prior to the director appointments.313
    According to Treasury, on December 20, 2011, it appointed Mary Carryer to the
board of PremierWest Bancorp, Medford, Oregon (“PremierWest”).314 PremierWest
received $41.4 million under CPP and had missed nine quarterly dividend pay-
ments prior to the director appointment.315
    For institutions that miss five or more dividend (or interest) payments, Treasury
has stated that it would seek consent from such institutions to send observers to
the institutions’ board meetings.316 According to Treasury, the observers would be
selected from the Office of Financial Stability (“OFS”) and assigned to “gain a
better understanding of the institution’s condition and challenges and to observe
how the board is addressing the situation.”317 Their participation would be limited
to inquiring about distributed materials, presentations, and actions proposed or
taken during the meetings, as well as addressing any questions concerning their
role.318 The findings of the observers are taken into account when Treasury evalu-
ates whether to appoint individuals to an institution’s board of directors.319 As of
December 31, 2011, Treasury had assigned observers to 40 CPP recipients.320
    SIGTARP and Treasury do not use the same methodology to report unpaid
dividend and interest payments. For example, Treasury generally excludes institu-
tions from its “non-current” reporting: (i) that have completed a recapitalization,
restructuring, or exchange with Treasury (though Treasury does report such institu-
tions as non-current during the pendency of negotiations); (ii) for which Treasury
sold the CPP investment to a third party, or otherwise disposed of the investment
to facilitate the sale of the institution to a third party; (iii) that filed for bankruptcy
relief; or (iv) that had a subsidiary bank fail.321 SIGTARP generally includes such
activity in Table 2.22 under “Value of Unpaid Amounts” with the value set as of
the date of the bankruptcy, restructuring, or other event that relieves the institu-
tion of the legal obligation to continue to make dividend and interest payments. If
90   special inspector general I troubled asset relief program




                                            a completed transaction resulted in payment to Treasury for all unpaid dividends
                                            and interest, SIGTARP does not include the institution’s obligations under unpaid
                                            amounts. SIGTARP, unlike Treasury, does not include in its table institutions that
                                            have “caught up” by making previously missed dividend and interest payments.322
                                                According to Treasury, as of December 31, 2011, 88 QFIs had missed at
                                            least six dividend (or interest) payments (up from 72 last quarter) and 20 banks
                                            had missed five dividend (or interest) payments totaling $248.7 million.323 Table
                                            2.22 lists CPP recipients that had unpaid dividend (or interest) payments as of
                                            December 31, 2011. For a complete list of CPP recipients and institutions making
                                            dividend or interest payments, see Appendix D: “Transaction Detail.”
                                                                            quarterly report to congress I January 26, 2012   91


Table 2.22
 CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2011
                                                                       Observer
                                                            Number     Assigned           Value of        Value of
                                          Dividend or      of Missed   to Board of         Missed          Unpaid
 Company                                  Payment type     Payments    Directors1       Payments2       Amounts2,3,4
 Saigon National Bank                     Non-Cumulative         12                      $244,233         $244,233
 Anchor BanCorp Wisconsin, Inc.           Cumulative             11        ün
                                                                                       15,354,167       15,354,167
 Blue Valley Ban Corp                     Cumulative             11        ü            2,990,625         2,990,625
 OneUnited Bank                           Non-Cumulative         11        ü            1,658,663         1,658,663
 United American Bank                     Non-Cumulative         11                     1,297,327         1,297,327
 Lone Star Bank                           Non-Cumulative         11        ü              464,702          464,702
 First Banks, Inc.                        Cumulative             10        ün
                                                                                       40,248,250       40,248,250
 Dickinson Financial Corporation II       Cumulative             10        ü           19,899,800       19,899,800
 Centrue Financial Corporation            Cumulative             10        ü            4,083,500         4,083,500
 Royal Bancshares of Pennsylvania, Inc.   Cumulative             10        ün           3,800,875         3,800,875
 Pacific City Financial Corporation       Cumulative             10        ü            2,207,250         2,207,250
 Idaho Bancorp                            Cumulative             10        ü              940,125          940,125
 Georgia Primary Bank                     Non-Cumulative         10        ü              622,663          622,663
 Premier Service Bank                     Non-Cumulative         10        ü              541,972          541,972
 Grand Mountain Bancshares, Inc.          Cumulative             10        ü              412,630          412,630
 Premierwest Bancorp                      Cumulative              9        ün
                                                                                        4,657,500         4,657,500
 Rogers Bancshares, Inc.                  Cumulative              9        ün           3,065,625         3,065,625
 FC Holdings, Inc.                        Cumulative              9        ü            2,580,255         2,580,255
 Northern States Financial Corporation    Cumulative              9        ü            1,936,238         1,936,238
 Ridgestone Financial Services, Inc.      Cumulative              9        ü            1,336,613         1,336,613
 Syringa Bancorp                          Cumulative              9        ü              981,000          981,000
 Citizens Commerce Bancshares, Inc.       Cumulative              9                       772,538          772,538
 Rising Sun Bancorp                       Cumulative              9                       733,635          733,635
 Pathway Bancorp                          Cumulative              9                       456,953          456,953
 Omega Capital Corp.                      Cumulative              9                       345,353          345,353
 The Freeport State Bank                  Non-Cumulative          9                        36,900            36,900
 Citizens Republic Bancorp, Inc.          Cumulative              8        ün
                                                                                       30,000,000       30,000,000
 U.S. Century Bank                        Non-Cumulative          8        ü            5,475,760         5,475,760
 First Security Group, Inc.               Cumulative              8        ü            3,300,000         3,300,000
 Citizens Bancshares Co. (MO)             Cumulative              8        ü            2,724,000         2,724,000
 Intermountain Community Bancorp          Cumulative              8                     2,700,000         2,700,000
 Intervest Bancshares Corporation         Cumulative              8        ü            2,500,000         2,500,000
 BNCCORP, Inc.                            Cumulative              8        ü            2,190,200         2,190,200
 Alliance Financial Services, Inc.*       Interest                8                     2,013,600         2,013,600
 Cecil Bancorp, Inc.                      Cumulative              8        ü            1,156,000         1,156,000
 Central Virginia Bankshares, Inc.        Cumulative              8        ü            1,138,500         1,138,500
 City National Bancshares Corporation     Cumulative              8                       943,900          943,900
 First Sound Bank                         Non-Cumulative          8                       740,000          740,000
 Fidelity Federal Bancorp                 Cumulative              8                       703,649          703,649
 Monarch Community Bancorp, Inc.          Cumulative              8                       678,500          678,500
                                                                                              Continued on next page
92   special inspector general I troubled asset relief program




          CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2011               (Continued)

                                                                              Observer
                                                                   Number     Assigned          Value of        Value of
                                                 Dividend or      of Missed   to Board of        Missed          Unpaid
          Company                                Payment type     Payments    Directors1      Payments2       Amounts2,3,4
          Investors Financial Corporation of
                                                 Interest                8                      $671,200         $671,200
          Pettis County, Inc.*
          First Southwest Bancorporation, Inc.   Cumulative              8                       599,500          599,500
          Tennessee Valley Financial
                                                 Cumulative              8                       327,000          327,000
          Holdings, Inc.
          Community 1st Bank                     Non-Cumulative          8                       254,484          254,484
          Bridgeview Bancorp, Inc.               Cumulative              7        ü            3,624,250        3,624,250
          Cascade Financial Corporation          Cumulative              7                     3,409,875        3,409,875
          First Trust Corporation*               Interest                7        ü            2,638,190        2,638,190
          Heritage Oaks Bancorp                  Cumulative              7        ü            1,837,500        1,837,500
          Timberland Bancorp, Inc.               Cumulative              7                     1,456,088        1,456,088
          First Community Bancshares, Inc (KS)   Cumulative              7        ü            1,411,550        1,411,550
          Bankers’ Bank of the West
                                                 Cumulative              7        ü            1,205,453        1,205,453
          Bancorp, Inc.
          TCB Holding Company                    Cumulative              7        ü            1,118,828        1,118,828
          Stonebridge Financial Corp.            Cumulative              7        ü            1,046,605        1,046,605
          Plumas Bancorp                         Cumulative              7        ü            1,045,538        1,045,538
          Northwest Bancorporation, Inc.         Cumulative              7        ü            1,001,438        1,001,438
          Premier Bank Holding Company           Cumulative              7                       906,063          906,063
          Commonwealth Business Bank             Non-Cumulative          7                       734,475          734,475
          Millennium Bancorp, Inc.**             Cumulative              7                       791,340          692,423
          Patapsco Bancorp, Inc.                 Cumulative              7                       572,250          572,250
          Midtown Bank & Trust Company**         Non-Cumulative          7                       569,180          498,033
          Madison Financial Corporation          Cumulative              7                       321,493          321,493
          Santa Clara Valley Bank, N.A.          Non-Cumulative          7                       276,588          276,588
          Prairie Star Bancshares, Inc.          Cumulative              7                       267,050          267,050
          Goldwater Bank, N.A.**                 Non-Cumulative          7                       314,820          244,860
          Gold Canyon Bank                       Non-Cumulative          7                       148,173          148,173
          Gregg Bancshares, Inc.                 Cumulative              7                        78,645           78,645
          Community Bankers Trust Corporation    Cumulative              6                     1,326,000        1,326,000
          1st FS Corporation                     Cumulative              6        ü            1,227,675        1,227,675
          Broadway Financial Corporation         Cumulative              6        ü            1,125,000        1,125,000
          The Queensborough Company              Cumulative              6        ü              981,000          981,000
          HomeTown Bankshares Corporation        Cumulative              6                       800,490          800,490
          Premier Financial Corp*                Interest                6                       798,929          798,929
          Boscobel Bancorp, Inc*                 Interest                6                       702,936          702,936
          Provident Community Bancshares, Inc.   Cumulative              6                       694,950          694,950
          BNB Financial Services Corporation     Cumulative              6                       613,125          613,125
          Western Community Bancshares, Inc.     Cumulative              6                       596,025          596,025
          Harbor Bankshares Corporation**        Cumulative              6                       680,000          510,000
          Pacific International Bancorp Inc      Cumulative              6                       487,500          487,500
                                                                                                     Continued on next page
                                                                        quarterly report to congress I January 26, 2012   93




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2011              (Continued)

                                                                   Observer
                                                        Number     Assigned           Value of        Value of
                                      Dividend or      of Missed   to Board of         Missed          Unpaid
Company                               Payment type     Payments    Directors1       Payments2       Amounts2,3,4
Capital Commerce Bancorp, Inc.        Cumulative              6                      $416,925         $416,925
Pinnacle Bank Holding Company         Cumulative              6                       358,740          358,740
Market Bancorporation, Inc.           Cumulative              6                       168,405          168,405
Old Second Bancorp, Inc.              Cumulative              5        ü            4,562,500         4,562,500
Spirit BankCorp, Inc.                 Cumulative              5        ü            2,043,750         2,043,750
First United Corporation              Cumulative              5        ü            1,875,000         1,875,000
Florida Bank Group, Inc.              Cumulative              5                     1,394,638         1,394,638
First Financial Service Corporation   Cumulative              5        ü            1,250,000         1,250,000
Liberty Shares, Inc.                  Cumulative              5                     1,177,200         1,177,200
Tidelands Bancshares, Inc             Cumulative              5        ü              903,000          903,000
Great River Holding Company*          Interest                5                       880,950          880,950
Regent Bancorp, Inc**                 Cumulative              5                       816,015          680,013
Private Bancorporation, Inc.          Cumulative              5                       541,775          541,775
Central Federal Corporation           Cumulative              5                       451,563          451,563
CalWest Bancorp                       Cumulative              5                       317,213          317,213
Pacific Commerce Bank**               Non-Cumulative          5                       308,549          253,231
Marine Bank & Trust Company           Non-Cumulative          5                       204,375          204,375
CSRA Bank Corp.                       Cumulative              5                       163,500          163,500
Citizens Bank & Trust Company         Non-Cumulative          5                       163,500          163,500
Fort Lee Federal Savings Bank         Non-Cumulative          5                        88,563            88,563
Alpine Banks of Colorado              Cumulative              4                     3,815,000         3,815,000
Reliance Bancshares, Inc.             Cumulative              4                     2,180,000         2,180,000
Southern Community Financial Corp.    Cumulative              4                     2,137,500         2,137,500
TIB Financial Corp7
                                      Cumulative              4                     1,850,000         1,850,000
Patriot Bancshares, Inc.              Cumulative              4                     1,419,080         1,419,080
National Bancshares, Inc.             Cumulative              4                     1,344,170         1,344,170
HMN Financial, Inc.                   Cumulative              4                     1,300,000         1,300,000
Princeton National Bancorp, Inc.      Cumulative              4                     1,254,150         1,254,150
Crescent Financial Bancshares, Inc.
                                      Cumulative              4                     1,245,000         1,245,000
(Crescent Financial Corporation)
Eastern Virginia Bankshares, Inc.     Cumulative              4                     1,200,000         1,200,000
White River Bancshares Company        Cumulative              4                       915,600          915,600
Security State Bank Holding-
                                      Interest                4                     1,578,490          901,994
Company*,**
SouthCrest Financial Group, Inc.      Cumulative              4                       703,050          703,050
Bank of the Carolinas Corporation     Cumulative              4                       658,950          658,950
HCSB Financial Corporation            Cumulative              4                       644,750          644,750
Greer Bancshares Incorporated         Cumulative              4                       544,650          544,650
Coastal Banking Company, Inc.         Cumulative              4                       497,500          497,500
Community Financial Shares, Inc.      Cumulative              4                       379,910          379,910
                                                                                          Continued on next page
94   special inspector general I troubled asset relief program




          CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2011                 (Continued)

                                                                                Observer
                                                                     Number     Assigned          Value of        Value of
                                                   Dividend or      of Missed   to Board of        Missed          Unpaid
          Company                                  Payment type     Payments    Directors1      Payments2       Amounts2,3,4
          Highlands Independent
                                                   Cumulative              4                      $365,150         $365,150
          Bancshares, Inc.
          Naples Bancorp, Inc.                     Cumulative              4                       218,000          218,000
          Clover Community Bankshares, Inc.        Cumulative              4                       163,500          163,500
          Monadnock Bancorp, Inc.                  Cumulative              4                        99,980           99,980
          Maryland Financial Bank                  Non-Cumulative          4                        92,650           92,650
          Community Bank of the Bay6               Non-Cumulative          4                        72,549           72,549
          First Place Financial Corp.              Cumulative              3                     2,734,763        2,734,763
          Yadkin Valley Financial Corporation      Cumulative              3                     1,849,200        1,849,200
          Tennessee Commerce Bancorp, Inc.         Cumulative              3                     1,125,000        1,125,000
          Suburban Illiniois Bancorp, Inc.*        Interest                3                       943,875          943,875
          Central Bancorp, Inc.                    Cumulative              3                       919,688          919,688
          Community First, Inc.                    Cumulative              3                       727,800          727,800
          CoastalSouth Bancshares, Inc.            Cumulative              3                       632,963          632,963
          Village Bank and Trust Financial Corp.   Cumulative              3                       552,675          552,675
          Mid-Wisconsin Financial Services, Inc.   Cumulative              3                       408,750          408,750
          Carrollton Bancorp                       Cumulative              3                       345,038          345,038
          Community Pride Bank Corporation         Cumulative              3                       267,762          267,762
          Valley Community Bank                    Non-Cumulative          3                       224,813          224,813
          Blue River Bancshares, Inc.              Cumulative              3                       204,375          204,375
          The Connecticut Bank and
                                                   Non-Cumulative          3                       178,573          178,573
          Trust Company
          AB&T Financial Corporation               Cumulative              3                       131,250          131,250
          Bank of George                           Non-Cumulative          3                       109,245          109,245
          Atlantic Bancshares, Inc.                Cumulative              3                        81,615           81,615
          BCB Holding Company, Inc.                Cumulative              3                        69,713           69,713
          Southwest Bancorp, Inc.                  Cumulative              2                     1,750,000        1,750,000
          Standard Bancshares, Inc.                Cumulative              2                     1,635,000        1,635,000
          Carolina Bank Holdings, Inc.**           Cumulative              2                       600,000          400,000
          Blue Ridge Bancshares, Inc.              Cumulative              2                       327,000          327,000
          Coloeast Bankshares, Inc.                Cumulative              2                       272,500          272,500
          NCAL Bancorp                             Cumulative              2                       272,500          272,500
          RCB Financial Corporation                Cumulative              2                       234,560          234,560
          GulfSouth Private Bank                   Non-Cumulative          2                       197,625          197,625
          First Intercontinental Bank              Non-Cumulative          2                       174,350          174,350
          Randolph Bank & Trust Company            Non-Cumulative          2                       169,720          169,720
          Brogan Bankshares, Inc.*                 Interest                2                       100,680          100,680
          Carolina Trust Bank                      Non-Cumulative          2                       100,000          100,000
          Allied First Bancorp, Inc.               Cumulative              2                        99,535           99,535
          Bank of Commerce                         Non-Cumulative          2                        81,750           81,750
          Ojai Community Bank                      Non-Cumulative          2                        56,680           56,680
                                                                                                       Continued on next page
                                                                              quarterly report to congress I January 26, 2012   95




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2011                    (Continued)

                                                                         Observer
                                                              Number     Assigned           Value of        Value of
                                            Dividend or      of Missed   to Board of         Missed          Unpaid
Company                                     Payment type     Payments    Directors1       Payments2       Amounts2,3,4
Fresno First Bank                           Non-Cumulative          2                       $33,357          $33,357
Exchange Bank                               Non-Cumulative          1                       585,875          585,875
Porter Bancorp, Inc.                        Cumulative              1                       437,500          437,500
First Reliance Bancshares, Inc.             Cumulative              1                       209,120          209,120
Delmar Bancorp                              Cumulative              1                       122,625          122,625
Gateway Bancshares, Inc.                    Cumulative              1                        81,750            81,750
Northwest Commercial Bank                   Non-Cumulative          1                        27,150            27,150
Indiana Bank Corp.                          Cumulative              1                        17,885            17,885
                                                                                                                     
Exchanges, Sales,                                                                                                    
Recapitalizations, and Failed
Banks with Missing Payments
Citizens Bancorp****                        Cumulative              9                     1,275,300         1,275,300
One Georgia Bank****                        Non-Cumulative          8                       605,328          605,328
Integra Bank Corporation****                Cumulative              7                     7,313,775         7,313,775
Independent Bank Corporation***,9           Cumulative              7        ü            7,681,721         5,881,721
Central Pacific Financial Corp.***,9        Cumulative              6        ü           10,125,000       10,125,000
FPB Bancorp, Inc. (FL)****                  Cumulative              6                       435,000          435,000
FNB United Corp.***                         Cumulative              6                     3,862,500                —
First Federal Bancshares of
                                            Cumulative              5                     1,031,250         1,031,250
Arkansas, Inc.*****
First BanCorp (PR)***                       Cumulative              5        ü           42,681,526                —
Pacific Capital Bancorp***                  Cumulative              5        ü           13,547,550                —
Sterling Financial Corporation
                                            Cumulative              4                    18,937,500       18,937,500
(WA)***,9
Midwest Banc Holdings, Inc.****,5           Cumulative              4                     4,239,200         4,239,200
Hampton Roads Bankshares, Inc.***      ,9
                                            Cumulative              4                     4,017,350         4,017,350
Green Bankshares, Inc.*****                 Cumulative              4                     3,613,900         3,613,900
First Community Bank Corporation
                                            Cumulative              4                       534,250          534,250
of America*****
Pierce County Bancorp****                   Cumulative              4                       370,600          370,600
CB Holding Corp.****                        Cumulative              4                       224,240          224,240
The Bank of Currituck*****                  Non-Cumulative          4                       219,140          219,140
Santa Lucia Bancorp*****                    Cumulative              4                       200,000          200,000
The South Financial Group, Inc.*****,7      Cumulative              3                    13,012,500       13,012,500
Metropolitan Bank Group, Inc
                                            Cumulative              3                     5,721,118         2,797,513
(Archer Bank)***,9
Superior Bancorp Inc.****                   Cumulative              3                     2,587,500         2,587,500
Sonoma Valley Bancorp****                   Cumulative              3                       353,715          353,715
Legacy Bancorp, Inc.****                    Cumulative              3                       206,175          206,175
Commerce National Bank*****                 Non-Cumulative          3                       150,000          150,000
Treaty Oak Bancorp, Inc.*****               Cumulative              3                       135,340          135,340
                                                                                                Continued on next page
96   special inspector general I troubled asset relief program




          CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2011                                                                       (Continued)

                                                                                                                              Observer
                                                                                                         Number               Assigned                    Value of                 Value of
                                                                  Dividend or                           of Missed             to Board of                  Missed                   Unpaid
          Company                                                 Payment type                          Payments              Directors1                Payments2                Amounts2,3,4
          Metropolitan Bank Group, Inc.
                                                                  Cumulative                                         3                                    $281,220                           $—
          (NC Bancorp, Inc.)***
          CIT Group Inc.****,8                                    Cumulative                                         2                                  29,125,000                29,125,000
          Cadence Financial Corporation*****                      Cumulative                                         2                                      550,000                   550,000
          FBHC Holding Company* *****        ,
                                                                  Interest                                           2                                      123,127                   123,127
          Pacific Coast National Bancorp****                      Cumulative                                         2                                      112,270                   112,270
          Colonial American Bank*****                             Non-Cumulative                                     2                                        15,655                    15,655
          UCBH Holdings, Inc.****                                 Cumulative                                         1                                    3,734,213                3,734,213
          Tifton Banking Company****                              Non-Cumulative                                     1                                        51,775                    51,775
          Total                                                                                                                                   $443,529,481              $376,955,239
          Notes: Numbers may not total due to rounding. Approximately $17.1 million of the $377 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no
          legal right to missed dividends that are non-cumulative.

          * Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
          ** Partial payments made after the due date.
          *** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue.
          For an exchange of mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
          **** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue.
          For bank failures, Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
          ***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the
          contrary.

          n
              Treasury has appointed one or more directors to the Board of Directors.

          1
            F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from
                 the institution to assign an observer to the board of directors.
          2
             Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
          3
             Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the
            Capital Purchase Program.
          4
             Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party
                 purchase its CPP investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
          5
             For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing;
              missed payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
          6
              Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed
            payments to zero.
          7
              For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
          8
               For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing;
                missed payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
          9
                Completed exchanges:
          - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed
            payments and unpaid amounts reflect the figures Treasury reported prior to the exchange.
          - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby
            eliminating any unpaid amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

          Sources: Treasury, Dividends and Interest Report, 1/10/2012; Treasury, responses to SIGTARP data call, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, and 1/10/2012; SIGTARP
          Quarterly Report to Congress, 1/30/2010, 4/20/2010, 4/28/2011, 7/28/2011, 10/27/2011, and 1/25/2012.
                                                                               quarterly report to congress I January 26, 2012          97




Warrant Disposition
As required by EESA, Treasury received warrants when it invested in troubled
assets from financial institutions, with an exception for certain small institutions.
                                                                                               Exercise Price: Preset price at which
With respect to financial institutions with publicly traded securities, these warrants
                                                                                               a warrant holder may purchase each
gave Treasury the right, but not the obligation, to purchase a certain number of
                                                                                               share. For warrants in publicly traded
shares of common stock at a predetermined price.324 Because the warrants rise in
                                                                                               institutions issued through CPP, this
value as a company’s share price rises, they permit Treasury (and the taxpayer) to
                                                                                               was based on the average stock price
benefit from a firm’s potential recovery.325
                                                                                               during the 20 days before the date
    For publicly traded institutions, the warrants received by Treasury under CPP
                                                                                               that Treasury granted preliminary CPP
allowed Treasury to purchase additional shares of common stock in a number
                                                                                               participation approval.
equal to 15% of the value of the original CPP investment at a specified exercise
price.326 Treasury’s warrants constitute assets with a fair market value that Treasury
estimates using relevant market quotes, financial models, and/or third-party valua-
tions.327 As of December 31, 2011, Treasury had not exercised any of these war-                For more information on warrant
rants.328 For privately held institutions, Treasury received warrants to purchase ad-          disposition, see SIGTARP’s audit
ditional preferred stock or debt in an amount equal to 5% of the CPP investment.               report of May 10, 2010, “Assessing
Treasury exercised these warrants immediately.329 Unsold and unexercised warrants              Treasury’s Process to Sell Warrants
expire 10 years from the date of the CPP investment.330                                        Received from TARP Recipients.”

Repurchase of Warrants by Financial Institutions
Upon repaying its CPP investment, a recipient may seek to negotiate with
Treasury to buy back its warrants. As of December 31, 2011, 96 publicly traded
institutions had bought back $3.7 billion worth of warrants, of which $8.3 million
was purchased this quarter. As of that same date, 96 privately held institutions,
the warrants of which had been immediately exercised, bought back the resulting
additional preferred shares for a total of $41.2 million, of which $1.4 million was
bought back this quarter.331 Table 2.23 lists publicly traded institutions that repaid
TARP and repurchased warrants in the quarter ended December 31, 2011. Table
2.24 lists privately held institutions that had done so in the same quarter.332
98           special inspector general I troubled asset relief program




                                   Table 2.23
                                    CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER ENDING 12/31/2011
                                                                                                                                                     Number of                 Amount of
                                                                                                                                                      Warrants                Repurchase
                                    Repurchase Date             Company                                                                            Repurchased              ($Thousands)
                                    10/19/2011                  Central Bancorp, Inc./Central Co-Operative Bank                                            234,742           $2,525,000.0
                                    10/19/2011                  Community Bank Shares of Indiana, Inc.                                                     386,270             1,100,869.5
                                    11/16/2011                  QCR Holdings, Inc.                                                                         521,888             1,100,000.0
                                    12/21/2011                  First Midwest Bancorp, Inc.                                                             1,305,230                 900,000.0
                                    11/2/2011                   Ameriserv Financial, Inc.                                                               1,312,500                 825,000.0
     For a listing of previous
     warrant sales and repur-       10/26/2011                  Community Partners Bancorp                                                                 311,972                460,000.0

     chases, see SIGTARP’s          11/16/2011                  First Northern Community Bancorp                                                           352,977                375,000.0
     October 2011 Quarterly         12/7/2011                   Center Bancorp, Inc.                                                                        86,705                245,000.0
     Report, pages 93-98.           11/9/2011                   Citizens South Banking Corporation                                                         450,314                225,157.0
                                    11/2/2011                   Salisbury Bancorp, Inc.                                                                     57,671                205,000.0
                                    10/26/2011                  Bank of Commerce Holdings                                                                  405,405                125,000.0
                                    10/26/2011                  Stewardship Financial Corporation                                                          133,475                107,398.0
                                    12/7/2011                   Emclaire Financial Corp.                                                                    50,111                 51,113.0
                                    11/16/2011                  Shore Bancshares, Inc.                                                                     172,970                 25,000.0
                                    10/21/2011                  Santa Lucia Bancorp        a,b
                                                                                                                                                            38,869                           —
                                    Total                                                                                                              5,821,099           $8,269,537.5
                                    Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients.
                                    Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
                                    a
                                      Warrant sales to third parties.
                                    b
                                      Treasury sold its TARP investment to a third party and assigned a value of zero to the warrant portion.

                                    Sources: Treasury, Transactions Report, 1/4/2012; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, 4/6/2011, 7/8/2011, 10/7/2011,
                                    10/11/2011, and 1/11/2012.


                                   Table 2.24
                                    CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER ENDING
                                    12/31/2011
                                                                                                                                                     Number of                 Amount of
                                                                                                                                                      Warrants                Repurchase
                                    Repurchase Date             Company                                                                            Repurchased              ($Thousands)
                                    10/19/2011                  MS Financial, Inc.                                                                         386,000                    $386.0
                                    10/5/2011                   OSB Financial Services, Inc.a                                                              305,000                      305.0
                                    11/2/2011                   American State Bancshares, Inc.                                                            300,000                      300.0
                                    10/19/2011                  Pascack Bancorp, Inc. (Pascack Community Bank)                                             188,000                      188.0
                                    12/28/2011                  Customers Bancorp, Inc.                                                                    145,000                      145.0
                                    11/2/2011                   Butler Point, Inc.                                                                          30,000                        30.0
                                    10/26/2011                  Colonial American Bank                                                                      29,000                        29.0
                                    Total                                                                                                              1,383,000                  $1,383.0
                                    Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants issued by
                                    non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold one warrant for millions of
                                    underlying shares rather than millions of warrants of an individual financial institution.
                                    a
                                      S-Corporation Institution: issued subordinated debt instead of preferred stock.

                                    Sources: Treasury, Transactions Report, 1/4/2012; Treasury, response to SIGTARP data call, 1/11/2012.
                                                                           quarterly report to congress I January 26, 2012              99




Treasury Warrant Auctions
If Treasury and the repaying QFI cannot agree upon the price for the institution           Dutch Auction: A type of auction in
to repurchase its warrants, Treasury may conduct a public or private offering to           which multiple bidders bid for different
auction the warrants.333 As of December 31, 2011, the combined proceeds from               quantities of the asset; the price the
Treasury’s public and private warrant auctions totaled $5.4 billion.334                    seller accepts is set at the lowest bid
                                                                                           of the group of high bidders whose
Public Warrant Auctions                                                                    collective bids fulfill the amount of
In November 2009, Treasury began using a “modified Dutch auction” to sell the              shares offered. As an example, three
warrants publicly.335 On the announced auction date, potential investors (which            investors place bids to own a portion
may include the CPP recipient) submit bids to the auction agent that manages               of 100 shares offered by the issuer:
the sale (for CPP-related warrants, Deutsche Bank) at specified increments above
a minimum price set by Treasury.336 Once the auction agent receives all bids, it           • Bidder A wants 50 shares at $4/
determines the final price and distributes the warrants to the winning bidders.337            share.
Treasury conducted one public warrant auction this quarter for Associated Banc-            • Bidder B wants 50 shares at $3/
Corp, raising approximately $3.6 million.338 Through December 31, 2011, Treasury              share.
had held 24 public auctions for warrants it received under CPP, TIP, and AGP,              • Bidder C wants 50 shares at $2/
raising a total of approximately $5.4 billion.339 Final closing information for all           share.
public auctions is shown in Table 2.25.
                                                                                           The seller selects Bidders A and B
                                                                                           as the two highest bidders, and their
                                                                                           collective bids consume the 100
                                                                                           shares offered. The winning price is
                                                                                           $3, which is what both bidders pay
                                                                                           per share. Bidder C’s bid is not filled.
                                                                                           Treasury uses a modified version of a
                                                                                           Dutch Auction in the dispensation of its
                                                                                           warrants.

                                                                                           Auction Agent: Firm (such as an
                                                                                           investment bank) that buys a series of
                                                                                           securities from an institution for resale.
100               special inspector general I troubled asset relief program



      TABLE 2.25
       PUBLIC TREASURY WARRANT AUCTIONS, AS OF 12/31/2011
                                                                                                              Number of               Minimum               Selling      Proceeds to Treasury
       Auction Date                   Company                                                            Warrants Offered             Bid Price              Price                ($ Millions)
                                      Bank of America A Auction (TIP)a                                          150,375,940                $7.00              $8.35                        $1,255.6
       3/3/2010
                                      Bank of America B Auction (CPP)             a
                                                                                                                121,792,790                  1.50               2.55                           310.6
       12/10/2009                     JPMorgan Chase                                                             88,401,697                  8.00             10.75                            950.3
       5/20/2010                      Wells Fargo and Company                                                   110,261,688                  6.50               7.70                           849.0
       9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973                10.50              13.70                            713.7
       4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192                15.00              19.20                            324.2
                                      Citigroup A Auction (TIP & AGP)         a
                                                                                                                255,033,142                  0.60               1.01                           257.6
       1/25/2011
                                      Citigroup B Auction (CPP)a                                                210,084,034                  0.15               0.26                             54.6
       9/16/2010                      Lincoln National Corporation                                               13,049,451                13.50              16.60                            216.6
       5/6/2010                       Comerica Inc.                                                              11,479,592                15.00              16.00                            183.7
       12/3/2009                      Capital One                                                                12,657,960                  7.50             11.75                            148.7
       2/8/2011                       Wintrust Financial Corporation                                               1,643,295               13.50              15.80                              26.0
       6/2/2011                       Webster Financial Corporation                                                3,282,276                 5.50               6.30                             20.4
                                      SunTrust A Auction      b
                                                                                                                   6,008,902                 2.00               2.70                             16.2
       9/22/2011
                                      SunTrust B Auctionb                                                        11,891,280                  1.05               1.20                             14.2
       3/9/2010                       Washington Federal, Inc.                                                     1,707,456                 5.00               5.00                             15.6
       3/10/2010                      Signature Bank                                                                  595,829              16.00              19.00                              11.3
       12/15/2009                     TCF Financial                                                                3,199,988                 1.50               3.00                               9.6
       3/11/2010                      Texas Capital Bancshares, Inc.                                                  758,086                6.50               6.50                               6.7
       2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500                 1.40               2.20                               6.4
       5/18/2010                      Valley National Bancorp                                                      2,532,542                 1.70               2.20                               5.6
       11/30/2011                     Associated Banc-Corpc                                                        3,983,308                  .50                .90                               3.6
       6/2/2010                       First Financial Bancorp                                                         465,117                4.00               6.70                               3.1
       6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557                 0.85               1.15                               3.0
       Total                                                                                               1,083,686,595                                                                  $5,406.3
       Note: Numbers affected by rounding.
       a
         Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
       b
         Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
       c
         According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

       Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
       1/5/2012; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 1/5/2012;
       Comerica Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 1/5/2012; Wells Fargo and
       Company, “Definitive Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 1/5/2012; First Financial Bancorp,
       “Prospectus Supplement,”6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 1/5/2012; Sterling Bancshares, Inc., “Prospectus
       Supplement,” 6/9/2010, www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 1/5/2012; Signature Bank, “Prospectus Supplement,” 3/10/2010, http://files.
       shareholder.com/downloads/SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 1/5/2012; Texas Capital Bancshares,
       Inc., “Prospectus Supplement,”3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 1/5/2012; Bank of America, “Form 8-K,”
       3/3/2010, www.sec.gov/Archives/edgar/data/70858/000119312510051260/d8k.htm, accessed 1/5/2012; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/
       data/70858/000119312510045775/d424b2.htm, accessed 1/5/2012; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
       d424b2.htm, accessed 1/5/2012; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
       1/5/2012; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 1/5/2012; JPMorgan Chase,
       “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 1/5/2012; Capital One Financial, “Prospectus Supplement,”
       12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 1/5/2012; Treasury, Transactions Report, 1/4/2012; Hartford Financial Services Group,
       Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 1/5/2012; Hartford
       Financial Agreement, 8/21/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 1/5/2012; Treasury, “Treasury Announces Pricing of Public
       Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.aspx, accessed 1/5/2012; Lincoln
       National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/d424b5.htm, accessed 1/5/2012; Lincoln
       National Corporation, 8-K, 9/22/2010,www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 1/5/2012; Treasury, Section 105(a) Report, 1/31/2011; Treasury,
       “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 1/5/2012;
       Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/5/2012; Citigroup, Prospectus, 1/24/2011, www.sec.
       gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/5/2012; Boston Private Financial Holdings, Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/
       data/821127/000119312511021392/d424b5.htm, accessed 1/5/2012; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.gov/Archives/edgar/data/821127/000144530511000189/
       tarpwarrant020711.htm, accessed 1/5/2012; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311011007/c62806b5e424b5.htm,
       accessed 1/5/2012; Wintrust Financial Corporation, 8-K, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311013436/c62955e8vk.htm, accessed 1/5/2012; Treasury, Section
       105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/
       tg1033.aspx, accessed 1/5/2012; Treasury, Citigroup Preliminary Prospectus – CPP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.
       htm, accessed 1/5/2012; Citigroup, Preliminary Prospectus – TIP & AGP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed
       1/5/2012. Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011, 10/5/2011, 10/11/2011, and 1/11/2012.Treasury Press Release, “Treasury Department Announces Public Offerings of
       Warrants to Purchase Common Stock of Suntrust Banks, Inc.,” 9/21/2011, www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 1/5/2012.”Treasury Department Announces
       Public Offering of Warrants to Purchase Common Stock of Associated Banc-Corp,” 11/29/2011,www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 1/5/2012.
                                                                                                                      quarterly report to congress I January 26, 2012           101




Private Warrant Auctions
This quarter, Treasury devised a new method for selling warrants. On November                                                         Qualified Institutional Buyers (“QIB”):
17, 2011, Treasury conducted its first private auction to sell warrants of CPP                                                        Institutions that under U.S. securities
participants. In the auction, Treasury sold its warrant positions in a group of 17                                                    law are permitted to buy securities
financial institutions listed in Table 2.26 for $12.7 million.340 Treasury stated that                                                that are exempt from registration
a private auction was necessary because the warrants did not meet the listing                                                         under investor protection laws and
requirements for the major exchanges, it would be more cost-effective for these                                                       to resell those securities to other
smaller institutions, and that grouping the warrants of the 17 institutions in a                                                      QIBs. Generally these institutions own
single auction would raise investor interest in the warrants.341 The private auction                                                  and invest at least $100 million in
was a discrete, or winner-takes-all, auction. The warrants were not registered under                                                  securities, or are registered broker-
the Securities Act of 1933. As a result, Treasury stated that the warrants were                                                       dealers that own or invest at least $10
offered only in private transactions to “(1) ‘qualified institutional buyers’ as defined                                              million in securities.
in Rule 144A under the Act, (2) the issuer, and (3) a limited number of ‘accredited
investors’ affiliated with the issuer.”342                                                                                            Accredited Investors: Individuals or
                                                                                                                                      institutions that by law are considered
Table 2.26
                                                                                                                                      financially sophisticated enough so
 PRIVATE TREASURY WARRANT AUCTIONS ON 11/17/2011                                                                                      that they can invest in ventures that
                                                                 Number of                                   Proceeds to              are exempt from investor protection
 Company                                                    Warrants Offered                                    Treasury
                                                                                                                                      laws. Under U.S. securities laws, these
 Eagle Bancorp, Inc.                                                     385,434                              $2,794,422              include many financial companies,
 Horizon Bancorp                                                         212,188                                1,750,551             pension plans, wealthy individuals,
 Bank of Marin Bancorp                                                   154,908                                1,703,984             and top executives or directors of the
 First Bancorp (of North Carolina)                                       616,308                                   924,462            issuing companies.
 Westamerica Bancorporation                                              246,698                                   878,256
 Lakeland Financial Corp                                                 198,269                                   877,557
 F.N.B. Corporation                                                      651,042                                   690,100
 Encore Bancshares                                                       364,026                                   637,071
 LCNB Corporation                                                        217,063                                   602,557
 Western Alliance Bancorporation                                         787,107                                   415,000
 First Merchants Corporation                                             991,453                                   367,500
 1st Constitution Bancorp                                                231,782                                   326,576
 Middleburg Financial Corporation                                        104,101                                   301,001
 MidSouth Bancorp, Inc.                                                  104,384                                   206,557
 CoBiz Financial Inc.                                                    895,968                                   143,677
 First Busey Corporation                                                 573,833                                     63,677
 First Community Bancshares, Inc.                                          88,273                                    30,600
 Total                                                               6,822,837                             $12,713,548
 Source: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011,www.treasury.gov/press-
 center/press-releases/Pages/tg1365.aspx, accessed 1/5/2012.Treasury, Transactions Report, 1/4/2012.
102             special inspector general I troubled asset relief program




                                                       Restructurings, Recapitalizations, Exchanges, and Sales of CPP
                                                       Investments
                                                       Certain CPP institutions continue to experience high losses and financial
                                                       difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
                                                       improve the quality of their capital, these institutions may ask Treasury to convert
                                                       its CPP preferred shares into a more junior form of equity or accept a lower
                                                       valuation, resulting in Treasury taking a discount or loss. If a CPP institution
                                                       is undercapitalized and/or in danger of becoming insolvent, it may propose to
                                                       Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
                                                       private capital) and to “attempt to preserve value” for Treasury’s investment.343
      Undercapitalized: Condition in which a
                                                       Treasury may also sell its investment in a troubled institution to a third party at
      financial institution does not meet its
                                                       a discount in order to facilitate that party’s acquisition of a troubled institution.
      regulator’s requirements for sufficient
                                                       Treasury has explained to SIGTARP that although it may incur partial losses on its
      capital to operate under a defined level
                                                       investment in the course of these transactions, such an outcome may be deemed
      of adverse conditions.
                                                       necessary to avoid the total loss of Treasury’s investment that would occur if the
                                                       institution failed.344
      Due Diligence: Appropriate level of
                                                           Under these circumstances, the CPP participant asks Treasury for a formal re-
      attention or care a reasonable person
                                                       view of its proposal. The proposal details the institution’s recapitalization plan and
      should take before entering into an
                                                       may estimate how much capital the institution plans to raise from private investors
      agreement or a transaction with
                                                       and whether Treasury and other preferred shareholders will convert their preferred
      another party. In finance, it often refers
                                                       stock to common stock. The proposal may also involve a proposed discount on the
      to the process of conducting an audit
                                                       conversion to common stock, although Treasury would not realize any loss until it
      or review of the institution before
                                                       disposes of the stock.345 In other words, Treasury would not know whether a loss
      initiating a transaction.
                                                       will occur, or the extent of such a loss, until it sells the common stock it receives as
                                                       part of such an exchange. According to Treasury, when it receives such a request, it
                                                       asks one of the external asset managers that it has hired to analyze the proposal and
                                                       perform due diligence on the institution.346 The external asset manager interviews
                                                       the institution’s managers, gathers non-public information, and conducts loan-loss
                                                       estimates and capital structure analysis. The manager submits its evaluation to
                                                       Treasury, which then decides whether to restructure its CPP investment.347
                                                           Table 2.27 shows all restructurings, recapitalizations, exchanges, and sales of
                                                       CPP investments through December 31, 2011.
                                                                                                                           quarterly report to congress I January 26, 2012                                 103


TABLE 2.27
 TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2011                                                                                  ($ MILLIONS)
                                                                              Original            Combined
                                                     Investment           Investments           Investments
 Company                                             Date                  ($ Millions)          ($ Millions)                                                                  Investment Status
 Citigroup Inc.                                      10/28/2008                $2,500.0                                                 Exchanged for common stock/warrants and sold
 Provident Bankshares                                11/14/2008                     151.5                                  Provident preferred stock exchanged for new M&T Bank
 M&T Bank Corporation                                12/23/2008                     600.0             1,081.5a        Corporation preferred stock; Wilmington Trust preferred stock
 Wilmington Trust Corporation                        12/12/2008                     330.0                                                      redeemed by M&T Bank Corporation

 Popular, Inc.                                       12/5/2008                      935.0                                                           Exchanged for trust preferred securities
 First BanCorp                                       1/6/2009                       400.0                                       Exchanged for mandatorily convertible preferred stock
 South Financial Group, Inc.                         12/5/2008                      347.0                                                                                                          Sold
 Sterling Financial Corporation                      12/5/2008                      303.0                                                                        Exchanged for common stock
 Whitney Holding Corporation                         6/3/2011                       300.0                                                                                                          Sold
 Pacific Capital Bancorp                             11/21/2008                     180.6                                                                        Exchanged for common stock
 Wilmington Trust Corporation                        5/13/2011                      151.5                                                                                                          Sold
 Central Pacific Financial Corp.                     1/9/2009                       135.0                                                                        Exchanged for common stock
 BBCN Bancorp, Inc.                                  11/21/2008                       67.0                                                    Exchanged for a like amount of securities of
                                                                                                        122.0d
 Center Financial Corporation                        12/12/2008                       55.0                                                                           BBCN Bancorp, Inc.
 First Merchants                                     2/20/2009                      116.0                               Exchanged for trust preferred securities and preferred stock
 Metropolitan Bank Group Inc.                        6/26/2009                        71.5                                                             Exchanged for new preferred stock in
                                                                                                          81.9b
 NC Bank Group, Inc.                                 6/26/2009                          6.9                                                                   Metropolitan Bank Group, Inc.
 Hampton Roads Bankshares                            12/31/2008                       80.3                                                                       Exchanged for common stock
 Green Bankshares                                    12/23/2008                       72.3                                                                                                         Sold
 Independent Bank Corporation                        12/12/2008                       72.0                                      Exchanged for mandatorily convertible preferred stock
 Superior Bancorp, Inc.c                             12/5/2008                        69.0                                                          Exchanged for trust preferred securities
 Cadence Financial Corporation                       1/9/2009                         44.0                                                                                                         Sold
 Capital Bank Corporation                            12/12/2008                       41.3                                                                                                         Sold
 Cascade Financial Corporation                       6/30/2011                        39.0                                                                                                         Sold
 TIB Financial Corp.                                 12/5/2008                        37.0                                                                                                         Sold
 First Federal Bankshares of
                                                     5/3/2011                         16.5                                                                                                         Sold
 Arkansas, Inc.
 First Community Bank Corporation
                                                     12/23/2008                       10.7                                                                                                         Sold
 of America
 Bank of Currituck                                   2/6/2009                           4.0                                                                                                        Sold
 Santa Lucia Bancorp                                 12/19/2008                         4.0                                                                                                        Sold
 Treaty Oak Bancorp, Inc.                            1/16/2009                          3.3                                                                                                        Sold
 FBHC Holding Company                                12/29/2009                         3.0                                                                                                        Sold
 Fidelity Resources Company                          6/26/2009                          3.0                                             Exchanged for preferred stock in Veritex Holding
 Berkshire Bancorp                                   6/12/2009                          2.9                                       Exchanged for preferred stock in Customers Bancorp
 a
    &T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid $370 million of
   M
   Treasury’s original $600 million investment. As of December 31, 2011, Treasury’s remaining principal investment in M&T is $381.5 million.
 b
   The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or
   $6.9 million plus unpaid dividends of $3.5 million.
 c
   The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
 d
   The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
   Corporation of $55 million.

 Sources: Treasury, Transactions Report 1/4/2012; Treasury responses to SIGTARP data call, 10/11/2011, 1/10/2012; SIGTARP, October Quarterly Report, 10/26/2010; Treasury, Section 105(a)
 Report, 9/30/2010; Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock”; Treasury Press Release, “Treasury
 Announces Pricing of Citigroup Common Stock Offering,” 12/7/2010; Treasury, Section 105(a) Report, 1/31/2011; Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions
 in Public Dutch Auctions”; Broadway Financial Corporation, 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/1001171/000119312511039152/d8k.htm, accessed 1/5/2012; FDIC and
 Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.fdic.gov/bank/individual/enforcement/2010-02-34.pdf, accessed 1/5/2012; Fort Worth Business
 Press, “Shareholders Approve Sale of Treaty Bank to Fort Worth Investors,” www.timesleader.com/FwBp/news/breaking/Shareholders-approve-sale-of-Treaty-Oak-bank-to-Fort-Worth-investors.html,
 accessed 1/5/2012; Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000055/form8-k.htm, accessed 1/5/2012; Central Pacific
 Financial Corp., 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 1/5/2012; Central Pacific Financial Corp., 8-K, 2/22/2011,
 www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 1/5/2012; Scottrade, Central Pacific Financial Corp., 2/18/2011, research.scottrade.com/
 qnr/Public/Stocks/Snapshot?symbol=cpf, accessed 1/5/2012; Cadence Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm,
 accessed 1/5/2012; M&T Bank Corporation, 10-K, 2/19/2010, www.sec.gov/Archives/edgar/data/36270/000095012310014582/l38289e10vk.htm, accessed 1/5/2012. Green Bankshares Inc.,
 10/8/2011, www.sec.gov/Archives/edgar/data/764402/000089882211000784/grnb-nafhmerger8k.htm, accessed 1/5/2012. Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/
 edgar/data/1488813/000095015911000609/form8k.htm, accessed 1/5/2012.Santa Lucia Bancorp, 8-K, 10/6/2011, www.sec.gov/Archives/edgar/data/1355607/000114420411057585/
 v237144_8k.htm, accessed 1/5/2012.BBCN Bancorp, Inc., 8-K, 11/30/2011, www.sec.gov/Archives/edgar/data/1128361/000119312511330628/d265748d8k.htm, accessed 1/5/2012.
104   special inspector general I troubled asset relief program




                                             Recent Exchanges and Sales
                                             Santa Lucia Bancorp
                                             On December 19, 2008, Treasury invested $4 million in Santa Lucia Bancorp,
                                             Atascadero, Texas (“Santa Lucia Bancorp”) through CPP in return for preferred
                                             stock and warrants.348 On October 21, 2011, Santa Lucia merged with a newly
                                             formed subsidiary, CCI One Acquisition Corporation (“CCI”), and subsequently
                                             became Mission Community Bank.349 Concurrent with the closing of the merger,
                                             Treasury completed the sale of all of its Santa Lucia Bancorp preferred stock and
                                             related warrants to CCI for $2.8 million.350 This resulted in a loss to Treasury of
                                             approximately $1.2 million.

                                             Nara Bancorp, Inc. and Center Financial Corporation
                                             On November 21, 2008, Treasury invested $67 million in Nara Bancorp, Inc., Los
                                             Angeles, California (“Nara Bancorp”) through CPP in return for preferred stock
                                             and warrants.351 On December 12, 2008, Treasury invested $55 million in Center
                                             Financial Corporation, Los Angeles, California (“Center Financial Corporation”)
                                             through CPP in return for preferred stock and warrants.352 On November 30,
                                             2011, Center Financial Corporation merged with Nara Bancorp, with Nara
                                             Bancorp being the surviving corporation under the new name BBCN Bancorp,
                                             Inc.353 The preferred stock and warrant issued by Center Financial Corporation
                                             was exchanged for a like amount of securities of BBCN Bancorp, Inc.354

                                             Update on Previously Announced Exchanges and Sales
                                             First BanCorp
                                             On January 16, 2009, Treasury invested $400 million in First BanCorp, San Juan,
                                             Puerto Rico (“First BanCorp”) through CPP in return for preferred stock and
                                             warrants.355 On June 3, 2010, First BanCorp entered into a written agreement
                                             with the Federal Reserve, and its subsidiary bank entered into a cease-and-desist
                                             order with the FDIC.356 On July 20, 2010, Treasury exchanged its entire CPP
                                             investment for an equal amount of newly issued mandatorily convertible preferred
                                             stock (“MCP”) plus additional MCP in an amount equal to accrued and unpaid
                                             dividends, which was approximately $24.2 million.357 As a condition of competing
                                             the exchange, First BanCorp was required to raise at least $350 million in common
                                             stock, which it announced in an SEC filing on September 16, 2010.
                                                 On October 7, 2011, First BanCorp completed its previously announced capital
                                             raise of $525 million of common stock. Simultaneously, First BanCorp issued 32.9
                                             million shares of common stock to Treasury upon conversion of its MCP.358

                                             Valley National Bancorp and State Bancorp, Inc.
                                             On December 5, 2008, Treasury invested $36.8 million in State Bancorp, Inc.,
                                             Jericho, New York (“State Bancorp”) for preferred stock and warrants to purchase
                                             additional shares of common stock.359 According to an SEC form 8-K filing, prior
                                             TARP recipient Valley National Bancorp, Wayne, New Jersey, which has repaid its
                                             TARP investment, entered into a merger agreement with State Bancorp on April
                                             28, 2011. In accordance with the terms of the agreement, Valley provided funds
                                                                            quarterly report to congress I January 26, 2012   105




to repurchase the preferred shares issued by State Bancorp through CPP at the
time of the merger. Treasury’s investment in State Bancorp was repaid at par on
December 14, 2011.360

FNB United Corporation
On February 13, 2009, Treasury invested $51.5 million in FNB United
Corporation, Asheboro, North Carolina (“FNB United”) through CPP in return for
preferred stock and warrants.361 On April 27, 2011, FNB United announced in an
SEC form 8-K filing that it had agreed to merge with Bank of Granite Corporation,
Granite Falls, North Carolina (“Bank of Granite”).362 In connection with the
transaction, FNB United will receive a $310 million investment from two third-
party firms and from additional investors in exchange for shares of FNB United’s
common stock.363
    On October 21, 2011, Treasury exchanged its CPP preferred shares for approxi-
mately 108 million shares of common stock, valued at 25% of the preferred equity’s
par value.364 The final loss or gain to Treasury will depend on the market price of
the common stock at the time Treasury disposes of all of its assets.

CPP Recipients: Bankrupt or with Failed Subsidiary Banks
Despite Treasury’s stated goal of limiting CPP investments to “healthy and viable
institutions,” a number of CPP participants went bankrupt or had a subsidiary
bank fail, as indicated in Table 2.28.365

Closure of Country Bank
On May 29, 2009, Treasury invested $4.1 million in CB Holding Corp., Aledo,
Illinois (“CB Holding Corp.”) through CPP in return for preferred stocks and
warrants.366 On October 14, 2011, the Illinois Department of Financial and
Professional Regulation closed CB Holding Corp.’s subsidiary bank, Country Bank,
and named the Federal Deposit Insurance Corporation (“FDIC”) as receiver. FDIC
entered into a purchase and assumption agreement with Blackhawk Bank & Trust,
Milan, Illinois, to assume all of Country Bank’s deposits. FDIC estimates that the
cost of CB Holding Corp.’s failure will be $66.3 million.367 All of Treasury’s TARP
investment in CB Holding Corp. is expected to be lost.368
106               special inspector general I troubled asset relief program



      TABLE 2.28
       CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS AS OF 12/31/2011                                                                       ($ MILLIONS) 

                                                           Initial
                                                        Invested          Investment                                                                     Bankruptcy/
       Company                                           Amount                 Date                                                        Status       Failure Datea                 Subsidiary Bank
                                                                                                Bankruptcy proceedings completed with
       CIT Group Inc.,                                                                                                                                                                           CIT Bank
                                                       $2,330.0         12/31/2008                no recovery of Treasury’s investment;                     11/1/2009
       New York, NY                                                                                                                                                                     Salt Lake City, UT
                                                                                                        subsidiary bank remains active
       UCBH Holdings Inc.,                                                                                                                                                          United Commercial
                                                           298.7        11/14/2008                   In bankruptcy; subsidiary bank failed                  11/6/2009
       San Francisco, CA                                                                                                                                                       Bank, San Francisco, CA
                                                                                                Bankruptcy proceedings completed with                                                      Pacific Coast
       Pacific Coast National
                                                               4.1        1/16/2009               no recovery of Treasury’s investment;                   11/13/2009                       National Bank
       Bancorp, San Clemente, CA
                                                                                                                  subsidiary bank failed                                               San Clemente, CA
                                                                                                                                                                                       Midwest Bank and
       Midwest Banc Holdings, Inc.,
                                                             89.4b        12/5/2008                  In bankruptcy; subsidiary bank failed                  5/14/2010                     Trust Company
       Melrose Park, IL
                                                                                                                                                                                       Elmwood Park, IL
       Sonoma Valley Bancorp,                                                                                                                                                       Sonoma Valley Bank
                                                               8.7        2/20/2009                                     Subsidiary bank failed              8/20/2010
       Sonoma, CA                                                                                                                                                                         Sonoma, CA
       Pierce County Bancorp,                                                                                                                                                  Pierce Commercial Bank
                                                               6.8        1/23/2009                                     Subsidiary bank failed              11/5/2010
       Tacoma, WA                                                                                                                                                                        Tacoma, WA
       Tifton Banking Company,
                                                               3.8        4/17/2009                                                          Failed       11/12/2010                                      N/A
       Tifton, GA
       Legacy Bancorp, Inc.                                                                                                                                                                   Legacy Bank
                                                               5.5        1/30/2009                                     Subsidiary bank failed              3/11/2011
       Milwaukee, WI                                                                                                                                                                         Milwaukee, WI
       Superior Bancorp, Inc.,                                                                                                                                                              Superior Bank
                                                             69.0         12/5/2008                                     Subsidiary bank failed              4/15/2011
       Birmingham, AL                                                                                                                                                                     Birmingham, AL
       Integra Bank Corporation,                                                                                                                                                              Intergra Bank
                                                             83.6         2/27/2009                                     Subsidiary bank failed              7/29/2011
       Evansville, IN                                                                                                                                                                         Evansville, IN
       One Georgia Bank, Atlanta, GA                           5.5          5/8/2009                                                         Failed         7/15/2011                                     N/A
       FPB Bancorp,                                                                                                                                                                   First Peoples Bank
                                                               5.8        12/5/2008                                     Subsidiary bank failed              7/15/2011
       Port Saint Lucie, FL                                                                                                                                                          Port Saint Lucie, FL
                                                                                                                                                                                        Citizens Bank of
       Citizens Bancorp,
                                                             10.4       12/23/2008                                      Subsidiary bank failed              9/23/2011                 Northern California
       Nevada City, CA
                                                                                                                                                                                        Nevada City, CA
       CB Holding Corp.,                                                                                                                                                                     Country Bank
                                                               4.1        5/29/2009                                     Subsidiary bank failed            10/14/2011
       Aledo, IL                                                                                                                                                                                 Aledo, IL
       Total                                          $2,925.4                                                                                                                                                
       Notes: Numbers may not total due to rounding.
       a
         Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
       b
          The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for
          $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.

       Sources: Treasury, Transactions Report, 1/4/2012; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed 1/5/2012; FDIC, “Institution Directory,” no date, www2.
       fdic.gov/idasp/main.asp, accessed 1/5/2012; CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009,
       www.cit.com/media-room/press-releases/index.htm, accessed 1/5/2012; Pacific Coast National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/
       pcnb-8k122209.htm, accessed 1/5/2012; Sonoma Valley Bancorp, 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm, accessed
       1/5/2012; Midwest Banc Holdings, Inc., 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1051379/000095012310081020/c60029e8vk.htm, accessed 1/5/2012; UCBH Holdings, Inc., 8-K,
       11/6/2009, www.sec.gov/Archives/edgar/data/1061580/000095012309062531/f54084e8vk.htm, accessed 1/5/2012; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of
       the Deposits of Pierce Commercial Bank, Tacoma, Washington,” 11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 1/5/2012; FDIC Press Release, “Ameris Bank, Moultrie,
       Georgia, Acquires All of the Deposits of Two Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/press/2010/pr10249.html, accessed 1/5/2012; Federal Reserve Board Press Release,
       5/10/2010, www.federalreserve.gov/newsevents/press/enforcement/20100510b.htm, accessed 1/5/2012; Board of Governors of the Federal Reserve System, Written Agreement by and among
       Legacy Bancorp, Inc., Legacy Bank, Federal Reserve Bank of Chicago, and State of Wisconsin Department of Financial Institutions, Madison, Wisconsin,www.federalreserve.gov/newsevents/press/
       enforcement/enf20100505b1.pdf, accessed 1/5/2012; FDIC Press Release, “Seaway Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,”
       3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.html, accessed 1/5/2012; FDIC Press Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank,
       Birmingham, Alabama,” 4/15/2011, www.fdic.gov/news/news/press/2011/pr11073.html, accessed 1/5/2012. FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits
       of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 1/5/2012. FDIC Press Release, “Old National Bank, Evansville,
       Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 1/5/2012. FDIC Press
       Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11120.html, accessed 1/5/2012. FDIC Press
       Release, “Premier American Bank, National Association, Miami, Florida, Assumes All of the Deposits of First Peoples Bank, Port Saint Lucie, Florida,” 7/15/2011, www.fdic.gov/news/news/press/2011/
       pr11121.html, accessed 1/5/2012. FDIC Press Release, “Tri Counties Bank, Chico, California, Assumes All of the Deposits of Citizens Bank of Northern California, Nevada City, California,” 9/23/2011,
       www.fdic.gov/news/news/press/2011/pr11154.html, accessed 1/5/2012. FDIC Press Release, “Tri Counties Bank, Chico, California, Assumes All of the Deposits of Citizens Bank of Northern California,
       Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 1/5/2012. FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits
       of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 1/5/2012. FDIC Press Release, “Ameris Bank, Moultrie, Georgia,
       Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11120.html, accessed 1/5/2012. FDIC, In the Matter of First Peoples Bank, Docket No. FDIC-
       09-717b, Consent Order, 3/18/2010, www.fdic.gov/bank/individual/enforcement/2010-03-09.pdf, accessed 1/5/2012. FDIC, In the Matter of Citizens Bank of Northern California, Nevada City, California,
       Order No. FDIC-11-358PCAS, Supervisory Prompt Corrective Action Directive, 6/28/2011, www.fdic.gov/bank/individual/enforcement/2011-06-029.pdf, accessed 1/5/2012.“Blackhawk Bank & Trust,
       Milan, Illinois, Assumes All of the Deposits of Country Bank, Aledo, Illinois”10/14/2011,www.fdic.gov/news/news/press/2011/pr11167.html, accessed 1/5/2012.
                                                                                quarterly report to congress I January 26, 2012              107




Community Development Capital Initiative
The Administration announced the Community Development Capital Initiative                       Community Development Financial
(“CDCI”) on October 21, 2009. According to Treasury, it was intended to help                    Institutions (“CDFIs”): Financial
small businesses obtain credit.369 Under CDCI, TARP made $570.1 million in                      institutions eligible for Treasury funding
investments in the preferred stock or subordinated debt of eligible banks, bank                 to serve urban and rural low-income
holding companies, thrifts, and credit unions certified as Community Development                communities through the CDFI Fund.
Financial Institutions (“CDFIs”) by Treasury. According to Treasury, these lower-               CDFIs were created in 1994 by the
cost capital investments were intended to strengthen the capital base of CDFIs                  Riegle Community Development and
and enable them to make more loans in low and moderate-income communities.370                   Regulatory Improvement Act. These
CDCI was open to certified, qualifying CDFIs or financial institutions that applied             entities must be certified by Treasury;
for CDFI status by April 30, 2010.371                                                           certification confirms they target at
    According to Treasury, CPP-participating CDFIs that were in good standing                   least 60% of their lending and other
could exchange their CPP investments for CDCI investments.372 CDCI closed to                    economic development activities
new investments on September 30, 2010.373                                                       to areas underserved by traditional
                                                                                                financial institutions.
Terms for Senior Securities and Dividends
An eligible bank, bank holding company, or thrift could apply to receive capital in             Risk-weighted Assets: Risk-based
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-              measure of total assets held by
owned, nonprofit financial institution with a capital and governance structure                  a financial institution. Assets are
different from that of for-profit banks) could apply for Government funding of                  assigned broad risk categories. The
up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted                  amount in each risk category is then
assets for banks.374 Participating credit unions and subchapter S corporations                  multiplied by a risk factor associated
(“S corporations”) issued subordinated debt to Treasury in lieu of the preferred                with that category. The sum of the
stock issued by other CDFI participants.375 Many CDFI investments have an                       resulting weighted values from each of
initial dividend rate of 2%, which increases to 9% after eight years. Participating             the risk categories is the bank’s total
S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight                risk-weighted assets.
years.376 A CDFI participating in CPP had the opportunity to request to convert
those shares into CDCI shares, thereby reducing the annual dividend rate it pays                Subchapter S Corporations (“S
the Government from 5% to as low as 2%.377                                                      corporations”): Corporate form that
    If during the application process a CDFI’s primary regulator deemed it to be un-            passes corporate income, losses,
dercapitalized or to have “quality of capital issues,” the CDFI had the opportunity             deductions, and credit through to
to raise private capital to achieve adequate capital levels. Treasury would match the           shareholders for Federal tax purposes.
private capital raised on a dollar-for-dollar basis, up to a total of 5% of the financial       Shareholders of S corporations report
institution’s risk-weighted assets. In such cases, private investors had to agree to            the flow-through of income and losses
assume any losses before Treasury.378                                                           on their personal tax returns and are
                                                                                                taxed at their individual income tax
CDCI Investment Update                                                                          rates.
Treasury invested $570.1 million in 84 institutions under the program — 36 banks
or bank holding companies and 48 credit unions.379 Of the 36 investments in banks
and bank holding companies, 28 were conversions from CPP (representing $363.3
million of the total $570.1 million); the remaining eight were not CPP participants.
Treasury provided an additional $100.7 million in CDCI funds to 10 of the banks
converting CPP investments. Only $106 million of the total CDCI funds went to
institutions that were not in CPP. As of December 31, 2011, Treasury had received
approximately $13.7 million in dividends and interest from CDCI recipients.380 No
108   special inspector general I troubled asset relief program




                                             CDCI participant had repaid TARP as of December 31, 2011. However, as of that
                                             date, five institutions (First Vernon Bancshares, Inc., First American International
                                             Corporation, PGB Holdings, Inc., Premier Bancorp, Inc., and UNITEHERE
                                             Federal Credit Union) had unpaid dividend or interest payments to Treasury
                                             totaling $689,233.381 A fifth institution, Carver Bancorp, Inc., previously had
                                             unpaid dividends, but on October 28, 2011, Treasury exchanged its Carver
                                             preferred stock into 2.3 million shares of Carver common stock. Carver’s accrued
                                             and previously unpaid dividends were included in the conversion.382 A list of all
                                             CDCI investments is included in Appendix D: “Transaction Detail.”
                                                                             quarterly report to congress I January 26, 2012            109




Systemically Significant Failing Institutions Program
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
program was established to “provide stability and prevent disruptions to financial
markets from the failure of a systemically significant institution.”383 Through SSFI,
between November 2008 and April 2009, Treasury obligated $69.8 billion to
American International Group, Inc. (“AIG”), the program’s sole participant (which
decreased to $67.8 billion after the termination of a $2 billion equity facility in
May 2011).384
    The Government’s rescue of AIG involved several different funding facilities
provided by the Federal Reserve Bank of New York (“FRBNY”) and Treasury, with
various changes to the transactions over time. The rescue of AIG was initially led
by FRBNY and the Board of Governors of the Federal Reserve System (“Federal
Reserve”). Prior to Treasury’s investment in AIG, FRBNY extended an $85 billion
revolving credit facility to AIG in September 2008. With the passage of EESA on
October 3, 2008, Treasury, through SSFI, took on a greater role in AIG’s bailout as          Revolving Credit Facility: Line of
the Government expanded and later restructured its aid.                                      credit for which borrowers pay a
    The amount and types of Treasury’s outstanding AIG investments                           commitment fee, allowing them to
have changed over time as a result of the execution of AIG’s January 2011                    repeatedly draw down funds up to a
Recapitalization Plan (discussed in greater detail in this section, which resulted           guaranteed maximum amount. The
in the termination of FRBNY’s revolving credit facility, the transfer of FRBNY’s             amount of available credit decreases
preferred SPV interests to Treasury, and the conversion of preferred shares into             and increases as funds are borrowed
common stock), preferred equity interest repayments, and Treasury’s sale of com-             and then repaid.
mon stock. These various investments, as well as their stages and restructurings,
are described below. As of December 31, 2011, Treasury’s outstanding investment              Credit Default Swap (“CDS”): A contract
in AIG amounted to $49.6 billion. Treasury holds 1.455 billion shares of AIG                 where the seller receives payments
common stock (representing an ownership stake of 77%), and approximately $8.4                from the buyer in return for agreeing to
billion of preferred equity interests.385                                                    pay the buyer when a particular credit
                                                                                             event occurs, such as when the credit
FRBNY Revolving Credit Facility                                                              rating on a bond is downgraded or a
In September 2008, FRBNY extended an $85 billion revolving credit facility to                loan goes into default. The buyer does
AIG, which was secured by AIG’s assets, in an effort to stabilize the company. In            not need to own the asset covered by
return, AIG committed 79.8% of its voting equity to a trust for the sole benefit of          the contract, meaning the swap can
the United States Treasury (the “AIG Trust”).386 While the $85 billion revolving             serve essentially as a bet against the
credit facility was necessary to address the Company’s severe liquidity shortage             underlying bond or loan.
resulting from capital calls related to the Company’s credit default swap (“CDS”)
business and securities lending activities, because the entire facility was drawn
upon, AIG’s leverage ratios increased significantly. The rapid deterioration in
AIG’s CDS and securities lending business, combined with this increased
leverage, put downward pressure on its credit rating.387 Federal officials feared
that future downgrades in AIG’s credit rating could have “catastrophic” effects on
the company, forcing it into bankruptcy.388 FRBNY and Treasury determined that
this possibility posed a threat to the nation’s financial system and decided that
additional transactions were necessary to modify the revolving credit facility.389
110            special inspector general I troubled asset relief program




                                                      Restructurings of AIG Assistance
                                                      In November 2008 and March 2009, FRBNY and Treasury took several actions to
                                                      stabilize AIG’s operations.390

                                                      Initial TARP Investment
      Cumulative Preferred Stock: Stock
                                                      First, on November 25, 2008, Treasury purchased $40 billion in AIG preferred
      requiring a defined dividend payment. If
                                                      shares under TARP, the proceeds of which went directly to FRBNY to pay down
      the company does not pay the dividend
                                                      a portion of the outstanding balance of the existing revolving credit facility. In
      on schedule, it still owes the missed
                                                      return, Treasury received AIG Series D cumulative preferred stock and warrants
      dividend to the stock’s owner.
                                                      to purchase AIG common stock.391 After that payment, the total amount available
                                                      to AIG under FRBNY’s revolving credit facility was reduced from $85 billion to
      Special Purpose Vehicle (“SPV”):
                                                      $60 billion.
      Off-balance-sheet legal entity that
      holds transferred assets presumptively
                                                      Creation of Maiden Lane II & III
      beyond the reach of the entities that
                                                      Second, also in November 2008, FRBNY created Maiden Lane II, a special
      provide the assets, and that is legally
                                                      purpose vehicle (“SPV”), to which FRBNY lent $19.5 billion to fund the purchase
      isolated from its sponsor or parent
                                                      of residential mortgage-backed securities (“RMBS”) from the securities-lending
      company.
                                                      portfolios of several of AIG’s U.S.-regulated insurance subsidiaries, in order to help
                                                      relieve liquidity pressures stemming from their security-lending programs.
      Collateralized Debt Obligation (“CDO”):
                                                          Finally, also in November 2008, FRBNY created Maiden Lane III, another SPV,
      A security that entitles the purchaser
                                                      to which FRBNY lent $24.3 billion to buy from AIG’s counterparties the collateral-
      to some part of the cash flows from a
                                                      ized debt obligations (“CDOs”) underlying the CDS contracts written by AIG.
      portfolio of assets such as mortgage-
      backed securities, bonds, loans, or
                                                      Second TARP Investment
      other CDOs.
                                                      On March 2, 2009, Treasury and FRBNY announced a restructuring of
                                                      Government assistance to AIG that, according to Treasury, was designed to
      Non-Cumulative Preferred Stock:
                                                      strengthen the company’s capital position.392 These measures included the
      Preferred stock with a defined
                                                      conversion of Treasury’s first TARP investment and Treasury’s commitment to fund
      dividend, without the obligation to pay
                                                      a second TARP investment in AIG.
      missed dividends.
                                                          On April 17, 2009, AIG and Treasury signed a securities exchange agreement
                                                      under which Treasury exchanged the Series D cumulative preferred stock, which
      Equity Capital Facility: Commitment
                                                      required AIG to make quarterly dividend and interest payments, for $41.6 billion
      to invest equity capital in a firm
                                                      (including $1.6 billion in missed dividend payments) of less valuable and less liquid
      under certain future conditions. An
                                                      Series E non-cumulative preferred stock, which required AIG to make dividend and
      equity facility when drawn down is
                                                      interest payments only if AIG’s board of directors declared a dividend. Additionally,
      an investment that increases the
                                                      on April 17, 2009, Treasury committed to fund an equity capital facility under
      provider’s ownership stake in the
                                                      which AIG could draw down up to $29.8 billion in exchange for Series F non-
      company. The investor may be able
                                                      cumulative preferred stock (that had similar terms to the Series E) and additional
      to recover the amount invested by
                                                      warrants, of which AIG drew down $27.8 billion.393
      selling their ownership stake to other
      investors at a later date.
                                                      Creation of Additional Special Purpose Vehicles and Sale of Assets Under SPVs
                                                      The March 2009 restructuring measures also included an authorization for FRBNY
                                                      to acquire up to $26 billion of preferred equity interests in two SPVs, AIA Aurora
                                                      LLC (“AIA SPV”) and ALICO Holdings LLC (“ALICO SPV”). The creation of the
                                                                             quarterly report to congress I January 26, 2012      111




SPVs also facilitated the independence of these two subsidiaries in anticipation of a
sale or initial public offering (“IPO”).394
     Under the transaction’s original terms, with limited exceptions, all proceeds
from the voluntary sale, public offering, or other liquidation of the assets or busi-
nesses held by the SPVs had to be used first to fully redeem FRBNY’s interests in
the SPVs and then to reduce the outstanding principal balance of AIG’s revolving
credit facility. On December 1, 2009, FRBNY received $16 billion in preferred
equity interests in the AIA SPV and $9 billion in the ALICO SPV. This action
decreased the outstanding principal balance of AIG’s revolving credit facility by
$25 billion and reduced its total facility borrowing capacity from $60 billion to
$35 billion.395
     AIG later completed an IPO and a sale of assets related to the SPVs, and ap-
plied the proceeds to amounts owed to FRBNY. First, on October 29, 2010, AIG
completed an IPO of 8.1 billion shares of AIA Group Limited.396 According to AIG,
the gross proceeds from the IPO were $20.5 billion. Upon completion of the IPO,
AIG owned approximately 33% of AIA’s outstanding shares, which will continue to
be held in the AIA SPV. AIG is precluded from selling or hedging more than half of
its remaining shares of AIA until April 18, 2012.397
     Second, on November 1, 2010, AIG sold ALICO to MetLife, Inc., for $16.2
billion, $7.2 billion of which was paid in cash and $9 billion in equity interests in
MetLife. These equity interests were initially held in the ALICO SPV and were sold
on March 8, 2011, for $9.6 billion.398

TARP Dividend Payments
When AIG failed to pay dividends for four consecutive quarters on the Series E
preferred stock, this gave Treasury the right to appoint to AIG’s board the greater
of either two directors or a number (rounded upward) of directors equal to 20% of
all AIG directors.399 On April 1, 2010, Treasury appointed Donald H. Layton and
Ronald A. Rittenmeyer as directors of AIG.400

AIG Recapitalization Plan
On January 14, 2011, AIG executed its Recapitalization Plan with the Government,             For a more detailed description of
which resulted in extinguishing FRBNY’s revolving credit facility, retiring FRBNY’s          the AIG Recapitalization Plan, see
interests in the SPVs and transferring those interests to Treasury, and increasing           SIGTARP’s January 2011 Quarterly
Treasury’s TARP investment in AIG. AIG repaid $20.7 billion owed to FRBNY’s                  Report, pages 135-139.
revolving credit facility with proceeds from the AIA IPO and ALICO sale. AIG
drew down $20.3 billion in TARP funds under a Series F equity capital facility
to purchase certain of FRBNY’s interests in the ALICO SPV and AIA SPV and
transferred those interests to Treasury. AIG exchanged all prior outstanding
preferred shares held by the Government and issued new common stock to
Treasury representing a 92.1% interest in AIG. Treasury also created a new
$2 billion Series G equity capital facility.401
    For the period November 25, 2008, to January 14, 2011, AIG had failed to pay
a total of $7.9 billion in dividend payments.402 After the Recapitalization Plan was
executed, AIG no longer had an obligation to pay dividends.
112   special inspector general I troubled asset relief program




                                             Treasury’s Interests in the SPVs
                                             At the time the Recapitalization Plan was executed in January 2011, Treasury’s
                                             preferred SPV interests were secured by the following:403

                                             •	 AIG’s remaining shares in AIA post-IPO (approximately 33% of AIA’s
                                                outstanding shares)
                                             •	 The non-cash proceeds from the sale of ALICO to MetLife, Inc.
                                             •	 AIG’s equity and residual interest in Maiden Lane II and III
                                             •	 AIG’s ownership interest in its two Japanese-based life insurance subsidiaries,
                                                AIG Star Life Insurance Co., Ltd. (“Star”), and AIG Edison Life Insurance
                                                Company (“Edison”)
                                             •	 The proceeds of the sale of AIG’s Taiwanese life insurance unit, Nan Shan Life
                                                Insurance Company, Ltd. (“Nan Shan”)
                                             •	 AIG’s ownership interests in its aircraft leasing subsidiary, International Leasing
                                                Finance Corporation (“ILFC”)
                                             •	 An escrow account containing proceeds from the sale of equity interest in
                                                MetLife

                                                 The collateral securing Treasury’s preferred SPV interests has changed over
                                             time primarily due to asset sales.
                                                 On February 1, 2011, AIG sold Star and Edison to Prudential Financial, Inc.
                                             for a total of $4.8 billion, consisting of $4.2 billion in cash and $0.6 billion in
                                             the assumption of third-party debt.404 Under the terms of the Recapitalization
                                             Plan, AIG was required to use all net cash proceeds from the Star and Edison
                                             sales to repay a portion of Treasury’s preferred interests in the AIA and ALICO
                                             SPVs.405 Instead, on February 8, 2011, AIG entered into a letter agreement with
                                             Treasury permitting AIG to retain $2 billion of net cash proceeds from the sale
                                             of Star and Edison to strengthen loss reserves and support the capital of one of
                                             AIG’s operating companies, Chartis, Inc., which had taken a charge of more than
                                             $4 billion to its reserves.406 On February 14, 2011, the remaining $2.2 billion in
                                             cash proceeds went to repay a portion of Treasury’s preferred interests in the AIA
                                             and ALICO SPVs.407
                                                 AIG also used $6.6 billion from the March 8, 2011, sale of its equity inter-
                                             ests in MetLife and $300 million held in an expense reserve related to the sale of
                                             ALICO to MetLife to completely repay Treasury’s preferred interest in the ALICO
                                             SPV and to reduce Treasury’s preferred interests in the AIA SPV.408 The remaining
                                             $3 billion from the sale was placed in an escrow that will be released to Treasury
                                             over a 30-month period.409
                                                 On August 18, 2011, AIG sold 97.6% of Nan Shan to Ruen Chen Investment
                                             Holding Co., Ltd. for $2.2 billion in proceeds that went to repay a portion of
                                             Treasury’s preferred interests in the AIA SPV.410
                                                 On November 1, 2011, following the release of escrowed proceeds from AIG’s
                                             sale of its equity interests in MetLife, AIG repaid $972 million of Treasury’s pre-
                                             ferred interests in the AIA SPV.411
                                                                                quarterly report to congress I January 26, 2012   113




    As of December 31, 2011, Treasury’s preferred SPV interests are secured by the
following:412

•	 AIG’s remaining shares in AIA post-IPO (approximately 33% of AIA’s
   outstanding shares)
•	 AIG’s equity and residual interests in Maiden Lane II and III
•	 AIG’s ownership interest in ILFC
•	 An escrow account containing proceeds from the sale of equity interests in
   MetLife

    As noted above, Treasury’s preferred SPV interests are in part secured by
AIG’s ownership interest in ILFC. On September 2, 2011, ILFC filed a Form S-1
Registration statement for an IPO with the Securities and Exchange Commission
(“SEC”).413 The Registration Statement includes a prospectus relating to the issu-
ance of ILFC common stock. The number of common shares to be offered, price
range, and timing for the proposed offering have not yet been determined.414
    As long as Treasury continues to hold AIA SPV preferred interests, it has the
right to require AIG to sell a portion of AIG’s remaining 33% stake held in the
AIA SPV.415 In addition, as long as Treasury continues to hold AIA SPV interests,
Treasury’s consent will be required for AIG to take any significant action with
respect to ILFC, including initial public offerings, sales, significant acquisitions or
dispositions, and incurrence of significant debt.416 Should Treasury hold any pre-
ferred interests in the AIA SPV after May 1, 2013, it will have the right to compel
the sale of all or a portion of ILFC.417
    According to Treasury, the outstanding balance of Treasury’s preferred inter-
est in the AIA SPV as of December 31, 2011, was approximately $8.4 billion.418
AIG expects to continue to repay Treasury for its preferred interest in the AIA SPV
through proceeds from future asset sales.419
    If the proceeds from the sales of all the remaining assets securing the AIA SPV
are insufficient to fully redeem Treasury’s interest in the AIA SPV, Treasury will
recognize a loss.

Treasury’s Equity Ownership Interest in AIG
As part of the Recapitalization Plan, AIG extinguished all prior outstanding
preferred shares held by the Government, comprising $41.6 billion of Series E
preferred shares and $7.5 billion drawn from the Series F equity capital facility.
In exchange, it issued 1.655 billion shares of common stock (which included 563
million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
representing 92.1% of the common stock of AIG.420 The AIG Trust was then
terminated. AIG issued 10-year warrants to its existing non-Government common
shareholders to purchase up to a cumulative total of 75 million shares of common
stock at a strike price of $45 per share.421
    On May 27, 2011, Treasury sold 200 million shares of AIG common stock for
$29.00 per share ($0.28 above Treasury’s prior $28.73 break-even price).422 The
total proceeds to Treasury from the sale were $5.8 billion. In addition, the Series
114            special inspector general I troubled asset relief program




                                                      G equity capital facility was terminated and AIG cancelled all Series G preferred
                                                      stock.423 As of December 31, 2011, Treasury owned 1.455 billion shares of AIG’s
                                                      common stock, representing an ownership stake of 77%.424
                                                          Under an agreement with Treasury, until Treasury’s ownership of AIG’s voting
                                                      securities falls below 33%, AIG will have to obtain Treasury’s consent to the terms,
                                                      conditions, and pricing of any equity offering, and AIG is required to pay Treasury’s
                                                      expenses for the registration of shares and underwriting fees, up to 1% of the
                                                      amount offered by Treasury.425

                                                      FRBNY’s Sales of Maiden Lane II Securities
                                                      On March 30, 2011, FRBNY announced that it will dispose of the securities in
                                                      Maiden Lane II over time using a competitive sales process through its investment
                                                      manager BlackRock Solutions. According to FRBNY, there will be no fixed
                                                      timeframe for the sales.426 FRBNY also announced that, along with providing
                                                      quarterly updates on total proceeds from sales and the total amount purchased by
                                                      each counterparty, it will publish the identity of the purchasers and sale price for
      CUSIP number (“CUSIP”): Unique
                                                      each individual security three months after the last asset is sold.427 According to the
      identifying number assigned to all
                                                      Federal Reserve, the fair value of the Maiden Lane II assets was approximately
      registered securities in the United
                                                      $9.6 billion based on valuations as of September 30, 2011, which according to
      States and Canada; the name
                                                      FRBNY is the latest data available.428 As of December 31, 2011, FRBNY had
      originated with the Committee on
                                                      completed nine sales of a total of 306 CUSIP numbers (“CUSIPs”) from the
      Uniform Securities Identification
                                                      Maiden Lane II portfolio, with a face amount totaling $10 billion.429
      Procedures
                                                         Table 2.29 details the offerings that have been completed through December
                                                      31, 2011.

                                                      Table 2.29
                                                       FRBNY Maiden LANE II Securities Sales, as of 12/31/2011
                                                                                                                                             Current Face              Bonds Sold as a
                                                       Auction                          Number of                    Number of              Value of Bonds              Percentage of
                                                       Closing Date                  Bonds Offered                   Bonds Sold                       Solda             Bonds Offered
                                                       4/6/2011                                       52                          42       $1,326,856,873                                81%
                                                       4/13/2011                                      42                          37            626,080,072                              88%
                                                       4/14/2011                                        8                           8           534,127,946                            100%
                                                       4/28/2011                                      10                            8        1,122,794,209                               80%
                                                       5/4/2011                                       43                          38         1,773,371,055                               88%
                                                       5/10/2011                                      79                          74            427,486,898                              94%
                                                       5/12/2011                                      53                          34         1,373,506,029                               64%
                                                       5/19/2011                                      29                          29            878,641,682                            100%
                                                       6/9/2011                                       73                          36         1,898,594,878                               49%
                                                       Total                                        389                         306       $9,961,459,642                                79%
                                                       Note: Numbers affected by rounding.
                                                       a
                                                         The current face value represents the most recent balance of principal outstanding on the assets. It does not reflect the market
                                                         value of the bonds nor the price originally paid by Maiden Lane II LLC for the bonds.

                                                       Source: FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm?showMore=1,
                                                       accessed 1/4/2012.
                                                                              quarterly report to congress I January 26, 2012         115




Targeted Investment Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.430 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement
security [where] the loss of confidence in a financial institution could result in
significant market disruptions that threaten the financial strength of similarly
situated financial institutions.”431 Both banks repaid TIP in December 2009.432 On
March 3, 2010, Treasury auctioned the Bank of America warrants it received under
TIP for $1.26 billion.433 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under TIP for $190.4 million.434

Asset Guarantee Program
Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately $301
billion. In return, as a premium, the Government received warrants to purchase
Citigroup common stock and $7 billion in preferred stock. The preferred stock was             Trust Preferred Securities (“TRUPS”):
subsequently exchanged for trust preferred securities (“TRUPS”).435                           Securities that have both equity
     Treasury received $4 billion of the TRUPS and the FDIC received $3 bil-                  and debt characteristics created by
lion.436 Although Treasury’s asset guarantee was not a direct cash investment, it             establishing a trust and issuing debt
exposed taxpayers to a potential TARP loss of $5 billion. On December 23, 2009,               to it.
in connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated
the AGP agreement. Although at the time of termination the asset pool suffered
a $10.2 billion loss, this number was below the agreed-upon deductible and the
Government suffered no loss.437
     Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,                 For a discussion of the basis
reducing the premium it received from $4 billion to $2.2 billion, in exchange for             of the decision to provide
the early termination of the loss protection. The FDIC retained all of its $3 billion         Federal assistance to Citigroup,
in securities.438 Under the termination agreement, however, the FDIC will transfer            see SIGTARP’s audit report,
up to $800 million of those securities to Treasury if Citigroup’s participation in the        “Extraordinary Financial Assistance
FDIC’s Temporary Liquidity Guarantee Program closes without a loss.439                        Provided to Citigroup Inc.,” dated
     On September 29, 2010, Treasury entered into an agreement with Citigroup                 January 13, 2011.
to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for
new TRUPS. Because the interest rate necessary to receive par value was below
the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
amount of the securities sold by Treasury by an additional $12 million, thereby
enabling Treasury to receive an additional $12 million in proceeds from the $2.2
billion sale of the Citigroup TRUPS, which occurred on September 30, 2010.440
On January 25, 2011, Treasury auctioned the Citigroup warrants it had received
under AGP for $67.2 million.441 According to Treasury, it has realized a gain of
116   special inspector general I troubled asset relief program




                                             approximately $12.3 billion over the course of Citigroup’s participation in AGP,
                                             TIP, and CPP, including dividends, other income, and warrant sales.442
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.443 Of this $425 million, $276 million was paid to Treasury, $92
                                             million was paid to the FDIC, and $57 million was paid to the Federal Reserve.444
                                                                              quarterly report to congress I January 26, 2012             117




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-                 Non-Recourse Loan: Secured loan
Private Investment Program (“PPIP”), and the Unlocking Credit for Small                       in which the borrower is relieved of
Businesses (“UCSB”) program.                                                                  the obligation to repay the loan upon
    TALF was designed to support asset-backed securities (“ABS”) transactions                 surrendering the collateral.
by providing eligible borrowers $71.1 billion in non-recourse loans through the
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed                    Collateral: Asset pledged by a
ABS and commercial mortgage-backed securities (“CMBS”). Up to $4.3 billion in                 borrower to a lender until a loan is
TARP funds are available to the program to manage collateral for the TALF loans               repaid. Generally, if the borrower
in the event that borrowers surrender the collateral and walk away from the loans             defaults on the loan, the lender gains
or if the collateral is seized in the event of default. Of the $71.1 billion in TALF          ownership of the pledged asset and
loans, $9 billion remains outstanding as of December 31, 2011.445                             may sell it to satisfy the debt. In TALF,
    PPIP uses a combination of private equity and Government equity and debt                  the ABS or CMBS purchased with
through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)             the TALF loan is the collateral that is
held by financial institutions. In July 2009, Treasury announced the selection of             posted with FRBNY.
nine Public-Private Investment Fund (“PPIF”) managers. Treasury has obligated
$21.9 billion in TARP funds to the program. In January 2010, PPIP manager The
TCW Group Inc. (“TCW”) withdrew from the program. In September 2011, PPIP
manager Invesco Legacy Securities Master Fund, L.P. (“Invesco”) notified Treasury
that it had stopped making investments in the PPIF that it manages. The remain-
ing PPIP managers are currently purchasing investments and managing their
portfolios.
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.446 Treasury
has sold all but eight of these securities as of December 31, 2011, for sales pro-
ceeds of $271.2 million.447 Treasury purchased the eight remaining securities for
$64.4 million. In addition, Treasury has received approximately $7.5 million in
payments of principal, interest or debt for these eight securities.

TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.448 According to FRBNY, “The ABS markets historically have funded a
substantial share of credit to consumers and businesses,” and TALF was “designed
to increase credit availability and support economic activity by facilitating renewed
issuance of consumer and business ABS.”449
    TALF is divided into two parts:450

•	 a lending program, TALF, in which FRBNY originated and managed non-
   recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
   TALF’s lending program closed in 2010.
•	 an asset disposition facility, TALF LLC, that purchases the collateral from
   FRBNY if borrowers choose to surrender it and walk away from their loans or if
   the collateral is seized in the event of default
118            special inspector general I troubled asset relief program




                                                          The asset disposition facility, TALF LLC, is managed by FRBNY and remains in
                                                      operation.451 TALF loans are non-recourse (unless the borrower has made any mis-
                                                      representations or breaches warranties or covenants), which means that FRBNY
                                                      cannot hold the borrower liable for any losses beyond the surrender of collateral for
                                                      the TALF loan.452
                                                          TALF LLC’s funding first comes from a fee charged to FRBNY for the commit-
                                                      ment to purchase any collateral surrendered by the borrowers. This fee is derived
                                                      from the principal balance of each outstanding TALF program loan.453 TARP is
                                                      obligated to lend to TALF LLC up to $4.3 billion to cover losses on TALF loans.454
                                                      TALF LLC may use TARP funds to purchase surrendered assets from FRBNY and
                                                      to offset losses associated with disposing of the surrendered assets. As December
                                                      31, 2011, $9 billion in TALF loans were outstanding.455 According to FRBNY, no
                                                      TALF borrowers have surrendered collateral in lieu of repayment and consequently
                                                      no collateral has been purchased by TALF LLC since its inception.456

                                                      Lending Program
                                                      TALF’s lending program made secured loans to eligible borrowers.457 The loans
                                                      were issued with terms of three or five years and were available for non-mortgage-
      Synthetic ABS: Security deriving its
                                                      backed ABS, newly issued CMBS, and legacy CMBS.458 The final maturity date of
      value and cash flow from sources other
                                                      loans in the TALF portfolio is March 30, 2015.459
      than conventional debt, equities, or
                                                          To be eligible for TALF, the non-mortgage-backed ABS had to meet certain
      commodities — for example, credit
                                                      criteria, including the following:460
      derivatives.
                                                      •	 be U.S.-dollar-denominated cash (not synthetic ABS)
      Nationally Recognized Statistical Rating
                                                      •	 bear short-term and long-term credit ratings of the highest investment grade
      Organization (“NRSRO”): Credit rating
                                                         (i.e., AAA) from two or more major nationally recognized statistical rating
      agency registered with the SEC. Credit
                                                         organizations (“NRSROs”) identified by FRBNY as eligible to rate non-
      rating agencies provide their opinion
                                                         mortgage-backed ABS collateral for TALF loans
      of the creditworthiness of companies
                                                      •	 not bear a long-term credit rating less than the highest rating by a major
      and the financial obligations issued
                                                         NRSRO
      by companies. The ratings distinguish
                                                      •	 have all or substantially all of the underlying loans originate in the United States
      between investment grade and non–
                                                      •	 have any one of the following types of underlying loans: automobile, student,
      investment grade equity and debt
                                                         credit card, equipment, dealer floor plan, insurance premium finance, small
      obligations.
                                                         business with principal and interest fully guaranteed by SBA, or receivables
                                                         related to residential mortgage servicing advances (“servicing advance
                                                         receivables”)
                                                      •	 not have collateral backed by loans originated or securitized by the TALF
      For a discussion of the credit rating
                                                         borrower or one of its affiliates
      agency industry and an analysis of
      the impact of NRSROs on TARP
                                                         To qualify as TALF collateral, newly issued CMBS and legacy CMBS had
      and the overall financial market, see
                                                      to meet numerous requirements, some of which were the same for both CMBS
      SIGTARP’s October 2009 Quarterly
                                                      types:461
      Report, pages 113–148.
                                                                             quarterly report to congress I January 26, 2012          119




•	 evidence an interest in a trust fund that consists of fully funded mortgage loans
   and not other CMBS, other securities or interest rate swap or cap instruments
   or other hedging instruments
•	 possess a credit rating of the highest long-term investment grade from at least
   two rating agencies identified by FRBNY as eligible to rate CMBS collateral for
   TALF loans, and not possess a credit rating below the highest investment grade
   from any of those rating agencies
•	 offer principal and interest payments
•	 have been issued by any institution other than a Government-sponsored
   enterprise (“GSE”) or an agency or instrumentality of the U.S. Government
•	 include a mortgage or similar instrument on a fee or lease-hold interest in one
   or more income-generating commercial properties

    Some differences existed between requirements for eligible newly issued CMBS
and eligible legacy CMBS. Newly issued CMBS had to meet the following addi-
tional requirements:462

•	 be issued on or after January 1, 2009
•	 evidence first-priority mortgage loans that were current in payment at the time
   of securitization
•	 not be junior to other securities with claims on the same pool of loans
•	 have 95% or more of the dollar amount of the underlying credit exposures
   originated by a U.S.-organized entity or a U.S. branch or agency of a foreign
   bank
•	 have each property located in the United States or its territories

   Legacy CMBS had to meet the following additional requirements:463

•	 be issued before January 1, 2009
•	 not have been junior to other securities with claims on the same pool of loans at         TALF Agent: Financial institution that
   the time the CMBS was issued                                                              is party to the TALF Master Loan
•	 have 95% or more of the underlying properties, in terms of the related loan               and Security Agreement and that
   principal balance, located in the United States or its territories                        occasionally acts as an agent for the
                                                                                             borrower. TALF agents include primary
Loan Terms                                                                                   and nonprimary broker-dealers.
TALF participants were required to use a TALF agent to apply for a TALF loan.464
After the collateral (the particular asset-backed security financed by the TALF loan)        Haircut: Difference between the value
was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,              of the collateral and the value of the
which represents the amount of money put up by the borrower (the borrower’s                  loan (the loan value is less than the
“skin in the game”), was required for each TALF loan.465 Haircuts for non-                   collateral value).
mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
and generally ranged between 5% and 16% for non-mortgage-backed ABS with                     “Skin in the Game”: Equity stake in an
average lives of five years or less.466 The haircut for legacy and newly issued CMBS         investment; down payment; the amount
was generally 15% but increased above that amount if the average life of the CMBS            an investor can lose.
was greater than five years.467
120           special inspector general I troubled asset relief program




                                                         FRBNY lent each borrower the amount of the market price of the pledged col-
      Custodian Bank: Bank holding the               lateral minus the haircut, subject to certain limitations.468 The borrower delivered
      collateral and managing accounts for           the collateral to the custodian bank, which collects payments generated by the
      FRBNY; for TALF the custodian is Bank          collateral and distributes them to FRBNY (representing the borrower’s payment of
      of New York Mellon.                            interest on the TALF loan).469 Any excess payments from the collateral above the
                                                     interest due and payable to FRBNY on the loan go to the TALF borrower.470

                                                     TALF Loan Subscriptions
                                                     TALF provided $59 billion of loans to purchase non-mortgage-backed ABS
                                                     during the lending phase of the program, which ended on March 11, 2010. As of
                                                     December 31, 2011, $7 billion was outstanding.471 Table 2.30 lists all TALF loans
                                                     collateralized by non-mortgage-backed ABS, by ABS sector.

                                                     Table 2.30
                                                      TALF Loans Settled by ABS Sector (Non-mortgage-backed
                                                      Collateral) ($ Billions)
                                                                                            1st             2nd             3rd               4th             1st
                                                                                        Quarter          Quarter         Quarter          Quarter         Quarter
                                                      ABS Sector                          2009             2009            2009             2009            2010               Total
                                                      Auto Loans                             $1.9             $6.1            $4.5            $0.2             $0.1           $12.8
                                                      Credit Card
                                                                                               2.8            12.4              8.4             1.8              0.9           26.3
                                                      Receivables
                                                      Equipment Loans                           —              1.0              0.1             0.3              0.2             1.6
                                                      Floor Plan Loans                          —                —              1.0             1.5              1.4             3.9
                                                      Premium Finance                           —              0.5              0.5               —              1.0             2.0
                                                      Servicing Advance
                                                                                                —              0.4              0.1             0.6              0.1             1.3
                                                      Receivables
                                                      Small-Business Loans                      —              0.1              0.4             0.9              0.7             2.2
                                                      Student Loans                             —              2.5              3.6             1.0              1.8             8.9
                                                      Total                                  $4.7          $23.0            $18.7             $6.4            $6.1           $59.0
                                                      Notes: Numbers may not total due to rounding. Data as of 12/31/2011. The first subscription in the program was in March 2009;
                                                      therefore, the first quarter of 2009 represents one subscription while the remaining quarters represent three subscriptions.

                                                      Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
                                                      html, accessed 1/5/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
                                                      TALF_recent_operations.html, accessed 1/5/2012.



                                                        TALF provided $12.1 billion of loans to purchase CMBS during the lending
                                                     phase of the program, which ended on June 28, 2010. Approximately 99% of the
                                                     loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.472
                                                     As of December 31, 2011, $2 billion was outstanding.473 Table 2.31 includes all
                                                     TALF CMBS loans.
                                                                                                                   quarterly report to congress I January 26, 2012   121




Table 2.31
 TALF LOANS SETTLED (CMBS COLLATERAL)                                 ($ Billions)

                                     2nd             3rd               4th             1st            2nd
 Type of Collateral               Quarter         Quarter          Quarter         Quarter         Quarter
 Assets                             2009            2009             2009            2010            2010              Total
 Newly Issued CMBS                      $—               $—            $0.1              $—              $—            $ 0.1
 Legacy CMBS                              —              4.1             4.5             3.3               —            12.0
 Total                                  $—             $4.1            $4.6            $3.3              $—          $12.1
 Notes: Numbers may not total due to rounding. Data as of 12/31/2011. The second quarter of 2009 was only for legacy CMBS,
 while the second quarter of 2010 was only for newly issued CMBS.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
 html, accessed 1/5/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
 CMBS_recent_operations.html, accessed 1/5/2012.



  The Federal Reserve posted on its website detailed information on the 177
TALF borrowers, including:474

•	 the names of all the borrowers from TALF (some of which share a parent
   company)
•	 each borrower’s city, state, and country
•	 the name of any material investor in the borrower (defined as a 10% or greater
   beneficial ownership interest in any class of security of a borrower)
•	 the amount of the loan
•	 outstanding loan amount as of September 30, 2010
•	 the loan date
•	 the loan maturity date
•	 the date of full repayment (if applicable)
•	 the date of loan assignment (if applicable)
•	 the loan rate (fixed or floating)
•	 the market value of the collateral associated with the loan at the time the loan
   was extended
•	 the name of the issuer of the ABS collateral associated with the loan
•	 the collateral asset and subclass

   As of December 31, 2011, $62.1 billion in TALF loans had been repaid.
According to FRBNY, the outstanding collateral on the remaining $9 billion in
TALF loans was performing as expected.475

Asset Disposition Facility
When FRBNY created TALF LLC, TARP loaned the facility $100 million. Of this
initial funding, $15.8 million was allocated to cover administrative costs.476 TARP
will continue to fund TALF LLC, as needed to cover losses, until TARP’s entire
$4.3 billion obligation has been disbursed, all TALF loans are retired, or the loan
commitment term expires. The last loan matures in 2015. Any additional funds, if
needed, will be provided by a loan from FRBNY that will be collateralized by the
122            special inspector general I troubled asset relief program




                                                      assets of TALF LLC and will be senior to the TARP loan.477 Payments by TALF
                                                      LLC from the proceeds of its holdings will be made in the following order:478

                                                      •	   operating expenses of TALF LLC
                                                      •	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
                                                      •	   principal due to Treasury
                                                      •	   interest due to FRBNY
                                                      •	   interest due to Treasury
                                                      •	   other secured obligations

                                                           Any remaining money will be shared by Treasury (90%) and FRBNY (10%).479

                                                      Current Status
                                                      As of December 31, 2011, TALF LLC had assets of $811 million, which
                                                      included the $100 million in initial TARP funding.480 The remainder consisted of
                                                      interest and other income and fees earned from permitted investments. From its
                                                      February 4, 2009, formation through December 31, 2011, TALF LLC had spent
                                                      approximately $2 million on administration.481
                                                          When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
                                                      the program shifted primarily to portfolio management, which includes the follow-
                                                      ing duties:482

      Excess Spread: Funds left over
                                                      •	 maintaining documentation
      after required payments and other
                                                      •	 overseeing the custodian that is responsible for holding ABS collateral
      contractual obligations have been met.
                                                      •	 calculating and collecting principal and interest on TALF loans
      In TALF it is the difference between
                                                      •	 disbursing excess spread to TALF borrowers in accordance with the governing
      the periodic amount of interest paid
                                                         documents
      out by the collateral and the amount
                                                      •	 monitoring the TALF portfolio
      of interest charged by FRBNY on the
                                                      •	 collecting and managing collateral assets if a borrower defaults or surrenders
      nonrecourse loan provided to the
                                                         the collateral in lieu of repayment
      borrower to purchase the collateral.
                                                      •	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
                                                         of FRBNY’s cost of funding
                                                                                 quarterly report to congress I January 26, 2012              123




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program
(“PPIP”) is to purchase legacy securities from banks, insurance companies, mutual                Legacy Securities: Real estate-related
funds, pension funds, and other eligible financial institutions as defined in EESA,              securities originally issued before
through Public-Private Investment Funds (“PPIFs”).483 PPIFs are partnerships,                    2009 that remained on the balance
formed specifically for this program, that invest in mortgage-backed securities using            sheets of financial institutions because
equity capital from private-sector investors combined with TARP equity and debt.                 of pricing difficulties that resulted from
A private-sector fund management firm oversees each PPIF on behalf of these                      market disruption.
investors. According to Treasury, the aim of PPIP was to “restart the market for
legacy securities, allowing banks and other financial institutions to free up capital            Equity: Investment that represents an
and stimulate the extension of new credit.”484 PPIP originally included a Legacy                 ownership interest in a business.
Loans subprogram that would have involved purchases of troubled legacy loans
with private and Treasury equity capital, as well as an FDIC guarantee for debt                  Debt: Investment in a business that
financing. TARP funds were never disbursed for this subprogram.                                  is required to be paid back to the
    Treasury selected nine fund management firms to establish PPIFs. One PPIP                    investor, usually with interest.
manager, The TCW Group, Inc., (“TCW”) subsequently withdrew. Private investors
and Treasury co-invested in the PPIFs to purchase legacy securities from financial
institutions. The fund managers raised private-sector capital. Treasury matched the
private-sector equity dollar-for-dollar and provided debt financing in the amount
of the total combined equity. Each PPIP manager was also required to invest at
least $20 million of its own money in the PPIF.485 Each PPIF is approximately                    For more information on the
75% TARP funded. PPIP was designed as an eight-year program. PPIP managers                       selection of PPIP managers, see
have until 2017 to sell the assets in their portfolio. Under certain circumstances,              SIGTARP’s October 7, 2010,
Treasury can terminate PPIP early or extend it for up to two additional years.486                audit report entitled “Selecting
    Treasury, the PPIP managers, and the private investors share PPIF profits and                Fund Managers for the Legacy
losses on a pro rata basis based on their limited partnership interests. Treasury also           Securities Public-Private Investment
received warrants in each PPIF that give Treasury the right to receive a portion of              Program.”
the fund’s profits that would otherwise be distributed to the private investors along
with its pro rata share of program proceeds.487                                                  For more information on the
    The PPIP portfolio, consisting of eligible securities, was valued at $20.5 billion           withdrawal of TCW as a PPIP
as of December 31, 2011, according to a process administered by Bank of New                      manager, see SIGTARP’s January
York Mellon, acting as valuation agent.488 In addition to the eligible securities,               2010 Quarterly Report, page 88.
the PPIP portfolio also consists of cash assets to be used to purchase securities.
The securities eligible for purchase by PPIFs (“eligible assets”) are non-agency
residential mortgage-backed securities (“non-agency RMBS”) and commercial


 Pro Rata: Refers to dividing something       Limited Partnership: Partnership in which       Non-Agency Residential Mortgage-
 among a group of participants according      there is at least one partner whose             Backed Securities (“non-agency RMBS”):
 to the proportionate share that each         liability is limited to the amount invested     Financial instrument backed by a group
 participant holds as a part of the whole.    (limited partner) and at least one partner      of residential real estate mortgages (i.e.,
                                              whose liability extends beyond monetary         home mortgages for residences with up
                                              investment (general partner).                   to four dwelling units) not guaranteed
                                                                                              or owned by a Government-sponsored
                                                                                              enterprise (“GSE”) (Fannie Mae or Freddie
                                                                                              Mac), or a Government Agency.
124   special inspector general I troubled asset relief program




                                             mortgage-backed securities (“CMBS”) that meet the following criteria:489

                                             •	 issued before January 1, 2009 (legacy)
                                             •	 rated when issued AAA or equivalent by two or more credit rating agencies
                                                designated as nationally recognized statistical rating organizations (“NRSROs”)
                                             •	 secured directly by actual mortgages, leases, or other assets, not other securities
                                                (other than certain swap positions, as determined by Treasury)
                                             •	 located primarily in the United States (the loans and other assets that secure the
                                                non-agency RMBS and CMBS)
                                             •	 purchased from financial institutions that are eligible for TARP participation

                                             PPIP Process
                                             The following steps describe the process by which funds participate in PPIP:490

                                             1.	 Fund managers applied to Treasury to participate in the program.
                                             2.	 Pre-qualified fund managers raised the necessary private capital for the PPIFs.
                                             3.	Treasury matched the capital raised, dollar-for-dollar, up to a preset maximum.
                                                 Treasury also received warrants so that it could benefit further if the PPIFs turn
                                                 a profit.
                                             4.	Fund managers may borrow additional funds from Treasury up to 100% of the
                                                 total equity investment (including the amount invested by Treasury).
                                             5.	Each fund manager purchases and manages the legacy securities and provides
                                                 monthly reports to its investors, including Treasury.

                                                Obligated funds are not given immediately to PPIP managers. Instead, PPIP
                                             managers send a notice to Treasury and the private investors requesting a “draw
                                             down” of portions of obligated contributions in order to purchase specific invest-
                                             ments or to pay certain expenses and debts of the partnerships.491

                                             PPIF Purchasing Power
                                             During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                             of private-sector equity capital, which Treasury matched with a dollar for dollar
                                             obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
                                             $14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
                                             power. The fund-raising stage for PPIFs was completed in December 2009.
                                                  After the capital-raising stage, Treasury obligated $22.4 billion in a combination
                                             of matching equity funds and debt financing for PPIP; that was reduced to $21.9
                                             billion after fund manager Invesco Legacy Securities Master Fund, L.P. (“Invesco”)
                                             terminated its investment period in September 2011.492 As of December 31, 2011,
                                             there is $28.9 billion in PPIF purchasing power from private and TARP capital.
                                             Table 2.32 shows equity and debt committed by Treasury for current PPIFs under
                                             the program.
                                                  Each current PPIP manager has up to three years (the “PPIF investment
                                             period”) from closing its first private-sector equity contribution to draw upon the
                                             TARP funds obligated for the PPIF and buy legacy securities on behalf of private
                                                                                                                              quarterly report to congress I January 26, 2012   125




and Government investors.493 During this period, the program will strive to main-
tain “predominantly a long-term buy and hold strategy.”494 The last of the three-year
investment periods expires in December 2012.
    At the end of the PPIF investment period, fund managers have five years ending
in 2017 to manage and sell off the fund’s investment portfolio and return proceeds
to taxpayers and investors. This period may be extended up to two years.495

TABLE 2.32
 Public-private investment program PURCHASING POWER, AS OF
 12/31/2011 ($ Billions)
                                                           Private-
                                                            Sector                                                           Total
                                                             Equity             Treasury              Treasury          Purchasing
 Manager                                                    Capital               Equity                  Debt              Power
 AG GECC PPIF Master Fund, L.P.                                 $1.2                  $1.2                 $2.5                  $5.0
 AllianceBernstein Legacy
                                                                  1.2                   1.2                  2.3                   4.6
 Securities Master Fund, L.P.
 BlackRock PPIF, L.P.                                             0.7                   0.7                  1.4                   2.8
 Invesco Legacy Securities Master
                                                                  0.9                   0.9                  1.2a                  2.9
 Fund, L.P.
Marathon Legacy Securities Public-
Private Investment Partnership,                                   0.5                   0.5                  0.9                   1.9
L.P.
Oaktree PPIP Fund, L.P.                                           1.2                   1.2                  2.3                   4.6
RLJ Western Asset Public/Private
                                                                  0.6                   0.6                  1.2                   2.5
Master Fund, L.P.
Wellington Management Legacy
                                                                  1.1                   1.1                  2.3                   4.6
Securities PPIF Master Fund, LP
Current Totals                                                 $7.4                   $7.4               $14.2a                $28.9b
 Notes: Numbers may be affected by rounding.
 a
   Invesco terminated its investment period in September 2011, without fully drawing down all committed equity and debt. As a result,
   Treasury reduced its debt obligation to the fund but will not reduce its equity obligation until the fund is liquidated.
 b
   Treasury initially funded $356 million to TCW, which TCW repaid in full in early 2010. As this PPIF has liquidated, the amount is not
   included in the total purchasing power.

 Source: Treasury, response to SIGTARP data call, 1/5/2012.



Amounts Drawn Down
The eight current PPIP managers had drawn down approximately $23.2 billion
to buy legacy securities and cash assets through December 31, 2011, spending
$5.9 billion in private-sector equity capital and $17.3 billion in TARP equity and
debt funding.496 Treasury also disbursed $356.3 million to TCW, which TCW fully
repaid in early 2010 when it withdrew from the program.497
    Five PPIP managers have drawn down at least 90 percent of their available
PPIP capital to purchase legacy securities as of December 31, 2011.498 Among the
eight active funds, Oaktree PPIP Fund, L.P. (“Oaktree”), the only fund limited
solely to purchasing CMBS, had drawn down the smallest amount, 32 percent,
of its available capital. Table 2.33 shows how much each PPIF has drawn down
from the private and Government money available to it to buy real-estate backed
securities.
126   special inspector general I troubled asset relief program




           Table 2.33
            PPIP CAPITAL DRAWN DOWN, AS OF 12/31/2011                                            ($ BILLIONS)

                                                              Purchasing               Private-               Treasury                Treasury
                                                                  Power           Sector Equity           Equity Drawn              Debt Drawn             Total Drawn            Purchasing
            Manager                                             Available          Drawn Down                     Down                    Down                    Down            Power Used
            AG GECC PPIF Master Fund, L.P.                             $5.0                     $1.1                   $1.1                   $2.2                    $4.5                  90%
            AllianceBernstein Legacy
                                                                         4.6                      1.0                    1.0                    2.1                     4.1                 90%
            Securities Master Fund, L.P.
            BlackRock PPIF, L.P.                                         2.8                      0.5                    0.5                    1.1                     2.1                 76%
            Invesco Legacy Securities
                                                                         2.9                      0.6                    0.6                    1.2                     2.3                 81%
            Master Fund, L.P.
            Marathon Legacy Securities
            Public-Private Investment                                    1.9                      0.5                    0.5                    0.9                     1.8                 97%
            Partnership, L.P.
            Oaktree PPIP Fund, L.P.                                      4.6                      0.4                    0.4                    0.7                     1.5                 32%
            RLJ Western Asset Public/
                                                                         2.5                      0.6                    0.6                    1.2                     2.5               100%
            Private Master Fund, L.P.
            Wellington Management Legacy
                                                                         4.6                      1.1                    1.1                    2.0                     4.3                 94%
            Securities PPIF Master Fund, LP
            Current Totals                                           $28.9a                    $5.9                    $5.9                 $11.4                  $23.2                    80%b
            Notes: Numbers may be affected by rounding.
            a
              Invesco terminated its investment period in September 2011 without fully drawing down all committed equity and debt. Treasury has reduced its debt obligation to the fund but will
              not reduce its equity obligation until the fund is liquidated.
            b
              Treasury initially funded $356 million to TCW, which TCW repaid in full in early 2010. As this PPIF has liquidated, the amount is not included in the total purchasing power.

            Source: Treasury, response to SIGTARP data call, 1/5/2012, Treasury, Transactions Report, 1/4/2012.
                                                                                                                        quarterly report to congress I January 26, 2012   127




Amounts Paid to Treasury
PPIP managers make monthly debt interest payments to Treasury. In addition,
through December 31, 2011, four PPIP managers have repaid $984 million in
TARP debt. The fund managers have also paid $1 billion to the Government in
equity distributions, which Treasury defines as gains from sales of PPIF securities,
capital contributions from partners, and any payments that are not for debt
principal or interest.499 Table 2.34 shows each fund’s payments to Treasury through
December 31, 2011.

Table 2.34
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 12/31/2011                                                     ($ MILLIONS)

                                                                                 Equity               Debt                Debt
                                                                           Distribution           Principal            Interest
 Manager                                                                   Payments*             Payments            Payments
 AG GECC PPIF Master Fund, L.P.                                                     $119                  $—                  $44
 AllianceBernstein Legacy Securities Master Fund, L.P.                                153                   30                 43
 BlackRock PPIF, L.P.                                                                     3                 —                  24
 Invesco Legacy Securities Master Fund, L.P.                                          494                 861                  17
 Marathon Legacy Securities Public-Private Investment
                                                                                        11                  —                  16
 Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                                                41                  79                   5
 RLJ Western Asset Public/Private Master Fund, L.P.                                     94                  14                 27
 Wellington Management Legacy Securities PPIF
                                                                                        86                  —                  35
 Master Fund, LP
 Current Totals                                                                  $1,000                $984                  $211
 Notes: Numbers may be affected by rounding. Table does not include TCW, which fully repaid $356 million to Treasury in early 2010
 when its fund was liquidated.

 *Excludes management fees and expenses.

 Sources: Treasury, response to SIGTARP data call, 1/5/2012. Treasury, Dividends and Interest Report, 1/10/2012. Treasury,
 Transactions Report, 1/4/2012.



PPIP Manager Invesco
Invesco stopped buying PPIP-eligible securities and notified Treasury in September
2011 that it voluntarily terminated its fund’s investment period more than one year
ahead of the three-year expiration period.500 Invesco Chairman and CEO Wilbur
Ross said in a September 26, 2011, letter to investors, “We have not made material
investments in PPIP eligible assets for the past year because we have been unable
to find assets that meet our goals.” According to Treasury and Invesco, Invesco will
continue to manage its PPIF portfolio, which consists solely of RMBS, and sell its
holdings as market conditions allow.501
    When it terminated its investment period, Invesco had used $2.3 billion of the
$3.4 billion in total purchasing power available to it. In response, Treasury re-
duced its maximum debt obligation to Invesco to $1.2 billion, reflecting the actual
amount Invesco borrowed from Treasury before terminating its investment pe-
riod.502 Invesco has been paying down its debt since early 2010, resulting in an out-
standing debt balance of $301 million on December 31, 2011.503 Although Invesco
128   special inspector general I troubled asset relief program




                                             used only $581 million of Treasury’s $856 million equity commitment, Treasury
                                             says that it cannot adjust its equity obligation until the fund is fully liquidated.504

                                             Fund Performance
                                             Each PPIF’s performance — its gross and net returns since inception — as
                                             reported by PPIP managers, is listed in Table 2.35. The returns are calculated
                                             based on a methodology requested by Treasury.
                                                The data in Table 2.35 constitutes a snapshot of the funds’ performance during
                                             the quarter ended December 31, 2011, and may not predict the funds’ perfor-
                                             mance over the long term. According to some PPIP managers, it would be pre-
                                             mature to draw any long-term conclusions because, among other reasons, some
                                             managers have not fully executed their investment strategies or fully drawn down
                                             Treasury’s capital or debt obligations.
                                             TABLE 2.35
                                              PPIF investment status, AS OF 12/31/2011
                                                                                                                                                                    Internal
                                                                                                                                                                     Rate of
                                                                                               1-Month             3-Month             Cumulative             Return Since
                                                                                                Return              Return         Since Inception                Inception
                                              Manager                                         (percent)          (percent)a              (percent)               (percent)b

                                              AG GECC PPIF Master                 Gross             2.23                1.52                     46.53                  12.49
                                              Fund, L.P.                          Net               2.20                1.39                     44.00                  11.96
                                              AllianceBernstein Legacy            Gross             0.80               (5.83)                    21.05                    8.79
                                              Securities Master Fund,
                                              L.P.                                Net               0.68               (6.36)                    16.50                    7.10
                                                                                  Gross             0.42               (2.65)                    32.97                  11.11
                                              BlackRock PPIF, L.P.
                                                                                  Net               0.32               (3.03)                    29.02                    9.58
                                              Invesco Legacy                      Gross            (0.08)              (5.68)                    24.50                  17.92
                                              Securities Master Fund,
                                              L.P.                                Net              (0.19)              (6.28)                    19.21                  16.29
                                              Marathon Legacy                     Gross             0.58               (2.50)                    23.34                    4.77
                                              Securities Public-Private
                                              Investment Partnership,
                                              L.P.                                Net               0.46               (2.91)                    18.27                    3.15

                                                                                  Gross             4.40              11.35                      36.89                  17.45
                                              Oaktree PPIP Fund, Inc.
                                                                                  Net               4.32              11.03                      29.69                  15.91
                                              RLJ Western Asset                   Gross             0.48               (6.70)                    26.19                  10.85
                                              Public/Private Master
                                              Fund, L.P.                          Net               0.36               (7.20)                    22.44                    9.33
                                              Wellington Management               Gross             1.27               (2.57)                      5.57                  (3.17)
                                              Legacy Securities PPIF
                                              Master Fund, LP                     Net               1.16               (3.01)                      2.04                  (4.73)
                                              Notes: The performance indicators are listed as reported by the PPIP managers without further analysis by SIGTARP. The net returns
                                              include the deduction of management fees and partnership expenses attributable to Treasury.
                                              a
                                                Time-weighted, geometrically linked returns.
                                              b
                                                Dollar-weighted rate of return.

                                              Source: PPIF Monthly Performance Reports submitted by each PPIP manager, December 2011, received 1/17/2012.
                                                                             quarterly report to congress I January 26, 2012                           129




Securities Purchased by PPIFs                                                               Figure 2.3
According to their agreements with Treasury, PPIP managers may trade in both
                                                                                            AGGREGATE COMPOSITION OF PPIF
RMBS and CMBS, except for Oaktree, which may purchase only CMBS.505 Figure
                                                                                            PURCHASES, AS OF 12/31/2011
2.3 shows the collective value of securities purchased by all PPIFs as of December          Percentage of $20.5 Billion
31, 2011, broken down by RMBS and CMBS.
    PPIF investments can be classified by underlying asset type. All non-agency                     CMBS

RMBS investments are considered residential. The underlying assets are mortgages
                                                                                                          25%
for residences with up to four dwelling units. For CMBS, the assets are com-
mercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
as warehouses), mobile home parks, mixed-use (combination of commercial and/                                                  75%       RMBS
or residential uses), and self-storage. Figure 2.4 breaks down CMBS investment
distribution by sector. As of December 31, 2011, the aggregate CMBS portfolio had
large concentrations in office (31%) and retail (27%) loans.
    Non-agency RMBS and CMBS can be classified by the degree of estimated                   Notes: Numbers affected by rounding. Calculated based on
                                                                                            monthly data supplied by the PPIF managers.
default risk (sometimes referred to as “quality”). Investors are most concerned
                                                                                            Source: PPIF Monthly Performance Reports, December 2011.
about whether borrowers will default and the underlying collateral will be sold at a
loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
                                                                                            Figure 2.4
There are no universal standards for ranking mortgage quality, and the designations
vary depending on context. In general, the highest-quality rankings are granted to          AGGREGATE CMBS PURCHASES BY
mortgages that have the strictest requirements regarding borrower credit, com-              SECTOR, AS OF 12/31/2011
                                                                                            Percentage of $5.1 Billion
pleteness of documentation, and underwriting standards. Treasury characterizes
these investment-quality levels of risk for the types of mortgage loans that support                         Others
non-agency RMBS as follows:506                                                                                    9%
                                                                                             Lodging/                           31%
•	 Prime — mortgage loan made to a borrower with good credit that generally                     Hotel     13%

   meets the lender’s strictest underwriting criteria. Non-agency prime loans
                                                                                             Industrial 6%
   generally exceed the dollar amount eligible for purchase by GSEs (jumbo loans)
   but may include lower-balance loans as well.                                                              14%
                                                                                              Multi-family                  27%
•	 Alt-A — mortgage loan made to a borrower with good credit but with limited                                                     Retail
   documentation or other characteristics that do not meet the standards for prime
   loans. An Alt-A loan may have a borrower with a lower credit rating, a higher            Notes: Numbers affected by rounding. Calculated based on
                                                                                            monthly data supplied by the PPIF managers.
   loan-to-value ratio, or limited or no documentation, compared with a prime
                                                                                            Source: PPIF Monthly Performance Reports, December 2011.
   loan.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
   gives the borrower a set of choices about how much interest and principal to
   pay each month. This may result in negative amortization (an increasing loan
   principal balance over time).
•	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
   subprime, or option ARM but meet the definition of “eligible assets” above.

   Treasury characterizes CMBS according to the degree of “credit enhancement”
supporting them:507
130   special inspector general I troubled asset relief program




                                             •	 Super Senior — most senior originally rated AAA bonds in a CMBS
                                                securitization with the highest level of credit enhancement. Credit
                                                enhancement refers to the percentage of the underlying mortgage pool by
                                                balance that must be written down before the bond suffers any losses. Super
                                                senior bonds often compose approximately 70% of a securitization and,
                                                therefore, have approximately 30% credit enhancement at issuance.
                                             •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                receive interest and principal payments after super senior creditors but before
                                                junior creditors.508 AM bonds often compose approximately 10% of a CMBS
                                                securitization.
                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
                                                AAA rating at issuance.
                                             •	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
                                                AM, or AJ but meet the definition of “eligible assets” above.

                                               Figure 2.5 and Figure 2.6 show the distribution of non-agency RMBS and
                                             CMBS investments held in PPIP by respective risk levels, as reported by PPIP
                                             managers.

                                              Figure 2.5                                                  Figure 2.6

                                              AGGREGATE RMBS PURCHASES BY                                 AGGREGATE CMBS PURCHASES BY
                                              QUALITY, AS OF 12/31/2011                                   QUALITY, AS OF 12/31/2011
                                              Percentage of $15.3 Billion                                 Percentage of $5.1 Billion

                                                             Other a 0%

                                                        Option ARM                                                                      Super Senior
                                                                                                                   Other
                                                                      9%                                                             8%
                                                  Subprime                               Prime                              13%
                                                               11%               33%


                                                                                                         AJ (Junior)    28%                    51% AM (Mezzanine)

                                                     Alt-A       47%




                                              Notes: Numbers affected by rounding. Calculated based on    Notes: Numbers affected by rounding. Calculated based on
                                              monthly data supplied by the PPIF managers.                 monthly data supplied by the PPIF managers.
                                              a
                                               The actual percentage for “Other RMBS” is 0.20%.

                                              Source: PPIF Monthly Performance Reports, December 2011.    Source: PPIF Monthly Performance Reports, December 2011.
                                                                                                                  quarterly report to congress I January 26, 2012   131




   Non-agency RMBS and CMBS can be classified geographically, according to
the states where the underlying mortgages are held. Figure 2.7 and Figure 2.8
show the states with the greatest representation in the underlying non-agency
RMBS and CMBS investments in PPIFs, as reported by PPIP managers.

Figure 2.7                                                    Figure 2.8

AGGREGATE GEOGRAPHICAL                                        AGGREGATE GEOGRAPHICAL
DISTRIBUTION — PERCENT OF                                     DISTRIBUTION — PERCENT OF
TOTAL RMBS, AS OF 12/31/2011                                  TOTAL CMBS, AS OF 12/31/2011

     40%                                                           15%
              41%                                                           16%


     30
                                                                   10                   11%

     20                                                                                               8%          8%

                                                                     5
     10
                          8%          7%
       0                                         4%                  0
              CA          FL          NY          VA                        CA           NY           TX          FL

Notes: Only states with the largest representation shown.     Notes: Only states with largest representation shown. Calculated
Calculated based on monthly data supplied by PPIF managers.   based on monthly data supplied by the PPIF managers.

Source: PPIF Monthly Performance Reports, December 2011.      Source: PPIF Monthly Performance Reports, December 2011.


   Non-agency RMBS and CMBS can also be classified by the delinquency of
the underlying mortgages. Figure 2.9 and Figure 2.10 show the distribution of
non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
reported by PPIP managers.

Figure 2.9                                                    Figure 2.10

AGGREGATE AVERAGE RMBS                                        AGGREGATE AVERAGE CMBS
DELINQUENCIES BY MARKET VALUE,                                DELINQUENCIES BY MARKET VALUE,
AS OF 12/31/2011                                              AS OF 12/31/2011
Percentage of $15.3 Billion                                   Percentage of $5.1 Billion

60+ Days                                                                             60+ Days
(FCL/REO included)
                                                              1% 30 − 59 Days
                                                                                     10%
                   28%




30 − 59      3%                       69%      Current
Days
                                                                                              89%           Current



Notes: Numbers affected by rounding. Calculated based on      Notes: Numbers affected by rounding. Calculated based on
monthly data supplied by the PPIF managers.                   monthly data supplied by the PPIF managers.

Source: PPIF Monthly Performance Reports, December 2011.      Source: PPIF Monthly Performance Reports, December 2011.
132            special inspector general I troubled asset relief program




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
                                                      Business Administration (“SBA”) Loan Support Initiative
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
      7(a) Loan Program: SBA loan program
                                                      Businesses (“UCSB”) program, which according to Treasury was designed to
      guaranteeing a percentage of loans for
                                                      encourage banks to increase lending to small businesses. Through UCSB, Treasury
      small businesses that cannot otherwise
                                                      purchased $368.1 million in securities backed by pools of loans from the Small
      obtain conventional loans at reasonable
                                                      Business Administration’s (“SBA”) 7(a) Loan Program.509
      terms.
                                                          Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
                                                      (“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
      Pool Assemblers: Firms authorized
                                                      March 2, 2010, and August 27, 2010, respectively.510 Under the governing agree-
      to create and market pools of SBA-
                                                      ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
      guaranteed loans.
                                                      from Coastal Securities and Shay Financial without confirming to the counterpar-
                                                      ties that Treasury was the buyer.511 From March 19, 2010, to September 28, 2010,
      SBA Pool Certificates: Ownership
                                                      Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
      interest in a bond backed by SBA-
                                                      Shay Financial for a total of approximately $368.1 million.512
      guaranteed loans.
                                                          On June 2, 2011, Treasury announced its intention to sell the SBA 7(a) securi-
                                                      ties portfolio over time using a competitive sales process through its financial agent,
                                                      EARNEST Partners.513 According to Treasury, there is no fixed timeframe for the
                                                      sales; the timing and pace of the sales are subject to market conditions.514 One sale
      For more information on SBA 7(a)                was held in the quarter ended December 31, 2011. On October 19, 2011, Treasury
      Loan Program mechanics and                      sold seven SBA 7(a) securities for approximately $58 million, which according to
      TARP support for the program, see               Treasury represented an overall gain of approximately $1.3 million.515
      SIGTARP’s April 2010 Quarterly                      As of December 31, 2011, Treasury had completed sales of a total of 23 SBA
      Report, pages 105-106.                          7(a) securities, for total proceeds of $271.7 million.516 As of December 31, 2011,
                                                      Treasury had received $27.6 million and $12.8 million in amortizing principal and
                                                      interest payments, respectively.517 Eight SBA 7(a) securities remain in Treasury’s
                                                      portfolio. Treasury purchased these eight securities for $64.4 million.
                                                          Table 2.36 shows the CUSIPs the investment amounts for the securities
                                                      Treasury bought, the sales proceeds, and other proceeds received by Treasury.
                                                                                                                     quarterly report to congress I January 26, 2012   133




TABLE 2.36
 FLOATING-RATE SBA 7(A) SECURITIES, AS OF 12/31/2011                                           ($ millions)

                                                                                            Total Proceeds Received by Treasury
 Purchase                                                               Investment                Sale            Principal, Interest, and           Gain After
 Date                 CUSIP               Pool Assembler                   Amounta            Proceeds                  Other Proceedsb                   Sale
3/19/2010             83164KYN7           Coastal Securities                     $4.4                $3.5                                   $1.1              $0.2
3/19/2010             83165ADC5           Coastal Securities                       8.3                 6.5                                    2.1              0.3
3/19/2010             83165ADE1           Coastal Securities                       8.7                 6.6                                    2.4              0.2
4/8/2010              83165AD84           Coastal Securities                     26.0                25.0                                     2.3              1.3
4/8/2010              83164KZH9           Coastal Securities                       9.6                 7.0                                    2.8              0.2
5/11/2010             83165AEE0           Coastal Securities                     11.5                10.6                                     1.3              0.3
5/11/2010             83164K2Q5           Coastal Securities                     14.2                13.9                                     0.8              0.6
5/11/2010             83165AED2           Coastal Securities                       9.7                 9.5                                    0.6              0.4
5/25/2010             83164K3B7           Coastal Securities                       9.3                 9.0                                    0.5              0.2
5/25/2010             83165AEK6           Coastal Securities                     18.8                16.7                                     2.8              0.6
6/17/2010             83165AEQ3           Coastal Securities                     38.3                36.1                                     3.1              0.9
6/17/2010             83165AEP5           Coastal Securities                     31.7                29.1                                     3.5              1.0
7/14/2010             83164K3Y7           Coastal Securities                       6.4                 6.1                                    0.5              0.1
7/14/2010             83164K4J9           Coastal Securities                       7.5                 7.1                                    0.6              0.2
7/14/2010             83165AE42           Coastal Securities                     14.8                14.2                                     0.9              0.3
7/29/2010             83164K4E0           Coastal Securities                       2.8                                                        0.7
7/29/2010             83164K4M2           Coastal Securities                     10.4                10.2                                     0.4              0.2
8/17/2010             83165AEZ3           Coastal Securities                       9.2                 7.1                                    2.2              0.1
8/17/2010             83165AFB5           Coastal Securities                       5.5                 5.0                                    0.6              0.1
8/17/2010             83165AE91           Coastal Securities                     11.1                10.0                                     1.4              0.3
8/31/2010             83165AEW0           Shay Financial                         10.3                  9.2                                    1.3              0.2
8/31/2010             83165AFA7           Shay Financial                         11.7                11.3                                     0.7              0.3
8/31/2010             83164K5H2           Coastal Securities                       7.3                                                        0.7
9/14/2010             83165AFC3           Shay Financial                         10.0                                                         1.6
9/14/2010             83165AFK5           Shay Financial                           8.9                                                        1.2
9/14/2010             83164K5F6           Coastal Securities                       6.1                                                        0.4
9/14/2010             83164K5L3           Coastal Securities                       6.4                                                        0.8
9/28/2010             83164K5M1           Coastal Securities                       3.8                 3.7                                    0.2              0.1
9/28/2010             83165AFT6           Coastal Securities                     13.1                                                         1.3
9/28/2010             83165AFM1           Shay Financial                         15.3                14.4                                     1.0              0.1
9/28/2010             83165AFQ2           Shay Financial                         17.1                                                         0.9
Total Investment Amount                                                      $368.1              $271.7                                   $40.6               $8.3
 Notes: Numbers affected by rounding.
 a
   Investment amounts may include accrued principal interest.
 b
   Other proceeds include proceeds from Senior Securities, which are senior debt instruments that Treasury acquired from the seller of each security.
 Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report 1/10/2012; Treasury, responses to SIGTARP data call, 12/16/2010,
 1/14/2011, 4/6/2011, 7/13/2011, 10/11/2011, 1/5/2012 and 1/10/2012.
134   special inspector general I troubled asset relief program




                                             AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
                                             During the financial crisis, Treasury, through TARP, launched three automotive
                                             industry support programs: the Automotive Industry Financing Program (“AIFP”),
                                             the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
                                             Program (“AWCP”). According to Treasury, these programs were established “to
                                             prevent a significant disruption of the American automotive industry that poses
                                             a systemic risk to financial market stability and will have a negative effect on the
                                             economy of the United States.”518
                                                 AIFP has not expended any TARP funds for the automotive industry since
                                             December 30, 2009, when GMAC Inc. (“GMAC”), now Ally Financial Inc. (“Ally
                                             Financial”), received a $3.8 billion capital infusion.519 ASSP, designed to “ensure
                                             that automotive suppliers receive compensation for their services and products,”
                                             was terminated in April 2010 after all $413.1 million in loans made through it were
                                             fully repaid.520 AWCP, a $640.7 million program, was designed to assure car buyers
                                             that the warranties on any vehicles purchased during the bankruptcies of General
                                             Motors Corp. (“Old GM”) and Chrysler LLC (“Old Chrysler”) would be guaran-
                                             teed by the Government. It was terminated in July 2009 after all loans under the
                                             program were fully repaid upon the companies’ emergence from bankruptcy.521
                                                 Treasury obligated approximately $84.8 billion through these three programs to
                                             Old GM and General Motors Company (“New GM” or “GM”), Ally Financial, the
                                             Chrysler entities (Chrysler Holding LLC [now called CGI Holding LLC], Chrysler
                                             LLC [collectively, with CGI Holding LLC, “Old Chrysler”], and Chrysler Group
                                             LLC [“New Chrysler”]), and Chrysler Financial Services Americas LLC (“Chrysler
                                             Financial”).522 Treasury originally obligated $5 billion under ASSP but adjusted this
                                             amount to $413.1 million to reflect actual borrowings, thereby reducing at that
                                             time the total obligation for all automotive industry support programs to approxi-
                                             mately $81.8 billion (including approximately $2.1 billion in loan commitments to
                                             New Chrysler that were never drawn down).523 As of December 31, 2011, Treasury
                                             had received approximately $35.4 billion in principal repayments, proceeds from
                                             preferred stock redemptions, and stock sale proceeds in addition to $4.6 billion in
                                             dividends and interest.524 The amount and types of Treasury’s outstanding AIFP
                                             investments have changed over time as a result of principal repayments, preferred
                                             stock redemptions by the issuer, Treasury’s sale of common stock, old loan conver-
                                             sions (into equity), and post-bankruptcy restructurings. Treasury now holds 32%
                                             of the common equity in New GM. Treasury also holds an administrative claim
                                             in Old GM’s bankruptcy with an outstanding principal amount of approximately
                                             $855.9 million based on loans made to Old GM. However, according to Treasury,
                                             it does not expect to recover any significant additional proceeds from this claim.525
                                             Additionally, Treasury holds $5.9 billion in mandatorily convertible preferred shares
                                             (“MCP”) and 74% of the common equity in Ally Financial. On July 21, 2011,
                                             Treasury sold to Fiat North America LLC (“Fiat”) Treasury’s remaining equity
                                             ownership interest in New Chrysler and Treasury’s rights to receive proceeds under
                                             an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to
                                             the trust’s shares in New Chrysler. Treasury retains the right to recover certain
                                                                                                                             quarterly report to congress I January 26, 2012   135




proceeds from Old Chrysler’s bankruptcy but, according to Treasury, it is unlikely to
fully recover this claim.
    Treasury’s investments in these three programs and the companies’ payments
of principal are summarized in Table 2.37 and, for Chrysler and GM, categorized
by the timing of the investment in relation to the companies’ progressions through
bankruptcy.

Table 2.37
 TARP Automotive programs expenditures and payments,
 AS OF 12/31/2011 ($ BILLIONS)
                                                                         Chrysler             Ally Financial Inc.
                                    Chryslera                GMb         Financial            (formerly GMAC)d                   Total
 Pre-Bankruptcy
     AIFP                                  $4.0           $19.4                 $1.5                            $17.2           $42.1
     ASSP    c
                                             0.1              0.3                                                                   0.4
     AWCP                                    0.3              0.4                                                                   0.6
     Subtotal                             $4.4            $20.1                 $1.5                           $17.2           $43.1
 In-Bankruptcy
 (DIP Financing)
     AIFP                                  $1.9           $30.1                                                                 $32.0
     Subtotal                             $1.9            $30.1                                                                $32.0
 Post-Bankruptcy
 (Working Capital)
     AIFP                                  $4.6                                                                                   $4.6
     Subtotal                             $4.6                                                                                   $4.6
 Subtotals by Program:
     AIFP                                                                                                                       $78.7
     ASSP                                                                                                                           0.4
     AWCP                                                                                                                           0.6
 Total Expenditures                     $10.9             $50.2                 $1.5                           $17.2           $79.7
 Principal Repaid to
                                         ($8.0)          ($23.2)               ($1.5)                          ($2.7)e        ($35.4)
 Treasury
 Net Expenditures                         $2.9            $27.0                 $0.0                           $14.5           $44.3
 Total Loss on
                                          $2.9                                                                                   $2.9
 Investment
 Notes: Numbers may not total due to rounding.
 a
   Total repayments including Treasury’s sale to Fiat of its equity ownership interest in New Chrysler and Treasury’s rights to receive
   proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pretaining to the trust’s share in New Chrylser for
   $560 million on July 21, 2011.
 b
   Including GM’s debt payments of $50 million on March 31, 2011, $45 million on April 5, 2011, approximately $15.9 million on May
   3, 2011, approximately $0.01 million on December 16, 2011, and approximately $18.9 million on December 23, 2011.
 c
   The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated $5
   billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
 d
   Total expenditures include $884 million loan to Old GM, which Old GM invested in GMAC in January 2009.
 e
   On March 2, 2011, Treasury entered into an underwriting offering of its Ally Financial TRUPS, which resulted in approximately $2.7
   billion in total proceeds to Treasury.

 Source: Treasury, Transactions Report, 1/4/2012.
136   special inspector general I troubled asset relief program




                                             Automotive Industry Financing Program
                                             Treasury provided $79.7 billion through AIFP to support automakers and
                                             their financing arms in order to “avoid a disorderly bankruptcy of one or more
                                             auto[motive] companies.”526 As of December 31, 2011, Treasury had received
                                             approximately $4.6 billion in dividends and interest from participating com-
                                             panies.527 Of AIFP-related loan principal repayments and share sale proceeds,
                                             Treasury has received approximately $22.5 billion related to its GM investment,
                                             $7.6 billion related to its Chrysler investment, $2.7 billion related to its Ally
                                             Financial/GMAC investment, and $1.5 billion related to its Chrysler Financial
                                             investment.528 As discussed below, additional payments of $640.7 million and
                                             $413.1 million, respectively, were received under AWCP and ASSP.529

                                             GM
                                             Through December 31, 2011, Treasury had provided approximately $49.5 billion to
                                             GM through AIFP. Of that amount, $19.4 billion was provided before bankruptcy
                                             and $30.1 billion was provided as financing during bankruptcy. During bankruptcy
                                             proceedings, Treasury’s loans were converted into common or preferred stock
                                             in New GM or debt assumed by New GM. As a result of Old GM’s bankruptcy,
                                             Treasury’s investment in Old GM was converted to a 60.8% common equity stake
                                             in New GM, $2.1 billion in preferred stock in New GM, and a $7.1 billion loan
                                             to New GM ($6.7 billion through AIFP and $360.6 million through AWCP). As
                                             part of a credit agreement with Treasury, $16.4 billion in TARP funds was placed
                                             in an escrow account that GM could access only with Treasury’s permission.530
                                             In addition, Treasury has a claim in Old GM’s bankruptcy but does not expect to
                                             recover any significant additional proceeds from this claim.531

                                             Debt Repayments
                                             As of December 31, 2011, the GM entities had made approximately $756.7 million
                                             in dividend and interest payments to Treasury under AIFP.532 New GM repaid the
                                             $6.7 billion loan provided through AIFP with interest, using a portion of the escrow
                                             account that had been funded with TARP funds. What remained in escrow was
                                             released to New GM with the final debt payment by New GM.533

                                             Sale of GM Common Stock and GM’s Repurchase of Preferred Shares from
                                             Treasury
                                             In November and December 2010, New GM successfully completed an initial
                                             public offering (“IPO”) in which New GM’s shareholders sold 549.7 million shares
                                             of common stock and 100 million shares of Series B mandatorily convertible
                                             preferred shares (“MCP”) for total gross proceeds of $23.1 billion.534 As part of the
                                             IPO, Treasury sold 412.3 million common shares for $13.5 billion in net proceeds
                                             (after taking into account underwriting fees associated with the IPO), reducing its
                                             number of common shares to 500.1 million and its ownership in New GM from
                                             60.8% to 33.3%.535 On December 15, 2010, GM repurchased Treasury’s Series A
                                             preferred stock (83.9 million shares) for total proceeds of $2.1 billion and a capital
                                             gain to Treasury of approximately $41.9 million.536 On January 13, 2011, Treasury’s
                                                                              quarterly report to congress I January 26, 2012    137




ownership in GM was diluted from 33.3% to 32% as a result of GM contributing
61 million of its common shares to fund GM’s hourly and salaried pension plans.537
     In order to recoup its total investment in GM, Treasury will need to recover an
additional $27 billion in proceeds. This translates to an average of $53.98 per share
on its remaining common shares in New GM, not taking into account dividend
and interest payments received from the GM entities.538 The break-even price
— $53.98 per share — is calculated by dividing the $27 billion (the amount that
remains outstanding to Treasury) by the 500.1 million remaining common shares                 For more on the results of
owned by Treasury. If the $756.7 million in dividends and interest received by                GM’s November 2010 IPO, see
Treasury is included in this computation, then Treasury will need to recover $26.2            SIGTARP’s January 2011 Quarterly
billion in proceeds, which translates into a break-even price of $52.39 per share,            Report, page 163.
not taking into account other fees or costs associated with selling the shares.

Chrysler
Through October 3, 2010, Treasury made approximately $12.5 billion available to
Chrysler directly through AIFP in three stages to three corporate entities: $4 billion
before bankruptcy to CGI Holding LLC — the parent company of Old Chrysler
(the bankrupt entity) — and Chrysler Financial; approximately $1.9 billion in
financing to Old Chrysler during bankruptcy; and approximately $6.6 billion to
New Chrysler.539 In consideration for its assistance to Chrysler, Treasury received
9.9% of the common equity in New Chrysler.
    On April 30, 2010, following the bankruptcy court’s approval of the plan of
liquidation for Old Chrysler, the approximately $1.9 billion loan was extinguished
without repayment. In return, Treasury retained the right to recover proceeds
from the sale of assets that were collateral for the loan from the liquidation of Old
Chrysler assets.540 According to Treasury, it is unlikely to fully recover its initial
investment of approximately $1.9 billion related to the loan.541 As of December 31,
2011, Treasury had recovered approximately $48.1 million from asset sales by Old
Chrysler.542 Of the $4 billion lent to Old Chrysler’s parent company, CGI Holding
LLC, before bankruptcy, $500 million of the debt was assumed by New Chrysler
while the remaining $3.5 billion was held by CGI Holding LLC.543 Under the
terms of this loan agreement, as amended on July 23, 2009, Treasury was entitled
to the greater of approximately $1.4 billion or 40% of any proceeds that Chrysler
Financial paid to its parent company, CGI Holding LLC, after certain other dis-
tributions were made.544 On May 14, 2010, Treasury accepted $1.9 billion in full
satisfaction of its $3.5 billion loan to CGI Holding LLC.545
    On May 24, 2011, New Chrysler used the proceeds from a series of refinanc-
ing transactions and an equity call option exercised by Fiat to repay the loans
from Treasury and the Canadian government.546 The repaid loans were made up
of approximately $6.6 billion in post-bankruptcy financing (of which $2.1 billion
was never drawn down), and the $500 million in debt assumed by New Chrysler.547
Treasury terminated New Chrysler’s ability to draw the remaining approximately
$2.1 billion TARP loan.548
    Over time, Fiat increased its ownership of New Chrysler. On July 21, 2011,
Treasury sold to Fiat for $500 million Treasury’s remaining equity ownership
138   special inspector general I troubled asset relief program




                                             interest in New Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights
                                             to receive proceeds under an agreement with the United Auto Workers retiree trust
                                             pertaining to the trust’s shares in New Chrysler.549 Treasury also retains the right to
                                             recover proceeds from Old Chrysler’s bankruptcy, but, according to Treasury, it is
                                             unlikely to fully recover its $1.9 billion loan.
                                                 As of July 21, 2011, the Chrysler entities made approximately $1.2 billion in
                                             interest payments to Treasury under AIFP.550

                                             Automotive Financing Companies
                                             Ally Financial, formerly known as GMAC
                                             On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
                                             from GMAC and received an additional $250 million in preferred shares through
                                             warrants that Treasury exercised immediately at a cost of $2,500.551 In January
                                             2009, Treasury loaned Old GM $884 million, which it invested in GMAC.552 In
                                             May 2009, Treasury exchanged this $884 million debt for a 35.4% common equity
                                             ownership in GMAC.553
                                                  On May 21, 2009, Treasury made an additional investment in GMAC when it
                                             purchased $7.5 billion of MCP and received warrants that Treasury immediately
                                             exercised for an additional $375 million in MCP at an additional cost of ap-
                                             proximately $75,000.554 On December 30, 2009, Treasury invested another $3.8
                                             billion in GMAC, and Treasury received $2.5 billion in trust preferred securities
                                             (“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants, which were
                                             immediately exercised, to purchase an additional $127 million in TRUPS and
                                             $62.5 million in MCP at an additional cost of approximately $1,270 and $12,500,
                                             respectively.555 Additionally, Treasury converted $3 billion of its MCP into GMAC
                                             common stock, increasing its common equity ownership from 35.4% to 56.3%.556
                                             On May 10, 2010, GMAC changed its name to Ally Financial Inc.557
                                                  On December 30, 2010, Treasury announced the conversion of $5.5 billion of
                                             its MCP in Ally Financial to common equity, increasing Treasury’s ownership stake
                                             in Ally Financial’s common equity from 56.3% to 73.8%.558 As a result, Treasury will
                                             no longer receive the quarterly dividend payments that Ally Financial was required
                                             to pay on the $5.5 billion of MCP. On March 7, 2011, Treasury sold its $2.7 bil-
                                             lion in TRUPS in Ally Financial in a public offering, resulting in $2.7 billion total
                                             proceeds to Treasury.559
                                                  As a result of its conversion of MCP to common stock in Ally Financial, and
                                             for as long as Treasury maintains common equity ownership at or above 70.8%,
                                             Treasury has the right to appoint two additional directors, in addition to the four
                                             Treasury has already appointed to Ally Financial’s board, increasing the size of the
                                             board to 11 members.560 As of December 31, 2011, Treasury had not exercised its
                                             right to fill its remaining two director positions.561 The conversion of $5.5 billion of
                                             Treasury’s MCP diluted the shares of other existing shareholders in Ally Financial.
                                             Following the conversion, the private equity firm Cerberus Capital Management,
                                             L.P. (“Cerberus”) held 8.7%, third-party investors collectively held 7.6%, an inde-
                                             pendently managed trust owned by New GM held 5.9%, and New GM directly
                                                                                                                              quarterly report to congress I January 26, 2012                                 139




held a 4% stake in Ally Financial’s common equity.562 Figure 2.11 shows the break-                                                            Figure 2.11
down of common equity ownership in Ally Financial as of December 31, 2011.                                                                    OWNERSHIP IN ALLY FINANCIAL/GMAC

Proposed Ally Financial IPO                                                                                                                                 New GM 4%
                                                                                                                                               GM Trust
On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
                                                                                                                                             Third-Party
an IPO with the Securities and Exchange Commission (“SEC”).563 The document                                                                   Investors               6%
                                                                                                                                                                 8%
includes a prospectus relating to the issuance of Ally Financial common stock.564
The prospectus also outlines certain aspects of Ally Financial’s business operations                                                          Cerberus       9%                                    United States
                                                                                                                                                                                         74%       Department
and risks facing the company.565                                                                                                                                                                   of the
                                                                                                                                                                                                   Treasury
    Ally Financial stated that the IPO would consist of “common stock to be sold by
the U.S. Department of the Treasury.”566 On May 17, 2011, June 3, 2011, June 29,
2011, August 18, 2011, and December 2, 2011, Ally Financial disclosed additional
                                                                                                                                              Note: Numbers may not total due to rounding.
details about its upcoming IPO in amended Form S-1 Registration statements filed
                                                                                                                                              Note: Numbers may not total due to rounding.
with the SEC.567 Concurrent with the IPO, Treasury plans to convert $2.9 billion                                                              Source: Ally Financial, Inc.: “Ownership Structure,” media.ally.
                                                                                                                                              com/index.php?s=51, accessed 1/18/2012.
                                                                                                                                              Source: : Ally Financial, Inc.: “Ownership Structure,” media.ally.com/index.php
of its existing $5.9 billion of MCP into common stock.568 Treasury will exchange
the remaining $3 billion of its MCP into so-called tangible equity units, a type of
preferred stock, and will offer a portion of these tangible equity units alongside the
common equity offering.569 Treasury agreed to be named as a seller but retained the
right to decide whether to sell any of its 73.8% ownership of Ally Financial’s com-
mon stock and in what amounts.570
    As of December 31, 2011, Treasury still held approximately $14.5 billion in
Ally Financial/GMAC, composed of 73.8% of Ally Financial’s common stock and
$5.3 billion in MCP.571 Treasury also exercise warrants at a cost of $90,015 to
purchase securities with a par value of approximately $688 million: $250 million
in preferred shares (which were later converted to MCP) and $438 million in ad-
ditional MCP.572 This brought Treasury’s total holdings in Ally Financial securities
to a par value of approximately $15.3 billion, from its approximately $14.5 billion
TARP investment.573 Table 2.38 summarizes Treasury’s Ally Financial holdings as of
December 31, 2011.

Table 2.38
 Treasury holdings in Ally Financial (formerly GMAC)
 AS OF 12/31/2011 ($ BILLIONS)
                                                                                                                                  Total
 Mandatorily Convertible Preferred Shares (MCP)                                                                                  $5.9a
 Common Equity                                                                                                                     9.4b
 Total                                                                                                                         $15.3c
 Notes: Numbers affected by rounding.
 a
   This figure includes three separate tranches of MCP acquired via the exercise of warrants: $250 million in warrants that were
   exercised to acquire preferred shares that were later converted to MCP on December 30, 2009, $375 million in MCP warrants
   exercised on May 21, 2009, and $63 million in MCP warrants exercised on December 30, 2009.
 b
   The dollar value of Treasury’s 73.8% stake in Ally Financial’s common equity is based on the costs to acquire such a stake, including
   the conversion of the GM rights loan of $884 million in May 2009, the $3 billion of MCP in December 2009, and the $5.5 billion of
   MCP in December 2010.
 c
   This figure includes $687.5 million in shares acquired by the exercise of the warrants discussed above. These warrants were
   exercised at an aggregate cost of $90,015 to the taxpayer.

 Sources: Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.
 treasury.gov/press-center/press-releases/Pages/tg1014.aspx, accessed 1/5/2012; Ally Financial, Form 8-K, 1/5/2010, www.
 sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 1/5/2012; Treasury Press Release, “Treasury
 Announces Pricing of $2.7 Billion of Ally TRuPs,” 3/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1086.aspx,
 accessed 1/5/2012.
140   special inspector general I troubled asset relief program




                                                 As of December 31, 2011, Ally Financial had made approximately $2.6 billion
                                             in dividend and interest payments to Treasury.574

                                             Chrysler Financial
                                             In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
                                             support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
                                             fully repaid the loan in addition to approximately $7.4 million in interest
                                             payments.575 In connection with the $3.5 billion pre-bankruptcy loan remaining
                                             with CGI Holding LLC, the parent company of Old Chrysler (the bankrupt entity)
                                             and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
                                             billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
                                             CGI Holding LLC, after certain other distributions were made.576 On May 14,
                                             2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
                                             to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
                                             Financial.577 Seven months later, on December 21, 2010, TD Bank Group
                                             announced it had agreed to purchase Chrysler Financial from Cerberus, the owner
                                             of CGI Holding LLC, for approximately $6.3 billion.578 TD Bank Group completed
                                             its acquisition of Chrysler Financial on April 1, 2011, and has rebranded Chrysler
                                             Financial under the TD Auto Finance brand.579

                                             Auto Supplier Support Program (“ASSP”)
                                             On March 19, 2009, Treasury announced a commitment of $5 billion to
                                             ASSP to “help stabilize the automotive supply base and restore credit flows in a
                                             critical sector of the American economy.”580 Because of concerns about the auto
                                             manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
                                             from banks by using their receivables as collateral. ASSP enabled automotive
                                             parts suppliers to access Government protection for money owed to them for the
                                             products they shipped to manufacturers. Under the program, Treasury made loans
                                             for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid in
                                             April 2010.581

                                             Auto Warranty Commitment Program (“AWCP”)
                                             AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
                                             and GM vehicle warranties during the companies’ restructuring in bankruptcy.582
                                             Treasury obligated $640.7 million to this program — $360.6 million for GM
                                             and $280.1 million for Chrysler.583 On July 10, 2009, the companies fully repaid
                                             Treasury upon their exit from bankruptcy.584
                                                                            quarterly report to congress I January 26, 2012           141




EXECUTIVE COMPENSATION
TARP recipients are subject to executive compensation restrictions. The original
executive compensation rules set forth in Section 111 of EESA were amended
in February 2009 in the American Recovery and Reinvestment Act of 2009
(the “Recovery Act”) and have been interpreted and implemented by Treasury
regulations and notices.585 On June 10, 2009, Treasury released its Interim Final
Rule on TARP Standards for Compensation and Corporate Governance (the
“Rule”), which implements the Recovery Act and consolidates all of the executive-
compensation-related provisions that are specifically directed at TARP recipients           Exceptional Assistance Recipients:
into a single rule.586                                                                      Companies that receive assistance
    The Rule applies to institutions that meet its definition of a TARP recipient           under SSFI, TIP, and AIFP. Current
as well as any entity that owns at least 50% of any TARP recipient. As long as a            recipients are AIG, GM, and Ally
TARP recipient has an outstanding “obligation” to Treasury (not including warrants          Financial (formerly GMAC).
to purchase common stock), it must abide by the Rule.587 The Rule also specifi-
cally subjects exceptional assistance recipients to enhanced restrictions and to the
purview of the Office of the Special Master for TARP Executive Compensation                 For more information on
(“OSM”).588                                                                                 executive compensation issues
    Some program participants are exempt from the Rule:                                     and findings, refer to SIGTARP
                                                                                            audit reports: “Despite Evolving
•	 TALF recipients, because they did not directly receive TARP assistance (instead,         Rules on Executive Compensation,
   TARP funds are available to purchase collateral surrendered to TALF)589                  SIGTARP Survey Provides
•	 PPIFs, because they have no employees. In addition, PPIF investors and asset             Insights on Compliance,” issued
   managers are exempt because the program’s terms prohibit any single private              August 19, 2009, and “Extent
   entity from owning more than 9.9% of any such fund and, therefore, fall below            of Federal Agencies’ Oversight of
   the 50% ownership threshold590                                                           AIG Compensation Varied, and
•	 Making Home Affordable (“MHA”) program participants, which are statutorily               Important Challenges Remain,”
   exempt                                                                                   issued October 14, 2009.

Special Master
The Rule created OSM on June 15, 2009, and Treasury appointed Kenneth                       Senior Executive Officers (“SEOs”):
R. Feinberg as the Special Master; Mr. Feinberg was succeeded by Patricia                   A company’s Chief Executive Officer,
Geoghegan, who became Acting Special Master on September 10, 2010.591 The                   Chief Financial Officer, and three most
Special Master’s responsibilities include the following:592                                 highly compensated employees.

•	 Top 25 Employees — approve annual compensation for the five senior
   executive officers (“SEOs”) and the next 20 most highly paid employees at                For a discussion of how OSM
   institutions that received exceptional financial assistance                              approves annual compensation for
•	 Top 26-100 Employees — review and approve compensation structures for                    the Top 25 employees, see SIGTARP
   the next 75 highest-paid employees at institutions that received exceptional             report, “The Special Master’s
   financial assistance                                                                     Determinations for Executive
•	 Look Back Reviews — review bonuses and other compensation paid to                        Compensation of Companies
   the top 25 employees of TARP recipients prior to February 17, 2009, and                  Receiving Exceptional Assistance
   seek to negotiate reimbursements where the payment was determined to be                  Under TARP,” issued in January
   inconsistent with the purposes of EESA or TARP, or otherwise contrary to the             2012.
142   special inspector general I troubled asset relief program




                                                public interest. OSM completed the look back review on July 23, 2010, and
                                                determined that no payments were contrary to the public interest. Therefore,
                                                OSM did not seek to negotiate reimbursement of any payment.
                                             •	 Interpretation — provide advisory opinions with respect to the Rule’s
                                                application and whether compensation payments and structures were
                                                inconsistent with the purposes of EESA or TARP, or otherwise contrary to the
                                                public interest

                                             Exceptional Assistance Recipients
                                             As of December 31, 2011, only AIG, GM, and Ally Financial (formerly GMAC)
                                             were still considered exceptional assistance recipients.593 Citigroup and Bank of
                                             America repaid TIP in December 2009.594 Chrysler Financial repaid its $1.5 billion
                                             loan under AIFP and its parent company, CGI Holding LLC, repaid $1.9 billion
                                             of its original $4 billion TARP loan under AIFP to Treasury on May 14, 2010.595
                                             Chrysler Group LLC exited TARP on July 21, 2011.596
             TARP OPERATIONS AND
Sect ion 3
             ADMINISTRATION
144   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I January 26, 2012   145




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.597 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.598 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.


TARP Administrative and Program
Expenditures
As of December 31, 2011, Treasury has obligated $279.8 million for TARP
administrative costs and $825.7 million in programmatic expenditures for a total
of $1.1 billion. According to Treasury, as of December 31, 2011, it had spent
$234.7 million on TARP administrative costs and $599.1 million on programmatic
expenditures, for a total of $833.8 million.599 Treasury reported that it employs
86 career civil servants, 99 term appointees, and 24 reimbursable detailees, for a
total of 209 full-time employees.600 Table 3.1 provides a summary of the expendi-
tures and obligations for TARP administrative costs through December 31, 2011.
These costs are categorized as “personnel services” and “non-personnel services.”
146   special inspector general I troubled asset relief program




                                             Table 3.1

                                             TARP Administrative expenditures and obligations
                                                                                                               Obligations for Period Expenditures for Period
                                             Budget Object Class Title                                          Ending 12/31/2011        Ending 12/31/2011
                                             Personnel Services
                                                 Personnel Compensation & Benefits                                           $81,602,676                           $81,434,016
                                             Total Personnel Services                                                      $81,602,676                           $81,434,016


                                             Non-Personnel Services
                                                 Travel & Transportation of Persons                                            $1,560,498                            $1,523,370
                                                 Transportation of Things                                                            11,960                                11,960
                                                 Rents, Communications, Utilities & Misc.                                          818,132                               680,970
                                                 Charges
                                                 Printing & Reproduction                                                                  402                                    402
                                                 Other Services                                                              194,260,517                           149,485,872
                                                 Supplies & Materials                                                            1,334,222                             1,326,722
                                                 Equipment                                                                         253,286                               239,080
                                                 Land & Structures                                                                          —                                     —
                                                 Dividends and Interest                                                                   142                                    142
                                             Total Non-Personnel Services                                                $198,239,159                          $153,268,517
                                             Grand Total                                                                 $279,841,835                          $234,702,534
                                             Notes: Numbers affected by rounding. The cost associated with “Other Services” under TARP Administrative Expenditures and
                                             Obligations are composed of administrative services including financial, administrative, IT and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 1/6/2012.
                                                                             quarterly report to congress I January 26, 2012   147




Current Contractors and
Financial Agents
As of December 31, 2011, Treasury had retained 129 private vendors: 18 finan-
cial agents and 111 contractors, to help administer TARP.601 Table 3.2 provides a
summary of the programmatic expenditures, which include costs to hire financial
agents and contractors, and obligations through December 31, 2011, excluding
costs and obligations related to personnel services and travel and transportation.
Although Treasury has informed SIGTARP that it “does not track” the number of
individuals who provide services under its agreements, the number likely dwarfs the
209 that Treasury has identified as working for OFS.602 For example, on October
14, 2010, the Congressional Oversight Panel (“COP”) reported that “Fannie Mae
alone currently has 600 employees working to fulfill its TARP commitments.”603

Asset Managers
EESA requires SIGTARP to provide biographical information for each person or
entity hired to manage assets acquired through TARP.604
Houlihan Lokey Capital, Inc.
On November 29, 2011, Treasury hired Houlihan Lokey, Inc. (“Houlihan Lokey”)
as a financial agent to provide services related to the management and disposition
of certain CPP investments.605 Under the terms of the financial agency agreement,
Treasury will pay Houlihan Lokey a flat fee of $375,000 per month for a term of 12
months, for a total of $4.5 million for the year, with the option to extend the term
of the agreement for an additional six months.606
    According to Treasury, “Houlihan Lokey is a global, advisory-focused investment
bank providing services relating to capital markets, mergers and acquisitions, and
restructuring.”607
    Treasury stated that Houlihan Lokey will perform duties including, but not
limited to, the following:608

•	 “Analyzing, reviewing and documenting financial, business, regulatory, and
   market information related to potential transactions of CPP investments;
•	 “Advising and monitoring restructuring strategies prior to the disposition of
   CPP investments;
•	 “Reporting on the potential performance of certain CPP investments and their
   disposition given a range of market scenarios and transaction structures;
•	 “Analyzing and proposing disposition alternatives and structures, including the
   use of additional underwriters, brokers, or other capital markets advisors for the
   best means and structure to dispose of such assets; and
•	 “Maintaining a compliance program designed to detect and prevent violations of
   Federal securities laws, and identifying documenting and enforcing controls to
   mitigate conflicts of interest.”
148           special inspector general I troubled asset relief program



      table 3.2

      OFS SERVICE CONTRACTS
                                                                                                       Type of            Obligated      Expended
      Date          Vendor                                Purpose                                      Transaction            Value          Value
                                                          Legal services for the implementation of
      10/10/2008    Simpson Thacher & Bartlett MNP LLP                                                 Contract           $931,090        $931,090
                                                          TARP
      10/11/2008    Ennis Knupp & Associates Inc.1        Investment and Advisory Services             Contract           2,470,242      2,470,242
                    The Bank of New York Mellon
      10/14/2008                                          Custodian                                    Financial Agent   49,555,349     41,134,525
                    Corporation
      10/16/2008    PricewaterhouseCoopers                Internal control services                    Contract          32,806,597     30,638,996
                                                                                                       Interagency
      10/17/2008    Turner Consulting Group, Inc.2        For process mapping consultant services                             9,000              —
                                                                                                       Agreement
      10/18/2008    Ernst & Young LLP                     Accounting Services                          Contract          14,550,519     13,614,390
                                                          Legal services for the Capital Purchase
      10/29/2008    Hughes Hubbard & Reed LLP                                                          Contract           3,060,921      2,835,357
                                                          Program
                                                          Legal services for the Capital Purchase
      10/29/2008    Squire, Sanders & Dempsey LLP                                                      Contract           2,687,999      2,687,999
                                                          Program
      10/31/2008    Lindholm & Associates, Inc.           Human resources services                     Contract            614,963         614,963
                                                          Legal services related to auto industry
      11/7/2008     Sonnenschein Nath & Rosenthal LLP                                                  Contract           2,702,441      2,702,441
                                                          loans
                                                                                                       Interagency
      11/9/2008     Internal Revenue Service              Detailees                                                         97,239          97,239
                                                                                                       Agreement
                                                                                                       Interagency
      11/17/2008    Internal Revenue Service              CSC Systems & Solutions LLC                                         8,095           8,095
                                                                                                       Agreement
                    Department of the Treasury —                                                       Interagency
      11/25/2008                                          Administrative Support                                         16,512,820     16,131,121
                    Departmental Offices                                                               Agreement
                    Alcohol and Tobacco Tax and Trade     IAA - TTB Development, Mgmt & Operation Interagency
      12/3/2008                                                                                                             67,489          67,489
                    Bureau                                of SharePoint                           Agreement
                                                                                                       Interagency
      12/5/2008     Washington Post3                      Subscription                                                         395               —
                                                                                                       Agreement
                                                          Legal services for the purchase of
      12/10/2008    Sonnenschein Nath & Rosenthal LLP4                                                 Contract            102,769         102,769
                                                          assets-backed securities
      12/10/2008    Thacher Proffitt & Wood4              Admin action to correct system issue         Contract                  —               —
                                                                                                       Interagency
      12/15/2008    Office of Thrift Supervision          Detailees                                                        225,547         164,823
                                                                                                       Agreement
                    Department of Housing and Urban                                                    Interagency
      12/16/2008                                          Detailees                                                              —               —
                    Development                                                                        Agreement
                                                                                                       Interagency
      12/22/2008    Office of Thrift Supervision          Detailees                                                        103,871               —
                                                                                                       Agreement
      12/24/2008    Cushman and Wakefield of VA Inc.      Painting Services for TARP Offices           Contract               8,750           8,750
                                                                                                       Interagency
      1/6/2009      Securities and Exchange Commission Detailees                                                            30,416          30,416
                                                                                                       Agreement
      1/7/2009      Colonial Parking Inc.                 Lease of parking spaces                      Contract            338,050         203,233
      1/27/2009     Cadwalader Wickersham & Taft LLP      Bankruptcy Legal Services                    Contract            409,955         409,955
      1/27/2009     Whitaker Brothers Bus Machines Inc.   Paper Shredder                               Contract               3,213           3,213
                                                                                                       Interagency
      1/30/2009     Comptroller of the Currency           Detailees                                                        501,118         501,118
                                                                                                       Agreement
                                                          IAA - GAO required by P.L. 110-343 to
                                                                                                       Interagency
      2/2/2009      US Government Accountability Office   conduct certain activities related to TARP                      7,459,049      7,459,049
                                                                                                       Agreement
                                                          IAA
                                                                                                       Interagency
      2/3/2009      Internal Revenue Service              Detailees                                                        242,499         242,499
                                                                                                       Agreement
                                                                                                                             Continued on next page.
                                                                                          quarterly report to congress I January 26, 2012              149




OFS SERVICE CONTRACTS            (continued)

                                                                                                Type of                 Obligated       Expended
Date        Vendor                                Purpose                                       Transaction                 Value           Value
                                                  Temporary Services for Document
2/9/2009    Pat Taylor & Associates, Inc.         Production, FOIA assistance, and Program Contract                     $692,108            $692,108
                                                  Support
                                                  Initiate Interim Legal Services in support of
2/12/2009   Locke Lord Bissell & Liddell LLP                                                    Contract                  272,243            272,243
                                                  Treasury Investments under EESA
2/18/2009   Fannie Mae                            Homeownership Preservation Program            Financial Agent      332,501,429      242,053,765
2/18/2009   Freddie Mac                           Homeownership Preservation Program            Financial Agent      228,060,025      148,535,542
                                                                                                Interagency
2/20/2009   Financial Clerk U.S. Senate           Congressional Oversight Panel                                         3,394,348       3,394,348
                                                                                                Agreement
                                                                                                Interagency
2/20/2009   Office of Thrift Supervision          Detailees                                                               203,390            189,533
                                                                                                Agreement
2/20/2009   Simpson Thacher & Bartlett MNP LLP Capital Assistance Program (I)                   Contract                1,530,023       1,530,023
                                                  Capital Assistance Program (II) Legal
2/20/2009   Venable LLP                                                                         Contract                1,394,724       1,394,724
                                                  Services
                                                                                                Interagency
2/26/2009   Securities and Exchange Commission Detailees                                                                   18,531             18,531
                                                                                                Agreement
                                                                                                Interagency
2/27/2009   Pension Benefit Guaranty Corporation Rothschild, Inc.                                                       7,750,000       7,750,000
                                                                                                Agreement
                                                  Management Consulting relating to the
3/6/2009    The Boston Consulting Group                                                         Contract                  991,169            991,169
                                                  Auto industry
3/16/2009   Earnest Partners                      Small Business Assistance Program             Financial Agent         2,947,780       2,862,780
                                                  SBA Initiative Legal Services - Contract
3/30/2009   Bingham McCutchen LLP5                Novated from TOFS-09-D-0005 with              Contract                  273,006            143,893
                                                  McKee Nelson
3/30/2009   Cadwalader Wickersham & Taft LLP      Auto Investment Legal Services                Contract               17,392,786      17,392,786
3/30/2009   Haynes and Boone, LLP                 Auto Investment Legal Services                Contract                  345,746            345,746
                                                  SBA Initiative Legal Services — Contract
3/30/2009   McKee Nelson5                         Novated to TOFS-10-D-0001 with Bingham Contract                         149,349            126,631
                                                  McCutchen LLP
3/30/2009   Sonnenschein Nath & Rosenthal LLP     Auto Investment Legal Services                Contract                1,834,193       1,834,193
3/31/2009   FI Consulting Inc.                    Credit Reform Modeling and Analysis           Contract                2,888,505       2,665,315
                                                                                                Interagency
4/3/2009    American Furniture Rentals Inc.3      Furniture Rental 1801                                                    35,187             25,808
                                                                                                Agreement
                                                  Management Consulting relating to the
4/3/2009    The Boston Consulting Group                                                         Contract                4,100,195       4,099,923
                                                  Auto industry
                                                                                                Interagency
4/17/2009   Bureau of Engraving and Printing      Detailees                                                                45,822             45,822
                                                                                                Agreement
4/17/2009   Herman Miller, Inc.                   Aeron Chairs                                  Contract                   53,799             53,799
4/21/2009   AllianceBernstein LP                  Asset Management Services                     Financial Agent        44,158,710      35,273,821
4/21/2009   FSI Group, LLC                        Asset Management Services                     Financial Agent        24,143,249      19,354,945
4/21/2009   Piedmont Investment Advisors, LLC     Asset Management Services                     Financial Agent        11,708,544       9,247,353
                                                                                                Interagency
4/30/2009   Department of State                   Detailees                                                                     —                 —
                                                                                                Agreement
                                                                                                Interagency
5/5/2009    Federal Reserve Board                 Detailees                                                                48,422             48,422
                                                                                                Agreement
            Department of the Treasury — U.S.                                                   Interagency
5/13/2009                                         “Making Home Affordable” Logo search                                        325               325
            Mint                                                                                Agreement
                                                                                                                            Continued on next page.
150          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS           (continued)

                                                                                                     Type of            Obligated      Expended
      Date         Vendor                                 Purpose                                    Transaction            Value          Value
                                                          Executive Search and recruiting Services
      5/14/2009    Knowledgebank Inc.2                                                               Contract           $124,340        $124,340
                                                          — Chief Homeownership Officer
                                                          Freedom of Information Act (FOIA) Analysts
      5/15/2009    Phacil, Inc.                           to support the Disclosure Services, Privacy Contract            90,301          90,301
                                                          and Treasury Records
                                                                                                     Interagency
      5/20/2009    Securities and Exchange Commission Detailees                                                          430,000         430,000
                                                                                                     Agreement
                                                                                                     Interagency
      5/22/2009    Department of Justice — ATF            Detailees                                                      243,778         243,778
                                                                                                     Agreement
                                                          Legal services for work under Treasury’s
      5/26/2009    Anderson, McCoy & Orta                 Public Private Investment Funds (PPIF)     Contract           4,068,834      2,286,996
                                                          program
                                                      Legal services for work under Treasury’s
      5/26/2009    Simpson Thacher & Bartlett MNP LLP Public Private Investment Funds (PPIF)         Contract           7,849,026      3,526,454
                                                      program
                                                                                                     Interagency
      6/9/2009     Financial Management Services          Gartner, Inc.                                                   89,436          89,436
                                                                                                     Agreement
                                                                                                     Interagency
      6/29/2009    Department of the Interior             Federal Consulting Group (Foresee)                              49,000          49,000
                                                                                                     Agreement
                                                          Executive search services for the OFS Chief
      7/17/2009    Korn/Ferry International3                                                          Contract            75,017          75,017
                                                          Investment Officer position
      7/30/2009    Cadwalader Wickersham & Taft LLP       Restructuring Legal Services               Contract           2,049,979      1,278,696
      7/30/2009    Debevoise & Plimpton LLP               Restructuring Legal Services               Contract            159,175            1,650
      7/30/2009    Fox, Hefter, Swibel, Levin & Carol, LLP Restructuring Legal Services              Contract             26,493          26,493
                                                                                                     Interagency
      8/10/2009    Department of Justice — ATF            Detailees                                                       63,109          63,109
                                                                                                     Agreement
                   National Aeronautics and Space                                                    Interagency
      8/10/2009                                           Detailees                                                      140,889         140,889
                   Administration (NASA)                                                             Agreement
      8/18/2009    Mercer (US) Inc.                       Executive Compensation Data Subscription Contract                3,000            3,000
                                                                                                     Interagency
      8/25/2009    Department of Justice — ATF            Detailees                                                       63,248          63,248
                                                                                                     Agreement
      9/2/2009     Knowledge Mosaic Inc.                  SEC filings subscription service           Contract              5,000            5,000
      9/10/2009    Equilar, Inc.                          Executive Compensation Data Subscription Contract               59,990          59,990
      9/11/2009    PricewaterhouseCoopers                 PPIP compliance                            Contract           2,798,096      2,441,284
                                                                                                     Interagency
      9/18/2009    Treasury Franchise Fund                BPD                                                            436,054         436,054
                                                                                                     Agreement
                                                                                                     Interagency
      9/30/2009    Immixtechnology Inc.3                  EnCase eDiscovery ProSuite                                     210,184               —
                                                                                                     Agreement
                                                                                                     Interagency
      9/30/2009    Immixtechnology Inc.3                  Guidance Inc.                                                  108,000               —
                                                                                                     Agreement
      9/30/2009    NNA INC.                               Newspaper delivery                         Contract               8,479           8,220
                                                          SNL Unlimited, a web-based financial
      9/30/2009    SNL Financial LC                                                                  Contract            460,000         460,000
                                                          analytics service
                   Department of the Treasury —                                                      Interagency
      11/9/2009                                           Administrative Support                                       23,682,061     18,071,679
                   Departmental Offices                                                              Agreement
                                                                                                     Interagency
      12/16/2009   Internal Revenue Service2              Detailees                                                            —               —
                                                                                                     Agreement
      12/22/2009   Avondale Investments LLC               Asset Management Services                  Financial Agent     772,657         772,657
                                                                                                                           Continued on next page.
                                                                                           quarterly report to congress I January 26, 2012             151




OFS SERVICE CONTRACTS          (continued)

                                                                                                 Type of                 Obligated       Expended
Date         Vendor                                Purpose                                       Transaction                 Value           Value
12/22/2009   Bell Rock Capital, LLC                Asset Management Services                     Financial Agent        $2,175,615      $1,558,583
12/22/2009   Howe Barnes Hoefer & Arnett, Inc.     Asset Management Services                     Financial Agent         3,284,195       2,528,835
                                                   Document Production services and
12/22/2009   Hughes Hubbard & Reed LLP                                                           Contract                1,173,152           854,094
                                                   Litigation Support
12/22/2009   KBW Asset Management, Inc.            Asset Management Services                     Financial Agent         4,937,433       4,937,433
12/22/2009   Lombardia Capital Partners, LLC       Asset Management Services                     Financial Agent         3,510,938       2,447,702
             Paradigm Asset Management Co.,
12/22/2009                                         Asset Management Services                     Financial Agent         3,298,978       2,470,050
             LLC
                                                   IAA - GAO required by P.L.110-343 to          Interagency
1/14/2010    US Government Accountability Office                                                                         7,304,722       7,304,722
                                                   conduct certain activities related to TARP    Agreement
             Association of Government
1/15/2010                                          CEAR Program Application                      Contract                    5,000             5,000
             Accountants
                                                                                                 Interagency
2/16/2010    Internal Revenue Service              Detailees                                                                52,742            52,742
                                                                                                 Agreement
                                                   FNMA IR2 assessment — OFS task order
2/16/2010    The MITRE Corporation                                                               Contract                  777,604           726,465
                                                   on Treasury MITRE Contract
                                                                                                 Interagency
2/18/2010    Treasury Franchise Fund               BPD                                                                   1,221,140       1,221,140
                                                                                                 Agreement
3/8/2010     Qualx Corporation                     FOIA Support Services                         Contract                  549,518           549,518
             Department of the Treasury —                                                        Interagency
3/12/2010                                          Administrative Support                                                  671,731           671,731
             Departmental Offices                                                                Agreement
                                                                                                 Interagency
3/22/2010    Gartner, Inc.                         Financial Management Services                                            73,750            73,750
                                                                                                 Agreement
                                                                                                 Interagency
3/26/2010    Federal Maritime Commission           Detailees                                                               158,600           158,600
                                                                                                 Agreement
3/29/2010    Morgan Stanley                        Disposition Agent Services                    Financial Agent        16,685,290      16,685,290
                                                                                                 Interagency
4/2/2010     Financial Clerk U.S. Senate           Congressional Oversight Panel                                         4,797,556       4,797,556
                                                                                                 Agreement
4/8/2010     Squire, Sanders & Dempsey LLP         Housing Legal Services                        Contract                1,229,350           904,284
4/12/2010    Hewitt EnnisKnupp, Inc.   1
                                                   Investment Consulting Services                Contract                4,499,750       2,566,657
                                                   Data and Document Management
4/22/2010    Digital Management Inc.                                                             Contract                        —                —
                                                   Consulting Services
                                                   Data and Document Management
4/22/2010    MicroLink, LLC                                                                      Contract                8,949,391       5,907,831
                                                   Consulting Services
                                                   Data and Document Management
4/23/2010    RDA Corporation                                                                     Contract                4,516,598       3,285,309
                                                   Consulting Services
                                                                                                 Interagency
5/4/2010     Internal Revenue Service              Training — Bulux CON 120                                                  1,320             1,320
                                                                                                 Agreement
5/17/2010    Lazard Fréres & Co. LLC               Transaction Structuring Services              Financial Agent        15,083,333       8,521,237
                                                   Accurint subscription service for one year
6/24/2010    Reed Elsevier Inc (dba LexisNexis)                                                  Contract                    8,208             8,208
                                                   — 4 users
                                                   Financial Institution Management &
6/30/2010    The George Washington University                                                    Contract                    5,000             5,000
                                                   Modeling — Training course (J.Talley)
7/21/2010    Navigant Consulting                   Program Compliance Support Services           Contract                  847,416            38,540
7/21/2010    Regis and Associates PC               Program Compliance Support Services           Contract                  574,990           161,203
7/22/2010    Ernst & Young LLP                     Program Compliance Support Services           Contract                1,367,443           902,728
7/22/2010    PricewaterhouseCoopers                Program Compliance Support Services           Contract                        —                —
                                                                                                                             Continued on next page.
152          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (continued)

                                                                                                    Type of       Obligated      Expended
      Date         Vendor                                Purpose                                    Transaction       Value          Value
      7/22/2010    Schiff Hardin LLP                     Housing Legal Services                     Contract       $97,526         $97,526
      7/27/2010    West Publishing Corporation           Subscription Service for 4 users           Contract         6,722            6,664
      8/6/2010     Alston & Bird LLP                     Omnibus procurement for legal services     Contract      1,285,416        307,883
      8/6/2010     Cadwalader Wickersham & Taft LLP      Omnibus procurement for legal services     Contract      3,989,597      2,822,169
      8/6/2010     Fox, Hefter, Swibel, Levin & Carol, LLP Omnibus procurement for legal services   Contract       181,200         145,538
      8/6/2010     Haynes and Boone, LLP                 Omnibus procurement for legal services     Contract             —               —
      8/6/2010     Hughes Hubbard & Reed LLP             Omnibus procurement for legal services     Contract      1,059,784        654,283
      8/6/2010     Love & Long LLP                       Omnibus procurement for legal services     Contract             —               —
      8/6/2010     Orrick Herrington Sutcliffe LLP       Omnibus procurement for legal services     Contract             —               —
                   Paul, Weiss, Rifkind, Wharton &
      8/6/2010                                           Omnibus procurement for legal services     Contract      3,936,741      1,888,265
                   Garrison LLP
      8/6/2010     Perkins Coie LLP                      Omnibus procurement for legal services     Contract             —               —
      8/6/2010     Seyfarth Shaw LLP                     Omnibus procurement for legal services     Contract             —               —
                   Shulman, Rogers, Gandal, Pordy &
      8/6/2010                                           Omnibus procurement for legal services     Contract       313,725         178,998
                   Ecker, PA
      8/6/2010     Sullivan Cove Reign Enterprises JV    Omnibus procurement for legal services     Contract             —               —
      8/6/2010     Venable LLP                           Omnibus procurement for legal services     Contract       498,100              960
      8/12/2010    Knowledge Mosaic Inc.                 SEC filings subscription service           Contract         5,000            5,000
                   Department of Housing and Urban                                                  Interagency
      8/30/2010                                          Detailees                                                  29,915          29,915
                   Development                                                                      Agreement
                                                         One-year subscription (3 users) to the CQ
                                                         Today Breaking News & Schedules, CQ
      9/1/2010     CQ-Roll Call Inc.                                                               Contract          7,500            7,500
                                                         Congressional & Financial Transcripts, CQ
                                                         Custom Email Alerts
      9/17/2010    Bingham McCutchen LLP                 SBA 7(a) Security Purchase Program         Contract        19,975          11,177
                                                         Program Operations Support Services to
                                                         include project management, scanning
      9/27/2010    Davis Audrey Robinette                                                           Contract      2,173,616      1,144,543
                                                         and document management and
                                                         correspondence
                                                         GSA Task Order for procurement books
      9/30/2010    CCH Incorporated                      — FAR, T&M, Government Contracts           Contract         2,430            2,430
                                                         Reference, World Class Contracting
                                                                                                    Interagency
      10/1/2010    Financial Clerk U.S. Senate           Congressional Oversight Panel                            5,200,000      2,777,752
                                                                                                    Agreement
      10/8/2010    Management Concepts Inc.              Training Course — CON 217                  Contract         1,025            1,025
      10/8/2010    Management Concepts Inc.              Training Course — CON 216                  Contract         1,025            1,025
      10/8/2010    Management Concepts Inc.              Training Course — CON 218                  Contract         2,214            2,214
      10/8/2010    Management Concepts Inc.              Training Course — 11107705                 Contract           995              995
      10/8/2010    Management Concepts Inc.              Training Course — Analytic Boot            Contract         1,500            1,500
      10/8/2010    Management Concepts Inc.              Training Course — CON 218                  Contract         2,214            2,214
      10/8/2010    Management Concepts Inc.              Training Course — CON 217                  Contract         1,025            1,025
      10/8/2010    Management Concepts Inc.              Training Course — CON 218                  Contract         2,214            2,214
                   Hispanic Association of Colleges &
      10/14/2010                                         Detailees                                  Contract        12,975          12,975
                   Universities
                                                                                                                     Continued on next page.
                                                                                          quarterly report to congress I January 26, 2012             153




OFS SERVICE CONTRACTS              (continued)

                                                                                                Type of                 Obligated       Expended
Date         Vendor                                Purpose                                      Transaction                 Value           Value
                                                   IAA - GAO required by P.L. 110-343 to        Interagency
10/26/2010   US Government Accountability Office                                                                       $5,600,000      $3,738,195
                                                   conduct certain activities related to TARP   Agreement
                                                   FNMA IR2 assessment — OFS task order
11/8/2010    The MITRE Corporation                 on Treasury MITRE Contract for cost and Contract                     2,288,166           830,946
                                                   data validation services related to HAMP FA
11/18/2010   Greenhill & Co., Inc.                 Structuring and Disposition Services         Financial Agent         6,139,167       6,139,167
                                                   Acquisition Support Services — PSD TARP
12/2/2010    Addx Corporation                                                              Contract                       768,653           716,830
                                                   (action is an order against BPA)
12/29/2010   Reed Elsevier Inc. (dba LexisNexis)   Accurint subscription services one user      Contract                    1,026              684
                                                                                                Interagency
1/5/2011     Canon U.S.A. Inc.                     Administrative Support                                                  12,937            12,013
                                                                                                Agreement
1/18/2011    Perella Weinberg Partners & Co.       Structuring and Disposition Services         Financial Agent         6,000,000       5,391,667
                                                                                                Interagency
1/24/2011    Treasury Franchise Fund               BPD                                                                  1,092,962       1,090,860
                                                                                                Agreement
             Association of Government
1/26/2011                                          CEAR Program Application                     Contract                    5,000             5,000
             Accountants
                                                   Mentor Program Training (call against IRS
2/24/2011    ESI International Inc.                                                             Contract                   20,758            20,758
                                                   BPA)
             Department of the Treasury —                                                       Interagency
2/28/2011                                          Administrative Support                                              17,805,529      12,600,754
             Departmental Offices                                                               Agreement
3/3/2011     Equilar, Inc.                         Executive Compensation Data Subscription Contract                       59,995            59,995
3/10/2011    Mercer (US) Inc.                      Executive Compensation Data Subscription Contract                        3,600             3,600
3/22/2011    Harrison Scott Publications, Inc.     Subscription Service                         Contract                    5,894             5,894
                                                                                                Interagency
3/28/2011    Fox News Network LLC6                 Litigation Settlement                                                  121,000           121,000
                                                                                                Agreement
             Federal Reserve Bank of New York                                                   Interagency
4/20/2011                                          Oversight Services                                                   1,300,000           722,655
             (FRBNY) HR                                                                         Agreement
4/26/2011    PricewaterhouseCoopers LLP            Financial Services Omnibus                   Contract                2,559,632           495,488
4/27/2011    ASR Analytics, LLC                    Financial Services Omnibus                   Contract                   50,000                —
4/27/2011    Ernst & Young, LLP                    Financial Services Omnibus                   Contract                   50,000                —
4/27/2011    FI Consulting, Inc.                   Financial Services Omnibus                   Contract                1,753,711           627,431
4/27/2011    Lani Eko & Company CPAs LLC           Financial Services Omnibus                   Contract                   50,000                —
4/27/2011    MorganFranklin, Corporation           Financial Services Omnibus                   Contract                   50,000                —
4/27/2011    Oculus Group, Inc.                    Financial Services Omnibus                   Contract                1,344,568           373,360
4/28/2011    Booz Allen Hamilton, Inc.             Financial Services Omnibus                   Contract                   50,000                —
4/28/2011    KPMG, LLP                             Financial Services Omnibus                   Contract                   50,000                —
             Office of Personnel Management
                                                                                                Interagency
4/28/2011    (OPM) - Western Management            Leadership Training                                                     21,300                —
                                                                                                Agreement
             Development Center
                                                   Acquisition Support Services - Acquisition
5/9/2011     Addx Corporation                      planning and contract/agreement reporting Contract                      28,792            28,486
                                                   support (action is an order against BPA)
                                                   Accurint subscriptions by Lexis/Nexis for
5/31/2011    Reed Elsevier Inc (dba Lexisnexis)                                                 Contract                   10,260             3,420
                                                   5 users
                                                   Five (5) user subscriptions to CLEAR by
5/31/2011    West Publishing Corporation                                                        Contract                    7,515             7,515
                                                   West Government Solutions
                                                                                                                            Continued on next page.
154               special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS                        (continued)

                                                                                                                                          Type of                              Obligated              Expended
      Date                 Vendor                                               Purpose                                                   Transaction                              Value                  Value
                                                                                One year subscription to the CQ Today
                                                                                Breaking News & Schedules, CQ Congres-
      6/9/2011             CQ-Roll Call Inc.                                                                              Contract                                                 $7,750                  $7,750
                                                                                sional & Financial Transcripts, CQ Custom
                                                                                Email Alerts
                                                                                Anti-Fraud Protection and Monitoring
      6/17/2011            Winvale Group LLC                                                                                              Contract                               242,507                 242,507
                                                                                Subscription Services
                                                                                                                                          Interagency
      7/28/2011            Internal Revenue Service-Procurement Detailee                                                                                                           84,234                  84,234
                                                                                                                                          Agreement
                                                                                                                                          Interagency
      9/9/2011             Financial Management Service                         FMS – NAFEO                                                                                        22,755                         —
                                                                                                                                          Agreement
                                                                                MHA Felony Certification Background
      9/12/2011            ADC LTD NM                                                                                                     Contract                               447,799                   98,265
                                                                                Checks (BPA)
      9/15/2011            ABMI – All Business Machines, Inc                   4 Level 4 Security Shredders and Supplies Contract                                                    4,392                   4,392
                                                                               National Business Center, Federal Consult- Interagency
      9/29/2011            Department of Interior                                                                                                                                  25,000                         —
                                                                               ing Group                                  Agreement
                                                                               Renewing TD010-F-249 SEC filings Sub-
      9/29/2011            Knowledge Mosaic Inc.                                                                                          Contract                                   4,200                   4,200
                                                                               scription Service
                                                                                                                                          Interagency
      10/4/2011            Internal Revenue Service                            IRS                                                                                               168,578                   42,150
                                                                                                                                          Agreement
      10/20/2011           ABMI – All Business Machines, Inc.                  4 Level 4 Security Shredders and Supplies Contract                                                    4,827                        —
      11/18/2011           Qualx Corporation                                   FOIA Support Services                                      Contract                                 58,499                  12,458
      11/29/2011           Houlihan Lokey, Inc.                                Transaction Structuring Services                           Financial Agent                     4,500,000                  400,000
                                                                               Pre-Program and Discovery Process Team
      12/20/2011           Allison Group LLC                                                                          Contract                                                     19,980                         —
                                                                               Building
                           Department of the Treasury -                                                                                   Interagency
      12/30/2011                                                               Department of Treasury - DO                                                                  11,082,904                   837,390
                           Departmental Offices                                                                                           Agreement
                                                                                                                                          Interagency
      12/30/2011           Treasury Franchise Fund                             ARC                                                                                               901,433                          —
                                                                                                                                          Agreement
                           Department of the Treasury -                                                                                   Interagency
                                                                               Administrative Support                                                                            660,601                 338,397
                           Departmental Offices                                                                                           Agreement
                           Judicial Watch7                                      Litigation related                                        Other Listing                              1,500                   1,500
                           Judicial Watch     7
                                                                                Litigation related                                        Other Listing                              2,146                   2,146
      Total                                                                                                                                                         $1,038,582,917 $768,673,036
      Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several Inter-
      agency Agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded. Table 3.2 includes all vendor contracts administered
      under Federal Acquisition Regulations, inter-agency agreements and financial agency agreements entered into support of OFS since the beginning of the program. The table does not include salary, benefits,
      travel, and other non-contract related expenses.
      1
        EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
        Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
        Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
        Thacher Profitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
        McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      6
        Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.
      7
        Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.

      Source: Treasury, response to SIGTARP data call, 1/10/2012.
s ect i o n 4   SIGtarp recommendations
156   special inspector general I troubled asset relief program
                                                                            quarterly report to congress I January 26, 2012   157




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
managing the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
89 such recommendations in its quarterly reports to Congress and in many of its
reports on audits and evaluations. This section discusses developments with respect
to SIGTARP’s prior recommendations, including recommendations made since
SIGTARP’s Quarterly Report to Congress dated October 27, 2011 (the “October
2011 Quarterly Report”), and, in the table at the end of this section, summarizes
SIGTARP’s recommendations from past quarters and notes the extent of imple-
mentation. Appendix H: “Correspondence” includes Treasury’s written responses to
certain recommendations referenced in this section.


RecommendationS REGARDING Executive
Compensation
In its report “The Special Master’s Determinations for Executive Compensation
of Companies Receiving Exceptional Assistance Under TARP,” released this
month, SIGTARP reviewed the process and decisions of the Office of the Special
Master for TARP Executive Compensation (“OSM”) on compensation for the Top
25 most highly paid employees at seven companies who received exceptional
assistance under TARP. For these seven companies, the amount and nature of
their bailouts were considered exceptional. The seven companies were American
International Group, Inc. (“AIG”), Bank of America Corporation (“Bank of
America”), Citigroup Inc. (“Citigroup”), Chrysler Financial Services Americas
LLC (“Chrysler Financial”), Chrysler Holding LLC (“Chrysler”), General Motors
Corporation (“GM”), and Ally Financial Inc., (“Ally”) formerly GMAC, Inc.
SIGTARP assessed the criteria used by OSM to evaluate and make determina-
tions on each company’s executive compensation and whether OSM consistently
applied criteria to all seven companies.
    The former Special Master Kenneth Feinberg developed what he called
“prescriptions” including that total compensation would be set at the 50th per-
centile for similarly situated employees, and that cash salaries should not exceed
$500,000, except for good cause shown. Although OSM created general prescrip-
tions, OSM did not at the beginning of the process have pre-established criteria
and methodology for applying those prescriptions. OSM’s methodology and criteria
for applying the prescriptions were not established until after OSM issued its first
set of pay determinations and that documentation was based on the process that
had just taken place. OSM’s methodology and criteria were explained in several
different documents — the institution-specific determination letters, a “fact sheet”
summarizing some key steps and decisions, and a three-page document issued sev-
eral months later — but the documents did not completely lay out OSM’s process,
methodology, and criteria. For example, this methodology was incomplete in that
158   special inspector general I troubled asset relief program




                                             OSM did not establish meaningful criteria for granting exceptions to prescrip-
                                             tions such as when an employee could be paid more than $500,000 in cash salary.
                                             Further, the methodology does not address how OSM determined the peer group
                                             for the 50th percentile of total compensation for similarly situated employees.
                                             SIGTARP was unable to analyze OSM’s application of the 50th percentile because
                                             OSM did not maintain complete records of the market-based data that factored
                                             into its determinations.
                                                 There were variations among pay packages set by OSM that were largely a prod-
                                             uct of conflicting goals and differences in the companies under OSM’s jurisdiction.
                                             OSM faced difficulty in setting pay packages that would rein in excessive compensa-
                                             tion while still attracting and retaining key employees in order to meet his number
                                             one goal of ensuring that the companies repaid taxpayers’ TARP investment. In addi-
                                             tion to the conflicting goals under which he operated, Special Master Feinberg told
                                             SIGTARP that he applied criteria with a “healthy dose of discretion” for company-
                                             specific circumstances that caused results to vary between companies. The total com-
                                             pensation each company’s group of Top 25 employees received differed significantly.
                                                 SIGTARP found that the Special Master could not effectively rein in exces-
                                             sive compensation at the seven companies because he was under the constraint
                                             that his most important goal was to get the companies to repay TARP. Although
                                             he generally limited cash compensation and made some reductions in pay, the
                                             Special Master still approved compensation packages of cash and stock in the mil-
                                             lions. Special Master Feinberg told SIGTARP that the companies pressured him
                                             to let the companies pay executives enough to keep them from quitting, and that
                                             Treasury officials pressured him to let the companies pay executives enough to keep
                                             the companies competitive and on track to repay TARP funds.
                                                 SIGTARP found that the Special Master was inconsistent in approving cash
                                             salaries in excess of $500,000. For 10 employees in 2009, and 22 employees in
                                             2010 and 2011, OSM approved cash salaries greater than $500,000. The Special
                                             Master’s prescriptions require a showing of “good cause” for an employee to be
                                             paid more than $500,000 in cash. He told SIGTARP that he never told companies
                                             to choose which employees would be paid more than $500,000. However, instead
                                             of looking at each person to determine “good cause,” the Special Master allowed
                                             Ally and GM to choose which employees would receive more than $500,000 and
                                             provided them a “ballpark number” of executives whose cash salary could exceed
                                             $500,000. However, SIGTARP found OSM’s justifications lacked detail such as
                                             “no change” and “critical to turnaround.”
                                                 The report included the following three new recommendations to OSM.

                                             To ensure that the Office of the Special Master consistently grants excep-
                                             tions to the $500,000 cash salary cap, the Office of the Special Master
                                             should substantiate each exception requested and whether the requests
                                             demonstrate or fail to demonstrate “good cause.”
                                                 OSM agreed with this recommendation and stated that, “OSM will memo-
                                             rialize in its records its justification for approving or disapproving each specific
                                             request for a cash salary in excess of $500,000.”
                                                                              quarterly report to congress I January 26, 2012   159




The Office of the Special Master should better document its use of market
data in its calculations. At a minimum, the Office of the Special Master
should prospectively document which companies and employees are used
as comparisons in its analysis of the 50th percentile of the market, and it
should also maintain records and data so that the relationship between its
determinations and benchmarks are clearly understood.
   OSM agreed with this recommendation and stated that, “OSM already has
begun to preserve the independent market data on which it relies to evaluate the
market data submitted by the companies.”

The Office of the Special Master should develop more robust policies, pro-
cedures, or guidelines to help ensure that its pay determination process and
its decisions are evenhanded. These measures will improve transparency and
help the Office of the Special Master consistently apply the Interim Final
Rule principles of “appropriate allocation,” “performance-based compensa-
tion,” and “comparable structures and payments.”
    OSM neither agreed nor disagreed with the recommendation, stating that
OSM agreed that it is important to have policies and procedures in place, but that
SIGTARP’s report insufficiently acknowledged the policies, procedures, and guide-
lines that OSM developed and outlined in its Top 25 determination letters and ac-
companying fact sheets for each of 2009, 2010, and 2011. OSM stated that it “will
carefully focus on how it can further develop and articulate its policies, procedures,
and guidelines.”


update on RECOMMENDATIONS REGARDING
COMMUNITY BANKS
In the October 2011 Quarterly Report, SIGTARP noted that smaller and medium-
size banks are not exiting TARP with the same speed as the larger banks. As of
December 31, 2011, 455 banks remain in TARP. Of these, many are not paying
their TARP dividend and in some cases, the banks are operating under an order by
their regulator. Compared with larger banks, community banks may face an uphill
battle to exit TARP. Community banks do not have the same access to capital as
the larger banks. They are more exposed to distressed commercial real estate-relat-
ed assets and non-performing loans.
    Despite the dramatic efforts to expedite the exit of the largest banks from TARP,
there appears to be no corresponding concrete plan for community banks’ exit from
TARP other than Treasury approving 137 banks to exit TARP through the Small
Business Lending Fund. On a case by case basis, Treasury has also sold some of its
TARP investments (sometimes at a discount) or exchanged them for stock with less
priority. This has often taken place in connection with a merger, acquisition, or sale
to a third party that invested new capital.
    In October 2011, SIGTARP made the following two recommendations:
160   special inspector general I troubled asset relief program




                                             Treasury, in consultation with Federal banking regulators, should develop a
                                             clear TARP exit path to ensure that as many community banks as possible
                                             repay the TARP investment and prepare to deal with the banks that cannot.
                                             Treasury should develop criteria pertaining to restructurings, exchanges, and
                                             sales of its TARP investments (including any discount of the TARP invest-
                                             ment, the treatment of unpaid TARP dividend and interest payments, and
                                             warrants).

                                             Treasury should assess whether it should renegotiate the terms of its Capital
                                             Purchase Program contracts for those community banks that will not be able
                                             to exit TARP prior to the dividend rate increase in order to help preserve the
                                             value of taxpayers’ investments.
                                                 In response, Treasury entered into a financial agency agreement with Houlihan
                                             Lokey Capital, Inc. (“Houlihan Lokey”) for capital markets disposition services
                                             for its remaining CPP investments. Under the terms of the November 29, 2011,
                                             agreement, Treasury will pay Houlihan Lokey a flat fee of $375,000 per month
                                             for a term of 12 months, for a total of $4.5 million for the year, with the option
                                             to extend the term of the agreement for an additional six months. Treasury stated
                                             that Houlihan Lokey will act as Treasury’s transaction structuring agent to perform
                                             services relating to the disposition of CPP investments, including:

                                             •	 “Analyzing, reviewing and documenting financial, business, regulatory, and
                                                market information related to potential transactions of CPP investments;
                                             •	 “Advising and monitoring restructuring strategies prior to the disposition of CPP
                                                investments;
                                             •	 “Reporting on the potential performance of certain CPP investments and their
                                                disposition given a range of market scenarios and transaction structures;
                                             •	 “Analyzing and proposing disposition alternatives and structures, including the
                                                use of additional underwriters, brokers, or other capital markets advisors for the
                                                best means and structure to dispose of such assets; and
                                             •	 “Maintaining a compliance program designed to detect and prevent violations of
                                                Federal securities laws, and identifying documenting and enforcing controls to
                                                mitigate conflicts of interest.”

                                                 On November 30, 2011, Treasury sent a letter to the 380 banks then remaining
                                             in CPP. The letter informed the banks about Treasury’s agreement with Houlihan
                                             Lokey “to explore options for the management and ultimate recovery of our remain-
                                             ing investments.” Additionally, the letter read:
                                                 “As you know, under the terms of the Securities Purchase Agreement, Treasury
                                             cannot require banks to repay the CPP investments, and there has been no change
                                             to these terms. In addition, any CPP repayment requires regulatory approval. As
                                             has been our policy, however, we encourage CPP institutions that have regulatory
                                             approval to repay their TARP investment. Replacing government capital with pri-
                                             vate capital is an important component of fully restoring financial stability.”
                                                                                  quarterly report to congress I January 26, 2012   161




    The letter stated that “in order to continue our efforts to facilitate the government’s
exit from supporting the banking system, Houlihan Lokey will work with Treasury’s
existing asset managers, who monitor each investment in the program, to explore
options.” It advised that Treasury would be in contact with the banks in the coming
weeks “to discuss the options we are considering and any thoughts you may have.”
    SIGTARP welcomes actions by Treasury to implement SIGTARP’s recommen-
dation. Treasury’s next steps in developing clear TARP exit paths for the smaller
banks are critical. The looming dividend rate increase from 5% to 9% beginning in
2013 places the remaining CPP participants under pressure. The taxpayers’ invest-
ments in these banks remain at risk if Treasury waits for banks to propose selling
those investments at a discount, or to exchange them for lower-priority stock. In
October, Treasury told SIGTARP that it did not want to devise standard discounts
or terms for small banks to exit CPP, saying “each bank’s situation is unique.” Clear
exit paths do not require a one-size-fits-all approach, but the issue should not be
addressed on a case-by-case basis. SIGTARP’s recommendation was designed to
allow for multiple strategies, in consultation with banking regulators, that could
take into account different categories of banks, for example, banks that are under
regulatory orders to retain capital and may only be able to repay TARP gradually,
or banks for which it would be appropriate for Treasury to sell its interest to a third
party who is adding new capital to the bank. SIGTARP will continue to monitor
Treasury’s implementation of these recommendations.


UPDATE on Recommendation regarding MHA
Servicer Compliance
TARP-funded housing support programs continue to struggle to reach homeown-
ers, especially the signature Home Affordable Modification Program (“HAMP”).
SIGTARP has made numerous recommendations to Treasury regarding improve-
ments that could be made to HAMP and other TARP housing support programs.
These recommendations have focused on servicers’ poor treatment of homeown-
ers and serious failures by servicers to follow program rules. The recommenda-
tions have also focused on Treasury’s obligation to force servicer compliance with
program rules. It is not too late for Treasury to make changes to the program,
and there remains much that it can do to improve. In October 2011, SIGTARP
made four recommendations for improvements to the housing support programs,
focused on Treasury’s obligation to ensure servicer compliance with program rules.
Improved servicer compliance and performance are the keys to these programs
reaching the greatest number of homeowners.
    One of these recommendations was for Treasury to take stronger action against
servicers that are not complying with Making Home Affordable (“MHA”) rules. In
April 2011, Treasury began publishing MHA servicer assessments on the Top 10
servicers, and began withholding incentives from servicers who received the worst
rating of “substantial improvement needed.” However, according to Treasury, for
162   special inspector general I troubled asset relief program




                                             servicers in need of “substantial improvement,” Treasury is currently withholding
                                             incentives, with the potential for returning the incentives if the servicer’s compli-
                                             ance improves. SIGTARP recommended:

                                             Treasury must ensure that all servicers participating in MHA comply with pro-
                                             gram requirements by vigorously enforcing the terms of the servicer participa-
                                             tion agreements, including using all financial remedies such as withholding,
                                             permanently reducing, and clawing back incentives for servicers who fail to
                                             perform at an acceptable level. Treasury should be transparent and make pub-
                                             lic all remedial actions taken against any servicer.
                                                 It appears that Treasury has taken some additional steps to implement
                                             SIGTARP’s recommendation, at least relating to the Top 10 servicers. In its lat-
                                             est December 7, 2011, servicer assessment, Treasury determined that JPMorgan
                                             Chase Bank, N.A., the second-largest MHA servicer in terms of modifications,
                                             needed “substantial improvement”, for the third consecutive quarter. In the ac-
                                             companying press release, Treasury stated that it has warned JPMorgan Chase
                                             that it would permanently withhold incentives if the servicer continues to perform
                                             poorly. As of December 31, 2011, Treasury was withholding approximately $67.3
                                             million in incentives from JPMorgan Chase. JPMorgan Chase’s continuing refusal
                                             to comply with program requirements is deeply troubling and there must be serious
                                             repercussions. Treasury’s willingness to take tougher action against a major servicer
                                             is a new and welcome development. Permanently withholding incentives from a
                                             servicer, as recommended by SIGTARP, sends a strong signal to JPMorgan Chase
                                             and all other servicers that failure to perform at acceptable levels will result in seri-
                                             ous consequences.
                                                 Treasury also continues to withhold $63.7 million in incentives from Bank of
                                             America, N.A., even though it improved its overall rating to Treasury’s “moderate
                                             improvement needed” category. Treasury’s reason for continuing to withhold incen-
                                             tives was that the servicer had not corrected those areas identified by Treasury as
                                             requiring substantial improvement from the previous quarter. Bank of America’s
                                             failure to correct problems already noted by Treasury is also deeply troubling.
                                             SIGTARP appreciates that Treasury continues to withhold incentives. Treasury
                                             should also warn Bank of America that it will permanently withhold incentives if
                                             these problems are not fixed. Treasury is responsible for ensuring that servicers
                                             comply with program rules and perform at an acceptable level. When a servicer,
                                             particular one of the Top 10 servicers, has serious deficiencies that it does not
                                             remedy, there should be real monetary consequences, even though the servicer may
                                             move from one Treasury-labeled category to another.
                                                 Treasury’s willingness to impose tougher remedies against the poorest perform-
                                             ing and most recalcitrant servicers, such as JPMorgan Chase, indicates that it is
                                             aware that servicers are not complying with program rules. Treasury found that in
                                             addition to the problems with JPMorgan Chase and Bank of America, six other Top
                                             10 servicers need “moderate improvement.” SIGTARP continues to urge Treasury
                                             to take more aggressive steps to ensure that all servicers act in accordance with the
                                             program rules and the contracts they signed, for which they are being paid by the
                                                                                quarterly report to congress I January 26, 2012   163




taxpayers. Treasury should be using all of its financial remedies to force all ser-
vicers, not just the Top 10, into compliance.



Recommendation regarding Hardest Hit
Fund Information Security
As part of its ongoing efforts to reduce TARP’s vulnerabilities to fraud, waste, and
abuse, SIGTARP notified Treasury, in a letter dated November 23, 2011, of an area
of potential vulnerability related to the handling of personally identifiable informa-
tion (“PII”) or other sensitive borrower information by the state Housing Finance
Agencies (“HFAs”) that participate in TARP’s Hardest Hit Fund program (“HHF”).
    All organizations, but especially Government agencies and entities that admin-
ister public funds, have a legal and ethical responsibility to properly handle and dis-
pose of documents or files containing PII, such as a person’s Social Security num-
ber, date of birth, or any other information that could be linked to an individual.
PII potentially could be exploited by criminals for identity theft or other fraudulent
purposes. If Treasury collected borrowers’ data for the HHF program, the Privacy
Act and other Federal laws would require the protection of PII. However, Treasury
has designed HHF so that each participating state’s HFA collects the borrower
data, and it is not clear that the Privacy Act and other Federal laws apply, although
there may be applicable state laws.
    HFAs participating in HHF handle a great deal of PII submitted by borrowers
applying for assistance, as well as other sensitive information such as personal fi-
nancial records, which should not be disseminated or allowed to fall into the wrong
hands. SIGTARP understands that some HFAs contract with third-party vendors
to assist them with HHF, and the need for protection of PII similarly applies to
those contractors. Treasury, as the steward of TARP programs, has an obligation to
ensure that every HFA properly handles and disposes of documents or files contain-
ing PII and other sensitive borrower information compiled for HHF.
    Treasury has not issued formal guidance or requirements to HFAs regarding
the protection of PII. Treasury’s staff has informed SIGTARP that as part of its
compliance reviews, Treasury examines the methods HFAs use to maintain elec-
tronic loan files and hard copy documents submitted by borrowers to ensure that
this information is safeguarded. While this is reassuring, Treasury should require
that all HFAs (and their contractors) have clear and effective policies for handling
this sensitive data in both electronic and physical form. Given that Treasury has
indicated that it is already engaging in compliance reviews in this area, formal guid-
ance and requirements make sense and provide for clear enforcement criteria. The
18 states and the District of Columbia participating in HHF will almost certainly
have varying protocols and resources dedicated to protecting PII from abuse. Some
HFAs may have a more robust protocol than others, and may have ample resources
to protect electronic data through encryption and other software protection. Other
HFAs, however, may require improvements in their handling of PII.
    SIGTARP wants to ensure that homeowners participating in HHF know that
164   special inspector general I troubled asset relief program




                                             their information is safe. A single misuse of PII could cause homeowners to feel
                                             uncomfortable with providing their information, and could deter participation in
                                             HHF and severely damage the credibility of Treasury and TARP. In addition, a
                                             data breach may impose financial costs on the program. It is also imperative that
                                             Treasury require immediate notification by HFAs of any breach of PII protocols or
                                             misuse of PII or other sensitive borrower information.
                                                 Accordingly, SIGTARP made the following recommendation:

                                             Treasury should protect borrower personally identifiable information (“PII”)
                                             and other sensitive borrower information compiled for the Hardest Hit Fund
                                             (“HHF”) by: (1) requiring that within 90 days, all Housing Finance Agencies
                                             (and their contractors) (“HFAs”) participating in HHF develop and implement
                                             effective policies and procedures to ensure protection against unauthorized
                                             access, use, and disposition of PII and other sensitive borrower information;
                                             (2) Treasury reviewing each HFA’s policies and procedures to determine if
                                             they are effective, and taking such action as is required to ensure effective-
                                             ness; (3) requiring that all parties granted access to borrower information
                                             should be made aware of restrictions on copying and disclosing this informa-
                                             tion; (4) requiring annual certification by HFAs to Treasury that that they are
                                             in compliance with all applicable laws, policies and procedures pertaining to
                                             borrower information; and (5) requiring that HFAs promptly notify Treasury
                                             and SIGTARP within 24 hours, when a breach of security has occurred involv-
                                             ing borrower information.
                                                 On January 5, 2012, Treasury responded that it is “exploring the most appropri-
                                             ate and effective way to implement this recommendation. Treasury will provide a
                                             separate response in the near future.” SIGTARP will continue to monitor Treasury’s
                                             plans for implementation of this recommendation.
SIGTARP Recommendations Table
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
1    *    Treasury should include language in the automobile industry
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                 X
          role and expressly giving SIGTARP access to relevant docu-
          ments and personnel.
2    *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made substantial
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      efforts to comply with this recommenda-
          recommends that each program participant should (1)                                                                                tion in many of its agreements, there
          acknowledge explicitly the jurisdiction and authority of                                                                           have been exceptions, including in its
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        agreements with servicers in MHA.
          compliance of the conditions contained in the agreement in
          question, (2) establish internal controls with respect to that                          X
          condition, (3) report periodically to the Compliance depart-
          ment of the Office of Financial Stability (“OFS-Compliance”)
          regarding the implementation of those controls and its com-
          pliance with the condition, and (4) provide a signed certifica-
          tion from an appropriate senior official to OFS-Compliance
          that such report is accurate.
3    *    All existing TARP agreements, as well as those governing
          new transactions, should be posted on the Treasury website             X
          as soon as possible.
4    *    Treasury should require all TARP recipients to report on the
                                                                                 X
          actual use of TARP funds.
5    *    Treasury quickly determines its going-forward valuation
                                                                                 X
          methodology.
6    *    Treasury begins to develop an overall investment strategy to
          address its portfolio of stocks and decide whether it intends          X
          to exercise warrants of common stock.
7    *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted mecha-
          consider requiring, before committing TARP funds to the                                                                            nisms that address this recommendation.
          program, that certain minimum underwriting standards and/
                                                                                 X
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
8    *    Agreements with TALF participants should include an
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                           X
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
9    *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                 X
                                                                                                                                                                                       quarterly report to congress I January 26, 2012




          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
                                                                                                                                                                                       165
                                                                                                                                                                                         166
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10   *    Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
11        Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
12   *    Treasury and the Federal Reserve should provide to SIG-                                                                            On December 1, 2010, the Federal
          TARP, for public disclosure, the identity of the borrowers                                                                         Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *    In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
                                                                                                                                                                                         special inspector general I troubled asset relief program




          particular RMBS do not meet certain baseline underwriting
          criteria or are in categories that have been proven to be
          riddled with fraud, including certain undocumented subprime
          residential mortgages.
14   *    In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15   *    Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted mecha-
          protection provisions, specific to all MBS, before participat-                                                                     nisms that address this recommenda-
                                                                                X
          ing in an expanded TALF, including minimum underwriting                                                                            tion with respect to CMBS, and did not
          standards and other fraud prevention measures.                                                                                     expand TALF to RMBS.
16   *    Treasury should design a robust compliance protocol with
          complete access rights to all TALF transaction participants                                                      X
          for itself, SIGTARP, and other relevant oversight bodies.
17   *    Treasury should not allow Legacy Securities PPIFs to invest
          in TALF unless significant mitigating measures are included           X
          to address these dangers.
18   *    All TALF modeling and decisions, whether on haircuts or any
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X
          TARP funds, and not just potential losses to the Federal
          Reserve.
19   *    Treasury should address the confusion and uncertainty on
          executive compensation by immediately issuing the required            X
          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
20   *    Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *    Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
22   *    Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest PPIF                                                                        recommendation, but has failed to im-
          funds in legacy assets that they hold or manage on behalf                               X                                          pose other significant safeguards.
          of themselves or their clients or (2) conduct PPIF transac-
          tions with entities in which they have invested on behalf of
          themselves or others.
23   *    Treasury should require that all PPIF fund managers (1) have                                                                       Treasury’s agreements with PPIF manag-
          stringent investor-screening procedures, including compre-                                                                         ers include investor-screening procedures
          hensive “Know Your Customer” requirements at least as                                                                              such as “Know Your Customer” require-
          rigorous as that of a commercial bank or retail brokerage                                                                          ments. Treasury has agreed that it will
          operation to prevent money laundering and the participation                                                                        have access to any information in a fund
                                                                                                  X
          of actors prone to abusing the system, and (2) be required                                                                         manager’s possession relating to benefi-
          to provide Treasury with the identities of all the beneficial                                                                      cial owners. However, Treasury did not
          owners of the private interests in the fund so that Treasury                                                                       impose an affirmative requirement that
          can do appropriate diligence to ensure that investors in the                                                                       managers obtain and maintain beneficial
          funds are legitimate.                                                                                                              owner information.
24   *    Treasury should require PPIP managers to provide most
          favored nation clauses to PPIF equity stakeholders, to
                                                                                 X
          acknowledge that they owe Treasury a fiduciary duty, and to
          adopt a robust ethics policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation and
          subject property before funding a mortgage modification.                                                                           stated that its program administrator
                                                                                                                                             Fannie Mae conducted a pilot program
                                                                                                                                             to verify owner occupancy. However, as
                                                                                                                                             discussed in Section 2 of this report, the
                                                                                                             X                               residency requirement for HAFA transac-
                                                                                                                                             tions has been significantly loosened so
                                                                                                                                             that the borrower only needs to demon-
                                                                                                                                             strate that he lives in the residence in the
                                                                                                                                                                                            quarterly report to congress I January 26, 2012




                                                                                                                                             preceding 12 months and Treasury will
                                                                                                                                             not require third party verification of this
                                                                                                                                             requirement.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                            167
                                                                                                                                                                                         168
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
26   *    In MHA, Treasury should require a closing-like procedure be                                                                        Treasury rejected SIGTARP’s recom-
          conducted that would include (1) a closing warning sheet                                                                           mendation for a closing-like procedure.
          that would warn the applicant of the consequences of fraud;                                                                        However, since this recommendation
          (2) the notarized signature and thumbprint of each partici-                                                                        was issued, Treasury has taken several
          pant; (3) mandatory collection, copying, and retention of                                                                          actions to prevent fraud on the part of
          copies of identification documents of all participants in the                                                                      either MHA servicers or applicants.
          transaction; (4) verbal and written warnings regarding hidden                           X
          fees and payments so that applicants are made fully aware
          of them; (5) the benefits to which they are entitled under the
          program (to prevent a corrupt servicer from collecting pay-
          ments from the Government and not passing the full amount
          of the subsidies to the homeowners); and (6) the fact that no
          fee should be charged for the modification.
27        Additional anti-fraud protections should be adopted in MHA                                                                         Treasury stated that its compliance
          to verify the identity of the participants in the transaction                                                                      agent Freddie Mac has developed and
          and to address the potential for servicers to steal from                                                                           implemented procedures to verify that in-
          individuals receiving Government subsidies without applying                                                                        centives paid to servicers are accurately
          them for the benefit of the homeowner.                                                                                             applied to the respective homeowner
                                                                                                             X                               participating in MHA during its servicer
                                                                                                                                                                                         special inspector general I troubled asset relief program




                                                                                                                                             compliance reviews. Treasury also stated
                                                                                                                                             that it has undertaken a pilot program
                                                                                                                                             to verify owner-occupancy and identity.
                                                                                                                                             SIGTARP continues to monitor implemen-
                                                                                                                                             tation of this recommendation.
28   *    In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s recom-
          the income reported on a mortgage modification application                                                                         mendation and does not require income
          with the income reported on the original loan applications.                                                      X                 reported on the modification application
                                                                                                                                             to be compared to income reported on
                                                                                                                                             the original loan application.
29   *    In MHA, Treasury should require that verifiable, third-party
          information be obtained to confirm an applicant’s income              X
          before any modification payments are made.
30   *    In MHA, Treasury should defer payment of the $1,000 incen-                                                                         Rather than deferring payment of the
          tive to the servicer until after the homeowner has verifiably                                                                      incentive until after the homeowner has
          made a minimum number of payments under the mortgage                                                                               verifiably made a minimum number of
          modification program.                                                                                                              payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *    In MHA, Treasury should proactively educate homeowners
          about the nature of the program, warn them about modifica-
                                                                                X
          tion rescue fraudsters, and publicize that no fee is neces-
          sary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
32   *    In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administra-
          the names and identifying information for each participant in                                                                      tor, Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains the
          database of such information.                                                                                                      servicers’ and investors’ names and
                                                                                                                                             participating borrowers’ personally
                                                                                                  X
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *    Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this signifi-
          barriers or “walls” between the PPIF managers making                                                                               cant anti-fraud measure designed to pre-
          investment decisions on behalf of the PPIF and those                                                             X                 vent conflicts of interest. This represents
          employees of the fund management company who manage                                                                                a material deficiency in the program.
          non-PPIF funds.
34   *    Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish on a
          and require PPIF managers to disclose to SIGTARP, within                                                                           quarterly basis certain high-level informa-
          seven days of the close of the quarter, all trading activity,                                                                      tion about aggregated purchases by the
          holdings, and valuations so that SIGTARP may disclose                                                                              PPIFs, but not within seven days of the
          such information, subject to reasonable protections, in its                                                      X                 close of the quarter. Treasury has not
          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35        Treasury should define appropriate metrics and an evalua-                                                                          Even though there has been more than
          tion system should be put in place to monitor the effective-                                                                       two years of trading by the PPIFs, Trea-
          ness of the PPIF managers, both to ensure they are fulfilling                                                                      sury still has not specified a benchmark
          the terms of their agreements and to measure performance.                                                                          by which performance of a PPIF can be
                                                                                                                                             measured. Treasury’s fund manager,
                                                                                                                                             Ennis Knupp, Inc., did not retain a consul-
                                                                                                                           X
                                                                                                                                             tant to assist in developing appropriate
                                                                                                                                             risk and performance metrics for the
                                                                                                                                             PPIP program and for the individual PPIFs
                                                                                                                                             until August 2011. SIGTARP will continue
                                                                                                                                             to monitor Treasury’s progress in this
                                                                                                                                             area.
36   *    The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this recom-
          PPIF manager should be expanded to include a manager’s                                                                             mendation, relying solely on Treasury’s
          performance below a certain standard benchmark, or if                                                                              right to end the investment period after
          Treasury concludes that the manager has materially violated                                                      X                 12 months. That timeframe has already
          compliance or ethical rules.                                                                                                       expired. Treasury’s failure to adopt this
                                                                                                                                             recommendation potentially puts signifi-
                                                                                                                                             cant Government funds at risk.
37   *    Treasury should require PPIF managers to disclose to Trea-
          sury, as part of the Watch List process, not only information
                                                                                                                                                                                           quarterly report to congress I January 26, 2012




                                                                                X
          about holdings in eligible assets but also holdings in related
          assets or exposures to related liabilities.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                           169
                                                                                                                                                                                             170
 SIGTARP Recommendations Table                     (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
38        Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund man-
          the private equity interests, and Treasury should have the                                                                         ager’s possession relating to beneficial
          unilateral ability to prohibit participation of private equity                                                                     owners. However, Treasury is not making
          investors.                                                                                                                         an affirmative requirement that manag-
                                                                                                                           X                 ers obtain and maintain beneficial owner
                                                                                                                                             information. Treasury will not adopt the
                                                                                                                                             recommendation to give itself unilateral
                                                                                                                                             ability to deny access to or remove an
                                                                                                                                             investor, stating that such a right would
                                                                                                                                             deter participation.
39   *    Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential over-
          to give a potential TALF security the necessary AAA rating                                                                         rating or rating shopping with the rating
                                                                                 X
          and (2) develop mechanisms to ensure that acceptance of                                                                            agencies, and have agreed to continue to
          collateral in TALF is not unduly influenced by the improper                                                                        develop and enhance risk management
          incentives to overrate that exist among the credit agencies.                                                                       tools and processes, where appropriate.
40   *    Treasury should more explicitly document the vote of each
                                                                                                                                                                                             special inspector general I troubled asset relief program




          Investment Committee member for all decisions related to               X
          the investment of TARP funds.
41   *    Treasury should improve existing control systems to docu-
          ment the occurrence and nature of external phone calls and
          in-person meetings about actual and potential recipients of            X
          funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
42   *    The Secretary of the Treasury should direct the Special
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                 X
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal as-
          sistance provided.
43   *    Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not anticipate
          future decisions to take a substantial ownership position in                                                                       taking a substantial percentage owner-
          financial institutions that would require an advance review                                                                 X      ship position in any other financial institu-
          so that Treasury can be reasonably aware of the obligations                                                                        tion pursuant to EESA.
          and challenges facing such institutions.
44   *    Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
45        Treasury should rectify the confusion that its own state-                                                                          Despite SIGTARP’s repeated highlighting
          ments have caused for HAMP by prominently disclosing                                                                               of this essential transparency and effec-
          its goals and estimates (updated over time, as necessary)                                                                          tiveness measure, Treasury has refused
                                                                                                                           X
          of how many homeowners the program will help through                                                                               to disclose clear and relevant goals and
          permanent modifications and report monthly on its progress                                                                         estimates for the program.
          toward meeting that goal.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP Recommendations Table                     (continued)

                                                                                              Partially                    Not
          Recommendation                                                      Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
46        Treasury should develop other performance metrics and                                                                               Although Treasury has increased its
          publicly report against them to measure over time the imple-                                                                        reporting of servicer performance, it has
          mentation and success of HAMP. For example, Treasury                                                                                not identified goals for each metric and
          could set goals and publicly report against those goals for                                                                         measured performance against those
          servicer processing times, modifications as a proportion of                             X                                           goals.
          a servicer’s loans in default, modifications as a proportion
          of foreclosures generally, rates of how many borrowers fall
          out of the program prior to permanent modification, and
          re-default rates.
47        Treasury should undertake a sustained public service
          campaign as soon as possible, both to reach additional bor-
          rowers who could benefit from the program and to arm the                 X
          public with complete, accurate information – this will help to
          avoid confusion and delay, and prevent fraud and abuse.
48        Treasury should reconsider its position that allows servicers
          to substitute alternative forms of income verification based                                                      X
          on subjective determinations by the servicer.
49        Treasury should re-examine HAMP’s structure to ensure that                                                                          Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                         assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                           concerns of negative equity but has not
          resets after the five-year modifications end, and from many                                                                         addressed other factors contained in this
          borrowers being underwater.                                                                                                         recommendation.
50        Treasury should institute careful screening before putting
          additional capital through CDCI into an institution with insuffi-
                                                                                   X
          cient capital to ensure that the TARP matching funds are not
          flowing into an institution that is on the verge of failure.
51        Treasury should develop a robust procedure to audit and
          verify the bona fides of any purported capital raise in CDCI
                                                                                   X
          and to establish adequate controls to verify the source,
          amount and closing of all claimed private investments.
52        Treasury should revise CDCI terms to clarify that Treasury
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                       X
          programs, the terms should be revised to provide expressly
          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
53        Treasury should consider more frequent surveys of a CDCI
          participant’s use of TARP funds than annually as currently
                                                                                                                            X
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
54        Treasury should ensure that more detail is captured by the                                                                          Treasury has indicated that it has imple-
          Warrant Committee meeting minutes. At a minimum, the                                                                                mented this recommendation. Although
          minutes should include the members’ qualitative consider-                                                                           the detail of the minutes has improved,
                                                                                                                                                                                           quarterly report to congress I January 26, 2012




                                                                                   X
          ations regarding the reasons bids were accepted or rejected                                                                         Treasury is still not identifying how each
          within fair market value ranges.                                                                                                    member of the committee casts his or
                                                                                                                                              her vote.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                            Continued on next page.
                                                                                                                                                                                           171
 SIGTARP Recommendations Table                     (continued)                                                                                                                               172
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
55        Treasury should document in detail the substance of all com-                                                                       Treasury has agreed to document the
          munications with recipients concerning warrant repurchases.                                                                        dates, participants, and subject line of
                                                                                                                           X
                                                                                                                                             calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *    Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this recommenda-
          will be pursued, including the degree and nature of informa-                                                                       tion, including a policy to discuss only
          tion to be shared with repurchasing institutions concerning                                                                        warrant valuation inputs and methodolo-
          Treasury’s valuation of the warrants.                                                                                              gies prior to receiving a bid, generally
                                                                                                                                             to limit discussion to valuation ranges
                                                                                                  X                                          after receiving approval from the Warrant
                                                                                                                                             Committee, and to note the provision of
                                                                                                                                             any added information in the Committee
                                                                                                                                             minutes. However, Treasury believes that
                                                                                                                                             its existing internal controls are sufficient
                                                                                                                                             to ensure adequate consistency in the
                                                                                                                                             negotiation process.
57   *    Treasury should promptly take steps to verify TARP partici-                                                                        Although Treasury largely continues to
          pants’ conformance to their obligations, not only by ensuring                                                                      rely on self-reporting, stating that it only
          that they have adequate compliance procedures but also by                                                                          plans to conduct testing where they have
                                                                                                                                                                                             special inspector general I troubled asset relief program




          independently testing participants’ compliance.                                                                                    particular concerns as to a TARP recipi-
                                                                                                  X
                                                                                                                                             ent’s compliance procedures or testing
                                                                                                                                             results, it has conducted independent
                                                                                                                                             testing of compliance obligations during
                                                                                                                                             some compliance reviews.
58   *    Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
          across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
          material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
          all violations be reported.                                                                                                        that were remaining in TARP as of June
                                                                                                  X                                          30, 2011. Treasury has not addressed
                                                                                                                                             other factors contained in this recom-
                                                                                                                                             mendation, citing its belief that mate-
                                                                                                                                             riality should be subject to a fact and
                                                                                                                                             circumstances review.
59        For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected participa-                                                                       but not expected participation.
          tion in each and that, after each program is launched, it                               X
          report monthly as to the program’s performance against
          these expectations.
60   *    Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the volun-
          principal reduction program and, irrespective of whether it                                                                        tary nature of the program, providing
          is discretionary or mandatory, consider changes to better                                                                          an explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated bor-                                                                       continue to monitor performance.
          rowers, and address potential conflict of interest issues.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
61        Treasury should adopt a uniform appraisal process across
          all HAMP and HAMP-related short-sale and principal reduc-                                                        X
          tion programs consistent with FHA’s procedures.
62   *    Treasury should reconsider the length of the minimum term                                                                          For more than a year, Treasury refused to
          of HAMP’s unemployment forbearance program.                                                                                        adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                                 X                                                           the Administration announced a policy
                                                                                                                                             change, and Treasury has extended the
                                                                                                                                             minimum term of the unemployment pro-
                                                                                                                                             gram from three months to 12 months,
                                                                                                                                             effective October 1, 2011.
63        Treasury should launch a broad-based information campaign,
          including public service announcements in target markets
          that focus on warnings about potential fraud, and include              X
          conspicuous fraud warnings whenever it makes broad public
          announcements about the HAMP program.
64        When Treasury considers whether to accept an existing CPP
          participant into SBLF, because conditions for many of the
          relevant institutions have changed dramatically since they
          were approved for CPP, Treasury and the bank regulators                X
          should conduct a new analysis of whether the applying insti-
          tution is sufficiently healthy and viable to warrant participa-
          tion in SBLF.
65        When Treasury conducts the new analysis of an institution’s                                                                        Treasury has refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applica-
                                                                                                                                             tions if their existing CPP investments
                                                                                                                           X
                                                                                                                                             are not counted as part of their capital
                                                                                                                                             base, and that SBLF “already provides
                                                                                                                                             substantial hurdles that CPP recipients
                                                                                                                                             must overcome” that don’t apply to other
                                                                                                                                             applicants.
66        Treasury should take steps to prevent institutions that are                                                                        Treasury has refused to adopt this recom-
          refinancing into the SBLF from CPP from securing windfall                                                                          mendation, suggesting that its adoption
          dividend reductions without any relevant increase in lending.                                                                      would subvert the will of Congress and
                                                                                                                           X                 that SIGTARP’s recommendation “may
                                                                                                                                             not be helpful” because “it is unclear that
                                                                                                                                             using this statutorily mandated baseline
                                                                                                                                             will lead to anomalies.”
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                           quarterly report to congress I January 26, 2012
                                                                                                                                                                                           173
                                                                                                                                                                                             174
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
67   *    Treasury, as part of its due diligence concerning any
          proposed restructuring, recapitalization, or sale of its CPP
          investment to a third party, should provide to SIGTARP the
          identity of the CPP institution and the details of the proposed        X
          transaction.



68   *    When a CPP participant refinances into SBLF and seeks ad-
          ditional taxpayer funds, Treasury should provide to SIGTARP
                                                                                 X
          the identity of the institution and details of the proposed
          additional SBLF investment.
69   *    OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
          contained in the FDIC’s Outside Counsel Deskbook, or estab-                                                                        created new guidance using the FDIC’s
          lish similarly detailed requirements for how law firms should                                                                      Outside Counsel Deskbook and other
                                                                                 X
          prepare legal fee bills and describe specific work performed                                                                       resources.
          in the bills, and which costs and fees are allowable and
          unallowable.
70   *    OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
                                                                                                                                                                                             special inspector general I troubled asset relief program




          detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all law
          submission of legal fee bills, or separately provide the                                                                           firms currently under contract to OFS.
          instructions to law firms and modify its open contracts, mak-                                                                      Treasury further stated that OFS will work
                                                                                                             X
          ing application of the instructions mandatory.                                                                                     with Treasury’s Procurement Services Di-
                                                                                                                                             vision to begin modifying base contracts
                                                                                                                                             for OFS legal services to include those
                                                                                                                                             standards as well.
71   *    OFS should adopt the legal fee bill review standards and pro-                                                                      Treasury told SIGTARP that OFS has held
          cedures contained in the FDIC’s Outside Counsel Deskbook,                                                                          training on its newly adopted guidance
          or establish similarly specific instructions and guidance                                                                          prescribing how legal fee bills should be
          for OFS COTRs to use when reviewing legal fee bills, and                                                                           prepared with OFS COTRs and other staff
          incorporate those instructions and guidance into OFS written                                                                       involved in the review of legal fee bills,
          policies.                                                                                                                          and that the OFS COTRs will begin review-
                                                                                                             X
                                                                                                                                             ing invoices in accordance with its new
                                                                                                                                             guidance for periods starting with March
                                                                                                                                             2011. Treasury also stated that OFS will
                                                                                                                                             work to incorporate relevant portions of
                                                                                                                                             its training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
72   *    OFS should review previously paid legal fee bills to identify                                                                      Treasury told SIGTARP that Treasury
          unreasonable or unallowable charges, and seek reimburse-                                                                           procurement is trying to determine what
                                                                                                             X
          ment for those charges, as appropriate.                                                                                            action, if any, is appropriate with other
                                                                                                                                             legal service contracts.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP Recommendations Table                     (continued)

                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
73   *    Treasury should establish detailed guidance and internal                                                                           Treasury made important changes to
          controls governing how the MHA Servicer Compliance As-                                                                             its servicer assessments by including
          sessment will be conducted and how each compliance area                                                                            metrics for the ratings, including several
          will be weighted.                                                                                                                  quantitative metrics. However, qualitative
                                                                                                                                             metrics to assess the servicer’s internal
                                                                                                  X                                          controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for rat-
                                                                                                                                             ing the effectiveness of internal controls
                                                                                                                                             are still necessary. SIGTARP will continue
                                                                                                                                             to monitor Treasury’s implementation of
                                                                                                                                             this recommendation.
74   *    Treasury should ensure that more detail is captured by the                                                                         Minutes of recent MHA Compliance Com-
          MHA Compliance Committee meeting minutes. At a mini-                                                                               mittee meetings contain brief explana-
          mum, the minutes should include MHA-C’s proposed rating                                                                            tions of servicer assessment rating
          for each servicer, the committee members’ qualitative and                                                                          decisions. However, these minutes do
          quantitative considerations regarding each servicer’s rat-                                                                         not explain the Committee’s deliberations
          ings, the votes of each committee member, the final rating                              X                                          in detail, do not indicate how members
          for each servicer, justification for any difference in that rat-                                                                   voted beyond a tally of the votes, and do
          ing with MHA-C’s proposed rating, and any follow-up includ-                                                                        not discuss follow-up actions or escala-
          ing escalation to Treasury’s Office of General Counsel or the                                                                      tion. SIGTARP will continue to monitor
          Assistant Secretary and the outcomes of that escalation.                                                                           Treasury’s implementation of the recom-
                                                                                                                                             mendation.
75   *    Treasury should require that MHA servicer communications                                                                           Treasury has refused to adopt this rec-
          with homeowners relating to changes in the status or terms                                                                         ommendation, saying it already requires
          of a homeowner’s modification application, trial or perma-                                                                         a loan servicer to communicate in writing
          nent modification, HAFA agreement, or any other significant                                                                        with a borrower an average of 10 times.
          change affecting the homeowner’s participation in the MHA                                                                          However, most written requirements ap-
                                                                                                                           X
          program, be in writing.                                                                                                            ply to a HAMP application and Treasury’s
                                                                                                                                             response fails to address homeowners
                                                                                                                                             who receive miscommunication from
                                                                                                                                             servicers on important milestones or
                                                                                                                                             changes.
76   *    Treasury should establish benchmarks and goals for accept-                                                                         Treasury told SIGTARP that it already
          able program performance for all MHA servicers, including                                                                          established benchmarks in this area,
          the length of time it takes for trial modifications to be con-                                                                     including that trialperiods should last
          verted into permanent modifications, the conversion rate for                                                                       three to four months, and escalated
          trial modifications into permanent modifications, the length                                                                       cases should be resolved in 30 days. If
          of time it takes to resolve escalated homeowner complaints,                                                      X                 these are the benchmarks for accept-
          and the percentage of required modification status reports                                                                         able performance, many servicers have
          that are missing.                                                                                                                  missed the mark. Also, Treasury has yet
                                                                                                                                             to establish a benchmark for conversion
                                                                                                                                             rates from trial modifications to perma-
                                                                                                                                             nent modifications.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                           quarterly report to congress I January 26, 2012
                                                                                                                                                                                           175
                                                                                                                                                                                        176
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
77        Treasury should publicly assess the top 10 MHA servicers’                                                                          Treasury rejected this recommendation,
          program performance against acceptable performance                                                                                 saying only that it would “continue to
          benchmarks in the areas of: the length of time it takes for                                                                        develop and improve the process where
          trial modifications to be converted into permanent modifica-                                                                       appropriate.”
                                                                                                                           X
          tions, the conversion rate for trial modifications into per-
          manent modifications, the length of time it takes to resolve
          escalated homeowner complaints, and the percentage of
          required modification status reports that are missing.
78   *    Treasury must ensure that all servicers participating in MHA                                                                       See discussion in this section.
          comply with program requirements by vigorously enforcing
          the terms of the servicer participation agreements, including
          using all financial remedies such as withholding, permanently
                                                                                                                           X
          reducing, and clawing back incentives for servicers who fail
          to perform at an acceptable level. Treasury should be trans-
          parent and make public all remedial actions taken against
          any servicer.
79        Treasury should specifically determine the allowability of                                                                         Treasury neither agreed nor disagreed
          $7,980,215 in questioned, unsupported legal fees and                                                                               with the recommendation.
          expenses paid to the following law firms: Thacher & Bartlett
                                                                                                                                                                                        special inspector general I troubled asset relief program




          LLP ($5,791,724); Cadwalader Wickersham & Taft LLP                                                               X
          ($1,983,685); Locke Lord Bissell & Liddell LLP ($146,867);
          and Bingham McCutchen LLP (novated from McKee Nelson
          LLP, $57,939).
80        The Treasury contracting officer should disallow and seek                                                                          Treasury neither agreed nor disagreed
          recovery from Simpson Thacher & Bartlett LLP for $96,482                                                                           with the recommendation.
          in questioned, ineligible fees and expenses paid that were
          not allowed under the OFS contract. Specifically, those are
                                                                                                                           X
          $68,936 for labor hours billed at rates in excess of the
          allowable maximums set in contract TOFS-09-0001, task or-
          der 1, and $22,546 in other direct costs not allowed under
          contract TOFS-09-007, task order 1.
81        Treasury should promptly review all previously paid legal fee                                                                      Treasury neither agreed nor disagreed
          bills from all law firms with which it has a closed or open                                                                        with the recommendation.
                                                                                                                           X
          contract to identify unreasonable or unallowable charges
          and seek reimbursement for those charges, as appropriate.
82        Treasury should require in any future solicitation for legal                                                                       Treasury neither agreed nor disagreed
          services multiple rate categories within the various partner,                                                                      with the recommendation.
          counsel, and associate labor categories. The additional                                                          X
          labor rate categories should be based on the number of
          years the attorneys have practiced law.
83        Treasury should pre-approve specified labor categories and                                                                         Treasury neither agreed nor disagreed
          rates of all contracted legal staff before they are allowed to                                                   X                 with the recommendation.
          work on and charge time to OFS projects.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
 SIGTARP Recommendations Table                   (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
84        Treasury, in consultation with Federal banking regula-                                                                             See discussion in this section.
          tors, should develop a clear TARP exit path to ensure that
          as many community banks as possible repay the TARP
          investment and prepare to deal with the banks that cannot.
                                                                                                                           X
          Treasury should develop criteria pertaining to restructurings,
          exchanges, and sales of its TARP investments (including any
          discount of the TARP investment, the treatment of unpaid
          TARP dividend and interest payments, and warrants).
85        Treasury should assess whether it should renegotiate the                                                                           See discussion in this section.
          terms of its Capital Purchase Program contracts for those
          community banks that will not be able to exit TARP prior to                                                      X
          the dividend rate increase in order to help preserve the value
          of taxpayers’ investments.
86        Treasury should protect borrower personally identifiable in-                                                                       See discussion in this section.
          formation (“PII”) and other sensitive borrower information
          compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring
          that within 90 days, all Housing Finance Agencies (and their
          contractors) (“HFAs”) participating in HHF develop and imple-
          ment effective policies and procedures to ensure protection
          against unauthorized access, use, and disposition of PII and
          other sensitive borrower information; (2) Treasury reviewing
          each HFA’s policies and procedures to determine if they are
          effective, and taking such action as is required to ensure ef-                                                   X
          fectiveness; (3) requiring that all parties granted access to
          borrower information should be made aware of restrictions
          on copying and disclosing this information; (4) requiring an-
          nual certification by HFAs to Treasury that that they are in
          compliance with all applicable laws, policies and procedures
          pertaining to borrower information; and (5) requiring that
          HFAs promptly notify Treasury and SIGTARP within 24 hours,
          when a breach of security has occurred involving borrower
          information.
87        To ensure that the Office of the Special Master consistently                                                                       See discussion in this section.
          grants exceptions to the $500,000 cash salary cap, the
          Office of the Special Master should substantiate each excep-
          tion requested and whether the requests demonstrate or fail
          to demonstrate “good cause.”
88        The Office of the Special Master should better document                                                                            See discussion in this section.
          its use of market data in its calculations. At a minimum, the
          Office of the Special Master should prospectively document
          which companies and employees are used as comparisons
          in its analysis of the 50th percentile of the market, and it
          should also maintain records and data so that the relation-
          ship between its determinations and benchmarks are clearly
          understood.
                                                                                                                                                                                        quarterly report to congress I January 26, 2012




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                        177
                                                                                                                                                                               178
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
89        The Office of the Special Master should develop more robust                                                                        See discussion in this section.
          policies, procedures, or guidelines to help ensure that its pay
          determination process and its decisions are evenhanded.
          These measures will improve transparency and help the
          Office of the Special Master consistently apply the Interim
          Final Rule principles of “appropriate allocation,” “perfor-
          mance-based compensation,” and “comparable structures
          and payments.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                               special inspector general I troubled asset relief program
                                                                                            quarterly report to congress I January 26, 2012                  179


1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
       Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 1/8/2012.
4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
6.	    Treasury, Daily TARP Update, 1/3/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
       TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2001.03.2012.pdf, accessed 1/19/2012.
7.	    Treasury, Section 105(a) Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
       December%202011%20105(a)%20Report.pdf, accessed 1/10/2012.
8.	    Treasury, response to SIGTARP data call, 1/5/2012.
9.	    Treasury, Section 105(a) Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
       December%202011%20105(a)%20Report.pdf, accessed 1/10/2012.
10.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, cboblog.cbo.gov/?p=231, accessed 1/8/2012; CBO, “The Troubled Asset
       Relief Program: Report on Transactions Through June 17, 2009,” 6/2009, www.cbo.gov/ftpdocs/100xx/doc10056/06-29-TARP.pdf, accessed
       1/8/2012; OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/
       spec.pdf, accessed 1/8/2012.
11.	   OMB, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 11/8/2011, www.whitehouse.gov/sites/default/files/omb/
       reports/emergency-economic-stabilization-act-of-2008.pdf, accessed 12/15/2011.
12.	   OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2012,” 2/14/2011, www.gpoaccess.gov/usbudget/fy12/pdf/
       BUDGET-2012-PER.pdf, accessed 1/8/2012.
13.	   Treasury, “Office of Financial Stability –Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 11/21/2011.
14.	   Treasury, “Office of Financial Stability –Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 11/21/2011.
15.	   Treasury, “Office of Financial Stability –Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 11/21/2011.
16.	   CBO, “Report on the Troubled Asset Relief Program—December 2011,” December 16, 2011, www.cbo.gov/doc.cfm?index=12611, accessed
       12/21/2012.
17.	   Treasury, response to SIGTARP data call, 1/5/2012.
18.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
19.	   Treasury, response to SIGTARP data call, 1/5/2012.
20.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
21.	   Treasury, Daily TARP Update, 1/3/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
       TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2001.03.2012.pdf, accessed 1/8/2012; Treasury, response to SIGTARP vetting
       draft, 10/3/2011.
22.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
       Treasury, response to SIGTARP data call, 1/4/2012.
23.	   Treasury, response to SIGTARP data call, 1/5/2012.
24.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
       press-center/press-releases/Pages/tg48.aspx, accessed 1/8/2012.
25.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/8/2012.
26.	   Treasury, “Home Affordable Modification Program — Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 1/8/2012.
27.	   Treasury, response to SIGTARP data call, 1/5/2012.
28.	   Treasury, response to SIGTARP data call, 1/5/2012.
29.	   Treasury, response to SIGTARP data call, 1/20/2012.
30.	   Treasury, response to SIGTARP data call, 1/20/2012.
31.	   Treasury, response to SIGTARP data call, 1/20/2012.
32.	   Treasury, response to SIGTARP data call, 1/20/2012.
33.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
       president-obama-announces-help-hardest-hit-housing-markets, accessed 1/11/2012.
34.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
35.	   Treasury, response to SIGTARP data call, 1/5/2012.
36.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
37.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
       cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/8/2012.
38.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
       cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/8/2012.
39.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
180            special inspector general I troubled asset relief program



      40.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      41.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      42.	   Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/resource-center/faqs/Pages/default.aspx, accessed 1/8/2012.
      43.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      44.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      45.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
             1/8/2012.
      46.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      47.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/8/2012; Treasury Press
             Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
             tg996.aspx, accessed 1/8/2012.
      48.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/8/2012.
      49.	   AIG, 10-Q, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/8/2012; FRBNY,
             response to SIGTARP draft report, 1/12/2011; FRBNY, response to SIGTARP draft report, 4/12/2011.
      50.	   AIG, 10-Q, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/8/2012.
      51.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/8/2012;
             Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      52.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 1/8/2012.
      53.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      54.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      55.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      56.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 1/8/2012.
      57.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-
             center/press-releases/Pages/hp1358.aspx, accessed 1/8/2012.
      58.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
             Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
             pdf, accessed 1/8/2012.
      59.	   Treasury, Section 105(a) Report, 1/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARP%20
             105(a)%20Report%20January%202011_final.pdf, accessed 1/8/2012.
      60.	   Treasury, response to SIGTARP vetting draft, 10/8/2010.
      61.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      62.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/8/2012.
      63.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 1/8/2012.
      64.	   FRBNY, response to SIGTARP data call, 1/5/2012.
      65.	   FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
             1/8/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/TALF_
             recent_operations.html, accessed 1/8/2012; FRBNY, response to SIGTARP data call, 1/5/2012.
      66.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 1/8/2012;
             FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_recent_
             operations.html, accessed 1/8/2012; FRBNY, response to SIGTARP data call, 1/5/2012.
      67.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/8/2012.
      68.	   FRBNY, response to SIGTARP data call, 1/5/2012.
      69.	   Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
             protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
             monetary/20100720a.htm, accessed 1/8/2012.
      70.	   FRBNY, response to SIGTARP data call, 1/5/2012.
      71.	   Treasury, “Road to Stability — Legacy Securities Public-Private Investment Program,” 10/20/2010, www.treasury.gov/initiatives/financial-
             stability/programs/Credit%20Market%20Programs/ppip/Pages/publicprivatefund.aspx, accessed 1/8/2012.
      72.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
             Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended September 30, 2011, www.treasury.gov/
             initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%2009-2011.pdf, p. 4, accessed
             1/19/2012.
                                                                                         quarterly report to congress I January 26, 2012                181


73.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
       Treasury, response to SIGTARP data call, 1/4/2012.
74.	   Treasury, response to SIGTARP draft report, 10/8/2010.
75.	   Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
       tg58.aspx, accessed 1/8/2012.
76.	   Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
       www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/
       Coastal%20Securities,%20Inc.pdf, accessed 1/8/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities
       Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-
       Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).
       pdf, accessed 1/8/2012.
77.	   Treasury, “Financial Agency Agreement for Asset Management Services for SBA Related Loans and Securities,” 3/16/2009, www.treasury.gov/
       initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/TARP%20FAA%20SBA%20Asset%20Manager%20-%20Final%20
       to%20be%20posted.pdf, accessed 1/8/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
       by SBA Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
       Documents_Contracts_Agreements/Coastal%20Securities,%20Inc.pdf, accessed 1/8/2012; Treasury, “Master Purchase Agreement for SBA
       Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/
       programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20
       Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 1/8/2012.
78.	   Treasury, response to SIGTARP data call, 1/5/2012; Treasury, “Treasury Announces Sale of Four SBA 7(a) Securities,” 9/21/2011, www.treasury.
       gov/press-center/press-releases/Pages/tg1302.aspx, accessed 1/8/2012.
79.	   Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
       Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 1/8/2012.
80.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
81.	   Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
       DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/10/2012.
82.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
83.	   SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/audits.shtml, accessed
       1/8/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
84.	   Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, www.
       treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 1/8/2012.
85.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
86.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
87.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
88.	   Chrysler, “Q1 2011 Results Review (Preliminary),” 5/2/2011, media.chrysler.com/newsrelease.do;jsessionid=23C1FD542488367DE927D7C
       03E92EAB0?&id=10867&mid=2, accessed 1/8/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_
       INVESTMENT.pdf, accessed 1/10/2012.
89.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
       tg1253.aspx, accessed 1/8/2012.
90.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
       tg1253.aspx, accessed 1/8/2012.
91.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
92.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
93.	   SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
       data/40729/000119312511142459/ds1a.htm, accessed 1/8/2012.
94.	   SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
       data/40729/000119312511142459/ds1a.htm, accessed 1/8/2012.
95.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
96.	   Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.financialreformwatch.com/uploads/
       file/Treasury%20-%20Auto%20Supplier%20Support%20Program.pdf, accessed 1/8/2012.
97.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
98.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
182              special inspector general I troubled asset relief program



      99.	    Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
              President-on-the-mortgage-crisis/, accessed 1/6/2012.
      100.	   Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
              releases/Pages/tg33.aspx, accessed 1/6/2012.
      101.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 1/6/2012.
      102.	   Treasury, “Troubled Asset Relief Program: Two Year Retrospective, 10/5/2010, www.treasury.gov/press-center/news/Documents/TARP%20
              Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 1/6/2012.
      103.	   Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf,
              accessed 1/6/2012.
      104.	   Treasury, Daily TARP Update, 1/3/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
              TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2001.03.2012.pdf, accessed 1/4/2012; Treasury, Transactions Report-Housing,
              12/27/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/HAMP%20
              Transactions%20Report%20as%20of%2012.27.2011.pdf, accessed 1/6/2012.
      105.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/6/2012.
      106.	   Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
              5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 1/6/2012.
      107.	   Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      108.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      109.	   Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
              alternatives.jsp, accessed 1/6/2012.
      110.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      111.	   Treasury, response to SIGTARP data call, 1/5/2012.
      112.	   Treasury, response to SIGTARP data call, 1/20/2012.
      113.	   Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal
              Housing Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 1/6/2012; Treasury,
              “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
              9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 1/6/2012; Department of Veterans Affairs, “Revised VA
              Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circulars/26_10_6.pdf, accessed 1/6/2012.
      114.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/6/2012.
      115.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/6/2012.
      116.	   Treasury, Daily TARP Update, 1/3/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
              TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2001.03.2012.pdf, accessed 1/4/2012.
      117.	   Treasury, Daily TARP Update, 1/3/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
              TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2001.03.2012.pdf, accessed 1/4/2012.
      118.	   Treasury, Transactions Report-Housing,12/27/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2012.27.2011.pdf, accessed 1/20/2012.
      119.	   Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.
              hmpadmin.com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 1/6/2012.
      120.	   Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.
              hmpadmin.com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 1/6/2012.
      121.	   Treasury, response to SIGTARP data call, 1/5/2012.
      122.	   Treasury, response to SIGTARP data call, 1/20/2012.
      123.	   Treasury, response to SIGTARP data call, 1/5/2012.
      124.	   Treasury, response to SIGTARP data call, 1/20/2012.
      125.	   Treasury, response to SIGTARP data call, 1/20/2012.
      126.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 1/6/2012.
      127.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      128.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      129.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      130.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      131.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      132.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      133.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
                                                                                      quarterly report to congress I January 26, 2012               183


134.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
135.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
136.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
137.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/6/2012.
138.	 Treasury, response to SIGTARP data call, 1/20/2012.
139.	 SIGTARP, “Quarterly Report to Congress,” 10/27/2011, www.sigtarp.gov/reports/congress/2011/October2011_Quarterly_Report_to_Congress.
      pdf, accessed 1/21/2012.
140.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
141.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/6/2012.
142.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/6/2012.
143.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
144.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
      Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 1/6/2012.
145.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 1/6/2012.
146.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 1/6/2012.
147.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
148.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 1/6/2012.
149.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 1/6/2012.
150.	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd0901.pdf, accessed 1/6/2012.
151.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
152.	 Treasury, Transactions Report-Housing,12/27/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2012.27.2011.pdf, accessed 1/20/2012.
153.	 Treasury, response to SIGTARP data call, 1/20/2012.
154.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
155.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 1/6/2012.
156.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 1/6/2012.
157.	 Treasury, response to SIGTARP data call, 1/10/2012.
158.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 1/6/2012.
159.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 1/6/2012.
160.	 International Business Machines Corporation, “IBM Closes Acquisition of Wilshire Credit Corporation Assets,”3/1/2010, www-03.ibm.com/
      press/us/en/pressrelease/29532.wss, accessed 1/18/2012.
161.	 International Business Machines Corporation, “IBM Announces Agreement to Acquire Wilshire Credit Corporation Assets,” 10/5/2009, www-
      03.ibm.com/press/us/en/pressrelease/28556.wss, accessed 1/18/2012.
162.	 Treasury, “November 2011 Making Home Affordable Report,” 1/9/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
      Documents/FINAL_Nov%202011%20MHA%20Report.pdf, accessed 1/18/2012.
163.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
164.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
      www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 1/6/2012.
165.	 Treasury, response to SIGTARP data call, 1/5/2012.
166.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 1/6/2012.
167.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
      servicer/praoverviewnongse.pdf, accessed 1/6/2012.
168.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
184            special inspector general I troubled asset relief program



            initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      169.	 Treasury, response to SIGTARP data call, 1/20/2012.
      170.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
            initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      171.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
            initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      172.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
            initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      173.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
            initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      174.	 Treasury, response to SIGTARP data call, 1/20/2012.
      175.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” www.treasury.gov/initiatives/
            financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      176.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 1/6/2012.
      177.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      178.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 1/6/2012.
      179.	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010, www.
            hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 1/6/2012.
      180.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      181.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 1/6/2012.
      182.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 1/6/2012.
      183.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 1/6/2012.
      184.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      185.	 Treasury, response to SIGTARP data call, 1/5/2012.
      186.	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
            press-center/press-releases/Pages/tg614.aspx, accessed 1/6/2012.
      187.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 1/6/2012.
      188.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 1/6/2012.
      189.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 1/6/2012.
      190.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      191.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 1/6/2012.
      192.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1004.pdf, accessed 1/6/2012.
      193.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 1/6/2012.
      194.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 1/6/2012.
      195.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      196.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
            gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 1/6/2012.
      197.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      198.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 1/6/2012.
      199.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 1/6/2012.
      200.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 1/6/2012; Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009,
            www.hmpadmin.com/portal/news/docs/2009/hampupdate113009.pdf, accessed 1/6/2012.
      201.	 Treasury, response to SIGTARP data call, 1/4/2012.
      202.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” www.hmpadmin.com/portal/
                                                                                    quarterly report to congress I January 26, 2012              185


      programs/docs/hamp_servicer/sd1108.pdf, accessed 1/6/2012.
203.	 Treasury, response to SIGTARP data call, 1/10/2012.
204.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” 8/9/2011, www.hmpadmin.
      com/portal/programs/docs/hamp_servicer/sd1108.pdf, accessed 1/6/2012.
205.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/6/2012.
206.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” 8/9/2011, www.hmpadmin.
      com/portal/programs/docs/hamp_servicer/sd1108.pdf, accessed 1/6/2012.
207.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/6/2012.
208.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 1/6/2012.
209.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/6/2012.
210.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/6/2012.
211.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/6/2012.
212.	 Treasury, response to SIGTARP data call, 1/20/2012.
213.	 Treasury, response to SIGTARP data call, 1/20/2012.
214.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
215.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 1/6/2012.
216.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 1/6/2012.
217.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 1/6/2012.
218.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 1/6/2012.
219.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 1/6/2012.
220.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 1/6/2012.
221.	 Treasury, “November 2011 Making Home Affordable Report,” 1/9/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
      Documents/FINAL_Nov%202011%20MHA%20Report.pdf, accessed 1/18/2012.
222.	 Treasury, “November 2011 Making Home Affordable Report,” 1/9/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
      Documents/FINAL_Nov%202011%20MHA%20Report.pdf, accessed 1/18/2012.
223.	 Treasury, response to SIGTARP data call, 1/20/2012.
224.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 1/6/2012.
225.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 1/6/2012.
226.	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
      Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 1/6/2012.
227.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 1/6/2012.
228.	 Treasury, response to SIGTARP data call, 10/21/2011.
229.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 1/6/2012.
230.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 1/6/2012.
231.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 1/6/2012.
232.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 1/6/2012.
233.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 1/6/2012;
      Treasury, “Supplemental Directive 10-12: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) Effective Date,”
      9/24/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1012.pdf, accessed 1/6/2012.
234.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
      FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
      accessed 1/6/2012.
235.	 Treasury, response to SIGTARP data call, 1/4/2012.
236.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
186             special inspector general I troubled asset relief program



              FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
              accessed 1/6/2012.
      237.	   Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
              Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 1/6/2012.
      238.	   Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
              Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 1/6/2012.
      239.	   Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” www.treasury.gov/initiatives/
              financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      240.	   Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
              www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 1/6/2012.
      241.	   Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
              www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 1/6/2012.
      242.	   Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
              www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 1/6/2012.
      243.	   Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
              www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 1/6/2012.
      244.	   Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
              initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      245.	   Treasury, “July 2011 Making Home Affordable Report and Servicer Assessments For Second Quarter 2011,” www.treasury.gov/initiatives/
              financial-stability/results/MHA-Reports/Documents/July%202011%20MHA%20Report%20FINAL.PDF, accessed 1/6/2012.
      246.	   Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
              initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      247.	   Treasury briefing with SIGTARP, 12/7/2011.
      248.	   Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
              initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012.
      249.	   Treasury, response to SIGTARP data call, 1/5/2012.
      250.	   Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For Third Quarter 2011,” 12/7/2011, www.treasury.gov/
              initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 1/6/2012;
              Treasury, “July 2011 Making Home Affordable Report and Servicer Assessments For Second Quarter 2011,” www.treasury.gov/initiatives/
              financial-stability/results/MHA-Reports/Documents/July%202011%20MHA%20Report%20FINAL.PDF, accessed 1/6/2012.
      251.	   Treasury, response to SIGTARP data call, 1/4/2012.
      252.	   Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, www.cq.com/graphics/
              govdoc/2010/03/26/govdoc20100326-107771.pdf, accessed 1/8/2012.
      253.	   Treasury, response to SIGTARP data call, 1/4/2012.
      254.	   Treasury, response to SIGTARP vetting draft, 1/13/2012.
      255.	   Treasury, response to SIGTARP data call, 1/4/2012.
      256.	   Treasury, response to SIGTARP data call, 1/4/2012.
      257.	   HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 1/7/2012; HUD,
              response to SIGTARP draft, 1/10/2011.
      258.	   HUD, response to SIGTARP vetting draft, 1/19/2011.
      259.	   HUD, response to SIGTARP draft report, 1/10/2011.
      260.	   HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions”, 8/6/2010, www.hud.gov/offices/adm/hudclips/
              letters/mortgagee/files/10-23ml.pdf, accessed 1/7/2012.
      261.	   HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions”, 8/6/2010, www.hud.gov/offices/adm/hudclips/
              letters/mortgagee/files/10-23ml.pdf, accessed 1/7/2012.
      262.	   HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions”, 8/6/2010, www.hud.gov/offices/adm/hudclips/
              letters/mortgagee/files/10-23ml.pdf, accessed 1/7/2012; HUD, response to SIGTARP draft report, 3/31/2011.
      263.	   HUD, response to SIGTARP draft report, 1/19/2011.
      264.	   HUD, response to SIGTARP draft report, 1/12/2011.
      265.	   Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx,
              accessed 1/8/2012.
      266.	   Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” www.
              treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 1/7/2012.
      267.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      268.	   Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
              center/press-releases/Pages/tg618.aspx, accessed 1/7/2012.
      269.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 1/6/2012.
      270.	   HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
              with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
              1/7/2012.
      271.	   HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
              with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
              1/7/2012.
                                                                                        quarterly report to congress I January 26, 2012                187


272.	 Treasury, Section 105(a) Report, 9/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/August%20
      2010%20105(a)%20Report_final_9%2010%2010.pdf, accessed 1/7/2012.
273.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      1/7/2012.
274.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      1/7/2012.
275.	 Treasury, Transactions Report-Housing,12/27/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2012.27.2011.pdf, accessed 1/20/2012.
276.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
      Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, pp. 76, 98, accessed 1/7/2012.
277.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 1/7/2012.
278.	 Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%20
      2010%20105(a)%20Report_Final.pdf, accessed 1/10/2012.
279.	 Treasury, response to SIGTARP data call, 1/4/2012.
280.	 Treasury, response to SIGTARP data call, 1/9/2012, Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
      accessed 1/7/2012; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 1/7/2012; CALHFA Mortgage
      Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 1/7/2012; Florida Hardest-Hit,
      “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 1/7/2012; Georgia Department of Community Affairs, “Hardest Hit Fund,”
      no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 1/7/2012; Illinois Housing Development Authority,
      “Illinois Housing Development Authority,” no date, www.ihda.org/, accessed 1/7/2012; Indiana Foreclosure Prevention Network, “Indiana
      Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 1/7/2012; Kentucky Housing Corporation, “Kentucky Housing
      Corporation,” no date, www.kyhousing.org/, accessed 1/7/2012; Michigan State Housing Development Authority, “Helping Michigan’s Hardest
      Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed 1/7/2012; Mississippi Home Corporation,
      “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed 1/7/2012; Nevada’s Hardest Hit Funds, “Nevada’s
      Hardest Hit Funds,” no date, www.nahac.org/, accessed 1/7/2012; State of New Jersey Housing and Mortgage Finance Agency, “State of New
      Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/, accessed 1/7/2012; NC Foreclosure Prevention Fund, “Help
      for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.gov/, accessed 1/7/2012; Ohio.gov, “Ohio’s Foreclosure Prevention
      Effort, no date, www.savethedream.ohio.gov/, accessed 1/7/2012; Oregon Homeownership Stabilization Initiative, “OHSI,” no date, www.
      oregonhomeownerhelp.org/, accessed 1/7/2012; Hardest Hit Fund-Rhode Island, “HHFRI,” no date, www.hhfri.org/, accessed 1/7/2012; SC
      Help, “South Carolina Homeownership and Employment Lending Program,” no date, www.scmortgagehelp.com/, accessed 1/7/2012; Tennessee
      Housing Development Agency, “THDA,” no date, www.thda.org/, accessed1/7/2012; District of Columbia Housing Finance Agency, “District of
      Columbia Housing Finance Agency,” no date, www.dchfa.org/, accessed 1/7/2012.
281.	 Treasury, response to SIGTARP data call, 1/4/2012.
282.	 Treasury conference call, 3/19/2009.
283.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/5/2012.
284.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/5/2012.
285.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/5/2012.
286.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
287.	 Treasury, response to SIGTARP data call, 1/5/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_
      INVESTMENT.pdf, accessed 1/10/2012.
288.	 Treasury, response to SIGTARP data call, 1/5/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_
      INVESTMENT.pdf, accessed 1/10/2012.
289.	 Treasury, response to SIGTARP data call, 1/5/2012.
290.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
291.	 Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for A Portfolio of Assets,” 11/29/2011, www.treasury.gov/
      initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/Houlihan%20Lockey%20Capital,%20Inc.%20FAA.pdf, accessed
      1/5/2012.
292.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
293.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
      Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, 1/11/2012.
294.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
295.	 Treasury, response to SIGTARP data call, 10/5/2011.
296.	 Treasury, response to SIGTARP data call, 10/5/2011.
188            special inspector general I troubled asset relief program



      297.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
            Getting_Started_Guide_Final.pdf, accessed 1/5/2012.
      298.	 Treasury, “Resource Center – Overview for Banks,” 6/8/2011, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-Banks.aspx,
            accessed 1/5/2012; Treasury, “Resource Center – Overview for Subchapter S Corporations and Mutual Institutions,” 6/8/2011, www.treasury.
            gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 1/5/2012.
      299.	 Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms for Current CPP and CDCI Participants,” no date, www.
            treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf, accessed 1/5/2012; Treasury, “SBLF— Getting
            Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_Started_Guide_Final.
            pdf, accessed 1/5/2012.
      300.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, 1/11/2012.
      301.	 Treasury, response to SIGTARP vetting draft, 1/10/2012; Treasury, response to SIGTARP data call, 1/10/2012; Treasury, Dividends and Interest
            Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/
            December%202011%20Dividends%20Interest%20Report.pdf, 1/11/2012; Treasury and SIGTARP, Methodology for Missed Dividends &
            Interest, 12/31/2011.
      302.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/5/2012.
      303.	 Treasury, response to SIGTARP data call, 1/10/2012; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
            Fact%20Sheet.pdf, accessed 1/5/2012.
      304.	 Treasury, response to SIGTARP data call, 1/17/2012; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
            Fact%20Sheet.pdf, accessed 1/5/2012.
      305.	 Treasury, “Frequently Asked Questions: Capital Purchase Program (CPP) – Related to Missed Dividend (or Interest) Payments and Director
            Nomination,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20
            FAQs.pdf, accessed 1/5/2012.
      306.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/5/2012.
      307.	 Treasury, responses to SIGTARP data call, 1/10/2011, 4/6/2011, 7/11/2011, 10/5/2011, and 1/17/2012.
      308.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/5/2012.
      309.	 Treasury, response to SIGTARP data call, 1/19/2012.
      310.	 Citizens Republic Bancorp, Inc., 8-K, 10/5/2011, www.sec.gov/Archives/edgar/data/351077/000095012311085819/k50747e8vk.htm, accessed
            1/5/2012; Citizens Republic Bancorp, Inc., 8-K, 10/5/2011, www.sec.gov/Archives/edgar/data/351077/000095012311088723/k50772e8vk.htm,
            accessed 1/5/2012.
      311.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/11/2012.
      312.	 Anchor BanCorp Wisconsin Inc., 8-K, 10/3/2011, www.sec.gov/Archives/edgar/data/885322/000119312511261687/d237549d8k.htm, accessed
            1/5/2012.
      313.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/11/2012.
      314.	 Treasury, response to SIGTARP data call, 10/5/2011.
      315.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/11/2012.
      316.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/5/2012.
      317.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/5/2012.
      318.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/5/2012.
      319.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/5/2012.
      320.	 Treasury, response to SIGTARP data call, 1/17/2012.
      321.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/11/2012.
      322.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/11/2012.
      323.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/11/2012.
      324.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 1/5/2012.
      325.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP%20Warrants%20Report%20Aug2011.pdf, accessed 1/5/2012.
      326.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/5/2012.
                                                                                        quarterly report to congress I January 26, 2012                189


327.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/5/2012.
328.	 Treasury, response to SIGTARP data call, 1/11/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_
      INVESTMENT.pdf, accessed 1/10/2012.
329.	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009,
      www.treasury.gov/press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/5/2012.
330.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP%20Warrants%20Report%20Aug2011.pdf, accessed 1/5/2012; Treasury, response to SIGTARP data call, 1/11/2012.
331.	 Treasury, response to SIGTARP data call, 1/11/2012.
332.	 Treasury, response to SIGTARP data call, 1/11/2012.
333.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/5/2012.
334.	 Treasury, response to SIGTARP data call, 1/11/2012.
335.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/5/2012.
336.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 1/5/2012.
337.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 1/5/2012.
338.	 Treasury Press Release, “Treasury Department Announces Pricing of Public Offering of Warrants to Purchase Common Stock of Associated
      Banc-Corp,” 12/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 1/5/2012.
339.	 Treasury, response to SIGTARP data call, 1/11/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_
      INVESTMENT.pdf, accessed 1/10/2012.
340.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 1/5/2012.
341.	 Treasury conference call, 11/10/2011.
342.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 1/5/2012.
343.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 1/10/2012.
344.	 Treasury conference call, 3/19/2010.
345.	 Treasury, response to SIGTARP draft report, 1/14/2011.
346.	 Treasury conference call, 3/19/2010.
347.	 Treasury conference call, 3/19/2010.
348.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
349.	 Santa Lucia Bancorp, 8-K, 10/6/2011, www.sec.gov/Archives/edgar/data/1355607/000114420411057585/v237144_8k.htm, accessed 1/5/2012.
350.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
351.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
352.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
353.	 BBCN Bancorp, Inc., 8-K, 11/30/2011, www.sec.gov/Archives/edgar/data/1128361/000119312511330628/d265748d8k.htm, accessed
      1/5/2012.
354.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
355.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
356.	 Federal Reserve Press Release, “Written Agreement with First Bancorp,” 6/8/2010, www.federalreserve.gov/newsevents/press/
      enforcement/20100608c.htm, accessed 1/5/2012; FDIC Court Order, Consent Decree with First Bank of Puerto Rico, 6/2/2010, www.fdic.gov/
      bank/individual/enforcement/2010-06-22.pdf, accessed 1/5/2012.
357.	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 1/5/2012; Treasury,
      response to SIGTARP data call, 10/8/2010.
358.	 First BanCorp press release, “First BanCorp Announces Completion of the Sale of $525 Million of Common Stock in the Corporation’s Capital
      raise and Conversion of the Treasury’s Preferred Stock,” 10/7/2011, www.snl.com/irweblinkx/file.aspx?IID=4041406&FID=11845839, accessed
      1/5/2012.
359.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
360.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
361.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
190            special inspector general I troubled asset relief program



      362.	 FNB United Corporation, 8-K, 4/27/2011, www.sec.gov/Archives/edgar/data/764811/000117184311001149/f8k_042711.htm, accessed
            1/5/2012.
      363.	 FNB United Corporation, 8-K, 8/5/2011, www.sec.gov/Archives/edgar/data/764811/000119312511212628/d8k.htm, accessed 1/5/2012.
      364.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012; FNB
            United Corporation, 8-K, 8/18/2011, www.sec.gov/Archives/edgar/data/764811/000119312511226647/d8k.htm, accessed 1/5/2012.
      365.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” no date, www.treasury.gov/initiatives/financial-stability/programs/
            investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/5/2012.
      366.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      367.	 FDIC, “Blackhawk Bank & Trust, Milan, Illinois, Assumes All of the Deposits of Country Bank, Aledo, Illinois,” 10/14/2011, www.fdic.gov/news/
            news/press/2011/pr11167.html, accessed 1/5/2012.
      368.	 Treasury, response to SIGTARP data call, 1/5/2012.
      369.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 1/4/2012.
      370.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Pages/
            comdev.aspx, accessed 1/4/2012; Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cdci/Pages/comdev.aspx, accessed 1/4/2012; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.
            gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 1/4/2012; Treasury
            Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in Community Development
            Financial Institutions in Underserved Areas,” 9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 1/4/2012.
      371.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 1/4/2012.
      372.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
            cdci/Pages/comdev.aspx, accessed 1/4/2012.
      373.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
            Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
            Release%209-30-10.pdf, accessed 1/4/2012.
      374.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/4/2012.
      375.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cdci/Pages/comdev.aspx, accessed 1/4/2012; Treasury, “Application Guidelines for TARP Community Development
            Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/
            Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 1/4/2012.
      376.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities — Term Sheet,” no date, www.treasury.gov/
            initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
            1/4/2012; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities — Term Sheet,” no date,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
            1/4/2012.
      377.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/4/2012.
      378.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/4/2012.
      379.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      380.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/12/2012.
      381.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/12/2012.
      382.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      383.	 Department of Treasury Budget in Brief FY 2010, pg. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/FY2010BIB-
            Complete.pdf, accessed 1/6/2012.
      384.	 Treasury, response to SIGTARP data call, 10/8/2010; Treasury, response to SIGTARP data call, 1/5/2012.
      385.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      386.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
            FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
            pdf, accessed 1/6/2012; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
            1/6/2012.
      387.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/6/2012.
      388.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/6/2012.
      389.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/6/2012.
                                                                                        quarterly report to congress I January 26, 2012                191


390.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/6/2012; FRBNY, “Maiden Lane
      Transactions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 1/5/2012.
391.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
      105report.pdf, accessed 1/5/2012.
392.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/6/2012.
393.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
      Treasury, “Securities Exchange Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/
      Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed 1/6/2012; Treasury, “Securities Purchase Agreement,” 4/17/2009, www.
      treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed
      1/6/2012.
394.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/6/2012.
395.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/6/2012.
396.	 AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/6/2012.
397.	 AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/6/2012.
398.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 1/6/2012; AIG, 8-K, 3/2/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311021398/y90008ae8vk.htm, accessed 1/6/2012.
399.	 AIG, “Certificate of Designations of Series E Fixed Rate Non-Cumulative Perpetual Preferred Stock of American International Group, Inc.,”
      4/17/2009, www.sec.gov/Archives/edgar/data/5272/000095012309006777/y76448exv3w1.htm, accessed 1/6/2012.
400.	 Treasury Press Release, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.treasury.gov/press-center/press-releases/
      Pages/tg623.aspx, accessed 1/6/2012.
401.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/6/2012.
402.	 Treasury, response to SIGTARP data call, 1/11/2011 and 1/5/2012.
403.	 Master Transaction Agreement dated as of December 8, 2010 among American International Group, Inc., ALICO Holdings LLC, AIA Aurora
      LLC, Federal Reserve Bank of New York, United States Department of the Treasury, and AIG Credit Facility Trust, 12/8/2010, www.sec.gov/
      Archives/edgar/data/5272/000095012310111979/y88225exv2w1.htm, accessed 1/6/2012; AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311003061/y88987e8vk.htm, accessed 1/6/2012.
404.	 AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/data/5272/000104746911001283/a2202141z10-k.htm, accessed 1/6/2012.
405.	 AIG, 8-K, 2/9/2011, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 1/6/2012.
406.	 AIG, 8-K, 2/9/2011, www.sec.gov/Archives/edgar/data/5272/000095012311010653/y89586e8vk.htm, accessed 1/4/2012.
407.	 AIG, 8-K, 10/22/2010, www.sec.gov/Archives/edgar/data/5272/000095012310095032/y87334e8vk.htm, accessed 1/6/2012; AIG, “AIG Raises
      Nearly $37 Billion in Two Transactions to Repay Government,” 11/1/2010, ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh2
      0Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 1/6/2012.
408.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 1/6/2012; AIG, 8-K 3/2/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311021398/y90008ae8vk.htm, accessed 1/6/2012.
409.	 AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/6/2012.
410.	 Treasury Press Release, “Treasury Receives $2 Billion TARP Repayment from American International Group (AIG), 8/18/2011, www.treasury.
      gov/press-center/press-releases/Pages/tg1281.aspx, accessed 1/6/2012; AIG Press Release, “AIG Reduces United States Treasury Investment in
      AIG Subsidiary by Approximately $2 Billion; AIG Applies Proceeds from Completed Sale of Nan Shan,” 8/18/2011, ir.aigcorporate.com/phoenix.
      zhtml?c=76115&p=irol-newsArticle&ID=1597987&highlight=, accessed 1/6/2012.
411.	 Treasury Press Release, “Treasury Receives Nearly $1 Billion TARP Repayment from American International Group (AIG),” 11/1/2011, www.
      treasury.gov/press-center/press-releases/Pages/tg1347.aspx, accessed 1/6/2012.
412.	 Treasury, response to SIGTARP vetting draft, 1/12/2012.
413.	 ILFC, 8-K, 9/2/2011, www.sec.gov/Archives/edgar/data/714311/000104746911007795/a2205479z8-k.htm, accessed 1/6/2012.
414.	 ILFC, 8-K, 9/2/2011, www.sec.gov/Archives/edgar/data/714311/000104746911007795/a2205479z8-k.htm, accessed 1/6/2012.
415.	 Master Transaction Agreement dated as of December 8, 2010 among American International Group, Inc., ALICO Holdings LLC, AIA Aurora
      LLC, Federal Reserve Bank of New York, United States Department of the Treasury, and AIG Credit Facility Trust, 12/8/2010, www.sec.gov/
      Archives/edgar/data/5272/000095012310111979/y88225exv2w1.htm, accessed 1/6/2012; AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311003061/y88987e8vk.htm, accessed 1/6/2012.
416.	 Master Transaction Agreement dated as of December 8, 2010 among American International Group, Inc., ALICO Holdings LLC, AIA Aurora
      LLC, Federal Reserve Bank of New York, United States Department of the Treasury, and AIG Credit Facility Trust, 12/8/2010, www.sec.gov/
      Archives/edgar/data/5272/000095012310111979/y88225exv2w1.htm, accessed 1/6/2012; AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311003061/y88987e8vk.htm, accessed 1/6/2012.
417.	 Master Transaction Agreement dated as of December 8, 2010 among American International Group, Inc., ALICO Holdings LLC, AIA Aurora
      LLC, Federal Reserve Bank of New York, United States Department of the Treasury, and AIG Credit Facility Trust, 12/8/2010, www.sec.gov/
      Archives/edgar/data/5272/000095012310111979/y88225exv2w1.htm, accessed 1/6/2012; AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/
      data/5272/000104746911001283/a2202141z10-k.htm, accessed 1/6/2012.
418.	 Treasury, response to SIGTARP data call, 1/5/2012.
419.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/6/2012.
420.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/6/2012; AIG, 8-K, 12/8/2010,
      www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 1/6/2012; AIG, 10-Q, 11/5/2010, www.sec.gov/
      Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/6/2012.
421.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/6/2012; AIG, 8-K, 12/8/2010,
      www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 1/6/2012; Treasury, Section 105(a) Report 1/10/2011,
192             special inspector general I troubled asset relief program



              www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20105(a)_final_1-11-10.pdf, accessed
              1/12/2012.
      422.	   AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 1/6/2012;
              Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      423.	   AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 1/6/2012;
              Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      424.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      425.	   AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 1/6/2012.
      426.	   FRBNY Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.newyorkfed.org/
              newsevents/news/markets/2011/an110330.html, accessed 1/6/2012.
      427.	   FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII_recent_bidlistoffering.html, accessed 1/6/2012;
              FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/mlII_bidlistoffering.html, accessed 1/6/2012; FRBNY
              Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.newyorkfed.org/newsevents/
              news/markets/2011/an110330.html, accessed 1/6/2012.
      428.	   Federal Reserve Board, “Factors Affecting Reserve Balances,” 12/28/2011, www.federalreserve.gov/releases/H41/Current/, accessed 1/4/2012;
              FRBNY response to SIGTARP vetting draft, 1/12/2012.
      429.	   Federal Reserve Bank of New York, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm,
              accessed 1/4/2012.
      430.	   Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
              Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 1/4/2012.
      431.	   Treasury, “Guidelines for Targeted Investment Program,” 1/20/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
              1/4/2012.
      432.	   Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
              December%20105(a)_final_1-11-10.pdf, accessed 1/4/2012.
      433.	   Treasury, “Warrant Disposition Report,” 8/4/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
              TARP_WRRTDISP_80310.pdf, accessed 1/4/2012.
      434.	   Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 1/4/2012.
      435.	   Treasury, “Exchange Agreement,” 6/9/2011, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
              Documents/Citigroup%20Exchange%20Agreement.pdf, accessed 1/4/2012; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
              data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/4/2012.
      436.	   Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 1/4/2012;
              Citigroup,10-Q, 6/30/2009, www.citigroup.com/citi/fin/data/q0902c.pdf?ieNocache=21, accessed 1/4/2012.
      437.	   SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
              Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/4/2012.
      438.	   Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
              Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 1/4/2012.
      439.	   Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg876.
              aspx, accessed 1/4/2012.
      440.	   SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
              Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/4/2012.
      441.	   Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 1/4/2012.
      442.	   Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
              December%20105(a)_final_1-11-10.pdf, accessed 1/4/2012.
      443.	   Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 1/4/2012.
      444.	   Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
              Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 1/4/2012.
      445.	   FRBNY, response to SIGTARP data call, 1/5/2012.
      446.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      447.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      448.	   Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”11/25/2008,
              www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/5/2012.
      449.	   FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
              accessed 1/5/2012.
      450.	   Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
              lendingfacilities_201003.htm, accessed 1/5/2012.
      451.	   FRBNY, response to SIGTARP draft report, 7/9/2010.
      452.	   FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
                                                                                       quarterly report to congress I January 26, 2012               193


      html, accessed 1/5/2012.
453.	 FRBNY, response to SIGTARP draft report, 1/11/2010.
454.	 Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
      protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
      monetary/20100720a.htm, accessed 1/5/2012; FRBNY, response to SIGTARP data call, 1/5/2012.
455.	 FRBNY, response to SIGTARP data call, 1/5/2012.
456.	 FRBNY, response to SIGTARP data call, 1/5/2012.
457.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/5/2012.
458.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/5/2012.
459.	 FRBNY, response to SIGTARP data call, 1/5/2012.
460.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/5/2012.
461.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/5/2012.
462.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/5/2012.
463.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/5/2012.
464.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/5/2012.
465.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/5/2012; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
      12/2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 1/5/2012.
466.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/5/2012.
467.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/5/2012.
468.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/5/2012.
469.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/5/2012.
470.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
471.	 FRBNY, response to SIGTARP data call, 1/5/2012.
472.	 FRBNY, response to SIGTARP data call, 1/5/2012.
473.	 FRBNY, response to SIGTARP data call, 1/5/2012.
474.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
      accessed 1/5/2012.
475.	 FRBNY, response to SIGTARP data call, 1/5/2012.
476.	 Treasury, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 4/7/2011.
477.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/Admin-
      Agreement-TALF.pdf, accessed 1/19/2012; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
478.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/20100701, note 8, accessed
      1/5/2012.
479.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/Admin-
      Agreement-TALF.pdf, accessed 1/19/2012; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
480.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 12/29/2011, www.federalreserve.gov/releases/h41/20111229/, accessed 1/19/2012;
      Federal Reserve, response to SIGTARP draft report, 4/8/2010.
481.	 FRBNY, response to SIGTARP data call, 1/5/2012.
482.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
483.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
      pdf, accessed 1/5/2012.
484.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
      aspx, accessed 1/5/2012.
485.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/5/2012.
486.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/5/2012.
487.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/
      Pages/publicprivatefund.aspx, accessed 1/5/2012.
488.	 PPIP fund managers’ monthly reports for December 2011 submitted to Treasury and SIGTARP, 1/17/2012.
194            special inspector general I troubled asset relief program



      489.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/5/2012.
      490.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Questions,” 7/8/2009, www.treasury.gov/
            press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/5/2012; Treasury, “Amended and Restated Limited Partnership
            Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/AG%20
            GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/5/2012.
      491.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/5/2012.
      492.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended September 30, 2011, 10/21/2011, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%2009-2011.pdf,
            p.4, accessed 1/5/2012. Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-
            transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed
            1/10/2012.
      493.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/5/2012.
      494.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
            gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/5/2012.
      495.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 1/5/2012.
      496.	 Treasury, response to SIGTARP data call, 1/5/2012.
      497.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      498.	 Treasury, response to SIGTARP data call, 1/5/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_
            INVESTMENT.pdf, accessed 1/10/2012.
      499.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/10/2012.
      500.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      501.	 Treasury Conference Call with SIGTARP, 10/6/2011. Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_
            INVESTMENT.pdf, accessed 1/10/2012.
      502.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended September 30, 2011, 10/21/2011, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%2009-2011.pdf, p.4,
            accessed 1/5/2012.
      503.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      504.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended September 30, 2011, 10/21/2011, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%2009-2011.pdf, p.4,
            accessed 1/5/2012; Treasury Conference Call with SIGTARP, 10/6/2011.
      505.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 1/5/2012.
      506.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2011, 4/21/2011, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP-%2003-11%20vFinal.pdf, p. 9, accessed
            1/10/2012.
      507.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2011, 4/21/2011, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP-%2003-11%20vFinal.pdf, p. 9, accessed
            1/10/2012.
      508.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 1/19/2012.
      509.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
            accessed 1/4/2012; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 1/4/2012.
      510.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed by Coastal
            Securities, Inc. 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_
            Contracts_Agreements/Coastal%20Securities,%20Inc.pdf, accessed 1/10/2012; Treasury, “Master Purchase Agreement for SBA Pooled
            Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed by Shay Financial Services, Inc. 8/27/2010, www.treasury.gov/
            initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20(Execution%20Version).pdf,
            accessed 1/10/2012.
      511.	 Treasury Press Release, “Treasury Announces Sale of 6 SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 1/4/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed by Shay Financial Services, Inc., 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cbli/Documents/Master%20Purchase%20Agreement%20(Execution%20Version).pdf, accessed 1/10/2012; Treasury, “Master Purchase
            Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed by Coastal Securities, Inc. 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/
            Coastal%20Securities,%20Inc.pdf, accessed 1/4/2012.
                                                                                         quarterly report to congress I January 26, 2012                195


512.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
513.	 Treasury Press Release, “Treasury to Begin Sales of Its Small Business Administration (SBA) 7(a) Securities Portfolio,” 6/2/2011, www.treasury.
      gov/press-center/press-releases/Pages/tg1198.aspx, accessed 1/4/2012.
514.	 Treasury Press Release, “Treasury to Begin Sales of Its Small Business Administration (SBA) 7(a) Securities Portfolio,” 6/2/2011, www.treasury.
      gov/press-center/press-releases/Pages/tg1198.aspx, accessed 1/4/2012.
515.	 Treasury Press Release, “Treasury Announces Sale of Seven SBA 7(a) Securities,” 10/20/2011, www.treasury.gov/press-center/press-releases/
      Pages/tg1355.aspx, accessed 1/4/2012.
516.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
517.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/10/2012.
518.	 Treasury, “Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx, accessed 1/5/2012.
519.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
520.	 Treasury, response to SIGTARP vetting draft, 10/8/2009; Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/105/Documents105/April%202010%20105(a)%20report_final.pdf, accessed 1/10/2012.
521.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
522.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
523.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
      Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/5/2012; Treasury, response to
      SIGTARP data call, 1/18/2012.
524.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
      Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/12/2012.
525.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 1/5/2012.
526.	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx, accessed 1/5/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-
      room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.
      pdf, accessed 1/10/2012.
527.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/12/2012.
528.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
529.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
530.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/5/2012.
531.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 1/5/2012.
532.	 Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/12/2012.
533.	 Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 1/5/2012.
534.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/5/2012.
535.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/5/2012; Treasury
      Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
      Proceeds from GM IPO to $13.5 Billion,” www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, 12/2/2010, accessed 1/5/2012.
536.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 1/5/2012.
537.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/5/2012.
538.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
      General Motors Company, “Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, edgar.brand.edgar-online.com/EFX_dll/
      EDGARpro.dll?FetchFilingHTML1?ID=7564696&SessionID=X8WpHq0H3PqZXs7, accessed 1/9/2012.
539.	 Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
540.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
      2010%20105(a)%20report_final.pdf, accessed 1/10/2012.
541.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
196             special inspector general I troubled asset relief program



              aspx, accessed 1/5/2012; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group LLC,” 6/2/2011,
              www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx. accessed 1/6/2012.
      542.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      543.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      544.	   Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www. gpo.
              gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 1/5/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.
              gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20
              as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      545.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      546.	   Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
              www.chryslergroupllc.com/en-us/investor/PressReleases/ChryslerDocuments/Chrysler_Group_LLC_Completes_Refinancing.pdf, accessed
              1/5/2012; Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1189.aspx, accessed 1/5/2012.
      547.	   Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
              www.chryslergroupllc.com/en-us/investor/PressReleases/ChryslerDocuments/Chrysler_Group_LLC_Completes_Refinancing.pdf, accessed
              1/5/2012.
      548.	   Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
              aspx, accessed 1/5/2012.
      549.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” www.treasury.gov/press-center/press-releases/Pages/tg1253.aspx,
              accessed 1/5/2012.
      550.	   Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
              DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/12/2012; Treasury, Transactions Report,
              1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20
              Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
      551.	   Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 1/5/2012.
      552.	   Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
              2010%20105(a)%20report_final.pdf, accessed 1/10/2012.
      553.	   Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
              2010%20105(a)%20report_final.pdf, accessed 1/10/2012; Ally Financial, Amended and Restated Governance Agreement, 5/21/2009, www.sec.
              gov/Archives/edgar/data/40729/000119312509117131/dex102.htm, accessed 1/5/2012.
      554.	   Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 1/5/2012; Treasury, Section
              105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%2020010%20
              105(a)%20report_final.pdf, accessed 1/5/2012.
      555.	   Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 1/5/2012.
      556.	   Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
              2010%20105(a)%20report_final.pdf, accessed 1/10/2012; Ally Financial, Amended and Restated Governance Agreement, 5/21/2009, www.sec.
              gov/Archives/edgar/data/40729/000119312509117131/dex102.htm, accessed 1/5/2012.
      557.	   Ally Financial, 8-K, 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 1/5/2012.
      558.	   Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
              center/press-releases/Pages/tg1014.aspx, accessed 1/5/2012.
      559.	   Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TRuPs,” 3/1/2011, www.treasury.gov/press-center/press-
              releases/Pages/tg1081.aspx, accessed 1/5/2012.
      560.	   Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 1/5/2012; Ally Financial,
              Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
              accessed 1/5/2012.
      561.	   Treasury, response to SIGTARP data call, 1/5/2011.
      562.	   SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
              htm, accessed 1/5/2012.
      563.	   Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
              Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 1/5/2012.
      564.	   SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
              htm, accessed 1/5/2012.
      565.	   SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
              htm, accessed 1/5/2012.
      566.	   Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
              Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 1/5/2012.
      567.	   SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/
              EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 1/5/2012; SEC, “Ally Financial, Inc.: Amendment
              No. 2 to Form S-1 Registration Statement,” 6/3/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=797801
              0&SessionID=yWV1FqvBONn9GA7, accessed 1/5/2012; SEC, “Ally Financial, Inc.: Amendment No. 3 to Form S-1 Registration Statement,”
              6/29/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 1/5/2012; SEC, “Ally Financial, Inc.:
              Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm,
                                                                                          quarterly report to congress I January 26, 2012                 197


        accessed 1/5/2012; SEC, “Ally Financial Inc.: Amendment No. 5 to Form S-1 Registration Statement,” 12/2/2011, www.sec.gov/Archives/edgar/
        data/40729/000119312511328749/d167661ds1a.htm, accessed 1/5/2012.
568.	   SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFili
        ngHTML1?ID=7830546&SessionID=mUY1FWvvg9OIf77, accessed 1/5/2012; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1
        Registration Statement,” 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1
        FjMCVRNlLm7, accessed 1/5/2012.
569.	    SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFili
        ngHTML1?ID=7830546&SessionID=mUY1FWvvg9OIf77, accessed 1/5/2012; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1
        Registration Statement,” 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1
        FjMCVRNlLm7, accessed 1/5/2012.
570.	   Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in Ally Financial Inc.’s Registration
        Statement for its Initial Public Offering,” 3/31/2011, www.treasury.gov/press-center/press-releases/Pages/tg1124.aspx, accessed
        1/5/2012; Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012; SEC,
        “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll
        ?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 1/5/2012; SEC, “Ally Financial, Inc.: Amendment No. 4 to Form
        S-1 Registration Statement,” 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 1/5/2012.
571.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
572.	   Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 1/5/2012; Ally Financial, 8-K,
        5/22/1010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 1/5/2012; Ally Financial, 10-K, 2/27/2009, www.
        sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 1/5/2012; Treasury, “Office of Financial Stability:
        Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
        Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/5/2012.
573.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012; Ally
        Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 1/5/2012; Ally
        Financial, 8-K, 5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 1/5/2012; Ally Financial, 8-K,
        1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 1/5/2012.
574.	   Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
        DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/12/2012.
575.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
        Treasury, Dividends and Interest Report, 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
        DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 1/12/2012.
576.	   Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
        Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
        Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 1/5/2012; Treasury, Transactions Report, 1/4/2012, www.
        treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/01-04-12%20Transactions%20
        Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
577.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
578.	   TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, td.mediaroom.com/index.php?s=43&item=1120, accessed
        1/5/2012.
579.	   TD Bank Group Press Release, “TD Completes Chrysler Financial Acquisition,” 4/1/2011, td.mediaroom.com/index.php?s=43&item=1210,
        accessed 1/5/2012; TD Auto Finance LLC, 8-K, 4/5/2011, google.brand.edgar-online.com/displayfilinginfo.aspx?FilingID=7845191-1054-
        9050&type=sect&TabIndex=2&companyid=684228&ppu=%252fdefault.aspx%253fcompanyid%253d684228, accessed 1/5/2012.
580.	   Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
        tg64.aspx, accessed 1/5/2012.
581.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012;
        Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
        2010%20105(a)%20report_final.pdf, accessed 1/10/2012.
582.	   Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-
        stability/briefing-room/reports/agency_reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf
        accessed 1/5/2012.
583.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
584.	   Treasury, Transactions Report, 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/01-04-12%20Transactions%20Report%20as%20of%2012-31-11_INVESTMENT.pdf, accessed 1/10/2012.
585.	   American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
586.	   Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
        press-center/press-releases/Pages/tg165.aspx, accessed 1/4/2012; Treasury, “TARP Standards for Compensation and Corporate Governance,”
        6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/4/2012.
587.	   Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
        press-center/press-releases/Pages/tg165.aspx, accessed 1/4/2012; Treasury Press Release, “TARP Standards for Compensation and Corporate
198             special inspector general I troubled asset relief program



              Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
              1/4/2012.
      588.	   Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
              press-center/press-releases/Pages/tg165.aspx, accessed 1/4/2012; Treasury Press Release, “TARP Standards for Compensation and Corporate
              Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
              1/4/2012.
      589.	   Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-
              releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/4/2012; Treasury Press Release, “Interim Final Rule on TARP
              Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed
              1/4/2012; Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/
              press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/4/2012.
      590.	   Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP): Additional Frequently Asked Questions,” 7/8/2009,
              www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/legacy_securities_faqs.pdf,
              accessed 1/4/2012.
      591.	   Treasury, response to SIGTARP data call, 10/6/2010; Financial Stability Oversight Board, “Quarterly Report to Congress,” 9/30/2010, www.
              treasury.gov/initiatives/financial-stability/about/Oversight/FSOB/Reports/FINSOB%20Quarterly%20Report%20(093010).pdf, accessed 1/4/2012.
      592.	   Treasury Press Release, “Special Master for Executive Compensation,” 9/4/2009, www.treasury.gov/press-center/press-releases/Pages/tg329.aspx,
              accessed 1/4/2012.
      593.	   Treasury, response to SIGTARP data call, 1/5/2012.
      594.	   Treasury, “Determination Regarding Citigroup’s December 23, 2009, TARP Repayment — Citigroup,” 12/23/2009, www.treasury.gov/initiatives/
              financial-stability/exec_comp/Documents/20091223%20Citigroup%20Supplemental%20Determination%20Letter.pdf, accessed 1/4/2012;
              Feinberg, Kenneth L., Letter to J. Steele Alphin of Bank of America, “Re: Compensation Structures for Executive Officers and Certain Most
              Highly Compensated Employees,” 12/11/2009, www.treasury.gov/initiatives/financial-stability/exec_comp/Documents/20091210%20Bank%20
              of%20America%20Determination.pdf, accessed 1/4/2012.
      595.	   Treasury Press Release, “Chrysler Financial Parent Company Repays $1.9 Billion in Settlement of Original Chrysler Loan,” 5/17/2010, www.
              treasury.gov/press-center/press-releases/Pages/tg700.aspx, accessed 1/4/2012; Transactions Report, 11/18/2010, www.treasury.gov/initiatives/
              financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/11-18-10%20Transactions%20Report%20as%20of%20
              11-16-10.pdf, accessed 1/4/2012.
      596.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1253.aspx, accessed 1/4/2012.
      597.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      598.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      599.	   Treasury, response to SIGTARP data call, 1/6/2012; Treasury, response to SIGTARP data call, 1/9/2012.
      600.	   Treasury, response to SIGTARP data call, 1/6/2012.
      601.	   Treasury, response to SIGTARP data call, 1/6/2012; Treasury, response to SIGTARP data call, 1/10/2012.
      602.	   Treasury, response to SIGTARP data call, 1/6/2012.
      603.	   Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, cybercemetery.unt.edu/
              archive/cop/20110401233834/http://cop.senate.gov/reports/library/report-101410-cop.cfm, accessed 1/4/2012.
      604.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      605.	   Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for A Portfolio of Assets,” 11/29/2011, www.treasury.gov/
              initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/Houlihan%20Lockey%20Capital,%20Inc.%20FAA.pdf, accessed
              1/6/2012.
      606.	   Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for A Portfolio of Assets,” 11/29/2011, www.treasury.gov/
              initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/Houlihan%20Lockey%20Capital,%20Inc.%20FAA.pdf, accessed
              1/6/2012.
      607.	   Treasury, response to SIGTARP data call, 1/5/2012.
      608.	   Treasury, response to SIGTARP data call, 1/5/2012.
                                                                                       glossary I Appendix A I January 26, 2012      199




glossary
This appendix provides a glossary of terms that are used in the context of this report.

7(a) Loan Program: SBA loan program guaranteeing a                 Community Development Loan Fund (“CDLF”): Financial
percentage of loans for small businesses that cannot other-        institution that is a type of certified CDFI. These entities
wise obtain conventional loans at reasonable terms.                (usually non-profits) serve businesses, organizations, and
                                                                   individuals in urban and rural low-income communities.
504 Community Development Loan Program: SBA
program combining Government-guaranteed loans with                 Cumulative Preferred Stock: Stock requiring a defined
private-sector mortgages to provide loans of up to $10 million     dividend payment. If the company does not pay the dividend
for community development.                                         on schedule, it still owes the missed dividend to the
                                                                   stock’s owner.
Accredited Investors: Individuals or institutions that by law
are considered financially sophisticated enough so that they       Custodian Bank: Bank holding the collateral and managing
can invest in ventures that are exempt from investor protec-       accounts for FRBNY; for TALF the custodian is Bank of New
tion laws. Under U.S. securities laws, these include many          York Mellon.
financial companies, pension plans, wealthy individuals, and
                                                                   Debt: Investment in a business that is required to be paid
top executives or directors of the issuing companies.
                                                                   back to the investor, usually with interest.
Asset-Backed Securities (“ABS”): Bonds backed by a
                                                                   Debtor-in-Possession (“DIP”): Company operating under
portfolio of consumer or corporate loans, e.g., credit card,
                                                                   Chapter 11 bankruptcy protection that technically still owns
auto, or small-business loans. Financial companies typically
                                                                   its assets but is operating them to maximize the benefit to
issue ABS backed by existing loans in order to fund new loans
                                                                   its creditors.
for their customers.
                                                                   Deed-in-Lieu of Foreclosure: Instead of going through
Auction Agent: Firm (such as an investment bank) that buys
                                                                   foreclosure, the borrower voluntarily surrenders the deed to
a series of securities from an institution for resale.
                                                                   the home to the home lender, as satisfaction of the unpaid
Bank Holding Company (“BHC”): Company that owns and/               mortgage balance.
or controls one or more U.S. banks.
                                                                   Deficiency Judgment: Court order authorizing a lender to
Collateral: Asset pledged by a borrower to a lender until a        collect all or part of an unpaid and outstanding debt resulting
loan is repaid. Generally, if the borrower defaults on the loan,   from the borrower’s default on the mortgage note securing a
the lender gains ownership of the pledged asset and may sell       debt. A deficiency judgment is rendered after the foreclosed
it to satisfy the debt. In TALF, the ABS or CMBS purchased         or repossessed property is sold when the proceeds are insuf-
with the TALF loan is the collateral that is posted with           ficient to repay the full mortgage debt.
FRBNY.
                                                                   Deobligations: An agency’s cancellation or downward adjust-
Commercial Mortgage-Backed Securities (“CMBS”):                    ment of previously incurred obligations.
Bonds backed by one or more mortgages on commercial real
                                                                   Due Diligence: Appropriate level of attention or care a
estate (e.g., office buildings, rental apartments, hotels).
                                                                   reasonable person should take before entering into an agree-
Common Stock: Equity ownership entitling an individual to          ment or a transaction with another party. In finance, it often
share in corporate earnings and voting rights.                     refers to the process of conducting an audit or review of the
                                                                   institution before initiating a transaction.
Community Development Financial Institutions
(“CDFIs”): Financial institutions eligible for Treasury            Dutch Auction: A type of auction in which multiple bidders
funding to serve urban and rural low-income communi-               bid for different quantities of the asset; the price the seller
ties through the CDFI Fund. CDFIs were created in 1994             accepts is set at the lowest bid of the group of high bidders
by the Riegle Community Development and Regulatory                 whose collective bids fulfill the amount of shares offered. As
Improvement Act. These entities must be certified by               an example, three investors place bids to own a portion of
Treasury; certification confirms that they target at least 60%     100 shares offered by the issuer:
of their lending and other economic development activities to        • Bidder A wants 50 shares at $4/share.
areas underserved by traditional financial institutions.
200           Appendix a I glossary I January 26, 2012




        • Bidder B wants 50 shares at $3/share.                            Government-Sponsored Enterprises (GSEs): Private
        • Bidder C wants 50 shares at $2/share.                            corporations created and chartered by the Government to
                                                                           reduce borrowing costs and provide liquidity in the market,
      The seller selects Bidders A and B as the two highest bid-           the liabilities of which are not officially considered direct
      ders, and their collective bids consume the 100 shares               taxpayer obligations. On September 7, 2008, the two largest,
      offered. The winning price is $3, which is what both bidders         the Federal National Mortgage Association (“Fannie Mae”)
      pay per share. Bidder C’s bid is not filled.                         and the Federal Home Loan Mortgage Corporation (“Freddie
      Equity: Investment that represents an ownership interest in          Mac”), were placed into Federal conservatorship. They are
      a business.                                                          currently being financially supported by the Government.
      Equity Capital Facility: Commitment to invest equity capital         Haircut: Difference between the value of the collateral
      in a firm under certain future conditions. An equity facility        and the value of the loan (the loan value is less than the
      when drawn down is an investment that increases the pro-             collateral value).
      vider’s ownership stake in the company. The investor may be          Illiquid Assets: Assets that cannot be quickly converted
      able to recover the amount invested by selling its ownership         to cash.
      stake to other investors at a later date.
                                                                           Investors: Owners of mortgage loans or bonds backed by
      Equity Share Agreement: Agreement that a homeowner will              mortgage loans who receive interest and principal payments
      share future increases in home value with a mortgage investor        from monthly mortgage payments. Servicers manage the cash
      or other party. In the context of mortgage loan modifications,       flow from borrowers’ monthly payments and distribute them
      the investor may reduce the borrower’s unpaid principal bal-         to investors according to Pooling and Servicing Agreements
      ance (“UPB”) in return for the right to share in a portion of        (“PSAs”).
      any future rise in the home’s value. An equity share agree-
      ment thus may provide the mortgage investor with a prospect          Legacy Securities: Real estate-related securities originally
      of recovering its full investment, even if it provides a principal   issued before 2009 that remained on the balance sheets
      reduction to the borrower. Conversely, it may also provide an        of financial institutions because of pricing difficulties that
      immediate benefit to an “underwater” borrower, yet still offer       resulted from market disruption.
      that borrower some prospect of benefiting from future home           Limited Partnership: Partnership in which there is at least
      price appreciation.                                                  one partner whose liability is limited to the amount invested
      Exceptional Assistance Recipients: Companies that receive            (limited partner) and at least one partner whose liability ex-
      assistance under SSFI, TIP, and AIFP. Current recipients are         tends beyond monetary investment (general partner).
      AIG, GM, and Ally Financial (formerly GMAC).                         Loan Servicers: Companies that perform administra-
      Excess Spread: Funds left over after required payments and           tive tasks on monthly mortgage payments until the loan is
      other contractual obligations have been met. In TALF it is           repaid. These tasks include billing, tracking, and collecting
      the difference between the periodic amount of interest paid          monthly payments; maintaining records of payments and
      out by the collateral and the amount of interest charged by          balances; allocating and distributing payment collections
      FRBNY on the nonrecourse loan provided to the borrower to            to investors in accordance with each mortgage loan’s gov-
      purchase the collateral.                                             erning documentation; following up on delinquencies; and
                                                                           initiating foreclosures.
      Exercise Price: Preset price at which a warrant holder may
      purchase each share. For warrants in publicly traded institu-        Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
      tions issued through CPP, this was based on the average stock        that mortgage lenders examine before approving a mortgage;
      price during the 20 days before the date that Treasury granted       calculated by dividing the outstanding amount of the loan by
      preliminary CPP participation approval.                              the value of the collateral backing the loan. Loans with high
                                                                           LTV ratios are generally seen as higher risk because the bor-
      FICO Credit Score: Used by lenders to assess an applicant’s          rower has less of an equity stake in the property.
      credit risk and whether to extend a loan. It is determined
      by the Fair Isaac Corporation (“FICO”) using mathematical            Mandatorily Convertible Preferred Stock (“MCP”): A type
      models based on an applicant’s payment history, level of in-         of preferred share (ownership in a company that generally
      debtedness, types of credit used, length of credit history, and      entitles the owner of the shares to collect dividend pay-
      newly extended credit.                                               ments) that can be converted to common stock under certain
                                                                                   glossary I Appendix A I January 26, 2012    201




parameters at the discretion of the company and must be          Public Interest: Regulatory standard that the Special Master
converted to common stock by a certain time.                     is required to apply in making determinations. It refers to
                                                                 the determination of whether TARP-recipient compensation
Mutual Depository Institution: Any bank, savings associa-
                                                                 plans are aligned with the best interests of the U.S. taxpayer,
tion, bank holding company, or savings and loan holding
                                                                 based on a balancing of specific principles set forth in
company organized in a mutual form. Savings associations
                                                                 the Rule.
organized as mutual institutions issue no capital stock and
therefore have no stockholders. Mutual savings associations      Qualifying Financial Institutions (“QFIs”): Private and
build capital almost exclusively through retained earnings.      public U.S.-controlled banks, savings associations, bank hold-
                                                                 ing companies, certain savings and loan holding companies,
Nationally Recognized Statistical Rating Organization            and mutual organizations.
(“NRSRO”): Credit rating agency registered with the SEC.
                                                                 Qualified Institutional Buyers (“QIBs”): Institutions that
Credit rating agencies provide their opinion of the creditwor-
                                                                 under U.S. securities law are permitted to buy securities that
thiness of companies and the financial obligations issued by
                                                                 are exempt from registration under investor protection laws
companies. The ratings distinguish between investment grade
                                                                 and to resell those securities to other QIBs. Generally, these
and non–investment grade equity and debt obligations.
                                                                 institutions own and invest at least $100 million in securities,
Net Present Value (“NPV”) Test: Compares the money               or are registered broker-dealers that own or invest at least $10
generated by modifying the terms of the mortgage with the        million in securities.
amount an investor can reasonably expect to recover in a
                                                                 Revolving Credit Facility: Line of credit for which bor-
foreclosure sale.
                                                                 rowers pay a commitment fee, allowing them to repeatedly
Non-Agency Residential Mortgage-Backed Securities                draw down funds up to a guaranteed maximum amount. The
(“non-agency RMBS”): Financial instrument backed by a            amount of available credit decreases and increases as funds
group of residential real estate mortgages (i.e., home mort-     are borrowed and then repaid.
gages for residences with up to four dwelling units) not
                                                                 Risk-Weighted Assets: Risk-based measure of total assets
guaranteed or owned by a Government-sponsored enterprise
                                                                 held by a financial institution. Assets are assigned broad risk
(“GSE”) (Fannie Mae or Freddie Mac) or a Government
                                                                 categories. The amount in each risk category is then multi-
Agency.
                                                                 plied by a risk factor associated with that category. The sum of
Non-Cumulative Preferred Stock: Preferred stock                  the resulting weighted values from each of the risk categories
with a defined dividend, without the obligation to pay           is the bank’s total risk-weighted assets.
missed dividends.
                                                                 SBA Pool Certificates: Ownership interest in a bond backed
Non-Recourse Loan: Secured loan in which the borrower is         by SBA-guaranteed loans.
relieved of the obligation to repay the loan upon surrendering
                                                                 Senior Executive Officers (“SEOs”): “Named executive of-
the collateral.
                                                                 ficers” of TARP recipients as defined under Federal securities
Obligations: Definite commitments that create a legal            law, which generally include the principal executive officer,
liability for the Government to pay funds.                       the principal financial officer, and the next three most highly
                                                                 compensated officers.
Pool Assemblers: Firms authorized to create and market
pools of SBA- guaranteed loans.                                  Senior Preferred Stock: Shares that give the stockholder
                                                                 priority dividend and liquidation claims over junior preferred
Preferred Stock: Equity ownership that usually pays a fixed
                                                                 and common stockholders.
dividend before distributions for common stock owners but
only after payments due to debt holders. It typically confers    Senior Subordinated Debentures: Debt instrument ranking
no voting rights. Preferred stock also has priority over com-    below senior debt but above equity with regard to investors’
mon stock in the distribution of assets when a bankrupt          claims on company assets or earnings.
company is liquidated.
                                                                 Servicing Advances: If borrowers’ payments are not made
Pro Rata: Refers to dividing something among a group of          promptly and in full, servicers are contractually obligated to
participants according to the proportionate share that each      advance the required monthly payment amount in full to the
participant holds as a part of the whole.                        investor. Once a borrower becomes current or the property is
202         Appendix a I glossary I January 26, 2012




 sold or acquired through foreclosure, the servicer is repaid all   Underwater Mortgage: Mortgage loan on which a home-
 advanced funds.                                                    owner owes more than the home is worth, typically as a result
                                                                    of a decline in the home’s value. Underwater mortgages are
 Short Sales: Sales of a home for less than the unpaid mort-
                                                                    also referred to as having negative equity.
 gage balance. A borrower sells the home and the lender col-
 lects the proceeds as full or partial satisfaction of the unpaid
 mortgage balance, thus avoiding the foreclosure process.           Notes:
                                                                    Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date,
 Skin in the Game: Equity stake in an investment; down pay-         www.fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
                                                                    1/4/2012.
 ment; the amount an investor can lose.                             Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral,
                                                                    www.frbservices.org, accessed 1/4/2012.
 Special Purpose Vehicle (“SPV”): Off-balance-sheet legal           FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 1/4/2012.
 entity that holds transferred assets presumptively beyond the      FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/
                                                                    credit_card_securitization/glossary.html, accessed 1/4/2012.
 reach of the entities providing the assets, and that is legally
                                                                    FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
 isolated from its sponsor or parent company.                       rules/2000-4600.html, accessed 1/4/2012.
                                                                    FRBNY, “TALF FAQ’s,” 9/1/2009, www.newyorkfed.org/markets/talf_faq.html,
 Subchapter S corporations (“S corporations”): Corporate            accessed 1/4/2012.
 form that passes corporate income, losses, deductions, and         SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                    3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_
 credit through to shareholders for Federal tax purposes.           Affordable_Modification_Program.pdf, accessed 1/4/2012.
 Shareholders of S corporations report the flow-through of          GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004,
                                                                    www.gao.gov/special.pubs/d06382sp.pdf, p. 7-3, accessed 1/4/2012.
 income and losses on their personal tax returns and are taxed
                                                                    GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
 at their individual income tax rates.                              on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.pdf,
                                                                    accessed 1/4/2012.
 Subordinated Debt: Loan (or security) that ranks below             GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of Government Assistance
                                                                    Provided to AIG and Description of Recent Execution of Recapitalization Plan,” 1/20/2011,
 other loans (or securities) with regard to claims on assets        www.gao.gov/new.items/d1146.pdf, accessed 1/4/2012.
 or earnings.                                                       IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/businesses/small/article/
                                                                    0,,id=106572,00.html, accessed 1/4/2012.
 Synthetic ABS: Security deriving its value and cash flow           Making Home Affordable base NPV model documentation v4.0, updated 10/1/2010.
                                                                    www.hmpadmin.com/portal/programs/docs/hamp_servicer/
 from sources other than conventional debt, equities, or            npvmodeldocumentationv4.pdf, pp. 23-24, accessed 1/4/2012.
 commodities — for example, credit derivatives.                     SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                    groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 1/4/2012.
 Systemically Significant Institutions: Term referring to any       SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 1/4/2012.

 financial institution whose failure would impose significant       SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                    3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_
 losses on creditors and counterparties, call into question the     Affordable_Modification_Program.pdf, accessed 1/4/2012.
 financial strength of similar institutions, disrupt financial      Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                    1/4/2012.
 markets, raise borrowing costs for households and businesses,      Treasury, “Examinations of Mutual Savings Associations,” 11/1/2001, www.ots.treas.gov/
 and reduce household wealth.                                       _files/25153.pdf, accessed 1/4/2012.
                                                                    Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” no date, www.treasury.gov/initiatives/
 TALF Agent: Financial institution that is party to the TALF        financial-stability/investment-programs/sbli/Pages/unlockingCreditforSmallBusinesses.aspx,
                                                                    accessed 1/4/2012.
 Master Loan and Security Agreement and that occasion-              Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
 ally acts as an agent for the borrower. TALF agents include        Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/
                                                                    tg334.aspx, accessed 1/4/2012.
 primary and nonprimary broker-dealers.                             Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                    Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
 Trial Modification: Under HAMP, a period of at least three         sd1014.pdf, accessed 1/4/2012.
 months in which a borrower is given a chance to establish          Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
                                                                    www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 1/4/2012.
 that he or she can make lower monthly mortgage payments            U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
 and qualify for a permanent modification.                          www.census.gov/hhes/www/rfs/glossary.html#l, accessed 1/4/2012.
                                                                    U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
 Trust Preferred Securities (“TRUPS”): Securities that have         sfh/buying/glossary.cfm, accessed 1/4/2012.

 both equity and debt characteristics, created by establishing a
 trust and issuing debt to it.
 Undercapitalized: Condition in which a financial institution
 does not meet its regulator’s requirements for sufficient
 capital to operate under a defined level of adverse conditions.
                                                                           Acronyms and abbreviations I Appendix B I January 26, 2012      203




Acronyms and Abbreviations

2MP               Second Lien Modification Program                  Chrysler             Chrysler Holding LLC
ABS               asset-backed securities                           Chrysler
                                                                                         Chrysler Financial Services Americas LLC
                                                                    Financial
AGP               Asset Guarantee Program
                                                                    Citigroup            Citigroup, Inc.
                  American International Assurance Co., Ltd.;
AIA
                  AIA Group Limited                                 Citizens
                                                                                         Citizens Republic Bancorp, Inc.
                                                                    Republic
AIA SPV           AIA Aurora LLC
                                                                    CLTV                 combined loan-to-value ratio
AIFP              Automotive Industry Financing Program
                                                                    CMBS                 commercial mortgage-backed securities
AIG               American International Group, Inc.
                                                                    Coastal
AIG Trust         AIG Credit Facility Trust                                              Coastal Securities, Inc.
                                                                    Securities
ALICO             American Life Insurance Company
                                                                    COP                  Congressional Oversight Panel
ALICO SPV         ALICO Holdings LLC
                                                                    COTR                 contracting officer’s technical representative
Ally Financial    Ally Financial Inc.
                                                                    CPP 	                Capital Purchase Program
Anchor            Anchor BanCorp Wisconsin Inc.
                                                                                         CUSIP numbers; from Committee on Uniform
                                                                    CUSIPs
ARM               adjustable rate mortgage                                               Securities Identification Procedures
ASSP              Auto Supplier Support Program                     DIP                  debtor-in-possession
AWCP              Auto Warranty Commitment Program                                       Dodd-Frank Wall Street Reform and Consumer
                                                                    Dodd-Frank Act
                                                                                         Protection Act
                  debt-to-income ratio including all debt owed by
Back-end DTI
                  borrower                                          DTI                  debt-to-income ratio
Bank of                                                             Edison               AIG Edison Life Insurance Company
                  Bank of America Corporation
America
                                                                    EESA                 Emergency Economic Stabilization Act of 2008
                  Bank of Granite Corporation, Granite Falls,
Bank of Granite                                                     Eligible assets      securities eligible for purchase by PPIFs
                  North Carolina
                                                                    Fannie Mae           Federal National Mortgage Association
BHC               bank holding company
                                                                    FBI                  Federal Bureau of Investigation
Broadway          Broadway Financial Corporation
                                                                    FBHC                 FBHC Holding Company
Cadence           Cadence Financial Corporation
                                                                    FDIC                 Federal Deposit Insurance Corporation
CAP               Capital Assistance Program
                                                                                         Federal Deposit Insurance Corporation Office of
CB Holding                                                          FDIC OIG
                  CB Holding Corp                                                        Inspector General
Corp.
                                                                    Federal
CBO               Congressional Budget Office                                            Federal Reserve System
                                                                    Reserve
CCI               CCI One Acquisition Corporation
                                                                    FHA                  Federal Housing Administration
CDCI              Community Development Capital Initiative
                                                                    FHA2LP               Treasury/FHA Second-Lien Program
CDFI              Community Development Financial Institution
                                                                    FHFA                 Federal Housing Finance Agency
CDLF              Community Development Loan Fund
                                                                                         Federal Housing Finance Agency Office of the
                                                                    FHFA OIG
CDO               collateralized debt obligation                                         Inspector General
CDS               credit default swap                               Fiat                 Fiat North America LLC
Center                                                              FICO                 Fair Isaac Corporation
                  Center Financial Corporation
Financial Corp.
                                                                    First BanCorp        First BanCorp, San Juan, Puerto Rico
CEO               chief executive officer
                                                                    FirstCity            FirstCity Bank
Cerberus          Cerberus Capital Management, L.P.
                                                                    FNB United           FNB United Corp.
CFPB              Consumer Financial Protection Bureau
                                                                    FRBNY                Federal Reserve Bank of New York
204             Appendix B I Acronyms and abbreviations I January 26, 2012




                          Federal Reserve Board Office of the Inspector           Option
      FRB OIG                                                                                      Option Adjustable Rate Mortgage
                          General                                                 ARM	
      Freddie Mac         Federal Home Loan Mortgage Corporation                  Orion            Orion Bank
      GAO                 Government Accountability Office                        Orion Bancorp    Orion Bancorp, Inc.
      GM                  General Motors Company                                                   Office of the Special Master for TARP Executive
                                                                                  OSM	
                                                                                                   Compensation
      GMAC                GMAC Inc.
                                                                                  Pinnacle         Pinnacle National Bank
      GSE                 Government-sponsored enterprise
                                                                                  PPIF             Public-Private Investment Fund
      HAFA                Home Affordable Foreclosure Alternatives program
                                                                                  PPIP             Public-Private Investment Program
      HAMP                Home Affordable Modification Program
                                                                                  PRA              Principal Reduction Alternative program
      HFA                 Housing Finance Agency
                                                                                  PremierWest      PremierWest Bancorp, Medford, Oregon
      HHF                 Hardest Hit Fund
                                                                                  PSA              pooling and servicing agreement
      Houlihan Lokey      Houlihan Lokey, Inc.
                                                                                  QA               quality assurance
      HPDP                Home Price Decline Protection program
                                                                                  QFI              qualifying financial institution
      HUD                 Department of Housing and Urban Development
                                                                                  QIB              qualified institutional buyers
                          Department of Housing and Urban Development
      HUD OIG
                          Office of Inspector General                                              Department of Agriculture’s Office of Rural
                                                                                  RD
                                                                                                   Development
      IBM                 International Business Machines Corporation
                                                                                                   Rural Development Home Affordable Modification
      ILFC                International Lease Finance Corporation                 RD-HAMP
                                                                                                   Program
      Invesco             Invesco Legacy Securities Master Fund, L.P.
                                                                                  Recovery Act     American Recovery and Reinvestment Act of 2009
      IPO                 initial public offering
                                                                                  RMA              request for modification and affidavit
      IRS                 Internal Revenue Service
                                                                                  RMBS             residential mortgage-backed securities
      IRS-CI              Internal Revenue Service Criminal Investigation
                                                                                                   Interim Final Rule on TARP Standards for
                                                                                  The Rule
      Legacy Home                                                                                  Compensation and Corporate Governance
                          Legacy Home Loans and Real Estate
      Loans
                                                                                  S corporations   IRS subchapter S corporations
      LTV                 loan-to-value ratio
                                                                                  Santa Lucia
                                                                                                   Santa Lucia Bancorp
      M&T                 M&T Bank Corporation                                    Bancorp
      MBS                 mortgage-backed securities                              SBA              Small Business Administration
      MCP                 mandatorily convertible preferred shares                SBLF             Small Business Lending Fund
      MHA                 Making Home Affordable program                          SEC              Securities and Exchange Commission
      MHA-C               Making Home Affordable Compliance                       Secret Service   United States Secret Service
      Nan Shan            Nan Shan Life Insurance Company Ltd.                    SEO              senior executive officer
      Nara Bancorp        Nara Bancorp, Inc., Los Angeles, California             Servicers        loan servicers
      New Chrysler        Chrysler Group LLC                                      Servicing
                                                                                  Advance          residential mortgage servicing advances
      New Point           New Point Financial Services, Inc.
                                                                                  Receivables
      Non-Agency
                          Non-Agency Residential Mortgage-Backed Securities       Shay Financial   Shay Financial Services, Inc.
      RMBS
                                                                                  SIFI             systemically important financial institutions
      North American      North American Financial Holdings, Inc.
                                                                                                   Special Inspector General for the Troubled Asset
      NPV                 net present value                                       SIGTARP
                                                                                                   Relief Program
      NRSRO               nationally recognized statistical rating organization
                                                                                  SPA              Servicer Participation Agreement
      Oaktree             Oaktree PPIP Fund, L.P.
                                                                                                   Office of the Special Master for TARP Executive
                                                                                  Special Master
      OCC                 Office of the Comptroller of the Currency                                Compensation
      Old Chrysler        Chrysler Group LLC                                      SPV              special purpose vehicle
      Old GM              General Motors Corp.                                    SSFI             Systemically Significant Failing Institutions program
      OFS                 Office of Financial Stability                           Star             AIG Star Life Insurance Co., Ltd.
      OMB                 Office of Management and Budget                         State Bancorp    State Bancorp, Inc.
      Omni                Omni National Bank
                                                                Acronyms and abbreviations I Appendix B I January 26, 2012   205




TALF           Term Asset-Backed Securities Loan Facility
TARP           Troubled Asset Relief Program
TBW            Taylor, Bean and Whitaker Mortgage Corporation
TCW            The TCW Group, Inc.
TIP            Targeted Investment Program
TOTAL          FHA TOTAL Scorecard
TPP            trial period plan
Treasury       Department of the Treasury
Treasury/FHA   HAMP Loan Modification Option for FHA-insured
HAMP           Mortgages
Treasury
               Secretary of the Treasury
Secretary
TRUPS          trust preferred securities
UAW            United Auto Workers
UCSB           Unlocking Credit for Small Businesses
UP             Home Affordable Unemployment Program
UPB            unpaid principal balance
USPIS          Postal Inspection Service
VA             Department of Veterans Affairs
206           Appendix C I Reporting Requirements I January 26, 2012




      Reporting Requirements
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
      data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.



            EESA        EESA Reporting                                                                                                       SIGTARP
       #    Section     Requirement           Treasury Response to SIGTARP Data Call                                                         Report Section

       1    Section     A description of      Treasury’s authority to make new financial commitments under TARP ended on                     Section 2:
            121(c)(A)   the categories of     October 3, 2010                                                                                “TARP Overview”
                        troubled assets
                        purchased or          Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-         Appendix D:
                        otherwise procured    stability/Pages/default.aspx website, as of 12/31/2011:                                        “Transaction
                        by the Treasury                                                                                                      Detail”
                        Secretary.

                                              CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize
                                              the financial system by providing capital to viable financial institutions of all sizes
                                              throughout the nation. With a strengthened capital base, financial institutions have an
                                              increased capacity to lend to U.S. businesses and consumers and to support the U.S.
                                              economy.
                                              AIG: In September of 2008, panic in the financial system was deep and widespread.
                                              Amidst these events, on Friday, September 12, American International Group (AIG)
                                              officials informed the Federal Reserve and Treasury that the company was facing
                                              potentially fatal liquidity problems. At the time, AIG was the largest provider of
                                              conventional insurance in the world, with approximately 75 million individual and corporate
                                              customers in over 130 countries.a
                                              AGP: Under the Asset Guarantee Program (AGP), Treasury acted to support the value of
                                              certain assets held by qualifying financial institutions, by agreeing to absorb unexpectedly
                                              large losses on certain assets. The program was designed for financial institutions whose
                                              failure could harm the financial system and was used in conjunction with other forms of
                                              exceptional assistance.
                                              TIP: Under the Targeted Investment Program [TIP], Treasury provided exceptional
                                              assistance on a case-by-case basis in order to stabilize institutions that were considered
                                              systemically significant to prevent broader disruption of financial markets. Treasury
                                              provided this assistance by purchasing preferred stock, and also received warrants to
                                              purchase common stock, in the institutions.
                                              TALF: This joint initiative with the Federal Reserve builds off, broadens and expands the
                                              resources available to support the consumer and business credit markets by providing
                                              the financing to private investors to help unfreeze and lower interest rates for auto,
                                              student loan, small business, credit card and other consumer and business credit. The
                                              U.S. Treasury originally committed $20 billion to provide credit protection for $200
                                              billion of lending from the Federal Reserve. This commitment was later reduced to $4.3
                                              billion after the program closed to new lending on June 30, 2010 with $43 billion in loans
                                              outstanding.

                                              PPIP: On March 23, 2009, the U.S. Department of the Treasury (“Treasury”), announced
                                              the Legacy Securities Public-Private Investment Program (“PPIP”) as a key component of
                                              President Obama’s Financial Stability Plan. The Financial Stability Plan outlines a broad
                                              framework to bring capital into the financial system and address the problem of legacy
                                              real estate assets.


                                              CDCI: As part of the Administration’s ongoing commitment to improving access to credit
                                              for small businesses, Treasury announced on February 3 final terms for the Community
                                              Development Capital Initiative [CDCI]. This TARP program invested lower-cost capital in
                                              Community Development Financial Institutions (CDFIs) that lend to small businesses in the
                                              country’s hardest-hit communities.
                                                                                       Reporting Requirements I Appendix C I January 26, 2012               207



    EESA        EESA Reporting                                                                                                          SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                          Report Section

                                        SBLF: Enacted into law as part of the Small Business Jobs Act of 2010 (the Jobs Act), the
                                        Small Business Lending Fund (SBLF) is a $30 billion fund that encourages lending to small
                                        businesses by providing capital to qualified community banks with assets of less than $10
                                        billion. Through the Small Business Lending Fund, Main Street banks and small businesses
                                        can work together to help create jobs and promote economic growth in local communities
                                        across the nation.


                                        UCSB: The Treasury Department will begin making direct purchases of securities backed
                                        by SBA loans to get the credit market moving again, and it will stand ready to purchase
                                        new securities to ensure that community banks and credit unions feel confident in
                                        extending new loans to local businesses.


                                        AIFP: The objective of the Automotive Industry Financing Program (AIFP) is to prevent a
                                        significant disruption of the American automotive industry, which would pose a systemic
                                        risk to financial market stability and have a negative effect on the economy of the United
                                        States.


                                        ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                        confidence they need to continue shipping parts, pay their employees and continue their
                                        operations.b


                                        AWCP: The Treasury Department announced an innovative new program to give
                                        consumers who are considering new car purchases the confidence that even while
                                        Chrysler and GM were restructuring in bankruptcy, their warrantees will be honored. This
                                        program is part of the Administration’s broader program to stabilize the auto industry and
                                        stand behind a restructuring effort that will result in stronger, more competitive and viable
                                        American car companies.b


                                        HAMP (a program under MHA): The Home Affordable Modification Program has a
                                        simple goal: reduce the amount homeowners owe per month to sustainable levels to
                                        stabilize communities. This program will bring together lenders, investors, servicers,
                                        borrowers and the government, so that all stakeholders share in the cost of ensuring that
                                        responsible homeowners can afford their monthly mortgage payments -- helping to reach
                                        up to 3 to 4 million at-risk borrowers in all segments of the mortgage market, reducing
                                        foreclosures, and helping to avoid further downward pressures on overall home prices.b


2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on                      Appendix D:
    121(c)(B)   troubled assets         October 3, 2010.                                                                                “Transaction
                purchased in each                                                                                                       Detail”
                such category           Information on all transactions as well as additional information about these programs
                described under         and related purchases is available in the transaction reports and monthly 105(a) reports
                Section 121(c)(A)       posted at www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/
                                        Home.aspx. Information regarding all transactions through the end of December 2011 is
                                        available at the aforementioned link in a transaction report dated 1/4/2012.


3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on                      Section 2: “TARP
    121(c)(C)   of the reasons          October 3, 2010.                                                                                Overview”
                the Treasury
                Secretary deemed                                                                                                        Appendix C:
                it necessary to                                                                                                         “Reporting
                purchase each such                                                                                                      Requirements”
                troubled asset.                                                                                                         of prior SIGTARP
                                                                                                                                        Quarterly Reports
                                                                                                                                        to Congress

4   Section     A listing of each       See #2.                                                                                         See #2.
    121(c)(D)   financial institution
                from which such
                troubled assets
                were purchased.
208                  Appendix C I Reporting Requirements I January 26, 2012




                 EESA              EESA Reporting                                                                                                                               SIGTARP
      #          Section           Requirement                     Treasury Response to SIGTARP Data Call                                                                       Report Section

      5          Section           A listing of                    There have been no new PPIP fund managers hired between September 30, 2011, and                              Section 2: ”Public-
                 121(c)(E)         and detailed                    December 31, 2011.                                                                                           Private Investment
                                   biographical                                                                                                                                 Program”
                                   information on each             On November 29, 2011, the Treasury designated Houlihan Lokey Capital, Inc. (Houlihan
                                   person or entity                Lokey) as a financial agent to provide certain services relating to the management and                       Appendix C:
                                   hired to manage                 disposition of certain Capital Purchase Program (CPP) investments acquired pursuant                          “Reporting
                                   such troubled                   to the Emergency Economic Stability Act of 2008 (EESA). Houlihan Lokey is a global,                          Requirements”
                                   assets.                         advisory-focused investment bank providing services relating to capital markets, mergers                     of prior SIGTARP
                                                                   & acquisitions, and restructuring.                                                                           Quarterly Reports
                                                                                                                                                                                to Congress


      6          Section           A current estimate              The transaction reports capture detailed information about troubled asset purchases,                         Table C.1; Section
                 121(c)(F)         of the total amount             price paid, and the amount of troubled assets currently on Treasury’s books. The latest                      2: “TARP Overview”
                                   of troubled assets              transaction reports are available on Treasury’s website at www.treasury.gov/initiatives/
                                   purchased pursuant              financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding all                         Appendix D:
                                   to any program                  transactions through the end of December 2011 is available at the aforementioned link in                     “Transaction
                                   established under               a transaction report dated January 4, 2012.                                                                  Detail”
                                   Section 101, the
                                   amount of troubled              Treasury published its most recent valuation of TARP investments as of December 31,
                                   assets on the                   2011, on January 10, 2012, in its January 2012 105(a) report that is available at the
                                   books of Treasury,              following link: www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/
                                   the amount of                   Pages/default.aspx
                                   troubled assets
                                   sold, and the profit            Information on the repayments of Treasury’s investments under the CPP and proceeds
                                   and loss incurred               from the sale of warrants are available within Treasury’s press releases, transactions
                                   on each sale or                 reports and Section 105(a) Monthly Congressional Reports at the following links:
                                   disposition of each             www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/press-releases.aspx
                                   such troubled                   www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx
                                   assets.


      7          Section           A listing of the                Treasury’s authority to make new financial commitments under TARP ended on October 3,                        Section 2:
                 121(c)(G)         insurance contracts             2010. As such, Treasury cannot issue any new insurance contracts after this date.                            “TARP Overview”
                                   issued under
                                   Section 102.                                                                                                                                 Section 2:
                                                                                                                                                                                “Targeted
                                                                                                                                                                                Investment
                                                                                                                                                                                Program and
                                                                                                                                                                                Asset Guarantee
                                                                                                                                                                                Program”


      8          Section           A detailed statement            Treasury’s authority to make new financial commitments under TARP ended on                                   Table C.1;
                 121(f)            of all purchases,               October 3, 2010.                                                                                             Section 2:
                                   obligations,                                                                                                                                 “TARP Overview”
                                   expenditures, and               Treasury provides information about TARP obligations, expenditures and revenues in
                                   revenues associated             separate transaction reports available on Treasury’s public website at www.treasury.gov/     Section 3:
                                   with any program                initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding “TARP Operations
                                   established by the              all transactions through the end of December 2011 is available at the aforementioned link and Administration”
                                   Secretary of the                in a transaction report dated January 4, 2012.
                                   Treasury under                                                                                                               Appendix D:
                                   Sections 101 and                Information on obligations and expenditures is also available in the Daily TARP Update       “Transaction Detail”
                                   102.                            reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-
                                                                   stability/briefing-room/reports/tarp-daily-summary-report/pages/default.aspx, accessed
                                                                   1/4/2012.
      Notes:
      a
          Otherwise known as Systemically Significant Failing Institution (“SSFI”).
      b
          Description is of 3/31/2011.

      Sources: Treasury, response to SIGTARP data call, 1/5/2012; Program Descriptions: Treasury, “Programs,” www.treasury.gov/initiatives/financial-stability/programs/Pages/default.aspx accessed
      1/4/2012; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 1/4/2012; AWCP: “Obama
      Administration’s New Warrantee Commitment Program,” no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 1/4/2012; TALF: Federal Reserve, “Term Asset-
      Backed Securities Loan Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 1/4/2012; SBLF: Small Business
      Lending Act, P.L. 111-240, 9/27/2010; MHA “Making Home Affordable Updated Detailed Description Update,” 3/26/2010, www.treasury.gov/initiatives/financial-stability/programs/housing-programs/mha/
      Pages/default.aspx, accessed 1/4/2012.
                                                                                                                    Reporting Requirements I Appendix C I January 26, 2012                   209




TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS ($ BILLIONS)

                                                                             Obligations After                          Current
                                                                            Dodd-Frank (As of                 Obligations (As of                                             On Treasury’s
                                                                                 10/3/2010)                       12/31/2011)                              Expended                Booksa

Housing Support Programs                                                                    $45.62                            $45.62                             $3.00                $—


Capital Purchase Program (“CPP”)                                                            204.89                            204.89                           204.89               19.45


Community Development Capital Initiative (“CDCI”)                                               0.57                             0.57                              0.20              0.57


Systemically Significant Failing Institutions (“SSFI”)                                        69.84                           67.84c                             67.80              51.87


Targeted Investment Program (“TIP”)                                                           40.00                            40.00                             40.00                 —


Asset Guarantee Program (“AGP”)                                                                 5.00                             5.00                                 —                —


Term Asset-Backed Securities Loan Facility (“TALF”)                                             4.30                             4.30                              0.10              0.10


Public-Private Investment Program (“PPIP”)                                                    22.41                            21.86                             17.70              16.33


Unlocking Credit for Small Businesses (“UCSB”)                                                  0.40                             0.40                              0.40              0.07


Automotive Industry Support Programs (“AIFP”)b                                                81.76                           79.69d                             79.69              44.52


Total                                                                                    $474.79                           $470.12                          $413.80              $132.91

Notes: Numbers affected by rounding. Obligation figures are as of 10/3/2010 and expended figures are as of 12/31/2011.

a
  “On Treasury’s Books” calculated as the amount of TARP funds remaining outstanding, including losses and write-offs.
b
  Includes amounts for AIFP, ASSP, and AWCP.
c
  Treasury deobligated $2 billion in equity facility for AIG that was never drawn down.
d
  Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.

Sources: Repayments data: Treasury, Transactions Report, 1/4/2012; Treasury, Transactions Report-Housing Programs, 12/28/2011; Treasury, Daily TARP Update, 1/3/2012.
Table D.1                                                                                                                                                                                                                                                              210

 CPP TRANSACTION DETAIL, AS OF 12/31/2011
                                                                                                                              Capital                             Remaining    Final                          Final    Stock Price       Current         Dividends/
 Purchase                                                                                                                     Repayment               Capital       Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
 Date        Company                                              Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

12/23/2008   1st Constitution Bancorp, Cranbury, NJo              Preferred Stock w/ Warrants                  $12,000,000    10/27/2010         $12,000,000              —    11/18/2011      P         $326,576            $6.98                      $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49,c           Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011             $4,400,000             —    9/1/2011        R         $220,000
                                                                                                                                                                                                                             $9.51                      $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49,c       Preferred Stock                                $6,000,000   9/1/2011             $6,000,000             —
11/14/2008   1st FS Corporation, Hendersonville, NC               Preferred Stock w/ Warrants                  $16,369,000                                                                                                                              $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN               Preferred Stock w/ Warrants                 $111,000,000    12/29/2010        $111,000,000              —    3/9/2011        R        $3,750,000         $25.33                      $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants        $10,000,000    11/18/2009         $10,000,000              —    11/18/2009      R         $500,000            $5.55                        $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC             Preferred Stock w/ Warrants                    $3,500,000                                                                                                  $0.80                        $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                        Preferred Stock w/ Exercised Warrants        $12,720,000    7/21/2011          $12,720,000              —    7/21/2011       R         $636,000                                       $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2         Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                               $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK          Preferred Stock w/ Warrants                    $4,781,000                                                                                                  $6.10                        $665,080
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2               Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                               $388,244
12/19/2008   Alliance Financial Corporation, Syracuse, NY         Preferred Stock w/ Warrants                  $26,918,000    5/13/2009          $26,918,000              —    6/17/2009       R         $900,000          $30.88                         $538,360
                                                                  Subordinated Debentures w/ Exercised
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                 $12,000,000                                                                                                                                $388,742
                                                                  Warrants
4/24/2009    Allied First Bancorp, Inc., Oswego, IL2              Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                  $0.18                        $409,753
                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I January 26, 2012




3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2      Preferred Stock w/ Exercised Warrants        $70,000,000                                                                                                                              $6,231,166
1/30/2009    AMB Financial Corp., Munster, IN2,50                 Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011            $3,674,000             —    9/22/2011       R         $184,000            $4.25                        $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49      Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011            $2,492,000             —    9/15/2011       R         $125,000                                         $343,021
1/9/2009     American Express Company, New York, NY               Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009        $3,388,890,000             —    7/29/2009       R      $340,000,000         $47.17                      $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2               Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011            $1,800,000             —    1/26/2011       R          $90,000                                         $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2,d   Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011            $6,000,000             —    11/2/2011       R         $300,000                                         $920,142
11/21/2008   Ameris Bancorp, Moultrie, GAe                        Preferred Stock w/ Warrants                  $52,000,000                                                                                                 $10.28       698,554         $7,756,667
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50            Preferred Stock w/ Warrants                  $21,000,000    8/11/2011          $21,000,000              —    11/2/2011       R         $825,000            $1.95                      $2,776,667

                                                              8   Subordinated Debentures w/ Exercised
8/21/2009    AmFirst Financial Services, Inc., McCook, NE                                                        $5,000,000                                                                                                                               $936,885
                                                                  Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI           Preferred Stock w/ Warrants                 $110,000,000                                                                                                   $0.34    7,399,103                   —
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD               Preferred Stock w/ Warrants                    $8,152,000                                                                                                  $3.89      299,706         $1,137,883
                                                                                                                              4/6/2011          $262,500,000    $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WIf                 Preferred Stock w/ Warrants                 $525,000,000                                                     11/30/2011      A        $3,584,977         $11.17                      $68,104,167
                                                                                                                              9/14/2011         $262,500,000              —
                                                       2,10
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC              Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                  $1.10                        $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49   Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011            $7,400,000             —    9/15/2011       R         $370,000                                       $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49             Preferred Stock w/ Exercised Warrants        $21,100,000    7/14/2011          $21,100,000              —    7/14/2011       R        $1,055,000                                      $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49        Preferred Stock w/ Exercised Warrants        $13,669,000    8/18/2011          $13,669,000              —    8/18/2011       R         $410,000                                       $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI           Preferred Stock w/ Warrants                  $30,000,000    8/5/2009           $30,000,000              —    9/30/2009       R        $1,400,000         $39.70                         $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30              Preferred Stock w/ Exercised Warrants        $48,000,000    9/29/2010          $48,000,000              —    9/29/2010       R        $2,400,000                                      $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                          Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                             $1,226,432
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL          Preferred Stock w/ Warrants                  $50,000,000                                                                                                   $1.24      730,994         $7,263,889
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2     Preferred Stock w/ Exercised Warrants          $1,004,000                                                                                                                               $123,227

10/28/2008   Bank of America Corporation, Charlotte, NC1b,c       Preferred Stock w/ Warrants              $15,000,000,000    12/9/2009      $15,000,000,000              —    3/3/2010        A      $186,342,969                                   $458,333,333
                                                                                                                                                                                                                             $5.56
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b,c    Preferred Stock w/ Warrants              $10,000,000,000    12/9/2009      $10,000,000,000              —    3/3/2010        A      $124,228,646                                   $835,416,667
1/16/2009    Bank of Commerce, Charlotte, NC2,e                   Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                               $381,046
11/14/2008   Bank of Commerce Holdings, Redding, CA49             Preferred Stock w/ Warrants                  $17,000,000    9/27/2011          $17,000,000              —    10/26/2011      R         $125,000            $2.50                      $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                       Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                               $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CAi,n                 Preferred Stock w/ Warrants                  $28,000,000    3/31/2009          $28,000,000              —    11/18/2011      P        $1,703,984         $37.59                         $451,111
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC    Preferred Stock w/ Warrants                  $13,179,000                                                                                                   $0.28      475,204         $1,039,677
12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR            Preferred Stock w/ Warrants                  $75,000,000    11/4/2009          $75,000,000              —    11/24/2009      R        $2,650,000         $29.63                       $3,354,167
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                         Preferred Stock w/ Exercised Warrants        $12,639,000                                                                                                                                $717,532
             Denver, CO2

                                                                                                                                                                                                                                             Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (continued)
                                                                                                                                 Capital                             Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

1/23/2009    BankFirst Capital Corporation, Macon, MS2,49            Preferred Stock w/ Exercised Warrants        $15,500,000    9/8/2011           $15,500,000              —    9/8/2011        R        $775,000                                       $2,217,469
2/13/2009    BankGreenville, Greenville, SC2                         Preferred Stock w/ Exercised Warrants          $1,000,000                                                                                                                              $150,178
11/21/2008   Banner Corporation, Walla Walla, WA                     Preferred Stock w/ Warrants                 $124,000,000                                                                                                $17.15       243,998        $18,496,667
2/6/2009     Banner County Ban Corporation, Harrisburg, NE2,49       Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011             $795,000              —    7/28/2011       R         $40,000                                         $107,411
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                   Preferred Stock w/ Warrants                  $18,751,000    2/24/2010          $18,751,000              —    7/28/2010       R        $250,000          $29.98                       $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                           Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009        $3,133,640,000             —    7/22/2009       R      $67,010,402         $25.17                      $92,703,517
             BBCN Bancorp, Inc.
12/12/2008                                                           Preferred Stock w/ Warrants                  $55,000,000                                                                                                                             $8,158,333
             (Center Financial Corporation), Los Angeles, CA66,d,m
                                                                                                                                                                                                                               $9.45      337,480
             BBCN Bancorp, Inc.
11/21/2008                                                           Preferred Stock w/ Warrants                  $67,000,000                                                                                                                             $9,994,167
             (Nara Bancorp, Inc.), Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2                Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                              $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                       Preferred Stock w/ Warrants                  $10,800,000    1/26/2011          $10,800,000              —                                               $10.75       183,465         $1,129,500
                                                                                                                                 7/6/2011             $1,500,000     $4,500,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2               Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                 $9.00                        $880,583
                                                                                                                                 10/19/2011           $1,500,000     $3,000,000
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA           Preferred Stock w/ Warrants                  $40,000,000    5/27/2009          $40,000,000              —    6/24/2009       R       $1,040,000         $22.19                         $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                     Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011              $985,000              —    9/1/2011        R         $50,000                                         $137,063
             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                            Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011            $1,635,000             —    7/28/2011       R         $82,000
             Birmingham, MI2,49
                                                                                                                                                                                                                               $3.00                        $342,023
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                           Preferred Stock                                $1,744,000   7/28/2011            $1,744,000             —
             Birmingham, MI2,10a,49
                                                                     Subordinated Debentures w/ Exercised
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL8,10                                                       $6,400,000                                                                                                                            $1,255,795
                                                                     Warrants
                                                   2
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI                     Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                  $5.90                      $1,456,361
5/22/2009    Blackridge Financial, Inc., Fargo, ND2                  Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                              $675,951
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2          Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                             $1,433,350
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2           Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                 $0.11                        $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                 Preferred Stock w/ Warrants                  $21,750,000                                                                                                  $4.10      111,083           $211,458
4/17/2009    BNB Financial Services Corporation, New York, NY2       Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                              $440,542
12/5/2008    BNC Bancorp, Thomasville, NC                            Preferred Stock w/ Warrants                  $31,260,000                                                                                                  $7.25      543,337         $4,602,167
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011             $4,797,000             —    8/4/2011        R        $240,000          $13.00                         $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                            Preferred Stock w/ Exercised Warrants        $20,093,000                                                                                                  $2.75                        $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                     Preferred Stock w/ Exercised Warrants        $10,000,000    7/14/2011          $10,000,000              —    7/14/2011       R        $500,000                                       $1,283,777
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                   $5,586,000                                                                                                                              $468,624
                                                                     Warrants
                                                                                                                                 1/13/2010          $50,000,000    $104,000,000   2/1/2011        A       $6,352,500
11/21/2008   Boston Private Financial Holdings, Inc., Boston, MA     Preferred Stock w/ Warrants                 $154,000,000                                                                                                  $7.94                     $11,022,222
                                                                                                                                 6/16/2010         $104,000,000              —
                                                                                                                                 2/23/2011          $15,000,000      $8,864,000   4/20/2011       R       $1,395,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                   Preferred Stock w/ Warrants                  $23,864,000                                                                                                $10.40                       $2,613,582
                                                                                                                                 3/16/2011            $8,864,000             —
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL2               Preferred Stock w/ Exercised Warrants        $38,000,000                                                                                                                             $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                           Preferred Stock                                $9,000,000
             Los Angeles, CA3a,c
                                                                                                                                                                                                                               $1.56                        $810,417
             Broadway Financial Corporation,
12/4/2009                                                            Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,c
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                 $2,400,000                                                                                                                              $402,720
                                                                     Warrants
                                                              2,49
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS           Preferred Stock w/ Exercised Warrants        $11,000,000    9/15/2011          $11,000,000              —    9/15/2011       R        $550,000                                       $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2                 Preferred Stock w/ Exercised Warrants        $15,000,000                                                                                                                             $2,091,438
3/13/2009    Butler Point, Inc., Catlin, IL2,d                       Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011             $607,000              —    11/2/2011       R         $30,000                                          $87,124
1/9/2009     C&F Financial Corporation, West Point, VA               Preferred Stock w/ Warrants                  $20,000,000    7/27/2011          $10,000,000     $10,000,000                                              $26.60       167,504         $2,700,000
                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I January 26, 2012




12/23/2008   Cache Valley Banking Company, Logan, UT2,49,c           Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011            $4,767,000             —    7/14/2011       R        $238,000
                                                                                                                                                                                                                                                          $1,029,334
12/18/2009   Cache Valley Banking Company, Logan, UT2,10a,49,c       Preferred Stock                                $4,640,000   7/14/2011            $4,640,000             —
                                                             33
1/9/2009     Cadence Financial Corporation, Starkville, MS           Preferred Stock w/ Warrants                  $44,000,000    3/4/2011           $38,000,000              —                                                                            $3,984,063

                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                         211
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                       (continued)                                                                                                                                                               212
                                                                                                                                 Capital                            Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

2/27/2009    California Bank of Commerce, Lafayette, CA2,49          Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011            $4,000,000            —    9/15/2011       R         $200,000                                         $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2          Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010            $3,300,000            —    12/8/2010       R         $165,000                                         $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2             Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                              $158,913
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2            Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                 $0.29                        $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                   Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010           $4,700,000            —    12/30/2010      R         $235,000                                         $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                 Preferred Stock w/ Warrants                  $41,279,000    1/28/2011          $41,279,000             —                                                  $2.01      749,619         $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2          Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                              $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA           Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009        $3,555,199,000            —    12/3/2009       A      $148,731,030         $42.29                    $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2                  Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                              $630,989
                                                                     Subordinated Debentures w/ Exercised
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO8,50                                                          $6,251,000   9/8/2011             $6,251,000            —    9/8/2011        R         $313,000                                         $983,480
                                                                     Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC            Preferred Stock w/ Warrants                  $16,000,000                                                                                                  $2.45      357,675         $1,882,500
2/6/2009     Carolina Trust Bank, Lincolnton, NC                     Preferred Stock w/ Warrants                    $4,000,000                                                                                                 $2.33       86,957           $455,000
2/13/2009    Carrollton Bancorp, Baltimore, MD                       Preferred Stock w/ Warrants                    $9,201,000                                                                                                 $2.80      205,379           $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30                   Preferred Stock                              $18,980,000    8/27/2010          $18,980,000             —                                                  $8.29                      $1,531,581
11/21/2008   Cascade Financial Corporation, Everett, WA47            Preferred Stock w/ Warrants                  $38,970,000    6/30/2011          $16,250,000             —                                                                             $1,428,900
12/5/2008    Cathay General Bancorp, Los Angeles, CA                 Preferred Stock w/ Warrants                 $258,000,000                                                                                                $14.93     1,846,374        $37,983,333
                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I January 26, 2012




2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49,c       Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011            $3,000,000            —    7/21/2011       R         $150,000
                                                                                                                                                                                                                             $17.75                         $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49,c   Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011            $3,500,000            —    7/21/2011       R         $113,000
5/29/2009    CB Holding Corp., Aledo, IL2,63                         Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                              $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2                          Preferred Stock w/ Exercised Warrants          $2,644,000
                                                                                                                                                                                                                                                            $558,806
12/29/2009   CBB Bancorp, Cartersville, GA2,10a                      Preferred Stock                                $1,753,000
3/27/2009    CBS Banc-Corp., Russellville, AL2                       Preferred Stock w/ Exercised Warrants        $24,300,000                                                                                                             523,076         $3,554,874
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                         Preferred Stock w/ Warrants                  $11,560,000                                                                                                  $0.55      261,538           $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                           Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                              $538,961
1/9/2009     Center Bancorp, Inc., Union, NJ49                       Preferred Stock w/ Warrants                  $10,000,000    9/15/2011          $10,000,000             —    12/7/2011       R         $245,000            $9.77                      $1,341,667
5/1/2009     CenterBank, Milford, OH2                                Preferred Stock w/ Exercised Warrants          $2,250,000                                                                                                                              $311,446
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL        Preferred Stock w/ Warrants                  $27,875,000    9/30/2009          $27,875,000             —    10/28/2009      R         $212,000            $6.62                      $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2        Preferred Stock w/ Exercised Warrants        $15,000,000    3/31/2009          $15,000,000             —    4/15/2009       R         $750,000                                         $172,938
12/5/2008    Central Bancorp, Inc., Somerville, MA50,e               Preferred Stock w/ Warrants                  $10,000,000    8/25/2011          $10,000,000             —    10/19/2011      R        $2,525,000         $17.05                       $1,361,111
2/27/2009    Central Bancorp, Inc., Garland, TX2                     Preferred Stock w/ Exercised Warrants        $22,500,000                                                                                                                             $2,411,625
1/30/2009    Central Bancshares, Inc., Houston, TX2                  Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011             $5,800,000            —    7/6/2011        R         $290,000                                         $769,177
2/20/2009    Central Community Corporation, Temple, TX2              Preferred Stock w/ Exercised Warrants        $22,000,000                                                                                                                             $3,280,597
12/5/2008    Central Federal Corporation, Fairlawn, OH               Preferred Stock w/ Warrants                    $7,225,000                                                                                                            336,568           $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                    Preferred Stock w/ Warrants                  $11,300,000    11/24/2010         $11,300,000             —    12/1/2010       R         $319,659                                       $1,084,486
1/9/2009     Central Pacific Financial Corp., Honolulu, HI37,46      Common Stock w/ Warrants                    $135,000,000    6/17/2011          $35,883,281    $99,116,719                                                             79,288         $2,362,500
1/30/2009    Central Valley Community Bancorp, Fresno, CA50          Preferred Stock w/ Warrants                    $7,000,000   8/18/2011            $7,000,000            —    9/28/2011       R         $185,017            $5.43                        $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA         Preferred Stock w/ Warrants                  $11,385,000                                                                                                  $0.38      263,542           $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49    Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011            $6,056,000            —    7/14/2011       R         $182,000                                         $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                   Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011            $7,500,000            —    7/28/2011       R         $375,000          $16.70                       $1,012,791
1/9/2009     Centrue Financial Corporation, St. Louis, MO            Preferred Stock w/ Warrants                  $32,668,000                                                                                                  $0.30      508,320           $571,690
             Century Financial Services Corporation, Santa           Subordinated Debentures w/
6/19/2009                                                                                                         $10,000,000                                                                                                                             $2,018,261
             Fe, NM8                                                 Exercised Warrants
                                                                     Subordinated Debentures w/
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                             $19,817,000                                                                                                                             $4,092,008
                                                                     Exercised Warrants
7/31/2009    Chicago Shore Corporation, Chicago, IL2                 Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                              $874,271
12/31/2008   CIT Group Inc., New York, NY16                          Contingent Value Rights                    $2,330,000,000   2/8/2010                                   —                                                $34.87                      $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                       Common Stock w/ Warrants                 $25,000,000,000    **             $25,000,000,000             —    1/25/2011       A       $54,621,849         $26.31                    $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA          Preferred Stock w/ Warrants                  $26,440,000    8/4/2010           $26,440,000             —    9/1/2010        R         $400,000          $18.47                       $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                   Preferred Stock w/ Exercised Warrants        $10,400,000                                                                                                  $0.01                        $223,571

                                                                                                                                                                                                                                               Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (continued)
                                                                                                                                 Capital                             Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

5/29/2009    Citizens Bancshares Co., Chillicothe, MO2               Preferred Stock w/ Exercised Warrants        $24,990,000                                                                                                                                $628,033
3/6/2009     Citizens Bancshares Corporation, Atlanta, GA3,30        Preferred Stock                                $7,462,000   8/13/2010            $7,462,000             —                                                  $3.51                        $535,813
3/20/2009    Citizens Bank & Trust Company, Covington, LA2           Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                               $183,483
             Citizens Commerce Bancshares, Inc.,
2/6/2009                                                             Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                               $180,259
             Versailles, KY2
                                                      2,49
12/23/2008   Citizens Community Bank, South Hill, VA                 Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011            $3,000,000             —    7/28/2011       R         $150,000                                         $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY           Preferred Stock w/ Warrants                    $8,779,000   2/16/2011            $2,212,308     $6,566,692                                                 $6.99      254,218         $1,192,740
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI              Preferred Stock w/ Warrants                 $300,000,000                                                                                                 $11.40     1,757,813        $13,875,000
             Citizens South Banking Corporation,
12/12/2008                                                           Preferred Stock w/ Warrants                  $20,500,000    9/22/2011          $20,500,000              —    11/9/2011       R         $225,157            $3.50                      $2,847,222
             Gastonia, NC50,k
             City National Bancshares Corporation,
4/10/2009                                                            Preferred Stock                                $9,439,000                                                                                                                               $281,859
             Newark, NJ2,3
                                                                                                                                 12/30/2009        $200,000,000    $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA            Preferred Stock w/ Warrants                 $400,000,000                                                     4/7/2010        R       $18,500,000         $44.18                      $23,916,667
                                                                                                                                 3/3/2010          $200,000,000              —
                                                             2
3/27/2009    Clover Community Bankshares, Inc., Clover, SC           Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                               $267,050
             Coastal Banking Company, Inc.,
12/5/2008                                                            Preferred Stock w/ Warrants                    $9,950,000                                                                                                             205,579           $967,361
             Fernandina Beach, FL
             CoastalSouth Bancshares, Inc., Hilton Head
8/28/2009                                                            Preferred Stock w/ Exercised Warrants        $16,015,000                                                                                                                              $1,235,449
             Island, SC2,10
12/19/2008   CoBiz Financial Inc., Denver, CO50,l                    Preferred Stock w/ Warrants                  $64,450,000    9/8/2011           $64,450,000              —    11/18/2011      P         $143,677            $5.77                      $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49                Preferred Stock w/ Warrants                  $16,500,000    8/18/2011          $16,500,000              —    9/28/2011       R         $526,604            $8.30                      $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                   Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                                              $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2,d        Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011            $574,000              —    10/26/2011      R          $29,000                                          $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                   Preferred Stock w/ Warrants                  $28,000,000                                                                                                   $2.24      500,000         $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA               Preferred Stock w/ Warrants                  $76,898,000    8/11/2010          $76,898,000              —    9/1/2010        R        $3,301,647         $19.27                       $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49            Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011            $2,260,000             —    9/22/2011       R         $113,000                                         $316,479
11/14/2008   Comerica Inc., Dallas, TX                               Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010        $2,250,000,000             —    5/6/2010        A      $183,673,472         $25.80                    $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA               Preferred Stock w/ Warrants                    $5,000,000   10/7/2009            $5,000,000             —                                                  $6.75       87,209            $36,111
                                                                     Subordinated Debentures w/ Exercised
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8                                                       $20,400,000                                                                                                   $0.00                      $4,245,625
                                                                     Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2            Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                  $5.45                        $445,348
1/16/2009    Community 1st Bank, Roseville, CA2                      Preferred Stock w/ Exercised Warrants          $2,550,000                                                                                                  $7.00                        $139,020
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2         Preferred Stock w/ Exercised Warrants           $500,000                                                                                                                                 $73,348
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                            Preferred Stock w/ Exercised Warrants        $52,000,000    9/29/2010          $52,000,000              —    9/29/2010       R        $2,600,000                                      $2,975,700
             Brandon, MS2,30
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10             Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                               $470,992
1/16/2009    Community Bank of the Bay, Oakland, CA3,30              Preferred Stock                                $1,747,000   9/29/2010            $1,747,000             —                                                                                $76,189
             Community Bank Shares of Indiana, Inc.,
5/29/2009                                                            Preferred Stock w/ Warrants                  $19,468,000    9/15/2011          $19,468,000              —    10/19/2011      R        $1,100,870           $9.40                      $2,233,412
             New Albany, IN49,e
             Community Bankers Trust Corporation,
12/19/2008                                                           Preferred Stock w/ Warrants                  $17,680,000                                                                                                   $1.15      780,000         $1,242,511
             Glen Allen, VA
2/27/2009    Community Business Bank, West Sacramento, CA2           Preferred Stock w/ Exercised Warrants          $3,976,000                                                                                                  $4.35                        $588,729
12/19/2008   Community Financial Corporation, Staunton, VA           Preferred Stock w/ Warrants                  $12,643,000                                                                                                   $3.28      351,194         $1,836,747
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2       Preferred Stock w/ Exercised Warrants          $6,970,000                                                                                                  $2.00                        $569,865
3/20/2009    Community First Bancshares Inc., Union City, TN2,49     Preferred Stock w/ Exercised Warrants        $20,000,000    8/18/2011          $20,000,000              —    8/18/2011       R        $1,000,000                                      $2,628,111
4/3/2009     Community First Bancshares, Inc., Harrison, AR2         Preferred Stock w/ Exercised Warrants        $12,725,000                                                                                                                              $1,814,632
2/27/2009    Community First Inc., Columbia, TN2                     Preferred Stock w/ Exercised Warrants        $17,806,000                                                                                                                              $1,908,453
             Community Holding Company of Florida, Inc.,
2/6/2009                                                             Preferred Stock w/ Exercised Warrants          $1,050,000                                                                                                                               $158,176
             Miramar Beach, FL2
                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I January 26, 2012




                                                                 2
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH          Preferred Stock w/ Exercised Warrants          $2,600,000                                                                                                                               $410,143
1/30/2009    Community Partners Bancorp, Middletown, NJ49,j          Preferred Stock w/ Warrants                    $9,000,000   8/11/2011            $9,000,000             —    10/26/2011      R         $460,000            $4.75                      $1,138,750

                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          213
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                       (continued)                                                                                                                                                                214
                                                                                                                                  Capital                            Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                          Repayment               Capital      Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

             Community Pride Bank Corporation,                        Subordinated Debentures w/
11/13/2009                                                                                                           $4,400,000                                                                                                                              $448,253
             Ham Lake, MN8,10                                         Exercised Warrants
             Community Trust Financial Corporation,
1/9/2009                                                              Preferred Stock w/ Exercised Warrants        $24,000,000    7/6/2011           $24,000,000             —    7/6/2011        R        $1,200,000                                      $3,259,100
             Ruston, LA2,49
12/19/2008   Community West Bancshares, Goleta, CA                    Preferred Stock w/ Warrants                  $15,600,000                                                                                                  $1.49      521,158         $2,266,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2                    Preferred Stock w/ Exercised Warrants          $3,285,000                                                                                                 $1.25                        $519,223
             Corning Savings and Loan Association,
2/13/2009                                                             Preferred Stock w/ Exercised Warrants           $638,000                                                                                                                                $95,838
             Corning, AR2
1/30/2009    Country Bank Shares, Inc., Milford, NE2                  Preferred Stock w/ Exercised Warrants          $7,525,000                                                                                                                            $1,144,835
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2          Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                              $674,739
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2            Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                 $7.25                        $462,266
             Crescent Financial Bancshares, Inc.
1/9/2009                                                              Preferred Stock w/ Warrants                  $24,900,000                                                                                                  $3.44                      $2,303,250
             (Crescent Financial Corporation), Cary, NC65,d
1/23/2009    Crosstown Holding Company, Blaine, MN2                   Preferred Stock w/ Exercised Warrants        $10,650,000                                                                                                                             $1,631,766
3/27/2009    CSRA Bank Corp., Wrens, GA2                              Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                              $180,940
             Customers Bancorp, Inc.
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011           $2,892,000            —    12/28/2011      R         $145,000                                         $407,478
             (Berkshire Bancorp, Inc.), Phoenixville, PA2,60,d
                                                                                                                                  8/26/2009          $97,500,000    $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                          Preferred Stock w/ Warrants                 $130,000,000                                                    10/28/2009      R        $1,307,000         $10.03                       $4,739,583
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I January 26, 2012




                                                                                                                                  9/2/2009           $32,500,000             —
2/27/2009    D.L. Evans Bancorp, Burley, ID2,49                       Preferred Stock w/ Exercised Warrants        $19,891,000    9/27/2011          $19,891,000             —    9/27/2011       R         $995,000                                       $2,800,592
                                                                      Subordinated Debentures w/
5/15/2009    Deerfield Financial Corporation, Deerfield, WI8,49                                                      $2,639,000   9/8/2011             $2,639,000            —    9/8/2011        R         $132,000                                         $512,339
                                                                      Exercised Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                              Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                              $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2,c                     Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                             $317,829
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a,c                 Preferred Stock                                $1,508,000
                                                                      Subordinated Debentures w/
5/22/2009    Diamond Bancorp, Inc., Washington, MO8                                                                $20,445,000                                                                                                                             $4,254,904
                                                                      Exercised Warrants
                                                                  2
1/16/2009    Dickinson Financial Corporation II, Kansas City, MO      Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                             $2,631,197
3/13/2009    Discover Financial Services, Riverwoods, IL              Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010        $1,224,558,000            —    7/7/2010        R      $172,000,000         $24.00                      $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49             Preferred Stock w/ Warrants                  $11,750,000    8/4/2011           $11,750,000             —    9/21/2011       R         $458,000          $10.68                       $1,475,278
                                                                      Subordinated Debentures w/
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                          $12,000,000                                                                                                                             $2,572,773
                                                                      Exercised Warrants
                                                                                                                                  12/23/2009         $15,000,000    $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49,m                    Preferred Stock w/ Warrants                  $38,235,000                                                    11/18/2011      P        $2,794,422         $14.54                       $3,817,732
                                                                                                                                  7/14/2011          $23,235,000             —
12/5/2008    East West Bancorp, Pasadena, CA                          Preferred Stock w/ Warrants                 $306,546,000    12/29/2010        $306,546,000             —    1/26/2011       R       $14,500,000         $19.75                      $31,676,420
1/9/2009     Eastern Virginia Bankshares, Inc., Tappahannock, VA      Preferred Stock w/ Warrants                  $24,000,000                                                                                                  $2.01      373,832         $2,220,000
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                         Preferred Stock w/ Warrants                  $17,949,000                                                                                                $10.55       144,984         $2,540,283
12/23/2008   Emclaire Financial Corp., Emlenton, PA49,e               Preferred Stock w/ Warrants                    $7,500,000   8/18/2011            $7,500,000            —    12/7/2011       R          $51,113          $15.95                         $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50,l                  Preferred Stock w/ Warrants                  $34,000,000    9/27/2011          $34,000,000             —    11/18/2011      P         $637,071          $13.52                       $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO       Preferred Stock w/ Warrants                  $35,000,000                                                                                                $14.80       324,074         $5,084,722
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011            $4,000,000            —    8/25/2011       R         $200,000                                         $480,206
             Allison Park, PA2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS2,49                 Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011            $8,750,000            —    8/11/2011       R         $438,000                                       $1,206,873
12/19/2008   Exchange Bank, Santa Rosa, CA2                           Preferred Stock w/ Exercised Warrants        $43,000,000                                                                                                $48.21                       $6,223,294

                                                8                     Subordinated Debentures w/
5/22/2009    F & C Bancorp, Inc., Holden, MO                                                                         $2,993,000                                                                                                                              $623,020
                                                                      Exercised Warrants
1/30/2009    F & M Bancshares, Inc., Trezevant, TN2,c                 Preferred Stock w/ Exercised Warrants          $4,609,000
                                                                                                                                                                                                                                                           $1,059,046
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a,c             Preferred Stock                                $3,535,000
                                                          2
2/6/2009     F & M Financial Corporation, Salisbury, NC               Preferred Stock w/ Exercised Warrants        $17,000,000                                                                                                                             $2,571,038
2/13/2009    F&M Financial Corporation, Clarksville, TN2              Preferred Stock w/ Exercised Warrants        $17,243,000                                                                                                                             $2,589,478
1/9/2009     F.N.B. Corporation, Hermitage, PAm                       Preferred Stock w/ Warrants                 $100,000,000    9/9/2009          $100,000,000             —    11/18/2011      P         $690,100          $11.31     2,207,143         $3,333,333
3/6/2009     Farmers & Merchants Bancshares, Inc., Houston, TX2       Preferred Stock w/ Exercised Warrants        $11,000,000                                                                                                                             $1,613,655

                                                                                                                                                                                                                                                Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (continued)
                                                                                                                                 Capital                            Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

             Farmers & Merchants Financial Corporation,
3/20/2009                                                            Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                $63,879
             Argonia, KS2
1/23/2009    Farmers Bank, Windsor, VA2                              Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                            $1,340,956
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY         Preferred Stock w/ Warrants                  $30,000,000                                                                                                  $4.49      223,992         $4,275,000
                                                                     Subordinated Debentures w/
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS8                                                           $12,000,000                                                                                                                             $2,421,916
                                                                     Exercised Warrants
3/20/2009    Farmers State Bankshares, Inc., Holton, KS2,50          Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011             $700,000             —    7/21/2011       R          $40,000                                          $90,174
                                                                     Subordinated Debentures w/
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                               $3,035,000   3/9/2011              $650,000             —                                                                               $154,592
                                                                     Exercised Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                         Preferred Stock w/ Exercised Warrants        $21,042,000                                                                                                                               $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                   Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011            $9,294,000            —    9/22/2011       R         $465,000                                       $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2                            Preferred Stock w/ Exercised Warrants          $7,289,000                                                                                                                            $1,154,116

                                                        8            Subordinated Debentures w/
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA                                                                 $3,942,000                                                                                                                              $813,940
                                                                     Exercised Warrants
12/12/2008   Fidelity Bancorp, Inc., Pittsburgh, PA                  Preferred Stock w/ Warrants                    $7,000,000                                                                                               $10.05       121,387         $1,023,750
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10            Preferred Stock w/ Exercised Warrants          $6,657,000                                                                                                                                      —
12/19/2008   Fidelity Financial Corporation, Wichita, KS2            Preferred Stock w/ Exercised Warrants        $36,282,000                                                                                                                             $5,745,329
12/19/2008   Fidelity Southern Corporation, Atlanta, GA              Preferred Stock w/ Warrants                  $48,200,000                                                                                                  $6.08    2,266,458         $7,002,389
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                     Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011         $3,408,000,000            —    3/16/2011       R      $280,025,936         $12.72                    $355,946,667
                                                                                                                                 2/23/2011          $12,505,000    $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                Preferred Stock w/ Warrants                  $37,515,000                                                    5/11/2011       R        $2,079,963         $16.14                       $4,192,649
                                                                                                                                 3/30/2011          $25,010,000             —
2/13/2009    Financial Security Corporation, Basin, WY2,50           Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011            $5,000,000            —    7/21/2011       R         $250,000                                         $664,597
                                                                     Subordinated Debentures w/ Exercised
7/31/2009    Financial Services of Winger, Inc., Winger, MN8,10,49                                                  $3,742,000   9/1/2011             $3,742,000            —    9/1/2011        R         $112,000                                         $633,322
                                                                     Warrants
5/22/2009    First Advantage Bancshares Inc., Coon Rapids, MN2       Preferred Stock w/ Exercised Warrants          $1,177,000                                                                                                                              $159,152
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2           Preferred Stock w/ Exercised Warrants          $3,422,000                                                                                                                              $444,986
             First American Bank Corporation,                        Subordinated Debentures w/ Exercised
7/24/2009                                                                                                         $50,000,000    12/21/2011         $15,000,000    $35,000,000                                                                            $9,798,975
             Elk Grove Village, IL8                                  Warrants
3/13/2009    First American International Corp., Brooklyn, NY3,30    Preferred Stock                              $17,000,000    8/13/2010          $17,000,000             —                                                                             $1,204,167
1/9/2009     First Bancorp, Troy, NC50,l                             Preferred Stock w/ Warrants                  $65,000,000    9/1/2011           $65,000,000             —    11/18/2011      P         $924,462          $11.15       616,308         $8,594,444
1/16/2009    First BanCorp, San Juan, PR28,g                         Common Stock w/ Warrants                    $424,174,000                                                                                                $15.37       389,484        $32,999,386
2/20/2009    First BancTrust Corporation, Paris, IL2                 Preferred Stock w/ Exercised Warrants          $7,350,000                                                                                                 $8.40                      $1,096,141
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50      Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011            $3,345,000            —    7/21/2011       R         $167,000                                         $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50         Preferred Stock w/ Exercised Warrants        $10,000,000    9/8/2011           $10,000,000             —    9/8/2011        R         $500,000          $21.04                       $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                         Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                             $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50,m                 Preferred Stock w/ Warrants                 $100,000,000    8/25/2011         $100,000,000             —    11/18/2011      P          $63,677            $5.00                     $12,347,222
4/10/2009    First Business Bank, N.A., San Diego, CA2,c             Preferred Stock w/ Exercised Warrants          $2,211,000
                                                                                                                                                                                                                                                            $508,931
12/11/2009   First Business Bank, N.A., San Diego, CA2,10a,c         Preferred Stock                                $2,032,000
             First California Financial Group, Inc,
12/19/2008                                                           Preferred Stock w/ Warrants                  $25,000,000    7/14/2011          $25,000,000             —    8/24/2011       R         $599,042            $3.26                      $3,211,806
             Westlake Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA             Preferred Stock w/ Warrants                  $10,958,000                                                                                                  $2.43      250,947         $1,433,672
2/13/2009    First Choice Bank, Cerritos, CA2,30                     Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010            $2,200,000            —    9/24/2010       R         $110,000
                                                                                                                                                                                                                                                            $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                 Preferred Stock                                $2,836,000   9/24/2010            $2,836,000            —
1/23/2009    First Citizens Banc Corp, Sandusky, OH                  Preferred Stock w/ Warrants                  $23,184,000                                                                                                  $6.99      469,312         $3,258,640
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49        Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011            $4,500,000            —    9/22/2011       R         $225,000                                         $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VAm         Preferred Stock w/ Warrants                  $41,500,000    7/8/2009           $41,500,000             —    11/18/2011      P          $30,600                                       $1,308,403
             First Community Bancshares, Inc,
5/15/2009                                                            Preferred Stock w/ Exercised Warrants        $14,800,000                                                                                                                               $604,950
             Overland Park, KS2
                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I January 26, 2012




             First Community Bank Corporation of America,
12/23/2008                                                           Preferred Stock w/ Warrants                  $10,685,000    5/31/2011            $7,754,267            —                                                                               $744,982
             Pinellas Park, FL39
11/21/2008   First Community Corporation, Lexington, SC              Preferred Stock w/ Warrants                  $11,350,000                                                                                                  $6.19      195,915         $1,693,042
12/11/2009   First Community Financial Partners, Inc., Joliet, IL2   Preferred Stock w/ Exercised Warrants        $22,000,000                                                                                                                             $2,311,406

                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                         215
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                       (continued)                                                                                                                                                               216
                                                                                                                                  Capital                            Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                          Repayment               Capital      Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

12/5/2008    First Defiance Financial Corp., Defiance, OH             Preferred Stock w/ Warrants                  $37,000,000                                                                                               $14.59       550,595         $5,447,222
                                                                      Subordinated Debentures w/ Exercised
9/11/2009    First Eagle Bancshares, Inc., Hanover Park, IL8,30                                                      $7,500,000   9/17/2010            $7,500,000            —    9/17/2010       R        $375,000                                         $639,738
                                                                      Warrants
2/6/2009     First Express of Nebraska, Inc., Gering, NE2             Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                             $756,188
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                              Preferred Stock w/ Warrants                  $16,500,000    5/3/2011             $6,000,000            —                                                 $4.32                        $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                  Preferred Stock w/ Warrants                  $80,000,000    2/24/2010          $80,000,000             —    6/2/2010        A       $3,116,284         $16.64                       $4,677,778
                                                                      Subordinated Debentures w/ Exercised
6/12/2009    First Financial Bancshares, Inc., Lawrence, KS8,10,49                                                   $3,756,000   9/22/2011            $3,756,000            —    9/22/2011       R        $113,000                                         $694,280
                                                                      Warrants
12/5/2008    First Financial Holdings Inc., Charleston, SC            Preferred Stock w/ Warrants                  $65,000,000                                                                                                 $8.93      241,696         $9,569,444
1/9/2009     First Financial Service Corporation, Elizabethtown, KY   Preferred Stock w/ Warrants                  $20,000,000                                                                                                 $1.53      215,983         $1,600,000
12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10          Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                             $869,857
2/27/2009    First Gothenburg Bancshares, Inc., Gothenburg, NE2       Preferred Stock w/ Exercised Warrants          $7,570,000                                                                                                                           $1,121,168
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49         Preferred Stock w/ Exercised Warrants        $20,699,000    9/22/2011          $20,699,000             —    9/22/2011       R       $1,030,000                                      $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN          Preferred Stock w/ Warrants                 $866,540,000    12/22/2010        $866,540,000             —    3/9/2011        R      $79,700,000           $8.00                     $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3           Preferred Stock                                $3,223,000                                                                                                                             $356,768
3/13/2009    First Intercontinental Bank, Doraville, GA2              Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                             $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT   Preferred Stock w/ Warrants                  $10,000,000    4/7/2010           $10,000,000             —    4/7/2010        R       $1,488,046                                        $659,722
                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I January 26, 2012




2/27/2009    First M&F Corporation, Kosciusko, MS30                   Preferred Stock w/ Warrants                  $30,000,000    9/29/2010          $30,000,000             —                                                 $2.84      513,113         $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2            Preferred Stock w/ Exercised Warrants        $12,000,000    5/27/2009          $12,000,000             —    5/27/2009       R        $600,000          $14.00                         $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011            $4,797,000            —    9/15/2011       R        $240,000                                         $676,865
                                                                      Preferred Stock w/ Warrants                  $69,600,000    9/22/2011          $69,600,000             —    11/18/2011      P                                                      $12,167,111
2/20/2009    First Merchants Corporation, Muncie, IN27,49,50,c,l                                                                                                                                           $367,500            $8.47
                                                                      Trust Preferred Securities                   $46,400,000    9/22/2011          $46,400,000             —                                                                            $2,848,444
                                                        e
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                  Preferred Stock w/ Warrants                 $193,000,000    11/23/2011        $193,000,000             —    12/21/2011      R        $900,000          $10.13                      $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2               Preferred Stock w/ Exercised Warrants        $13,900,000                                                                                                                            $2,024,342
             First NBC Bank Holding Company, New Orleans,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants        $17,836,000    8/4/2011           $17,836,000             —    8/4/2011        R        $892,000                                       $2,305,990
             LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY              Preferred Stock w/ Warrants                 $184,011,000    5/27/2009         $184,011,000             —    6/24/2009       R       $2,700,000           $8.63                      $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49,e          Preferred Stock w/ Warrants                  $17,390,000    9/15/2011          $17,390,000             —    11/16/2011      R        $375,000            $4.60                      $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA            Preferred Stock w/ Warrants                  $19,300,000    12/15/2010         $19,300,000             —    1/5/2011        R       $1,003,227         $10.25                       $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                  Preferred Stock w/ Warrants                  $72,927,000                                                                                                 $0.52    3,670,822         $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2,c           Preferred Stock w/ Exercised Warrants          $4,579,000
                                                                                                                                                                                                                                                          $1,121,359
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a,c       Preferred Stock                                $4,596,000
                                                              2
3/6/2009     First Reliance Bancshares, Inc., Florence, SC            Preferred Stock w/ Exercised Warrants        $15,349,000                                                                                                 $2.00                      $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50,c                     Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011            $2,600,000            —    9/15/2011       R        $130,000
                                                                                                                                                                                                                                                            $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49,c                 Preferred Stock                                $2,417,000   9/15/2011            $2,417,000            —
1/9/2009     First Security Group, Inc., Chattanooga, TN              Preferred Stock w/ Warrants                  $33,000,000                                                                                                 $2.35      823,627         $1,402,500
12/23/2008   First Sound Bank, Seattle, WA                            Preferred Stock w/ Warrants                    $7,400,000                                                                                                $0.01      114,080           $330,944
                                                                      Subordinated Debentures w/
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                             $50,000,000    9/28/2011          $13,125,000    $36,875,000                                                                           $9,633,085
                                                                      Exercised Warrants
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants        $10,900,000    6/16/2010          $10,900,000             —    6/16/2010       R        $545,000                                         $818,468
3/6/2009     First Southwest Bancorporation, Inc., Alamosa, CO2       Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                             $207,327
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2              Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010             $731,000             —    4/14/2010       R         $37,000                                          $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                Preferred Stock w/ Exercised Warrants        $13,533,000    9/15/2011          $13,533,000             —    9/15/2011       R        $677,000                                       $1,862,389
                                                                      Subordinated Debentures w/
6/5/2009     First Trust Corporation, New Orleans, LA8                                                             $17,969,000                                                                                                                            $1,046,896
                                                                      Exercised Warrants
                                            2
1/23/2009    First ULB Corp., Oakland, CA                             Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009            $4,900,000            —    4/22/2009       R        $245,000                                          $66,021
1/30/2009    First United Corporation, Oakland, MD                    Preferred Stock w/ Warrants                  $30,000,000                                                                                                 $3.16      326,323         $2,312,500
6/12/2009    First Vernon Bancshares, Inc., Vernon, AL2,10,30         Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010            $6,000,000            —    9/29/2010       R        $245,000                                         $417,770
2/6/2009     First Western Financial, Inc., Denver, CO2               Preferred Stock w/ Exercised Warrants          $8,559,000
                                                                                                                                                                                                                                                          $2,439,650
12/11/2009   First Western Financial, Inc., Denver, CO2,10a           Preferred Stock                              $11,881,000

                                                                                                                                                                                                                                               Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                    (continued)
                                                                                                                               Capital                           Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                       Repayment               Capital     Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date         Repayment Amount6      Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

1/30/2009    Firstbank Corporation, Alma, MI                       Preferred Stock w/ Warrants                  $33,000,000                                                                                                $5.13      578,947         $4,606,250
1/9/2009     FirstMerit Corporation, Akron, OH                     Preferred Stock w/ Warrants                 $125,000,000    4/22/2009         $125,000,000            —    5/27/2009       R       $5,025,000         $15.13                       $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                      Preferred Stock w/ Warrants                 $266,657,000                                                                                                $0.51    6,451,379        $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                  Preferred Stock w/ Exercised Warrants        $20,471,000                                                                                                                           $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49       Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011            $9,495,000           —    9/22/2011       R        $475,000                                       $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY      Preferred Stock w/ Warrants                  $70,000,000    10/28/2009         $70,000,000            —    12/30/2009      R        $900,000          $12.63                       $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50,d            Preferred Stock w/ Exercised Warrants        $12,000,000    9/15/2011          $12,000,000            —    9/15/2011       R        $600,000          $12.10                       $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                      Common Stock w/ Warrants                     $51,500,000                                                                                                                           $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2        Preferred Stock w/ Exercised Warrants        $15,000,000                                                                                              $12.10                       $2,043,750
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2          Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                             $87,185
4/3/2009     Fortune Financial Corporation, Arnold, MO2,50         Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011            $3,100,000           —    9/15/2011       R        $155,000                                         $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55               Preferred Stock w/ Warrants                    $5,800,000                                                                                               $0.01      183,158           $273,889
                                                                                                                               12/16/2009           $1,000,000   $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                     Preferred Stock w/ Exercised Warrants          $3,240,000                                                  6/16/2010       R        $162,000                                         $221,722
                                                                                                                               6/16/2010            $2,240,000           —
                                                       2
5/22/2009    Franklin Bancorp, Inc., Washington, MO                Preferred Stock w/ Exercised Warrants          $5,097,000                                                                                                                            $689,098
                                                                   Subordinated Debentures w/
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                             $3,000,000                                                                                                                            $634,143
                                                                   Exercised Warrants
                                                                   Subordinated Debentures w/
6/26/2009    Fremont Bancorporation, Fremont, CA8                                                               $35,000,000                                                                                                                           $7,006,830
                                                                   Exercised Warrants
1/23/2009    Fresno First Bank, Fresno, CA2                        Preferred Stock w/ Exercised Warrants          $1,968,000                                                                                                                            $268,050

                                                                   Subordinated Debentures w/                                  11/24/2009           $1,600,000   $1,400,000
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                                                               $3,000,000                                                  10/6/2010       R        $150,000                                         $258,192
                                                                   Exercised Warrants                                          10/6/2010            $1,400,000           —
12/23/2008   Fulton Financial Corporation, Lancaster, PA           Preferred Stock w/ Warrants                 $376,500,000    7/14/2010         $376,500,000            —    9/8/2010        R      $10,800,000           $9.81                     $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2               Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                                            $742,108
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2       Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011            $8,700,000           —    2/16/2011       R        $435,000                                         $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                    Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                    —
             Germantown Capital Corporation, Inc.,
3/6/2009                                                           Preferred Stock w/ Exercised Warrants          $4,967,000                                                                                                                            $728,724
             Germantown, TN2
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10                 Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                             $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2                 Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                            $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49              Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011             $4,000,000           —    9/8/2011        R        $200,000                                         $517,145

                                                              8    Subordinated Debentures w/
9/25/2009    Grand Financial Corporation, Hattiesburg, MS                                                         $2,443,320                                                                                                                            $438,411
                                                                   Exercised Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2          Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                    —
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50,c       Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011             $9,000,000           —    9/8/2011        R        $450,000
                                                                                                                                                                                                                           $2.35                      $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49,c   Preferred Stock                                $6,319,000   9/8/2011             $6,319,000           —
                                                                   Subordinated Debentures w/
7/17/2009    Great River Holding Company, Baxter, MN8                                                             $8,400,000                                                                                                                            $759,575
                                                                   Exercised Warrants
12/5/2008    Great Southern Bancorp, Springfield, MO50             Preferred Stock w/ Warrants                  $58,000,000    8/18/2011          $58,000,000            —    9/21/2011       R       $6,436,364         $23.59                       $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59             Preferred Stock w/ Warrants                  $72,278,000    9/7/2011           $68,700,000            —                                                                            $5,942,858
2/27/2009    Green Circle Investments, Inc., Clive, IA2            Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                            $355,340
2/27/2009    Green City Bancshares, Inc., Green City, MO2          Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010             $651,000            —    7/14/2010       R         $33,000                                          $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2             Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                               $1.40                        $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                    Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                              $45,190
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50            Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011            $6,920,000           —    9/15/2011       R        $346,000                                         $969,040
9/25/2009    Guaranty Capital Corporation, Belzoni, MS3,8,30       Subordinated Debentures                      $14,000,000    7/30/2010          $14,000,000            —                                                                              $913,299
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO    Preferred Stock w/ Warrants                  $17,000,000                                                                                                $5.70      459,459         $2,372,917
                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I January 26, 2012




9/25/2009    GulfSouth Private Bank, Destin, FL10,21               Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                            $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50           Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011            $7,500,000           —    8/18/2011       R        $375,000                                         $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2              Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011            $7,000,000           —    4/13/2011       R        $350,000                                         $819,166

                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                     217
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (continued)                                                                                                                                                                218
                                                                                                                                 Capital                            Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

12/31/2008   Hampton Roads Bankshares, Inc., Norfolk, VA31           Common Stock w/ Warrants                     $80,347,000                                                                                                  $2.74       53,034         $2,510,844
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3         Preferred Stock                                $6,800,000                                                                                                                              $282,744
6/26/2009    Hartford Financial Services Group, Inc., Hartford, CT   Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010        $3,400,000,000            —    9/21/2010       A      $713,687,430         $16.25                    $129,861,111
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2                Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010            $425,000             —    12/29/2010      R          $21,000                                          $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO            Preferred Stock w/ Warrants                  $30,255,000                                                                                                  $6.05      276,090         $4,395,380
3/6/2009     HCSB Financial Corporation, Loris, SC                   Preferred Stock w/ Warrants                  $12,895,000                                                                                                  $0.51       91,714         $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10            Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                 $3.85                        $823,189
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50            Preferred Stock w/ Warrants                  $81,698,000    9/15/2011          $81,698,000             —    9/28/2011       R        $1,800,000         $15.34                      $11,188,087
                                                                                                                                 3/16/2011            $2,606,000    $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50           Preferred Stock w/ Exercised Warrants        $10,103,000                                                    8/11/2011       R         $303,000          $11.11                         $947,284
                                                                                                                                 8/11/2011            $7,497,000            —
11/21/2008   Heritage Commerce Corp., San Jose, CA                   Preferred Stock w/ Warrants                  $40,000,000                                                                                                  $4.74      462,963         $6,139,045
11/21/2008   Heritage Financial Corporation, Olympia, WA             Preferred Stock w/ Warrants                  $24,000,000    12/22/2010         $24,000,000             —    8/17/2011       R         $450,000          $12.56                       $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA                  Preferred Stock w/ Warrants                  $21,000,000                                                                                                  $3.54      611,650           $947,916
11/21/2008   HF Financial Corp., Sioux Falls, SD                     Preferred Stock w/ Warrants                  $25,000,000    6/3/2009           $25,000,000             —    6/30/2009       R         $650,000          $17.15                         $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                             Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011            $3,091,000            —    9/22/2011       R         $155,000
             Vernon, NJ2,13,49,c
                                                                                                                                                                                                                               $3.11                        $547,251
             Highlands Bancorp, Inc.(Highlands State Bank),
12/22/2009                                                           Preferred Stock                                $2,359,000   9/22/2011            $2,359,000            —
                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I January 26, 2012




             Vernon, NJ2,10a,13,49,c
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                             Preferred Stock w/ Exercised Warrants          $6,700,000
             Sebring, FL2
                                                                                                                                                                                                                               $4.30                        $617,712
             Highlands Independent Bancshares, Inc.,
1/30/2009                                                            Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010            $4,000,000            —    4/21/2010       R         $200,000
             Sebring, FL2
12/23/2008   HMN Financial, Inc., Rochester, MN                      Preferred Stock w/ Warrants                  $26,000,000                                                                                                  $1.94      833,333         $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                       Preferred Stock w/ Warrants                  $50,000,000    7/6/2011           $50,000,000             —    7/27/2011       R        $1,300,000         $25.91                       $6,180,556
2/20/2009    Hometown Bancorp of Alabama, Inc., Oneonta, AL2         Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                              $484,757
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2                  Preferred Stock w/ Exercised Warrants          $1,900,000                                                                                                                              $285,338
9/18/2009    HomeTown Bankshares Corporation, Roanoke, VA2,10        Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                  $4.20                        $351,326
12/12/2008   HopFed Bancorp, Hopkinsville, KYh                       Preferred Stock w/ Warrants                  $18,400,000                                                                                                  $6.45      253,666         $2,691,000
                                                                                                                                 11/10/2010           $6,250,000   $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50,I,n                Preferred Stock w/ Warrants                  $25,000,000                                                    11/18/2011      P        $1,750,551         $17.33                       $3,106,771
                                                                                                                                 8/25/2011          $18,750,000             —
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD2,49             Preferred Stock w/ Exercised Warrants          $5,983,000   9/22/2011            $5,983,000            —    9/22/2011       R         $299,000            $4.60                        $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a,c           Preferred Stock w/ Exercised Warrants          $5,000,000
                                                                                                                                                                                                                                                          $1,080,859
5/1/2009     HPK Financial Corporation, Chicago, IL2,c               Preferred Stock w/ Exercised Warrants          $4,000,000
11/14/2008   Huntington Bancshares, Columbus, OH                     Preferred Stock w/ Warrants                $1,398,071,000   12/22/2010       $1,398,071,000            —    1/19/2011       R       $49,100,000           $5.49                   $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2                        Preferred Stock w/ Exercised Warrants          $1,552,000                                                                                                                              $234,821
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                        Preferred Stock w/ Exercised Warrants          $5,976,000                                                                                                                              $680,045
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                    Subordinated Debentures                        $4,205,000   9/10/2010            $4,205,000            —                                                                               $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                   Preferred Stock w/ Warrants                  $90,000,000    3/31/2009          $90,000,000             —    5/20/2009       R        $1,200,000         $49.30                       $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                          Preferred Stock w/ Exercised Warrants          $2,295,000                                                                                                                              $329,430
3/13/2009    IBW Financial Corporation, Washington, DC2,3a           Preferred Stock                                $6,000,000   9/3/2010             $6,000,000            —                                                  $7.20                        $453,067
3/6/2009     ICB Financial, Ontario, CA2                             Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                 $3.25                        $880,175
1/16/2009    Idaho Bancorp, Boise, ID2                               Preferred Stock w/ Exercised Warrants          $6,900,000                                                                                                 $0.02                        $124,306
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49,c         Preferred Stock w/ Exercised Warrants          $6,272,000   9/22/2011            $6,272,000            —    9/22/2011       R         $314,000
                                                                                                                                                                                                                                                          $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49,c     Preferred Stock w/ Exercised Warrants          $4,000,000   9/22/2011            $4,000,000            —    9/22/2011       R          $92,000
                                                         2
1/9/2009     Independence Bank, East Greenwich, RI                   Preferred Stock w/ Exercised Warrants          $1,065,000                                                                                                                              $165,357
1/9/2009     Independent Bank Corp., Rockland, MA                    Preferred Stock w/ Warrants                  $78,158,000    4/22/2009          $78,158,000             —    5/27/2009       R        $2,200,000         $27.29                       $1,118,094
                                                                     Mandatorily Convertible Preferred
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                            $74,426,000                                                                                                  $1.33      346,154         $2,430,000
                                                                     Stock w/ Warrants
                                              2
4/24/2009    Indiana Bank Corp., Dana, IN                            Preferred Stock w/ Exercised Warrants          $1,312,000                                                                                                                              $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN                 Preferred Stock w/ Warrants                  $21,500,000                                                                                                $14.63       188,707         $3,144,375
2/27/2009    Integra Bank Corporation, Evansville, IN14,57           Preferred Stock w/ Warrants                  $83,586,000                                                                                                  $0.01    7,418,876         $1,950,340

                                                                                                                                                                                                                                               Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                        (continued)
                                                                                                                                   Capital                             Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                           Repayment               Capital       Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                               Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

12/19/2008   Intermountain Community Bancorp, Sandpoint, ID            Preferred Stock w/ Warrants                  $27,000,000                                                                                                   $0.95      653,226         $1,222,500
12/23/2008   International Bancshares Corporation, Laredo, TX          Preferred Stock w/ Warrants                 $216,000,000                                                                                                 $18.34     1,326,238        $31,260,000
12/23/2008   Intervest Bancshares Corporation, New York, NY            Preferred Stock w/ Warrants                  $25,000,000                                                                                                   $2.65      691,882         $1,118,056
             Investors Financial Corporation of Pettis County, Inc.,   Subordinated Debentures w/
5/8/2009                                                                                                              $4,000,000                                                                                                                               $174,325
             Sedalia, MO8                                              Exercised Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                        Preferred Stock w/ Warrants              $25,000,000,000    6/17/2009      $25,000,000,000              —    12/10/2009      A      $950,318,243         $33.25                    $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49                Preferred Stock w/ Exercised Warrants        $10,449,000    8/18/2011          $10,449,000              —    8/18/2011       R         $522,000          $11.75                       $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                                    Preferred Stock w/ Warrants                $2,500,000,000   3/30/2011        $2,500,000,000             —    4/20/2011       R       $70,000,000           $7.69                   $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2                 Preferred Stock w/ Exercised Warrants           $470,000                                                                                                                                 $68,070
8/21/2009    KS Bancorp, Inc., Smithfield, NC2                         Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                  $4.35                        $486,867
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30,c                 Preferred Stock w/ Exercised Warrants          $1,998,000   9/29/2010            $1,998,000             —    9/29/2010       R         $100,000
                                                                                                                                                                                                                                                               $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30,c             Preferred Stock                                $2,453,000   9/29/2010            $2,453,000             —
                                                                                                                                   8/4/2010           $20,000,000     $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJh,m                  Preferred Stock w/ Warrants                  $59,000,000                                                                                                   $8.62      997,049         $6,241,806
                                                                                                                                   3/16/2011          $20,000,000     $19,000,000
2/27/2009    Lakeland Financial Corporation, Warsaw, IN                Preferred Stock w/ Warrants                  $56,044,000    6/9/2010           $56,044,000              —    11/18/2011      P         $877,557          $25.87                       $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2               Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                               $312,013
1/9/2009     LCNB Corp., Lebanon, OHl                                  Preferred Stock w/ Warrants                  $13,400,000    10/21/2009         $13,400,000              —    11/18/2011      P         $602,557          $12.95                         $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                      Preferred Stock w/ Exercised Warrants          $5,830,000   11/24/2010           $5,830,000             —    11/24/2010      R         $292,000                                         $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53                   Preferred Stock                                $5,498,000                                                                                                                               $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50               Preferred Stock w/ Exercised Warrants        $57,500,000    7/21/2011          $57,500,000              —    7/21/2011       R        $2,875,000                                      $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50             Preferred Stock w/ Exercised Warrants        $21,900,000    8/18/2011          $21,900,000              —    8/18/2011       R        $1,095,000                                      $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10              Preferred Stock w/ Exercised Warrants          $6,500,000                                                                                                                               $667,196
2/6/2009     Liberty Financial Services, Inc., New Orleans, LA3,30     Preferred Stock                                $5,645,000   9/24/2010            $5,645,000             —                                                                               $461,009
2/20/2009    Liberty Shares, Inc., Hinesville, GA2                     Preferred Stock w/ Exercised Warrants        $17,280,000                                                                                                                              $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA                  Preferred Stock w/ Warrants                 $950,000,000    6/30/2010         $950,000,000              —    9/16/2010       A      $216,620,887         $19.42                      $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH                              Preferred Stock w/ Warrants                  $25,223,000                                                                                                   $4.70      561,343         $3,688,864
2/6/2009     Lone Star Bank, Houston, TX2                              Preferred Stock w/ Exercised Warrants          $3,072,000                                                                                                                                       —
12/12/2008   LSB Corporation, North Andover, MA                        Preferred Stock w/ Warrants                  $15,000,000    11/18/2009         $15,000,000              —    12/16/2009      R         $560,000                                         $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30                    Preferred Stock                              $11,735,000    8/20/2010          $11,735,000              —                                                                               $674,763
12/23/2008   M&T Bank Corporation, Buffalo, NY                         Preferred Stock w/ Warrants                 $600,000,000    5/18/2011         $370,000,000    $230,000,000                                               $76.34     1,218,522        $90,993,750
             M&T Bank Corporation (Provident Bancshares
11/14/2008                                                             Preferred Stock w/ Warrants                 $151,500,000                                                                                                              407,542         $9,489,792
             Corp.), Baltimore, MD
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                             Preferred Stock w/ Warrants                 $330,000,000    5/13/2011         $330,000,000              —                                                              95,383        $39,920,833
             Corporation), Wilmington, DE43
4/24/2009    Mackinac Financial Corporation, Manistique, MI            Preferred Stock w/ Warrants                  $11,000,000                                                                                                   $5.42      379,310         $1,407,083
3/13/2009    Madison Financial Corporation, Richmond, KY2              Preferred Stock w/ Exercised Warrants          $3,370,000                                                                                                                               $169,422
                                                                                                                                   11/24/2009           $3,455,000    $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                               Preferred Stock w/ Exercised Warrants        $13,795,000    6/8/2011             $3,455,000     $6,885,000   8/18/2011       R         $690,000                                       $1,661,468
                                                                                                                                   8/18/2011            $6,885,000             —
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2                    Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                $55.00                         $460,525
1/16/2009    MainSource Financial Group, Inc., Greensburg, IN          Preferred Stock w/ Warrants                  $57,000,000                                                                                                   $8.83      571,906         $8,067,083
12/5/2008    Manhattan Bancorp, El Segundo, CA                         Preferred Stock w/ Warrants                    $1,700,000   9/16/2009            $1,700,000             —    10/14/2009      R          $63,364            $2.90                         $66,347
                                                                       Subordinated Debentures w/
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8                                                               $2,639,000                                                                                                                               $532,636
                                                                       Exercised Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2              Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                               $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2              Preferred Stock w/ Exercised Warrants          $2,060,000                                                                                                                               $138,778
                                                                       Subordinated Debentures w/
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I January 26, 2012




5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL8                                                        $20,300,000                                                                                                                              $4,257,925
                                                                       Exercised Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2              Preferred Stock w/ Exercised Warrants        $35,500,000                                                                                                $110.00                       $5,621,524
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44            Preferred Stock w/ Warrants                $1,715,000,000   7/5/2011         $1,715,000,000             —    7/5/2011        R        $3,250,000                                   $226,522,917

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            219
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                       (continued)                                                                                                                                                              220
                                                                                                                                  Capital                           Remaining   Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                          Repayment               Capital     Capital   Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date         Repayment Amount6      Amount    Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

3/27/2009    Maryland Financial Bank, Towson, MD2                     Preferred Stock w/ Exercised Warrants          $1,700,000                                                                                                                            $151,328
12/5/2008    MB Financial Inc., Chicago, IL                           Preferred Stock w/ Warrants                 $196,000,000                                                                                              $17.10       506,024        $28,855,556
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50               Preferred Stock w/ Exercised Warrants          $6,000,000   8/18/2011            $6,000,000          —    8/18/2011       R         $300,000                                         $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49,c                 Preferred Stock w/ Exercised Warrants        $11,800,000    7/21/2011          $11,800,000           —    7/21/2011       R         $590,000
                                                                                                                                                                                                                                                         $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49,c             Preferred Stock w/ Exercised Warrants          $9,698,000   7/21/2011            $9,698,000          —    7/21/2011       R          $55,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI            Preferred Stock w/ Warrants                  $21,000,000                                                                                                $9.75      616,438         $2,670,187
2/6/2009     Mercantile Capital Corp., Boston, MA2,49                 Preferred Stock w/ Exercised Warrants          $3,500,000   8/4/2011             $3,500,000          —    8/4/2011        R         $175,000                                         $475,815
             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                             Preferred Stock w/ Exercised Warrants          $3,510,000   9/8/2011             $3,510,000          —    9/8/2011        R         $176,000                                         $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc.,
3/6/2009                                                              Preferred Stock w/ Exercised Warrants          $1,881,000   9/7/2011             $1,881,000          —    9/7/2011        R          $94,000                                         $256,560
             Toone, TN2,62
2/13/2009    Meridian Bank, Devon, PA2                                Preferred Stock w/ Exercised Warrants          $6,200,000
                                                                                                                                                                                                                                                         $1,541,726
12/11/2009   Meridian Bank, Devon, PA2,10a                            Preferred Stock                                $6,335,000
1/30/2009    Metro City Bank, Doraville, GA2                          Preferred Stock w/ Exercised Warrants          $7,700,000                                                                                                                          $1,171,523
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX                  Preferred Stock w/ Warrants                  $45,000,000                                                                                                $6.35      771,429         $6,403,750
6/26/2009    Metropolitan Bank Group, Inc., Chicago, IL2,41           Preferred Stock w/ Exercised Warrants        $74,706,000                                                                                                                           $3,454,185
             Metropolitan Bank Group, Inc.
6/26/2009                                                             Preferred Stock w/ Exercised Warrants          $7,186,000                                                                                                                            $332,256
             (NC Bancorp, Inc.), Chicago, IL2,41
                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I January 26, 2012




4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2         Preferred Stock w/ Exercised Warrants          $2,040,000
                                                                                                                                                                                                                                                           $521,929
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a     Preferred Stock                                $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                  Preferred Stock w/ Warrants                  $10,000,000                                                                                                $7.54       73,099         $1,452,778
1/30/2009    Middleburg Financial Corporation, Middleburg, VAm        Preferred Stock w/ Warrants                  $22,000,000    12/23/2009         $22,000,000           —    11/18/2011      P         $301,001                                         $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2             Preferred Stock w/ Exercised Warrants        $10,189,000    12/23/2009         $10,189,000           —    12/23/2009      R         $509,000                                         $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49,m                Preferred Stock w/ Warrants                  $20,000,000    8/25/2011          $20,000,000           —    11/18/2011      P         $206,557                                       $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2               Preferred Stock w/ Exercised Warrants          $5,222,000                                                                                                                            $275,105

                                                              14,20   Mandatorily Convertible Preferred
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL                                                         $89,388,000                                                                                                         4,282,020           $824,289
                                                                      Stock w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2              Preferred Stock w/ Exercised Warrants           $700,000    11/10/2009            $700,000           —    11/10/2009      R          $35,000                                          $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA          Preferred Stock w/ Warrants                  $16,000,000    7/6/2011           $16,000,000           —    7/27/2011       R        $1,000,000         $14.62                       $1,933,333
2/20/2009    Mid-Wisconsin Financial Services, Inc., Medford, WI2     Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                $4.75                      $1,082,431
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2                   Preferred Stock w/ Exercised Warrants          $7,260,000                                                                                                                            $343,053
1/9/2009     Mission Community Bancorp, San Luis Obispo, CA3          Preferred Stock                                $5,116,000   12/28/2011           $5,116,000          —                                                  $3.35                        $759,584
12/23/2008   Mission Valley Bancorp, Sun Valley, CA3,30               Preferred Stock                                $5,500,000   8/20/2010            $5,500,000          —                                                                               $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2               Preferred Stock w/ Exercised Warrants          $1,834,000                                                                                               $2.35                        $190,517
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI           Preferred Stock w/ Warrants                    $6,785,000                                                                                               $1.09      260,962           $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA         Preferred Stock w/ Warrants                  $14,700,000    12/23/2009         $14,700,000           —    2/10/2010       R         $260,000            $7.69                        $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50               Preferred Stock w/ Exercised Warrants          $9,516,000   9/15/2011            $9,516,000          —    9/15/2011       R         $476,000                                       $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                          Preferred Stock w/ Exercised Warrants          $4,734,000   8/11/2011            $4,734,000          —    8/11/2011       R         $237,000                                         $652,959
10/28/2008   Morgan Stanley, New York, NY                             Preferred Stock w/ Warrants              $10,000,000,000    6/17/2009      $10,000,000,000           —    8/12/2009       R      $950,000,000         $15.13                    $318,055,555
1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                   Preferred Stock w/ Exercised Warrants        $13,000,000    7/20/2011          $13,000,000           —    7/20/2011       R         $650,000                                       $1,779,122
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                     Preferred Stock w/ Exercised Warrants          $6,216,000                                                                                                                            $952,377
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2         Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                            $384,679
3/27/2009    MS Financial, Inc., Kingwood, TX2,d                      Preferred Stock w/ Exercised Warrants          $7,723,000   10/19/2011           $7,723,000          —    10/19/2011      R         $386,000                                       $1,097,290
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50                Preferred Stock w/ Warrants                  $32,382,000    8/25/2011          $32,382,000           —    9/28/2011       R         $900,194            $7.07                      $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2                        Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                            $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2               Preferred Stock w/ Exercised Warrants        $24,664,000                                                                                                                           $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA            Preferred Stock w/ Warrants                 $150,000,000    3/16/2011         $150,000,000           —    4/13/2011       R        $1,000,000                                     $16,958,333
                                                                      Subordinated Debentures w/
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                            $2,000,000   12/29/2010           $2,000,000          —    12/29/2010      R         $100,000            $8.44                        $176,190
                                                                      Exercised Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                           Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                $4.35                      $1,311,028

                                                                                                                                                                                                                                              Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                     (continued)
                                                                                                                                Capital                           Remaining   Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                        Repayment               Capital     Capital   Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date         Repayment Amount6      Amount    Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

                                                                    Subordinated Debentures w/
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                    $2,330,000                                                                                                                           $470,421
                                                                    Exercised Warrants
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                           Preferred Stock w/ Warrants                  $10,000,000    8/25/2011          $10,000,000           —                                               $11.30       184,275         $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                            Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                         $41,514,411
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                      Preferred Stock w/ Warrants                  $52,372,000                                                                                               $3.87    2,567,255         $7,659,405
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49            Preferred Stock w/ Exercised Warrants        $14,964,000    9/1/2011           $14,964,000           —    9/1/2011        R        $748,000                                       $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA         Preferred Stock w/ Warrants                  $10,200,000    12/14/2011         $10,200,000           —                                               $17.96        99,157         $1,494,583
12/12/2008   Northeast Bancorp, Lewiston, ME                        Preferred Stock w/ Warrants                    $4,227,000                                                                                            $12.60        67,958           $618,199
5/15/2009    Northern State Bank, Closter, NJ2                      Preferred Stock w/ Exercised Warrants          $1,341,000
                                                                                                                                                                                                                                                        $300,063
12/18/2009   Northern State Bank, Closter, NJ2,10a                  Preferred Stock                                $1,230,000
2/20/2009    Northern States Financial Corporation, Waukegan, IL    Preferred Stock w/ Warrants                  $17,211,000                                                                                               $0.90      584,084           $418,323
11/14/2008   Northern Trust Corporation, Chicago, IL                Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009        $1,576,000,000          —    8/26/2009       R      $87,000,000         $39.66                      $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49               Preferred Stock w/ Exercised Warrants        $10,000,000    9/15/2011          $10,000,000           —    9/15/2011       R        $500,000            $8.92                      $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2           Preferred Stock w/ Exercised Warrants        $10,500,000                                                                                                                            $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2               Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                           $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC      Preferred Stock w/ Warrants                    $7,700,000                                                                                              $2.47      163,830         $1,074,792
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                      Preferred Stock w/ Warrants                  $13,500,000    8/11/2011          $13,500,000           —    9/28/2011       R        $560,000            $6.75                      $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ             Preferred Stock w/ Warrants                  $38,263,000    12/30/2009         $38,263,000           —    2/3/2010        R        $430,797                                       $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                         Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                              $3.40                        $259,783
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                   Preferred Stock w/ Warrants                    $7,000,000   7/15/2009            $7,000,000          —    9/2/2009        R        $225,000            $8.10                        $213,889
12/12/2008   Old National Bancorp, Evansville, IN                   Preferred Stock w/ Warrants                 $100,000,000    3/31/2009         $100,000,000           —    5/8/2009        R       $1,200,000         $11.65                       $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                   Preferred Stock w/ Warrants                  $73,000,000                                                                                               $1.30      815,339         $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                     Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                            $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                      Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                   —
                                                                    Subordinated Debentures w/
6/5/2009     OneFinancial Corporation, Little Rock, AR8,10                                                       $17,300,000                                                                                                                          $3,431,991
                                                                    Exercised Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                          Preferred Stock                              $12,063,000                                                                                                                             $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                       Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                              $6.30                        $448,450
                                                                    Subordinated Debentures w/
5/1/2009     OSB Financial Services, Inc., Orange, TX8,d                                                           $6,100,000   10/5/2011            $6,100,000          —    10/5/2011       R        $305,000                                       $1,257,315
                                                                    Exercised Warrants
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA29           Common Stock w/ Warrants                    $195,045,000                                                                                             $28.24        15,120         $2,107,397
12/19/2008   Pacific City Financial Corporation, Los Angeles, CA2   Preferred Stock w/ Exercised Warrants        $16,200,000                                                                                                                            $358,065
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                          Preferred Stock w/ Exercised Warrants        $11,600,000    7/28/2011          $11,600,000           —    7/28/2011       R        $580,000                                       $1,641,964
             San Francisco, CA2,50
1/16/2009    Pacific Coast National Bancorp, San Clemente, CA2,19   Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                                —                                                 $0.01                         $18,088
12/23/2008   Pacific Commerce Bank, Los Angeles, CA2                Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                              $2.90                        $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA             Preferred Stock w/ Warrants                    $6,500,000                                                                                              $3.00                        $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2                Preferred Stock w/ Exercised Warrants        $23,200,000                                                                                                                          $3,403,343
12/23/2008   Park National Corporation, Newark, OH                  Preferred Stock w/ Warrants                 $100,000,000                                                                                             $65.06       227,376        $14,472,222
1/30/2009    Parke Bancorp, Inc., Sewell, NJ                        Preferred Stock w/ Warrants                  $16,288,000                                                                                               $5.46      362,733         $2,273,533
12/23/2008   Parkvale Financial Corporation, Monroeville, PA67      Preferred Stock w/ Warrants                  $31,762,000                                                                                             $24.57       376,327         $4,596,667
             Pascack Bancorp, Inc.(Pascack Community Bank),
2/6/2009                                                            Preferred Stock w/ Exercised Warrants          $3,756,000   10/19/2011           $3,756,000          —    10/19/2011      R        $188,000                                         $553,313
             Westwood, NJ2,13,d
                                                     2
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD                    Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                              $0.90                        $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49                 Preferred Stock w/ Warrants                    $6,771,000   9/1/2011             $6,771,000          —                                                 $8.91      154,354           $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                            Preferred Stock w/ Exercised Warrants          $3,727,000                                                                                                                            $77,852
                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I January 26, 2012




12/19/2008   Patriot Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants        $26,038,000                                                                                                                          $2,704,136
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2              Preferred Stock w/ Exercised Warrants          $3,690,000                                                                                                                           $537,630

                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                     221
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                     (continued)                                                                                                                                                               222
                                                                                                                                 Capital                            Remaining    Final                        Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition            Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                   Investment Amount   Date         Repayment Amount6       Amount     Date          Note15    Proceeds     12/30/2011       Warrants            Treasury

             Peapack-Gladstone Financial Corporation,                                                                            1/6/2010             $7,172,000   $21,513,000
1/9/2009                                                            Preferred Stock w/ Warrants                   $28,685,000                                                                                              $10.75       150,296         $3,169,199
             Gladstone, NJ                                                                                                       3/2/2011             $7,172,000   $14,341,000
1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA              Preferred Stock w/ Warrants                     $6,000,000                                                                                                           81,670           $858,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49            Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011             $9,960,000            —    9/1/2011        R       $498,000                                       $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                        Preferred Stock w/ Exercised Warrants         $18,000,000    8/3/2011           $18,000,000             —    8/3/2011        R       $900,000                                       $2,425,250
                                                                                                                                 2/2/2011           $21,000,000    $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                     Preferred Stock w/ Warrants                   $39,000,000                                                                                              $14.81       313,505         $4,725,833
                                                                                                                                 12/28/2011         $18,000,000             —
12/23/2008   Peoples Bancorp of North Carolina, Inc., Newton, NC    Preferred Stock w/ Warrants                   $25,054,000                                                                                                $5.49      357,234         $3,625,871
4/24/2009    Peoples Bancorporation, Inc., Easley, SC2              Preferred Stock w/ Exercised Warrants         $12,660,000                                                                                                                           $1,765,173
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2       Preferred Stock w/ Exercised Warrants           $3,900,000                                                                                                                            $563,848
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2           Preferred Stock w/ Exercised Warrants         $12,325,000                                                                                                                           $1,807,966
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50     Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011            $1,500,000            —    8/25/2011       R        $71,000                                         $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                    Preferred Stock                                 $3,000,000   8/13/2010            $3,000,000            —                                                                             $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                  Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                            $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                          267,455           $284,999
             Orange City, FL2
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN       Preferred Stock w/ Warrants                   $95,000,000    12/28/2011         $23,750,000    $71,250,000                                             $16.15                      $14,035,590
                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I January 26, 2012




12/19/2008   Plains Capital Corporation, Dallas, TX2,49             Preferred Stock w/ Exercised Warrants         $87,631,000    9/27/2011          $87,631,000             —    9/27/2011       R      $4,382,000                                     $13,239,940
                                                                    Subordinated Debentures w/
7/17/2009    Plato Holdings Inc., Saint Paul, MN8,10                                                                $2,500,000                                                                                                                            $482,469
                                                                    Exercised Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                             Preferred Stock w/ Warrants                   $11,949,000                                                                                                $2.38      237,712           $622,344
12/5/2008    Popular, Inc., San Juan, PR12                          Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                $1.39   20,932,836      $124,796,528
11/21/2008   Porter Bancorp Inc., Louisville, KY                    Preferred Stock w/ Warrants                   $35,000,000                                                                                                $2.90      330,561         $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2             Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                            $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30              Subordinated Debentures                         $6,784,000   8/13/2010            $6,784,000            —                                                                             $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2         Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                            $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV        Preferred Stock w/ Warrants                   $22,252,000                                                                                                $4.40      628,588         $2,368,568
                                                                    Subordinated Debentures w/
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                   $6,349,000                                                                                                                            $522,263
                                                                    Exercised Warrants
                                                    2
2/20/2009    Premier Service Bank, Riverside, CA                    Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                               $0.56                         $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                       Preferred Stock w/ Warrants                   $41,400,000                                                                                                $0.80      109,039         $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10                   Preferred Stock w/ Exercised Warrants         $10,800,000                                                                                                $6.60                      $1,130,594
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL        Preferred Stock w/ Warrants                   $25,083,000                                                                                                $1.51      155,025         $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2,c       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                          $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a,c   Preferred Stock                                 $3,262,000
1/30/2009    PrivateBancorp, Inc., Chicago, IL                      Preferred Stock w/ Warrants                  $243,815,000                                                                                              $10.98       645,013        $34,032,510
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49                Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011            $4,000,000            —    9/15/2011       R       $175,000                                         $421,312
             Provident Community Bancshares, Inc., Rock
3/13/2009                                                           Preferred Stock w/ Warrants                     $9,266,000                                                                                               $0.12      178,880           $543,091
             Hill, SC
2/27/2009    PSB Financial Corporation, Many, LA2,30                Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010            $9,270,000            —    9/29/2010       R       $464,000                                         $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                     Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011            $4,500,000            —    8/11/2011       R       $225,000            $8.60                        $630,157
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO                Preferred Stock w/ Warrants                   $32,538,000                                                                                                $7.06      778,421         $4,605,031
2/13/2009    QCR Holdings, Inc., Moline, IL49,e                     Preferred Stock w/ Warrants                   $38,237,000    9/15/2011          $38,237,000             —    11/16/2011      R      $1,100,000           $9.10                      $4,949,567
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2           Preferred Stock w/ Exercised Warrants           $6,229,000                                                                                                                            $523,303
6/19/2009    RCB Financial Corporation, Rome, GA2,10                Preferred Stock w/ Exercised Warrants           $8,900,000                                                                                                                            $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49                Preferred Stock w/ Exercised Warrants           $3,800,000   7/21/2011            $3,800,000            —    7/21/2011       R       $190,000            $5.80                        $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49          Preferred Stock w/ Exercised Warrants           $2,995,000   8/18/2011            $2,995,000            —    8/18/2011       R       $150,000          $11.60                         $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                       Preferred Stock w/ Exercised Warrants           $9,982,000                                                                                                                            $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49             Preferred Stock w/ Exercised Warrants           $2,655,000   7/21/2011            $2,655,000            —    7/21/2011       R       $133,000                                         $347,328

                                                                                                                                                                                                                                             Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (continued)
                                                                                                                                 Capital                            Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10             Preferred Stock w/ Exercised Warrants        $12,700,000                                                                                                                            $1,379,481
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2              Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                             $225,267
11/14/2008   Regions Financial Corporation, Birmingham, AL           Preferred Stock w/ Warrants                $3,500,000,000                                                                                                $4.30   48,253,677      $525,486,111
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2               Preferred Stock w/ Exercised Warrants        $40,000,000                                                                                                 $0.77                      $3,827,111
2/27/2009    Ridgestone Financial Services, Inc., Brookfield, WI2    Preferred Stock w/ Exercised Warrants        $10,900,000                                                                                                                              $277,224
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                     Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                             $195,637
                                                                     Subordinated Debentures w/ Exercised
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI8                                                       $15,000,000                                                                                               $15.50                       $3,051,863
                                                                     Warrants

                                                          8          Subordinated Debentures w/ Exercised
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR                                                            $1,100,000                                                                                                                             $230,725
                                                                     Warrants
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR2               Preferred Stock w/ Exercised Warrants        $25,000,000                                                                                                                              $738,021
             Royal Bancshares of Pennsylvania, Inc., Narberth,
2/20/2009                                                            Preferred Stock w/ Warrants                  $30,407,000                                                                                                 $1.25    1,104,370           $358,971
             PA
1/16/2009    S&T Bancorp, Indiana, PA                                Preferred Stock w/ Warrants                 $108,676,000    12/7/2011         $108,676,000             —                                               $19.55       517,012        $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                  Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                $0.02                                —
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49,e              Preferred Stock w/ Warrants                    $8,816,000   8/25/2011            $8,816,000            —    11/2/2011       R        $205,000          $23.35                       $1,079,960
                                                                                                                                 7/21/2010          $41,547,000    $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                   Preferred Stock w/ Warrants                  $83,094,000                                                    2/23/2011       R       $4,450,000         $17.55                       $7,593,868
                                                                                                                                 12/15/2010         $41,547,000             —
                                                              2
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA          Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                                $4.00                        $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64,j                 Preferred Stock w/ Warrants                    $4,000,000   10/21/2011           $2,800,000            —                                                 $0.34                        $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                     Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011            $4,000,000            —    8/11/2011       R        $200,000                                         $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC                Preferred Stock w/ Warrants                  $64,779,000    5/20/2009          $64,779,000             —    6/24/2009       R       $1,400,000         $29.01                       $1,115,639
12/19/2008   Seacoast Banking Corporation of Florida, Stuart, FL     Preferred Stock w/ Warrants                  $50,000,000                                                                                                 $1.52      589,623         $7,627,430
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA2,49             Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011             $1,800,000            —    9/1/2011        R         $90,000            $4.50                        $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                            Preferred Stock w/ Exercised Warrants          $2,152,000                                                                                                                             $323,282
             Waynesville, MO2
1/9/2009     Security Business Bancorp, San Diego, CA2,49            Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011            $5,803,000            —    7/14/2011       R        $290,000                                         $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49          Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011            $6,815,000            —    9/15/2011       R        $341,000            $8.20                        $996,698
6/26/2009    Security Capital Corporation, Batesville, MS2,10,30     Preferred Stock w/ Exercised Warrants        $17,388,000    9/29/2010          $17,388,000             —    9/29/2010       R        $522,000                                       $1,153,111
12/19/2008   Security Federal Corporation, Aiken, SC30               Preferred Stock w/ Warrants                  $18,000,000    9/29/2010          $18,000,000             —                                                 $8.00      137,966         $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49     Preferred Stock w/ Exercised Warrants        $12,500,000    9/22/2011          $12,500,000             —    9/22/2011       R        $625,000                                       $1,763,680
             Security State Bank Holding-Company,                    Subordinated Debentures w/
5/1/2009                                                                                                          $10,750,000                                                                                                                            $1,414,005
             Jamestown, ND8                                          Exercised Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                     Preferred Stock w/ Warrants                  $23,393,000                                                                                                 $2.46      556,976         $3,489,456
1/9/2009     Shore Bancshares, Inc., Easton, MDe                     Preferred Stock w/ Warrants                  $25,000,000    4/15/2009          $25,000,000             —    11/16/2011      R         $25,000            $5.15      172,970           $333,333

                                                     8               Subordinated Debentures w/
6/26/2009    Signature Bancshares, Inc., Dallas, TX                                                                 $1,700,000   12/15/2010           $1,700,000            —    12/15/2010      R         $85,000                                         $209,588
                                                                     Exercised Warrants
12/12/2008   Signature Bank, New York, NY                            Preferred Stock w/ Warrants                 $120,000,000    3/31/2009         $120,000,000             —    3/10/2010       A      $11,320,751         $59.99                       $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ               Preferred Stock w/ Warrants                    $7,414,000   5/20/2009            $7,414,000            —    6/24/2009       R        $275,000            $7.50                        $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                   Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                             $347,164
1/9/2009     Sound Banking Company, Morehead City, NC2               Preferred Stock w/ Exercised Warrants          $3,070,000                                                                                                $3.05                        $476,976
12/5/2008    South Financial Group, Inc., Greenville, SC26           Preferred Stock w/ Warrants                 $347,000,000    9/30/2010         $130,179,219             —    9/30/2010       R        $400,000                                      $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2     Preferred Stock w/ Exercised Warrants        $12,900,000                                                                                                 $4.00                        $933,494
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30             Preferred Stock                              $11,000,000    8/6/2010           $11,000,000             —                                                                              $855,556
             Southern Community Financial Corp.,
12/5/2008                                                            Preferred Stock w/ Warrants                  $42,750,000                                                                                                 $1.19    1,623,418         $4,156,250
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC         Preferred Stock w/ Warrants                  $17,299,000                                                                                                 $7.15      363,609         $2,349,781
5/15/2009    Southern Heritage Bancshares, Inc., Cleveland, TN2,50   Preferred Stock w/ Exercised Warrants          $4,862,000   9/8/2011             $4,862,000            —    9/8/2011        R        $243,000                                         $613,111
                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I January 26, 2012




1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49          Preferred Stock w/ Exercised Warrants          $5,000,000   8/25/2011            $5,000,000            —    8/25/2011       R        $250,000                                         $705,472
12/5/2008    Southern Missouri Bancorp, Inc., Poplar Bluff, MO49     Preferred Stock w/ Warrants                    $9,550,000   7/21/2011            $9,550,000            —                                               $22.47       114,326         $1,254,764
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2             Preferred Stock w/ Exercised Warrants          $2,760,000                                                                                                $2.00                        $364,796

                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        223
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (continued)                                                                                                                                                                 224
                                                                                                                               Capital                             Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                       Repayment               Capital       Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                   Investment Amount   Date         Repayment Amount6        Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

12/5/2008    Southwest Bancorp, Inc., Stillwater, OK              Preferred Stock w/ Warrants                   $70,000,000                                                                                                  $5.96      703,753         $8,555,556
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49           Preferred Stock w/ Exercised Warrants         $18,215,000    9/22/2011          $18,215,000              —    9/22/2011       R        $911,000                                       $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                  Preferred Stock w/ Exercised Warrants         $30,000,000                                                                                                                             $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2           Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                              $436,908
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2        Preferred Stock w/ Exercised Warrants         $60,000,000                                                                                                                             $6,730,750
12/5/2008    State Bancorp, Inc., Jericho, NY                     Preferred Stock w/ Warrants                   $36,842,000    12/14/2011         $36,842,000              —                                               $12.20       465,569         $5,572,353
                                                                                                                               8/12/2009          $12,500,000     $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                   Preferred Stock w/ Exercised Warrants         $50,000,000                                                     6/29/2011       R       $2,500,000                                      $5,508,472
                                                                                                                               6/29/2011          $37,500,000              —
                                                           2,30
2/13/2009    State Capital Corporation, Greenwood, MS             Preferred Stock w/ Exercised Warrants         $15,000,000    9/29/2010          $15,000,000              —    9/29/2010       R        $750,000                                       $1,330,709
10/28/2008   State Street Corporation, Boston, MA                 Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009        $2,000,000,000             —    7/8/2009        R      $60,000,000         $40.31                      $63,611,111
                                                                  Subordinated Debentures w/
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                   $24,900,000                                                                                                                             $4,984,848
                                                                  Exercised Warrants
                                                                  Subordinated Debentures w/
9/25/2009    Steele Street Bank Corporation, Denver, CO8,10,50                                                  $11,019,000    9/1/2011           $11,019,000              —    9/1/2011        R        $331,000                                       $1,728,673
                                                                  Exercised Warrants
                                                                                                                               4/13/2011            $7,500,000    $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA          Preferred Stock w/ Warrants                   $30,000,000                                                                                                             302,623         $4,271,875
                                                                                                                               12/28/2011         $22,500,000              —
12/23/2008   Sterling Bancorp, New York, NY                       Preferred Stock w/ Warrants                   $42,000,000    4/27/2011          $42,000,000              —    5/18/2011       R        $945,775            $8.64                      $4,923,333
                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I January 26, 2012




12/12/2008   Sterling Bancshares, Inc., Houston, TX               Preferred Stock w/ Warrants                  $125,198,000    5/5/2009          $125,198,000              —    6/9/2010        A       $3,007,891                                      $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24        Common Stock w/ Warrants                     $303,000,000                                                                                                $16.70        97,541         $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                         Preferred Stock w/ Warrants                   $10,000,000    9/1/2011           $10,000,000              —    10/26/2011      R        $107,398            $5.30                      $1,293,055
             Midland Park, NJ49,j
                                                                                                                               1/14/2011            $4,000,000    $11,568,000   3/16/2011       R        $778,000                                       $1,755,554
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2     Preferred Stock w/ Exercised Warrants         $15,568,000
                                                                                                                               3/16/2011          $11,568,000              —                                                                                      —
1/23/2009    Stonebridge Financial Corp., West Chester, PA2       Preferred Stock w/ Exercised Warrants         $10,973,000                                                                                                                               $634,609
                                                                  Subordinated Debentures w/ Exercised
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL8                                                     $15,000,000                                                                                                                             $2,083,520
                                                                  Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                  Preferred Stock w/ Warrants                     $8,500,000   8/4/2011             $8,500,000             —    9/14/2011       R        $315,000            $5.20                      $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                      Preferred Stock w/ Warrants                   $89,310,000    4/8/2009           $89,310,000              —    5/27/2009       R       $2,100,000           $2.42                      $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                    Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011        $3,500,000,000             —    9/22/2011       A      $14,269,536
                                                                                                                                                                                                                           $17.70                    $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, Gac                   Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011        $1,350,000,000             —    9/22/2011       A      $16,224,035
12/5/2008    Superior Bancorp Inc., Birmingham, AL17,54           Trust Preferred Securities w/ Warrants        $69,000,000                                                                                                           1,923,792         $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                      Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010           $2,000,000             —    12/29/2010      R        $100,000            $9.25                        $214,972
                                                                                                                               4/21/2010         $200,000,000    $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA              Preferred Stock w/ Warrants                  $300,000,000                                                     1/19/2011       R       $5,269,179           $8.38                     $23,722,222
                                                                                                                               12/22/2010        $100,000,000              —
4/10/2009    SV Financial, Inc., Sterling, IL2                    Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011            $4,000,000             —    8/31/2011       R        $200,000                                         $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                 Preferred Stock w/ Warrants                  $235,000,000    12/23/2009        $235,000,000              —    6/16/2010       R       $6,820,000         $47.69                      $12,109,028
                                                                  Subordinated Debentures w/
5/8/2009     Sword Financial Corporation, Horicon, WI8,49                                                       $13,644,000    9/15/2011          $13,644,000              —    9/15/2011       R        $682,000                                       $2,693,234
                                                                  Exercised Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                Preferred Stock w/ Warrants                  $967,870,000                                                                                                  $1.41   15,510,737      $140,610,003
1/16/2009    Syringa Bancorp, Boise, ID2                          Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                 $0.06                        $253,122
11/21/2008   Taylor Capital Group, Rosemont, IL                   Preferred Stock w/ Warrants                  $104,823,000                                                                                                  $9.72    1,462,647        $15,636,098
                                                                  Subordinated Debentures w/
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                $9,720,000   9/8/2011             $9,720,000             —    9/8/2011        R        $292,000                                       $1,599,381
                                                                  Exercised Warrants
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                         Preferred Stock w/ Exercised Warrants         $11,730,000                                                                                                                               $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN               Preferred Stock w/ Warrants                  $361,172,000    4/22/2009         $361,172,000              —    12/15/2009      A       $9,599,964         $10.32                       $7,925,719
12/23/2008   TCNB Financial Corp., Dayton, OH2                    Preferred Stock w/ Exercised Warrants           $2,000,000   8/3/2011             $2,000,000             —    8/3/2011        R        $100,000                                         $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN       Preferred Stock w/ Warrants                   $30,000,000                                                                                                  $0.08      461,538         $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                        Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                              $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX           Preferred Stock w/ Warrants                   $75,000,000    5/13/2009          $75,000,000              —    3/11/2010       A       $6,709,061         $30.61                       $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2     Preferred Stock w/ Exercised Warrants           $3,981,000   5/19/2010            $3,981,000             —    5/19/2010       R        $199,000                                         $295,308

                                                                                                                                                                                                                                             Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (continued)
                                                                                                                                 Capital                            Remaining    Final                            Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition                Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15        Proceeds     12/30/2011       Warrants            Treasury

8/7/2009     The ANB Corporation, Terrell, TX2,49                    Preferred Stock w/ Exercised Warrants        $20,000,000    8/25/2011          $20,000,000             —    8/25/2011       R         $1,000,000                                       $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                       Preferred Stock w/ Warrants                  $45,220,000    3/10/2010          $45,220,000             —    9/8/2010        R         $4,753,985            $7.23                      $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                   Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010            $1,742,850            —                                                                                 $169,834

             The Bank of Kentucky Financial Corporation,                                                                         12/22/2010         $17,000,000    $17,000,000
2/13/2009                                                            Preferred Stock w/ Warrants                  $34,000,000                                                                                                  $20.05       274,784         $3,940,694
             Crestview Hills, KY                                                                                                 11/23/2011         $17,000,000             —
             The Bank of New York Mellon Corporation,
10/28/2008                                                           Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009        $3,000,000,000            —    8/5/2009        R       $136,000,000          $19.91                      $95,416,667
             New York, NY
                                                         2
1/16/2009    The Baraboo Bancorporation, Baraboo, WI                 Preferred Stock w/ Exercised Warrants        $20,749,000                                                                                                    $5.00                      $3,200,737
             The Connecticut Bank and Trust Company,
12/19/2008                                                           Preferred Stock w/ Warrants                    $5,448,000                                                                                                   $8.00      175,742           $612,900
             Hartford, CT
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49              Preferred Stock w/ Warrants                    $9,090,000   8/25/2011            $9,090,000            —                                                  $16.38       116,538         $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME               Preferred Stock w/ Warrants                  $25,000,000    8/24/2011          $12,500,000    $12,500,000                                                 $15.37       225,904         $3,421,875
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30           Preferred Stock w/ Warrants                    $5,000,000   9/29/2010            $5,000,000            —                                                    $7.26       54,705           $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                    Preferred Stock w/ Exercised Warrants           $301,000                                                                                                                                   $8,610
10/28/2008   The Goldman Sachs Group, Inc., New York, NY             Preferred Stock w/ Warrants              $10,000,000,000    6/17/2009      $10,000,000,000             —    7/22/2009       R      $1,100,000,000         $90.43                    $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                   Preferred Stock w/ Exercised Warrants        $15,000,000    8/18/2011          $15,000,000             —    8/18/2011       R           $750,000                                       $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2             Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                              $1,183,105
12/31/2008   The PNC Financial Services Group Inc., Pittsburgh, PA   Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010        $7,579,200,000            —    4/29/2010       A       $324,195,686          $57.67                    $421,066,667
2/20/2009    The Private Bank of California, Los Angeles, CA2,49     Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011             $5,450,000            —    9/1/2011        R           $273,000                                         $751,752
1/9/2009     The Queensborough Company, Louisville, GA2              Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                                 $882,900
                                                                     Subordinated Debentures w/
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                          $1,697,000   9/22/2011            $1,697,000            —    9/22/2011       R            $51,000                                         $282,299
                                                                     Exercised Warrants
12/11/2009   The Victory Bancorp, Inc., Limerick, PA2,10a,49         Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011            $1,505,000            —    9/22/2011       R            $34,000                                         $215,183
             The Victory Bancorp, Inc. (The Victory Bank),
2/27/2009                                                            Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011             $541,000             —    9/22/2011       R            $27,000                                                 —
             Limerick, PA2,13
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                            Preferred Stock w/ Exercised Warrants          $5,677,000                                                                                                                                $869,786
             National Bank & Trust), Orlando, FL2,13
12/5/2008    TIB Financial Corp, Naples, FL32                        Preferred Stock w/ Warrants                  $37,000,000    9/30/2010          $12,119,637             —    9/30/2010       R            $40,000            $9.00                      $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC           Preferred Stock w/ Warrants                  $14,448,000                                                                                                    $0.08      571,821         $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                  Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA                   Preferred Stock w/ Warrants                  $16,641,000                                                                                                    $3.95                        $952,236
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                   Preferred Stock w/ Exercised Warrants          $2,117,000                                                                                                                                $301,937
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2                Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                $604,950
12/12/2008   TowneBank, Portsmouth, VA50                             Preferred Stock w/ Warrants                  $76,458,000    9/22/2011          $76,458,000             —                                                  $12.24                      $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36                Warrants                                       $3,268,000   2/15/2011             $500,000             —                                                    $0.23    3,098,341           $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                  Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011            $3,700,000            —    9/22/2011       R           $185,000                                         $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49       Preferred Stock w/ Exercised Warrants        $15,540,000    9/22/2011          $15,540,000             —    9/22/2011       R           $777,000                                       $2,336,116
3/27/2009    Trinity Capital Corporation, Los Alamos, NM2            Preferred Stock w/ Exercised Warrants        $35,539,000                                                                                                                               $5,139,526
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30            Preferred Stock                                $2,795,000   8/13/2010            $2,795,000            —                                                                                 $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2        Preferred Stock w/ Exercised Warrants        $23,000,000                                                                                                                               $3,409,518
4/3/2009     TriSummit Bank, Kingsport, TN2,c                        Preferred Stock w/ Exercised Warrants          $2,765,000
                                                                                                                                                                                                                                                              $796,180
12/22/2009   TriSummit Bank, Kingsport, TN2,10a,c                    Preferred Stock                                $4,237,000
11/21/2008   Trustmark Corporation, Jackson, MS                      Preferred Stock w/ Warrants                 $215,000,000    12/9/2009         $215,000,000             —    12/30/2009      R        $10,000,000          $24.29                      $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49          Preferred Stock w/ Exercised Warrants        $12,000,000    9/1/2011           $12,000,000             —    9/1/2011        R           $600,000          $15.00                       $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                           Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009        $6,599,000,000            —    7/15/2009       R       $139,000,000          $27.05                    $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                           Preferred Stock w/ Exercised Warrants        $50,236,000                                                                                                                                 $745,312
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49                Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011            $8,950,000            —    8/11/2011       R           $450,000                                       $1,234,912
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I January 26, 2012




11/14/2008   UCBH Holdings, Inc., San Francisco, CA14                Preferred Stock w/ Warrants                 $298,737,000                                                                                                             7,847,732         $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                     Preferred Stock w/ Warrants                 $214,181,000    2/17/2010         $214,181,000             —    3/31/2010       R         $4,500,000          $12.39                      $13,475,555

                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           225
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (continued)                                                                                                                                                                 226
                                                                                                                                 Capital                             Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

5/1/2009     Union Bank & Trust Company, Oxford, NC2,50,c            Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011            $3,194,000             —    9/22/2011       R         $160,000
                                                                                                                                                                                                                                                             $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49,c        Preferred Stock                                $2,997,000   9/22/2011            $2,997,000             —
                                                              2,10
12/29/2009   Union Financial Corporation, Albuquerque, NM            Preferred Stock w/ Exercised Warrants          $2,179,000                                                                                                                               $215,569
             Union First Market Bankshares Corporation
2/6/2009                                                             Preferred Stock                              $33,900,000    12/7/2011          $35,595,000              —                                                $13.29                       $1,821,889
             (First Market Bank, FSB), Bowling Green, VA18
             Union First Market Bankshares Corporation (Union
12/19/2008                                                           Preferred Stock w/ Warrants                  $59,000,000    11/18/2009         $59,000,000              —    12/23/2009      R         $450,000                                       $3,417,970
             Bankshares Corporation), Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                    Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                       —
1/16/2009    United Bancorp, Inc., Tecumseh, MI                      Preferred Stock w/ Warrants                  $20,600,000                                                                                                   $8.46      311,492         $2,915,472
12/23/2008   United Bancorporation of Alabama, Inc., Atmore, AL30    Preferred Stock w/ Warrants                  $10,300,000    9/3/2010           $10,300,000              —                                                             108,264           $872,639
                                                                     Subordinated Debentures w/
5/22/2009    United Bank Corporation, Barnesville, GA8                                                            $14,400,000                                                                                                                              $2,996,911
                                                                     Exercised Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA           Preferred Stock w/ Warrants                 $180,000,000                                                                                                   $6.99      219,908        $26,518,750

             United Financial Banking Companies, Inc.,                                                                           12/15/2010           $3,000,000     $2,658,000
1/16/2009                                                            Preferred Stock w/ Exercised Warrants          $5,658,000                                                    9/15/2011       R         $283,000          $13.51                         $708,964
             Vienna, VA2,49                                                                                                      9/15/2011            $2,658,000             —
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                        Preferred Stock w/ Warrants                  $20,649,000                                                                                                   $6.40                      $3,039,992
5/22/2009    Universal Bancorp, Bloomfield, IN2                      Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                             $1,338,384
6/19/2009    University Financial Corp, Inc., St. Paul, MN3,8,30     Subordinated Debentures                      $11,926,000    7/30/2010          $11,926,000              —                                                                             $1,022,886
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I January 26, 2012




2/6/2009     US Metro Bank, Garden Grove, CA2                        Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                  $2.60                        $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                   Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                   $3.00                      $1,577,472
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                   Preferred Stock w/ Exercised Warrants          $7,700,000                                                                                                  $7.00                      $1,171,523
1/9/2009     Valley Community Bank, Pleasanton, CA2                  Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                  $1.65                        $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA               Preferred Stock w/ Warrants                  $16,019,000                                                                                                              344,742         $2,380,955
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                           Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011            $1,300,000             —    9/22/2011       R          $65,000                                         $124,775
             Saginaw, MI2,49
                                                                                                                                 6/3/2009           $75,000,000    $225,000,000
11/14/2008   Valley National Bancorp, Wayne, NJ                      Preferred Stock w/ Warrants                 $300,000,000    9/23/2009         $125,000,000    $100,000,000   5/18/2010       A        $5,571,592         $12.37                      $12,979,167
                                                                                                                                 12/23/2009        $100,000,000              —
             Veritex Holdings, Inc.
6/26/2009                                                            Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011            $3,000,000             —    8/25/2011       R         $150,000                                         $353,796
             (Fidelity Resources Company), Dallas, TX2, 40
5/1/2009     Village Bank and Trust Financial Corp, Midlothian, VA   Preferred Stock w/ Warrants                  $14,738,000                                                                                                   $1.25      499,029         $1,318,232
12/12/2008   Virginia Commerce Bancorp, Arlington, VA                Preferred Stock w/ Warrants                  $71,000,000                                                                                                   $7.73    2,696,203        $10,383,750
6/12/2009    Virginia Company Bank, Newport News, VA2,10             Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                               $601,085
4/24/2009    Vision Bank - Texas, Richardson, TX2                    Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                               $209,144
12/19/2008   VIST Financial Corp., Wyomissing, PA                    Preferred Stock w/ Warrants                  $25,000,000                                                                                                   $6.05                      $3,631,944
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50           Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011         $110,000,000              —    9/15/2011       R        $5,500,000                                     $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10     Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                              $1,239,600
12/19/2008   Wainwright Bank & Trust Company, Boston, MA             Preferred Stock w/ Warrants                  $22,000,000    11/24/2009         $22,000,000              —    12/16/2009      R         $568,700                                       $1,023,611
1/16/2009    Washington Banking Company, Oak Harbor, WA              Preferred Stock w/ Warrants                  $26,380,000    1/12/2011          $26,380,000              —    3/2/2011        R        $1,625,000         $11.91                       $2,623,344
11/14/2008   Washington Federal, Inc., Seattle, WA                   Preferred Stock w/ Warrants                 $200,000,000    5/27/2009         $200,000,000              —    3/9/2010        A       $15,623,222         $13.99                       $5,361,111
10/30/2009   WashingtonFirst Bankshares, Inc., Reston, VA2,10a,49    Preferred Stock                                $6,842,000   8/4/2011             $6,842,000             —                                                                             $1,510,318
             WashingtonFirst Bankshares, Inc. (WashingtonFirst
1/30/2009                                                            Preferred Stock w/ Exercised Warrants          $6,633,000   8/4/2011             $6,633,000             —    8/4/2011        R         $332,000                                                 —
             Bank), Reston, VA2,13
6/26/2009    Waukesha Bankshares, Inc., Waukesha, WI2,10             Preferred Stock w/ Exercised Warrants          $5,625,000                                                                                                                               $707,386
                                                                                                                                 3/3/2010          $100,000,000    $300,000,000
11/21/2008   Webster Financial Corporation, Waterbury, CT            Preferred Stock w/ Warrants                 $400,000,000    10/13/2010        $100,000,000    $200,000,000   6/2/2011        A       $20,678,339         $20.39                      $36,944,444
                                                                                                                                 12/29/2010        $200,000,000              —
10/28/2008   Wells Fargo & Company, San Francisco, CA                Preferred Stock w/ Warrants              $25,000,000,000    12/23/2009     $25,000,000,000              —    5/20/2010       A      $849,014,998         $27.56                  $1,440,972,222
12/5/2008    WesBanco, Inc., Wheeling, WV                            Preferred Stock w/ Warrants                  $75,000,000    9/9/2009           $75,000,000              —    12/23/2009      R         $950,000          $19.47                       $2,854,167
12/31/2008   West Bancorporation, Inc., West Des Moines, IA          Preferred Stock w/ Warrants                  $36,000,000    6/29/2011          $36,000,000              —    8/31/2011       R         $700,000            $9.58                      $4,495,000
                                                                                                                                 9/2/2009           $41,863,000     $41,863,000
2/13/2009    Westamerica Bancorporation, San Rafael, Cai,n           Preferred Stock w/ Warrants                  $83,726,000                                                     11/18/2011      P         $878,256          $43.90       246,698         $2,755,981
                                                                                                                                 11/18/2009         $41,863,000              —

                                                                                                                                                                                                                                                Continued on next page.
     CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                         (continued)
                                                                                                                                                  Capital                                           Remaining       Final                                      Final       Stock Price          Current            Dividends/
     Purchase                                                                                                                                     Repayment                       Capital             Capital       Disposition                          Disposition             as of      Outstanding       Interest Paid to
     Date            Institution                                             Investment Description                      Investment Amount        Date                 Repayment Amount6              Amount        Date               Note15             Proceeds        12/30/2011          Warrants               Treasury

 11/21/2008         Western Alliance Bancorporation, Las Vegas, NV49,m      Preferred Stock w/ Warrants                        $140,000,000       9/27/2011                   $140,000,000                    —    11/18/2011            P                 $415,000               $6.23                          $19,950,000
                    Western Community Bancshares, Inc.,
 12/23/2008                                                                 Preferred Stock w/ Exercised Warrants                 $7,290,000                                                                                                                                                                         $554,083
                    Palm Desert, CA2
                                                                      2,c
 12/23/2008         Western Illinois Bancshares Inc., Monmouth, IL          Preferred Stock w/ Exercised Warrants                 $6,855,000
                                                                                                                                                                                                                                                                                                                   $1,510,214
 12/29/2009         Western Illinois Bancshares Inc., Monmouth, IL2,10a,c   Preferred Stock                                       $4,567,000
                                                                2
 5/15/2009          Western Reserve Bancorp, Inc, Medina, OH                Preferred Stock w/ Exercised Warrants                 $4,700,000                                                                                                                                     $13.25                              $640,375
 2/20/2009          White River Bancshares Company, Fayetteville, AR2       Preferred Stock w/ Exercised Warrants               $16,800,000                                                                                                                                                                        $1,589,583
 12/19/2008         Whitney Holding Corporation, New Orleans, LA45          Preferred Stock w/ Warrants                        $300,000,000       6/3/2011                    $300,000,000                    —    6/3/2011              R               $6,900,000                                              $36,833,333
 12/12/2008         Wilshire Bancorp, Inc., Los Angeles, CA                 Preferred Stock w/ Warrants                         $62,158,000                                                                                                                                       $3.63          949,460           $9,090,608
 12/19/2008         Wintrust Financial Corporation, Lake Forest, IL         Preferred Stock w/ Warrants                        $250,000,000       12/22/2010                  $250,000,000                    —    2/8/2011              A             $25,964,061               $28.05                          $25,104,167
 5/15/2009          Worthington Financial Holdings, Inc., Huntsville, AL2   Preferred Stock w/ Exercised Warrants                 $2,720,000                                                                                                                                                                         $370,600
 1/23/2009          WSFS Financial Corporation, Wilmington, DE              Preferred Stock w/ Warrants                         $52,625,000                                                                                                                                      $35.96          175,105           $7,396,737
 1/16/2009          Yadkin Valley Financial Corporation, Elkin, NC          Preferred Stock w/ Warrants                         $36,000,000                                                                                                                                                      273,534
                                                                                                                                                                                                                                                                                  $1.61                            $4,782,227
 7/24/2009          Yadkin Valley Financial Corporation, Elkin, NC          Preferred Stock w/ Warrants                         $13,312,000                                                                                                                                                      385,990
                                                   2,50
 4/24/2009          York Traditions Bank, York, PA                          Preferred Stock w/ Exercised Warrants                 $4,871,000      7/14/2011                      $4,871,000                   —    7/14/2011             R                 $244,000                                                  $590,022
 11/14/2008         Zions Bancorporation, Salt Lake City, UT                Preferred Stock w/ Warrants                      $1,400,000,000                                                                                                                                      $16.28        5,789,909        $210,194,444
                                                                                                                                                  Total Capital
                                                                                                                                                  Repayment                                                        Total Warrant
                                                                            Total Purchase Amount *                    $204,943,827,320           Amount**             $185,452,229,563                            Proceeds****                  $7,665,834,408




                                                                            Total Treasury CPP Investment Outstanding                                                    $19,491,597,757



Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numeric notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report. All amounts and totals reflect cumulative receipts since inception through 12/31/2011.					
* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.											
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common
    Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).		
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26, 32 and 34), but excludes investment amounts
     for institutions that have pending receivership or bankruptcy proceedings (see Notes 14 and 25).											
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).								

1a
   	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
      1/1/2009, and this transaction under the CPP was funded on 1/9/2009.											
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and
      $124,228,646. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report. 											
2	
      Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.									
3	
      To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.						
3a	
      Treasury cancelled the warrants received from this institution due to its designation as a CDFI.											
4	
      Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.											
5	
      Redemption pursuant to a qualified equity offering.
6	
      This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7	
      The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8	
      Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.		
9	
      In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   	 This institution participated in the expansion of CPP for small banks.											
10a
    	 This institution received an additional investment through the expansion of CPP for small banks.											
11	
      Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
      Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
      purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.						
12
   	 On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction. 	
13
   	 This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.		
14
   	As of the date of this report, this institution is in bankruptcy proceedings. 											
15 
   	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by
      Treasury in a registered public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.			
16 
   	 On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
      common shares to holders of CVRs were not met. 											
17
   	 On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.				
18 
   	 On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
      dividend rate equivalent to those of Treasury’s original investment.											
19
   	 On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.								
20 
                                                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I January 26, 2012




   	 On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and
      unpaid dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial
      institutions.
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued
      and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.								
                                                                                                                                                                                                                                                                                                                                   227
                                                                                                                                                                                                                                                                                                                            228
23
  	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see
    note 11). On April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion
    of the sale). Completion of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period
    ending on June 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common
    stock from time to time during the period ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its
    sales agent, to sell subject to certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price.
    On December 6, 2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share
    and the total proceeds to Treasury from all such sales during those periods.											
24 
  	 On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
    4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
  	 On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.			
26
  	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement between
    Treasury and TD entered into on 5/18/2010.											
27
  	 On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.						
28 
  	 On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
    unpaid dividends. On 10/07/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on
    the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.											
29
  	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
    investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
    common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.											
30
  	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below. 	
30a
    At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.	
31 
  	 On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
    8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock. 				
32 
  	 On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the agreement
    between Treasury and NAFH entered into on 9/24/2010.											
33
  	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
    entered into on 10/29/2010.				
34
  	On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and
    Currituck entered into on 11/5/2010.											
35 
  	 Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
    closing of the sale also occurred on 1/28/2011.											
36
  	On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
    payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.			
                                                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I January 26, 2012




37
  	 On 2/18/11, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.		
38 
  	 On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
    Treasury and FBHC entered into on 3/9/2011.											
39 
  	 On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
    debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.								
    	
40
  	 40/ exchanged for a like amount of securities of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.						
41 
  	 As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
    preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
    into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.											
42
  	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
    Bear State entered into on 05/03/2011.											
43
  	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent
    warrant issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.										
    	
44 
  	 On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
    held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 05/16/2011.									
45 
  	 On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid
    dividends thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.										
46
  	 On 06/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 06/17/2011.
47
  	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
    on 06/28/2011.											
49
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.							
50
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund. 				
51
  	 On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.					
52
  	 On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
53
  	 On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.					
54
  	 54/ On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.						
55
  	 On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
56
  	 56/ On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
57
  	 On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.		
58
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United
    entered into on 08/12/2011.											
59
  	On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
    entered into on 9/6/2011.											
60
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
    unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.										
61
  	 On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.				
62
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.						
63
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.		
64
  	On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on
    10/20/2011.											
65 
  	 As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
    among Treasury, CFC and CFB entered into on 11/15/2011.											
66
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
    Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.											
67
  	In connection with the merger of Parkvale Financial Corporation (“Parkvale”) and F.N.B. Corporation (“F.N.B.”) effective 01/01/2012, Treasury entered into an agreement with F.N.B. on 12/29/2011 to (i) sell to F.N.B. all of the preferred stock that had been issued by Parkvale to Treasury for a purchase price
    of $31,762,000 plus accrued dividends and (ii) exchange the Parkvale warrant held by Treasury for a like F.N.B. warrant. The sale and exchange is subject to the fulfillment by F.N.B. of certain closing conditions.						

a
  According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” It appears that
  Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 6/30/2011.						
b
  According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”										
c
  Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.				
d
  Warrants Sold to 3rd Party in QFI Sale.										
e
  Warrants Sold back to Original QFI.										
f
  Warrants sold into marketplace via Auction.
g
  Decrease Shares due to 1 for 15 Reverse Stock Split.
h
  Warrants increased via Stock Dividend.
i
  Warrants increased via Cash Dividend.
j
  Warrants Sold to 3rd Party in QFI Sale, QFI had Stock Dividends.
k
  Warrants Sold back to Original QFI, QFI had Stock Dividend Adjustments.
l
  Warrants sold to winning bidder in a Private Auction.
m
  Warrants sold to winning bidder in a Private Auction, QFI had QEO.
n
  Warrants sold to winning bidder in a Private Auction, QFI had Cash Dividend Adjustments.
o
  Warrants sold to winning bidder in a Private Auction, QFI had Stock Dividends.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Treasury, responses to SIGTARP data call, 1/11/2012; Bloomberg, LP accessed 1/12/2012.


Table D.2

        CPP — CITIGROUP, INC. COMMON STOCK DISPOSiTION, AS OF 12/31/2011
        Note   Date                                       Pricing Mechanism6                 Number of Shares                                              Proceeds7
        1      4/26/2010 – 5/26/2010                                       $4.12                  1,500,000,000                                      $6,182,493,158
        2      5/26/2010 – 6/30/2010                                       $3.90                  1,108,971,857                                      $4,322,726,825
        3      7/23/2010 – 9/30/2010                                       $3.91                  1,500,000,000                                      $5,863,489,587
        4      10/19/2010 – 12/6/2010                                      $4.26                  1,165,928,228                                      $4,967,921,811
        5      12/6/10                                                     $4.35                  2,417,407,607                                    $10,515,723,090
                                                                                                 Total Proceeds                                   $31,852,354,471
    Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes taken verbatim from 1/4/2012 Transactions Report.

    1
       n 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      O
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
      Completion of the sale under this authority occurred on 5/26/2010.
    2
      On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to 1,500,000,000
       shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion of the sale under this
       authority occurred on 6/30/2010.
    3
       On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
        parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
        Completion of the sale under this authority occurred on 9/30/2010.
    4
        On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
         parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
         which plan was terminated on 12/6/2010.
    5
         On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
          fulfillment of certain closing conditions.
    6
          The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
    7
          Amount represents the gross proceeds to Treasury.

    Source: Treasury, Transactions Report, 1/4/2012.
                                                                                                                                                                                               Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                               229
Table D.3                                                                                                                                                                                                                              230

CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011
                                                  Seller                                                           Purchase Details                                                    Disposition Details

                                                                                                                                        Additional    Investment      Pricing                    Remaining        Dividend/Interest
Note   Purchase Date   Name of Institution                                       Investment Description    Amount from CPP             Investment        Amount    Mechanism    Date     Investment Amount        Paid to Treasurya

       9/24/2010       Alternatives Federal Credit Union, Ithaca, NY             Subordinated Debentures                —                      —      $2,234,000          Par                                              $51,010
       9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL         Subordinated Debentures                —                      —      $5,457,000          Par                                             $196,422
       9/24/2010       Atlantic City Federal Credit Union, Lander, WY            Subordinated Debentures                —                      —      $2,500,000          Par                                              $57,083
       9/24/2010       Bainbridge Bancshares, Inc., Bainbridge GA                Preferred Stock                        —                      —      $3,372,000          Par                                              $76,994
       9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                     Subordinated Debentures                —                      —      $3,297,000          Par                                             $115,267
1, 2   9/29/2010       BancPlus Corporation, Ridgeland MS                        Preferred Stock               $50,400,000            $30,514,000    $80,914,000          Par                                           $1,825,060
       9/29/2010       BankAsiana, Palisades Park, NJ                            Preferred Stock                        —                      —      $5,250,000          Par                                             $118,417
       9/29/2010       Bethex Federal Credit Union, Bronx, NY                    Subordinated Debentures                —                      —       $502,000           Par                                              $11,323
       9/29/2010       Border Federal Credit Union, Del Rio, TX                  Subordinated Debentures                —                      —      $3,260,000          Par                                              $73,531
       9/24/2010       Brewery Credit Union, Milwaukee, WI                       Subordinated Debentures                —                      —      $1,096,000          Par                                              $25,025
       9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY   Subordinated Debentures                —                      —       $300,000           Par                                               $6,750
       9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY     Subordinated Debentures                —                      —       $145,000           Par                                               $3,311
       9/24/2010       Butte Federal Credit Union, Biggs, CA                     Subordinated Debentures                —                      —      $1,000,000          Par                                              $22,833
       9/29/2010       Carter Federal Credit Union, Springhill, LA               Subordinated Debentures                —                      —      $6,300,000          Par                                             $142,100
                                                                                                                                                                                                                                       Appendix D I Transaction Detail I January 26, 2012




1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                         Preferred Stock               $18,980,000                     —     $18,980,000          Par                                             $446,507
       9/17/2010       CFBanc Corporation, Washington, DC                        Preferred Stock                        —                      —      $5,781,000          Par                                             $134,248
1      8/13/2010                                                                 Preferred Stock                $7,462,000                     —                          Par
                       Citizens Bancshares Corporation, Atlanta, GA                                                                                  $11,841,000                                                          $289,069
2a     9/17/2010                                                                 Preferred Stock                        —              $4,379,000                         Par
1      9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS    Preferred Stock               $54,600,000                     —     $54,600,000          Par                                           $1,231,533
1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                    Preferred Stock                $1,747,000             $2,313,000     $4,060,000          Par                                              $91,576
                       Community First Guam Federal Credit Union, Hagatna,
       9/24/2010                                                                 Subordinated Debentures                —                      —      $2,650,000          Par                                              $60,508
                       GU
       9/29/2010       Community Plus Federal Credit Union, Rantoul, IL          Subordinated Debentures                —                      —       $450,000           Par                                              $10,150
       9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA     Subordinated Debentures                —                      —      $2,799,000          Par                                              $63,911
       9/29/2010       D.C. Federal Credit Union, Washington, DC                 Subordinated Debentures                —                      —      $1,522,000          Par                                              $34,330
                       East End Baptist Tabernacle Federal Credit Union,
       9/29/2010                                                                 Subordinated Debentures                —                      —         $7,000           Par                                                 $158
                       Bridgeport, CT
                       Episcopal Community Federal Credit Union,
       9/29/2010                                                                 Subordinated Debentures                —                      —       $100,000           Par                                               $2,256
                       Los Angeles, CA
       9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA          Subordinated Debentures                —                      —      $8,044,000          Par                                             $183,671
       9/29/2010       Faith Based Federal Credit Union, Vernon, CA              Subordinated Debentures                —                      —        $30,000           Par                                                 $677
       9/29/2010       Fidelis Federal Credit Union, Fairfax, VA                 Subordinated Debentures                —                      —        $14,000           Par                                                 $316
1      8/13/2010       First American International Corp., Brooklyn, NY          Preferred Stock               $17,000,000                     —     $17,000,000          Par                                             $171,889
1      9/24/2010       First Choice Bank, Cerritos, CA                           Preferred Stock                $5,146,000                     —      $5,146,000          Par                                             $117,500
1      9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL            Subordinated Debentures        $7,875,000                     —      $7,875,000          Par                                             $283,456
       9/29/2010       First Legacy Community Credit Union, Charlotte, NC        Subordinated Debentures                —                      —      $1,000,000          Par                                              $22,556
1      9/29/2010       First M&F Corporation, Kosciusko, MS                      Preferred Stock               $30,000,000                     —     $30,000,000          Par                                             $676,667
1      9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                 Preferred Stock                $6,245,000                     —      $6,245,000          Par                                              $15,959
       9/29/2010       Freedom First Federal Credit Union, Roanoke, VA           Subordinated Debentures                —                      —      $9,278,000          Par                                             $209,270
       9/24/2010       Gateway Community Federal Credit Union, Missoula, MT      Subordinated Debentures                —                      —      $1,657,000          Par                                              $37,835
       9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY         Subordinated Debentures                —                      —       $300,000           Par                                               $6,967
       9/29/2010       Greater Kinston Credit Union, Kinston, NC                 Subordinated Debentures                —                      —       $350,000           Par                                               $7,894
1      7/30/2010       Guaranty Capital Corporation, Belzoni, MS                 Subordinated Debentures       $14,000,000                     —     $14,000,000          Par                                             $560,583
       9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA        Subordinated Debentures                —                      —       $100,000           Par                                               $2,256
       9/17/2010       Hope Federal Credit Union, Jackson, MS                    Subordinated Debentures                —                      —      $4,520,000          Par                                             $104,964

                                                                                                                                                                                                             Continued on next page.
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011                                                            (CONTINUED)

                                                 Seller                                                                 Purchase Details                                                      Disposition Details

                                                                                                                                             Additional    Investment      Pricing                  Remaining            Dividend/Interest
Note   Purchase Date   Name of Institution                                         Investment Description       Amount from CPP             Investment        Amount    Mechanism    Date   Investment Amount            Paid to Treasurya

1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                              Subordinated Debentures           $4,205,000             $3,881,000     $8,086,000          Par                                               $295,925
1      9/3/2010        IBW Financial Corporation, Washington, DC                   Preferred Stock                   $6,000,000                     —      $6,000,000          Par                                               $144,000
                       Independent Employers Group Federal Credit Union,
       9/29/2010                                                                   Subordinated Debentures                   —                      —       $698,000           Par                                                $15,744
                       Hilo, HI
       9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                    Subordinated Debentures                   —                      —      $3,154,000          Par                                               $117,329
1      9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                         Preferred Stock                   $4,551,000                     —      $4,551,000          Par                                               $102,650
       9/24/2010       Liberty County Teachers Federal Credit Union, Liberty, TX   Subordinated Debentures                   —                      —       $435,000           Par                                                 $9,933
1, 2   9/24/2010       Liberty Financial Services, Inc., New Orleans, LA           Preferred Stock                   $5,645,000             $5,689,000    $11,334,000          Par                                               $258,793
                       Lower East Side People’s Federal Credit Union,
       9/24/2010                                                                   Subordinated Debentures                   —                      —       $898,000           Par                                                $20,504
                       New York, NY
1      8/20/2010       M&F Bancorp, Inc., Durham, NC                               Preferred Stock                  $11,735,000                     —     $11,735,000          Par                                               $290,115
1      8/20/2010                                                                   Preferred Stock                   $5,500,000                     —                          Par
                       Mission Valley Bancorp, Sun Valley, CA                                                                                             $10,336,000                                                            $246,394
2a     9/24/2010                                                                   Preferred Stock                           —              $4,836,000                         Par
       9/24/2010       Neighborhood Trust Federal Credit Union, New York, NY       Subordinated Debentures                   —                      —       $283,000           Par                                                 $6,462
       9/29/2010       North Side Community Federal Credit Union, Chicago, IL      Subordinated Debentures                   —                      —       $325,000           Par                                                 $7,331
                       Northeast Community Federal Credit Union,
       9/24/2010                                                                   Subordinated Debentures                   —                      —       $350,000           Par                                                 $7,992
                       San Francisco, CA
       9/29/2010       Opportunities Credit Union, Burlington, VT                  Subordinated Debentures                   —                      —      $1,091,000          Par                                                $24,608
1      8/13/2010       PGB Holdings, Inc., Chicago, IL                             Preferred Stock                   $3,000,000                     —      $3,000,000          Par                                                $30,333
       9/24/2010       Phenix Pride Federal Credit Union, Phenix City, AL          Subordinated Debentures                   —                      —       $153,000           Par                                                 $3,494
1      8/13/2010       Premier Bancorp, Inc., Wilmette, IL                         Subordinated Debentures           $6,784,000                     —      $6,784,000          Par                                                      —
       9/24/2010       Prince Kuhio Federal Credit Union, Honolulu, HI             Subordinated Debentures                   —                      —       $273,000           Par                                                 $6,234
1      9/29/2010       PSB Financial Corporation, Many, LA                         Preferred Stock                   $9,734,000                     —      $9,734,000          Par                                               $219,556
       9/24/2010       Pyramid Federal Credit Union, Tucson, AZ                    Subordinated Debentures                   —                      —      $2,500,000          Par                                                $57,083
                       Renaissance Community Development Credit Union,
       9/29/2010                                                                   Subordinated Debentures                   —                      —        $31,000           Par                                                   $699
                       Somerset, NJ
       9/24/2010       Santa Cruz Community Credit Union, Santa Cruz, CA           Subordinated Debentures                   —                      —      $2,828,000          Par                                                $64,573
1      9/29/2010       Security Capital Corporation, Batesville, MS                Preferred Stock                  $17,910,000                     —     $17,910,000          Par                                               $403,970
1, 2   9/29/2010       Security Federal Corporation, Aiken, SC                     Preferred Stock                  $18,000,000             $4,000,000    $22,000,000          Par                                               $496,222
       9/29/2010       Shreveport Federal Credit Union, Shreveport, LA             Subordinated Debentures                   —                      —      $2,646,000          Par                                                $59,682
1, 2   8/6/2010        Southern Bancorp, Inc., Arkadelphia, AR                     Preferred Stock                  $11,000,000            $22,800,000    $33,800,000          Par                                               $861,900
       9/29/2010       Southern Chautauqua Federal Credit Union, Lakewood, NY      Subordinated Debentures                   —                      —      $1,709,000          Par                                                $38,547
       9/29/2010       Southside Credit Union, San Antonio, TX                     Subordinated Debentures                   —                      —      $1,100,000          Par                                                $24,811
1      9/29/2010       State Capital Corporation, Greenwood, MS                    Preferred Stock                  $15,750,000                     —     $15,750,000          Par                                               $355,250
1, 2   9/29/2010       The First Bancshares, Inc., Hattiesburg, MS                 Preferred Stock                   $5,000,000            $12,123,000    $17,123,000          Par                                               $386,219
       9/29/2010       The Magnolia State Corporation, Bay Springs, MS             Subordinated Debentures                   —                      —      $7,922,000          Par                                               $276,962
                       Thurston Union of Low-Income People (TULIP)
       9/24/2010                                                                   Subordinated Debentures                   —                      —        $75,000           Par                                                 $1,713
                       Cooperative Credit Union, Olympia, WA
       9/24/2010       Tongass Federal Credit Union, Ketchikan, AK                 Subordinated Debentures                   —                      —      $1,600,000          Par                                                $36,533
1      8/13/2010       Tri-State Bank of Memphis, Memphis, TN                      Preferred Stock                   $2,795,000                     —      $2,795,000          Par                                                $70,186
       9/24/2010       Tulane-Loyola Federal Credit Union, New Orleans, LA         Subordinated Debentures                   —                      —       $424,000           Par                                                 $9,681
                       Union Baptist Church Federal Credit Union,
       9/24/2010                                                                   Subordinated Debentures                   —                      —        $10,000           Par                                                   $228
                       Fort Wayne, IN
       9/29/2010       Union Settlement Federal Credit Union, New York, NY         Subordinated Debentures                   —                      —       $295,000           Par                                                 $6,654
1      9/3/2010        United Bancorporation of Alabama, Inc., Atmore, AL          Preferred Stock                  $10,300,000                     —     $10,300,000          Par                                               $247,200
                       UNITEHERE Federal Credit Union (Workers United
       9/29/2010                                                                   Subordinated Debentures                   —                      —        $57,000           Par                                                 $1,001
                       Federal Credit Union), New York, NY
1, 2   7/30/2010       University Financial Corp, Inc., St. Paul, MN               Subordinated Debentures          $11,926,000            $10,189,000    $22,115,000          Par                                               $885,521

                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                              Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                              231
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011                                                                      (CONTINUED)                                                                                                                                                  232

                                                          Seller                                                                    Purchase Details                                                                                  Disposition Details

                                                                                                                                                           Additional              Investment         Pricing                              Remaining            Dividend/Interest
Note       Purchase Date        Name of Institution                                        Investment Description         Amount from CPP                 Investment                  Amount       Mechanism              Date     Investment Amount            Paid to Treasurya

           9/24/2010            UNO Federal Credit Union, New Orleans, LA                  Subordinated Debentures                       —                        —                 $743,000               Par                                                           $16,965
           9/29/2010            Vigo County Federal Credit Union, Terre Haute, IN          Subordinated Debentures                       —                        —               $1,229,000               Par                                                           $27,721
           9/24/2010            Virginia Community Capital, Inc., Christiansburg, VA       Subordinated Debentures                       —                        —               $1,915,000               Par                                                           $43,726
                                                                                                                                                                                                                 Total Capital
                                                                                                                                             Total Purchase Amount            $570,073,000                        Repayment                           —
                                                                                                                                                                                                                      Amount
                                                                                           TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                                                    $570,073,000


Notes: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes are taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
 	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
 	 Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
  	Treasury made an additional investment in this institution after the time it entered the CDCI program.
3
 	On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 06/29/2011. Accrued and
   previously unpaid dividends were paid on the date of the exchange.

Source: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends, Interest, and Distributions Report, 1/10/2012.
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I January 26, 2012
Table D.4

AIFP TRANSACTION DETAIL, AS OF 12/31/2011
                                                                                                                                                               Treasury Investment After Exchange/
                                               Initial Investment                                           Exchange/Transfer/Other Details                    Transfer/Other                                                                       Payment or Disposition1
                                                                                                                                                                                                                                                                                   Remaining
                           Trans-                                                                                                                                                                                                                             Remaining           Investment      Dividend/
                           action                                                                                                                                                                       Amount/                                      Amount/ Investment             Amount/ Interest Paid to
              Date         Type       Seller       Description                     Amount Note           Date                  Type             Amount Note Obligor          Note Description           Equity %         Date          Type          Proceeds Description           Equity %       Treasury
                                                                                                                       Exchange for
                                                   Preferred Stock w/                                                                                                                Convertible
              12/29/2008 Purchase     GMAC                                  $5,000,000,000         12/30/2009   convertible preferred    $5,000,000,000        GMAC          21,
                                                   Exercised Warrants                                                                                                                 Preferred $5,937,500,000
                                                                                                                                stock                          (Ally)        22
                                                                                                                                                                                         Stock
                                                   Convertible Preferred                                        Partial conversion of
              5/21/2009    Purchase   GMAC         Stock w/ Exercised       $7,500,000,000   22    12/30/2009    preferred stock for     $3,000,000,000
GMAC                                               Warrants                                                           common stock
(Ally),                                                                                                                                                        GMAC                   Common                                                                                                   $2,603,721,882
                                                   Convertible Preferred                                        Partial conversion of                                        3, 26                        73.8%
Detroit, MI                                                                                  22,                                                               (Ally)                   Stock
              12/30/2009 Purchase     GMAC         Stock w/ Exercised       $1,250,000,000         12/30/2010    preferred stock for     $5,500,000,000   26
                                                                                             26
                                                   Warrants                                                           common stock
                                                                                                                        Exchange for
                                                   Trust Preferred                                                                                                                       Trust
                                                                                                                       amended and                             GMAC
              12/30/2009 Purchase     GMAC         Securities w/            $2,540,000,000           3/1/2011                            $2,670,000,000   27                  27     Preferred    $2,670,000,000     3/2/2011   Disposition28   $2,667,000,000         N/A              $—
                                                                                                                       restated Trust                          (Ally)
                                                   Exercised Warrants                                                                                                                Securities
                                                                                                                 Preferred Securities
                                    General
                                                                                                                Exchange for equity
              12/29/2008   Purchase Motors          Debt Obligation          $884,024,131    2      5/29/2009                             $884,024,131    3
                                                                                                                   interest in GMAC
                                    Corporation
                                                                                                                     Exchange for
                                    General
                                                    Debt Obligation w/                                               preferred and
              12/31/2008   Purchase Motors                                 $13,400,000,000          7/10/2009                           $13,400,000,000   7
                                                    Additional Note                                               common stock in
                                    Corporation
                                                                                                                          New GM
                                                                                                                     Exchange for
                                    General                                                                                                                    General       10,
                                                    Debt Obligation w/                                               preferred and                                                   Preferred
              4/22/2009    Purchase Motors                                  $2,000,000,000   4      7/10/2009                            $2,000,000,000   7    Motors        11,                  $2,100,000,000   12/15/2010    Repayment      $2,139,406,778         N/A              $—
                                                    Additional Note                                               common stock in                                                       Stock
                                    Corporation                                                                                                                Company       24
                                                                                                                          New GM

                                                                                                                     Exchange for                                                                                                     Partial                     Common
                                    General                                                                                                                    General       10,                                   11/18/2010                 $11,743,303,903                         36.9%
                                                    Debt Obligation w/                                               preferred and                                                    Common                                    Disposition25                       Stock
              5/20/2009    Purchase Motors                                  $4,000,000,000   5      7/10/2009                            $4,000,000,000   7    Motors        11,                          60.8%
                                                    Additional Note                                               common stock in                                                       Stock                                         Partial                     Common
                                    Corporation                                                                                                                Company       25                                    11/26/2010                   $1,761,495,577                       32.04%
                                                                                                                          New GM                                                                                                Disposition25                       Stock
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                    7/10/2009                    $360,624,198                 $6,711,864,407
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                     Partial                          Debt
General                                                                                                                                                                                                            12/18/2009                   $1,000,000,000                $5,711,864,407
                                                                                                                     Exchange for                              General                                                           Repayment                       Obligation
Motors,bc                           General                                                                                                                                                                                                                                                     $756,714,508
                                                    Debt Obligation w/                                               preferred and                             Motors        11,          Debt
Detroit, MI   5/27/2009    Purchase Motors                                   $360,624,198    6      7/10/2009                             $360,624,198    7                                       $7,072,488,605                     Partial                          Debt
                                                    Additional Note                                               common stock in                              Holdings      12      Obligation                     1/21/2010                     $35,084,421                 $5,676,779,986
                                    Corporation                                                                                                                                                                                  Repayment                       Obligation
                                                                                                                          New GM                               LLC
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                    3/31/2010                   $1,000,000,000                $4,676,779,986
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                    4/20/2010    Repayment      $4,676,779,986         N/A              $—
                                                                                                                     Exchange for
                                    General
                                                    Debt Obligation w/                                               preferred and
              6/3/2009     Purchase Motors                                 $30,100,000,000   8      7/10/2009                           $22,041,706,310   9
                                                    Additional Note                                               common stock in
                                    Corporation
                                                                                                                          New GM
                                                                                                                 Transfer of debt to
                                                                                                    7/10/2009                            $7,072,488,605   9
                                                                                                                           New GM
                                                                                                                                                               Motors
                                                                                                                                                                                          Debt                                       Partial                          Debt
                                                                                                    7/10/2009   Debt left at Old GM       $985,805,085    9    Liquidation    29                   $985,805,085     3/31/2011                     $50,000,000                  $935,805,085
                                                                                                                                                                                     Obligation                                  Repayment                       Obligation
                                                                                                                                                               Company
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                     4/5/2011                     $45,000,000                  $890,805,085
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                     5/3/2011                     $15,887,795                  $874,917,290
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                   12/16/2011                        $144,444                  $874,772,846
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                   12/23/2011                     $18,890,294                  $855,882,552
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                                                 233
AIFP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (continued)                                                                                                                                                                                                        234
                                                                                                                                                              Treasury Investment After Exchange/
                                               Initial Investment                                            Exchange/Transfer/Other Details                  Transfer/Other                                                                      Payment or Disposition1
                                                                                                                                                                                                                                                                                  Remaining
                         Trans-                                                                                                                                                                                                                             Remaining            Investment      Dividend/
                         action                                                                                                                                                                       Amount/                                      Amount/ Investment              Amount/ Interest Paid to
             Date        Type       Seller         Description                    Amount Note           Date                  Type            Amount Note Obligor           Note Description          Equity %         Date          Type          Proceeds Description            Equity %       Treasury
                                                                                                                                                                                                                                                                    Debt
                                                                                                                                                                                                                                                               Obligation
                                    Chrysler        Debt Obligation w/                                                                                                                                                             Partial
             1/16/2009   Purchase                                          $1,500,000,000    13                                                                                                                   3/17/2009                      $3,499,055            w/    $1,496,500,945
                                    FinCo           Additional Note                                                                                                                                                            Repayment
                                                                                                                                                                                                                                                               Additional
                                                                                                                                                                                                                                                                    Note
                                                                                                                                                                                                                                                                    Debt
                                                                                                                                                                                                                                                               Obligation
                                                                                                                                                                                                                                   Partial
                                                                                                                                                                                                                  4/17/2009                     $31,810,122            w/    $1,464,690,823
                                                                                                                                                                                                                               Repayment
                                                                                                                                                                                                                                                               Additional
                                                                                                                                                                                                                                                                    Note
Chrysler                                                                                                                                                                                                                                                            Debt
FinCo,                                                                                                                                                                                                                                                         Obligation
                                                                                                                                                                                                                                   Partial                                                       $7,405,894
Farmington                                                                                                                                                                                                        5/18/2009                     $51,136,084            w/    $1,413,554,739
Hills, MI                                                                                                                                                                                                                      Repayment
                                                                                                                                                                                                                                                               Additional
                                                                                                                                                                                                                                                                    Note
                                                                                                                                                                                                                                                                    Debt
                                                                                                                                                                                                                                                               Obligation
                                                                                                                                                                                                                                   Partial
                                                                                                                                                                                                                  6/17/2009                     $44,357,710            w/    $1,369,197,029
                                                                                                                                                                                                                               Repayment
                                                                                                                                                                                                                                                               Additional
                                                                                                                                                                                                                                                                    Note
                                                                                                                                                                                                                                                                Additional
                                                                                                                                                                                                                  7/14/2009    Repayment      $1,369,197,029                           $—
                                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I January 26, 2012




                                                                                                                                                                                                                                                                     Note
                                                                                                                                                                                                                  7/14/2009   Repayment*        $15,000,000          N/A               $—
                                                                                                                                                                                        Debt
                                                                                                                                                                                                                               Termination
                                                                                                                                                                                   obligation
                                    Chrysler        Debt Obligation w/                                          Transfer of debt to                           Chrysler                                                                 and
             1/2/2009    Purchase                                          $4,000,000,000         6/10/2009                             $500,000,000     19                  20            w/   $3,500,000,000    5/14/2010                   $1,900,000,000         N/A               $—
                                    Holding         Additional Note                                                  New Chrysler                             Holding                                                           settlement
                                                                                                                                                                                   additional
                                                                                                                                                                                                                                payment20
                                                                                                                                                                                        note
                                    Chrysler        Debt Obligation w/
             4/29/2009   Purchase                                                    $—      14
                                    Holding         Additional Note
                                  Chrysler          Debt Obligation w/
             4/29/2009   Purchase                                           $280,130,642     15                                                                                                                   7/10/2009    Repayment       $280,130,642          N/A               $—
                                  Holding           Additional Note
                                                                                                                       Completion
                                                                                                                    of bankruptcy                             Old Carco              Right to                                    Proceeds                        Right to
                                                    Debt Obligation w/
             5/1/2009    Purchase Old Chrysler                             $1,888,153,580    16   4/30/2010 proceeding; transfer      ($1,888,153,580)   23   Liquidation    23       recover             N/A     5/10/2010   from sale of      $30,544,528       recover              N/A
                                                    Additional Note
                                                                                                            of collateral security                            Trust                 proceeds                                     collateral                     proceeds
                                                                                                               to liquidation trust
                                                                                                                                                                                                                                 Proceeds                        Right to
                                                    Debt Obligation w/
             5/20/2009   Purchase Old Chrysler                                       $—      17                                                                                                                    9/9/2010   from sale of       $9,666,784       recover              N/A
                                                    Additional Note
                                                                                                                                                                                                                                 collateral                     proceeds
        c
Chrysler ,
Auburn                                                                                                                                                                                                                           Proceeds                        Right to                     $1,171,263,942
Hills, MI                                                                                                                                                                                                        12/29/2010   from sale of       $7,844,409       recover              N/A
                                                                                                                                                                                                                                 collateral                     proceeds
                                                                                                                                                                                         Debt
                                                                                                                                                                                    obligation
                                               Debt Obligation w/
                                                                                                                                                              Chrysler                      w/
                                               Additional Note,                                             Issuance of equity in                                           19,                                               Repayment -
             5/27/2009   Purchase New Chrysler                             $6,642,000,000    18   6/10/2009                                       $—          Group                 additional $7,142,000,000     5/24/2011                   $5,076,460,000
                                               Zero Coupon Note,                                                   New Chrysler                                             31                                                   Principal
                                                                                                                                                              LLC                 note & zero
                                               Equity
                                                                                                                                                                                      coupon
                                                                                                                                                                                         note
                                                                                                                                                                                                                                                                     N/A               $—
                                                                                                                                                                                                                              Repayment*
                                                                                                                                                                                                                  5/24/2011    - Additional    $288,000,000
                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                              Repayment*
                                                                                                                                                                                                                  5/24/2011         - Zero     $100,000,000
                                                                                                                                                                                                                              Coupon Note
                                                                                                                                                              Chrysler
                                                                                                                                                                                    Common
                                                                                                                                                              Group          30                          6.6%     7/21/2011    Disposition     $560,000,000          N/A               $—
                                                                                                                                                                                      equity
                                                                                                                                                              LLC
                                                                                                                                                                                                                 Additional Proceeds*          $403,000,000
                                    Total Initial Investment Amount      $81,344,932,551                                                                                                                               Total Payments          $34,878,263,759.09
                                                                                                                                                                                                      Total Treasury Investment Amount         $40,932,009,949.95
Number may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.
1
 	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
 	 Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
 	Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
      marked by orange line in the table above and footnote 22.)
4
 	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
 	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM . On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed
      by the new GM, as explained in footnote 10.
7
 	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
 	Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/09/2009, $30.1 billion of funds had been
      disbursed by Treasury.
9
 	On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
      separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
  	In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
  	Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company”
      on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
  	Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
  	The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
  	This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
  	The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
  	This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
      6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
  	This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
      terminated.
18
  	This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion.
      The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new
      Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
  	Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
  	Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment
      of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
  	Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
  	Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23	
      On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to a
       liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
  	On October 27, 2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock. The
      repurchase was completed on 12/15/2010.
25
  	On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On 11/26/2010,
      the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total
      $13,504,799,480.
26
    On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
    On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury
     received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
  	On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the
      accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
  	On March 31, 2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
      transferred to liquidation trusts. Under the Plan of Liquidation, Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
  	In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically increased
      from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On May 24, 2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On July 21, 2011,
      Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31
  	On May 24, 2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32
     On November 1, 2011, Treasury received a $201,345.42 pro rata tax distribution in its common stock from Ally Financial, Inc. pursuant to the terms of the sixth amended and restated limited liability company opening agreement of GMAC LLC, dated May 22, 2009.

a
    For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
    According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
    This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends, Interest, and Distributions Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/5/2012.
                                                                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                                                                               235
Table D.5                                                                                                                                                                                                                                                                                                               236

ASSP Transaction Detail, as of 12/31/2011
                           Seller                                                                                                            Adjustment Details                                          Repayment4
                                                                                                                                                                                            Adjusted                                                   Remaining                                           Dividend/
                                                             Transaction     Investment                      Investment         Pricing       Adjustment           Adjustment             Investment                                                  Investment                                       Interest Paid
Note        Date           Institution Name                  Type            Description                        Amount       Mechanism              Date              Amount                 Amount      Date                    Type                 Description                Amount                  to Treasury
                                                                                                                                                                                                         11/20/2009             Partial          Debt Obligation w/
                                                                                                                                                                                                                                                                           $140,000,000
                                                                                                                                                                                                                            repayment               Additional Note
                           GM Supplier Receivables LLC                       Debt Obligation w/
1, 3        4/9/2009                                         Purchase                                   $3,500,000,000               N/A        7/8/2009     ($1,000,000,000)        $2,500,000,000      2/11/2010              Partial          Debt Obligation w/
                           Wilmigton, DE                                     Additional Note                                                                                                                                                                               $100,000,000                 $9,087,808
                                                                                                                                                                                                                            repayment               Additional Note
                                                                                                                                                                                                         3/4/2010         Repayment5                Additional Note         $50,000,000
1, 6                                                                                                                                                                                   $290,000,000      4/5/2010             Payment6                       None           $56,541,893
2, 3        4/9/2009       Chrysler Receivables SPV LLC                      Debt Obligation w/         $1,500,000,000               N/A        7/8/2009       ($500,000,000)        $1,000,000,000      3/9/2010         Repayment5                Additional Note        $123,076,735
                                                             Purchase                                                                                                                                                                                                                                   $5,787,176
2, 7                       Wilmigton, DE                                     Additional Note                                                                                           $123,076,735      4/7/2010             Payment7                       None           $44,533,054
Initial Total               $5,000,000,000                                                                                                 Adjusted Total      $413,076,735                                                                   Total Repayments            $413,076,735
                                                                                                                 Total Proceeds from Additional Notes          $101,074,947
Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
   he loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
  T
  made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
   Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
                                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I January 26, 2012




   Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
   All outstanding principal drawn under the credit agreement was repaid.
6
   Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
    which have been repaid.
7
    Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
     which have been repaid.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, response to SIGTARP data call, 1/5/2012; Treasury, Dividends, Interest, and Distributions Report, 1/10/2012.




Table D.6

 TIP Transaction Detail, as of 12/31/2011
                                                                                                                                                                               Treasury Investment
                                                                                                                                                                               Remaining After Capital
                       Seller                                                                                                              Capital Repayment Details           Repayment                                        Final Disposition                        Market and Warrants Data
                                                                                                                                                    Capital         Capital      Remaining       Remaining            Final             Final                 Final                                       Dividends/
                                        Transaction Investment                                             Investment         Pricing            Repayment       Repayment         Capital         Capital      Disposition       Disposition           Disposition    Stock        Outstanding      Interest Paid to
Note Date              Institution Name Type        Description                                               Amount       Mechanism                Amount            Date2        Amount       Description          Date3        Description            Proceeds      Price     Warrant Shares             Treasury
1      12/31/08        Citigroup Inc.     Purchase        Trust Preferred Securities w/ Warrants    $20,000,000,000 Par                     $20,000,000,000        12/23/09              $—         Warrants       1/25/11 A          Warrants       $190,386,428     $26.31                         $1,568,888,889
                       Bank of America
       1/16/09                            Purchase        Preferred Stock w/ Warrants               $20,000,000,000 Par                     $20,000,000,000          12/9/09             $—         Warrants        3/3/10 A          Warrants $1,255,639,099          $5.56                         $1,435,555,556
                       Corporation
                                                                                                                         Total Capital
                                                          Total Investment                         $40,000,000,000                         $40,000,000,000
                                                                                                                         Repayment
                                                                                                       Total Treasury TIP Investment
                                                                                                                                                          $—                                                                                         Total Warrant Proceeds $1,446,025,527
                                                                                                                             Amount

 Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report. 									
 												
 1 
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.												
 2
   Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
 3 
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial
   institution.	
 															
 Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Cumulative Dividends, Interest, and Distributions Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/11/2012; Bloomberg LP, accessed 12/30/2011.
Table D.7

    AGP Transaction Detail, as of 12/31/2011
                              Initial Investmentb                                                                      Premium                      Exchange/Transfer/Other Details                                                       Payment or Disposition                    Market and Warrant Data
                                                                                                                                                                                                                                                     Remaining                    Remaining Outstanding                       Dividends/
                      Institution       Transaction                            Guarantee                                                                                                                                Payment              Payment Premium                       Premium Warrant               Stock     Interest Paid
Note      Date        Name              Type            Description                 Limit Description                Amount           Date              Type      Description             Amount           Date            Type               Amount Description                    Amount Shares                Price       to Treasury
                                                                                                                                                  Exchange                                                                  Partial
                                                                                                                                                                           Trust
                                                                                                                                                   preferred                                                          cancellation                   Trust Preferred
                                                                                                                                                                     Preferred
                                                                                                                                 6/9/2009     stock for trust                      $4,034,000,000 12/23/2009              for early ($1,800,000,000) Securities w/            2,234,000,000
                                                                                                                                                                  Securities w/
                                                                                                                                                   preferred                                                           termination                   Warrants
                                                                                        Preferred                                                                    Warrants
1,2,3,                Citigroup Inc.,                   Master                                                                                    securities                                                         of guarantee
          1/16/09                       Guarantee                        $5,000,000,000 Stock w/            $4,034,000,000                                                                                                                                                                                      $26.31 $442,964,764
4,5                   New York, NY                      Agreement                                                                                  Exchange                                         9/30/2010          Disposition   $2,246,000,000 Warrants                              $—
                                                                                        Warrants                                                                           Trust
                                                                                                                                              trust preferred
                                                                                                                                                                     Preferred
                                                                                                                                9/29/2010       securities for                     $2,246,000,000                         Warrant
                                                                                                                                                                  Securities w/                     1/25/2011                            $67,197,045 None                                 $—
                                                                                                                                              trust preferred                                                             Auction
                                                                                                                                                                     Warrants
                                                                                                                                                   securities
                                                        Termination
3         12/23/09 Citigroup Inc.       Termination                     ($5,000,000,000)
                                                        Agreement
                                                        Total            $—                                                                                                                                       Total Proceed $2,313,197,045

Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
   Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
   On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
    Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity
    Guarantee Program.
4
    On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc.
     paid the outstanding accrued and unpaid dividends.
5
     On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date as of the exchange through the closing date.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/11/2012; Bloomberg LP, accessed 12/30/2011.




Table D.8

TALF Transaction Detail, as of 12/31/2011
                        Seller
                                                      Transaction                                                                            Pricing             Adjusted                         Adjusted
Note         Date       Institution                   Type                Investment Description                    Investment Amount        Mechanism           Investment Date        Investment Amount
1-2          3/3/09     TALF LLC, Willmington, DE     Purchase            Debt Obligation w/ Additional Note          $20,000,000,000        N/A                 7/19/2010                 $4,300,000,000
                                                                          TOTAL                                       $4,300,000,000

Notes: Numbers may not toal due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
     he loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan
    T
    amount. The loan will be incrementally funded.
2
    On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan
     amount to $4,300,000,000.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends, Interest, and Distributions Report, 1/10/2012.
                                                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                                                                           237
                                                                                                                                                                                                                                                                                                        238
Table D.9


SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011
                          Seller                      Purchase Details                                                                                                                                  Exchange/Transfer Details
                                                                                                                                                                                                                                                                                          Dividends/
                                                                                                                                                                                                                                                                      Outstanding           Interests
                                                      Transaction   Investment                  Investment     Pricing                              Transaction                                                                          Pricing                        Warrants              Paid to
Note      Date            Name of Institution         Type          Description                    Amount      Mechanism        Date                Type                 Investment Description                           Amount      Mechanism           Stock Price      Shares           Treasury
                                                                    Preferred Stock
                                                                                                                                                                         Preferred Stock w/
1         11/25/2008      AIG, New York, NY           Purchase      w/ Warrants           $40,000,000,000      Par             4/17/2009            Exchange                                              1     $40,000,000,000                Par             $23.20     2,689,938                ­—
                                                                                                                                                                         Warrants (Series E)
                                                                    (Series D)
                                                                    Preferred Stock
2, 3      4/17/2009       AIG, New York, NY           Purchase       w/ Warrants          $29,835,000,000      Par             See table below for exchange/transfer details in connection with the recapitalization conducted on 1/14/2011.                   $23.20            150               —
                                                                    (Series F)
                                                                    Initial total       $69,835,000,000
                                                                                                                                                                         Final Disposition
                                                                                                                                                                                                                                           Pricing
                                                                                                                               Date                 Investment           Transaction Type                 Proceeds                    Mechanism
                                                                                                                                                    Warrants
                                                                                                                                                    (Series E)
                                                                                                                                                    Warrants
                                                                                                                                                    (Series F)
                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I January 26, 2012




                                                                                                       Treasury Holdings Post-
                                   Recapitalization                                                        Recapitalization                                                                                   Final Disposition

                                                                                                                                                                                                                                                               Remaining Recap
                          Investment                  Transaction   Pricing                                                                                                                                                              Pricing      Investment Amount, Shares,
                                                                                                                                                                                                                                  8
Note      Date            Description                 Type          Mechanism           Investment Description                Amount / Shares       Date                         Transaction Type                      Proceeds       Mechanism                     or Equity %

                                                      Exchange      Par                 Preferred Stock (Series G)            $2,000,000,000        5/27/2011                           Cancellation                              —            N/A                               —10


                                                                                                                                                    2/14/2011                                Payment                                           Par
                                                                                                                                                                                                                     $185,726,192
                                                                                                                                                    3/8/2011                                 Payment              $5,511,067,614               Par
                                                                                                                                                    3/15/2011                                Payment                  $55,833,333              Par
                                                                                        AIA Preferred Units                   $16,916,603,568                                                                                                                       $7,886,056,010
                          Preferred Stock                                                                                                           8/17/2011                                Payment                  $97,008,351              Par
4,7,8     1/14/2011
                          (Series F)                  Exchange      N/A
                                                                                                                                                    8/18/2011                                Payment              $2,153,520,000               Par
                                                                                                                                                    9/2/2011                                 Payment                  $55,885,302              Par
                                                                                                                                                    11/1/2011                                Payment                 $971,506,765              Par
                                                                                                                                                    2/14/2011                                Payment              $2,009,932,072               Par
                                                                                        ALICO Junior Preferred Interests      $3,375,328,432                                                                                                                                       —
                                                                                                                                                    3/8/2011                                 Payment              $1,383,888,037               Par
                                                      Exchange                                                                167,623,733
                          Preferred Stock                                                                                                                                                                                                                           1,455,037,9629
5         1/14/2011                                   Exchange      N/A                                                       924,546,133
                          (Series E)                                                    Common Stock                                                5/24/2011                     Partial Disposition             $5,800,000,000               N/A
                          Common Stock
6         1/14/2011                                   Transfer                                                                562,868,096                                                                                                                                        77%
                          (non-TARP)

                                                                                                                                                                                               Total           $18,224,367,667

Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from the Treasury’s 1/4/2012 Transactions Report, and Treasury’s 1/10/2012 Dividends, Interest, and Distributions Report.

1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an
   additional obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 05/27/2011.
4 
 	 On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred
   SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG
   has the right to draw up to $2,000,000,000.
5 
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6 
 	 On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to
   this recapitalization transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for an aggregate amount equal to $5,800,000,000, pursuant to an underwriting agreement executed on 05/24/2011.
10
  	On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Bloomberg LP, accessed 12/30/2011.
Table D.10	

UCSB TRANSACTION DETAIL, AS OF 12/31/2011
                                                   Purchase Details1                                                                                                                                     Settlement Details                     Final Disposition
                                                                                                                                                                                                                  Senior                        Life-to-date
Purchase                                                                                                 Purchase Face             Pricing      TBA or     Settlement            Investment       TBA or        Security                           Principal     Current Face            Disposition
Date           Investment Description                       Institution Name        CUSIP                     Amount3           Mechanism        PMF3      Date                   Amount 2, 3      PMF3       Proceeds 4      Sale Date         Received 1, 7      Amount 6, 7           Amount 5, 6        Interest Paid to Treasury
3/19/2010      Floating Rate SBA 7a security due 2025       Coastal Securities      83164KYN7                $4,070,000              107.75        —       3/24/2010             $4,377,249          —            $2,184      6/21/2011            $902,633         $3,151,186           $3,457,746                          $169,441
3/19/2010      Floating Rate SBA 7a security due 2022       Coastal Securities      83165ADC5                $7,617,617                  109       —       3/24/2010             $8,279,156          —            $4,130      10/19/2011         $1,685,710         $5,891,602           $6,462,972                          $449,518
3/19/2010      Floating Rate SBA 7a security due 2022       Coastal Securities      83165ADE1                $8,030,000             108.875        —       3/24/2010             $8,716,265          —            $4,348      6/21/2011          $2,022,652         $5,964,013           $6,555,383                          $371,355
4/8/2010       Floating Rate SBA 7a security due 2034       Coastal Securities      83165AD84               $23,500,000             110.502        —       5/28/2010            $26,041,643          —           $12,983      6/7/2011           $1,149,633       $22,350,367           $25,039,989                        $1,089,741
4/8/2010       Floating Rate SBA 7a security due 2016       Coastal Securities      83164KZH9                $8,900,014                107.5       —       4/30/2010             $9,598,523          —            $4,783      6/7/2011           $2,357,796         $6,542,218           $7,045,774                          $414,561
5/11/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83165AEE0               $10,751,382             106.806        —       6/30/2010            $11,511,052          —            $5,741      6/7/2011             $932,112         $9,819,270          $10,550,917                          $348,599
5/11/2010      Floating Rate SBA 7a security due 2035       Coastal Securities      83164K2Q5               $12,898,996              109.42        —       6/30/2010            $14,151,229          —            $7,057      6/7/2011             $328,604       $12,570,392           $13,886,504                          $479,508
5/11/2010      Floating Rate SBA 7a security due 2033       Coastal Securities      83165AED2                $8,744,333             110.798        —       6/30/2010             $9,717,173          —            $4,844      6/7/2011             $261,145         $8,483,188           $9,482,247                          $368,608
5/25/2010      Floating Rate SBA 7a security due 2029       Coastal Securities      83164K3B7                $8,417,817             110.125        —       7/30/2010             $9,294,363          —            $4,635      6/7/2011             $246,658         $8,171,159           $8,985,818                          $287,624
5/25/2010      Floating Rate SBA 7a security due 2033       Coastal Securities      83165AEK6               $17,119,972             109.553        —       7/30/2010            $18,801,712          —            $9,377      9/20/2011          $2,089,260       $15,030,712           $16,658,561                          $657,863
6/17/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83165AEQ3               $34,441,059             110.785        —       8/30/2010            $38,273,995          —           $19,077      6/21/2011          $1,784,934       $32,656,125           $36,072,056                        $1,286,450
6/17/2010      Floating Rate SBA 7a security due 2034       Coastal Securities      83165AEP5               $28,209,085             112.028        —       8/30/2010            $31,693,810          —           $15,801      9/20/2011          $2,278,652       $25,930,433           $29,142,474                        $1,254,222
7/14/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83164K3Y7                $6,004,156             106.625        —       9/30/2010             $6,416,804          —            $3,200      6/21/2011            $348,107         $5,656,049           $6,051,772                          $146,030
7/14/2010      Floating Rate SBA 7a security due 2025       Shay Financial          83164K4J9                $6,860,835             108.505        —       9/30/2010             $7,462,726          —            $3,722      10/19/2011           $339,960         $6,520,875           $7,105,304                          $255,370
7/14/2010      Floating Rate SBA 7a security due 2034       Shay Financial          83165AE42               $13,183,361              111.86        —       9/30/2010            $14,789,302          —            $7,373      6/21/2011            $478,520       $12,704,841           $14,182,379                          $423,725
7/29/2010      Floating Rate SBA 7a security due 2017       Coastal Securities      83164K4E0                $2,598,386             108.438        —       9/30/2010             $2,826,678          —            $1,408                           $553,720                                                                  $119,803
7/29/2010      Floating Rate SBA 7a security due 2034       Shay Financial          83164K4M2                $9,719,455              106.75        —       10/29/2010           $10,394,984          —            $5,187      6/21/2011            $188,009         $9,531,446          $10,223,264                          $181,124
8/17/2010      Floating Rate SBA 7a security due 2020       Shay Financial          83165AEZ3                $8,279,048             110.198        —       9/30/2010             $9,150,989          —            $4,561      9/20/2011          $1,853,831         $6,425,217           $7,078,089                          $335,082
8/17/2010      Floating Rate SBA 7a security due 2019       Coastal Securities      83165AFB5                $5,000,000             110.088        —       10/29/2010            $5,520,652          —            $2,752      10/19/2011           $419,457         $4,580,543           $5,029,356                          $213,319
8/17/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83165AE91               $10,000,000             110.821        —       10/29/2010           $11,115,031          —            $5,541      10/19/2011           $969,461         $9,030,539           $9,994,806                          $433,852
8/31/2010      Floating Rate SBA 7a security due 2020       Shay Financial          83165AEW0                $9,272,482             110.515        —       9/29/2010            $10,277,319          —            $5,123      9/20/2011            $868,636         $8,403,846           $9,230,008                          $386,326
8/31/2010      Floating Rate SBA 7a security due 2024       Shay Financial          83165AFA7               $10,350,000             112.476        —       10/29/2010           $11,672,766          —            $5,820      10/19/2011           $250,445       $10,099,555           $11,314,651                          $425,545
8/31/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83164K5H2                $6,900,000             105.875        —       11/30/2010            $7,319,688          —            $3,652                           $573,097                                                                  $171,301
9/14/2010      Floating Rate SBA 7a security due 2020       Shay Financial          83165AFC3                $8,902,230             111.584        —       10/29/2010            $9,962,039          —            $4,966                         $1,223,840                                                                  $372,636
9/14/2010      Floating Rate SBA 7a security due 2021       Shay Financial          83165AFK5                $8,050,000             110.759        —       11/30/2010            $8,940,780          —            $4,458                           $913,316                                                                  $290,056
9/14/2010      Floating Rate SBA 7a security due 2029       Coastal Securities      83164K5F6                $5,750,000                106.5       —       11/30/2010            $6,134,172          —            $3,061                           $236,363                                                                  $126,947
9/14/2010      Floating Rate SBA 7a security due 2026       Coastal Securities      83164K5L3                $5,741,753                110.5       —       11/30/2010            $6,361,173          —            $3,172                           $605,502                                                                  $200,220
9/28/2010      Floating Rate SBA 7a security due 2035       Coastal Securities      83164K5M1                $3,450,000             110.875        —       11/30/2010            $3,834,428          —            $1,912      10/19/2011             $82,832        $3,367,168           $3,698,411                          $111,165
9/28/2010      Floating Rate SBA 7a security due 2034       Coastal Securities      83165AFT6               $11,482,421             113.838        —       12/30/2010           $13,109,070          —            $6,535                           $845,933                                                                  $408,714
9/28/2010      Floating Rate SBA 7a security due 2034       Shay Financial          83165AFM1               $13,402,491                113.9       —       11/30/2010           $15,308,612          —            $7,632      10/19/2011           $438,754       $12,963,737           $14,433,039                          $516,624
9/28/2010      Floating Rate SBA 7a security due 2035       Shay Financial          83165AFQ2               $14,950,000             114.006        —       12/30/2010           $17,092,069          —            $8,521                           $327,086                                                                  $542,390


                                                                                                                                                                                                     Total
                                                                                                                                                                                                    Senior
                                                                                                                                                                                                  Security
                                                                 Total Purchase Face Amount              $332,596,893                       Total Investment Amount*         $368,145,452        Proceeds      $183,555                           Total Disposition Proceeds         $271,681,517                        $12,837,717

Notes: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.
*Subject to adjustment

1
   he amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
  T
2
  Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3
   If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as
    PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor (on
    or about the 11th business day of each month).
4
    In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product
     of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase
     Agreement.
5
     Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6
      If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th
                                                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I January 26, 2012




       business day of each month).
7
       The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Source: Treasury, Transactions Report, 1/4/2012, Treasury, Cumulative Dividends, Interest, and Distributions Report, 1/10/2012.
                                                                                                                                                                                                                                                                                                                                           239
Table D.11                                                                                                                                                                                                                                                                                               240
PPIP Transaction Detail, as of 12/31/2011
                                                                                                                                                                                                          Investment After
                                       Seller                                                                Adjusted Investment3            Final Investment Amount7        Capital Repayment Details    Capital Repayment                 Distribution or Disposition

                                                                                                                                                                                                                                                                                           Interest/
                                                           Transaction Investment        Investment   Pricing                                                               Repayment        Repayment                                                                                 Distributions
Note Date          Institution          City         State Type        Description          Amount Mechanism Date                   Amount   Date                 Amount         Date           Amount           Amount       Description Date           Description      Proceeds Paid to Treasury
                   AG GECC PPIF
2,6   10/30/2009                        Wilmington   DE    Purchase                  $2,222,222,222      Par 3/22/2010   $2,542,675,000 7/16/2010          $2,486,550,000
                   Master Fund, L.P.
                                                                                                                                                                                                                                                                                       $163,043,489
                   AG GECC PPIF
1,6   10/30/2009                        Wilmington   DE    Purchase                  $1,111,111,111      Par 3/22/2010   $1,271,337,500 7/16/2010          $1,243,275,000
                   Master Fund, L.P.
                                                                       Debt
                   AllianceBernstein                                                                                                                                                                                      Debt Obligation
                                                                       Obligation w/
2,6   10/2/2009    Legacy Securities Wilmington      DE    Purchase                  $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010          $2,300,847,000    5/16/2011      $30,244,575 $2,270,602,425     w/ Contingent
                                                                       Contingent
                   Master Fund, L.P.                                                                                                                                                                                           Proceeds
                                                                       Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                                                                                                                       $196,533,460
                                                                                                                                                                             6/14/2011          $88,087 $2,270,514,339     w/ Contingent
                                                                                                                                                                                                                               Proceeds
                   AllianceBernstein
                                                                       Membership
1,6   10/2/2009    Legacy Securities Wilmington      DE    Purchase                  $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010          $1,150,423,500
                                                                       Interest
                   Master Fund, L.P.
                                                                       Debt
                   Blackrock PPIF,                                     Obligation w/
2,6   10/2/2009                         Wilmington   DE    Purchase                  $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010          $1,389,960,000
                   L.P.                                                Contingent
                                                                       Proceeds                                                                                                                                                                                                         $26,242,744
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I January 26, 2012




                   Blackrock PPIF,                                     Membership
1,6   10/2/2009                         Wilmington   DE    Purchase                  $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010            $694,980,000
                   L.P.                                                Interest
                   Invesco Legacy
                                                                       Membership
1,6   9/30/2009    Securities Master Wilmington      DE    Purchase                  $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010            $856,000,000
                                                                       Interest
                   Fund, L.P.
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             2/18/2010       $4,888,718 $1,157,031,282     w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             4/15/2010       $7,066,434 $1,149,964,848     w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             9/15/2010      $60,022,674 $1,089,942,174     w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                            11/15/2010     $132,928,628    $957,013,546    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                            12/14/2010      $31,689,230    $925,324,316    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             1/14/2010      $27,355,590    $897,968,726    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                       Debt                                                                                                                                                                                                            $511,266,339
                   Invesco Legacy                                                                                                                                                                                         Debt Obligation
                                                                       Obligation w/
2,6,8 9/30/2009    Securities Master Wilmington      DE    Purchase                  $2,222,222,222      Par 3/22/2010   $2,488,875,000 9/26/2011          $1,161,920,000    2/14/2011      $92,300,138    $805,668,588    w/ Contingent
                                                                       Contingent
                   Fund, L.P.                                                                                                                                                                                                  Proceeds
                                                                       Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             3/14/2011     $128,027,536    $677,641,052    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             4/14/2011     $155,409,286    $522,231,766    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             5/20/2011      $75,085,485    $447,146,281    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             6/14/2011      $18,259,513    $428,886,768    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             7/15/2011      $62,979,809    $365,906,960    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             8/12/2011      $20,762,532    $345,144,428    w/ Contingent
                                                                                                                                                                                                                               Proceeds

                                                                                                                                                                                                                                                                               Continued on next page.
PPIP Transaction Detail, as of 12/31/2011
                                                                                                                                                                                                                                         Investment After
                                          Seller                                                                               Adjusted Investment3              Final Investment Amount7              Capital Repayment Details         Capital Repayment                     Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                Interest/
                                                               Transaction Investment              Investment   Pricing                                                                              Repayment            Repayment                                                                                         Distributions
Note Date             Institution          City          State Type        Description                Amount Mechanism Date                           Amount     Date                     Amount          Date               Amount               Amount        Description Date            Description        Proceeds Paid to Treasury
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                     10/17/2011          $37,384,574       $307,759,854       w/ Contingent
                                                                                                                                                                                                                                                                  Proceeds
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                     12/14/2011            $7,103,787      $300,656,067       w/ Contingent
                                                                                                                                                                                                                                                                  Proceeds
                      Marathon Legacy
                                                                               Debt
                      Securities
                                                                               Obligation w/
2,6    11/25/2009     Public-Private       Wilmington    DE     Purchase                     $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010              $949,100,000
                                                                               Contingent
                      Investment
                                                                               Proceeds
                      Partnership, L.P.
                                                                                                                                                                                                                                                                                                                               $27,080,970
                      Marathon Legacy
                      Securities
                                                                               Membership
1,6    11/25/2009     Public-Private       Wilmington    DE     Purchase                      $1,111,111,111              Par 3/22/2010       $1,244,437,500 7/16/2010              $474,550,000
                                                                               Interest
                      Investment
                      Partnership, L.P.
                                                                               Debt
                                                                                                                                                                                                                                                             Debt Obligation
                      Oaktree PPIP                                             Obligation w/
2,6    12/18/2009                          Wilmington    DE     Purchase                     $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010            $2,321,568,200      7/15/2011          $79,000,000 $2,242,568,200           w/ Contingent
                      Fund, L.P.                                               Contingent
                                                                                                                                                                                                                                                                  Proceeds                                                     $45,903,411
                                                                               Proceeds
                      Oaktree PPIP                                             Membership
1,6    12/18/2009                          Wilmington    DE     Purchase                      $1,111,111,111              Par 3/22/2010       $1,244,437,500 7/16/2010            $1,160,784,100
                      Fund, L.P.                                               Interest
                      RLJ Western                                              Debt
                                                                                                                                                                                                                                                             Debt Obligation
                      Asset Public/                                            Obligation w/
2,6    11/4/2009                           Wilmington    DE     Purchase                     $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010            $1,241,156,516      5/13/2011          $13,531,530 $1,227,624,986           w/ Contingent
                      Private Master                                           Contingent
                                                                                                                                                                                                                                                                  Proceeds
                      Fund, L.P.                                               Proceeds
                                                                                                                                                                                                                                                                                                                             $121,100,101
                      RLJ Western
                      Asset Public/                                            Membership
1,6    11/4/2009                           Wilmington    DE     Purchase                      $1,111,111,111              Par 3/22/2010       $1,244,437,500 7/16/2010              $620,578,258
                      Private Master                                           Interest
                      Fund, L.P.
                      UST/TCW                                                  Debt
                                                                                                                                                                                                                                                             Debt Obligation
                      Senior Mortgage                                          Obligation w/
2,4,5 9/30/2009                            Wilmington    DE     Purchase                     $2,222,222,222               Par 1/4/2010          $200,000,000                        $200,000,000      1/11/2010          $34,000,000       $166,000,000       w/ Contingent                 N/A
                      Securities Fund,                                         Contingent
                                                                                                                                                                                                                                                                  Proceeds
                      L.P.                                                     Proceeds
                                                                                                                                                                                                                                                                            1/29/2010 Distribution             $502,302
                                                                                                                                                                                                                                                                 Contingent
                                                                                                                                                                                                      1/12/2010         $166,000,000                    —
                                                                                                                                                                                                                                                                  Proceeds 2/24/2010 Final                       $1,223
                                                                                                                                                                                                                                                                                      Distribution                                $342,176
                      UST/TCW
                      Senior Mortgage                                          Membership
1,4,5 9/30/2009                            Wilmington    DE     Purchase                      $1,111,111,111              Par 1/4/2010          $156,250,000                        $156,250,000                                                                               1/29/2010 Distribution      $20,091,872
                      Securities Fund,                                         Interest                                                                                                                                                                         Membership
                      L.P.                                                                                                                                                                            1/15/2010         $156,250,000                    —
                                                                                                                                                                                                                                                                   Interest
                                                                                                                                                                                                                                                                                            Final
                                                                                                                                                                                                                                                                               2/24/2010                        $48,922
                                                                                                                                                                                                                                                                                            Distribution
                      Wellington
                                                                               Debt
                      Management
                                                                               Obligation w/
2,6    10/1/2009      Legacy Securities Wilmington       DE     Purchase                     $2,222,222,222               Par 3/22/2010       $2,524,075,000 7/16/2010            $2,298,974,000
                                                                               Contingent
                      PPIF Master
                                                                               Proceeds
                      Fund, LP
                                                                                                                                                                                                                                                                                                                             $120,205,293
                      Wellington
                      Management
                                                                               Membership
1,6    10/1/2009      Legacy Securities Wilmington       DE     Purchase                      $1,111,111,111              Par 3/22/2010       $1,262,037,500 7/16/2010            $1,149,487,000
                                                                               Interest
                      PPIF Master
                      Fund, LP
                                                                                                                                                                                                     Total Capital                                                                          Total
                                                   Initial Investment Amount                $30,000,000,000                                      Final Investment Amount $21,856,403,574              Repayment      $1,340,378,124                                                         Proceeds         $20,644,319

Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
  The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
  The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
  Adjusted to show Treasury’s maximum obligations to a fund.
4
  On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
                                                                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I January 26, 2012




  Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
  Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for
   the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
   Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
   On 09/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/5/2012.
                                                                                                                                                                                                                                                                                                                                               241
Table D.12                                                                                                                                                                                                                                                                       242
HAMP TRANSACTION DETAIL, AS OF 12/31/2011
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                         TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                   Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                    6/12/2009    $284,590,000     $660,590,000    Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    9/30/2009    $121,910,000     $782,500,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009    $131,340,000     $913,840,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010   ($355,530,000)    $558,310,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010    $128,690,000     $687,000,000    Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                    9/30/2010       $4,000,000    $691,000,000
                                                                                                                                                                  cap
                                                                                                                    9/30/2010      $59,807,784    $750,807,784    Updated portfolio data from servicer
                                                                                                                   11/16/2010       ($700,000)    $750,107,784    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2010      $64,400,000    $814,507,784    Updated portfolio data from servicer
                                                                                                                     1/6/2011            ($639)   $814,507,145    Updated portfolio data from servicer
                                                        Financial
            Select Portfolio Servicing,                 Instrument for                                              1/13/2011      ($2,300,000)   $812,207,145    Transfer of cap due to servicing transfer
4/13/2009                                 Purchase                       $376,000,000           N/A                                                                                                           $26,715,645   $58,781,942    $50,232,512         $135,730,100
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I January 26, 2012




            Salt Lake City, UT                          Home Loan
                                                        Modifications                                               2/16/2011        $100,000     $812,307,145    Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011       $3,600,000    $815,907,145    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($735)   $815,906,410
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011       ($100,000)    $815,806,410    Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011        $400,000     $816,206,410    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011       ($100,000)    $816,106,410    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($6,805)   $816,099,605
                                                                                                                                                                  reallocation
                                                                                                                    8/16/2011       ($100,000)    $815,999,605    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011       ($200,000)    $815,799,605    Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011       ($100,000)    $815,699,605    Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011       ($100,000)    $815,599,605    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                         TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                    Lenders/                           Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                      6/12/2009   ($991,580,000)    $1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      9/30/2009   $1,010,180,000    $2,089,600,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009   ($105,410,000)    $1,984,190,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      3/26/2010   ($199,300,000)    $1,784,890,000
                                                                                                                                                                     2MP initial cap
                                                                                                                                                                     Transfer of cap to Service One, Inc. due
                                                                                                                      4/19/2010       ($230,000)    $1,784,660,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Transfer of cap to Specialized Loan
                                                                                                                      5/14/2010      ($3,000,000)   $1,781,660,000
                                                                                                                                                                     Servicing, LLC due to servicing transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due
                                                                                                                      6/16/2010     ($12,280,000)   $1,769,380,000
                                                                                                                                                                     to servicing transfer
                                                                                                                      7/14/2010   ($757,680,000)    $1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to multiple servicers due
                                                                                                                      7/16/2010      ($7,110,000)   $1,004,590,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due
                                                                                                                      8/13/2010      ($6,300,000)    $998,290,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due
                                                                                                                      9/15/2010      ($8,300,000)    $989,990,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                      9/30/2010      $32,400,000    $1,022,390,000
                                                          Financial                                                                                                  cap
            CitiMortgage, Inc., O’Fallon,                 Instrument for                                              9/30/2010    $101,287,484     $1,123,677,484   Updated portfolio data from servicer
4/13/2009                                   Purchase                       $2,071,000,000         N/A                                                                                                            $27,855,388   $83,187,045    $59,781,905         $170,824,337
            MO                                            Home Loan
                                                          Modifications                                              10/15/2010      ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                                     11/16/2010      ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                                                                                       1/6/2011            ($981)   $1,119,076,503   Updated portfolio data from servicer
                                                                                                                      1/13/2011     ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer
                                                                                                                      2/16/2011      ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011     ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011          ($1,031)   $1,073,475,472
                                                                                                                                                                     reallocation
                                                                                                                      4/13/2011         $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                                      5/13/2011      ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011       ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($9,131)   $1,065,966,341
                                                                                                                                                                     reallocation
                                                                                                                      7/14/2011     ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                                      8/16/2011      ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                                      9/15/2011         $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                                     10/14/2011      $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                                     11/16/2011      ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011      ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                    243
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)                                                                                                                                                                                244
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                           TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                       Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors       Servicers            Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                         Incentives      Incentives      Incentives           Payments
                                                                                                                  6/17/2009    ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009       $65,070,000    $2,475,080,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $1,213,310,000    $3,688,390,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                  Transfer of cap (from Wachovia) due
                                                                                                                  2/17/2010    $2,050,236,344    $5,738,626,344
                                                                                                                                                                  to merger
                                                                                                                                                                  Transfer of cap (from Wachovia) due
                                                                                                                  3/12/2010           $54,767    $5,738,681,110
                                                                                                                                                                  to merger
                                                                                                                  3/19/2010     $668,108,890     $6,406,790,000   Initial 2MP cap
                                                                                                                  3/26/2010     $683,130,000     $7,089,920,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010    ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010     $344,000,000     $5,108,351,172
                                                                                                                                                                  and initial RD-HAMP
                                                                                                                                                                  Transfer of cap (from Wachovia) due
                                                                                                                  12/3/2010        $8,413,225    $5,116,764,397
                                                                                                                                                                  to merger
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I January 26, 2012




                                                      Financial
            Wells Fargo Bank, NA, Des                 Instrument for                                             12/15/2010       $22,200,000    $5,138,964,397   Updated portfolio data from servicer
4/13/2009                               Purchase                       $2,873,000,000         N/A                                                                                                              $57,171,935   $144,539,526    $120,371,327        $322,082,789
            Moines, IA                                Home Loan
                                                      Modifications                                                1/6/2011           ($6,312)   $5,138,958,085   Updated portfolio data from servicer
                                                                                                                  1/13/2011        ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011        ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011           ($7,171)   $5,138,750,914
                                                                                                                                                                  reallocation
                                                                                                                  4/13/2011       ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011          $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011        ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($63,856)   $5,128,387,058
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011       ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011       ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011        $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011          $200,000    $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011        ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011        ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                              (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                          TARP Incentive Payments
                                                                      Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                      Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution        Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                         Incentives     Incentives     Incentives            Payments
                                                                                                                 6/12/2009     $384,650,000     $1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009    $2,537,240,000    $3,554,890,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($1,679,520,000)   $1,875,370,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010     $190,180,000     $2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Wilshire Credit
                                                                                                                 5/14/2010        $1,880,000    $2,067,430,000
                                                                                                                                                                 Corporation due to servicing transfer
                                                                                                                 7/14/2010    ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer
                                                                                                                 8/13/2010       ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $119,200,000     $1,301,400,000
                                                                                                                                                                 and initial 2MP cap
                                                                                                                 9/30/2010     $216,998,139     $1,518,398,139   Updated portfolio data from servicer
                                                     Financial                                                  12/15/2010        ($500,000)    $1,517,898,139   Updated portfolio data from servicer
            GMAC Mortgage, Inc., Ft.                 Instrument for
4/13/2009                              Purchase                       $633,000,000           N/A                  1/6/2011           ($1,734)   $1,517,896,405   Updated portfolio data from servicer         $19,982,116   $61,326,062    $44,252,768         $125,560,947
            Washington, PA                           Home Loan
                                                     Modifications                                               3/16/2011        ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($2,024)   $1,517,794,381
                                                                                                                                                                 reallocation
                                                                                                                 4/13/2011        ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011     ($17,900,000)    $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($18,457)   $1,499,075,924
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011        ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011          $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011        ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                 245
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                              (CONTINUED)                                                                                                                                                                                246
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                           TARP Incentive Payments
                                                                      Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                       Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution        Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                          Incentives     Incentives     Incentives            Payments
                                                                                                                 6/17/2009     $225,040,000      $632,040,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009     $254,380,000      $886,420,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010     ($57,720,000)    $1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap to Ocwen Financial
                                                                                                                 6/16/2010    ($156,050,000)    $1,028,360,000
                                                                                                                                                                 Corporation, Inc. due to servicing transfer
                                                                                                                 7/14/2010    ($513,660,000)     $514,700,000    Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap due to multiple servicing
                                                                                                                 7/16/2010     ($22,980,000)     $491,720,000
                                                                                                                                                                 transfers
                                                                                                                 9/15/2010        $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                 9/30/2010        $9,800,000     $503,320,000
                                                                                                                                                                 cap
                                                     Financial
                                                                                                                 9/30/2010     $116,222,668      $619,542,668    Updated portfolio data from servicer
            Saxon Mortgage Services,                 Instrument for
4/13/2009                              Purchase                       $407,000,000           N/A                                                                                                               $18,360,683   $34,451,144    $37,707,306           $90,519,133
            Inc., Irving, TX                         Home Loan                                                  10/15/2010          $100,000     $619,642,668    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I January 26, 2012




                                                                                                                12/15/2010        $8,900,000     $628,542,668    Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($556)    $628,542,112    Updated portfolio data from servicer
                                                                                                                 1/13/2011        $2,300,000     $630,842,112    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011          $700,000     $631,542,112    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($654)    $631,541,458
                                                                                                                                                                 reallocation
                                                                                                                 4/13/2011        $2,100,000     $633,641,458    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011           ($6,144)    $633,635,314
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011          $200,000     $633,835,314    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        ($100,000)     $633,735,314    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        ($700,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                12/15/2011       $17,500,000     $650,535,314    Transfer of cap due to servicing transfer
                                                     Financial
            Chase Home Finance, LLC,                 Instrument for
4/13/2009                              Purchase                       $3,552,000,000         N/A         2       7/31/2009   ($3,552,000,000)              $—    Termination of SPA                                   $—             $—             $—                     $—
            Iselin, NJ                               Home Loan
                                                     Modifications

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                          TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                     Lenders/                           Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s      Investors      Servicers             Incentive
Date         Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                         Incentives     Incentives     Incentives            Payments
                                                                                                                     6/12/2009   ($105,620,000)     $553,380,000    Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $102,580,000      $655,960,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $277,640,000      $933,600,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010      $46,860,000     $980,460,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from Saxon Mortgage
                                                                                                                     6/16/2010    $156,050,000     $1,136,510,000
                                                                                                                                                                    Services, Inc. due to servicing transfer
                                                                                                                     7/14/2010   ($191,610,000)     $944,900,000    Updated portfolio data from servicer

                                                         Financial                                                                                                  Transfer of cap from Saxon Mortgage
             Ocwen Financial                                                                                         7/16/2010      $23,710,000     $968,610,000
                                                         Instrument for                                                                                             Services, Inc. due to servicing transfer
4/16/2009    Corporation, Inc., West       Purchase                       $659,000,000           N/A                                                                                                             $24,492,239   $65,890,612    $51,477,930         $141,860,780
                                                         Home Loan
             Palm Beach, FL                                                                                          9/15/2010        $100,000      $968,710,000    Initial FHA-HAMP cap
                                                         Modifications
                                                                                                                     9/30/2010       $3,742,740     $972,452,740    Updated portfolio data from servicer
                                                                                                                    10/15/2010    $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                      1/6/2011          ($1,020)   $1,143,251,720   Updated portfolio data from servicer
                                                                                                                     2/16/2011        $900,000     $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011          ($1,114)   $1,144,150,606
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011        ($10,044)    $1,144,140,562
                                                                                                                                                                    reallocation
                                                                                                                    10/14/2011       ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                                     6/12/2009       $5,540,000     $804,440,000    Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $162,680,000      $967,120,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $665,510,000     $1,632,630,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     1/26/2010    $800,390,000     $2,433,020,000   Initial 2MP cap
                                                                                                                     3/26/2010   ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010   ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer
4/17/2009                                                Financial                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
as amended   Bank of America, N.A., Simi                 Instrument for                                              9/30/2010      $95,300,000    $1,332,200,000
                                           Purchase                       $798,900,000           N/A                                                                and initial RD-HAMP                           $4,097,413   $17,685,428     $8,875,439           $30,658,281
on           Valley, CA                                  Home Loan
1/26/2010                                                Modifications                                               9/30/2010    $222,941,084     $1,555,141,084   Updated portfolio data from servicer
                                                                                                                      1/6/2011          ($2,199)   $1,555,138,885   Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011          ($2,548)   $1,555,136,337
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011        ($23,337)    $1,555,113,000
                                                                                                                                                                    reallocation
                                                                                                                     8/16/2011       ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011   ($120,700,000)    $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                    247
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)                                                                                                                                                                                248
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                           TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                       Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors      Servicers             Incentive
Date         Name of Institution        Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                         Incentives      Incentives     Incentives            Payments
                                                                                                                  6/12/2009    $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009    ($717,420,000)    $4,465,420,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $2,290,780,000    $6,756,200,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                  1/26/2010     $450,100,000     $7,206,300,000   Initial 2MP cap
                                                                                                                  3/26/2010     $905,010,000     $8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                  4/19/2010       $10,280,000    $8,121,590,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                  6/16/2010     $286,510,000     $8,408,100,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                  7/14/2010   ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010     $105,500,000     $6,726,300,000
                                                                                                                                                                  and initial RD-HAMP
                                                                                                                  9/30/2010    ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer
                                                                                                                 12/15/2010     $236,000,000     $6,347,772,638   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I January 26, 2012




                                                                                                                   1/6/2011           ($8,012)   $6,347,764,626   Updated portfolio data from servicer
4/17/2009                                             Financial
             Countrywide Home                                                                                     2/16/2011        $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
as amended                                            Instrument for
             Loans Servicing LP, Simi   Purchase                       $1,864,000,000         N/A                                                                                                              $56,179,923   $172,433,878    $73,001,192         $301,614,993
on                                                    Home Loan                                                   3/16/2011          $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
             Valley, CA
1/26/2010                                             Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011           ($9,190)   $6,349,655,436
                                                                                                                                                                  reallocation
                                                                                                                  4/13/2011          $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011          $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($82,347)   $6,349,073,089
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011        ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011       ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011       ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011     $120,600,000     $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                  Transfer of cap from Home Loan
                                                                                                                                                                  Services, Inc. and Wilshire Credit
                                                                                                                 10/19/2011     $317,956,289     $6,782,629,378
                                                                                                                                                                  Corporation due to merger.


                                                                                                                 11/16/2011          $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011     ($17,600,000)    $6,765,829,378   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution            Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                     6/12/2009    $128,300,000     $447,300,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009      $46,730,000    $494,030,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $145,820,000     $639,850,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010     ($17,440,000)   $622,410,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010     ($73,010,000)   $549,400,000    Updated portfolio data from servicer
                                                                                                                     9/30/2010       $6,700,000    $556,100,000    Initial FHA-2LP cap

                                                         Financial                                                   9/30/2010     ($77,126,410)   $478,973,590    Updated portfolio data from servicer
            Home Loan Services, Inc.,                    Instrument for
4/20/2009                                  Purchase                       $319,000,000           N/A         13     12/15/2010   ($314,900,000)    $164,073,590    Updated portfolio data from servicer         $169,858    $2,440,768     $3,698,607            $6,309,233
            Pittsburgh, PA                               Home Loan
                                                         Modifications                                                1/6/2011            ($233)   $164,073,357    Updated portfolio data from servicer
                                                                                                                     2/16/2011      ($1,900,000)   $162,173,357    Transfer of cap due to servicing transfer
                                                                                                                     3/16/2011       ($400,000)    $161,773,357    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($278)   $161,773,079
                                                                                                                                                                   reallocation
                                                                                                                     5/13/2011       ($400,000)    $161,373,079    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($2,625)   $161,370,454
                                                                                                                                                                   reallocation
                                                                                                                    10/19/2011   ($155,061,221)      $6,309,233    Termination of SPA
                                                                                                                     6/12/2009      $87,130,000    $453,130,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009   ($249,670,000)    $203,460,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $119,700,000     $323,160,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010      $52,270,000    $375,430,000    Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap to Countrywide Home
                                                                                                                     4/19/2010     ($10,280,000)   $365,150,000
                                                                                                                                                                   Loans due to servicing transfer
                                                                                                                                                                   Transfer of cap to GMAC Mortgage, Inc.
                                                                                                                     5/14/2010      ($1,880,000)   $363,270,000
                                                                                                                                                                   due to servicing transfer

                                                         Financial                                                                                                 Transfer of cap to Countrywide Home
                                                                                                                     6/16/2010   ($286,510,000)     $76,760,000
            Wilshire Credit Corporation,                 Instrument for                                                                                            Loans due to servicing transfer
4/20/2009                                  Purchase                       $366,000,000           N/A         13                                                                                                      $—      $490,394      $1,167,000            $1,657,394
            Beaverton, OR                                Home Loan
                                                                                                                     7/14/2010      $19,540,000     $96,300,000    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Transfer of cap to Green Tree Servicing
                                                                                                                     7/16/2010       ($210,000)     $96,090,000
                                                                                                                                                                   LLC due to servicing transfer
                                                                                                                     8/13/2010       ($100,000)     $95,990,000    Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010      $68,565,782    $164,555,782    Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($247)   $164,555,535    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($294)   $164,555,241
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($2,779)   $164,552,462
                                                                                                                                                                   reallocation
                                                                                                                    10/19/2011   ($162,895,068)      $1,657,394    Termination of SPA

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                249
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)                                                                                                                                                                           250
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                        TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                  Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives     Incentives     Incentives            Payments
                                                                                                                  6/17/2009     ($64,990,000)    $91,010,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $130,780,000     $221,790,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009   ($116,750,000)    $105,040,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010      $13,080,000    $118,120,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($24,220,000)    $93,900,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Wilshire Credit
                                                                                                                  7/16/2010         $210,000     $94,110,000
                                                                                                                                                                Corporation due to servicing transfer
                                                                                                                  8/13/2010       $2,200,000     $96,310,000    Transfer of cap due to servicing transfer
                                                                                                                  9/10/2010      $34,600,000    $130,910,000    Initial 2MP cap
                                                                                                                  9/30/2010       $5,600,000    $136,510,000    Initial FHA-2LP cap and FHA-HAMP
                                                      Financial
            Green Tree Servicing LLC,                 Instrument for                                              9/30/2010      $10,185,090    $146,695,090    Updated portfolio data from servicer
4/24/2009                               Purchase                       $156,000,000           N/A                                                                                                            $526,174     $1,515,593     $1,607,119            $3,648,885
            Saint Paul, MN                            Home Loan
                                                      Modifications                                              10/15/2010         $400,000    $147,095,090    Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011            ($213)   $147,094,877    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 26, 2012




                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($250)   $147,094,627
                                                                                                                                                                reallocation
                                                                                                                  5/13/2011       $1,200,000    $148,294,627    Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011         $100,000    $148,394,627    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($2,302)   $148,392,325
                                                                                                                                                                reallocation
                                                                                                                  7/14/2011       $1,900,000    $150,292,325    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011         $200,000    $150,492,325    Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011         $200,000    $150,692,325    Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011         $400,000    $151,092,325    Transfer of cap due to servicing transfer
                                                                                                                  6/17/2009     ($63,980,000)   $131,020,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009      $90,990,000    $222,010,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $57,980,000    $279,990,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010      $74,520,000    $354,510,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($75,610,000)   $278,900,000    Updated portfolio data from servicer
                                                                                                                  8/13/2010       $1,100,000    $280,000,000    Transfer of cap due to servicing transfer

                                                      Financial                                                   9/30/2010       $3,763,685    $283,763,685    Updated portfolio data from servicer
            Carrington Mortgage
                                                      Instrument for
4/27/2009   Services, LLC, Santa        Purchase                       $195,000,000           N/A                12/15/2010         $300,000    $284,063,685    Updated portfolio data from servicer        $3,487,312   $11,258,653     $8,220,591           $22,966,555
                                                      Home Loan
            Ana, CA
                                                      Modifications                                                1/6/2011            ($325)   $284,063,360    Updated portfolio data from servicer
                                                                                                                  1/13/2011       $2,400,000    $286,463,360    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($384)   $286,462,976
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($3,592)   $286,459,384
                                                                                                                                                                reallocation
                                                                                                                  8/16/2011       $1,800,000    $288,259,384    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011         $100,000    $288,359,384    Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       $1,000,000    $289,359,384    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                         TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                   Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                   6/17/2009   ($338,450,000)    $459,550,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009     ($11,860,000)   $447,690,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $21,330,000    $469,020,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010       $9,150,000    $478,170,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($76,870,000)   $401,300,000    Updated portfolio data from servicer
                                                       Financial
            Aurora Loan Services, LLC,                 Instrument for                                               9/1/2010         $400,000    $401,700,000    Initial FHA-HAMP cap
5/1/2009                                 Purchase                       $798,000,000           N/A                                                                                                            $9,749,219   $27,858,592    $21,117,210           $58,725,021
            Littleton, CO                              Home Loan                                                   9/30/2010      ($8,454,269)   $393,245,731    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    1/6/2011            ($342)   $393,245,389    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($374)   $393,245,015
                                                                                                                                                                 reallocation
                                                                                                                   5/13/2011      $18,000,000    $411,245,015    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($3,273)   $411,241,742
                                                                                                                                                                 reallocation
                                                                                                                  10/14/2011       ($200,000)    $411,041,742    Transfer of cap due to servicing transfer
                                                                                                                   6/12/2009      $16,140,000    $117,140,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009    $134,560,000     $251,700,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $80,250,000    $331,950,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010      $67,250,000    $399,200,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($85,900,000)   $313,300,000    Updated portfolio data from servicer
                                                                                                                   8/13/2010         $100,000    $313,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                   9/30/2010       $2,900,000    $316,300,000
                                                                                                                                                                 initial RD-HAMP, and initial 2MP cap
                                                       Financial                                                   9/30/2010      $33,801,486    $350,101,486    Updated portfolio data from servicer
            Nationstar Mortgage LLC,                   Instrument for
5/28/2009                                Purchase                       $101,000,000           N/A                                                                                                            $7,623,964   $17,886,159    $15,599,543           $41,109,666
            Lewisville, TX                             Home Loan                                                  11/16/2010         $700,000    $350,801,486    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                  12/15/2010       $1,700,000    $352,501,486    Updated portfolio data from servicer
                                                                                                                    1/6/2011            ($363)   $352,501,123    Updated portfolio data from servicer
                                                                                                                   2/16/2011         $900,000    $353,401,123    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011      $29,800,000    $383,201,123    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($428)   $383,200,695
                                                                                                                                                                 reallocation
                                                                                                                   5/26/2011      $20,077,503    $403,278,198    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($4,248)   $403,273,950
                                                                                                                                                                 reallocation
                                                                                                                  11/16/2011         $100,000    $403,373,950    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                251
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)                                                                                                                                                                           252
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                        TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                 Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives   Incentives      Incentives            Payments
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      9/30/2009      ($1,860,000)    $17,540,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     12/30/2009      $27,920,000     $45,460,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                      3/26/2010      ($1,390,000)    $44,070,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($13,870,000)    $30,200,000    Updated portfolio data from servicer
                                                                                                                                                                    Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                      9/30/2010         $400,000     $30,600,000
                                                                                                                                                                    and initial 2MP cap
                                                          Financial
            Residential Credit Solutions,                 Instrument for                                              9/30/2010         $586,954     $31,186,954    Updated portfolio data from servicer
6/12/2009                                   Purchase                       $19,400,000            N/A                                                                                                             $391,737    $1,184,812     $1,038,357            $2,614,906
            Forth Worth, TX                               Home Loan
                                                          Modifications                                                1/6/2011             ($34)    $31,186,920    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($37)    $31,186,883
                                                                                                                                                                    reallocation
                                                                                                                      4/13/2011         $100,000     $31,286,883    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($329)    $31,286,554
                                                                                                                                                                    reallocation
                                                                                                                      9/15/2011      ($1,900,000)    $29,386,554    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I January 26, 2012




                                                                                                                     11/16/2011       $2,800,000     $32,186,554    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      9/30/2009      $13,070,000     $29,590,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     12/30/2009    $145,510,000     $175,100,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                      3/26/2010   ($116,950,000)     $58,150,000    Updated portfolio data from servicer
                                                          Financial
            CCO Mortgage, Glen                            Instrument for                                              7/14/2010     ($23,350,000)    $34,800,000    Updated portfolio data from servicer
6/17/2009                                   Purchase                       $16,520,000            N/A                                                                                                             $804,259    $2,208,558     $1,736,649            $4,749,467
            Allen, VA                                     Home Loan                                                   9/30/2010       $7,846,346     $42,646,346    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                       1/6/2011             ($46)    $42,646,300    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($55)    $42,646,245
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($452)    $42,645,793
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      9/30/2009     ($11,300,000)    $45,700,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     12/30/2009     ($42,210,000)     $3,490,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                      3/26/2010      $65,640,000     $69,130,000    Updated portfolio data from servicer
                                                                                                                       4/9/2010     ($14,470,000)    $54,660,000    Updated portfolio data from servicer
                                                          Financial
            RG Mortgage Corporation,                      Instrument for                                              7/14/2010      ($8,860,000)    $45,800,000    Updated portfolio data from servicer
6/17/2009                                   Purchase                       $57,000,000            N/A                                                                                                             $164,853     $227,582        $401,334              $793,769
            San Juan, PR                                  Home Loan                                                   9/30/2010      ($4,459,154)    $41,340,846    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                     12/15/2010      ($4,300,000)    $37,040,846    Updated portfolio data from servicer
                                                                                                                       1/6/2011             ($51)    $37,040,795    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($65)    $37,040,730
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($616)    $37,040,114
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated portfolio data from servicer &
                                                          Financial                                                  12/30/2009       $2,020,000      $2,790,000
                                                                                                                                                                    HAFA initial cap
            First Federal Savings and                     Instrument for
6/19/2009                                   Purchase                       $770,000               N/A                                                                                                                  $—           $—              $—                     $—
            Loan, Port Angeles, WA                        Home Loan                                                   3/26/2010      $11,370,000     $14,160,000    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                      5/26/2010     ($14,160,000)             $—    Termination of SPA

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                              (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                       TARP Incentive Payments
                                                                      Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution        Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 9/30/2009         $330,000        $870,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009      $16,490,000     $17,360,000
                                                                                                                                                               HAFA initial cap
                                                                                                                 3/26/2010     ($14,260,000)     $3,100,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($1,800,000)     $1,300,000    Updated portfolio data from servicer
                                                     Financial
            Wescom Central Credit                    Instrument for                                              7/30/2010       $1,500,000      $2,800,000    Updated portfolio data from servicer
6/19/2009                              Purchase                       $540,000               N/A         12                                                                                                  $93,546    $374,719         $210,613              $678,877
            Union, Anaheim, CA                       Home Loan
                                                     Modifications                                               9/30/2010       $1,551,668      $4,351,668    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($2)     $4,351,666    Updated portfolio data from servicer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011              ($2)     $4,351,664
                                                                                                                                                               reallocation
                                                                                                                 5/13/2011      ($1,800,000)     $2,551,664    Transfer of cap due to servicing transfer
                                                                                                                  6/3/2011      ($1,872,787)       $678,877    Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 9/30/2009         ($10,000)        $20,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009         $590,000        $610,000
                                                     Financial                                                                                                 HAFA initial cap
            Citizens First Wholesale
                                                     Instrument for
6/26/2009   Mortgage Company, The      Purchase                       $30,000                N/A                 3/26/2010       ($580,000)         $30,000    Updated portfolio data from servicer              $—           $—              $—                     $—
                                                     Home Loan
            Villages, FL
                                                     Modifications                                               7/14/2010          $70,000        $100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                 2/17/2011       ($145,056)              $—    Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009       $2,180,000      $2,250,000
                                                                                                                                                               HAFA initial cap
                                                                                                                 3/26/2010       ($720,000)      $1,530,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($430,000)      $1,100,000    Updated portfolio data from servicer
                                                     Financial
            Technology Credit Union,                 Instrument for                                              9/30/2010          $60,445      $1,160,445    Updated portfolio data from servicer
6/26/2009                              Purchase                       $70,000                N/A                                                                                                             $14,250     $72,745          $32,417              $119,412
            San Jose, CA                             Home Loan
                                                     Modifications                                                1/6/2011              ($1)     $1,160,444    Updated portfolio data from servicer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011              ($1)     $1,160,443
                                                                                                                                                               reallocation
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011             ($12)     $1,160,431
                                                                                                                                                               reallocation

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                            253
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                             (CONTINUED)                                                                                                                                                                             254
              Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                        TARP Incentive Payments
                                                                     Cap of Investment
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                   Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution       Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                        Incentives   Incentives      Incentives            Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                9/30/2009     $315,170,000      $610,150,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                               12/30/2009       $90,280,000     $700,430,000
                                                                                                                                                                HAFA initial cap
                                                                                                                3/26/2010     ($18,690,000)     $681,740,000    Updated portfolio data from servicer
                                                                                                                7/14/2010    ($272,640,000)     $409,100,000    Updated portfolio data from servicer
                                                                                                                                                                Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                9/30/2010       $80,600,000     $489,700,000
                                                                                                                                                                and initial 2MP cap
                                                                                                                9/30/2010       $71,230,004     $560,930,004    Updated portfolio data from servicer
                                                                                                                 1/6/2011             ($828)    $560,929,176    Updated portfolio data from servicer
                                                    Financial                                                   2/16/2011          $200,000     $561,129,176    Transfer of cap due to servicing transfer
            National City Bank,                     Instrument for
6/26/2009                             Purchase                       $294,980,000           N/A                                                                                                               $857,240    $2,985,680     $2,068,092            $5,911,012
            Miamisburg, OH                          Home Loan                                                   3/16/2011        ($100,000)     $561,029,176    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($981)    $561,028,195
                                                                                                                                                                reallocation
                                                                                                                4/13/2011       ($2,300,000)    $558,728,195    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011        ($200,000)     $558,528,195    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 26, 2012




                                                                                                                6/16/2011        ($200,000)     $558,328,195    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                6/29/2011           ($9,197)    $558,318,998
                                                                                                                                                                reallocation
                                                                                                                8/16/2011               $—      $558,318,998    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011          $300,000     $558,618,998    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011        ($300,000)     $558,318,998    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                9/30/2009     $723,880,000     $1,357,890,000
                                                                                                                                                                HPDP initial cap

                                                    Financial                                                                                                   Updated portfolio data from servicer &
                                                                                                               12/30/2009     $692,640,000     $2,050,530,000
            Wachovia Mortgage, FSB,                 Instrument for                                                                                              HAFA initial cap
7/1/2009                              Purchase                       $634,010,000           N/A         3                                                                                                          $—       $76,890        $162,000              $238,890
            Des Moines, IA                          Home Loan                                                                                                   Transfer of cap (to Wells Fargo Bank) due
                                                    Modifications                                               2/17/2010   ($2,050,236,344)        $293,656
                                                                                                                                                                to merger
                                                                                                                                                                Transfer of cap (to Wells Fargo Bank) due
                                                                                                                3/12/2010          ($54,767)        $238,890
                                                                                                                                                                to merger
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                9/30/2009       $23,850,000      $68,110,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                               12/30/2009       $43,590,000     $111,700,000
                                                                                                                                                                HAFA initial cap
                                                                                                                3/26/2010       $34,540,000     $146,240,000    Updated portfolio data from servicer
                                                                                                                 5/7/2010        $1,010,000     $147,250,000    Initial 2MP cap
                                                                                                                7/14/2010     ($34,250,000)     $113,000,000    Updated portfolio data from servicer
                                                                                                                9/30/2010          $600,000     $113,600,000    Initial FHA-2LP cap
                                                    Financial
            Bayview Loan Servicing,                 Instrument for                                              9/30/2010     ($15,252,303)      $98,347,697    Updated portfolio data from servicer
7/1/2009                              Purchase                       $44,260,000            N/A                                                                                                              $2,781,502   $6,760,558     $5,702,611           $15,244,671
            LLC, Coral Gables, FL                   Home Loan                                                    1/6/2011              ($70)     $98,347,627    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                3/30/2011              ($86)     $98,347,541
                                                                                                                                                                reallocation
                                                                                                                4/13/2011          $400,000      $98,747,541    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011          $100,000      $98,847,541    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($771)     $98,846,770
                                                                                                                                                                reallocation
                                                                                                                9/15/2011          $600,000      $99,446,770    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011     ($18,900,000)      $80,546,770    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                        TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                 Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution            Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives   Incentives      Incentives            Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009         $150,000        $250,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009         $130,000        $380,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010          $50,000        $430,000    Updated portfolio data from servicer
                                                         Financial
            Lake National Bank,                          Instrument for                                              7/14/2010         ($30,000)       $400,000    Updated portfolio data from servicer
7/10/2009                                  Purchase                       $100,000               N/A                                                                                                               $2,000       $2,988          $3,000                $7,988
            Mentor, OH                                   Home Loan                                                   9/30/2010          $35,167        $435,167    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                      1/6/2011              ($1)       $435,166    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($1)       $435,165
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($6)       $435,159
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009         ($10,000)       $860,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009         $250,000      $1,110,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010         ($10,000)     $1,100,000    Updated portfolio data from servicer
                                                         Financial
            IBM Southeast Employees’                                                                                 7/14/2010       ($400,000)        $700,000    Updated portfolio data from servicer
                                                         Instrument for
7/10/2009   Federal Credit Union,          Purchase                       $870,000               N/A                                                                                                               $6,917      $17,643         $14,000               $38,559
                                                         Home Loan                                                   9/30/2010         $170,334        $870,334    Updated portfolio data from servicer
            Delray Beach, FL
                                                         Modifications
                                                                                                                      1/6/2011              ($1)       $870,333    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($1)       $870,332
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($12)       $870,320
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009      $18,530,000     $42,010,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009      $24,510,000     $66,520,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010      $18,360,000     $84,880,000    Updated portfolio data from servicer

                                                         Financial                                                   7/14/2010     ($22,580,000)    $62,300,000    Updated portfolio data from servicer
            MorEquity, Inc., Evansville,                 Instrument for
7/17/2009                                  Purchase                       $23,480,000            N/A         11      9/30/2010      ($8,194,261)    $54,105,739    Updated portfolio data from servicer          $345,841    $2,305,003     $1,977,321            $4,628,165
            IN                                           Home Loan
                                                         Modifications                                                1/6/2011             ($37)    $54,105,702    Updated portfolio data from servicer
                                                                                                                     3/16/2011     ($29,400,000)    $24,705,702    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($34)    $24,705,668
                                                                                                                                                                   reallocation
                                                                                                                                                                   Termination of SPA
                                                                                                                     5/26/2011     ($20,077,503)     $4,628,165
                                                                                                                                                                   (remaining cap equals distribution amount)

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                 255
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)                                                                                                                                                                          256
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($36,240,000)    $18,230,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009      $19,280,000     $37,510,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010       $2,470,000     $39,980,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($17,180,000)    $22,800,000    Updated portfolio data from servicer

                                                        Financial                                                   9/30/2010      $35,500,000     $58,300,000    Initial FHA-2LP cap and initial 2MP cap
            PNC Bank, National                          Instrument for
7/17/2009                                 Purchase                       $54,470,000            N/A                 9/30/2010      $23,076,191     $81,376,191    Updated portfolio data from servicer          $12,833    $111,530         $151,500              $275,863
            Association, Pittsburgh, PA                 Home Loan
                                                        Modifications                                                1/6/2011            ($123)    $81,376,068    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($147)    $81,375,921
                                                                                                                                                                  reallocation
                                                                                                                    5/13/2011       ($100,000)     $81,275,921    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($1,382)    $81,274,539
                                                                                                                                                                  reallocation
                                                                                                                   10/14/2011       ($300,000)     $80,974,539    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    9/30/2009         ($90,000)        $80,000
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I January 26, 2012




                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009          $50,000        $130,000
                                                        Financial                                                                                                 HAFA initial cap
            Farmers State Bank,                         Instrument for
7/17/2009                                 Purchase                       $170,000               N/A                 3/26/2010         $100,000        $230,000    Updated portfolio data from servicer              $—           $—              $—                     $—
            West Salem, OH                              Home Loan
                                                        Modifications                                               7/14/2010       ($130,000)        $100,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                    5/20/2011       ($145,056)              $—    Termination of SPA
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    9/30/2009         $890,000      $2,300,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $1,260,000      $3,560,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010         ($20,000)     $3,540,000    Updated portfolio data from servicer

                                                        Financial                                                   7/14/2010       ($240,000)      $3,300,000    Updated portfolio data from servicer
                                                        Instrument for
7/17/2009   ShoreBank, Chicago, IL        Purchase                       $1,410,000             N/A                 9/30/2010         $471,446      $3,771,446    Updated portfolio data from servicer          $49,915    $153,906         $143,165              $346,986
                                                        Home Loan
                                                        Modifications                                                1/6/2011              ($3)     $3,771,443    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($4)     $3,771,439
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011      ($1,100,000)     $2,671,439    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($38)     $2,671,401
                                                                                                                                                                  reallocation

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                         TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                    Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($53,670,000)   $1,218,820,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009    $250,450,000     $1,469,270,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010    $124,820,000     $1,594,090,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010   ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010       $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                                   10/15/2010         $300,000    $1,306,090,508   Transfer of cap due to servicing transfer

                                                        Financial                                                  11/16/2010       ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
            American Home Mortgage                      Instrument for
7/22/2009                                 Purchase                       $1,272,490,000         N/A                  1/6/2011          ($1,173)   $1,305,989,335   Updated portfolio data from servicer        $23,705,701   $76,956,781    $56,302,438         $156,964,919
            Servicing, Inc, Coppell, TX                 Home Loan
                                                        Modifications                                               2/16/2011       ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011          ($1,400)   $1,305,487,935
                                                                                                                                                                   reallocation
                                                                                                                    4/13/2011       $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011         ($12,883)   $1,308,575,052
                                                                                                                                                                   reallocation
                                                                                                                    9/15/2011      ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011       ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011      ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009       $1,780,000       $5,990,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $2,840,000       $8,830,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010       $2,800,000      $11,630,000    Updated portfolio data from servicer
                                                        Financial
            Mortgage Center, LLC,                       Instrument for                                              7/14/2010      ($5,730,000)      $5,900,000    Updated portfolio data from servicer
7/22/2009                                 Purchase                       $4,210,000             N/A                                                                                                               $43,701      $104,092        $120,583              $268,376
            Southfield, MI                              Home Loan                                                   9/30/2010       $2,658,280       $8,558,280    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                     1/6/2011             ($12)      $8,558,268    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($14)      $8,558,254
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($129)      $8,558,125
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009       ($490,000)         $370,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $6,750,000       $7,120,000
                                                                                                                                                                   HAFA initial cap

                                                        Financial                                                   3/26/2010      ($6,340,000)        $780,000    Updated portfolio data from servicer
            Mission Federal Credit                      Instrument for
7/22/2009                                 Purchase                       $860,000               N/A                 7/14/2010       ($180,000)         $600,000    Updated portfolio data from servicer           $18,667       $58,123         $45,917              $122,706
            Union, San Diego, CA                        Home Loan
                                                        Modifications                                               9/30/2010         $125,278         $725,278    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($1)        $725,277
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($4)        $725,273
                                                                                                                                                                   reallocation

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                  257
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)                                                                                                                                                                        258
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                     TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                              Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009      ($1,530,000)     $4,930,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009         $680,000      $5,610,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010       $2,460,000      $8,070,000    Updated portfolio data from servicer
                                                       Financial
                                                       Instrument for                                              7/14/2010      ($2,470,000)     $5,600,000    Updated portfolio data from servicer
7/29/2009   First Bank, St. Louis, MO    Purchase                       $6,460,000             N/A                                                                                                          $306,457    $831,937         $737,204            $1,875,597
                                                       Home Loan                                                   9/30/2010       $2,523,114      $8,123,114    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    1/6/2011              ($2)     $8,123,112    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)     $8,123,110
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($15)     $8,123,095
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009         ($60,000)     $1,030,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $1,260,000      $2,290,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010       $2,070,000      $4,360,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I January 26, 2012




                                                       Financial
            Purdue Employees                                                                                       7/14/2010      ($3,960,000)       $400,000    Updated portfolio data from servicer
                                                       Instrument for
7/29/2009   Federal Credit Union, West   Purchase                       $1,090,000             N/A                                                                                                               $—           $—              $—                     $—
                                                       Home Loan                                                   9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
            Lafayette, IN
                                                       Modifications
                                                                                                                    1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($1)       $580,220
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)       $580,212
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009     ($37,700,000)    $47,320,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $26,160,000     $73,480,000
                                                       Financial                                                                                                 HAFA initial cap
            Wachovia Bank, N.A.,                       Instrument for
7/29/2009                                Purchase                       $85,020,000            N/A                 3/26/2010       $9,820,000     $83,300,000    Updated portfolio data from servicer            $—           $—              $—                     $—
            Charlotte, NC                              Home Loan
                                                       Modifications                                               7/14/2010     ($46,200,000)    $37,100,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010     ($28,686,775)     $8,413,225    Updated portfolio data from servicer
                                                                                                                   12/3/2010      ($8,413,225)             $—    Termination of SPA

                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                           TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                       Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors      Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                         Incentives      Incentives     Incentives            Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($14,850,000)    $2,684,870,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $1,178,180,000    $3,863,050,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  3/26/2010    $1,006,580,000    $4,869,630,000
                                                                                                                                                                  2MP initial cap
                                                                                                                  7/14/2010   ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                  9/30/2010       $72,400,000    $3,007,800,000
                                                                                                                                                                  and initial RD-HAMP
                                                                                                                  9/30/2010     $215,625,536     $3,223,425,536   Updated portfolio data from servicer
                                                                                                                   1/6/2011           ($3,636)   $3,223,421,900   Updated portfolio data from servicer
                                                      Financial                                                   3/16/2011        ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
            J.P. Morgan Chase Bank,                   Instrument for
7/31/2009                               Purchase                       $2,699,720,000         N/A                                                                 Updated due to quarterly assessment and      $82,629,354   $143,898,023    $88,388,778         $314,916,155
            NA, Lewisville, TX                        Home Loan                                                   3/30/2011           ($3,999)   $3,223,317,901
                                                      Modifications                                                                                               reallocation
                                                                                                                  4/13/2011        ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011     $122,700,000     $3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($34,606)   $3,345,783,295
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011          $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011        ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011        ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011          $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                                 10/19/2011     $519,211,309     $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009          ($10,000)    $707,370,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009     $502,430,000     $1,209,800,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  3/26/2010    ($134,560,000)    $1,075,240,000
                                                                                                                                                                  2MP initial cap
                                                                                                                  7/14/2010    ($392,140,000)     $683,100,000    Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap to Saxon Mortgage
                                                                                                                  7/16/2010        ($630,000)     $682,470,000
                                                                                                                                                                  Services, Inc.
                                                                                                                                                                  Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                  9/30/2010       $13,100,000     $695,570,000
                                                                                                                                                                  cap

                                                      Financial                                                   9/30/2010       ($8,006,457)    $687,563,543    Updated portfolio data from servicer
            EMC Mortgage Corporation,                 Instrument for                                             10/15/2010        ($100,000)     $687,463,543    Transfer of cap due to servicing transfer
7/31/2009                               Purchase                       $707,380,000           N/A         14                                                                                                    $7,569,459    $11,592,937    $16,279,383           $35,441,779
            Lewisville, TX                            Home Loan
                                                      Modifications                                              12/15/2010       ($4,400,000)    $683,063,543    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($802)    $683,062,741    Updated portfolio data from servicer
                                                                                                                  2/16/2011        ($900,000)     $682,162,741    Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011       ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($925)    $678,161,816
                                                                                                                                                                  reallocation
                                                                                                                  5/13/2011    ($122,900,000)     $555,261,816    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011           ($8,728)    $555,253,088
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011        ($600,000)     $554,653,088    Transfer of cap due to servicing transfer
                                                                                                                 10/19/2011    ($519,211,309)      $35,441,779    Termination of SPA
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I January 26, 2012




                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                   259
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)                                                                                                                                                                          260
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date       Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009         $180,000        $600,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009       ($350,000)        $250,000
                                                                                                                                                                HAFA initial cap
                                                      Financial
                                                      Instrument for                                              3/26/2010          $20,000        $270,000    Updated portfolio data from servicer
8/5/2009   Lake City Bank, Warsaw, IN   Purchase                       $420,000               N/A                                                                                                              $2,176       $2,451          $7,673               $12,299
                                                      Home Loan
                                                      Modifications                                               7/14/2010         ($70,000)       $200,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010          $90,111        $290,111    Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($3)       $290,108
                                                                                                                                                                reallocation
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009         $290,000        $430,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $210,000        $640,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010         $170,000        $810,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010         ($10,000)       $800,000    Updated portfolio data from servicer
                                                      Financial
           Oakland Municipal Credit                   Instrument for                                              9/30/2010         ($74,722)       $725,278    Updated portfolio data from servicer
8/5/2009                                Purchase                       $140,000               N/A         12                                                                                                      $—        $3,568          $6,500               $10,068
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I January 26, 2012




           Union, Oakland, CA                         Home Loan                                                    1/6/2011              ($1)       $725,277    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($1)       $725,276
                                                                                                                                                                reallocation
                                                                                                                  4/13/2011       ($200,000)        $525,276    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($7)       $525,269
                                                                                                                                                                reallocation
                                                                                                                  7/22/2011       ($515,201)         $10,068    Termination of SPA
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009   ($121,190,000)    $552,810,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009     ($36,290,000)   $516,520,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010    $199,320,000     $715,840,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($189,040,000)    $526,800,000    Updated portfolio data from servicer

                                                      Financial                                                   9/30/2010      $38,626,728    $565,426,728    Updated portfolio data from servicer
           HomEq Servicing, North                     Instrument for
8/5/2009                                Purchase                       $674,000,000           N/A                10/15/2010   ($170,800,000)    $394,626,728    Transfer of cap due to servicing transfer         $—     $3,036,319     $5,272,500            $8,308,819
           Highlands, CA                              Home Loan
                                                      Modifications                                              12/15/2010     ($22,200,000)   $372,426,728    Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($549)   $372,426,179    Updated portfolio data from servicer
                                                                                                                  2/16/2011       ($900,000)    $371,526,179    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($653)   $371,525,526
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($6,168)   $371,519,358
                                                                                                                                                                reallocation

                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                         TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                    Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $313,050,000     $1,087,950,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $275,370,000     $1,363,320,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010    $278,910,000     $1,642,230,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($474,730,000)    $1,167,500,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap to due to servicing
                                                                                                                  8/13/2010       ($700,000)    $1,166,800,000
                                                                                                                                                                 transfer
                                                                                                                                                                 Transfer of cap to due to servicing
                                                                                                                  9/15/2010      ($1,000,000)   $1,165,800,000
                                                                                                                                                                 transfer
                                                                                                                  9/30/2010   ($115,017,236)    $1,050,782,764   Updated portfolio data from servicer
                                                                                                                 10/15/2010       ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010        $800,000     $1,050,782,764   Updated portfolio data from servicer
                                                      Financial
            Litton Loan Servicing LP,                 Instrument for                                               1/6/2011          ($1,286)   $1,050,781,478   Updated portfolio data from servicer
8/12/2009                               Purchase                       $774,900,000           N/A                                                                                                            $13,440,220   $35,346,386    $27,529,414           $76,316,020
            Houston, TX                               Home Loan
                                                                                                                  3/16/2011       $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($1,470)   $1,059,580,008
                                                                                                                                                                 reallocation
                                                                                                                  4/13/2011      ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011       ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011         ($13,097)   $1,055,266,911
                                                                                                                                                                 reallocation
                                                                                                                  7/14/2011       ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011      ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011       ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011      ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                261
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                             (CONTINUED)                                                                                                                                                                          262
             Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                       TARP Incentive Payments
                                                                     Cap of Investment
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution       Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                                                              Updated portfolio data from servicer &
                                                                                                                9/30/2009      ($1,200,000)     $5,010,000
                                                                                                                                                              HPDP initial cap
                                                                                                                                                              Updated portfolio data from servicer &
                                                                                                               12/30/2009      $30,800,000     $35,810,000
                                                                                                                                                              HAFA initial cap
                                                                                                                3/26/2010      $23,200,000     $59,010,000    Updated portfolio data from servicer
                                                                                                                                                              Transfer of cap from CitiMortgage, Inc.
                                                                                                                6/16/2010       $2,710,000     $61,720,000
                                                                                                                                                              due to servicing transfer
                                                                                                                7/14/2010     ($18,020,000)    $43,700,000    Updated portfolio data from servicer
                                                                                                                                                              Transfer of cap from CitiMortgage, Inc.
                                                                                                                7/16/2010       $6,680,000     $50,380,000
                                                                                                                                                              due to servicing transfer
                                                                                                                                                              Transfer of cap to due to servicing
                                                                                                                8/13/2010       $2,600,000     $52,980,000
                                                                                                                                                              transfer
                                                                                                                                                              Transfer of cap to due to servicing
                                                                                                                9/15/2010       ($100,000)     $52,880,000
                                                                                                                                                              transfer
                                                                                                                9/30/2010         $200,000     $53,080,000    Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                9/30/2010      ($1,423,197)    $51,656,803    Updated portfolio data from servicer
                                                                                                               11/16/2010       $1,400,000     $53,056,803    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I January 26, 2012




                                                    Financial
            PennyMac Loan Services,                 Instrument for                                             12/15/2010       ($100,000)     $52,956,803    Updated portfolio data from servicer
8/12/2009                             Purchase                       $6,210,000             N/A                                                                                                           $1,502,537   $1,821,888     $2,101,682            $5,426,107
            LLC, Calasbasa, CA                      Home Loan
                                                    Modifications                                                1/6/2011             ($72)    $52,956,731    Updated portfolio data from servicer
                                                                                                                1/13/2011       $4,100,000     $57,056,731    Transfer of cap due to servicing transfer
                                                                                                                2/16/2011       ($100,000)     $56,956,731    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011       $4,000,000     $60,956,731    Transfer of cap due to servicing transfer
                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($94)    $60,956,637
                                                                                                                                                              reallocation
                                                                                                                4/13/2011       ($100,000)     $60,856,637    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011       $5,800,000     $66,656,637    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011         $600,000     $67,256,637    Transfer of cap due to servicing transfer
                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                                6/29/2011            ($812)    $67,255,825
                                                                                                                                                              reallocation
                                                                                                                7/14/2011       $2,500,000     $69,755,825    Transfer of cap due to servicing transfer
                                                                                                                9/15/2011       $2,800,000     $72,555,825    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011         $300,000     $72,855,825    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         $900,000     $73,755,825    Transfer of cap due to servicing transfer
                                                                                                               12/15/2011         $800,000     $74,555,825    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                             (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                         TARP Incentive Payments
                                                                     Cap of Investment
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                    Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution       Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                9/30/2009     ($25,510,000)      $4,220,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                               12/30/2009         $520,000       $4,740,000
                                                                                                                                                               HAFA initial cap
                                                                                                                3/26/2010       $4,330,000       $9,070,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap from CitiMortgage, Inc.
                                                                                                                4/19/2010         $230,000       $9,300,000
                                                                                                                                                               due to servicing transfer
                                                                                                                5/19/2010         $850,000      $10,150,000    Initial 2MP cap
                                                                                                                7/14/2010       ($850,000)       $9,300,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap to due to servicing
                                                                                                                9/15/2010         $100,000       $9,400,000
                                                                                                                                                               transfer
                                                                                                                9/30/2010         $100,000       $9,500,000    Initial FHA-HAMP cap
                                                                                                                9/30/2010      $16,755,064      $26,255,064    Updated portfolio data from servicer
                                                                                                               10/15/2010         $100,000      $26,355,064    Transfer of cap due to servicing transfer
                                                                                                               12/15/2010         $100,000      $26,455,064    Updated portfolio data from servicer
                                                    Financial
            Servis One, Inc.,                       Instrument for                                               1/6/2011             ($40)     $26,455,024    Updated portfolio data from servicer
8/12/2009                             Purchase                       $29,730,000            N/A                                                                                                               $21,557       $67,980         $69,307              $158,843
            Titusville, PA                          Home Loan
                                                                                                                1/13/2011         $300,000      $26,755,024    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                2/16/2011         $100,000      $26,855,024    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011       $2,200,000      $29,055,024    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($52)     $29,054,972
                                                                                                                                                               reallocation
                                                                                                                4/13/2011       $1,500,000      $30,554,972    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011       $1,000,000      $31,554,972    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011         $100,000      $31,654,972    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                6/29/2011            ($534)     $31,654,438
                                                                                                                                                               reallocation
                                                                                                                8/16/2011         $700,000      $32,354,438    Transfer of cap due to servicing transfer
                                                                                                                9/15/2011       ($600,000)      $31,754,438    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011       $4,000,000      $35,754,438    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         $600,000      $36,354,438    Transfer of cap due to servicing transfer
                                                                                                               12/15/2011         $200,000      $36,554,438    Transfer of cap due to servicing transfer
                                                                                                                10/2/2009    $145,800,000      $814,240,000    HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                               12/30/2009   $1,355,930,000    $2,170,170,000
                                                                                                                                                               HAFA initial cap
                                                                                                                3/26/2010    $121,180,000     $2,291,350,000   Updated portfolio data from servicer
                                                                                                                7/14/2010   ($408,850,000)    $1,882,500,000   Updated portfolio data from servicer
                                                    Financial
            OneWest Bank,                           Instrument for                                              9/30/2010       $5,500,000    $1,888,000,000   2MP initial cap
8/28/2009                             Purchase                       $668,440,000           N/A                                                                                                            $16,611,572   $60,996,250    $34,779,231         $112,387,053
            Pasadena, CA                            Home Loan
                                                    Modifications                                               9/30/2010     ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
                                                                                                                 1/6/2011          ($2,282)   $1,836,256,555   Updated portfolio data from servicer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                3/30/2011          ($2,674)   $1,836,253,881
                                                                                                                                                               reallocation
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                6/29/2011         ($24,616)   $1,836,229,265
                                                                                                                                                               reallocation
                                                                                                                10/2/2009          $70,000         $370,000    HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                               12/30/2009       $2,680,000       $3,050,000
                                                                                                                                                               HAFA initial cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                              3/26/2010         $350,000       $3,400,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I January 26, 2012




8/28/2009                             Purchase                       $300,000               N/A                                                                                                                   $—             $—             $—                     $—
            Union, Palo Alto, CA                    Home Loan
                                                    Modifications                                               7/14/2010      ($1,900,000)      $1,500,000    Updated portfolio data from servicer
                                                                                                                9/30/2010      ($1,209,889)        $290,111    Updated portfolio data from servicer
                                                                                                                3/23/2010       ($290,111)               $—    Termination of SPA

                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              263
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)                                                                                                                                                                          264
                Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                       TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date          Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                    10/2/2009        $130,000         $700,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009       ($310,000)        $390,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010       $2,110,000      $2,500,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       $8,300,000     $10,800,000    Updated portfolio data from servicer
                                                        Financial                                                   9/30/2010       $5,301,172     $16,101,172    Updated portfolio data from servicer
              RoundPoint Mortgage
                                                        Instrument for
8/28/2009     Servicing Corporation,      Purchase                       $570,000               N/A                  1/6/2011             ($22)    $16,101,150    Updated portfolio data from servicer          $60,039    $168,311         $157,496              $385,846
                                                        Home Loan
              Charlotte, NC
                                                        Modifications
                                                                                                                    3/16/2011       ($400,000)     $15,701,150    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($25)    $15,701,125
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011              $—      $15,701,125    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($232)    $15,700,893
                                                                                                                                                                  reallocation
                                                                                                                    10/2/2009        $130,000         $690,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $1,040,000      $1,730,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I January 26, 2012




                                                                                                                    3/26/2010      ($1,680,000)        $50,000    Updated portfolio data from servicer
                                                        Financial
                                                        Instrument for                                              5/12/2010       $1,260,000      $1,310,000    Updated portfolio data from servicer
9/2/2009      Horicon Bank, Horicon, WI   Purchase                       $560,000               N/A                                                                                                              $2,515       $7,599          $5,570               $15,684
                                                        Home Loan                                                   7/14/2010      ($1,110,000)       $200,000    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                    9/30/2010        $100,000         $300,000    Initial RD-HAMP
                                                                                                                    9/30/2010          ($9,889)       $290,111    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($3)       $290,108
                                                                                                                                                                  reallocation
                                                                                                                    10/2/2009       $1,310,000      $7,310,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009      ($3,390,000)     $3,920,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010        $410,000       $4,330,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($730,000)      $3,600,000    Updated portfolio data from servicer
                                                                                                                    9/15/2010       $4,700,000      $8,300,000    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $117,764       $8,417,764    Updated portfolio data from servicer
                                                                                                                   11/16/2010        $800,000       $9,217,764    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2010       $2,700,000     $11,917,764    Updated portfolio data from servicer
                                                        Financial
9/2/2009 as   Vantium Capital, Inc.dba
                                                        Instrument for                                               1/6/2011             ($17)    $11,917,747    Updated portfolio data from servicer
amended on    Acqura Loan Services,       Purchase                       $6,000,000             N/A         10                                                                                                 $104,865    $201,018         $144,166              $450,049
                                                        Home Loan
8/27/2010     Plano, TX                                                                                             1/13/2011        $700,000      $12,617,747    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                    2/16/2011       $1,800,000     $14,417,747    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($19)    $14,417,728
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011        $300,000      $14,717,728    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($189)    $14,717,539
                                                                                                                                                                  reallocation
                                                                                                                    8/16/2011        $300,000      $15,017,539    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        $100,000      $15,117,539    Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011        $100,000      $15,217,539    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                      TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives     Incentives     Incentives            Payments
                                                                                                                   10/2/2009         $280,000      $1,530,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       ($750,000)        $780,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010         $120,000        $900,000    Updated portfolio data from servicer
                                                       Financial                                                   7/14/2010       ($300,000)        $600,000    Updated portfolio data from servicer
            Central Florida Educators
                                                       Instrument for
9/9/2009    Federal Credit Union, Lake   Purchase                       $1,250,000             N/A                 9/30/2010         $270,334        $870,334    Updated portfolio data from servicer        $27,154       $54,800         $68,113              $150,066
                                                       Home Loan
            Mary, FL
                                                       Modifications
                                                                                                                    1/6/2011              ($1)       $870,333    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($1)       $870,332
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($5)       $870,327
                                                                                                                                                                 reallocation
                                                                                                                   10/2/2009      $24,920,000    $139,140,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $49,410,000    $188,550,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010      $41,830,000    $230,380,000    Updated portfolio data from servicer
                                                       Financial                                                   7/14/2010     ($85,780,000)   $144,600,000    Updated portfolio data from servicer
            U.S. Bank National                         Instrument for
9/9/2009                                 Purchase                       $114,220,000           N/A                 9/30/2010      $36,574,444    $181,174,444    Updated portfolio data from servicer      $3,774,646   $12,028,896    $10,053,275           $25,856,817
            Association, Owensboro, KY                 Home Loan
                                                       Modifications
                                                                                                                    1/6/2011            ($160)   $181,174,284    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($172)   $181,174,112
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($1,431)   $181,172,681
                                                                                                                                                                 reallocation
                                                                                                                   10/2/2009         $950,000      $5,300,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $5,700,000     $11,000,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010         $740,000     $11,740,000    Updated portfolio data from servicer
                                                       Financial                                                   7/14/2010      ($1,440,000)    $10,300,000    Updated portfolio data from servicer
            CUC Mortgage Corporation,                  Instrument for
9/9/2009                                 Purchase                       $4,350,000             N/A                 9/30/2010      ($6,673,610)     $3,626,390    Updated portfolio data from servicer        $19,880       $55,236         $52,205              $127,320
            Albany, NY                                 Home Loan
                                                       Modifications
                                                                                                                    1/6/2011              ($5)     $3,626,385    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($6)     $3,626,379
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($52)     $3,626,327
                                                                                                                                                                 reallocation
                                                                                                                   10/2/2009         $460,000      $2,530,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $2,730,000      $5,260,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010      $13,280,000     $18,540,000    Updated portfolio data from servicer
                                                       Financial                                                   7/14/2010     ($13,540,000)     $5,000,000    Updated portfolio data from servicer
            ORNL Federal Credit Union,                 Instrument for
9/11/2009                                Purchase                       $2,070,000             N/A                 9/30/2010       $1,817,613      $6,817,613    Updated portfolio data from servicer         $2,000         $2,661         $6,000               $10,661
            Oak Ridge, TN                              Home Loan
                                                       Modifications
                                                                                                                    1/6/2011             ($10)     $6,817,603    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($12)     $6,817,591
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($115)     $6,817,476
                                                                                                                                                                 reallocation

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                             265
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)                                                                                                                                                                          266
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution            Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                     10/2/2009          $60,000        $310,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009         ($80,000)       $230,000
                                                                                                                                                                   HAFA initial cap
                                                         Financial
            Allstate Mortgage Loans &                    Instrument for                                              3/26/2010         $280,000        $510,000    Updated portfolio data from servicer
9/11/2009                                  Purchase                       $250,000               N/A                                                                                                              $3,329       $6,380          $6,329               $16,039
            Investments, Inc., Ocala, FL                 Home Loan                                                   7/14/2010       ($410,000)        $100,000    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                     9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($1)       $145,055
                                                                                                                                                                   reallocation
                                                                                                                     10/2/2009          $70,000        $350,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009         $620,000        $970,000
                                                                                                                                                                   HAFA initial cap
                                                         Financial                                                   3/26/2010         $100,000      $1,070,000    Updated portfolio data from servicer
            Metropolitan National Bank,                  Instrument for
9/11/2009                                  Purchase                       $280,000               N/A                                                                                                                 $—           $—              $—                     $—
            Littlerock, AR                               Home Loan                                                   7/14/2010       ($670,000)        $400,000    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                     9/30/2010          $35,167        $435,167    Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($1)       $435,166    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I January 26, 2012




                                                                                                                     1/26/2011       ($435,166)              $—    Termination of SPA
                                                                                                                     10/2/2009       $6,010,000     $33,520,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009     ($19,750,000)    $13,770,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010      ($4,780,000)     $8,990,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010      ($2,390,000)     $6,600,000    Updated portfolio data from servicer
                                                         Financial                                                   9/30/2010       $2,973,670      $9,573,670    Updated portfolio data from servicer
            Franklin Credit Management                   Instrument for
9/11/2009                                  Purchase                       $27,510,000            N/A                  1/6/2011              ($3)     $9,573,667    Updated portfolio data from servicer         $186,211    $396,340         $519,810            $1,102,360
            Corporation, Jersey City, NJ                 Home Loan
                                                         Modifications
                                                                                                                     2/16/2011      ($1,800,000)     $7,773,667    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($6)     $7,773,661
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($61)     $7,773,600
                                                                                                                                                                   reallocation
                                                                                                                    10/14/2011       ($100,000)      $7,673,600    Transfer of cap due to servicing transfer
                                                                                                                     10/2/2009          $90,000        $500,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009       $1,460,000      $1,960,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010         $160,000      $2,120,000    Updated portfolio data from servicer
                                                         Financial                                                   7/14/2010       ($120,000)      $2,000,000    Updated portfolio data from servicer
            Bay Federal Credit Union,                    Instrument for
9/16/2009                                  Purchase                       $410,000               N/A                 9/30/2010      ($1,419,778)       $580,222    Updated portfolio data from servicer              $—           $—              $—                     $—
            Capitola, CA                                 Home Loan
                                                         Modifications
                                                                                                                      1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($1)       $580,220
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($8)       $580,212
                                                                                                                                                                   reallocation

                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                       TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                  10/2/2009        $960,000       $5,350,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009      ($3,090,000)     $2,260,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010        $230,000       $2,490,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       $5,310,000      $7,800,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010        $323,114       $8,123,114    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($12)     $8,123,102    Updated portfolio data from servicer
                                                      Financial
            AMS Servicing, LLC,                       Instrument for                                              3/16/2011        $600,000       $8,723,102    Transfer of cap due to servicing transfer
9/23/2009                               Purchase                       $4,390,000             N/A                                                                                                                 $—           $—              $—                     $—
            Buffalo, NY                               Home Loan
                                                      Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($16)     $8,723,086
                                                                                                                                                                reallocation
                                                                                                                  4/13/2011        $200,000       $8,923,086    Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011        $100,000       $9,023,086    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($153)     $9,022,933
                                                                                                                                                                reallocation
                                                                                                                  9/15/2011        $100,000       $9,122,933    Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011        $100,000       $9,222,933    Transfer of cap due to servicing transfer
                                                                                                                  10/2/2009          $90,000        $480,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009        $940,000       $1,420,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010       ($980,000)        $440,000    Updated portfolio data from servicer
                                                      Financial                                                   7/14/2010       ($140,000)        $300,000    Updated portfolio data from servicer
            Schools Financial Credit                  Instrument for
9/23/2009                               Purchase                       $390,000               N/A                 9/30/2010       $1,150,556      $1,450,556    Updated portfolio data from servicer           $5,833     $28,267          $18,500               $52,601
            Union, Sacramento, CA                     Home Loan
                                                      Modifications
                                                                                                                   1/6/2011              ($2)     $1,450,554    Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($2)     $1,450,552
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($22)     $1,450,530
                                                                                                                                                                reallocation
                                                                                                                  10/2/2009          $60,000        $290,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009         ($10,000)       $280,000
                                                                                                                                                                HAFA initial cap
                                                      Financial
            Glass City Federal Credit                 Instrument for                                              3/26/2010        $130,000         $410,000    Updated portfolio data from servicer
9/23/2009                               Purchase                       $230,000               N/A                                                                                                              $3,000       $2,086          $5,000               $10,086
            Union, Maumee, OH                         Home Loan                                                   7/14/2010       ($110,000)        $300,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                  9/30/2010          ($9,889)       $290,111    Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($3)       $290,108
                                                                                                                                                                reallocation
                                                                                                                  10/2/2009          $10,000         $40,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009        $120,000         $160,000
                                                                                                                                                                HAFA initial cap
                                                      Financial
            Central Jersey Federal
                                                      Instrument for                                              3/26/2010          $10,000        $170,000    Updated portfolio data from servicer
9/23/2009   Credit Union, Woodbridge,   Purchase                       $30,000                N/A                                                                                                                 $—           $—              $—                     $—
                                                      Home Loan
            VA                                                                                                    7/14/2010         ($70,000)       $100,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                  9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                 10/29/2010       ($145,056)              $—    Termination of SPA
                                                                                                                  10/2/2009          $60,000        $300,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009        $350,000         $650,000
                                                                                                                                                                HAFA initial cap

                                                      Financial                                                   3/26/2010       $1,360,000      $2,010,000    Updated portfolio data from servicer
            Yadkin Valley Bank,                       Instrument for
9/23/2009                               Purchase                       $240,000               N/A                 7/14/2010      ($1,810,000)       $200,000    Updated portfolio data from servicer           $6,885       $7,985         $21,885               $36,755
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I January 26, 2012




            Elkin, NC                                 Home Loan
                                                      Modifications                                               9/30/2010        $235,167         $435,167    Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($1)       $435,166    Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($4)       $435,162
                                                                                                                                                                reallocation

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             267
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)                                                                                                                                                                          268
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                       TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                   10/2/2009         $100,000        $540,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009          $20,000        $560,000
                                                                                                                                                                 HAFA initial cap
                                                       Financial
                                                       Instrument for                                              3/26/2010       ($290,000)        $270,000    Updated portfolio data from servicer
9/25/2009    SEFCU, Albany, NY           Purchase                       $440,000               N/A                                                                                                                 $—           $—              $—                     $—
                                                       Home Loan                                                   7/14/2010         ($70,000)       $200,000    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                   9/30/2010         ($54,944)       $145,056    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($1)       $145,055
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $1,030,000      $1,600,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010       ($880,000)        $720,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($320,000)        $400,000    Updated portfolio data from servicer
                                                       Financial
             Great Lakes Credit Union,                 Instrument for                                              9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
10/14/2009                               Purchase                       $570,000               N/A                                                                                                              $4,917       $6,047          $5,500               $16,464
             North Chicago, IL                         Home Loan
                                                       Modifications                                                1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($1)       $580,220
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 26, 2012




                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)       $580,212
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      ($2,900,000)     $1,960,000
                                                                                                                                                                 HAFA initial cap
                                                       Financial                                                   3/26/2010      ($1,600,000)       $360,000    Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                       $4,860,000             N/A                                                                                                                 $—           $—              $—                     $—
             Corporation, Tulsa, OK                    Home Loan                                                   7/14/2010       ($260,000)        $100,000    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                    3/9/2011       ($145,056)              $—    Termination of SPA
                                                                                                                   1/22/2010          $20,000        $430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $400,000        $830,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($430,000)        $400,000    Updated portfolio data from servicer
                                                       Financial
             United Bank Mortgage                                                                                  9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                       Instrument for
10/21/2009   Corporation, Grand          Purchase                       $410,000               N/A                                                                                                             $18,122      $37,600         $37,994               $93,716
                                                       Home Loan                                                    1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
             Rapids, MI
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($1)       $580,220
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($5)       $580,215
                                                                                                                                                                 reallocation
                                                                                                                   1/22/2010       $4,370,000     $98,030,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010      $23,880,000    $121,910,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($16,610,000)   $105,300,000    Updated portfolio data from servicer

                                                       Financial                                                   9/30/2010       $1,751,033    $107,051,033    Updated portfolio data from servicer
             Bank United, Miami                        Instrument for                                               1/6/2011             ($77)   $107,050,956    Updated portfolio data from servicer
10/23/2009                               Purchase                       $93,660,000            N/A                                                                                                           $2,265,059   $7,737,503     $5,440,533           $15,443,095
             Lakes, FL                                 Home Loan
                                                       Modifications                                               3/16/2011      ($9,900,000)    $97,150,956    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($88)    $97,150,868
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($773)    $97,150,095
                                                                                                                                                                 reallocation

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                       TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                  1/22/2010           $40,000        $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010        ($760,000)         $40,000    Updated portfolio data from servicer
                                                                                                                  5/12/2010        $2,630,000      $2,670,000    Updated portfolio data from servicer

                                                       Financial                                                  7/14/2010        ($770,000)      $1,900,000    Updated portfolio data from servicer
             IC Federal Credit Union,                  Instrument for                                             9/30/2010         $565,945       $2,465,945    Updated portfolio data from servicer
10/23/2009                               Purchase                       $760,000               N/A                                                                                                              $5,000     $12,890          $13,000               $30,890
             Fitchburg, MA                             Home Loan
                                                       Modifications                                               1/6/2011               ($4)     $2,465,941    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($4)     $2,465,937
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($40)     $2,465,897
                                                                                                                                                                 reallocation
                                                       Financial
             Harleysville National
                                                       Instrument for
10/28/2009   Bank & Trust Company,       Purchase                       $1,070,000             N/A                4/21/2010       ($1,070,000)             $—    Termination of SPA                                $—           $—              $—                     $—
                                                       Home Loan
             Harleysville, PA
                                                       Modifications
                                                       Financial
             Members Mortgage                          Instrument for
10/28/2009                               Purchase                       $510,000               N/A                4/21/2010        ($510,000)              $—    Termination of SPA                                $—           $—              $—                     $—
             Company, Inc, Woburn, MA                  Home Loan
                                                       Modifications
                                                                                                                  1/22/2010           $10,000         $80,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010           $10,000         $90,000    Updated portfolio data from servicer
                                                       Financial
             DuPage Credit Union,                      Instrument for                                             7/14/2010           $10,000        $100,000    Updated portfolio data from servicer
10/30/2009                               Purchase                       $70,000                N/A                                                                                                              $2,000     $12,930           $4,500               $19,430
             Naperville, IL                            Home Loan
                                                       Modifications                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011               ($1)       $145,055
                                                                                                                                                                 reallocation
                                                                                                                  1/22/2010           $40,000        $740,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010           $50,000        $790,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        $1,310,000      $2,100,000    Updated portfolio data from servicer
                                                       Financial
                                                                                                                  9/30/2010           $75,834      $2,175,834    Updated portfolio data from servicer
             Los Alamos National Bank,                 Instrument for
11/6/2009                                Purchase                       $700,000               N/A                                                                                                              $5,538       $8,177         $15,793               $29,508
             Los Alamos, NM                            Home Loan                                                   1/6/2011               ($3)     $2,175,831    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($4)     $2,175,827
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($35)     $2,175,792
                                                                                                                                                                 reallocation
                                                                                                                  1/22/2010         $890,000      $19,850,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010        $3,840,000     $23,690,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($2,890,000)    $20,800,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010        $9,661,676     $30,461,676    Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($46)    $30,461,630    Updated portfolio data from servicer
                                                                                                                  1/13/2011        $1,600,000     $32,061,630    Transfer of cap due to servicing transfer
                                                                                                                  2/16/2011        $1,400,000     $33,461,630    Transfer of cap due to servicing transfer
                                                       Financial
                                                                                                                                                                 Updated due to quarterly assessment and
             Quantum Servicing                         Instrument for                                             3/30/2011              ($58)    $33,461,572
11/18/2009                               Purchase                       $18,960,000            N/A                                                               reallocation                                  $68,881    $199,174         $109,340              $377,395
             Corporation, Tampa, FL                    Home Loan
                                                       Modifications                                              4/13/2011         $100,000      $33,561,572    Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011         $100,000      $33,661,572    Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011         $800,000      $34,461,572    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($559)    $34,461,013
                                                                                                                                                                 reallocation
                                                                                                                  7/14/2011         $300,000      $34,761,013    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I January 26, 2012




                                                                                                                  8/16/2011         $200,000      $34,961,013    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011         $100,000      $35,061,013    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              269
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)                                                                                                                                                                          270
               Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                    1/22/2010           $80,000      $1,750,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          $330,000      $2,080,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,080,000)     $1,000,000    Updated portfolio data from servicer
                                                         Financial
                                                                                                                    9/30/2010          $160,445      $1,160,445    Updated portfolio data from servicer
             Hillsdale County National                   Instrument for
11/18/2009                                 Purchase                       $1,670,000             N/A                                                                                                              $8,976     $14,710          $25,705               $49,391
             Bank, Hillsdale, MI                         Home Loan                                                   1/6/2011               ($1)     $1,160,444    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($2)     $1,160,442
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($16)     $1,160,426
                                                                                                                                                                   reallocation
                                                                                                                    1/22/2010               $—          $20,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          ($10,000)        $10,000    Updated portfolio data from servicer
                                                         Financial
             QLending, Inc., Coral                       Instrument for                                             7/14/2010           $90,000        $100,000    Updated portfolio data from servicer
11/18/2009                                 Purchase                       $20,000                N/A                                                                                                                 $—           $—              $—                     $—
             Gables, FL                                  Home Loan
                                                         Modifications                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($1)       $145,055
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I January 26, 2012




                                                                                                                    1/22/2010          $950,000     $21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010      ($17,880,000)     $3,430,000    Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc.
                                                                                                                    6/16/2010        $1,030,000      $4,460,000
                                                                                                                                                                   due to servicing transfer
                                                                                                                    7/14/2010       ($1,160,000)     $3,300,000    Updated portfolio data from servicer
                                                                                                                    8/13/2010          $800,000      $4,100,000    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010          $200,000      $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                    9/30/2010        $1,357,168      $5,657,168    Updated portfolio data from servicer
                                                         Financial                                                   1/6/2011               ($1)     $5,657,167    Updated portfolio data from servicer
             Marix Servicing, LLC,                       Instrument for
11/25/2009                                 Purchase                       $20,360,000            N/A                3/16/2011        $5,700,000     $11,357,167    Transfer of cap due to servicing transfer    $273,068    $768,052         $673,926            $1,715,046
             Phoenix, AZ                                 Home Loan
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($6)    $11,357,161
                                                                                                                                                                   reallocation
                                                                                                                    4/13/2011        $7,300,000     $18,657,161    Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011          $300,000     $18,957,161    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011          $900,000     $19,857,161    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($154)    $19,857,007
                                                                                                                                                                   reallocation
                                                                                                                    7/14/2011          $100,000     $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011          $300,000     $20,257,007    Transfer of cap due to servicing transfer
                                                         Financial
             Home Financing Center, Inc,                 Instrument for
11/25/2009                                 Purchase                       $230,000               N/A                4/21/2010        ($230,000)              $—    Termination of SPA                                $—           $—              $—                     $—
             Coral Gables, FL                            Home Loan
                                                         Modifications
                                                                                                                    1/22/2010           $50,000      $1,330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $1,020,000      $2,350,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        ($950,000)      $1,400,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010           $50,556      $1,450,556    Updated portfolio data from servicer
                                                         Financial
                                                                                                                     1/6/2011               ($2)     $1,450,554    Updated portfolio data from servicer
             First Keystone Bank,                        Instrument for
11/25/2009                                 Purchase                       $1,280,000             N/A         12                                                                                                   $2,776       $3,423          $8,718               $14,917
             Media, PA                                   Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                              3/30/2011               ($2)     $1,450,552
                                                                                                                                                                   reallocation
                                                                                                                    6/16/2011        ($100,000)      $1,350,552    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($21)     $1,350,531
                                                                                                                                                                   reallocation
                                                                                                                    7/22/2011       ($1,335,614)        $14,917    Termination of SPA

                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                     TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                              Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                                                                                   1/22/2010           $10,000        $390,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010          $520,000        $910,000    Updated portfolio data from servicer
                                                        Financial
            Community Bank &
                                                        Instrument for                                             7/14/2010        ($810,000)        $100,000    Updated portfolio data from servicer
12/4/2009   Trust Company, Clarks         Purchase                       $380,000               N/A                                                                                                               $—           $—              $—                     $—
                                                        Home Loan
            Summit, PA                                                                                             9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($1)       $145,055
                                                                                                                                                                  reallocation
                                                                                                                   1/22/2010          $440,000      $9,870,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       $14,480,000     $24,350,000    Updated portfolio data from servicer
                                                        Financial                                                  5/26/2010      ($24,200,000)       $150,000    Updated portfolio data from servicer
            Idaho Housing and Finance                   Instrument for
12/4/2009                                 Purchase                       $9,430,000             N/A                7/14/2010          $150,000        $300,000    Updated portfolio data from servicer         $9,330       $9,493         $16,330               $35,154
            Association, Boise, ID                      Home Loan
                                                        Modifications
                                                                                                                   9/30/2010           ($9,889)       $290,111    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($3)       $290,108
                                                                                                                                                                  reallocation
                                                                                                                   1/22/2010           $10,000        $370,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010          $850,000      $1,220,000    Updated portfolio data from servicer

                                                        Financial                                                  7/14/2010        ($120,000)      $1,100,000    Updated portfolio data from servicer
            Spirit of Alaska Federal                    Instrument for
12/9/2009                                 Purchase                       $360,000               N/A                9/30/2010          $100,000      $1,200,000    Initial FHA-HAMP cap                            $—           $—              $—                     $—
            Credit Union, Fairbanks, AK                 Home Loan
                                                        Modifications                                              9/30/2010          $105,500      $1,305,500    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)     $1,305,498    Updated portfolio data from servicer
                                                                                                                   2/17/2011       ($1,305,498)             $—    Termination of SPA
                                                                                                                   1/22/2010           $70,000      $1,660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        ($290,000)      $1,370,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($570,000)        $800,000    Updated portfolio data from servicer
                                                        Financial
            American Eagle Federal                                                                                 9/30/2010           $70,334        $870,334    Updated portfolio data from servicer
                                                        Instrument for
12/9/2009   Credit Union, East            Purchase                       $1,590,000             N/A                                                                                                               $—           $—              $—                     $—
                                                        Home Loan                                                   1/6/2011               ($1)       $870,333    Updated portfolio data from servicer
            Hartford, CT
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011               ($1)       $870,332
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($13)       $870,319
                                                                                                                                                                  reallocation
                                                                                                                   1/22/2010           $90,000      $1,970,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $1,110,000      $3,080,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,180,000)     $1,900,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                   9/30/2010          $275,834      $2,175,834    Updated portfolio data from servicer
            Silver State Schools Credit                 Instrument for
12/9/2009                                 Purchase                       $1,880,000             N/A                                                                                                           $12,678     $70,927          $39,845              $123,450
            Union, Las Vegas, NV                        Home Loan                                                   1/6/2011               ($2)     $2,175,832    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011               ($3)     $2,175,829
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($26)     $2,175,803
                                                                                                                                                                  reallocation
                                                                                                                   1/22/2010          $140,000      $3,080,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $6,300,000      $9,380,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,980,000)     $7,400,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                   9/30/2010       ($6,384,611)     $1,015,389    Updated portfolio data from servicer
            Fidelity Homestead Savings                  Instrument for
12/9/2009                                 Purchase                       $2,940,000             N/A                                                                                                               $—           $—              $—                     $—
            Bank, New Orleans, LA                       Home Loan                                                   1/6/2011               ($1)     $1,015,388    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011               ($2)     $1,015,386
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I January 26, 2012




                                                                                                                   6/29/2011              ($16)     $1,015,370
                                                                                                                                                                  reallocation

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             271
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)                                                                                                                                                                        272
               Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                     TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                              Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                                                                                    1/22/2010          $10,000        $240,000    Updated HPDP cap & HAFA initial cap

                                                        Financial                                                   3/26/2010        $440,000         $680,000    Updated portfolio data from servicer
             Bay Gulf Credit Union,                     Instrument for
12/9/2009                                 Purchase                       $230,000               N/A                 7/14/2010         ($80,000)       $600,000    Updated portfolio data from servicer            $—           $—              $—                     $—
             Tampa, FL                                  Home Loan
                                                        Modifications                                               9/30/2010         ($19,778)       $580,222    Updated portfolio data from servicer
                                                                                                                   10/15/2010       ($580,222)              $—    Termination of SPA
                                                                                                                    1/22/2010        $290,000       $6,450,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          $40,000      $6,490,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010      ($2,890,000)     $3,600,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010        $606,612       $4,206,612    Updated portfolio data from servicer
             The Golden 1 Credit Union,                 Instrument for
12/9/2009                                 Purchase                       $6,160,000             N/A                                                                                                           $64,408    $296,399         $207,825              $568,632
             Sacramento, CA                             Home Loan                                                    1/6/2011              ($4)     $4,206,608    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($4)     $4,206,604
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($35)     $4,206,569
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010        $100,000       $2,350,000    Updated HPDP cap & HAFA initial cap
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I January 26, 2012




                                                                                                                    3/26/2010       ($740,000)      $1,610,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($710,000)        $900,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010        $550,556       $1,450,556    Updated portfolio data from servicer
             Sterling Savings Bank,                     Instrument for
12/9/2009                                 Purchase                       $2,250,000             N/A                                                                                                           $25,879     $80,129          $85,910              $191,918
             Spokane, WA                                Home Loan                                                    1/6/2011              ($1)     $1,450,555    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($1)     $1,450,554
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($11)     $1,450,543
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010          $20,000        $330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $820,000       $1,150,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($350,000)        $800,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010          $70,334        $870,334    Updated portfolio data from servicer
             HomeStar Bank & Financial                  Instrument for
12/11/2009                                Purchase                       $310,000               N/A                                                                                                            $1,333       $4,437          $4,833               $10,604
             Services, Manteno, IL                      Home Loan                                                    1/6/2011              ($1)       $870,333    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($1)       $870,332
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($13)       $870,319
                                                                                                                                                                  reallocation

                                                        Financial                                                   1/22/2010          $20,000        $390,000    Updated HPDP cap & HAFA initial cap
             Glenview State Bank,                       Instrument for
12/11/2009                                Purchase                       $370,000               N/A                 3/26/2010       $1,250,000      $1,640,000    Updated portfolio data from servicer            $—           $—              $—                     $—
             Glenview, IL                               Home Loan
                                                        Modifications                                               5/26/2010      ($1,640,000)             $—    Termination of SPA
                                                                                                                    1/22/2010          $30,000        $630,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $400,000       $1,030,000    Updated portfolio data from servicer
                                                        Financial
             Verity Credit Union,                       Instrument for                                              7/14/2010       ($330,000)        $700,000    Updated portfolio data from servicer
12/11/2009                                Purchase                       $600,000               N/A                                                                                                               $—           $—              $—                     $—
             Seattle, WA                                Home Loan                                                   9/30/2010          $25,278        $725,278    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                     1/6/2011              ($1)       $725,277    Updated portfolio data from servicer
                                                                                                                    2/17/2011       ($725,277)              $—    Termination of SPA
                                                                                                                    1/22/2010          $30,000        $660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $800,000       $1,460,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($360,000)      $1,100,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010          $60,445      $1,160,445    Updated portfolio data from servicer
             Hartford Savings Bank,                     Instrument for
12/11/2009                                Purchase                       $630,000               N/A                                                                                                               $—           $—              $—                     $—
             Hartford, WI                               Home Loan                                                    1/6/2011              ($2)     $1,160,443    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($2)     $1,160,441
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($18)     $1,160,423
                                                                                                                                                                  reallocation

                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                         Financial                                                  4/21/2010        ($150,000)              $—    Termination of SPA
             The Bryn Mawr Trust Co.,                    Instrument for
12/11/2009                                 Purchase                       $150,000               N/A         9                                                                                                    $3,718       $5,559          $3,718               $12,995
             Bryn Mawr, PA                               Home Loan                                                  6/16/2011         $100,000         $100,000    Transfer of cap due to servicing transfer
                                                         Modifications
                                                                                                                    1/22/2010           $30,000        $650,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        ($580,000)         $70,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        $1,430,000      $1,500,000    Updated portfolio data from servicer
                                                         Financial
                                                                                                                    9/30/2010           $95,612      $1,595,612    Updated portfolio data from servicer
             Citizens 1st National Bank,                 Instrument for
12/16/2009                                 Purchase                       $620,000               N/A                                                                                                              $3,750     $14,818          $13,917               $32,485
             Spring Valley, IL                           Home Loan                                                   1/6/2011               ($2)     $1,595,610    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($3)     $1,595,607
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($24)     $1,595,583
                                                                                                                                                                   reallocation
                                                                                                                    1/22/2010           $10,000        $180,000    Updated HPDP cap & HAFA initial cap

                                                         Financial                                                  3/26/2010           $30,000        $210,000    Updated portfolio data from servicer
             Golden Plains Credit Union,                 Instrument for
12/16/2009                                 Purchase                       $170,000               N/A                7/14/2010          ($10,000)       $200,000    Updated portfolio data from servicer              $—           $—              $—                     $—
             Garden City, KS                             Home Loan
                                                         Modifications                                              9/30/2010           $90,111        $290,111    Updated portfolio data from servicer
                                                                                                                    2/17/2011        ($290,111)              $—    Termination of SPA
                                                         Financial                                                  1/22/2010         $160,000       $3,620,000    Updated HPDP cap & HAFA initial cap
             First Federal Savings
                                                         Instrument for
12/16/2009   and Loan Association of       Purchase                       $3,460,000             N/A                                                                                                                 $—           $—              $—                     $—
                                                         Home Loan                                                  4/21/2010       ($3,620,000)             $—    Termination of SPA
             Lakewood, Lakewood, OH
                                                         Modifications
                                                                                                                    1/22/2010           $20,000        $460,000    Updated HPDP cap & HAFA initial cap
                                                         Financial
             Sound Community Bank,                       Instrument for                                             3/26/2010        $1,430,000      $1,890,000    Updated portfolio data from servicer
12/16/2009                                 Purchase                       $440,000               N/A                                                                                                                 $—           $—              $—                     $—
             Seattle, WA                                 Home Loan                                                  7/14/2010        ($390,000)      $1,500,000    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                     9/8/2010       ($1,500,000)             $—    Termination of SPA
                                                                                                                    1/22/2010           $30,000        $730,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $1,740,000      $2,470,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,870,000)       $600,000    Updated portfolio data from servicer
                                                         Financial
                                                                                                                    9/30/2010         $850,556       $1,450,556    Updated portfolio data from servicer
             Horizon Bank, NA, Michigan                  Instrument for
12/16/2009                                 Purchase                       $700,000               N/A                                                                                                                 $—           $—              $—                     $—
             City, IN                                    Home Loan                                                   1/6/2011               ($2)     $1,450,554    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($2)     $1,450,552
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($23)     $1,450,529
                                                                                                                                                                   reallocation
                                                                                                                    1/22/2010           $40,000        $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $140,000         $940,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        ($140,000)        $800,000    Updated portfolio data from servicer
                                                         Financial
                                                                                                                    9/30/2010           $70,334        $870,334    Updated portfolio data from servicer
             Park View Federal Savings                   Instrument for
12/16/2009                                 Purchase                       $760,000               N/A                                                                                                              $5,000     $19,317          $13,000               $37,317
             Bank, Solon, OH                             Home Loan                                                   1/6/2011               ($1)       $870,333    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($1)       $870,332
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($12)       $870,320
                                                                                                                                                                   reallocation

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                                                                273
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)                                                                                                                                                                          274
               Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                       TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution            Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                     1/22/2010         $200,000       $4,430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010       ($1,470,000)     $2,960,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($1,560,000)     $1,400,000    Updated portfolio data from servicer
                                                          Financial                                                  9/30/2010        $5,852,780      $7,252,780    Updated portfolio data from servicer
                                                          Instrument for
12/23/2009   Iberiabank, Sarasota, FL       Purchase                       $4,230,000             N/A         12      1/6/2011              ($11)     $7,252,769    Updated portfolio data from servicer              $—      $10,502          $15,000               $25,502
                                                          Home Loan
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($13)     $7,252,756
                                                                                                                                                                    reallocation
                                                                                                                     4/13/2011        ($300,000)      $6,952,756    Transfer of cap due to servicing transfer
                                                                                                                      6/3/2011       ($6,927,254)        $25,502    Termination of SPA
                                                                                                                     1/22/2010           $20,000        $360,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        ($320,000)         $40,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010         $760,000         $800,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                     9/30/2010          ($74,722)       $725,278    Updated portfolio data from servicer
             Grafton Suburban Credit                      Instrument for
12/23/2009                                  Purchase                       $340,000               N/A                                                                                                                 $—           $—              $—                     $—
             Union, North Garden, MA                      Home Loan                                                   1/6/2011               ($1)       $725,277    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I January 26, 2012




                                                                                                                     3/30/2011               ($1)       $725,276
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($11)       $725,265
                                                                                                                                                                    reallocation
                                                                                                                     1/22/2010               $—          $60,000    Updated HPDP cap & HAFA initial cap

                                                          Financial                                                  3/26/2010           $90,000        $150,000    Updated portfolio data from servicer
             Eaton National Bank & Trust                  Instrument for
12/23/2009                                  Purchase                       $60,000                N/A                7/14/2010           $50,000        $200,000    Updated portfolio data from servicer              $—           $—              $—                     $—
             Company, Eaton, OH                           Home Loan
                                                          Modifications                                              9/30/2010          ($54,944)       $145,056    Updated portfolio data from servicer
                                                                                                                     5/20/2011        ($145,056)              $—    Termination of SPA
                                                                                                                     1/22/2010               $—         $110,000    Updated HPDP cap & HAFA initial cap

                                                          Financial                                                  3/26/2010          ($20,000)        $90,000    Updated portfolio data from servicer
             Tempe Schools Credit                         Instrument for
12/23/2009                                  Purchase                       $110,000               N/A                7/14/2010           $10,000        $100,000    Updated portfolio data from servicer              $—           $—              $—                     $—
             Union, Tempe, AZ                             Home Loan
                                                          Modifications                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                     12/8/2010        ($145,056)              $—    Termination of SPA
                                                                                                                     3/26/2010         $480,000         $740,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010        ($140,000)        $600,000    Updated portfolio data from servicer

                                                          Financial                                                  9/30/2010          ($19,778)       $580,222    Updated portfolio data from servicer
             Fresno County Federal                        Instrument for                                              1/6/2011               ($1)       $580,221    Updated portfolio data from servicer
1/13/2010                                   Purchase                       $260,000               N/A                                                                                                              $2,917       $8,886          $6,917               $18,720
             Credit Union, Fresno, CA                     Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                     3/30/2011               ($1)       $580,220
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011               ($8)       $580,212
                                                                                                                                                                    reallocation
                                                                                                                     3/26/2010         $610,000         $850,000    Updated portfolio data from servicer

                                                          Financial                                                  7/14/2010           $50,000        $900,000    Updated portfolio data from servicer
                                                          Instrument for
1/13/2010    Roebling Bank, Roebling, NJ    Purchase                       $240,000               N/A                9/30/2010          ($29,666)       $870,334    Updated portfolio data from servicer              $—           $—              $—                     $—
                                                          Home Loan
                                                          Modifications                                               1/6/2011               ($1)       $870,333    Updated portfolio data from servicer
                                                                                                                     3/23/2011        ($870,333)              $—    Termination of SPA
                                                                                                                     3/26/2010         $150,000         $290,000    Updated portfolio data from servicer
                                                          Financial
             First National Bank of Grant                 Instrument for                                             7/14/2010           $10,000        $300,000    Updated portfolio data from servicer
1/13/2010                                   Purchase                       $140,000               N/A                                                                                                                 $—           $—              $—                     $—
             Park, Grant Park, IL                         Home Loan                                                  9/30/2010           ($9,889)       $290,111    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                     1/26/2011        ($290,111)              $—    Termination of SPA

                                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                       TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                      3/26/2010     ($51,240,000)    $12,910,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                      5/14/2010       $3,000,000     $15,910,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                      6/16/2010       $4,860,000     $20,770,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                      7/14/2010       $3,630,000     $24,400,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                      7/16/2010         $330,000     $24,730,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                      8/13/2010         $700,000     $25,430,000    Transfer of cap due to servicing transfer
                                                                                                                      9/15/2010         $200,000     $25,630,000    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      ($1,695,826)    $23,934,174    Updated portfolio data from servicer
                                                                                                                     11/16/2010         $200,000     $24,134,174    Transfer of cap due to servicing transfer
                                                          Financial                                                    1/6/2011             ($32)    $24,134,142    Updated portfolio data from servicer
            Specialized Loan Servicing,                   Instrument for
1/13/2010                                   Purchase                       $64,150,000            N/A                                                                                                            $613,222    $1,662,861     $1,283,102            $3,559,185
            LLC, Highlands Ranch, CO                      Home Loan                                                   1/13/2011       $1,500,000     $25,634,142    Transfer of cap due to servicing transfer
                                                          Modifications
                                                                                                                      3/16/2011       $7,100,000     $32,734,142    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($36)    $32,734,106
                                                                                                                                                                    reallocation
                                                                                                                      4/13/2011       $1,000,000     $33,734,106    Transfer of cap due to servicing transfer
                                                                                                                      5/13/2011         $100,000     $33,834,106    Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011         $300,000     $34,134,106    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($332)    $34,133,774
                                                                                                                                                                    reallocation
                                                                                                                      8/16/2011         $100,000     $34,233,774    Transfer of cap due to servicing transfer
                                                                                                                      9/15/2011         $300,000     $34,533,774    Transfer of cap due to servicing transfer
                                                                                                                     10/14/2011         $300,000     $34,833,774    Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011      ($1,700,000)    $33,133,774    Transfer of cap due to servicing transfer
                                                                                                                      3/26/2010       $8,680,000      $9,450,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010      ($8,750,000)       $700,000    Updated portfolio data from servicer

                                                          Financial                                                   9/30/2010         $170,334        $870,334    Updated portfolio data from servicer
            Greater Nevada Mortgage                       Instrument for                                               1/6/2011              ($1)       $870,333    Updated portfolio data from servicer
1/13/2010                                   Purchase                       $770,000               N/A                                                                                                             $20,417      $57,160         $45,750              $123,326
            Services, Carson City, NV                     Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($1)       $870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($8)       $870,324
                                                                                                                                                                    reallocation
                                                          Financial                                                   3/26/2010      $12,190,000     $15,240,000    Updated portfolio data from servicer
            Digital Federal Credit Union,                 Instrument for
1/15/2010                                   Purchase                       $3,050,000             N/A                                                                                                                 $—           $—              $—                     $—
            Marlborough, MA                               Home Loan                                                   5/14/2010     ($15,240,000)             $—    Termination of SPA
                                                          Modifications
                                                                                                                      3/26/2010       ($730,000)        $230,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010         $370,000        $600,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010         $200,000        $800,000    Initial FHA-HAMP cap and initial 2MP cap

                                                          Financial                                                   9/30/2010       ($364,833)        $435,167    Updated portfolio data from servicer
            iServe Residential Lending,                   Instrument for                                             11/16/2010         $100,000        $535,167    Transfer of cap due to servicing transfer
1/29/2010                                   Purchase                       $960,000               N/A                                                                                                                 $—           $—              $—                     $—
            LLC, San Diego, CA                            Home Loan
                                                          Modifications                                                1/6/2011              ($1)       $535,166    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($1)       $535,165
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($7)       $535,158
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I January 26, 2012




                                                                                                                                                                    reallocation

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 275
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)                                                                                                                                                                          276
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                       TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                   3/26/2010         $160,000        $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $25,278        $725,278    Updated portfolio data from servicer
                                                       Financial
                                                                                                                    1/6/2011              ($1)       $725,277    Updated portfolio data from servicer
                                                       Instrument for
1/29/2010   United Bank, Griffin, GA     Purchase                       $540,000               N/A                                                                                                                 $—          $384          $2,000                $2,384
                                                       Home Loan                                                                                                 Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011              ($1)       $725,276
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($11)       $725,265
                                                                                                                                                                 reallocation
                                                       Financial                                                   7/14/2010       $4,440,000      $5,500,000    Updated portfolio data from servicer
            Urban Trust Bank, Lake                     Instrument for
3/3/2010                                 Purchase                       $1,060,000             N/A                                                                                                                 $—           $—              $—                     $—
            Mary, FL                                   Home Loan                                                   9/24/2010      ($5,500,000)             $—    Termination of SPA
                                                       Modifications
                                                                                                                   5/26/2010         $120,000     $28,160,000    Initial 2MP cap
                                                                                                                   7/14/2010     ($12,660,000)    $15,500,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $100,000     $15,600,000    Initial FHA-HAMP cap

                                                       Financial                                                   9/30/2010      ($3,125,218)    $12,474,782    Updated portfolio data from servicer
            iServe Servicing, Inc.,                    Instrument for                                             11/16/2010         $800,000     $13,274,782    Transfer of cap due to servicing transfer
3/5/2010                                 Purchase                       $28,040,000            N/A                                                                                                                 $—           $—              $—                     $—
            Irving, TX                                 Home Loan
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 26, 2012




                                                       Modifications                                                1/6/2011             ($20)    $13,274,762    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($24)    $13,274,738
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($221)    $13,274,517
                                                                                                                                                                 reallocation
                                                                                                                   7/14/2010     ($44,880,000)    $15,900,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010       $1,071,505     $16,971,505    Updated portfolio data from servicer
                                                       Financial
                                                                                                                    1/6/2011             ($23)    $16,971,482    Updated portfolio data from servicer
            Navy Federal Credit Union,                 Instrument for
3/10/2010                                Purchase                       $60,780,000            N/A                                                                                                             $58,469    $259,940         $220,469              $538,877
            Vienna, VA                                 Home Loan                                                                                                 Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011             ($26)    $16,971,456
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($238)    $16,971,218
                                                                                                                                                                 reallocation
                                                                                                                   7/14/2010         $400,000        $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $25,278        $725,278    Updated portfolio data from servicer
                                                       Financial
                                                                                                                    1/6/2011              ($1)       $725,277    Updated portfolio data from servicer
            Vist Financial Corp,                       Instrument for
3/10/2010                                Purchase                       $300,000               N/A                                                                                                                 $—           $—              $—                     $—
            Wyomissing, PA                             Home Loan                                                                                                 Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011              ($1)       $725,276
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($11)       $725,265
                                                                                                                                                                 reallocation
                                                                                                                   7/14/2010         $300,000        $600,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         ($19,778)       $580,222    Updated portfolio data from servicer

                                                       Financial                                                    1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
            Midwest Bank and Trust                     Instrument for                                                                                            Updated due to quarterly assessment and
4/14/2010                                Purchase                       $300,000               N/A                 3/30/2011              ($1)       $580,220                                                      $—          $636          $1,000                $1,636
            Co., Elmwood Park, IL                      Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)       $580,212
                                                                                                                                                                 reallocation
                                                                                                                   7/14/2011       ($580,212)              $—    Termination of SPA

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                       TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                      7/14/2010       ($150,000)      $6,400,000    Updated portfolio data from servicer
                                                                                                                      9/15/2010       $1,600,000      $8,000,000    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      ($4,352,173)     $3,647,827    Updated portfolio data from servicer
                                                          Financial
                                                                                                                       1/6/2011              ($5)     $3,647,822    Updated portfolio data from servicer
            Wealthbridge Mortgage                         Instrument for
4/14/2010                                   Purchase                       $6,550,000             N/A                                                                                                                 $—           $—              $—                     $—
            Corp, Beaverton, OR                           Home Loan                                                                                                 Updated due to quarterly assessment and
                                                          Modifications                                               3/30/2011              ($6)     $3,647,816
                                                                                                                                                                    reallocation
                                                                                                                      4/13/2011      ($3,000,000)       $647,816    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($9)       $647,807
                                                                                                                                                                    reallocation
                                                                                                                      5/26/2010          $30,000         $40,000    Updated FHA-HAMP cap
                                                          Financial
            Aurora Financial Group, Inc.,                 Instrument for                                              9/30/2010        $250,111         $290,111    Updated portfolio data from servicer
5/21/2010                                   Purchase                       $10,000                N/A         4, 8                                                                                                $13,462          $—          $14,455               $27,917
            Marlton, NJ                                   Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                      6/29/2011          $59,889        $350,000
                                                                                                                                                                    reallocation
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                      6/16/2010       $3,680,000      $3,680,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                      8/13/2010       $3,300,000      $6,980,000    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010       $3,043,831     $10,023,831    Updated portfolio data from servicer
                                                                                                                     10/15/2010       $1,400,000     $11,423,831    Transfer of cap due to servicing transfer
                                                                                                                       1/6/2011             ($17)    $11,423,814    Updated portfolio data from servicer
                                                          Financial                                                   3/16/2011       $2,100,000     $13,523,814    Transfer of cap due to servicing transfer
            Selene Finance LP,                            Instrument for
6/16/2010                                   Purchase                       $—                     N/A         9                                                     Updated due to quarterly assessment and        $8,333     $19,759           $8,500               $36,592
            Houston, TX                                   Home Loan                                                   3/30/2011             ($24)    $13,523,790
                                                          Modifications                                                                                             reallocation
                                                                                                                      4/13/2011       $2,900,000     $16,423,790    Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011       ($200,000)     $16,223,790    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($273)    $16,223,517
                                                                                                                                                                    reallocation
                                                                                                                     10/14/2011        $100,000      $16,323,517    Transfer of cap due to servicing transfer
                                                                                                                     11/16/2011       $1,100,000     $17,423,517    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010       $1,585,945      $2,465,945    Updated portfolio data from servicer

                                                          Financial                                                    1/6/2011              ($4)     $2,465,941    Updated portfolio data from servicer
            Suburban Mortgage
                                                          Instrument for                                                                                            Updated due to quarterly assessment and
8/4/2010    Company of New Mexico,          Purchase                       $880,000               N/A                 3/30/2011              ($4)     $2,465,937                                                      $—           $—              $—                     $—
                                                          Home Loan                                                                                                 reallocation
            Albequerque, NM
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($40)     $2,465,897
                                                                                                                                                                    reallocation
                                                                                                                      9/30/2010       $1,040,667      $1,740,667    Updated portfolio data from servicer
                                                                                                                       1/6/2011              ($2)     $1,740,665    Updated portfolio data from servicer
                                                          Financial
                                                                                                                                                                    Updated due to quarterly assessment and
            Bramble Savings Bank,                         Instrument for
8/20/2010                                   Purchase                       $700,000               N/A                 3/30/2011              ($3)     $1,740,662    reallocation                                      $—           $—              $—                     $—
            Cincinnati, OH                                Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($28)     $1,740,634    reallocation
                                                                                                                      8/10/2011      ($1,740,634)             $—    Termination of SPA
                                                                                                                      9/30/2010       $2,181,334      $3,481,334    Updated portfolio data from servicer

                                                          Financial                                                    1/6/2011              ($5)     $3,481,329    Updated portfolio data from servicer
            Pathfinder Bank, Oswego,                      Instrument for                                                                                            Updated due to quarterly assessment and
8/25/2010                                   Purchase                       $1,300,000             N/A                 3/30/2011              ($6)     $3,481,323                                                     $917       $1,470          $1,917                $4,303
            NY                                            Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($58)     $3,481,265
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I January 26, 2012




                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 277
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)                                                                                                                                                                          278
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                    9/30/2010       $7,014,337     $11,314,337    Updated portfolio data from servicer

                                                        Financial                                                    1/6/2011             ($17)    $11,314,320    Updated portfolio data from servicer
            First Financial Bank, N.A.,                 Instrument for                                                                                            Updated due to quarterly assessment and
8/27/2010                                 Purchase                       $4,300,000             N/A                 3/30/2011             ($20)    $11,314,300                                                      $—           $—              $—                     $—
            Terre Haute, ID                             Home Loan                                                                                                 reallocation
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($192)    $11,314,108
                                                                                                                                                                  reallocation
                                                                                                                    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer

                                                        Financial                                                    1/6/2011          $34,944        $180,000    Updated portfolio data from servicer
            RBC Bank (USA), Raleigh,                    Instrument for                                                                                            Updated due to quarterly assessment and
9/1/2010                                  Purchase                       $100,000               N/A         4, 8    3/30/2011          $40,000        $220,000                                                  $16,888          $—          $17,222               $34,110
            NC                                          Home Loan                                                                                                 reallocation
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011          $50,000        $270,000
                                                                                                                                                                  reallocation
                                                                                                                    9/30/2010       $5,168,169      $8,268,169    Updated portfolio data from servicer
                                                                                                                     1/6/2011             ($12)     $8,268,157    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($15)     $8,268,142
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I January 26, 2012




                                                        Financial                                                   4/13/2011        $400,000       $8,668,142    Transfer of cap due to servicing transfer
            Fay Servicing, LLC,                         Instrument for
9/3/2010                                  Purchase                       $3,100,000             N/A                                                               Updated due to quarterly assessment and       $25,833     $69,594          $26,667              $122,094
            Chicago, IL                                 Home Loan                                                   6/29/2011            ($143)     $8,667,999
                                                                                                                                                                  reallocation
                                                        Modifications
                                                                                                                    9/15/2011        $700,000       $9,367,999    Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011        $100,000       $9,467,999    Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011        $200,000       $9,667,999    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $1,700,000     $11,367,999    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2010       $1,000,000      $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $450,556       $1,450,556    Updated portfolio data from servicer
                                                                                                                     1/6/2011              ($2)     $1,450,554    Updated portfolio data from servicer
                                                                                                                    2/16/2011       $3,000,000      $4,450,554    Transfer of cap due to servicing transfer
                                                        Financial
                                                                                                                    3/16/2011      $10,200,000     $14,650,554    Transfer of cap due to servicing transfer
            Vericrest Financial, Inc.,                  Instrument for
9/15/2010                                 Purchase                       $—                     N/A         9                                                                                                   $83,926    $263,567         $331,060              $678,553
            Oklahoma City, OK                           Home Loan                                                                                                 Updated due to quarterly assessment and
                                                        Modifications                                               3/30/2011             ($24)    $14,650,530
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($227)    $14,650,303
                                                                                                                                                                  reallocation
                                                                                                                    7/14/2011      $12,000,000     $26,650,303    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $4,100,000     $30,750,303    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $180,222         $580,222    Updated portfolio data from servicer

                                                        Financial                                                    1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
            Midwest Community Bank,                     Instrument for                                                                                            Updated due to quarterly assessment and
9/15/2010                                 Purchase                       $400,000               N/A                 3/30/2011              ($1)       $580,220                                                      $—           $—              $—                     $—
            Freeport, IL                                Home Loan                                                                                                 reallocation
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($8)       $580,212
                                                                                                                                                                  reallocation
                                                        Financial                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            American Finance House                      Instrument for
9/24/2010                                 Purchase                       $100,000               N/A                                                                                                                 $—           $—              $—                     $—
            LARIBA, Pasadena, CA                        Home Loan                                                    2/2/2011       ($145,056)              $—    Termination of SPA
                                                        Modifications

                                                        Financial                                                   9/30/2010        $856,056       $2,756,056    Updated portfolio data from servicer
                                                        Instrument for
9/24/2010   Centrue Bank, Ottawa, IL      Purchase                       $1,900,000             N/A                  1/6/2011              ($4)     $2,756,052    Updated portfolio data from servicer              $—           $—              $—                     $—
                                                        Home Loan
                                                        Modifications                                                3/9/2011      ($2,756,052)             $—    Termination of SPA
                                                        Financial                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                   Instrument for
9/30/2010                                 Purchase                       $100,000               N/A                                                                                                                 $—           $—              $—                     $—
            Columbia, SC                                Home Loan                                                   3/23/2011       ($145,056)              $—    Termination of SPA
                                                        Modifications

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                     TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                 Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing               Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note            Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            Amarillo National Bank,                       Instrument for
9/30/2010                                   Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
            Amarillo, TX                                  Home Loan                                                     6/29/2011               ($1)       $145,055
                                                          Modifications                                                                                                reallocation

                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            American Financial
                                                          Instrument for
9/30/2010   Resources Inc., Parsippany,     Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
                                                          Home Loan                                                     6/29/2011               ($1)       $145,055
            NJ                                                                                                                                                         reallocation
                                                          Modifications
                                                                                                                        9/30/2010         $765,945       $2,465,945    Updated portfolio data from servicer

                                                          Financial                                                      1/6/2011               ($3)     $2,465,942    Updated portfolio data from servicer
            Banco Popular de Puerto                       Instrument for                                                                                               Updated due to quarterly assessment and
9/30/2010                                   Purchase                       $1,700,000             N/A         4, 5, 8   3/30/2011               ($4)     $2,465,938                                                    $—           $—              $—                     $—
            Rico, San Juan, PR                            Home Loan                                                                                                    reallocation
                                                          Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($36)     $2,465,902
                                                                                                                                                                       reallocation
                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            Capital International
                                                          Instrument for
9/30/2010   Financial, Inc., Coral          Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
                                                          Home Loan                                                     6/29/2011               ($1)       $145,055
            Gables, FL                                                                                                                                                 reallocation
                                                          Modifications

                                                          Financial                                                     9/30/2010         $360,445       $1,160,445    Updated portfolio data from servicer
            Citizens Community Bank,                      Instrument for
9/24/2010                                   Purchase                       $800,000               N/A                    1/6/2011               ($2)     $1,160,443    Updated portfolio data from servicer            $—           $—              $—                     $—
            Freeburg, IL                                  Home Loan
                                                          Modifications                                                 3/23/2011       ($1,160,443)             $—    Termination of SPA
                                                                                                                        9/30/2010         $901,112       $2,901,112    Updated portfolio data from servicer

                                                          Financial                                                      1/6/2011               ($4)     $2,901,108    Updated portfolio data from servicer
            Community Credit Union of                     Instrument for                                                                                               Updated due to quarterly assessment and
9/30/2010                                   Purchase                       $2,000,000             N/A         6         3/30/2011               ($5)     $2,901,103                                                    $—           $—              $—                     $—
            Florida, Rockledge, FL                        Home Loan                                                                                                    reallocation
                                                          Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($48)     $2,901,055
                                                                                                                                                                       reallocation
                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            CU Mortgage Services,                         Instrument for
9/30/2010                                   Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
            Inc., New Brighton, MN                        Home Loan                                                     6/29/2011               ($1)       $145,055
                                                          Modifications                                                                                                reallocation

                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            First Federal Bank of                         Instrument for
9/30/2010                                   Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
            Florida, Lake City, FL                        Home Loan                                                     6/29/2011               ($1)       $145,055
                                                          Modifications                                                                                                reallocation

                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            First Mortgage Coporation,                    Instrument for
9/30/2010                                   Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
            Diamond Bar, CA                               Home Loan                                                     6/29/2011               ($1)       $145,055
                                                          Modifications                                                                                                reallocation

                                                          Financial                                                     9/30/2010         $180,222         $580,222    Updated portfolio data from servicer
                                                          Instrument for
9/30/2010   First Safety Bank, Cincinnati   Purchase                       $400,000               N/A                    1/6/2011               ($1)       $580,221    Updated portfolio data from servicer            $—           $—              $—                     $—
                                                          Home Loan
                                                          Modifications                                                 3/23/2011        ($580,221)              $—    Termination of SPA
                                                                                                                        9/30/2010         $360,445       $1,160,445    Updated portfolio data from servicer

                                                          Financial                                                      1/6/2011               ($2)     $1,160,443    Updated portfolio data from servicer
            Flagstar Capital Markets                      Instrument for                                                                                               Updated due to quarterly assessment and
9/30/2010                                   Purchase                       $800,000               N/A         7, 8      3/30/2011               ($2)     $1,160,441                                                    $—           $—              $—                     $—
            Corporation, Troy, MI                         Home Loan                                                                                                    reallocation
                                                          Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($18)     $1,160,423
                                                                                                                                                                       reallocation
                                                                                                                        9/30/2010         $765,945       $2,465,945    Updated portfolio data from servicer

                                                          Financial                                                      1/6/2011               ($4)     $2,465,941    Updated portfolio data from servicer
            Franklin Savings, Cincinnati,                 Instrument for                                                                                               Updated due to quarterly assessment and
9/30/2010                                   Purchase                       $1,700,000             N/A         4         3/30/2011               ($4)     $2,465,937                                                    $—          $503          $1,000                $1,503
            OH                                            Home Loan                                                                                                    reallocation
                                                          Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I January 26, 2012




                                                                                                                        6/29/2011              ($40)     $2,465,897
                                                                                                                                                                       reallocation

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  279
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)                                                                                                                                                                        280
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                     TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                              Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Gateway Mortgage Group,                    Instrument for
9/30/2010                                Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and         $—           $—              $—                     $—
            LLC, Tulsa, OK                             Home Loan                                                  6/29/2011               ($1)       $145,055
                                                       Modifications                                                                                             reallocation

                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            GFA Federal Credit Union,                  Instrument for
9/30/2010                                Purchase                       $100,000               N/A                                                                                                               $—           $—              $—                     $—
            Gardner, MA                                Home Loan                                                  3/23/2011        ($145,056)              $—    Termination of SPA
                                                       Modifications
                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Guaranty Bank, Saint                       Instrument for
9/30/2010                                Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and        $917          $—           $1,000                $1,917
            Paul, MN                                   Home Loan                                                  6/29/2011               ($1)       $145,055
                                                       Modifications                                                                                             reallocation

                                                                                                                  9/30/2010         $135,167         $435,167    Updated portfolio data from servicer

                                                       Financial                                                   1/6/2011               ($1)       $435,166    Updated portfolio data from servicer
            James B. Nutter &                          Instrument for                                                                                            Updated due to quarterly assessment and
9/24/2010                                Purchase                       $300,000               N/A         4, 8   3/30/2011               ($1)       $435,165                                                   $750          $—           $1,000                $1,750
            Company, Kansas City, MO                   Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011               ($6)       $435,159
                                                                                                                                                                 reallocation
                                                                                                                  9/30/2010         $450,556       $1,450,556    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I January 26, 2012




                                                       Financial                                                   1/6/2011               ($2)     $1,450,554    Updated portfolio data from servicer
            Liberty Bank and Trust Co,                 Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                Purchase                       $1,000,000             N/A                3/30/2011               ($2)     $1,450,552                                                    $—           $—              $—                     $—
            New Orleans, LA                            Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($23)     $1,450,529
                                                                                                                                                                 reallocation
                                                                                                                  9/30/2010         $315,389       $1,015,389    Updated portfolio data from servicer

                                                       Financial                                                   1/6/2011               ($1)     $1,015,388    Updated portfolio data from servicer
                                                       Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010   M&T Bank, Buffalo, NY        Purchase                       $700,000               N/A         4, 8   3/30/2011               ($1)     $1,015,387                                                $20,402          $—          $21,319               $41,721
                                                       Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($11)     $1,015,376
                                                                                                                                                                 reallocation
                                                                                                                  9/30/2010         $630,778       $2,030,778    Updated portfolio data from servicer

                                                       Financial                                                   1/6/2011               ($3)     $2,030,775    Updated portfolio data from servicer
            Magna Bank, Germantown,                    Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                Purchase                       $1,400,000             N/A         5      3/30/2011               ($3)     $2,030,772                                                    $—           $—              $—                     $—
            TN                                         Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($33)     $2,030,739
                                                                                                                                                                 reallocation

                                                       Financial                                                  9/30/2010         $225,278         $725,278    Updated portfolio data from servicer
            Mainstreet Credit Union,                   Instrument for
9/30/2010                                Purchase                       $500,000               N/A                 1/6/2011               ($1)       $725,277    Updated portfolio data from servicer            $—           $—              $—                     $—
            Lexena, KS                                 Home Loan
                                                       Modifications                                               3/9/2011        ($725,277)              $—    Termination of SPA
                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Marsh Associates, Inc.,                    Instrument for
9/30/2010                                Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and        $198                         $238                  $436
            Charlotte, NC                              Home Loan                                                  6/29/2011               ($1)       $145,055
                                                       Modifications                                                                                             reallocation

                                                                                                                  9/30/2010       $49,915,806     $93,415,806    Updated portfolio data from servicer

                                                       Financial                                                   1/6/2011            ($125)     $93,415,681    Updated portfolio data from servicer
            Midland Mortgage                           Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                Purchase                       $43,500,000            N/A         4, 5   3/30/2011            ($139)     $93,415,542                                               $803,685     $56,660         $976,019            $1,836,365
            Company, Oklahoma, OK                      Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011           ($1,223)    $93,414,319
                                                                                                                                                                 reallocation
                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Schmidt Mortgage                           Instrument for
9/30/2010                                Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and         $—           $—              $—                     $—
            Company, Rocky River, OH                   Home Loan                                                  6/29/2011               ($1)       $145,055
                                                       Modifications                                                                                             reallocation


                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                         Financial                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
             Stockman Bank of Montana,                   Instrument for
9/30/2010                                  Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and           $—           $—              $—                     $—
             Miles City, MT                              Home Loan                                                   6/29/2011              ($1)       $145,055
                                                         Modifications                                                                                             reallocation

                                                         Financial                                                   9/30/2010        $270,334         $870,334    Updated portfolio data from servicer
             University First Federal
                                                         Instrument for
9/30/2010    Credit Union, Salt Lake       Purchase                       $600,000               N/A                  1/6/2011              ($1)       $870,333    Updated portfolio data from servicer              $—           $—              $—                     $—
                                                         Home Loan
             City, UT
                                                         Modifications                                               2/17/2011       ($870,333)              $—    Termination of SPA
                                                         Financial                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
             Weststar Mortgage, Inc.,                    Instrument for
9/30/2010                                  Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and           $—           $—              $—                     $—
             Woodbridge, VA                              Home Loan                                                   6/29/2011              ($1)       $145,055
                                                         Modifications                                                                                             reallocation

                                                                                                                    12/15/2010       $5,000,000      $5,000,000    Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($7)     $4,999,993    Updated portfolio data from servicer
                                                                                                                     2/16/2011        $500,000       $5,499,993    Transfer of cap due to servicing transfer
                                                         Financial
                                                                                                                     3/16/2011        $100,000       $5,599,993    Transfer of cap due to servicing transfer
             Statebridge Company, LLC,                   Instrument for
12/15/2010                                 Purchase                       $—                     N/A         9                                                                                                       $—           $—              $—                     $—
             Denver, CO                                  Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011              ($9)     $5,599,984
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($85)     $5,599,899
                                                                                                                                                                   reallocation
                                                                                                                    11/16/2011      ($2,500,000)     $3,099,899    Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010       $4,300,000      $4,300,000    Updated portfolio data from servicer
                                                         Financial
             Scotiabank de Puerto Rico,                  Instrument for                                               1/6/2011              ($4)     $4,299,996    Updated portfolio data from servicer
12/15/2010                                 Purchase                       $—                     N/A         9                                                                                                  $184,416    $251,733         $217,029              $653,178
             San Juan, PR                                Home Loan
                                                         Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($5)     $4,299,991
                                                                                                                                                                   reallocation
                                                                                                                     4/13/2011        $200,000         $200,000    Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011        $100,000         $300,000    Transfer of cap due to servicing transfer
                                                         Financial
             AmTrust Bank, A Division of
                                                         Instrument for                                              6/16/2011        $300,000         $600,000    Transfer of cap due to servicing transfer
4/13/2011    New York Community Bank,      Purchase                       $—                     N/A         9                                                                                                    $6,000     $23,505          $13,000               $42,505
                                                         Home Loan
             Cleveland, OH                                                                                                                                         Updated due to quarterly assessment and
                                                         Modifications                                               6/29/2011              ($9)       $599,991
                                                                                                                                                                   reallocation
                                                                                                                     8/16/2011        $200,000         $799,991    Transfer of cap due to servicing transfer
                                                         Financial
                                                         Instrument for
4/13/2011    SunTrust Mortgage, Inc.       Purchase                       $—                     N/A         9       4/13/2011        $100,000         $100,000    Transfer of cap due to servicing transfer         $—           $—              $—                     $—
                                                         Home Loan
                                                         Modifications
                                                                                                                     4/13/2011       $1,000,000      $1,000,000    Transfer of cap due to servicing transfer
                                                         Financial
             Urban Partnership Bank,                     Instrument for                                                                                            Updated due to quarterly assessment and
4/13/2011                                  Purchase                       $—                     N/A         9       6/29/2011        $233,268       $1,233,268                                                  $53,755    $121,594          $55,831              $231,180
             Chicago, IL                                 Home Loan                                                                                                 reallocation
                                                         Modifications
                                                                                                                    11/16/2011        $100,000       $1,333,268    Transfer of cap due to servicing transfer
                                                         Financial                                                   4/13/2011        $200,000         $200,000    Transfer of cap due to servicing transfer
             Western Federal Credit                      Instrument for
4/13/2011                                  Purchase                       $—                     N/A         9                                                     Updated due to quarterly assessment and        $5,500     $15,790           $8,917               $30,206
             Union, Hawthorne, CA                        Home Loan                                                   6/29/2011          $17,687        $217,687
                                                         Modifications                                                                                             reallocation

                                                                                                                     5/13/2011        $500,000         $500,000    Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011        $100,000         $600,000    Transfer of cap due to servicing transfer
                                                         Financial                                                                                                 Updated due to quarterly assessment and
             FCI Lender Services, Inc.,                  Instrument for                                              6/29/2011              ($9)       $599,991
5/13/2011                                  Purchase                       $—                     N/A         9                                                     reallocation                                   $6,109     $11,869           $6,300               $24,278
             Anaheim Hills, CA                           Home Loan
                                                         Modifications                                               7/14/2011        $200,000         $799,991    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011        $100,000         $899,991    Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       $2,500,000      $3,399,991    Transfer of cap due to servicing transfer
                                                         Financial                                                   7/14/2011        $200,000         $200,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I January 26, 2012




             Gregory Funding, LLC,                       Instrument for
7/14/2011                                  Purchase                       $—                     N/A         9                                                                                                   $24,160     $51,601          $25,391              $101,152
             Beaverton, OR                               Home Loan                                                  11/16/2011        $900,000       $1,100,000    Transfer of cap due to servicing transfer
                                                         Modifications

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                281
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                          (CONTINUED)                                                                                                                                                                                                                 282
                 Servicer Modifying Borrowers’ Loans                                                                                                                     Adjustment Details                                                                           TARP Incentive Payments
                                                                                Cap of Investment
                                                                                Payments on Behalf
                                                                                of Borrowers and to                                                                                                                                                                    Lenders/                                  Total TARP
                                              Transaction     Investment        Servicers & Lenders/      Pricing                  Adjustment       Cap Adjustment                                                                                Borrower’s           Investors           Servicers               Incentive
Date           Name of Institution            Type            Description       Investors (Cap)1          Mechanism       Note           Date              Amount         Adjusted Cap      Reason for Adjustment                                 Incentives          Incentives          Incentives              Payments
                                                              Financial
                                                              Instrument for
9/15/2011      Bangor Savings Bank            Purchase                          $—                        N/A             9         9/15/2011               $100,000           $100,000     Transfer of cap due to servicing transfer                   $—                    $—                  $—                     $—
                                                              Home Loan
                                                              Modifications
                                                              Financial
                                                              Instrument for
9/15/2011      PHH Mortgage Corporation       Purchase                          $—                         N/A            9         9/15/2011            $1,300,000          $1,300,000     Transfer of cap due to servicing transfer                   $—                    $—                  $—                     $—
                                                              Home Loan
                                                              Modifications
                                                              Financial
               Rushmore Loan                                  Instrument for
12/15/2011                                    Purchase                          $—                         N/A            9        12/15/2011               $200,000           $200,000     Transfer of cap due to servicing transfer                   $—                    $—                  $—                     $—
               Management Services LLC                        Home Loan
                                                              Modifications
                                                            Total Initial Cap        $23,831,570,000                    Total Cap Adjustment       $6,052,054,458                                                                   Totals   $416,715,227      $1,076,094,323        $763,471,955         $2,256,281,504
                                                                                             Total Cap                                           $29,883,624,458

Note: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes are taken verbatim from Treasury’s 12/27/2011, Transacations Report-Housing Programs.

1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and
   individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	 On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
                                                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I January 26, 2012




 	 Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
 	 Initial cap amount includes FHA-HAMP.
5
 	 Initial cap amount includes RD-HAMP.
6
 	 Initial cap amount includes 2MP.
7
 	 Initial cap amount includes FHA-2LP.
8
 	 Initial cap does not include HAMP.
9
 	 This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	The amendment reflects a change in the legal name of the institution.
11
  	MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 2/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
  	The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, Inc. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior prior to such merger.  
14
  	In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.  

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program

Source: Treasury, Transactions Report-Housing Programs, 12/27/2011



Table D.13

HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011
                      Seller

                                                                                                    Transaction                                              Initial Investment     Additional Investment             Investment Pricing
Note    Trade Date    Name of Institution                                                           Type             Investment Description                   Amount                              Amount                 Amount1 Mechanism
        6/23/2010                                                                                                    Financial Instrument for HHF Program    $102,800,000                                 —                        N/A
2       9/23/2010     Nevada Affordable Housing Assistance Corporation, Reno, NV                    Purchase         Financial Instrument for HHF Program    —                                $34,056,581          $194,026,240 N/A
3       9/29/2010                                                                                                    Financial Instrument for HHF Program    —                                $57,169,659                          N/A
        6/23/2010                                                                                                    Financial Instrument for HHF Program    $699,600,000                                 —                        N/A
2       9/23/2010     CalHFA Mortgage Assistance Corporation, Sacramento, CA                        Purchase         Financial Instrument for HHF Program    —                               $476,257,070       $1,975,334,096 N/A
3       9/29/2010                                                                                                    Financial Instrument for HHF Program    —                               $799,477,026                          N/A
        6/23/2010                                                                                                    Financial Instrument for HHF Program    $418,000,000                                 —                        N/A
2       9/23/2010     Florida Housing Finance Corporation, Tallahassee, FL                          Purchase         Financial Instrument for HHF Program    —                               $238,864,755       $1,057,839,136 N/A
3       9/29/2010                                                                                                    Financial Instrument for HHF Program    —                               $400,974,381                          N/A
        6/23/2010                                                                                                    Financial Instrument for HHF Program    $125,100,000                                 —                        N/A
                      Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ        Purchase                                                                                                       $267,766,006
3       9/29/2010                                                                                                    Financial Instrument for HHF Program    —                               $142,666,006                          N/A

                                                                                                                                                                                                                         continued on next page
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011                                                                                               (continued)

                         Seller
                                                                                                       Transaction                                            Initial Investment   Additional Investment        Investment Pricing
Note       Trade Date    Name of Institution                                                           Type            Investment Description                  Amount                            Amount            Amount1 Mechanism
           6/23/2010                                                                                                   Financial Instrument for HHF Program   $154,500,000                           —                       N/A
2          9/23/2010     Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI      Purchase        Financial Instrument for HHF Program   —                           $128,461,559        $498,605,738 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $215,644,179                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $159,000,000                           —                       N/A
2          9/23/2010     North Carolina Housing Finance Agency, Raleigh, NC                            Purchase        Financial Instrument for HHF Program   —                           $120,874,221        $482,781,786 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $202,907,565                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $172,000,000                           —                       N/A
2          9/23/2010     Ohio Homeowner Assistance LLC, Columbus, OH                                   Purchase        Financial Instrument for HHF Program   —                           $148,728,864        $570,395,099 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $249,666,235                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $88,000,000                            —                       N/A
2          9/23/2010     Oregon Affordable Housing Assistance Corporation, Salem, OR                   Purchase        Financial Instrument for HHF Program   —                            $49,294,215        $220,042,786 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $82,748,571                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $43,000,000                            —                       N/A
2          9/23/2010     Rhode Island Housing and Mortgage Finance Corporation, Providence, RI         Purchase        Financial Instrument for HHF Program   —                            $13,570,770         $79,351,573 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $22,780,803                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $138,000,000                           —                       N/A
2          9/23/2010     SC Housing Corp, Columbia, SC                                                 Purchase        Financial Instrument for HHF Program   —                            $58,772,347        $295,431,547 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $98,659,200                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $60,672,471                            —                       N/A
                         Alabama Housing Finance Authority, Montgomery, AL                             Purchase                                                                                               $162,521,345
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $101,848,874                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $55,588,050                            —                       N/A
                         Kentucky Housing Corporation, Frankfort, KY                                   Purchase                                                                                               $148,901,875
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $93,313,825                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $38,036,950                            —                       N/A
                         Mississippi Home Corporation, Jackson, MS                                     Purchase                                                                                               $101,888,323
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $63,851,373                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $126,650,987                           —                       N/A
                         GHFA Affordable Housing, Inc., Atlanta, GA                                    Purchase                                                                                               $339,255,819
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $212,604,832                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $82,762,859                            —                       N/A
                         Indiana Housing and Community Development Authority, Indianapolis, IN         Purchase                                                                                               $221,694,139
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $138,931,280                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $166,352,726                           —                       N/A
                         Illinois Housing Development Authority, Chicago, IL                           Purchase                                                                                               $445,603,557
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $279,250,831                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $112,200,637                           —                       N/A
                         New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                   Purchase                                                                                               $300,548,144
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $188,347,507                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $7,726,678                             —                       N/A
                         District of Columbia Housing Finance Agency, Washington, DC                   Purchase                                                                                                $20,697,198
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $12,970,520                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $81,128,260                            —                       N/A
                         Tennessee Housing Development Agency, Nashville, TN                           Purchase                                                                                               $217,315,593
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $136,187,333                       N/A
                                                                                                                                                              Total Investment Amount                      $7,600,000,000

Notes: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes are taken directly from Treasury’s 12/27/2011 Transactions Report-Housing Programs.

1
    The purchase will be incrementally funded up to the investment amount.
2
    On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
    On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 12/27/2011.
                                                                                                                                                                                                                                       Transaction detail I Appendix D I January 26, 2012
                                                                                                                                                                                                                                       283
Table D.14                                                                                                                                                                                                                                                                             284

FHA SHORT REFINANCE PROGRAM, AS OF 12/31/2011
                                     Seller
Note           Trade Date            Name                      Transaction Type          Investment Description                                                                                                               Investment Amount        Pricing Mechanism
                                     Citigroup, Inc., New                                Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and
1              9/3/2010                                        Purchase                                                                                                                                                            $8,117,000,000      N/A
                                     York, NY                                            Citibank, N.A
                                                                                                                                                                                        TOTAL INVESTMENT                         $8,117,000,000

 Notes: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes are taken verbatim from Treasury’s 12/27/2011, Transactions Report-Housing Programs.

 1
      n September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the
     O
     “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the
     then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

 Source: Treasury, Transactions Report-Housing Programs, 12/27/2011.
                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I January 26, 2012
                                                 Cross-Reference of Report to the Inspector General Act of 1978 | Appendix E I January 26, 2012                    285




Cross-Reference of Report to the Inspector General
Act of 1978
This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
(P.L. 95-452), as amended, 5 U.S.C. APP.

 Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                               Report Reference
 Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies      Section 1: “The Office of the SIGTARP”
 5(a)(1)    deficiencies...”                                        from SIGTARP audits and investigations.      Section 4: “SIGTARP Recommendations”
            “Description of recommendations for corrective
 Section                                                            List recommendations from SIGTARP            Section 1: “The Office of the SIGTARP”
            action…with respect to significant problems,
 5(a)(2)                                                            audits and investigations.                   Section 4: “SIGTARP Recommendations”
            abuses, or deficiencies...”
            “Identification of each significant recommendation      List all instances of incomplete
 Section
            described in previous semiannual reports on which       corrective action from previous              Section 4: “SIGTARP Recommendations”
 5(a)(3)
            corrective action has not been completed...”            semiannual reports.
            “A summary of matters referred to prosecutive
 Section                                                            List status of SIGTARP investigations
            authorities and the prosecutions and convictions                                                     Section 1: “The Office of the SIGTARP”
 5(a)(4)                                                            referred to prosecutive authorities.
            which have resulted...”
            “A summary of each report made to the [Treasury
 Section    Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,     Appendix G: “Key Oversight Reports and
 5(a)(5)    where information requested was refused or not          GAO, and SIGTARP.                            Testimony”
            provided).
            “A listing, subdivided according to subject matter,
 Section    of each audit report issued...” showing dollar value
                                                                    List SIGTARP audits.                         Section 1: “The Office of the SIGTARP”
 5(a)(6)    of questioned costs and recommendations that
            funds be put to better use.
 Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                 Section 1: “The Office of the SIGTARP”
 5(a)(7)    report...”                                              SIGTARP audits.
            “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
 Section                                                                                                         Section 1: “The Office of the SIGTARP”
            reports and the total dollar value of questioned        value of questioned costs from SIGTARP
 5(a)(8)                                                                                                         Section 4: “SIGTARP Recommendations”
            costs...”                                               audits.
                                                                                                                 As detailed in Section 1: “The Office of the
            “Statistical tables showing the total number of audit   Provide statistical tables showing dollar    SIGTARP,” SIGTARP has made important
 Section
            reports and the dollar value of recommendations         value of funds put to better use by          findings in its audit reports. However, to date
 5(a)(9)
            that funds be put to better use by management...”       management from SIGTARP audits.              SIGTARP’s audits have not included funds put
                                                                                                                 to better use findings.
            “A summary of each audit report issued before
            the commencement of the reporting period for
                                                                    Provide a synopsis of significant
            which no management decision has been made by
 Section                                                            SIGTARP audit reports in which               Section 1: “The Office of the SIGTARP”
            the end of reporting period, an explanation of the
 5(a)(10)                                                           recommendations by SIGTARP are               Section 4: “SIGTARP Recommendations”
            reasons such management decision has not been
                                                                    still open.
            made, and a statement concerning the desired
            timetable for achieving a management decision...”
                                                                    Explain audit reports in which significant
 Section    “A description and explanation of the reasons for                                                    Section 1: “The Office of the SIGTARP”
                                                                    revisions have been made to manage-
 5(a)(11)   any significant revised management decision...”                                                      Section 4: “SIGTARP Recommendations”
                                                                    ment decisions.
            “Information concerning any significant manage-
 Section                                                            Provide information where management         Section 1: “The Office of the SIGTARP”
            ment decision with which the Inspector General is
 5(a)(12)                                                           disagreed with a SIGTARP audit finding.      Section 4: “SIGTARP Recommendations”
            in disagreement...”
286           Appendix F I public announcements of audits I January 26, 2012




      PUBLIC ANNOUNCEMENTS OF AUDITS
      This appendix provides an announcement of new and                        Federal Reserve OIG2
      ongoing public audits by the agencies listed below. See                  Ongoing Audits
      Appendix G: “Key Oversight Reports and Testimony” for a                  •	 None
      listing of published reports. Italic style indicates narrative
      taken verbatim from the agencies’ responses to SIGTARP’s                 GAO3
      data call.                                                               Ongoing Audits
      •	 U.S. Department of Treasury Office of Inspector General               •	 Updated review of CPP, examining the status of the overall
          (“Treasury OIG”)                                                        program and the condition of the institutions remaining in
      •	 Federal Reserve Board Office of Inspector General                        the program, expected in March.
          (“Federal Reserve OIG”)                                              •	 AIG Indicator report after fourth quarter filings expected in
      •	 Government Accountability Office (“GAO”)                                 May.
      •	 Federal Deposit Insurance Corporation Office of                       •	 Updated review of HAMP expected in July.
          Inspector General (“FDIC OIG”)
                                                                               FDIC OIG4
      Treasury OIG1                                                            Ongoing Audits
      Ongoing Audits                                                           •	 None
      The Office of Small Business Lending Fund Program
      Oversight initiated the following audits in October 2011.                Endnotes
                                                                               1
                                                                                	 Treasury OIG, response to SIGTARP data call, 1/3/2012.
      •	 “Accuracy of Initial Dividend Rates Set for Financial                 2
                                                                                	 Federal Reserve OIG, response to SIGTARP data call, 1/5/2012.
         Institutions Participating in the Small Business Lending              3
                                                                                	 GAO, response to SIGTARP data call, 1/4/2012.
         Fund.” The audit will determine whether qualified small               4
                                                                                	 FDIC OIG, response to SIGTARP data call, 12/21/2011.

         business lending volumes, reported by former TARP banks
         and other institutions for purposes of establishing initial
         dividend rates, are accurate.
      •	 “Investment Decisions Involving the Small Business
         Lending Fund.” The audit, which will review decisions for
         former TARP and non-TARP banks, determine whether
         Treasury consistently approved institutions, gave adequate
         consideration to institutions that were not approved and
         asked to withdraw their applications, and had adequate
         bases when denying funding.
                                                                            key oversight reports and testimonY I Appendix g I January 26, 2012             287




KEY OVERSIGHT REPORTS AND TESTIMONY
This list reflects TARP-related reports and testimony published in the quarter ended December 31, 2011.
See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.


 U.S. DEPARTMENT OF THE TREASURY (Treasury)
 ROLES AND MISSION
 The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
 promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury ad-
 vises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial institutions.
 OVERSIGHT REPORTS
 Treasury, Transactions Report, 9/29/2011 – 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/
 default.aspx, accessed 1/4/2012. (released weekly)
 Treasury, Daily TARP Update, 9/30/2011 – 1/4/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
 Pages/default.aspx, accessed 1/4/2012.
 Treasury, TARP Monthly 105(a) Report, 9/12/2011 – 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/
 default.aspx, accessed 1/16/2012.
 Treasury, Dividends and Interest Report, 9/12/2011 – 1/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/
 reports/dividends-interest/Pages/default.aspx, accessed 1/16/2012. (released monthly)
 Treasury, Making Home Affordable Program Report, 9/1/2011 – 1/9/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/Pages/
 default.aspx, accessed 1/16/2012. (released monthly)
 Treasury, HAMP Activity by Metropolitan Statistical Area, 9/1/2011 – 1/9/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
 Pages/default.aspx, accessed 1/16/2012. (released monthly)
 Treasury, “The Department of the Treasury Office of Financial Stability – Troubled Asset Relief Program – Agency Financial Report,” 11/10/2011,
 www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 1/4/2012.
 Treasury, “Troubled Asset Relief Program: Three Year Anniversary Report,” October 2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
 reports/agency_reports/Documents/TARP%20Three%20Year%20Anniversary%20Report.pdf, accessed 1/4/2012.


 GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
 ROLES AND MISSION
 GAO is tasked with performing ongoing oversight of TARP’s performance, including:
 •	 evaluating the characteristics of asset purchases and the disposition of assets acquired
 •	 assessing TARP’s efficiency in using the funds
 •	 evaluating compliance with applicable laws and regulations
 •	 assessing the efficiency of contracting procedures
 •	 auditing TARP’s annual financial statements and internal controls
 •	 submitting reports to Congress at least every 60 days.
 OVERSIGHT REPORTS
 GAO, “Financial Audit: Office of Financial Stability (Troubled Asset Relief Program) Fiscal Year 2011 and 2010 Financial Statements,” 11/10/2011,
 www.gao.gov/new.items/d12169.pdf, accessed 1/10/2012.
288               Appendix g I key oversight reports and testimonY I January 26, 2012




      SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
      ROLES AND MISSION

      Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
      the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).
      SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
      coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

      OVERSIGHT REPORTS
      SIGTARP, “Quarterly Report to Congress,” 10/27/2011,
      www.sigtarp.gov/reports/congress/2011/October2011_Quarterly_Report_to_Congress.pdf, accessed 1/4/2012.
      SIGTARP, “The Special Master’s Determinations for Executive Compensation of Companies Receiving Exceptional Assistance Under TARP,” January 2012.


      OFFICE OF MANAGEMENT AND BUDGET (OMB)
      ROLES AND MISSION

      OMB’s predominant mission is to assist the President in overseeing the preparation of the Federal budget and to supervise its administration in Executive
      Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and procedures,
      assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony, and proposed
      legislation are consistent with the President’s Budget and with Administration policies.
      In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of these
      areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and to reduce
      any unnecessary burdens on the public.

      OVERSIGHT REPORTS
      OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 11/8/2011, www.whitehouse.gov/sites/default/files/omb/reports/
      emergency-economic-stabilization-act-of-2008.pdf, accessed 1/4/2012.


      CONGRESSIONAL BUDGET OFFICE (CBO)
      ROLES AND MISSION

      CBO’s mandate is to provide Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array of
      programs covered by the Federal budget and the information and estimates required for the Congressional budget process.
      CBO assists the House and Senate Budget Committees and Congress more generally by preparing reports and analyses. In accordance with CBO’s
      mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.

      OVERSIGHT REPORTS
      CBO, “Report on the Troubled Asset Relief Program,” 12/16/2011, www.cbo.gov/ftpdocs/126xx/doc12611/12-16-TARP_report.pdf, accessed 1/4/2012.


      FEDERAL RESERVE BOARD (FEDERAL RESERVE)
      ROLES AND MISSION
      Federal Reserve’s duties fall into four general areas:
      •	 conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
         prices, and moderate long-term interest rates
      •	 supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the credit
         rights of consumers
      •	 maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
      •	 providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating
         the nation’s payments system.

      OVERSIGHT REPORTS
      Federal Reserve, “Review of the Failure of Legacy Bank,” 12/15/2011, www.federalreserve.gov/oig/files/Legacy_Bank_final_report_web.pdf, accessed
      1/10/2012.
      Note: Italic style indicates verbatim narrative taken from source documents.

      Sources: Treasury, www.treasury.gov, accessed 1/4/2012; GAO, www.gao.gov, accessed 1/4/2012; SIGTARP, www.sigtarp.gov, accessed 1/4/2012; CBO, www.cbo.gov, accessed 1/4/2012; OMB,
      www.whitehose.gov, accessed 1/4/2012; GAO, response to SIGTARP data call, 1/4/2012; Treasury, response to SIGTARP data call,1/5/2012; Federal Reserve, response to SIGTARP data call, 1/5/2012.
                                                                                   correspondence I Appendix h I January 26, 2012   289




correspondence
This appendix provides a copy of the following correspondence:

 Correspondence
 Date          From             To              Regarding
 11/23/2011    SIGTARP          Treasury        Hardest Hit Fund Information Security
 1/5/2012      Treasury         SIGTARP         Status Update on Recommendations in the SIGTARP Quarterly Report
290   Appendix h I correspondence I January 26, 2012
correspondence I Appendix h I January 26, 2012   291
292   Appendix h I correspondence I January 26, 2012
correspondence I Appendix h I January 26, 2012   293
294   Appendix h I correspondence I January 26, 2012
correspondence I Appendix h I January 26, 2012   295
296   Appendix h I correspondence I January 26, 2012
correspondence I Appendix h I January 26, 2012   297
298   Appendix h I correspondence I January 26, 2012
correspondence I Appendix h I January 26, 2012   299
300   Appendix h I correspondence I January 26, 2012
correspondence I Appendix h I January 26, 2012   301
organizational chart                                                                                                                                                                                                                                      302


                                                                                                          Special Inspector General
                                                                                                          Christy Romero (Deputy)

                                                                                                                                                                                                  EEO Program
                                                                                                                                                                                                    Manager
                                                                                                                                                                                                  Raymond Campbell
                                                                                                                Deputy Special
                                                                                                              Inspector General
                                                                                                               Christy Romero
                                          Chief of Staff                                                                             Senior Policy Advisor                  General Counsel
                                           Mia Levine                                                                                        Vacant                         Roderick Fillinger



                                                                                                                                                              Assistant Director           Director of
                                                                                                                                                             of Communications         Congressional Affairs
                                                                                                                                                                 Troy Gravitt            Joseph Cwiklinski
                                                                                                                                                                                                                                                          Appendix I I organizational chart I January 26, 2012




                         Deputy SIG –                                                                           Deputy SIG –                                                                               Deputy SIG –
                        Investigations                                                                           Audit and                                                                                  Operations
                        Scott Rebein                                                                            Evaluations
                                                                                                                                                                                                                Cathy Alix
                                                                                                                 Kurt Hyde


 Chief Investigative        ADSIG                                                                                Assistant                                           ADSIG − Special          ADSIG − HR                 ADSIG − CIO     ADSIG − CFO
      Counsel            Thomas Kelly                                                                           Deputy SIG –                                            Programs
                                                                                                                                                                                                  Sally Ruble                AJ Germek   Deborah Mathis
   Michael Rivera                                                                                                Audit and                                            Lynn Perkoski
                                                                                                                Evaluations
                          Investigative                                                                       Kimberley Caprio
Investigative Counsel      Operations



                                                HQ Operations



                                                   Hotline

                                                                       Director              Director              Director              Director              Director                Director
                                             Computer Forensics
                                                                   Leslyee Burgess          Alisa Davis         Brenda James           Craig Meklir           Eric Mader           Clayton Boyce



                                                                  Auditors & Analysts   Auditors & Analysts   Auditors & Analysts   Auditors & Analysts   Auditors & Analysts    Auditors & Analysts




    Note: SIGTARP organizational chart as of 1/26/2012.
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                        SIGTARP: Quarterly Report to Congress | January 26, 2012
                                                                                                            CT
                                                                                                       INSPE OR GE
                                                                                                AL                        N
                                                                                              CI




                                                                                                                          ER
                                                                                         E
                                                                                        SP




                                                                                                                             A L
                                                                                       TRO




                                                                                                                               M
                                                                                                                               RA
                                                                                        UB
                                                                                             LE




                                                                                                                          OG
                                                                                                  D
                                                                                                      ASS                 PR
                                                                                                            E T R ELIEF




SIGTARP
SIG-QR-12-01
                         Q1
                        2012
                                                                                   SIGTARP                                          Office of the Special Inspector General
                                                                                                                                    for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                Quarterly Report to Congress
SIGTARP@treasury.gov                                                                                                                                             January 26, 2012
www.SIGTARP.gov
